<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]

                          DEPARTMENT OF LABOR

   Prepared Statement of the National Association of Workforce Boards
    Chairman Specter, Ranking Member Harkin, and distinguished Members 
of the subcommittee, my name is Stephanie Powers, Chief Executive 
Officer of the National Association of Workforce Boards (NAWB). I am 
submitting this testimony on behalf of Leonard Wilson, Chairman of the 
Board of Directors of NAWB, and the Nation's workforce investment 
boards regarding fiscal year 2007 funding for programs authorized under 
the Workforce Investment Act (WIA). We appreciate this opportunity.
    Workforce Investment Boards (WIBs).--The Nation's 589 local, and 52 
State workforce boards provide strategic guidance and leadership for 
the design and implementation of the Nation's workforce investment 
system, which includes 2,000 comprehensive One-Stop Career Centers. The 
boards have approximately 13,000 private sector members who volunteer 
their time to insure that the workforce investment programs are 
connected with community economic development priorities and employers' 
needs.
    The Workforce Challenge in the United States.--More than at any 
time in our history, the American workplace demands a competitive and 
responsive workforce. The complex interplay of technology and 
globalization, coupled with profound demographic changes, have set in 
motion a set of difficult challenges to our economic prosperity. 
Business, political leaders, and policy experts often disagree as to 
the proper mix of monetary, trade, taxation, and regulatory policy to 
ensure prosperity in the years ahead. Nonetheless, virtually all the 
experts, public and private, agree that a key ingredient to our 
economic success lies in the capacity of the American workforce to 
offer knowledge, skills and innovation to the economy. Yet, the 
administration continues to propose potentially devastating reductions 
in funding, and policy changes for the Nation's workforce investment 
system that, if adopted, would virtually eliminate our workforce 
preparation infrastructure, and decimate United States efforts to 
maintain a skilled workforce.
    As your Committee examines the President's fiscal year 2007 budget 
proposal, and deliberates over workforce investment and employment 
services funding, the National Association of Workforce Boards 
respectfully asks that you: (1) Weigh the potentially devastating 
impact of the administration's budget and policy recommendations for 
WIA and the Wagner-Peyser Act; (2) Decide instead to enhance and build 
on strengths of locally-based, private sector-led Workforce Investment 
system and its successes; and (3) Invest, not disinvest in the Nation's 
workforce development system, funding programs authorized under WIA and 
the Wagner-Peyser Act at not less than the fiscal year 2005 funding 
levels.
    In 2006, we know that it is crucial for our workers to be ready, 
willing, and able to respond to the pace of America's changing 
workplace needs. On the demand side, employers must be ready to invest 
in the capacity of all workers, not just those already skilled and 
educated. Collectively, our Nation must commit resources at all levels, 
to raise the performance of students and workers at the bottom, while 
improving the performance of those in the middle and top. We must 
ensure that all low wage and structurally unemployed workers have the 
opportunity to gain new high-value skills, maintaining important 
transitional income support and health insurance while upgrading skills 
and changing careers. Our public policy investments need to embrace the 
realities of a 21st Century workplace and develop a system that will 
help our employers and workers compete successfully. Success for the 
future will depend not just on educating all Americans to much higher 
standards, but also to different standards.
    We believe that the complexity of what we are facing requires our 
Nation to maintain a strong Federal commitment to coherent and 
consistent public investment policies that address the needs of workers 
and employers alike. There will be a price to broad prosperity if we 
ignore the sum of these growing realities:
  --Broad Lack of Workforce Proficiency in Technology.--The Global 
        Affairs Director of the Microsoft Corporation, Pamela Passman, 
        in a recent speech at NAWB's annual conference, expressed her 
        company's concerns about the ``readiness of the American 
        workforce to embrace technology as an essential tool of the 
        knowledge economy.'' She stressed that there is no concern with 
        countries embracing technology, innovating, and investing in 
        education and skills training, as long as America is doing the 
        same. But she warned about the lack of proficiency of adults to 
        search, comprehend, and use information (13 percent) and to 
        perform computational tasks, despite the Nation's focus on 
        improving math and science skills (13 percent). These 
        deficiencies, if not quickly addressed, will hamper growth and 
        innovation expansion for ``employers who are demanding more 
        skills that revolve around knowledge creation, collaboration 
        and communication, and analysis.''
  --A Growing Talent Shortage.--The well-regarded staffing company 
        manpower asserts, in a recently released white paper entitled 
        Confronting the Talent Crunch: What's Next States, ``There 
        already is a talent shortage in many areas of the global labor 
        force, a situation that will grow more widespread across more 
        jobs over the next 10 years--and could threaten the engines of 
        world economic growth and prosperity.'' The Bureau of Labor 
        Statistics predicts a shortfall of 10 million workers in the 
        United States by 2010, which may exert additional strain on the 
        talent pool availability.
  --Demographic Reality #1: Aging Workforce.--The first of the baby 
        boomers has turned 60 this year. Older workers will be leaving 
        the workforce much faster than new workers are entering, and as 
        they leave the workforce they will take with them an incredible 
        wealth of education, talent, skills, experience, and 
        traditional work ethic. For example, more than 50 percent of 
        the current science and engineering workforce in the United 
        States is approaching retirement. Given this, should we be 
        concerned that China graduates four times as many engineers as 
        the United States? Or that out of the 1.1 million high school 
        seniors who took a college entrance exam, just under 6 percent 
        indicated plans to pursue a degree in engineering--nearly a 33 
        percent decrease in interest from the previous decade (Passman, 
        2/27/06).
  --Demographic Reality #2.--Immigrants and Untapped Pools of Potential 
        Workers. The future workforce will be far from homogeneous. The 
        predicted growth in the American labor force will come largely 
        from immigrants who are less likely to quickly replace the 
        level of skills that will be departing with the boomers' 
        exodus. If these trends continue, and they are predicted to do 
        so, increasing workforce remedial interventions will be needed 
        to deal with English language deficiencies and to boost basic 
        education proficiencies. Employers will also need to be better 
        prepared to provide various accommodations for both an aging 
        workforce and people with disabilities who are likely to enter 
        the workforce in greater numbers as technology and civil rights 
        protections enable higher rates of their participation. The 
        continued growth of working women will require more flexible 
        working schedules and family leave policies as their child care 
        and elder care responsibilities require them to balance work 
        and family commitments.
    So the question looms, how can workers be assisted in navigating 
and managing their work lives in this complex global economy? Will 
companies be competitive without access to a higher-skilled workforce? 
And importantly, how should public policy respond to the realities of 
the societal changes and the vagaries of the global economy? The 
President acknowledged in his State of the Union message the increasing 
concern about national competitive challenges, but we regret that his 
budget proposal for workforce investment does not support his agenda in 
this area; in fact, it misses the mark. It is baffling why the 
administration would propose such deep cuts in the Nation's workforce 
investment programs in the face of mounting evidence, and their call 
for attention to American competitiveness. We should increase, not 
decrease these investments.
    The WIA system currently provides a wide range of vital services to 
over 16 million U.S. jobseekers and employers through its One-Stop 
delivery system, including labor market information, job search 
assistance, guidance and counseling services to help workers find the 
right jobs, and employers find the right employees. The system provides 
essential rapid response and transition assistance to dislocated 
workers; support services for individuals pursuing first time 
employment; and assistance for low-wage workers in search of career 
growth opportunities leading to self-sufficiency. It is designed to 
help jobseekers access the education and training they need to succeed 
in the new knowledge economy; to meet the skill needs of employers.
    According to the U.S. GAO, the WIA system spent over 40 percent of 
its funding in fiscal year 2003 on training for jobseekers in the 
United States, and this estimate did not take into account funds used 
to pay for computer lab workshops in software applications, basic 
keyboarding, computer skills training, and even certain adult basic 
education classes offered through the One-Stop delivery system. Nor did 
it take into account training arranged by the One-stops but not paid 
for with WIA funds.
    As your Committee deliberates on funding for the U.S. workforce 
investment system, and considers the President's 2007 budget proposal, 
we respectfully ask that you:
(1) Enhance and Build on Workforce Investment Boards' Successes
    The United States' Council on Competitiveness and the experts who 
participated in its National Innovation Initiative identified 
innovation as the single most important factor in determining America's 
success through the 21st Century. They identified the key ingredients 
for innovation as talent, investment, and infrastructure, and urged the 
knitting together of these strands to foster new innovation ``hot 
spots'' in regions across the United States than can sustain jobs and 
wage growth. It is crucial to find ways bring businesses, workers, 
researchers, economic developers, entrepreneurs, educational and 
training institutions, and governments together, at the regional level, 
to identify and develop their strengths and capacity for innovation.
    In fact, the Workforce Investment Act is predicated on such a 
collaborative model. Many Workforce Boards across the country are 
already performing this convening/brokering role that is essential to 
regional economic prosperity. To eliminate funding for this work as 
proposed in the administration's fiscal year 2007 budget, would be to 
put a stop to what hundreds of local workforce investment boards from 
around the country have already begun--the building of collaborative 
regional, knowledge-based economies. Let me share some examples with 
you.
  --The Finger Lakes Workforce Investment Board.--In New York 
        identified and developed career maps for photonics and 
        biotechnology as potential growth sectors for a region in 
        transition. The WIB with K-12 schools, the business community, 
        community colleges and the Syracuse University School of 
        Education identified the foundational skill standards for these 
        industries and recommended steps for secondary schools to 
        realign curricula in science, math and technology, as well as 
        ways to build awareness of the career opportunities and 
        pathways existing in these sectors.
  --The South Florida Workforce Investment Board.--That serves the 
        Miami metro area served 7,648 employers and placed 69,634 
        clients in jobs this past year. They calculate the return on 
        investment to the community of $11.01 for every dollar of 
        workforce funds invested. In an area of historically high 
        unemployment, these results are the fruit of the partnerships 
        that the WIB has fostered with economic development agencies, 
        business and the community's public agencies.
  --The Brevard Workforce Development Board.has created an extensive 
        menu of business services and targeted those growth industries 
        such as healthcare, manufacturing, and Aerospace that are 
        growing jobs in their community, which is one of the hottest 
        job growth areas in the country. Their ability to continue this 
        work would be diminished, if not eliminated, if the proposed 
        budget cuts and Career Advancement Account proposals are 
        enacted.
  --The Northwest Wisconsin Workforce Investment Board.--Developed the 
        ``Talent Profiling System'' (TPS), a soft skills matching tool, 
        to respond to the overwhelming requests of employers to find 
        people that fit their jobs. Since its implementation, TPS has 
        achieved results ranging from having the highest employer 
        penetration rate in the State's 11 Workforce Development Areas 
        to a decrease of $916.88 to $420.24 in cost-per-placement and 
        realized $4.22 Return On Investment (ROI) for each tax dollar 
        invested.
  --The North Central Texas Workforce Development Board.--Serves a 
        fourteen county region with 1.6 million people that surrounds 
        the Dallas/Fort Worth area. This board supports small 
        businesses by serving as the HR department for small companies. 
        In this vital role they provide personalized attention for 
        recruiting and placement; applicant screening; and on-site 
        assistance with interviewing. Services to small business such 
        as these, the engine of economic growth, will be severely 
        limited by 15 percent + reductions in funding and the Career 
        Advancement Account proposal.
  --The Greater Peninsula Workforce Development Consortium.--In Newport 
        News, Virginia created The Manufacturing Pipeline Partnership 
        for their local manufacturers. Participating manufacturers have 
        been able to significantly improve their hiring practices 
        through this collaborative effort. Northrop Grumman Newport 
        News was able to hire 922 workers in skilled trades' positions, 
        Siemens VDO Automotive, hired 100 plus workers for crucial 
        positions in their advanced technology production areas. The 
        WIB and the partnership it convened is directly contributing to 
        the long term economic vitality of the region. This would not 
        have been possible without the WIB's convening role, and WIBs 
        would effectively be eliminated by the administration's budget 
        cuts.
(2) Weigh the Potential Impact of Cuts on the Workforce Investment 
        System and its Customers
    The administration's fiscal year 2007 budget proposes a new 15 
percent cut in funding for WIA and Wagner-Peyser. These reductions 
would be applied to a workforce investment system that has already 
sustained funding reductions over the years, and is stretched very 
thin. Simply put, our system cannot sustain any further cuts without 
having to close numerous One-Stop Centers throughout the country, and 
cut back on services provided to those in need (eg, dislocated workers, 
the structurally unemployed, low wage workers in search of self-
sufficiency, at-risk youth, and employers).
    These negative consequences of funding reductions do not even take 
into account the potential devastation that would be caused by the 
administration's policy recommendations contained in the fiscal year 
2007 budget. In her testimony before your Committee, Secretary of Labor 
Elaine Chao indicated that the One-Stop delivery system would be 
preserved under the administration's fiscal year 2007 proposal. She 
stated this despite the fact that 75 percent of the funding for States 
under their consolidated proposal, would be required to be spent on 
Career Advancement Accounts--leaving less funding for all other system 
functions and services, than now provided for the Wagner-Peyser program 
alone.
    The real impact of the administration's proposal (in total) would 
be the elimination of most of the local Workforce Investment Boards 
around the country, and the closure of most of the One-Stop Centers. 
With only 22 percent of WIA and Wagner-Peyser funding, States would be 
forced to provide all remaining services other than training. Funds to 
engage the private sector, both through the boards and through business 
services would be immediately impacted. The loss of the private sector 
engagement and focus would be diametrically opposed to the original 
Congressional intent of WIA and to calls from the country's leaders on 
U.S. competitiveness. Discussions with our colleagues around the 
country indicate that the impact on the workforce system infrastructure 
would be dramatic and would effectively dismantle much of the strategic 
partnership work, employer outreach, and physical One-Stop 
infrastructure that the WIBs have spent the last 5 years crafting. 
Innovative programs developed in partnership with employers and 
economic development, such as incumbent worker, industry sector, career 
ladder, and layoff aversion programs would be abruptly halted. And 
tragically, the private-sector leadership of the workforce boards, that 
has taken us so long to build, would be dismantled and swept under the 
rug. We believe this leadership and participation should be cultivated, 
not marginalized, particularly at a time when business leadership and 
employer engagement in the system is growing. It would be hard to find 
many other Federal programs where the business community has such a 
direct role in determining how Federal tax dollars are used in local 
communities.
    When WIA was enacted in 1998, it was clear that Congress intended a 
significantly enhanced role for business vested in the Workforce 
Investment Boards. As WIA has matured these past 5 years, we believe 
that this strategic oversight has turned out to be a highly desirable 
value proposition and we urge Congress to continue a strong endorsement 
of the approach by maintaining and increasing WIA funding that insures 
the private sector's engagement in the public workforce system.
(3) Invest, Not Disinvest
    We applaud the efforts of the subcommittee to provide funding for 
WIA at levels as close to constant as possible in these increasingly 
difficult budgetary times. NAWB knows that there are many pressures on 
the Federal budget and many legitimate requests for funding. However, 
we submit the competitive posture of the Nation needs to be placed at 
the top of the priority list, and urge you to fund WIA and Wagner-
Peyser at the fiscal year 2005 levels.
    While the Department of Labor may claim there is excess unspent 
money in the WIA system to justify their recommended budget cuts, they, 
in fact, are not presenting the facts accurately. The GAO's 2002 study 
clearly disputed this claim. And since the original claims of slow 
expenditures and excessive carryover were made, the WIA system has 
significantly diminished system carryover to less than 30 percent of 
its accrued expenditures--the standard proposed by the administration 
for WIA reauthorization, and included in both the House and Senate WIA 
reauthorization bills.
    In summary, when WIA was enacted, it was intended to ensure that 
all Americans have access to the information, job search assistance, 
and training they need to qualify for good jobs, and to successfully 
manage their careers in the new economy of the 21st Century--we urge 
you not to turn your backs on America's workforce investments. . . . 
they are about our future prosperity, and ultimately our national 
security in the purest sense.
    Thank you for your support in the past, and for this opportunity to 
submit testimony.
                                 ______
                                 
        Prepared Statement of the National Job Corps Association

             JOB CORPS WORTHY INVESTMENT TO AMERICA'S YOUTH

Six Million Youth Eligible to Participate
    On behalf of the National Job Corps Association (NJCA), we want to 
thank the Labor, Health and Human Services and Education Appropriations 
Subcommittee for its unwavering dedication to Job Corps and the 
vulnerable disadvantaged young Americans it serves. We appreciate the 
Committee's strong support of Job Corps in fiscal year 2006. Not only 
did the Committee provide a funding increase, but it established Job 
Corps as an office reporting directly to the U.S. Secretary of Labor. 
With strong bipartisan support, Congress acknowledged Job Corps' 40-
year track record of success by eliminating layers of bureaucracy and 
ensuring department-wide attention on America's most disadvantaged 
youth.
    Job Corps is a voluntary program that serves more than 60,000 young 
Americans each year, which is only about 1 percent of the nearly 6 
million disadvantaged youth that are eligible for Job Corps' services. 
Over the last four decades, Job Corps has built its reputation as the 
Nation's largest and most successful residential educational and 
vocational training program for economically disadvantaged youth, ages 
16 through 24. With millions of youth eligible and in need of Job Corps 
services, it is only with your help that Job Corps can remain a beacon 
of hope for many young Americans and an excellent example of our 
government's role in ensuring every American has a chance to succeed in 
the 21 century economy. Tony Pusateri, a Senior Vice President of 
Equity Residential in Plano, Texas and member of the National Apartment 
Association Education Institute observed: ``I've been around Washington 
and seen a lot of government programs that I didn't support, but Job 
Corps is one program . that I am proud my tax dollars go to.''
    Unfortunately, the administration's fiscal year 2007 budget request 
cuts Job Corps by $72 million from the fiscal year 2006 enacted level. 
We are deeply concerned that such a funding cut would force a drastic 
reduction in the number of youth Job Corps will be able to serve. While 
we encourage spending restraint by the U.S. Government, we also believe 
it is imperative to provide adequate funding to support the young 
Americans who are our Nation's future.

                      JOB CORPS OPERATIONS FUNDING

Administration's Fiscal Year 2007 Budget Proposal
    The administration's proposal recommends funding Job Corps' 
operations account at $1.401 billion, a decrease of $64 million 
compared to the fiscal year 2006 appropriated levels. This level of 
funding amounts to a 7.8 percent decrease in Job Corps' real-dollar 
funding from fiscal year 2006.
    If the operations account were to be cut by $64 million, more than 
3,000 economically disadvantaged young Americans would be turned away 
from Job Corps. These vulnerable youth, though they have the desire, 
would not be able to enter Job Corps to complete their high school 
education and place themselves on a career path. As one of the few 
national job training programs that has shown consistent positive 
results, Job Corps has the ability to preserve economic prosperity by 
equipping thousands of high school dropouts, foster care youth, and 
other vulnerable youth with job skills to enter gainful employment and 
become responsible, productive citizens. This cut would limit the 
opportunities of vulnerable youth who are seeking a way to put 
themselves back on track for success.

NJCA Fiscal Year 2007 Request
    The NJCA requests a total of $1.53 billion for Job Corps' fiscal 
year 2007 operations account to support at least 44,000 training slots 
and keep all Job Corps centers at full capacity. This amount is based 
on the Office of Management and Budget's (OMB) projected 3.3 percent 
rate of inflation between fiscal year 2006 and fiscal year 2007 as well 
as additional appropriations to support efforts to improve educational 
programs on Job Corps centers. The increase would (1) allow the 122 Job 
Corps centers across the country to operate at full capacity to ensure 
the programs serves as many eligible youth as possible; and (2) support 
the U.S. Department of Labor's efforts to ensure the program has the 
necessary resources to hire capable teachers and ensure the quality of 
its educational courses.
   job corps construction, rehabilitation and acquisition (cra) funds
Administration's Fiscal Year 2007 Budget Proposal
    The administration's budget proposal recommends funding Job Corps' 
CRA account at $100 million, an $8 million reduction from fiscal year 
2006.
    As you know, Job Corps gives young people the opportunity to focus 
and learn in a safe, stable, and supportive environment. However, the 
average building on a Job Corps center is 47 years-old--20 years older 
than the construction industry's recommended lifespan. While the 
program is committed to addressing the backlog of repairs by developing 
a 10-year capital improvement plan to construct and repair facilities 
based on priority, it needs more funding resources.

NJCA Fiscal Year 2007 Request
    With respect to Job Corps' capital account, the NJCA requests $130 
million in fiscal year 2007. These funds will be used to: repair dorms, 
classrooms, and other student facilities on existing Job Corps centers; 
replace deteriorated structures, especially those that threaten the 
safety and health or violate minimum building codes, including 
mechanical systems; continue to address the $700+ million backlog of 
construction and/or repair needs; and provide third year funding for 
incremental Job Corps expansion.

                               CONCLUSION

    As Job Corps looks to the future to train the next generation of 
youth, we hope you agree that it remains a Federal program worthy of 
America's attention and support. Seventy-four percent of Job Corps 
enrollees are high school dropouts. The typical Job Corps student reads 
slightly less than the 8th grade level. Most youth who attend Job Corps 
have never held a full-time job. Thirty-two percent come from families 
on public assistance. However, through targeted self paced learning and 
dedicated counselors and teachers, these youth graduate from Job Corps 
with well-documented improvements in their education and skill levels 
and more than 90 percent transition into employment, higher education 
or the military. Job Corps provides thousands of youth a second chance 
to achieve the American dream.
    The NJCA looks forward to working with the members of this 
Committee to ensure that thousands of disadvantaged young Americans 
will continue having the opportunity to lift themselves up through Job 
Corps. We have been encouraged by the Committee's support that have 
expanded and strengthened Job Corps over the years and hope that we 
will enjoy that support and confidence in fiscal year 2007 and into the 
future.
                                 ______
                                 
     Prepared Statement of the National Youth Employment Coalition

    The National Youth Employment Coalition (NYEC) is a network of over 
270 youth employment, education, and workforce development 
organizations dedicated to promoting policies and initiatives that help 
young people succeed in becoming lifelong learners, productive workers 
and self-sufficient citizens. NYEC works to improve the effectiveness 
of youth-serving organizations by informing and tracking policy; 
setting and promoting quality standards; promoting professional 
development; and building organizational capacity. We thank you for 
your previous support of programs that provide meaningful job training 
and youth development opportunities for young people and for the 
opportunity to submit this testimony.
    Youth development/employment programs must be adequately funded 
because our youth are facing a crisis that has profound implications 
for their lives, their futures, and our society at large. There are 2.4 
million low-income 16 to 24 year olds who left school without a diploma 
or received a diploma but are unemployed.
    Youth development/unemployment programs must be funded at a level 
commensurate with the need to develop a globally competitive and highly 
skilled workforce for the jobs of tomorrow and today. Youth face a 
crisis that has profound implications for the lives, their futures, and 
society at large. According to a report by Public/Private Ventures, 
``nationwide, 15 million people between the ages of 16 and 24 are not 
prepared for high-wage employment. Inadequate education or training is 
a major reason.'' A report by the National Association of Manufacturers 
identified three simultaneous phenomena that together are transforming 
the American economy and its labor force: global pressures, relentless 
advances in technology, and demographic shifts that will result in ``a 
projected need for 10 million new skilled workers by 2020.''
    In the face of persistent youth unemployment and changes in the 
labor market which require more knowledge and skills, the 
administration's proposed 2007 budget for WIA and Employment Services 
programs, is a matter of serious concern. It calls for a 15 percent 
reduction in these important programs and perpetuates the downward 
trend that would leave employment and training programs $1 billion 
below funding levels of 5 years ago.
    Unless Congress rejects these proposals, many thousands of youth 
will continue to lack the opportunities and supports necessary to 
succeed in the 21st century workplace. NYEC urges you to increase 
investment in programs under the Workforce Investment Act (WIA) and to 
restore funds for Perkins Act programs, TRIO, and Gear-Up, and the 
Reintegration for Young Offenders Program.
    These programs are needed because unemployment among youth is 
unacceptably high. While adult unemployment averaged 5 percent in the 
last quarter of 2005, the unemployment rate among youth 16-19 was 16.1 
percent; more than three times as high. A recent study from 
Northeastern University's Center for Labor Market Studies found that 
between 2000 and 2004, the number of employed teens declined by nearly 
1.3 million.
    Since fiscal year 2002, our Nation has been in the process of 
disinvesting in youth employment and development programs. If this 
current round of cuts is implemented, investment in the WIA youth 
programs will have dropped by more than 38 percent from $1.4 billion in 
fiscal year 2002 to $841 million in fiscal year 2007. This when 
according to the National Center on Education and the Economy we need 
``to invest in training on a scale that supports the well-being of the 
Nation's economy and so that it is not just a privilege for the lucky 
few.''
    The administration's disinvestment runs counter to its own 
philosophy of investing in programs that work and divesting from 
programs that do not work. These programs work. According to the U.S. 
Department of Labor's fiscal year 2005 Performance and Accountability 
Report, in Program Year 2004 (July 2004-June 2005), WIA programs 
exceeded the Department's target for Diploma Attainment among youth 14-
18 (65 percent v. 53 percent), entry to employment for youth 19-21 (72 
percent v. 68 percent), and employment retention for youth 19-21 (82 
percent v. 79 percent).
    The only measure in which programs failed to meet or surpass the 
Department's target was in cost per participant. According to the 
Report (page 65), ``Average cost per participant was slightly higher 
than expected--$2,822 vs. a target of $2,663. However, consistent with 
ETA's vision for youth services, the program has served a higher 
proportion of out-of-school youth. Out-of-school youth are a more 
expensive population to serve, with a cost of $3,724 per participant, 
therefore the overall cost per participant increased over prior years. 
At the time the cost per participant target was estimated, DOL did not 
anticipate the full extent of increased expenditures on out-of-school 
youth.'' The Report also notes that ``Results for PY 2004 continue an 
upward trend that began with WIA implementation in 1998. All three 
outcome indicators have increased from PY 2003 and exceeded performance 
targets. Most important is the continued increase in high school 
diploma attainment, given the strong statistical correlation between 
educational attainment and success in the labor market.''
    It should be noted that even at $2,822 per participant, the cost is 
below the $3,000 assumed in the administration's proposed Career 
Advancement Accounts (CAA).
    Further, a recent study of comprehensive youth workforce 
development programs in 36 communities carried out by the Center for 
Law and Social Policy confirms that Federal investment makes a 
difference. It found that that between 2000 and 2005 these programs 
successfully connected out-of-work youth to approximately 18, 456 long 
term unsubsidized work opportunities; 23,652 internship opportunities; 
28,302 short-term unsubsidized jobs; and 23,478 training opportunities. 
The program reached 42 percent of the eligible target population and 62 
percent of the eligible out-of-school population.
    According to a 2004 report prepared by Northeastern University's 
Center for Labor Market Studies, there are 5.4 million 16 to 24-year-
olds who left school without a diploma or received a diploma but are 
unemployed. About 44 percent of them are low-income. With more than 
540,000 students dropping out of high school each year the implications 
of this phenomenon are staggering:
  --The earnings gap widens with years of schooling and formal 
        training. In 2003, earnings of male dropouts fell to $21,447; 
        high school graduates earned an average of $32,266; and college 
        graduates earned about $63,000 or triple that of dropouts. As a 
        result, dropouts pay less taxes, are more likely to rely on 
        public assistance, and to be part of the criminal justice 
        system.
  --One expert estimates that the United States would save $41.8 
        billion in health care costs if 2004's 600,000 dropouts were to 
        advance an additional year in educational attainment.
  --Approximately 16 percent of all young men, ages 18-24, without a 
        high school degree or GED are either incarcerated or on parole 
        at any one point in time.
  --Three quarters of State prison inmates are high school dropouts, as 
        are 59 percent of inmates in the Federal system.
  --Increasing the high school completion rate by 1 percent for all men 
        aged 20-60 would save the United States $1.4 billion a year in 
        reduced costs from crime.
  --The situation is even more dire in minority communities where as 
        few as 20 percent of black teens are employed at any time, 
        unemployment among young black men aged 16-24 not enrolled in 
        school is about 50 percent, and approximately one-third of all 
        young black men are involved with the criminal justice system 
        at any given time.
    According to a paper by written by Professor Michael Wald and Tia 
Martinez for the Hewlett Foundation, ``over the past 25 years the 
situation for youth who fall off the ladder as they move to adulthood 
has gotten considerably worse.'' Nevertheless, inflation-adjusted 
spending for programs that target at-risk youth dropped by 63 percent 
from 1985 to 2003.
    Youth workforce development programs provide a wide range of 
services to improve educational achievement, prevent youth from 
dropping out of high school, and reengage youth who are out of school 
and out of work. NYEC believes that we must reverse the trend of 
disinvesting in youth employment and development and fund the WIA youth 
formula at $1 billion. While we support new programs that help youth 
prepare for jobs and careers and prevent them from leaving school, 
funding for untested initiatives like the CAA's should not come at the 
expense of successful programs that are already stretched to the 
breaking point.
    The administration's fiscal year 2007 budget also proposes to 
eliminate the Reintegration of Young Offenders Program. According to 
the Bureau of Justice Statistics, approximately 120,000 youth under the 
age of 18 are currently incarcerated in juvenile detention centers, 
State prisons, and local jails. Most will be released in the next few 
years.
    A 1998 study by Vanderbilt Professor Mark Cohen, estimated that 
each teen prevented from adopting a life of crime could save the Nation 
between $1.7 and $2.3 million. A report prepared in 2002 for the 
California State Senate Joint Committee on Prison and Construction 
Operations stated, ``Given the staggering cost of failure, it is hard 
to imagine any justifiable argument against providing education and 
services to this population.''
    Finally, the cost per participant pales in comparison with the cost 
of alternatives like incarceration. According to the Justice Policy 
Institute, for example, ``incarceration, particularly for juveniles, is 
an expensive proposition. Each year, capital costs to build new 
facilities run in the range of $100,000 per cell and operating costs 
typically exceed $60,000 per cell.'' The return on investment in the 
Young Offenders program will be returned many times over.
    While NYEC recognizes the administration's continuing commitment to 
helping prisoners successfully return to society, we are concerned that 
unless funds are specifically targeted to serving youth, the needs of 
adults will most often take precedence. At a minimum, funds currently 
targeted at court-involved youth under the Reintegration for Young 
Offenders Program should be restored to fiscal year 2003 levels ($54 
million).
    We support the goals of the President's ``American Competitiveness 
Initiative'' and his charge that ``We must continue to lead the world 
in human talent and creativity. Our greatest advantage . . . has always 
been our educated, hardworking, ambitious people--and we're going to 
keep that edge.'' Realizing that goal, however, requires investment in 
all our citizens.
    NYEC has many concerns about the CAA's. We are particularly 
concerned that the limit of $3,000 a year for up to 2 years will 
function as a cap that will prevent workers from receiving the best and 
most appropriate training. A June 2005 GAO Report on the Workforce 
Investment Act (GAO-05-650) revealed that only 8 percent Workforce 
Investment Boards cap their Individual Training Accounts at $3,000. 
Fully 63 percent impose caps of $5,000 or more and 35 percent have caps 
of $7,000 and up. Fifteen percent have no caps. While this could 
achieve DOL's goal of increasing the number of people trained, it would 
call the quality of much of that training into question.
    Without Federal investment in effective programs such as those 
supported by WIA youth formula funds, the Responsible Reintegration of 
Young Offenders program, and the education programs that provide 
meaningful pathways from high school to higher education, millions of 
young people will not make the successful transition into productive 
employment.
    We thank the Committee for its commitment to these important 
programs that prepare our youth to compete in the global marketplace of 
the 21st century. We look forward to working with you to strengthen our 
Nation's youth employment and youth development systems.
                                 ______
                                 
     Prepared Statement of the Oregon Human Development Corporation

    Honorable Chairman, Senator Arlen Specter, and Honorable Committee 
Members: I want to thank you for the opportunity to share information 
about the Workforce Investment Act, Section 167 (WIA 167) National 
Farmworker Jobs Program.
    My name is Ronald Hauge and I am the Executive Director of Oregon 
Human Development Corporation (OHDC), a not-for-profit organization 
that has provided education, training, and workforce development 
services for Oregon's migrant and seasonal farmworkers for more than 27 
years. Throughout this period Congress has supported focused workforce 
development services for migrant and seasonal farmworkers within the 
CETA, JTPA, and WIA Federal workforce initiatives. The underlying 
reason for this support has been the recognition that migrant and 
seasonal farmworkers have different characteristics and needs than 
conventional job seekers who use the Nation's workforce system, and 
that based on these differences specialized workforce services are 
necessary to effectively serve this population.
    The Department of Labor's own performance reports that show the WIA 
167 National Farmworker Jobs Program consistently among the higher 
performing workforce programs, yet the administration has tried to 
eliminate the WIA 167 for the last several years. It is only by 
congressional action that the WIA 167 program continues to exist. Each 
year this Committee has demonstrated its wisdom and priorities by 
supporting appropriations to preserve these effective workforce 
services. Accordingly, I want to thank the Honorable Chairman and 
Committee Members for your instrumental role in saving the program and 
maintaining these valuable investments for our Nation's agricultural 
workforce.
    At this time I would like to point out a few features of the WIA 
167 program that illustrate its importance.

                          PROGRAM PERFORMANCE

    According the Department of Labor's performance reports the WIA 167 
program has achieved entered employment rates above 80 percent, job 
retention rates of 75 percent, and earnings gains above $4,000. This is 
unquestionably strong performance given that migrant and seasonal 
farmworkers are among the most difficult to serve job seekers in the 
workforce system, and that the program operates largely in rural areas 
with limited labor markets.

 INTEGRATION OF THE WIA 167 PROGRAM INTO THE ONE STOP WORKFORCE SYSTEM

    The WIA 167 programs in each State are integrated into the One Stop 
workforce system on a location-by-location basis. In Oregon, for 
example, OHDC has six service delivery offices and each of the offices 
is integrated into the local One Stop system by virtue of co-location 
or other planned systemic integration. OHDC WIA 167 staff are members 
of local Workforce Investment Boards in each service area.
    In Oregon, this integration is acknowledged at the State level and 
is well documented in the State of Oregon's Two-Year Plan for Title I 
of the Workforce Investment Act and the Wagner-Peyser Act. The plan 
states that ``strategies in Oregon to promote equal and effective 
access and service delivery and to promote enhancement and integration 
of services to MSFWs (migrant and seasonal farm workers) include Oregon 
Human Development WIA 167 staff have workspace in WorkSource Oregon 
centers and access rights to the MSFW customer base in each workforce 
area they serve. With this, they are able to identify from a broader 
base of MSFW customers those particularly interested in the intensive 
and training services they can offer and where other staff are able to 
understand more thoroughly the value added services offered by the WIA 
167 for enhanced referral of their customers; they are seen as a 
critical component to delivering workforce services to MSFWs.'' 
(emphasis added)

                FEW ALTERNATIVE OPTIONS FOR FARMWORKERS

    The mainstream One Stop workforce system is geared primarily toward 
meeting the ``demand'' needs of high growth/high demand industries--as 
part of larger economic development strategies. This leaves lower 
skilled, hard working farmworkers with few or no options to improve 
their skills and secure stable employment in the primary labor market. 
Accordingly, the WIA 167 program becomes the only viable workforce 
development option for most farmworkers, a place with culturally 
sensitive, bilingual staff who are experienced in serving farmworkers 
and who understand the needs of local employers. It is clear that 
without the WIA 167 program few farmworkers would receive any 
developmental benefit from the Nation's workforce system.

                         RURAL COMMUNITY ASSET

    The WIA 167 program is a real asset to rural communities. The 
program adds tangible service capacity and diversity to smaller rural 
One Stop workforce systems. The program can provide agricultural 
upgrade training to help agricultural employers enhance worker 
productivity and stability, thus extending the workforce development 
system's benefit into the agricultural industry. Also, the program can 
serve as a foundation to attract other services for farmworkers such as 
housing, literacy and language training, disaster services, and a 
variety of emergency services that help stabilize the agricultural 
labor force in local communities.
    As you can see, the WIA 167 National Farmworker Jobs Program is an 
effective, valuable, coordinated resource that not only benefits 
farmworkers, but also strengthens the Nation's One Stop workforce 
system and rural communities.
    Before closing I would like to share, in the words of OHDC 
workforce coordinators, the experience of two farmworkers who were 
assisted in Oregon Human Development Corporation's WIA 167 program.
Jesus Ortiz \1\
---------------------------------------------------------------------------
    \1\ Editors Note.--Not real names.
---------------------------------------------------------------------------
    Worked with Glen Walters Nursery for a number of years but had been 
unable to advance because he did not have any formal education on how 
to supervise a crew. Most of his knowledge came from first hand 
experience in the general operation of his department and observing 
other supervisors. In November 2004 OHDC enrolled Jesus in the WIA 167 
National Farmworker Jobs Program. OHDC met with the employer and 
arranged to provide supervisory skills upgrade training to develop the 
supervisory skills of Jesus, with the understanding that Jesus would be 
promoted into a supervisory position following the training. Because 
Jesus had limited English language skills, OHDC provided the training 
in Spanish. Jesus completed the training, which was defined as ``a 
success'' by the employer, who promoted Jesus into a supervisory 
position. Jesus also received a wage increase that took his earnings 
from $7.45 per hour to $11.00 per hour. Now, Jesus not only has the 
knowledge foundation that makes him a more effective leader and 
supervisor, but he also has a better income that will dramatically 
improve his family's well being. It is important to note that this 
success story would not have been possible if OHDC's WIA 167 program 
had not been available to provide the training in Spanish--something 
not available from any other partner in the local One Stop workforce 
system.
Antonio Sanchez \1\
---------------------------------------------------------------------------
    \1\ Editors Note.--Not real names.
---------------------------------------------------------------------------
    Enrolled in the WIA 167 program in October 2005 at OHDC's Woodburn 
office. Antonio is a married father of three children. Antonio had 
worked primarily in agricultural work since he was 18 years old. He was 
employed with a dairy since 2003, living in employer owned housing. At 
the dairy Antonio worked long hours and weekends (65-75 hours per week) 
earning a salary of $2,000 per month with no health or vacation 
benefits. Antonio was eager to start attending training classes 
available through the WIA 167 program--his primary goal was to obtain a 
Commercial Drivers License (CDL) and to secure a commercial driving 
job. Antonio completed job readiness, customer service, computer, CPR, 
and CDL trainings within a 6 month period, even though English was not 
his primary language. He was an active participant with a strong desire 
to learn as much as he could so he could secure employment that would 
offer him and his family health insurance benefits, a regular work 
schedule, and a good living wage so his family could purchase their own 
home. Upon obtaining his CDL, OHDC referred Antonio to a job interview 
with Sysco Food Service. According to the Sysco supervisor, Antonio 
made a great impression during his interview and was offered an entry 
level position starting at $12.13 an hour--and he will be given the 
opportunity to transition to a Truck Driver position earning more than 
$16.00 per hour. The position provides vacation and excellent health 
benefits, retirement and life insurance. The family is now in the 
process of purchasing a home of their own.
    These two examples illustrate how the WIA 167 program works for 
both farmworkers and employers.
    In closing, I want to thank you again for your ongoing concern for 
the Nation's agricultural workforce. Although there are many priorities 
the Committee must evaluate, this is not the time for the Nation to 
turn its back on our hard working farmworkers who produce and harvest 
much of the Nation's food and other agricultural products--and who 
contribute so much for our collective benefit. Therefore, I strongly 
urge the Committee to maintain or increase the appropriation for the 
WIA 167 National Farmworker Jobs Program in the 2007 budget.
                                 ______
                                 
    Prepared Statement of the Association of Farmworker Opportunity 
                                Programs

    Good morning Chairman Specter and members of the subcommittee. My 
name is David Strauss and I represent the 48 nonprofit and public 
agencies that provide job training and related services to our Nation's 
migrant and seasonal farmworkers. They perform these tasks with grants 
from the United States Department of Labor pursuant to Section 167 of 
the Workforce Investment Act. As you know, the administration has tried 
to eliminate this program for the last 5 years. You and the members of 
your subcommittee have led the way in maintaining it each year, and we 
thank you for your leadership.
    About 2.5 million people labor in the fields and farms of America, 
from Hawaii to Florida and Puerto Rico, from Maine to California. 
Estimates are that 85 percent of the fruits and vegetables we eat are 
hand harvested by farmworkers. The pay is extremely low: most 
farmworkers earn less than $12,000 per year. Few farmworkers receive 
the job-related benefits, such as health insurance and sick pay, which 
we all take for granted. In most States, agricultural workers are not 
even eligible for unemployment compensation. They live a tough life. 
Many workers travel hundreds, sometimes thousands of miles in search of 
work. They get paid only when they perform the work: if the weather is 
bad or the crop is not as plentiful as the farmer had hoped, they 
simply do not receive wages. They typically cannot afford decent 
housing. Their children have to struggle mightily to even complete 
their public school education. The dropout rate for farmworker youth, 
especially those who migrate with their parents, is enormous.
    For over 33 years the Federal Government has made and kept a 
commitment to these hardworking people. Special Federal programs were 
created to recognize the reality that farmworkers often cross State 
lines to work and live. Thus, we have migrant head start, migrant 
health, migrant education, and the job training effort called the 
National Farmworker Jobs Program. These all are federally funded and 
have guidelines that acknowledge that Governors should not be placed in 
a position of deciding whether or not agricultural workers qualify for 
these services under State residency or other localized requirements.
    Today, I want to explain the way some of our program operators and 
staff members helped farmworkers and other rural poor people during the 
aftermath of the hurricanes of 2005.
    When the winds and rains of Hurricanes Katrina and Rita ravaged the 
gulf States many impoverished groups suffered. Among the hardest hit 
were the area's migrant and seasonal farmworkers. Thousands lost their 
jobs and many saw their homes damaged or destroyed. With incomes 
typically far below the poverty line, most farmworkers have no safety 
cushion when disaster strikes. To make matters worse, language barriers 
and cultural isolation often prevent them from accessing emergency 
services delivered by mainstream providers.
    It is hard to picture the severe hardships created by the 
hurricanes. Potable water could not be obtained, food and fuel were 
unavailable, and electricity and telephone services interrupted. These 
deprivations continued for weeks. For many, the migrant and seasonal 
farmworker job-training agencies provided the only relief.
    It must be noted that the four agencies mentioned below can only 
use Federal migrant and seasonal farmworker job training and assistance 
funds for eligible farmworkers and their dependents. The head of 
household must demonstrate eligibility, which includes proof of work 
authorization or citizenship and evidence of a recent history of 
performing farmwork. For those ineligible for Federal services, the 
agencies found other resources. The  167 WIA agencies in the four 
States are funded solely through the DOL job training grants for 
farmworkers. Without Congress's 2005 appropriation for migrant and 
seasonal farmworker job training, those agencies' doors would have been 
closed and none of the assistance described below would have happened.
    Here is a summary of the  167 agencies' relief activities:

                               LOUISIANA

    Motivation, Education and Training, Inc. of Louisiana (MET) is the 
167 agency in that State. MET was on the ground in the Hammond, LA area 
a few days after the storm hit. That area had no electric power, or 
telephone service, gasoline, or clean water. MET set up an intake 
center in a trailer, powered by a generator. Staff provided emergency 
services to people who could not be reached by FEMA. Red Cross trucks 
brought water and ice. MET provided vouchers for food, clothing, rent 
and other items to over 300 families (made up of over 1,200 people) who 
otherwise might have starved or been rendered homeless. While much of 
the community infrastructure, was poorly supplied, the local Wal-Mart 
was well prepared for the needs of people affected by the storm, and 
MET worked out arrangements for the vouchers to be used there. The 
average voucher was about $370 per family. They continue to serve 
eligible families months after the storm. These vouchers are funded 
through the  167 program.
    Ineligible families are referred to the Quad Area Community Action 
Agency, which issues commodities and other goods.

                              MISSISSIPPI

    The Mississippi Delta Council for Farmworker Opportunities (MDC) 
was one of the few statewide nonprofit organizations to have a nearly 
intact network following the hurricane. Headquartered in Clarksdale, 
MDC gave out vouchers and other help to hundreds of seasonal as well as 
migrant farmworkers. Vouchers were issued to 330 eligible farmworkers 
and families, and commodities and other supplies were given to 331 
other people. Vouchers were provided through  167 WIA program funds.
    The commodity donations were made possible through the efforts of 
the  167 WIA agency in Tucson, Arizona: Portable Practical Educational 
Programs (PPEP). PPEP gathered its own resources, those from the League 
of United Latin American Citizens, and from World Care. PPEP led two 
caravans consisting of a total of 14 trucks loaded with relief supplies 
making the 1,200-mile journey from Tucson to Clarksdale. MDC located a 
warehouse in Clarksdale, and the supplies continue to be distributed 
from there to farmworkers and other rural poor families throughout 
affected counties and in places where evacuees from the Gulf Coast and 
the New Orleans area are sited. MDC is also shipping supplies to their 
colleagues at Telamon Alabama for use in the Mobile area. As in 
Louisiana, the people they are serving are mostly outside any area of 
help provided by FEMA or the Red Cross.
    MDC is currently assessing farmworker needs in the counties of 
Scott, Simpson, Smith, Forrest, Greene, and George. There appears to be 
a tremendous need for housing for farmworkers whose homes were 
devastated by the storms.

                                ALABAMA

    Telamon Alabama is the  167 WIA agency in that State. It has 
provided direct voucher services to at least 25 farmworker families 
dislocated by the storm, primarily in Baldwin County. They have 
assisted about 200 others. Very little presence of FEMA or the Red 
Cross is reported for the farmworker areas of that county. A particular 
problem is that the fishing industry on the coast was devastated. 
Shrimp harvesting businesses operated by Vietnamese immigrants and 
others were virtually wiped out by the storm. Telamon is limited by the 
amount of help it can provide in two ways: its  167 WIA grant is about 
half that of Mississippi and considerably less than Louisiana's. In 
addition, there are large numbers of undocumented farmworkers, and 
there are few resources for referral for them. Telamon is providing as 
many persons as they can with commodities that have been shipped in 
from Arizona.

                                FLORIDA

    The counties in which farmworkers were most affected were not 
declared disaster areas. That restricted FEMA's involvement. The 
Florida Department of Education's Adult Migrant Programs (FDOE) 
operates the farmworker job-training program in Florida. FDOE funds a 
number of sites with  167 WIA subgrants. Those sites have assisted 
over 400 farmworkers and their families, primarily obtaining resources 
from the United Way agencies that use Community Services Block Grant 
funds. A number of private funds were set up in the aftermath of the 
2004 hurricanes, and these funds were used to alleviate suffering from 
these storms. The 400 farmworkers they have already assisted were 
working in nurseries that were wiped out by the storm. However, the 
avocado orchards that were to be harvested were severely damaged, and 
the planting season that farmworkers rely upon in late fall were 
delayed because of the wet conditions.

                                SUMMARY

    In Alabama, Louisiana, and Mississippi, the agencies that operate 
the programs funded under  167 of the WIA served as primary relief 
sources for migrant and seasonal farmworkers and their families in the 
wake of Hurricanes Katrina and Rita. At least 1,800 farmworkers and 
family members have received emergency services to date, either in the 
form of vouchers or relief supplies. Hundreds of other people in those 
States and in Florida were referred to agencies funded to help storm 
victims. There are medium- and long-term problems that farmworkers will 
experience that are not yet fully known. Much farm labor housing in 
Mississippi and Alabama has been destroyed, and future prospects for 
employment in agriculture are unclear.
    It is crucial that these four organizations were in place when the 
rural poor of the affected areas needed them. Had the funding for these 
organizations ceased in 2005 as the Department of Labor recommended, 
thousands of hard-working, low-paid farmworkers and their families 
would face life-threatening deprivations. And the growers and farmers 
that rely on them would be facing a much more uncertain future as they 
try to rebuild their agricultural enterprises. Fortunately, despite 
DOL's attempts to eliminate this program since 2002, Members of 
Congress have had the foresight to sustain the migrant and seasonal 
job-training program.
    Without these grants, who would be there to serve the working poor 
in rural Louisiana, Mississippi, Alabama, and Florida during this 
terrible time?
                                 ______
                                 
      Prepared Statement of the Central Valley Opportunity Center

    Chairman Specter, and other members of the subcommittee, my name is 
Ernie Flores and I am the executive director of Central Valley 
Opportunity Center (CVOC). CVOC is the DOL WIA Title I Section 167 
grantee, and also a Community Action Agency, in Madera, Merced and 
Stanislaus counties in the central San Joaquin Valley of California. At 
this time I submit my testimony for your consideration and in support 
of continued funding for the WIA 167 program, operated as the National 
Farmworker Jobs Program (NFJP) in the DOL. As you are aware, for the 
past 5 years, the President's budget, and the DOL, have proposed to 
eliminate the funding for NFJP. If this were to happen, it would 
effectively end vital employment and training services, job 
stabilization services, and various educational services that migrant 
and seasonal farm workers require to either continue working in 
agriculture, or to transition into year round employment outside of 
agriculture. It should also be mentioned that the funding for the 
entire NFJP program is approximately $80 million. Unfortunately, this 
amount of funding only allows us to serve 3-5 percent of the eligible 
farmworkers in need of our services.
    Although the U.S. DOL has testified that farm workers could be 
served through the local One-Stop Centers, all partners in the One Stop 
system, including the One Stop operators and the 167 grantee One Stop 
partners, are in agreement that the One Stop system is not prepared to 
served farmworkers. The majority of farm workers have limited English 
proficiency, possess very little formal education and generally have 
very few marketable job skills. The only jobs program that is prepared 
to help farm workers overcome those types of barriers, and become or 
continue to be gainfully employed, is the WIA 167 NFJP.
    The U.S. DOL has also testified before Congress that the NFJP is 
ineffective and duplicates the work of other job training programs. As 
to effectiveness, the DOL's own internal performance reports document 
that the NFJP has attained the highest performance ratings, for all WIA 
employment programs in the areas of entered employment, wage gains, and 
retention in employment, during the past 4 quarters. As for 
duplication, the NFJP generally serves over 95 percent of all migrant 
and seasonal Farmworkers that are enrolled in any WIA programs during 
any 12 month program period. Any Farmworkers that are enrolled in other 
WIA programs are most likely co-enrolled into a NFJP WIA 167 program 
also.
    For the past 27 years CVOC has provided various employment, 
training and social service programs to migrant and seasonal farm 
workers and other low income persons in our three county service area 
in Central California. As is the case with all NFJP grantees, our field 
offices are easily accessible to Farmworkers since they are located in 
their communities. CVOC offers the following services under the NFJP 
grant:

                        EMPLOYMENT AND TRAINING

  --Outreach, assessment and enrollment
  --Case management/vocational guidance
  --Vocational training
    --Welding
    --Auto Mechanics
    --Cooking/Food preparation
    --General/Advance Business Occupations
    --Cashiering/Merchandising
    --Commercial Drivers License
  --English As a Second Language classes
  --General Equivalency Diploma classes
  --Supportive Services (child care, gas, food, housing)
  --Job Readiness Training
  --On the Job Training
  --Direct Job Placement
  --Indirect Job Placement
  --Active follow-up services
  --Retraining services
    In addition to these services, CVOC has leveraged resources with 
the help of the NFJP grant in order to provide farm workers with 
services such as energy payment assistance, emergency housing, food 
vouchers, medical & dental services and various other social services.
    In should be understood that there are no other programs in the WIA 
system that are prepared to meet the employment and training needs of 
migrant and seasonal farmworkers except for programs like CVOC, and the 
other grantees of the WIA NFJP. If these programs cease to operate as a 
nationally administered program, and funding is seriously cut or 
eliminated, there will literally be no employment and training services 
for migrant and seasonal farm workers.
    I sincerely implore you to continue the funding for the WIA 167 
NFJP so that together we can continue to do for the least of our 
brothers. So that farmworkers can also reap the harvest of the American 
dream.
    At this time I would like to share some of our ``success stories.'' 
The stories clearly show how the lives of farmworkers, or their 
dependents, are forever changed for the better when they receive 
services from the National Farmworkers Jobs Programs grantees.
    Thank You.

Isaura Gonzalez
    Before coming to CVOC, Isaura Gonzalez was a seasonal cannery 
worker at Michael Angelo Gourmet, where she was making $9.50/hr. This 
wage was not too bad considering she dropped out of school in the 
seventh grade. However, this was a temporary job and offered no 
benefits. Isaura came to CVOC with a dream. She wanted to obtain her 
General Education Diploma (GED) and find a year-round job with fringe 
benefits. Six months later, all her dreams became true! Isaura 
successfully completed the CVOC 22-week General Business Occupations 
course a month early and obtained her GED with an amazing score of 
2,910. This score is the highest ever in CVOC's history! She is now 
working for Hilmar Cheese Company as a Data Entry/Machine Operator 
Manager making $14.95/hr. She has fringe benefits and a year-round job. 
Recently, during her first quarter follow-up she said she was expecting 
a raise soon.

Juan Hernandez
    He had just graduated from high school when he came to CVOC to 
register for the welding program in October of 2004. He was 18 years 
old, the dependent of a farm worker. He was very eager to learn welding 
because his uncle is a welder so he wanted to follow his uncle's 
footsteps. While he was in training, he was very punctual and the 
instructor was very happy to see how well he did and how eager he was 
to learn. After completing training, the Job Developer placed him as a 
welder at Gladden Equipment Erectors. His starting pay was $10.50 per 
hour and soon after, he began to travel to different States to work for 
the company. He sometimes spends a month traveling with the company. 
Today, he still works for the same company and earns $14.00 per hour.

Hugo Sanchez
    Hugo had not graduated from high school when he came to CVOC to 
register for the Cashiering Program in March 2004. He was hoping to 
obtain his GED, enroll in ESL classes, and obtain a Vocational Training 
Certificate. While he was attending classroom training, he found the 
cashiering class was too easy for him so he decided to transfer to 
General Business Occupations (GBO) training. While in training, he 
obtained his GED, improved his English skills, and completed GBO 
training. After completing training, he started working as a temporary 
data entry teller at E & J Gallo Winery in August of 2004 earning 
$11.14 per hour. Since this job was temporary, he found another job. In 
November 2004, he started working at Foster Farms Dairy where he 
started earning $12.83 per hour. He continues to work for them and now 
earns $16.97 per hour. In May 2006 he will be making $18.90 per hour as 
the CAT supervisor

Julian Diaz
    Before Julian Diaz came to CVOC, he was working as a farm worker 
and at Wal-Mart. Julian was living with his parents in Modesto Housing 
Authority's Public Housing. He wanted to become a welder and he 
discovered that CVOC offered this training. He saw the CVOC ad in the 
Modesto Bee and he decided to call. Julian began his 22-week training 
in welding in September of 2005. He completed his training on February 
24, 2006. Even though he finished all his exams in January, Julian 
decided to stay until February to gain more skills. He was a great 
student and attended class every day. His instructor was very pleased 
with his hard work. The instructor even helped him find work.
    Julian is now working as a welder at West-Mark in Atwater making 
$11.00 per hour. He will soon be receiving health benefits and 401k. 
Julian has achieved all the goals he hoped to achieve and is very happy 
that he chose CVOC for his training. Julian even went as far as calling 
the welding instructor in tears on his first day of work to express his 
gratitude for the training, job skills, tools, and the opportunity that 
was given to him.
                                 ______
                                 

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                Prepared Statement of the AIDS Institute

    The AIDS Institute, a national public policy research, advocacy, 
and education organization, is pleased to submit written comments to 
you in support of a number of critical HIV/AIDS and Hepatitis programs 
as part of the fiscal year 2007 Labor, Health, and Education and 
Related Services appropriation measure. We thank you for your 
consistent support of these programs over the years, and trust you will 
do your best to adequately fund them in the future in order to provide 
for, and protect the health of, many Americans.

                                HIV/AIDS

    HIV/AIDS remains one of the world's worst health pandemics in the 
history of civilization. Worldwide, some 40 million people are infected 
with this incurable infectious disease, and 14,000 new infections occur 
each passing day. Tragically, AIDS has already claimed the lives of 25 
million people. Here in the United States, according to the CDC, 
944,305 people have been diagnosed with AIDS, and over 529,000 people 
have died through 2004. It is estimated there are more than 40,000 new 
infections in the United States each year. At the end of 2003, an 
estimated 1,039,000 to 1,185,000 persons in the United States were 
living with HIV/AIDS.
    Persons of minority races and ethnicities are disproportionately 
affected by HIV/AIDS. In 2003, African Americans, who make up 
approximately 12 percent of the U.S. population, accounted for half of 
the HIV/AIDS cases diagnosed. HIV/AIDS also disproportionately affects 
the poor, and about 70 percent of those infected rely on public health 
care financing.
    The U.S. Government has played a leading role in fighting the AIDS 
epidemic, both at home and abroad. The vast majority of the 
discretionary programs supporting HIV/AIDS efforts domestically and a 
portion of our Nation's contribution to the global AIDS effort are 
funded through your subcommittee. The AIDS Institute, working in 
coalition with other AIDS organizations, have developed realistic and 
practical funding request numbers for each of these domestic and global 
AIDS programs. The AIDS Institute asks that you do your best to 
adequately fund these programs at the requested level.
    We are keenly aware of the current budget constraints and competing 
interests for limited Federal dollars. Unfortunately, despite the 
growing need, almost all domestic HIV/AIDS programs in recent years 
have experienced funding decreases.
    This year, the President has proposed three new domestic HIV/AIDS 
initiatives by providing $70 million for getting prescription drugs to 
those who need them; $90 million for testing those who do not yet know 
their status; and $25 million to help raise the awareness of those who 
do not know they should be tested. The AIDS Institute applauds these 
initiatives and encourages the subcommittee to fund these increases.

                           RYAN WHITE CARE ACT
                        [In millions of dollars]
------------------------------------------------------------------------
                        Fiscal year                             Amount
------------------------------------------------------------------------
2005.......................................................        2,048
2006.......................................................        2,038
2007 President's request...................................        2,133
2007 community request.....................................        2,631
------------------------------------------------------------------------

    The centerpiece of the Federal Government's response to caring and 
treating low-income individuals with HIV/AIDS are those programs funded 
under the Ryan White CARE Act. CARE Act programs currently reach over 
571,000 low-income, uninsured, and underinsured people each year, most 
of who are from a racial or ethnic minority group. The majority of CARE 
Act funds support primary medical care and essential support services.
    Providing care and treatment for those who have HIV/AIDS is not 
only the compassionate thing to do, but it is cost-effective in the 
long run, and serves as a tool in prevention of HIV/AIDS.
    In recent years, with the exception of minor increases for the AIDS 
Drug Assistance Program (ADAP), CARE Act funding has decreased. Because 
of across the board recessions, flat funding has actually resulted in 
budget cuts for the past several years. We urge you to provide these 
vitally important programs with the community requested level of 
funding. Consider the following:
    (1) The caseload is increasing. People are living longer with HIV/
AIDS due to lifesaving medications; there are 40,000 new infections 
each year; and the Federal Government has initiated increased testing 
programs to identify positive people-all of which will necessitate the 
need for more medical services and medications.
    (2) There is a greater financial burden on CARE Act programs. The 
price of healthcare, including medications, is increasing; non-profit 
organizations are struggling; Medicaid benefits are being scaled-back 
at the State level and significant Medicaid reductions recently passed 
the Congress.
    (3) Level or decreased funding for the CARE Act is impacting State 
and local governments grant awards. Because of reduced funding levels, 
34 out of the 51 largest cities affected by HIV/AIDS experienced cuts 
to their Title I awards this year. This is after 18 cities experienced 
cuts last year. Additionally, 41 States and territories received less 
money last year in their Title II base awards.
    (4) ADAP funding shortfalls are causing States to place clients on 
waiting lists, limiting drug formularies, and increasing eligibility 
requirements. In February 2006, nine States reported having waiting 
lists, totaling 791 people. Several ADAPs reported other cost 
containment measures, including formulary reductions (4), eligibility 
restrictions (2) and limiting annual client expenditures (2). Due to 
the small increase the ADAP program was given last year, additional 
severe restrictions are anticipated in many additional States across 
the country.
    (5) Two recent reports conclude there are a staggering number of 
people in the United States who are not receiving life-saving AIDS 
medications. The Institute of Medicine report ``Public Financing and 
Delivery of HIV/AIDS Care, Securing the Legacy of Ryan White'' 
concluded that 233,069 people in the United States who know their HIV 
status do not have continuous access to Highly Active Antiretroviral 
Therapy (HAART). A study by the CDC titled, ``Estimated number of HIV-
infected persons eligible for and receiving antiretroviral therapy, 
2003--United States'', reached similar conclusions. According to CDC's 
estimates, 212,000, or 44 percent of eligible people living with HIV/
AIDS, aged 15-49 in the United States, are not receiving antiretroviral 
therapy. The report concludes, ``there is a substantial unmet health 
care need for antiretroviral therapy among HIV-infected persons in 
care.''
    This is a travesty in our own country. As we seek to provide 
lifesaving medications to those abroad, we must ensure we are providing 
medications to our own here in the United States.
    Fiscal Year 2007 Administration Initiative.--The AIDS Institute is 
in strong support of President Bush's proposed increase of $70 million 
for ``States in need to bridge the existing gaps in coverage for 
Americans waiting for life-saving medications. These funds would help 
the States end current waiting lists and help support care for 
additional patients.'' Since ADAP only received a funding increase of 
$2 million in fiscal year 2006 and the need number for fiscal year 2007 
is $197 million, the $70 million increase, while certainly not enough, 
is a welcome increase. We urge the Committee to approve this long 
overdue increase.
    Additionally, President Bush proposed an increase of additional $25 
million Title III Ryan White CARE Act funding ``to significantly 
strengthen outreach by local community and faith-based organizations in 
hardest hit areas. These grants would help raise awareness, increase 
early detection, combat stigma, and facilitate access to treatment, 
especially for African-American, Hispanic, Native American, and other 
minority community groups whose need is often greatest.'' This 
additional funding is also extremely worthy of funding, and the 
administration should be commended for its proposal.
    The AIDS Institute supports continued and increased funding for the 
Minority HIV/AIDS Initiative (MHAI). MHAI funds services nationwide 
that address the disproportionate impact that HIV has on communities of 
color.

     CENTERS FOR DISEASE CONTROL AND PREVENTION--HIV PREVENTION AND
                              SURVEILLANCE
                        [In millions of dollars]
------------------------------------------------------------------------
                        Fiscal year                             Amount
------------------------------------------------------------------------
2005.......................................................          662
2006.......................................................          651
2007 President's request...................................          740
2007 community request.....................................        1,049
------------------------------------------------------------------------

    While the number of new HIV infections in the United States has 
greatly decreased since the 1980's, there are still an estimated 40,000 
new infections each year. Since AIDS is a preventable disease, these 
are 40,000 new infections annually that could have been prevented. 
Leading the Federal Government's campaign in AIDS prevention is the 
CDC. As with other domestic AIDS programs, funding is severely lagging, 
and the CDC is being asked to do more with fewer and fewer dollars. In 
fact, CDC's AIDS funding has declined in the last 4 years in a row. It 
is not surprising given the budget decreases, the administration's goal 
of reducing the infection rate in half by 2005 did not occur.
    Fiscal Year 2007 Administration Initiative.--The AIDS Institute is 
in strong support of President Bush's proposed increase of $90 million 
``to the purchase and distribution of rapid HIV test kits, facilitating 
the testing of more than 3 million additional Americans. Test kits 
would be distributed in areas of the country with the highest rates of 
newly discovered HIV cases, and the highest suspected rates of 
undetected cases.'' A large portion of the funds would be used for the 
testing of prisoners and intravenous drug users, two groups with 
extremely high levels of infections. Knowledge of one's HIV status, 
particularly for high risk individuals, is an effective prevention 
tool. Approximately one quarter of the over 1 million people living 
with HIV in the United States (252,000 to 312,000 persons) are unaware 
of their HIV status. This initiative, if funded by the Congress, should 
help prevent future infections and bring additional people into 
lifesaving treatment and care. The AIDS Institute urges the Committee 
to fund this extremely worthy program.
    While The AIDS Institute supports increased testing programs, we do 
not support funding those efforts at the expense of prevention 
intervention programs. Funding for these programs are already under 
funded.
    We are pleased to hear that the new leadership of CDC's HIV 
prevention programs has pledged to make the CDC budget more 
transparent, and will better detail where the funds are being spent, 
and on what populations and programs. For far too long, this 
information has not been made available.
    Efforts to improve prevention methods and weed out non-effective 
programs should be a constant undertaking and be guided by science and 
fact based decision-making. It is for these reasons that The AIDS 
Institute opposes funding of abstinence-only until marriage programs, 
for which the President requested a $27 million increase. While we 
support abstinence-based prevention programs as part of a comprehensive 
prevention message, there is no scientific proof that abstinence-only 
programs work. On the contrary, they reject proven prevention tools, 
such as condoms, and fail to address the needs of homosexuals, who can 
not marry, and who remain greatly impacted by HIV/AIDS. Given that 
approximately one-half of all new infections in the United States are 
among those under the age of 25, it is essential that our youth be 
given the proper tools to prevent HIV infection.

               NATIONAL INSTITUTES OF HEALTH-AIDS RESEARCH
                         [In million of dollars]
------------------------------------------------------------------------
                        Fiscal year                             Amount
------------------------------------------------------------------------
2005.......................................................        2,921
2006.......................................................        2,903
2007 President's request...................................        2,888
2007 community request.....................................        3,000
------------------------------------------------------------------------

    Through the NIH, research is conducted to: understand the AIDS 
virus and its complicated mutations; discover new drug treatments; 
develop a vaccine and other prevention programs such as microbicides; 
and ultimately, a cure. Much of this work at the NIH is done in 
cooperation with private funding and ingenuity. The critically 
important work performed by the NIH not only benefits those in the 
United States, but the entire world.
    This research has already helped in the development of many highly 
effective new drug treatments, prolonging the lives of millions of 
people. Undoubtedly, the commitment of the Congress and the 
administration to double NIH funding over the past 5 years has led to 
great advances. As neither a cure nor a vaccine exists, and patients 
continue to build resistance to existing medications, additional 
research in cooperation with private interests must continue. We are 
disappointed the President's budget is proposing a decrease of $15 
million in AIDS research for fiscal year 2007. We ask the Committee to 
fund NIH, including critical AIDS research, at the community requested 
level of $30 billion.

Substance Abuse and Mental Health Services Administration
    It is widely known that many persons infected with HIV also 
experience drug abuse and/or mental health problems, and require the 
programs funded by SAMHSA. Given the growing need for services, we are 
disappointed that overall funding requested for SAMHSA is down by $71 
million, and the Center for Substance Abuse Treatment is being cut by 
$24 million, the Center for Substance Abuse Prevention is cut by $12 
million, and the Center for Mental Health Services is cut by $35 
million. We ask the Committee to reject these cuts, and adequately fund 
these programs.

                            VIRAL HEPATITIS

    Viral Hepatitis, whether A, B, or C, are infectious diseases that 
also deserve special attention by the Federal Government and the 
subcommittee. According to the CDC, there are an estimated 1.25 million 
Americans chronically infected with Hepatitis B, and 73,000 new 
infections each year. Although there is no cure, a vaccine has been 
available since 1982, and there are a few treatment options available. 
An estimated 3.9 million (1.8 percent) Americans have been infected 
with Hepatitis C, of whom 2.7 million are chronically infected. 
Currently, there is no vaccine or cure, and very few treatment options 
available. It is believed that one-third of those infected with HIV are 
co-infected with Hepatitis C.
    Given these numbers, we are disappointed that the administration is 
proposing to cut the 317 Immunization Grant Program funds that serve as 
the major source in the public sector for at-risk adult immunizations. 
Instead of facing cuts, since the vaccines are relatively inexpensive, 
this cost-effective program should be significantly enhanced in order 
to protect people from Hepatitis A and B. We recommend funding the 317 
Program at $800 million for fiscal year 2007 in order to fully realize 
the public health benefits of immunization.
    The administration is also calling for decreased funding for Viral 
Hepatitis at the CDC. The program is currently funded at a level less 
than it was in fiscal year 2003, and falls way short of the $50 million 
that is needed. These funds are needed to establish a program to lower 
the incidence of Hepatitis C through education, outreach, and 
surveillance, and to support such initiatives as the CDC National 
Hepatitis C Prevention Strategy and the 2002 NIH Consensus Statement on 
the Management of Hepatitis C and accompanying recommendations.
    The AIDS Institute asks that you give great weight to our testimony 
and remember it as you deliberate over the fiscal year 2007 
appropriation bill. Should you have any questions or comments, feel 
free to contact Carl Schmid, Director of Federal Affairs, The AIDS 
Institute (202) 462-3042 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="274454444f4a4e4367534f42464e43544e4954534e535253420948554009">[email&#160;protected]</a> Thank you 
very much.
                                 ______
                                 
    Prepared Statement of the American Academy of Family Physicians

    The 94,000-member American Academy of Family Physicians submits 
this statement for the record to the Senate Appropriations Subcommittee 
on Labor/Health and Human Services, Education and Related Agencies. Our 
statement is made in support of the Section 747 Primary Care Medicine 
and Dentistry Cluster. The Academy also supports the Agency for 
Healthcare Research and Quality (AHRQ) and rural health programs.

              BRIEF BACKGROUND: TRAINING FAMILY PHYSICIANS

    Section 747 within the Public Health Service Act is the only 
Federal program that funds training for family physicians. The law 
requires the program to meet two goals: (1) increase the number of 
primary care physicians (family physicians, general internists and 
general pediatricians) and (2) boost the number of people to provide 
care to the underserved. Regarding family medicine specifically, 
Section 747 offers competitive grants for training programs in medical 
school and in residency programs.
    The fiscal year 2006 spending bill provided $41 million to Section 
747, a figure that was a significant cut from the $88.8 million the 
cluster received in fiscal year 2005. And, unfortunately, the 
President's fiscal year 2007 budget proposed zero dollars for the 
program. We urge Congress to fund Section 747 at fiscal year 2005 
levels ($88.8 million).

                       WHO ARE FAMILY PHYSICIANS?

    Family physicians are the specialists trained to provide 
comprehensive, coordinated and continuing care to patients of both 
genders and all ages and ethnicities, regardless of medical condition. 
These residency-trained, primary care physicians treat babies with ear 
infections, adolescents who are obese, adults with depression and 
seniors with multiple, chronic illnesses. And because they focus on 
prevention, primary care, and integrating care for their patients, they 
are able to treat illnesses early and cost-effectively. In addition, 
when necessary, family physicians help patients navigate our complex 
health system and find the right subspecialists. Finally, family 
physicians are distributed throughout the country in approximately the 
same proportion as the population: about one-quarter of all Americans 
live in rural areas and about 25 percent of family physicians practice 
there, as well.

    COMMUNITY HEALTH CENTERS: UNDERSTAFFED WITH SHORTAGES OF FAMILY 
                               PHYSICIANS

    Over the last few years, the administration has made increasing the 
number of Community Health Centers (CHCs) a priority within its health 
care budget. Specifically, the President's fiscal year 2007 blueprint 
recommends an increase of $181 million for CHCs, which would increase 
funding to nearly $2 billion. These dollars would complete the 
administration's goal to create 1,200 health center sites around the 
Nation. While a laudable objective, this funding does not take into 
account staffing issues at these centers; the CHC dollars go primarily 
to so-called ``bricks and mortar,'' i.e., construction of the health 
care clinics.
    The additional funding recommended in the President's budget to 
build Community Health Centers, and the zero dollars proposed to train 
family physicians under Section 747, are a serious disconnect: primary 
care physicians make up nearly 90 percent of doctors working in CHCs--
and most are family physicians. In short, without more family 
physicians, no one will be available to staff these new centers.
    This point was brought home in a March 1, 2006 article in the 
Journal of the American Medical Association (JAMA). The authors found 
that in 2004, CHCs were understaffed and could not fill all clinical 
positions (Rosenblatt, et al.). Rural health centers had more openings 
that took longer to fill than those in urban areas. More alarmingly, 
over 13 percent of family physician positions at CHCs were vacant.
    As the only Federal program that trains family physicians, funding 
for Section 747 is critical. Without Section 747 to train family 
physicians, CHCs staffing problems will get worse.

  SECTION 747 PRODUCES DOCTORS WHO WORK IN CHCS AND SERVE IN THE NHSC

    A second study buttresses the importance of family physicians to 
CHCs and to the National Health Service Corps, which is another 
administration priority. An unpublished 2006 study from the University 
of California, San Francisco and the Robert Graham Center for Policy 
Studies in Family Medicine and Primary Care shows that medical schools 
that receive Section 747 dollars produce physicians who work in CHCs 
and serve in the National Health Service Corps compared to schools 
without this funding.
    The finding is particularly true for family physicians. 
Specifically, according to the study, nearly 4,000 family physicians 
and general practitioners were exposed to Title VII funding during 
medical school and subsequently chose to work in a CHC. Without this 
exposure, at least 750 fewer family physicians would have been working 
in a CHC in 2003. Coupled with the JAMA article, which shows that there 
are 600 vacancies for family physicians, without Section 747 funding, 
there would be twice as many vacancies in health centers.

              LOWER HEALTH CARE COSTS AND IMPROVED QUALITY

    Section 747 plays a role in lowering our Nation's health care costs 
and increasing the quality of U.S. health care. For example, an article 
in Health Affairs (April 2004) demonstrated that States that spent more 
on Medicare had lower quality of care. While seemingly 
counterintuitive, the authors found two reasons for this result.
    The first reason was that expensive health care did not improve 
patient satisfaction or outcomes. The second reason was that the makeup 
of the health care workforce made a difference: more primary care 
doctors in a State meant higher quality care and lower cost. In 
contrast, more specialists and fewer generalists led to lower quality 
and higher costs. And, just a small increase in the number of primary 
care doctors in a State was associated with a large boost in that 
State's quality ranking.
    The first reason was that expensive health care did not improve 
patient satisfaction or outcomes. The second reason was that the makeup 
of the health care workforce made a difference: more primary care 
doctors in a State meant higher quality care and lower cost. In 
contrast, more specialists and fewer generalists led to lower quality 
and higher costs. And, just a small increase in the number of primary 
care doctors in a State was associated with a large boost in that 
State's quality ranking.
    An article in a March 2005 edition of Health Affairs, ``The Effects 
of Specialist Supply on Populations' Health: Assessing the Evidence'' 
went even further. This piece stated that there was a ``negative 
relationship between the supply of primary care physicians and death 
from stroke, infant mortality and low-birthweight, and all-cause 
mortality.'' The article went on to say that just one more primary care 
physician per 10,000 people was associated with a decrease of 34.6 
deaths per 100,000 people.
    The article also cited breast cancer research for the State of 
Florida, which indicated that ``each tenth-percentile increase in 
primary care physician supply is associated with a statistically 
significant 4 percent increase in odds of early-stage breast cancer.'' 
Statistics were similar for other types of cancers: there was a 
relationship between early identification of cancer and the supply of 
primary care physicians. Numerous other research was highlighted in the 
Health Affairs article that indicated a higher ratio of primary care 
physicians to populations led to better health outcomes. These data 
support the need for additional funding for Section 747, the only 
Federal program that produces primary care physicians.

     THE OVERSPECIALIZED U.S. PHYSICIAN WORKFORCE: A WORLD ANOMALY

    Unlike all other developed countries, the United States does not 
have a primary care-based health care system. While other developed 
countries have about equal numbers of primary care physicians and 
subspecialists, in the United States, less than one-third of the 
physician workforce is primary care.
    More disturbingly, compared to developed countries, the United 
States spends the most per capita on healthcare--but has some of the 
worst healthcare outcomes. More than 20 years of evidence have shown 
that a health system based on primary care produces greater health and 
economic benefits. Boosting support for Section 747, which funds 
training for family physicians and for other primary care disciplines, 
could improve the health of patients in the United States.

              AGENCY FOR HEALTHCARE, RESEARCH AND QUALITY

    The Academy recommends $440 million for the Agency for Healthcare, 
Research and Quality (AHRQ). A major purpose of AHRQ is to conduct 
primary care and health services research geared to physician 
practices, health plans and policymakers. What this means is that the 
agency translates research findings from basic science entities like 
the National Institutes of Health (NIH) into information that doctors 
can use every day in their practices. Another key function of the 
agency is to support research on the conditions that affect most 
Americans.
    More recently, AHRQ has become the lead Federal agency for research 
on comparative clinical effectiveness; information technology; and 
patient safety. For example, the Medicare Modernization Act asked AHRQ 
to study the ``clinical effectiveness and appropriateness of specified 
health services and treatments,'' and to use this information to 
improve the quality and effectiveness of the costly Medicare, Medicaid 
and SCHIP programs. In fiscal year 2006, $15 million was appropriated 
by Congress for this purpose. This type of study on ``what works'' in 
clinical therapies is crucial in an era of skyrocketing health care 
costs and limited Federal dollars.
    Historically, however, AHRQ has been the lead agency to translate 
research into information for physicians and patients. Over the years, 
Congress has provided billions of dollars to the National Institutes of 
Health, which has resulted in important insights in preventing and 
curing major diseases. However, AHRQ's role has been to take this basic 
science and produce understandable, practical materials for the entire 
healthcare system. In short, AHRQ is the link between research and the 
patient care that Americans receive.
    In addition, AHRQ has long-supported research on conditions that 
affect most people. Most Americans get their medical care in doctors' 
offices and clinics. However, most medical research comes from the 
study of extremely ill patients in hospitals. AHRQ studies and supports 
research on the types of illness that trouble most people. In brief, 
AHRQ looks at the problems that bring people to their doctors every 
day--not the problems that send them to the hospital.

                         RURAL HEALTH PROGRAMS

    Continued funding for rural programs is vital to provide adequate 
health care services to America's rural citizens. We support the 
Federal Office of Rural Health Policy; Area Health Education Centers; 
the Community and Migrant Health Center Program; and the NHSC. State 
rural health offices, funded through the National Health Services Corps 
budget, help States implement these programs so that rural residents 
benefit as much as urban patients.

                               CONCLUSION

    The Academy urges Congress to fund Section 747 at fiscal year 2005 
levels ($88.8 million). We believe that the two recent studies showing 
that Community Health Centers not only rely heavily on family 
physicians, but cannot fill all of their positions, and the data 
indicating the crucial role that primary care training plays in whether 
physicians practice in CHCs or serve in the NHSC, make an irrefutable 
case for funding Section 747. In addition, however, family physicians 
are critical to the health and well-being of everyone in the country. 
Finally, all of these studies, authored by different researchers, are 
consistent: Section 747 works.
    The AAFP also urges Congress to fund the Agency for Healthcare 
Research and Quality at $440 million; and support rural health 
programs. We thank you in advance for making these investments in 
America's healthcare system.
                                 ______
                                 
        Prepared Statement of the American Academy of Pediatrics

    There can be no denying that there have been numerous and 
significant successes in improving the health and well-being of 
America's children and adolescents, from even just decades ago. Infant 
and child mortality rates have been radically lowered. The number of 2-
year-olds who have received the recommended series of immunizations is 
at an all-time high, while vaccine-preventable diseases such as 
measles, pertussis, and diphtheria have decreased by over 98 percent 
Teen pregnancy rates have declined by 27 percent over the last decade. 
Still, despite these successes, far too many children in America 
continue to suffer from disease, injury, abuse, racial and ethnic 
health disparities, or lack of access to quality care. And more than 9 
million children and adolescents through age 18 remain uninsured. 
Clearly there remains much work to do.
    As clinicians we not only diagnose and treat our patients, we must 
also promote strong preventive interventions to improve the overall 
health and well-being of all infants, children, adolescents and young 
adults. Likewise, as policy-makers, you have an integral role to play 
in improving the health of the next generation through adequate and 
sustained funding of vital Federal programs.
    The AAP, SAM and APA have identified three key priorities within 
this Committee's jurisdiction that are at the heart of improving the 
health and well-being of America's children and adolescents: access to 
health care, quality of health care, and immunizations.

                                 ACCESS

    We believe that all children and adolescents should have full 
access to comprehensive, age-appropriate, quality health care. From the 
ability to receive primary care from a pediatrician trained in the 
unique needs of children and adolescents, to timely access, to 
pediatric medical subspecialists and pediatric surgical specialists, 
America's children and adolescents deserve access to quality pediatric 
care in a medical home. Given the recent cuts to the Medicaid program 
and fiscal belt-tightening in the States, discretionary programs now 
more than ever provide a vital health care safety net for America's 
most vulnerable children and adolescents.
    Maternal and Child Health Block Grant.--The Maternal and Child 
Health (MCH) Block Grant Program at the Health Resources and Services 
Administration (HRSA) is the only Federal program exclusively dedicated 
to improving the health of all mothers and children. Nationwide, the 
MCH Block Grant Program provides preventive and primary care services 
to over 32 million women, infants, children, adolescents and children 
with special health care needs. In addition, the MCH Block Grant 
Program supports community programs around the country in their efforts 
to reduce infant mortality, prevent injury and violence, expand access 
to oral health care, and address racial and ethnic health disparities. 
Moreover, the MCH Block Grant Program includes efforts dedicated to 
addressing interdisciplinary training, services and research for 
adolescents' physical and mental health care needs, and supports 
programs for vulnerable adolescent populations, including health care 
initiatives for incarcerated and minority adolescents, and violence and 
suicide prevention. It also plays an important role in the 
implementation of the State Children's Health Insurance Program 
(SCHIP), which is critically important at a time when States are 
struggling with ongoing deficits and shifting costs. One of the many 
successful MCH Block Grant programs is the Healthy Tomorrows 
Partnership for Children Program, a public/private collaboration 
between the MCH Bureau and the American Academy of Pediatrics. 
Established in 1989, Healthy Tomorrows has supported over 140 family-
centered, community-based initiatives in 44 States, including Ohio, 
Wisconsin, Texas, California, Kentucky, Rhode Island, and Maryland. 
These initiatives have addressed issues such as access to oral and 
mental health care, abstinence, injury prevention, and enhanced 
clinical services for chronic conditions such as asthma. To continue to 
foster these and other community-based solutions for local health 
problems, in fiscal year 2007 we strongly support an increase in 
funding for the MCH Block Grant Program to $724 million.
    Family Planning Services.--The family planning program, Title X of 
the Public Health Services Act, ensures that all teens have 
confidential access to valuable family planning resources. For every 
dollar spent on family planning through Title X, $3 is saved in 
pregnancy-related and newborn care costs to Medicaid. Title X--which 
does not provide funding for abortion services--provides critically 
needed preventive care services like pap tests, breast exams, and STI 
tests to millions of adolescents and women. But funding for Title X 
continues to fall well below the need. Over 9 million cases of STIs 
(almost half the total number) are in 15- to 24-year-olds, and over 30 
percent of women will become pregnant at least once before age 20. Teen 
pregnancy rates continue to vary over racial and ethnic groups, and 
nearly half (48 percent) of all teens say that they want more 
information from--and increased access to--sexual health care services. 
Responsible sexual decision-making, beginning with abstinence, is the 
surest way to protect against sexually transmitted infections and 
pregnancy. However, for adolescent patients who are already sexually 
active, confidential contraceptive services, screening and prevention 
strategies should be available. We therefore support a funding level in 
fiscal year 2007 of $375 million for Title X of the Public Health 
Service Act.
    Mental Health.--It is estimated that over 13 million children and 
adolescents have a mental health problem such as depression, ADHD, or 
an eating disorder, and for as many as 6 million this problem may be 
significant enough to disturb school attendance, interrupt social 
interactions, and disrupt family life. Despite these statistics, the 
National Institute of Mental Health (NIMH) estimates that 75-80 percent 
of these children fail to receive mental health specialty services, due 
to stigma and the lack of affordability of care and availability of 
specialists. Grants through the Children's Mental Health Services 
program have been instrumental in achieving decreased utilization of 
inpatient services, improvement in school attendance and lower law 
enforcement contact for children and adolescents. We recommend that 
$109.7 million be allocated in fiscal year 2007 for the Mental Health 
Services for Children program to continue these improvements for 
children and adolescents with mental health problems.
    Child Abuse and Neglect.--Health care providers play a crucial role 
in the prevention, identification, and treatment of child abuse and 
neglect. In spite of this fact, few Federal resources are dedicated to 
bringing the medical profession into full partnership with law 
enforcement, the judiciary, and social workers. We urge the 
subcommittee to provide an increase of $10 million in fiscal year 2007 
for the Center for Disease Control and Prevention's National Center for 
Injury Prevention and Control to establish a network of consortia to 
link and leverage health care professionals and resources to address--
and ultimately prevent--child abuse and neglect.
    Health Professions Education and Training.--Critical to building a 
pediatric workforce to care for tomorrow's children and adolescents are 
the Training Grants in Primary Care Medicine and Dentistry, found in 
Title VII of the Public Health Service Act. These grants are the only 
Federal support targeted to the training of primary care professionals. 
They provide funding for innovative pediatric residency training, 
faculty development and post-doctoral programs throughout the country. 
For example, the Montefiore Medical Center in the South Bronx of New 
York City has used Title VII funds to support its Residency Training 
Program in Social Pediatrics (RPSP). Initiated in response to local 
needs to prepare physicians for the delivery of care to underserved 
populations and to practice specifically at Community Health Centers in 
the inner-city setting, RPSP simultaneously trains physicians in 
neighborhood health centers and in an academic hospital. Since its 
inception, RPSP has graduated over one hundred pediatricians, a large 
number of whom are women and minority physicians. Additionally, 79 
percent of all RPSP graduates report that they currently practice in 
community-oriented primary care settings serving predominately poor and 
minority inner-city populations. Another 10 percent of RPSP graduates 
report that they are involved in professional activities such as health 
administration and policy, including directing patient care in 
community health centers.
    Through the continuing efforts of this subcommittee, Title VII has 
provided a vital source of funding for critically important programs 
that educate and train tomorrow's generalist pediatricians in a variety 
of settings to be culturally competent and to meet the special health 
care needs of their communities. We recommend fiscal year 2007 funding 
of at least $40 million for General Internal Medicine/General 
Pediatrics. We also join with the Health Professions and Nursing 
Education Coalition in supporting an appropriation of at least $550 
million in total funding for Titles VII and VIII. We applaud the 
administration's support for the National Health Service Corps and 
Community Health Centers, key components with Title VII to ensuring an 
adequate distribution of health care providers across the country; but 
we emphasize the need for continued support of the training and 
education opportunities through Title VII for health care professionals 
who provide care for our Nation's communities.
    Independent Children's Teaching Hospitals.--Equally important to 
the future of pediatric education and research is the dilemma faced by 
independent children's teaching hospitals. In addition to providing 
critical care to the Nation's children, independent children's 
hospitals play a significant role in training tomorrow's pediatricians 
and pediatric subspecialists. Children's hospitals train 30 percent of 
all pediatricians, half of all pediatric subspecialists, and the 
majority of pediatric researchers. However, children's hospitals 
qualify for very limited Medicare support, the primary source of 
funding for graduate medical education in other inpatient environments. 
As a bipartisan Congress has recognized in the last several years, 
equitable funding for Children's Hospitals Graduate Medical Education 
(CHGME) is needed to continue the education and research programs in 
these child- and adolescent-centered settings. Since 2000, CHGME 
hospitals accounted for nearly 87 percent of the growth in pediatric 
subspecialty training programs and 68 percent of the growth in 
pediatric subspecialty fellows trained. We are extremely disappointed 
in the 67 percent reduction in funding for this vital program proposed 
by the administration, and join with the National Association of 
Children's Hospitals to restore funding of $303 million for the CHGME 
program in fiscal year 2007. The support for independent children's 
hospitals should not come, however, at the expense of valuable Title 
VII and VIII programs, including grant support for primary care 
training.

                                QUALITY

    Access to health care is only the first step in protecting the 
health of all children and adolescents. We must ensure that the care 
provided is of the highest quality. Robust Federal support for the wide 
array of quality improvement initiatives, including research, is needed 
if this goal is to be achieved.
    Emergency Services for Children.--One program that assists local 
communities in providing quality care to children in distress is the 
Emergency Medical Services for Children (EMSC) grant program. There are 
approximately 30 million child and adolescent visits to the Nation's 
emergency departments every year. Children under the age of 3 years 
account for most of these visits. Up to 20 percent of children needing 
emergency care have underlying medical conditions such as asthma, 
diabetes, sickle-cell disease, low birthweight, and bronchopulmonary 
dysplasia. A CDC report issued in February of 2006 reaffirmed that more 
hospitals must be properly equipped and clinicians must be educated and 
trained to manage these special health care needs in emergency 
situations. In addition, emergency systems must be equipped with the 
resources needed to care for this especially vulnerable population. In 
order to assist local communities in providing the best emergency care 
to children, we once again reject the administration's proposed 
elimination of the EMSC program and strongly urge that the EMSC program 
be maintained and adequately funded at $25 million in fiscal year 2007.
    Agency for Healthcare Research and Quality.--Quality of care rests 
on quality research--for new detection methods, new treatments, new 
technology and new applications of science. As the lead Federal agency 
on quality of care research, the Agency for Healthcare Research and 
Quality (AHRQ) provides the scientific basis to improve the quality of 
care, supports emerging critical issues in health care delivery and 
addresses the particular needs of priority populations, such as 
children. Substantial gaps still remain in what we know about health 
care needs for children and adolescents and how we can best address 
those needs. Children are often excluded from research that could 
address these issues. The AAP and endorsing organizations strongly 
support AHRQ's objective to encourage researchers to include children 
and adolescents as part of their research populations. We also support 
increasing AHRQ's efforts to build pediatric health services research 
capacity through career and faculty development awards and strong 
practice-based research networks. Additionally, AHRQ is focusing on 
initiatives in community and rural hospitals to reduce medical errors 
and to improve patient safety through innovative use of information 
technology--an initiative that we hope would include children's 
hospitals as well. Through its research and quality agenda, AHRQ 
continues to provide policymakers, health care providers, and patients 
with critical information needed to improve health care; therefore, we 
join with the Friends of AHRQ to recommend funding of $440 million for 
AHRQ in fiscal year 2007.
    National Institutes of Health.--Since its inception, the National 
Institutes of Health (NIH) has been an integral part of the public 
health continuum. NIH serves as a vital component in improving the 
Nation's health through research, both on and off the NIH campus, and 
in the training of researchers, including pediatric investigators. Over 
the years, NIH has made dramatic strides that directly impact the 
quality of life for infants, children and adolescents through 
biomedical and behavioral research. For example, NIH research has led 
to successfully decreasing infant death rates by over 70 percent, 
increasing the survival rates from respiratory distress syndrome, and 
dramatically reducing the transmission of HIV from infected mother to 
fetus and infant from 25 percent to just 1.5 percent. NIH is engaged in 
a comprehensive research initiative to address and explain the reasons 
for a major public health dilemma--the increasing number of obese and 
overweight children and adults in this country. Today U.S. teenagers 
are more overweight than young people in many other developed 
countries. And the Newborn Screening Initiative is moving forward to 
improve availability, accessibility, and quality of genetic tests for 
rare conditions that can be uncovered in newborns. The pediatric 
community applauds the prior commitment of Congress to maintain 
adequate funding for the NIH. We remain concerned, however, that the 
cumulative effect of several years of flat funding will stall or even 
set back the gains that were made under the years of the NIH's budget 
doubling. We urge you to sustain the momentum of scientific discovery. 
We support the recommendation of the Ad Hoc Group for Medical Research 
for a funding level in fiscal year 2007 of $29.75 billion. In addition, 
to ensure ongoing and adequate child and adolescent focused research, 
such as the National Children's Study (NCS) led by the National 
Institute for Child Health and Human Development (NICHD), we join with 
the Friends of NICHD Coalition in requesting $1.35 billion in fiscal 
year 2007. Moreover we recommend that the NCS be adequately funded in 
fiscal year 2007 at $69 million to begin the implementation phase of 
this important study. We are greatly disappointed by and reject the 
administration's proposal to phase out the NCS in 2007. This large 
longitudinal study, authorized in the Children's Health Act of 2000, 
will provide critical research and information on major causes of 
childhood illnesses such as premature birth, asthma, obesity, 
preventable injury, autism, development delay, mental illness, and 
learning disorders.
    We commend this committee's ongoing efforts to make pediatric 
research a priority at the highest level of the NIH. We urge continued 
Federal support of NIH efforts to increase pediatric biomedical and 
behavioral research, including such proven programs as targeted 
training and education opportunities and loan repayment. We recommend 
continued interest in and support for the Pediatric Research Initiative 
in the Office of the NIH Director and sufficient funding to continue 
the pediatric training grant and pediatric loan repayment programs both 
enacted in the Children's Health Act of 2000. This would ensure that we 
have adequately trained pediatric researchers in multiple disciplines 
that will not come at the expense of other important programs.
    Finally, as clinicians, we know first-hand the considerable 
benefits for children and society in securing properly studied and 
dosed medications. The benefits of pediatric drug testing are 
undisputed. Proper pediatric safety and dosing information reduces 
medical errors and adverse events, ultimately improving children's 
health and reducing health care costs. In a very conservative estimate, 
the FDA projects savings from pediatric testing of over $228 million a 
year in reduced hospitalization expenses for just five diseases 
affecting children. But until now there has been little incentive for 
drug companies to study off-patent drugs--older drugs that are 
critically needed therapies for children. The Research Fund for the 
Study of Drugs, created as part of the Best Pharmaceuticals for 
Children Act of 2002, provides support for these critical pediatric 
testing needs, but unfortunately is currently funded at an amount 
sufficient to test only a fraction of the NIH and FDA-designated 
``priority'' drugs. Therefore, we urge the subcommittee to provide the 
NIH with sufficient funding to fund the study of generic (off-patent) 
and selected on-patent drugs for pediatric use.
    We believe that these requests represent the best and most reliable 
estimates of the level of funding needed to sustain the high standard 
of scientific achievement embodied by the NIH. However, we encourage 
Congress to explore all possible options to identify additional sources 
of funding needed to support these increases if we are to reach these 
funding goals while not weakening any other valuable component of the 
Public Health Service.

                              IMMUNIZATION

    Immunization remains one of the greatest public health achievements 
of the last century, saving literally millions of lives. Thanks to the 
widespread use of vaccines, millions of children have avoided serious 
and often fatal diseases that previously devastated lives. Before 
immunization, polio paralyzed 10,000-25,000 children and adults, 
rubella (German measles) caused birth defects and mental retardation in 
as many as 20,000 newborns, and measles infected millions of children, 
killing 400-500 and leaving thousands with serious brain damage each 
year. Immunizations have reduced by more than 95 percent the cases of 
vaccine-preventable infectious diseases in this country. And some, like 
rubella, are virtually eliminated from North America, thanks to 
successful immunization programs.
    Pediatricians, working alongside public health professionals and 
other partners, have brought the United States its highest immunization 
coverage levels in history--over 92 percent of children received all 
vaccinations by school age in 2004-2005. We attribute this, in part, to 
the Vaccines for Children (VFC) Program, and encourage Congress to 
maintain its commitment to ensuring the program's viability. The VFC 
program combines the efforts of public health and private pediatricians 
and other health care professionals to accomplish and sustain vaccine 
coverage goals for both today's and tomorrow's vaccines. It removes 
vaccine cost as a barrier to immunization for some and reinforces the 
concept of vaccine delivery in a ``medical home.'' However, we are 
concerned that the administration's fiscal year 2007 budget once again 
has proposed to reduce funding for the Section 317 program by 
transferring funds from that program to expand VFC. This is 
shortsighted. Additional section 317 funding is necessary to provide 
the pneumococcal conjugate vaccine (PCV-7), a vaccine that prevents an 
infection of the brain covering, blood infections and approximately 7 
million ear infections a year, to those remaining States that currently 
do not provide it. Increased Section 317 funding also is needed to 
purchase the influenza vaccine--now recommended for children between 
the ages of 6 months and 5 years of age. This age cohort is 
increasingly susceptible to serious infection and the risk of 
hospitalization. And an increase in funding is needed to purchase the 
recently recommended rotavirus vaccine, tetanus-diptheria-pertussis 
(Tdap) vaccine for adolescents and the meningococcal conjugate vaccine 
(MCV). Meningococcal disease is a serious illness, caused by bacteria, 
with 10-15 percent of cases fatal and another 10-15 percent of cases 
resulting in permanent hearing loss, mental retardation, or loss of 
limbs.
    The public health infrastructure that now supports our national 
immunization efforts must not be jeopardized with insufficient funding. 
One of the conclusions of the 2000 Institute of Medicine report, 
Calling the Shots, was that unstable funding for State immunization 
programs threatens coverage levels for specific populations and age 
groups and vaccine safety. This continues to be true today. A strong 
and sufficient infrastructure is essential. For example, adolescents 
continue to be adversely affected by vaccine-preventable diseases 
(e.g., chicken pox, hepatitis B, measles and rubella). Comprehensive 
adolescent immunization activities at the national, State and local 
levels are needed to achieve national disease elimination goals. States 
and communities continue to be financially strapped and therefore, many 
continue to divert funds and health professionals from routine 
immunization clinics in order to accommodate anti-bioterrorism 
initiatives or now pandemic influenza. Moreover, continued investment 
in the CDC's immunization activities must be made to avoid the 
reoccurrence of childhood vaccine shortages by providing and adequately 
funding a national 6 month stockpile for all routine childhood 
vaccines--stockpiles of sufficient size to insure that significant and 
unexpected interruptions in manufacturing do not result in shortages 
for children.
    While the ultimate goal of immunizations clearly is eradication of 
disease, the immediate goal must be prevention of disease in 
individuals or groups. To this end, we strongly believe that CDC's 
efforts must be sustained. In fiscal year 2007, we recommend an overall 
increase in funding above fiscal year 2006 of $282 million to ensure 
that the CDC's National Immunization Program has the funding necessary 
to accommodate vaccine price increases, new disease preventable 
vaccines coming on the market, global immunization initiatives--
including funds for polio eradication and the elimination of measles 
and rubella--and to continue to implement the recommendations developed 
by the IOM.

                               CONCLUSION

    We appreciate the opportunity to provide our recommendations for 
the coming fiscal year. As this subcommittee is once again faced with 
difficult choices and multiple priorities we know that as in the past 
years, you will not forget America's children and adolescents.
    Other recommendations for fiscal year 2007:

                 DEPARTMENT OF HEALTH AND HUMAN SERVICES
------------------------------------------------------------------------
                        Agency                               Amount
------------------------------------------------------------------------
Centers for Disease Control and Prevention (total)....    $8,500,000,000
    Polio Eradication.................................       101,254,000
    Birth Defects, Disability and Health..............       135,000,000
    Newborn Hearing Screening Technical Assistance....         9,000,000
    National Violent Death Reporting System...........        10,000,000
    Folic Acid Education Campaign.....................         4,000,000
Health Resources and Services Administration (total)..     7,500,000,000
    Newborn Hearing Screening Grants to States........        10,000,000
    Consolidated Community Health Centers.............     2,038,000,000
Substance Abuse and Mental Health Services                 3,531,000,000
 Administration (total)...............................
Indian Health Service (total).........................     3,361,000,000
Food and Drug Administration (total)..................     1,566,000,000
------------------------------------------------------------------------

                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Nursing

    The American Association of Colleges of Nursing (AACN) respectfully 
submits this statement highlighting funding priorities for nursing 
education and research programs in fiscal year 2007. AACN represents 
over 590 senior colleges and universities with baccalaureate and 
graduate nursing programs that include over 210,000 students and 11,000 
faculty members. These institutions are responsible for educating 
almost half of our Nation's registered nurses (RNs) and all of the 
nurse faculty and researchers. Nursing represents the largest health 
profession, with approximately 2.9 million dedicated, trusted 
professionals delivering primary, acute, and chronic care to millions 
of Americans.

                    THE NATIONWIDE NURSING SHORTAGE

    Our country continues to be challenged by a shortage of registered 
nurses that was first noted in 1998. This shortage is showing no signs 
of diminishing and demographics reveal that, unlike shortages in the 
past, it will affect health care delivery for the foreseeable future. 
In 2005, the American College of Healthcare Executives reported that 85 
percent of hospitals experienced a nursing shortage. The U.S. Bureau of 
Labor Statistics (BLS) has projected that our country will require an 
additional 1.2 million new and replacement registered nurses by 2014. 
Nursing has been identified by BLS as the fastest growing professional 
occupation in the country. However, according to the Health Resources 
and Services Administration (HRSA), the supply of RNs will drop 29 
percent below demand by 2020 unless deliberate action is taken to 
increase the number of nurses graduating each year and entering the 
workforce. Nursing vacancies exist throughout all health care sectors, 
including long-term care, home care, and public health. Among the 
Nation's 5,000 community health centers, the vacancy rate for RNs is 10 
percent and 9 percent for nurse practitioners. Even the Department of 
Veterans Affairs, the largest sole employer of RNs in the United 
States, has a 10 percent RN vacancy rate.
    Research clearly documents that patient safety is compromised 
without a sufficient number of RNs. In 2002, the Joint Commission on 
Accreditation of Healthcare Organizations (JCAHO) noted that the 
nursing shortage contributed to nearly a quarter of all unexpected 
incidents that adversely affect hospitalized patients. Since RNs 
comprise the largest component of a hospital workforce, shortages 
result in emergency room overcrowding and diversions, increased wait 
time for or cancellation of surgeries, discontinued patient care 
programs or reduced service hours, and delayed discharges.
    The nursing shortage also threatens homeland security and disaster 
preparedness efforts. The Government Accountability Office reported 
that local and State health officials cited the nursing shortage as an 
impediment to their preparedness efforts in 2003.
    These alarming facts are coupled with little change in contributing 
factors, such as the aging of America's population, the aging nurse 
workforce, high rates of RN retirement, and the increasing demand for 
high acuity health care services by chronically ill, medically complex 
patients. To ensure that every patient receives the safest, highest 
quality health care, Federal support must continue to play an integral 
role in our Nation's efforts to address the nursing shortage.

        CURRENT STRATEGY: NURSING WORKFORCE DEVELOPMENT PROGRAMS

    Acknowledging the severity of the Nation's nursing shortage, 
Congress passed The Nurse Reinvestment Act of 2002. This legislation 
created new programs and expanded existing Nursing Workforce 
Development authorities. Administered by HRSA under Title VIII of the 
Public Health Service Act, these programs focus on the supply and 
distribution of RNs across the country. Programs support individual 
students in their nursing studies through loans, scholarships, and loan 
repayment programs. Title VIII programs stimulate innovation in nursing 
practice and bolster nursing education throughout the continuum, from 
entry-level preparation through graduate study. They are the largest 
source of Federal funding for nursing education assisting students, 
schools of nursing, and health systems in their efforts to educate, 
recruit, and retain RNs. In fiscal year 2005, these programs helped to 
educate 52,759 student nurses through individual and programmatic 
support.
    Funding for these authorities is insufficient to address the 
severity of the nursing shortage. Currently, Nursing Workforce 
Development Programs receive $149.68 million, down from $150.67 million 
in fiscal year 2005. During the nursing shortage in 1974, Congress 
appropriated $153 million for nursing education programs. Translated 
into today's dollars, that appropriation would total $615 million, more 
than four times the current level. However, it will take billions of 
dollars to resolve today's nursing shortage.
    AACN respectfully requests $175 million for Title VIII Nursing 
Workforce Development in fiscal year 2007, an additional $25.32 million 
over fiscal year 2006. New monies would expand nursing education, 
recruitment, and retention efforts to help resolve the nursing 
shortage.

Colleges of Nursing Respond
    The approximately 1,500 schools of nursing nationwide have been 
working diligently to expand enrollments. AACN's 2005-2006 annual 
survey of 567 schools entitled, Enrollments and Graduations in 
Baccalaureate and Graduate Programs in Nursing, reveals that 
enrollments increased by 9.7 percent in entry-level baccalaureate 
nursing programs. This makes the fifth consecutive year of enrollment 
increases that can be attributed to a combination of Federal support 
through Nursing Workforce Development Programs, private sector 
marketing efforts, public-private partnerships providing additional 
resources to expand capacity of nursing programs, and State legislation 
targeting funds towards nursing scholarships and loan repayment.
    While impressive, these increases still cannot meet the demand. In 
the November 2003 issue of Health Affairs, Dr. Peter Buerhaus reported 
that nursing school enrollments would have to increase by at least 40 
percent annually just to replace those nurses who retire. Despite 
intensive efforts nationwide, AACN found that enrollments increased by 
a total of 57.2 percent, over the last 5 years in entry-level 
baccalaureate programs. Moreover, only 8.1 percent of RNs are under the 
age of 30, according to the 2004 National Sample Survey of Registered 
Nurses.
    Despite increasing enrollments and the escalating demand for RNs, 
U.S. schools of nursing still are forced to turn away eligible 
students. At least 41,683 qualified applications were turned away 
despite the increase in enrollments. This is a 27 percent increase from 
the over 32,797 denied admission in 2004, according to AACN data. 
Reasons cited for this denial are insufficient numbers of faculty, 
clinical sites, classroom space, clinical preceptors, and budget 
constraints. Over 73 percent of the schools surveyed cited the faculty 
shortage as the primary barrier to increasing enrollments. Some of 
these qualified students are placed on waiting lists for 2 years or 
more, but many good students are lost to the nursing profession.

Bottleneck: The Nurse Faculty Shortage
    AACN believes that the most effective strategy to resolve the 
nursing shortage is addressing the underlying faculty shortage. HRSA 
reported in 2004 that just 13 percent of the RN workforce holds either 
a master's or doctoral degree, credentials required to teach. In 2003, 
there were 10,500 full-time masters and doctorally prepared faculty in 
baccalaureate and graduate nursing programs. Projections through 2012 
show that the faculty pool will shrink by at least 2,000 as compared to 
2003, even after accounting for retirements, resignations, and 
additional entrants. Note that these figures do not take into account 
the need for faculty in new or expanded programs, but only represent 
present staffing requirements. If the faculty vacancy rate holds 
steady, the deficit of nurse faculty is expected to swell to over 2,600 
unfilled positions in 2012.
    This situation will only worsen with time. The number of productive 
years for nurse educators will decrease as faculty age continues to 
climb, averaging 52 years in 2004. As such, significant numbers of 
faculty are expected to retire in the coming years, but there are not 
enough candidates in the pipeline to take their places. An average of 
410 individuals are awarded doctoral degrees in nursing each year, but 
almost a quarter (23 percent) take jobs outside of academic nursing. In 
2005, AACN found a faculty vacancy rate of 8.5 percent, which 
translates into an average of approximately 2 faculty vacancies per 
school of nursing. Of those vacancies, over half, (52.6 percent) 
required a doctoral degree. Higher compensation in clinical and private 
sector settings lures current and potential nurse educators away from 
the classroom. For example, the average salary of a nurse practitioner 
in an emergency department was $84,835, according to the 2005 National 
Salary Survey of Nurse Practitioners. However, the average salary for a 
nurse practitioner in academia was only $66,925, 26.8 percent less. 
Without sufficient nurse faculty, schools of nursing cannot expand 
enrollments.
    Reversing the Trend: Nurse Faculty Loan Program (Sec. 846A).--This 
trend can be reversed with additional appropriations for the Nurse 
Faculty Loan Program. Designed to increase the number of nurse faculty, 
schools of nursing receive grants to create a loan fund. To be eligible 
for these loans, students must pursue full-time study for a masters or 
doctoral degree. In exchange for teaching at a school of nursing, loan 
recipients will have up to 85 percent of their educational loans 
cancelled over a 4-year period. A student may receive a maximum loan 
award of $30,000 per academic year for tuition, books, fees, laboratory 
expenses, and other reasonable. educational costs. In fiscal year 2005, 
66 new grants were made to schools of nursing, and 26 grants were 
continued, totaling 92. These funds will support an estimated 475 
future nurse faculty members. In fiscal year 2006, $4.77 million was 
appropriated. However, if the current funding was doubled to almost $10 
million, based on fiscal year 2005 projections, colleges of nursing 
could educate over 900 future faculty. Further, with an average faculty 
to student ratio of 1:10, those 900 faculty could teach an additional 
9,000 nurses each year.
    Advanced Education Nursing Program (Sec. 811).--These grants 
support the majority of schools of nursing preparing graduate-level 
nurses, some of whom become faculty. Receiving $57.06 million in fiscal 
year 2006, this grant program helps schools of nursing, academic health 
centers, and other nonprofit entities improve the education and 
practice of nurse practitioners, nurse-midwives, nurse anesthetists, 
nurse educators, nurse administrators, public health nurses, and 
clinical nurse specialists. Out of the 88 applications reviewed for 
this program in fiscal year 2005, 43 new grants were awarded, and 114 
were continued. In addition, 422 schools of nursing received 
traineeship grants, which in turn directly supported 9,000 individual 
student nurses.
    The health system's increasing demand for primary care, increased 
utilization of case-management--particularly for chronic illnesses, 
prevention and cost-efficiency, and a shortage of physicians are 
driving the Nation's need for nurse practitioners, certified nurse-
midwives, and other RNs with graduate education and advanced clinical 
skills, known as advanced practice registered nurses (APRNs). Mounting 
studies demonstrate the quality and cost effectiveness of APRN care. 
This is especially important for the 78 million aging Baby Boomers, 
whose demand for health care services will skyrocket in the near 
future. The rate of physician office visits by Medicare beneficiaries 
jumped 20.5 percent from 1992 to 2001, according to the Federal report 
Older Americans 2004: Key Indicators of Well-Being.
    Workforce Diversity Program (Sec. 821).--These grants prepare 
disadvantaged students to become nurses. As the United States becomes 
ever more heterogeneous, it is imperative that the composition of our 
nursing workforce mirrors this shift. According to the U.S. Census 
Bureau, roughly 30 percent of the population was reported as a racial 
or ethnic minority in 2000, but by 2050 that percentage will jump to 
over 52 percent. This program awards grants to schools of nursing and 
other entities seeking to increase access to nursing education for 
disadvantaged students, including those racial and ethnic minorities 
under-represented among RNs. Scholarships or stipends, pre-entry 
preparation, and retention activities are provided to enable students 
to complete their nursing education. In fiscal year 2005, 171 
applications were reviewed, from those 11 new grants were awarded and 
48 previously awarded grants were continued. These program funds 
assisted at least 6,344 students. Workforce Diversity received $16.11 
million in fiscal year 2006.
    At Risk: Nursing Student Loan Program (Sec. 835).--This revolving 
loan fund was established in 1964 to specifically target nursing 
workforce shortages. The Nursing Student Loan (NSL) program provides 
participating undergraduate or graduate nursing students with a maximum 
of $13,000 in loans at 5 percent interest. Schools of nursing 
participating in the NSL select recipients and determine the level of 
assistance provided, with a preference for those with financial need. 
New loans are made as existing loans are repaid. This program has not 
received additional appropriations since 1983. However, in fiscal year 
2005, the NSL provided financial assistance to 17,240 nursing students. 
In fiscal year 2005, Sec. 222 of the Consolidated Appropriations Act of 
2005 (Public Law 108-447) included language which stated: ``The 
unobligated balance of the Nursing Student Loan program authorized by 
section 835 of the Public Health Services Act is rescinded.'' As a 
result, the NSL gave back $6.1 million to the U.S. Treasury in July 
2005. In previous years, those funds were redistributed among 
participating institutions, increasing the amount of possible loans. A 
similar provision, in the fiscal year 2006 appropriations law will 
force the NSL to return even more funds to the Treasury that instead 
could have assisted nursing students in completing their education.

                 NATIONAL INSTITUTE OF NURSING RESEARCH

    One of the 27 Institutes and Centers at the National Institutes, of 
Health (NIH), the efforts of the National Institute of Nursing Research 
(NINR) improve patient care and foster advances in nursing and other 
health professions' practice. These practices must be must constantly 
updated and validated based on rigorous, peer-reviewed research. The 
outcomes-based findings derived from NINR research are important to the 
future of the health care system and its ability to deliver safe, cost-
effective, and high quality care. Through grants, research training, 
and interdisciplinary collaborations, NINR addresses care management of 
patients during illness and recovery, reduction of risks for disease 
and disability, promotion of healthy lifestyles, enhancement of quality 
of life in those with chronic illness, and care for individuals at the 
end of life. To advance this research, AACN requests a funding level of 
$150 million in fiscal year 2007, an additional $12.66 million over the 
$137.34 million NINR received in fiscal year 2006.

NINR Addresses the Need for Translational and Clinical Research
    NINR emphasizes translational research, the means by which basic 
findings relating to behavior, molecules, and genes are tested in the 
clinical setting and translated into innovative medical practices and 
improvements in public health. Under the framework of the Roadmap 
Initiative, NINR and nurse researchers are addressing the development 
of new interdisciplinary research teams and enhanced clinical research 
to move the overall NIH portfolio of social, behavioral, and medical 
research forward in this coordinated and cohesive effort.
NINR Addresses the Shortage of Nurse Researchers and Faculty
    NINR allocates 8 percent of its budget, a high proportion when 
compared to other NIH institutes, to research training to help develop 
the pool of nurse researchers. In fiscal year 2005, NINR training 
dollars supported 80 individual researchers and provided 155 
institutional awards, which in turn supported a number of nurse 
researchers at each site. Since nurse researchers often serve as 
faculty members for colleges of nursing, they are actively educating 
our next generation of RNs.

               AGENCY FOR HEALTHCARE RESEARCH AND QUALITY

    While NIH supports biomedical research that improves health care by 
focusing on the cause, cure, and prevention of disease, the Agency for 
Healthcare Research and Quality (AHRQ) supports health systems 
research, collecting evidence-based information on health care 
outcomes. AHRQ research findings are used by patients, clinicians, 
health system decision makers, and public policymakers to guide health 
care delivery systems and patient care. The research supported by AHRQ 
not only improves the quality of health care services, but also helps 
people make more informed decisions about their health care. AACN joins 
the Friends of AHRQ in recommending a funding level of $440 million for 
fiscal year 2007, an additional $121.3 million over the fiscal year 
2006 level of $318.7 million.

Health Systems Research at AHRQ Addresses Nurses' Role in Patient 
        Safety
    AHRQ research has demonstrated that inefficient work processes, 
overwhelming workloads, extended work hours, and poor workplace designs 
create obstacles to providing patients safe, cost-effective, and high 
quality health care. The New England Journal of Medicine published a 
study of over 6 million patients in May 2002, that found hospitalized 
patients had better outcomes when the majority of their nursing care 
was provided by RNs. Decreased hours of RN care, stemming from the 
nursing shortage, correlated with longer hospital stays, increased 
incidence of urinary tract infections and gastrointestinal bleeding, as 
well as higher rates of pneumonia, shock, and cardiac arrest. When 
patients received additional hours of RN care, the death rates dropped 
for pneumonia, shock or cardiac arrest, upper gastrointestinal 
bleeding, sepsis, and deep venous thrombosis.

                               CONCLUSION

    AACN acknowledges the fiscal challenges that the subcommittee and 
the entire Congress must work within. However, the health needs of our 
Nation must be addressed by a dedicated, long-term vision for educating 
the new nursing workforce. Today, nurses must evaluate research that 
promotes evidence-based practice and utilize technical innovations in 
providing safe, high quality patient care. Research shows that patient 
care suffers and mortality rates increase in facilities without 
sufficient numbers of RNs. Without highly educated nurses, who will 
care for us when we must enter into our increasingly complex health 
care system?
                                 ______
                                 
     Prepared Statement of the American Association of Colleges of 
                          Osteopathic Medicine

    On behalf of the American Association of Colleges of Osteopathic 
Medicine (AACOM) which represents the administrations, faculties and 
students of all twenty colleges of osteopathic medicine in the United 
States, I am pleased to present our views on the fiscal year 2007 
appropriations for health professions education programs under Title 
VII of the Public Health Service Act.
    First, we must express our profound concern at the devastating cuts 
proposed by the administration for Title VII programs in its fiscal 
year 2007 budget. The Bureau of Health Professions received $342 
million in cuts in the President's fiscal year 2007 proposal which is 
fully 46 prepared of its entire budget. While we support the $181 
million increase in the President's budget for Community Health 
Centers, the large funding decreases to the Title VII programs raises 
the question of whether there will be a sufficient number of health 
care providers to staff these clinics. The fiscal year 2007 cuts are in 
addition to the 12 programs that were eliminated in the fiscal year 
2006 appropriations bills, as well as other programs that received 
significant decreases in both years. Congress must not allow these 
draconian slashes to cripple the programs that assist health 
professions schools in training the workforce needed to care for our 
citizens in the 21st century.
    A study that recently appeared in the Journal of the American 
Medical Association recommends increased Titles VII and VIII support to 
alleviate provider shortages at Community Health Centers [Shortages of 
Medical Personnel at Community Health Centers: Implications for Planned 
Expansion, Roger A. Rosenblatt, C. Holly. A. Andrilla, Thomas Curtin; 
L. Gary Hart, Journal of the American Medical Association, JAMA 
2006;295:1042-1049]. The study found that Titles VII and VIII programs 
help ameliorate these shortages and maldistribution by training 
providers who are more likely to practice in rural and underserved 
communities.
    Health professions education programs under Title VII and nursing 
education programs under Title VIII are essential components of 
America's health care safety net. An adequate diverse, well-distributed 
and culturally competent health workforce is indispensable to our 
national readiness efforts. Colleges of osteopathic medicine have a 
long tradition of training primary care physicians who practice in 
rural and urban underserved areas.
    The health professions education programs under Title VII and the 
nursing education programs under Title VIII of the Public Health 
Service Act have been valuable in our efforts to continue to ensure 
this commitment. In Public Law 105-392, the Health Professions 
Education Partnership Act of 1998, forty-four different Federal health 
professions training programs were consolidated into seven clusters. 
These clusters provide support for training of primary care and dental 
providers; the establishment and operation of interdisciplinary 
community-based training activities; health professions workforce 
analysis; public health workforce development; nursing education; and 
student financial assistance. These programs are designed to meet the 
health care delivery needs of over 2,800 Health Professions Shortage 
Areas in the country. Many rural and disadvantaged populations depend 
on the health professionals trained by these programs at their only 
source of health care. For example, without the practicing family 
physicians who are currently in place, an additional 1,332 of the 
United States' 1,082 urban and rural counties would qualify for 
designation as primary care Health Professions Shortage Areas.
    Title VII programs have had a significant impact in reducing the 
Nation's Health Professions Shortage Areas. Indeed, a 1999 study 
estimated that if funding for Title VII programs were doubled the 
effect would be to eliminate the Nation's Health Professions Shortage 
Areas in as little as 6 years. [Politzer, RM, Hardwick, KC, Cultice, 
JM, Bazell, C. ``Eliminating Primary Care Health Professions Shortage 
Areas: The Impact of Title VII Generalist Physician Education,'' The 
Journal of Rural Health, 1999: 15(1): 11-19].
    A study by the Robert Graham Center showed that receipt of Title 
VII family medicine grants by medical schools produced more family 
physicians and more primary care doctors serving rural areas and health 
professions shortage areas. Over 69 percent of Title VII funded 
internal medicine graduates practice primary care after graduation. 
This rate is nearly twice that of programs not receiving Title VII 
funding.
    Among the programs within these clusters that have been especially 
important to enhancing osteopathic medical schools' ability to train 
the highest quality physicians are: General Internal Medicine 
Residencies; General Pediatric Residencies; Family Medicine Training; 
Preventive Medicine Residencies; Area Health Education Centers (AHECs); 
Health Education and Training Centers (HETCs); Health Careers 
Opportunities Programs (HCOP); and Centers of Excellence (COE) 
programs.
    In addition, three Title VII programs offer interdisciplinary 
training for all health professions. The Geriatric Education Centers 
(GEC) program provides grants to support collaborative arrangements 
involving several health professions schools and health facilities that 
provide training in the diagnosis, treatment and prevention of disease 
and other health concerns of the elderly. The Geriatric Training 
program for physicians, dentists, and mental health professionals (GT) 
provides for these professionals who plan to become faculty members. 
The Geriatric Academic Career Awards (GACA) support the career 
development of geriatricians in junior faculty positions who are 
committed to an academic career of teaching clinical geriatrics in 
medical schools.
    Accordingly, Mr. Chairman and Members of the subcommittee, AACOM 
recommends that the fiscal year 2007 funding levels for Titles VII 
Health Professions Education and VIII Nursing Education be 
$299,552,000. You will note that this is the same level as the Congress 
approved for fiscal year 2005.
    AACOM also strongly urges continuation of funding for the Council 
on Graduate Medical Education (COGME). Since its inception, COGME's 
diverse membership has given the health policy community an opportunity 
to discuss national workforce issues. The fifteen formal reports and 
multiple ancillary materials provided by COGME have offered important 
findings and observations in the rapidly changing health care 
environment and have argued for a system of graduate medical education 
that develops a physician workforce to meet the healthcare needs of the 
American people.
    Some of the more significant recommendations include:
  --Community-based education with an emphasis on primary care;
  --Continued progress toward a more representative participation of 
        minorities in medicine;
  --The development and maintenance of a workforce planning 
        infrastructure to improve the understanding of supply, need and 
        demand forces;
  --The development of Federal-State partnerships to further workforce 
        planning; and
  --Encouragement and support for medical education and health care 
        delivery programs that increase the flow of physicians to rural 
        areas, with an emphasis on the smaller, more remote 
        communities.
    In summary, Mr. Chairman and Members of the subcommittee, health 
profession education programs under Title VII are an essential part of 
the healthcare safety net for all Americans. We respectfully urge you 
to restore funding for these programs at the fiscal year 2005 level. 
Please contact me or Michael J. Dyer, AACOM's Vice President for 
Government Relations at (301) 968-4152 if you have any questions.
                                 ______
                                 
         Prepared Statement of the American Nurses Association

    The American Nurses Association (ANA) appreciates this opportunity 
to comment on fiscal year 2007 appropriations for nursing education, 
workforce development, and research programs. Founded in 1896, ANA is 
the only full-service national association representing registered 
nurses (RNs). Through our 54 constituent member associations, ANA 
represents RNs across the Nation in all practice settings.
    The ANA gratefully acknowledges this subcommittee's history of 
support for nursing education and research. We appreciate your 
continued recognition of the important role nurses play in the delivery 
of quality health care services. This testimony will give you an update 
on the status of the nursing shortage, its impact on the Nation, and 
the outlook for the future.

                       THE NURSING SHORTAGE TODAY

    The nursing shortage is far from solved. Here are a few quick 
facts:
  --According to American Hospital Association's 2005 Workforce Survey, 
        109,000 nurses are needed immediately to fill vacancies at our 
        Nation's hospitals. In addition, 40 percent of the hospitals 
        surveyed reported that RN recruitment was more difficult in 
        2004 than in 2003.
  --The Bureau of Labor Statistics reported in February of this year 
        that registered nursing will have remarkable job growth in the 
        time period spanning 2004-2014. During this time decade, the 
        health care system will require more than 1.2 million new 
        nurses.
  --The report issued by the Division of Nursing at the Health 
        Resources and Services Administration in 2002 projects that, 
        absent aggressive intervention, the supply of nurses in America 
        will fall 29 percent below requirements by the year 2020.
    This growing nursing shortage is having a detrimental impact on the 
entire health care system. Numerous studies have shown that nursing 
shortages contribute to medical errors, poor patient outcomes, and 
increased mortality rates. A study published in the January/February 
2006 issue of Health Affairs showed that hospitals could avoid 6,700 
deaths per year by increasing the amount of RN care provided to their 
patients. This study, ``Nurse Staffing in Hospitals: Is There a 
Business Case for Quality?'' by Jack Needleman, Peter Buerhaus, Maureen 
Stewart, Katya Zelevinsky and Soeren Mattke, also revealed that 
hospitals could avoid 4 million hours worth of inpatient care by 
avoiding the complications associated with a shortage of RN care.
    This study built upon research published in the New England Journal 
of Medicine in May 2002. The 2002 research was based on a review of 
more than 6 million patients. It found that increased hours of RN care 
were associated with fewer ``failure-to-rescue'' deaths in hospitalized 
patients resulting from pneumonia, shock or cardiac arrest, upper 
gastrointestinal bleeding, sepsis and deep venous thrombosis.
    Research published in the October 23, 2002 Journal of the American 
Medical Association also demonstrated that more nurses at the bedside 
could save thousands of patient lives each year. In reviewing more than 
232,000 surgical patients at 168 hospitals, researchers from the 
University of Pennsylvania concluded that a patient's overall risk of 
death rose roughly 7 percent for each additional patient above four 
added to a nurse's workload.
    A Joint Commission on the Accreditation of Healthcare Organizations 
(JCAHO) study published in 2002 shows that the shortage of nurses 
contributes to nearly a quarter of all unexpected incidents that kill 
or injure hospitalized patients.

          THE IMPACT ON PREPAREDNESS AND MILITARY HEALTH CARE

    This growing nursing shortage has effects well beyond traditional 
domestic health care. RNs are integral to everything from pandemic flu 
management, to terrorism preparedness, to veterans' health delivery, to 
disaster response. In the event of a terrorist attack or pandemic flu 
outbreak, nurses will be needed to evaluate patients, administer 
vaccines and medications, perform disease surveillance, and to train 
non-licensed staff. The GAO has repeatedly reported that the nursing 
shortage is complicating efforts at the State and local level to 
implement pandemic flu and bioterrorism preparedness efforts (see: GAO: 
03-654T, 03-769T, 04-458T, 05-760T, 05-863T). For instance, in May 
2003, the GAO testified, ``Five of the [seven] States we visited 
reported shortages of hospital medical staff, including nurses and 
physicians, necessary to increase response capacity in an emergency.'' 
(GAO-03-769T).
    The nursing shortage is also stressing military health care 
delivery. The Army, Navy, and Air Force are offering new lucrative RN 
recruitment packages that include large sign-on bonuses, generous 
scholarships, and loan forgiveness packages. Yet, neither the Army nor 
the Air Force has met their active service nurse recruitment goals 
since the 1990s. On May 10, 2005, Army leaders warned the Senate 
Appropriations Committee that they were experiencing a 30 percent 
shortage of certified registered nurse anesthetists. In 2004, the Navy 
Nurse Corps recruitment fell 32 percent below target. Because the 
military holds the vast majority of its health care assets in the 
reserves, the reserve activation has been particularly hard on nursing. 
This ongoing nurse shortage is creating real concerns about the ability 
to deliver needed health care to today's military.

                 NURSING WORKFORCE DEVELOPMENT PROGRAMS

    Federal support for the Nursing Workforce Development Programs 
contained in Title VIII of the Public Health Service Act is 
unduplicated and essential. The 107th Congress recognized the 
detrimental impact of the developing nursing shortage and passed the 
Nurse Reinvestment Act (Public Law 107-205). This law improved the 
programs of Title VIII to meet the unique characteristics of today's 
shortage. This achievement holds the promise of recruiting new nurses 
into the profession, promoting career advancement within nursing and 
improving patient care delivery. This promise will not be met, however, 
without a significant investment.
    In fiscal year 2005, this subcommittee allocated $151 million in 
funding for Title VIII which supported 52,795 individual grants. In 
fiscal year 2006, you allocated $150 million for Title VIII. While ANA 
applauds your ongoing recognition for these nursing workforce 
development programs, we also recognize that these funding levels fail 
to meet the challenges of the growing nursing shortage. For instance, 
in fiscal year 2005, 4,465 RNs applied for the Nurse Education Loan 
Repayment Program (described fully below). Due to lack of funding, a 
mere 803 (18 percent) were approved.
    ANA strongly urges you to increase funding for Title VIII programs 
by at least $25 million to a total of $175 million in fiscal year 2007. 
This funding amount has been supported by a bipartisan group of 54 
Senators in a Dear Colleague sent to this subcommittee. The nursing 
shortage and its impact on the health care of the Nation demand this 
continued investment.
    In 1974, this subcommittee invested $153.6 million Title VIII. 
Inflated to today's dollars, this appropriation would equal $622.5 
million, more than four times the current appropriation. Certainly, 
today's shortage is more dire and systemic than that of the 1970's; it 
deserves an equivalent response.
    Title VIII includes the following program areas:
    Nursing Education Loan Repayment Program & Scholarships.--This line 
item is comprised of the Nurse Education Loan Repayment Program (NELRP) 
and the Nursing Scholarship Program (NSP), the Secretary of HHS has the 
authority to allocate funds between the two areas. In fiscal year 2006, 
the Nurse Education Loan Repayment Program and Scholarships received 
$31 million.
    The NELRP repays up to 85 percent of a RN's student loans in return 
for full-time practice in a facility with a critical nursing shortage. 
The NELRP nurse is required to work for at least 2 years in a 
designated facility during which time the NELRP repays 60 percent of 
the RN's student loan balance. If the nurse applies and is accepted for 
a third year, an additional 25 percent of the loan is repaid.
    The NELRP boasts a proven track record of delivering nurses to 
facilities hardest hit by the nursing shortage. HRSA has given NELRP 
funding preference to RNs who work in disproportionate share hospitals, 
skilled nursing facilities, federally-designated health centers, and 
departments of public health. However, lack of funding has hindered the 
full implementation of this program. As stated above, in fiscal year 
2005, 82 percent of the nurses willing to immediately begin practicing 
in facilities hardest hit by the shortage were turned away from this 
program due to lack of funding.
    The NSP offers funds to nursing students who, upon graduation, 
agree to work for at least 2 years in a health care facility with a 
critical shortage of nurses. Preference is given to students with the 
greatest financial need. Like the loan repayment program, the NSP has 
been stunted by a lack of funding. In fiscal year 2005, HRSA received 
6,563 applications for the nursing scholarship. Due to lack of funding, 
a mere 217 scholarships were awarded. Therefore, 97 percent of nursing 
students willing to work in facilities with a critical shortage were 
denied access to this program.
    Nurse Faculty Loan Program.--This program establishes a loan 
repayment fund within schools of nursing to increase the number of 
qualified nurse faculty. Nurses may use these funds to pursue a 
master's or doctoral degree. They must agree to teach at a school of 
nursing in exchange for cancellation of up to 85 percent of their 
educational loans, plus interest, over a 4-year period. Loans can cover 
the costs of tuition, fees, books, laboratory expenses, and other 
reasonable education expenses. In fiscal year 2006, this program 
received $4.8 million.
    This program is vital given the critical shortage of nursing 
faculty. America's schools of nursing cannot increase their capacity 
without an influx of new teaching staff. Last year, schools of nursing 
were forced to turn away tens of thousands of qualified applicants due 
largely to the lack of faculty. In fiscal year 2005, HRSA awarded 66 
nurse faculty loan repayments.
    Nurse Education, Practice, and Retention Grants.--This section is 
comprised of many programs designed to support entry-level nursing 
education and to enhance nursing practice. In fiscal year 2005, this 
line item supported 10,490 nursing students. All together, the Nurse 
Education, Practice, and Retention Grants received $37.3 million in 
fiscal year 2006.
    The education grants are designed to expand enrollments in 
baccalaureate nursing programs; develop internship and residency 
programs to enhance mentoring and specialty training, and; provide new 
technologies in education including distance learning.
    Practice grants currently support 18 Nurse Managed Clinics that 
provide primary health care in medically underserved communities; 
provide nursing students the skills necessary to practice in existing 
and emerging health systems, and; develop cultural competencies.
    Retention grant areas include career ladders and improved patient 
care delivery systems. The career ladders program supports education 
programs that assist individuals in obtaining the educational 
foundation required to enter the profession, and to promote career 
advancement within nursing. Enhancing patient care delivery system 
grants are designed to improve the nursing work environment. These 
grants help facilities to enhance collaboration and communication among 
nurses and other health care professionals, and to promote nurse 
involvement in the organizational and clinical decision-making 
processes of a health care facility. These best practices for nurse 
administration have been identified by the American Nurse Credentialing 
Center's Magnet Recognition Program . These practices have been shown 
to double nurse retention rates, increase nurse satisfaction, and 
improve patient care.
    Nursing Workforce Diversity.--This program provides funds to 
enhance diversity in nursing education and practice. It supports 
projects to increase nursing education opportunities for individuals 
from disadvantaged backgrounds--including racial and ethnic minorities, 
as well as individuals who are economically disadvantaged. In fiscal 
year 2006, these programs received $16 million.
    Racial and ethnic minorities currently comprise more than 25 
percent of the Nation's population and will comprise nearly 40 percent 
by the year 2020. However, only 10.6 percent of the RNs in the United 
States are self-identified as one or more of the racial and ethnic 
minority groups. Increasing cultural and ethnic diversity in nursing 
helps to address the prevention, treatment, and rehabilitation needs of 
an increasingly diverse population. For fiscal year 2005, HRSA received 
191 submissions for nursing workforce diversity grants. HRSA was able 
to fund 97 (50 percent of applications).
    Advanced Nurse Education.--Advanced practice registered nurses 
(APRNs) are nurses who have attained advanced expertise in the clinical 
management of health conditions. Typically, an APRN holds a master's 
degree with advanced didactic and clinical preparation beyond that of 
the RN. Most have practice experience as RNs prior to entering graduate 
school. Practice areas include, but are not limited to: anesthesiology, 
family medicine, gerontology, pediatrics, psychiatry, midwifery, 
neonatology, and women's & adult health. Title VIII grants have 
supported the development of virtually all initial State and regional 
outreach models using distance learning methodologies to provide 
advanced study opportunities for nurses in rural and remote areas. In 
fiscal year 2006, these programs received $57 million.
    These grants also provide traineeships for masters and doctoral 
students. Title VIII funds more than 60 percent of U.S. nurse 
practitioner education programs and assists 83 percent of nurse 
midwifery programs. Over 45 percent of the nurse anesthesia graduates 
supported by this program go on to practice in medically underserved 
communities. Many provide care to minority or disadvantaged patients. 
In fiscal year 2005, HRSA funded 81 advanced education nursing grants 
(89 percent of applications), 347 advanced education nursing 
traineeships (every application), and 75 nurse anesthetist traineeships 
(every application).
    Comprehensive Geriatric Education Grants.--This authority awards 
grants to train and educate nurses in providing health care to the 
elderly. Funds are used to train individuals who provide direct care 
for the elderly, to develop and disseminate geriatric nursing 
curriculum, to train faculty members in geriatrics, and to provide 
continuing education to nurses who provide geriatric care. In fiscal 
year 2006, these grants received $3.4 million.
    The growing number of elderly Americans and the impending health 
care needs of the baby boom generation make this program critically 
important. In fiscal year 2005, HRSA received 43 applications for 
comprehensive geriatric education grants. HRSA continued 17 previously 
awarded grants and awarded 11 new ones (65 percent of applications).

             NATIONAL INSTITUTE OF NURSING RESEARCH (NINR)

    ANA also urges the subcommittee to increase funding for the NINR, 
one of the institutes at the National Institutes of Health (NIH). This 
research is integral to improving the effectiveness of nursing care. 
Advances in nursing care arising from behavioral and biomedical 
research have shown excellent progress in reducing health care costs. 
Research programs supported by NINR address a number of critical public 
health and patient care questions. The research is driven by real and 
immediate problems currently facing patients and their families.
    Recent studies have illuminated the impact of placing a patient in 
long term care on the patient's family caregiver, the impact of 
maternal obesity prior to pregnancy on childhood weight problems, the 
difference in heart attack symptoms in women versus men, the most 
effective means to prevent infectious diseases in inner city 
households, and the incidence and risk factors for uterine rupture in 
pregnancies following cesarean section. NINR is leading the NIH 
research on end-of-life and palliative care. NINR is also the lowest 
funded institute at NIH. In fiscal year 2006, NINR received $137.3 
million. ANA recommends $150 million in fiscal year 2007 NINR funding.

                               CONCLUSION

    While ANA appreciates the continued support of this subcommittee, 
we are concerned that Title VIII funding levels have not been 
sufficient to address the growing nursing shortage. The nursing 
shortage will continue to worsen if significant investments are not 
made. Recent efforts have shown that aggressive and innovative 
recruitment efforts can help avert the impending nursing shortage--if 
they are adequately funded.
    ANA asks you to meet today's shortage with a relatively modest 
investment of $175 million in Title VIII programs. Additionally, an 
investment of $150 million in the NINR will help assure that these 
nurses are equipped with the information needed to provide the best 
care possible.
                                 ______
                                 
      Prepared Statement of Americans for Nursing Shortage Relief

    The undersigned organizations of the ANSR (Americans for Nursing 
Shortage Relief) Alliance greatly appreciate the opportunity to submit 
written testimony regarding fiscal year 2007 appropriations for Title 
VIII--Nursing Workforce Development Programs. The ANSR Alliance is 
comprised of fifty-one national nursing organizations that united in 
2001 to identify and promote creative strategies for addressing the 
nursing and nurse faculty shortages, including passage of the Nurse 
Reinvestment Act of 2002--an important first step in increasing the 
number of qualified nurses in America.
    ANSR stands ready to work with policymakers to advance programs and 
policies that will sustain and strengthen our Nation's nursing 
workforce. To ensure that our Nation has a sufficient and adequately 
prepared nursing workforce to provide quality care to every American 
well into the 21st century, ANSR advocates for the following:
  --At least $175 million in funding for Nursing Workforce Development 
        Programs under Title VIII of the Public Health Service Act at 
        the Health Resources and Services Administration (HRSA) in 
        fiscal year 2007.

                          THE NURSING SHORTAGE

    Nurses play a critical role in this Nation's health care system. 
With an estimated 2.9 million licensed registered and advanced practice 
registered nurses (RNs and APRNs), nurses represent the largest 
occupational group of health care workers and provide patient care in 
virtually all locations in which health care is delivered. This coupled 
by their scope of practice areas make the nursing shortage an even more 
interesting challenge. Some facts to consider:
  --The nursing workforce is aging. In 1980, 26 percent of RNs were 
        under the age of 30. Today, approximately 8 percent of RNs are 
        under the age of 30 with the average nurse 46.8 years of age;
  --Approximately half of the RN workforce is expected to reach 
        retirement age within the next 10 to 15 years. The average age 
        of new RN graduates is almost 30 years.
  --The Bureau of Labor Statistics report (December, 2005) projected 
        that registered nursing would create the second largest number 
        of new jobs among all occupations within 9 years. In addition, 
        employment of registered nurses is expected to grow much faster 
        than average for all occupations through 2014. It is 
        anticipated that approximately 703,000 additional jobs, for a 
        total of 3,096,000, will be available for RNs by this date.
  --The national nursing shortage also is affecting our Nation's 7.6 
        million veterans who receive care through the 1,300 Veterans 
        Administration (VA) health care facilities;
  --Nearly 1,800 faculty members leave their positions every year due 
        to factors of retirement or higher wages earned as a staff 
        nurse. Fewer than 400 faculty candidates receive their doctoral 
        degrees each year; and,
  --The number of full-time nurse faculty required to ``fill the 
        nursing gap'' is approximately 40,000. Currently, the National 
        League for Nursing estimates that there fewer than 10,000 full-
        time faculty members in the system.

      THE NURSING SUPPLY IMPACTS AMERICA'S EMERGENCY PREPAREDNESS

    Nurses play a critical role as front-line, first-responders. When 
word of the devastation caused by Hurricanes Katrina and Rita spread, 
nurses across the country immediately volunteered in American Red Cross 
shelters, medical clinics, and hospitals throughout that area. Nurse 
midwives delivered babies in airplane hangars, and nurses trained in 
geriatric care assisted in caring for those evacuated from the comforts 
of their homes, assisted living facilities or nursing homes. Nurse 
practitioners diligently staffed temporary and permanent health care 
clinics to provide needed primary care to hurricane victims. In 
addition, many nurses realized their role in the comfort and support 
they offered as they listened to survivors recount their stories of 
pain and tragedy.
    These stories seem particularly relevant in demonstrating the 
contributions that nurses provide during tragedies, and should 
illustrate the need to ensure an adequate supply of all types of nurses 
in all parts of the country. Unless steps are taken now, the Nation's 
ability to respond to disasters will be further hindered by the growing 
nursing shortage. An investment in the nursing workforce is a step in 
the right direction to bolster our public health infrastructure and 
increase our Nation's health care readiness and emergency response 
capabilities.

                  THE DESPERATE NEED FOR NURSE FACULTY

    After years of declining interest, the nursing profession is seeing 
the opposite occur. Many Americans have come to find nursing an 
attractive career because of job security, salary levels, and the 
opportunity to help others. However, the common theme among prospective 
nursing students is that due to a lack of a sufficient number of 
faculty they can face waiting periods of up to 3 years before 
matriculating. When all nursing programs are considered, the number of 
qualified applications turned away during the 2004-2005 academic year 
was estimated to be more than 147,000 by the National League for 
Nursing. Without sufficient support for current nurse faculty and 
adequate incentives to encourage more nurses to become faculty, nursing 
schools will fail to have the teaching infrastructure necessary to 
educate and train the next generation of nurses that the Nation so 
desperately needs.

                          THE FUNDING REALITY

    Enacted in 2002, the Nurse Reinvestment Act included new and 
expanded initiatives, including loan forgiveness, scholarships, career 
ladder opportunities, and public service announcements to advance 
nursing as a career. Despite the enactment of this critical measure, 
HRSA fails to have the resources necessary to meet the current and 
growing demands for our Nation's nursing workforce. For example, in 
fiscal year 2003, HRSA received 8,321 applications for the Nurse 
Education Loan Repayment Program but only had the funds to award 7 
percent (602) of all applications. Also in fiscal year 2003, HRSA 
received 4,512 applications for the Nursing Scholarship Program but 
only had funding to support a mere 2 percent (94) of all applications.
    The ANSR Alliance strongly urges this subcommittee to provide a 
minimum of $17,505 million in fiscal year 2007 to fund Title VIII--
Nursing Workforce Development Programs. This level of investment will 
help leverage the HRSA resources to fund a higher rate of Nurse 
Education Loan Repayment and Nursing Scholarship applications, as well 
as implement other essential endeavors to sustain and boost our 
Nation's nursing workforce.

                                SUMMARY

----------------------------------------------------------------------------------------------------------------
                                                                               President's
                   Programmatic area                     Final fiscal year    budget fiscal      ANSR's request
                                                                2006            year 2007
----------------------------------------------------------------------------------------------------------------
Title VIII: Nurse Workforce Development Programs at           $149,000,000       $150,000,000       $175,000,000
 HRSA..................................................
----------------------------------------------------------------------------------------------------------------

                      ANSR ALLIANCE ORGANIZATIONS

    Academy of Medical-Surgical Nurses; American Academy of Ambulatory 
Care Nursing; American Academy of Nurse Practitioners; American 
Association of Critical-Care Nurses; American Association of Nurse 
Anesthetists; American Association of Occupational Health Nurses, Inc.; 
American College of Nurse-Midwives; American Organization of Nurse 
Executives; American Society for Pain Management Nursing; American 
Society of PeriAnesthesia Nurses; American Society of Plastic Surgical 
Nurses; Association of periOperative Registered Nurses; Association of 
Rehabilitation Nurses; Association of State and Territorial Directors 
of Nursing; Association of Women's Health, Obstetric and Neonatal 
Nurses; Dermatology Nurses' Association; Developmental Disabilities 
Nurses Association; Emergency Nurses Association; Infusion Nurses 
Society; National Association of Clinical Nurse Specialists; National 
Association of Nurse Massage Therapists; National Association of 
Orthopaedic Nurses; National Association of Pediatric Nurse 
Practitioners; National Association of School Nurses; National Black 
Nurses Association; National Conference of Gerontological Nurse 
Practitioners; National Council of State Boards of Nursing; National 
League for Nursing; National Student Nurses' Association; National 
Nursing Centers Consortium; National Organization of Nurse Practitioner 
Faculties; Nurses Organization of Veterans Affairs; Oncology Nursing 
Society; Society for Urologic Nurses and Associates; Society of Trauma 
Nurses; and Wound Ostomy Continence Nurses Society.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to one of every seven electricity consumers (approximately 
43 million people), serving some of the Nation's largest cities. 
However, the vast majority of APPA's members serve communities with 
populations of 10,000 people or less.
    We appreciate the opportunity to submit this statement supporting 
funding for the Low-Income Home Energy Production Assistance Program 
(LIHEAP).
    APPA has consistently supported an increase in the authorization 
level for LIHEAP and supports the full authorization level of $5.1 
billion for fiscal year 2007 as enacted in the Energy Policy Act of 
2005.
    APPA is proud of the commitment that its members have made to their 
low-income customers. Many public power systems have low-income energy 
assistance programs based on community resources and needs. Our members 
realize the importance of having in place a well-designed low-income 
customer assistance program combined with energy efficiency and 
weatherization programs in order to help consumers minimize their 
energy bills and lower their requirements for assistance. While highly 
successful, these local initiatives must be coupled with a strong 
LIHEAP program to meet the growing needs of low-income customers. In 
the last several years, volatile home-heating oil and natural gas 
prices, severe winters, high utility bills as a result of dysfunctional 
wholesale electricity markets and the effects of the economic downturn 
have all contributed to an increased reliance on LIHEAP funds.
    Also when considering LIHEAP appropriations this year, we encourage 
the subcommittee to provide advanced funding for the program so that 
shortfalls do not occur in the winter months during the transition from 
one fiscal year to another. LIHEAP is one of the outstanding examples 
of a State-operated program with minimal requirements imposed by the 
Federal Government. Advanced funding for LIHEAP is critical to enabling 
States to optimally administer the program.
    Thank you again for this opportunity to relay our support for 
increased LIHEAP funding for fiscal year 2007. We look forward to a 
favorable outcome.
                                 ______
                                 
  Prepared Statement of the Association of Maternal and Child Health 
                                Programs

    The Association of Maternal and Child Health Programs (AMCHP) is a 
national, non-profit organization representing leaders of State public 
health programs for maternal and child health, including children with 
special health care needs, in all 50 States, the District of Columbia, 
and eight additional jurisdictions. Our members administer Title V 
Maternal and Child Health Services Block Grant funds to improve the 
health of mothers and children. We strongly urge you to restore funding 
for the MCH Block Grant to the fiscal year 2005 level of $724 million.
    First authorized in 1935, the MCH Block Grant provides for a wide 
range of health services and fosters prevention of disease and 
disabling conditions for over 32 million women and children across the 
country. Funds from the MCH Block Grant enable States to provide women 
with prenatal and postnatal care, screen newborns for genetic and 
hereditary conditions; support childhood immunizations; reduce infant 
mortality and developmentally handicapping conditions; and prevent 
childhood accidents and injuries. Block grant funding enables State 
agencies to tailor vital programs for women, children and families to 
the needs of each community, while ensuring that the programs meet 
national goals.
    Since the program's inception, it has evolved into a powerful 
Federal-State partnership. Each year, $600 million Federal are matched 
by over $5 billion in State funds for maternal and child health 
programs. These funds have enabled States to reach more than 80 percent 
of infants, 50 percent of pregnant women and 20 percent of children in 
the United States. Since 2000, the number of women and children served 
has increased by almost 5 million, an increase of 18 percent.
    In fiscal year 2006, $693 million was appropriated for the MCH 
Block Grant, $31 million below the fiscal year 2005 comparable 
appropriation. This loss of funds, as the number of women and children 
needing services continues to increase, will impact the ability of 
States to address areas of critical need. While President Bush 
recommended level funding for the MCH program in his budget request, he 
also recommended that Federal support for the Traumatic Brain Injury 
program, Universal Newborn Hearing Screening, Emergency Medical 
Services for Children and the Sickle Cell Anemia Demonstration Project 
be eliminated. If this recommendation were enacted without a 
commensurate increase in the block grant, States would be forced to 
shift MCH Block Grant funds away from other pressing health priorities 
to meet those addressed by these programs. We recommend that funding 
for these four valuable programs be restored, in addition to the 
restoration of the MCH Block Grant funding to the fiscal year 2005 
level.
    The flexibility of the block grant has allowed States to respond to 
emerging health issues that affect women and children, such as the 
rising infant mortality rates, particularly among minority populations, 
and the availability of newborn screening for a newly expanded range of 
diseases and disorders. Reducing the infant mortality rate is a goal of 
the MCH Block Grant program, which will be difficult to achieve if 
funding continues to erode. State maternal and child health programs 
coordinate newborn screening and follow-up services, activities to 
ensure that every infant born in this country receives screening tests 
that detect disorders that could result in death or permanent 
disabilities. The money spent on these screening programs saves lives, 
and preserves State and Federal Government dollars that would otherwise 
be spent on expensive, lifelong treatment and rehabilitative services 
for infants whose genetic disorders go undetected. Level funding of the 
MCH Block Grant will not allow States to meet the increasing demand for 
newborn screening services.
    Last year's budget cut has already had a real impact on State 
programs, threatening the quality and quantity of care these programs 
provide. The MCH Block Grant can not continue to do more with less. 
Consider the following descriptions of the impact these cuts are having 
at the State level:
  --In Iowa, the impact of the MCH Block Grant cut means that the State 
        will not have the resources to address emerging public health 
        issues, such as planning for a potential bird flu pandemic. It 
        will, instead, be necessary to direct Title V resources toward 
        continuing existing programs. Infant mental health, smoking 
        cessation during pregnancy and obesity prevention programs will 
        all be short-changed as a consequence.
  --Funding has been pulled from a large Healthy Communities Access 
        Program project in Washoe County, Nevada because of this year's 
        cuts just as it was making great inroads in systems development 
        for access to care for low-income families in that county. 
        Nevada has a community-based prenatal program that reached 600 
        participants in its first year. Demand for services has tripled 
        this year. Further cuts to the MCH Block Grant would 
        necessitate cutting this program, so fewer pregnant women would 
        be served. The MCH program has had to drop all its contracts 
        with community coalitions to promote access to care, which has 
        hampered the success of these activities.
  --Alabama lost $409,339 in block grant funding in fiscal year 2006. 
        The Alabama MCH program has reduced staffing by attrition at 
        both the central office and county office levels. Nursing and 
        nursing assistants, administrative support, and epidemiology 
        services and medical equipment and supplies have been affected.
  --In Washington State, reductions in the MCH Block grant, impact 
        women and children by minimizing or eliminating local community 
        activities. Many activities will either be eliminated or 
        drastically scaled back, including early childhood programs, 
        adolescent health care, mental health services, the Healthy 
        Youth Survey, newborn hearing screening, and services for 
        children with special health care needs. Multiple Federal cuts 
        mean than many of the MCH partners will also be reducing 
        efforts. With this reduction, Washington State will be moving 
        back in time, not even maintaining the status quo.
  --In Michigan, cut backs in medical care and treatment for children 
        with special health care needs will be necessary as a result of 
        the $656,000 reduction in its allocation.
    The dramatic effects are not unique to Iowa, Nevada, Alabama, 
Washington State or Michigan, but affect all States and jurisdictions.
    AMCHP recognizes the fiscal restraints facing this subcommittee. 
Nevertheless, we can not stress enough what a dire situation MCH Block 
Grant cuts are creating, especially given the cuts in the Medicaid 
program and the fact that other safety net programs also face 
reductions. Title V programs play a valuable, complementary role to the 
SCHIP and Medicaid programs. As more women and children are forced out 
of the Medicaid program, they will turn to MCH programs to ensure that 
their health care needs are met. With increased demand for MCH Block 
Grant services, States will be forced to limit already stretched 
services to vulnerable populations.
    Our children are the future. Their needs should not be short-
changed by budget limitations, but addressed effectively with adequate 
funding. The MCH Block Grant has a proven track record of effectiveness 
and supports health services for over 32 million Americans. We strongly 
urge you to restore funding for the MCH Block Grant to the fiscal year 
2005 level of $724 million.
                                 ______
                                 
 Prepared Statement of the Centers for Disease Control and Prevention 
                               Coalition

    The CDC Coalition is a nonpartisan coalition of more than 100 
groups committed to strengthening our Nation's prevention programs. Our 
mission is to ensure that health promotion and disease prevention are 
given top priority in Federal funding, to support a funding level for 
the Centers for Disease Control and Prevention (CDC) that enables it to 
carry out its prevention mission, and to assure an adequate translation 
of new research into effective State and local programs. Coalition 
member groups represent millions of public health workers, researchers, 
educators, and citizens served by CDC programs. We are grateful to be 
able to present our views to the subcommittee.
    The CDC Coalition continues to believe that Congress should support 
CDC as an agency--not just the individual programs that it funds. In 
the best judgment of the CDC Coalition--given the challenges and 
burdens of chronic disease, a potential influenza pandemic, terrorism, 
disaster preparedness, new and re-emerging infectious diseases and our 
many unmet public health needs and missed prevention opportunities--we 
believe the agency will require funding of at least $8.5 billion, plus 
sufficient funding to prepare the Nation against a potential influenza 
pandemic. This request reflects the support CDC will need to fulfill 
its core missions for fiscal year 2007, as well as funding for the 
Agency for Toxic Substances and Disease Registry and the Vaccines for 
Children program.
    The CDC Coalition appreciates the subcommittee's work over the 
years, including your recognition of the need to fund chronic disease 
prevention, infectious disease prevention and treatment, and 
environmental health programs at CDC. By translating research findings 
into effective intervention efforts, CDC has been a key source of 
funding for many of our State and local programs that aim to improve 
the health of communities. Perhaps more importantly, Federal funding 
through CDC provides the foundation for our State and local public 
health departments, supporting a trained workforce, laboratory capacity 
and public health education communications systems.
    CDC also serves as the command center for our Nation's public 
health defense system against emerging and reemerging infectious 
diseases. With the potential onset of a worldwide influenza pandemic, 
in addition to the many other natural and man-made threats that exist 
in the modern world, the CDC has become the Nation's--and the world's--
expert resource and response center, coordinating communications and 
action and serving as the laboratory reference center. States and 
communities rely on CDC for accurate information and direction in a 
crisis or outbreak.
    Unfortunately, Congress cut overall CDC funding in fiscal year 2006 
for the first time in 25 years. And in fiscal year 2007, the President 
has proposed cutting CDC funding even more--more than 2 percent 
overall, and more than 4.5 percent to CDC's core programs. We are 
moving in the wrong direction, especially in these challenging times 
when public health is being asked to do more, not less. In light of the 
current workload placed on the public health service--in addition to 
the threat of emerging diseases such as the avian flu--it simply does 
not make any sense to cut the budget for CDC at a time when the threats 
to public health are so great. Funding public health outbreak by 
outbreak is not an effective way to ensure either preparedness or 
accountability. Until we are committed to a strong public health 
system, every crisis will force trade offs.
    CDC serves as the lead agency for bioterrorism preparedness and 
must receive sustained support for its preparedness programs in order 
for our Nation to meet future challenges. In the best judgment of CDC 
Coalition members, given the challenges of terrorism and disaster 
preparedness, and our many unmet public health needs and missed 
prevention opportunities, we support the proposed increase for anti-
terrorism activities at CDC, including the increases for the Strategic 
National Stockpile and the new Botulinum Toxin Research funding. 
However, we strongly caution that the President's proposed level-
funding of the State and local capacity grants continues to reflect a 
$95 million cut from fiscal year 2005 levels. We encourage the 
subcommittee to restore these cuts to ensure that our States and local 
communities can be prepared in the event of an act of terrorism.
    Heart disease remains the Nation's number one killer. In 2003, 
684,462 people died of heart disease (51 percent of them women), 
accounting for 28 percent of all U.S. deaths. Stroke is the third 
leading cause of death after heart disease and cancer, and is a leading 
cause of serious, long-term disability. In 2003, stroke killed 157,800 
people (61percent of them women), accounting for about 1 of every 15 
deaths. In 1998, the U.S. Congress provided funding for CDC to initiate 
a national, State-based heart disease and stroke prevention program 
with funding for eight States. Currently, 32 States and the District of 
Columbia are funded, 19 as capacity building programs and 14 as basic 
implementation programs. The CDC Coalition recommends $55 million for 
the Heart Disease and Stroke Prevention Program.
    The CDC funds proven programs addressing cancer prevention, early 
detection, and care. Cancer is the second most common cause of death in 
the United States. In 2006, about 1.4 million new cases of cancer will 
be diagnosed, and about 564,830 Americans--more than 1,500 people a 
day--are expected to die of the disease. The financial cost of cancer 
is also significant. According to the National Institutes of Health, in 
2005, the overall cost for cancer in the United States was nearly $210 
billion: $74 billion for direct medical costs, $17.5 billion for lost 
worker productivity due to illness, and $118.4 billion for lost worker 
productivity due to premature death.
    Among the ways the CDC is fighting cancer, it funds the National 
Breast and Cervical Cancer Early Detection Program that helps low-
income, uninsured and medically underserved women gain access to 
lifesaving breast and cervical cancer screenings and provides a gateway 
to treatment upon diagnosis. CDC also funds grants to States to develop 
Comprehensive Cancer Control (CCC) plans, bringing together a broad 
partnership of public and private stakeholders to jointly set 
priorities and implement specific cancer prevention and control 
activities customized to address each State's particular needs. CDC 
also funds programs to raise awareness about colorectal, prostate, 
lung, ovarian and skin cancers, and the National Program of Cancer 
Registries, a critical registry for tracking cancer trends in all 50 
States. The CDC coalition recommends $427.5 million for the Cancer 
Prevention and Control activities of the CDC.
    Although more than 18 million Americans have diabetes, 5.2 million 
cases are undiagnosed. From 1980--2002, the number of people with 
diabetes in the United States more than doubled, from 5.8 million to 
13.3 million. Each year, 12,000--24,000 people with diabetes become 
blind, more than 42,800 develop kidney failure, and about 82,000 have 
leg, foot, or toe amputations. Preventive care such as routine eye and 
foot examinations, self-monitoring of blood glucose, and glycemic 
control could reduce these numbers. Without additional funds, most 
States will not be able to create programs based on these new data. 
States also will continue to need CDC funding for diabetes control 
programs that seek to reduce the complications associated with 
diabetes.
    Over the last 25 years, obesity rates have doubled among adults and 
children, and tripled in teens. Obesity, diet and inactivity are cross-
cutting risk factors that contribute significantly to heart disease, 
cancer, stroke and diabetes. The CDC funds programs to encourage the 
consumption of fruits and vegetables, to get sufficient exercise, and 
to develop other habits of healthy nutrition and activity. The CDC 
Coalition recommends $70 million for CDC's Division of Nutrition and 
Physical Activity.
    Arthritis and chronic joint symptoms affect nearly 66 million 
Americans and they are the Nation's leading cause of disability. Early 
diagnosis and appropriate management of the disease can prevent much of 
the pain and disability associated it. The CDC Coalition recommends 
$14.4 million for the arthritis programs of the CDC.
    More than 400,000 people die prematurely every year due to tobacco 
use. The CDC's tobacco control efforts seek to prevent tobacco addition 
in the first place, as well as help those who want to quit. The CDC 
Coalition recommends $145 million for the CDC's tobacco control 
programs.
    Each day more than 4,000 young people try their first cigarette. At 
the same time, daily participation in high school physical education 
classes dropped from 42 percent in 1991 to 32 percent in 2001. Almost 
80 percent of young people do not eat the recommended number of 
servings of fruits and vegetables, while nearly 30 percent of young 
people are overweight or at risk of becoming overweight. And every 
year, almost 800,000 adolescents become pregnant and about 3 million 
become infected with a sexually transmitted disease. School health 
programs are one of the most efficient means of correcting these 
problems, shaping our Nation's future health, education, and social 
well-being. The CDC Coalition requests $34 million for CDC's Division 
of Adolescent and School Health (DASH) Coordinated School Health 
Program and $41.8 million for DASH's HIV prevention education programs.
    Public health programs delivered at the State and local level 
should be flexible to respond to State and local needs. Within an 
otherwise-categorical funding construct, the Preventive Health and 
Health Services Block Grant is the only source of flexible dollars for 
States and localities to address their unique public health needs. The 
track record of positive public health outcomes from Prevention Block 
Grant programs is strong, yet so many requests go unfunded. However, 
the President's budget proposes the elimination of the Preventive 
Health and Health Services Block Grant--again. We appreciate the work 
of the subcommittee to at least partially restore the fiscal year 2006 
elimination of the Block Grant. Nevertheless, the $20 million cut to 
the Block Grant in fiscal year 2006 reduces the States' ability to 
tailor Federal public health dollars to their specific needs. As States 
use their Prevention Block Grant dollars to address high priority needs 
such as emerging and chronic diseases, child safety seat programs, 
suicide prevention, smoke detector distribution and fire safety 
programs, adult immunization, oral health, worksite wellness, 
infectious disease outbreaks, food safety, emergency medical services, 
safe drinking water, and surveillance needs--we can scarcely understand 
why the Prevention Block Grant should be eliminated. We encourage the 
subcommittee to restore the cuts and fund the Prevention Block Grant at 
$132 million.
    Much of CDC's work in chronic disease prevention and health 
promotion is guided by its prevention research activities. Prevention 
research considers the factors associated with illness, disability, and 
injury, such as lifestyles or exposure to environmental toxins, and the 
best ways to address these factors and thereby promote health. By 
answering these questions, prevention research links biomedical 
research, which focuses on human physiology and disease treatment, to 
policies and public health interventions that promote wellness and 
reduce the need for treatment.
    CDC provides national leadership in helping control the HIV 
epidemic by working with community, State, national, and international 
partners in surveillance, research, prevention and evaluation 
activities. The CDC estimates that up to 1,185,000 Americans are living 
with HIV, one-quarter of whom are unaware of their infection. Also, the 
number of people living with HIV is increasing, as new drug therapies 
are keeping HIV-infected persons healthy longer and dramatically 
reducing the death rate. Prevention of HIV transmission is our best 
defense against the AIDS epidemic that has already killed over 500,000 
U.S. citizens and is devastating the populations of nations around the 
globe, and CDC's HIV prevention efforts must be expanded. The CDC 
Coalition recommends that a total of $1.05 billion be appropriated to 
the Division of HIV Prevention.
    The United States has the highest sexually transmitted diseases 
(STD) rates in the industrialized world. More than 18 million people 
contract STDs each year. In 1 year, our Nation spends over $8.4 billion 
to treat the symptoms and consequences of STDs. Elimination of STDs, 
especially syphilis, is now within our grasp. These welcome 
opportunities, if adequately funded now, will save millions in annual 
health care costs in the future. Untreated STDs contribute to infant 
mortality, infertility, and cervical cancer. State and local STD 
control programs depend heavily on CDC funding for their operational 
support.
    CDC conducts the National Health and Nutrition Examination Survey 
(NHANES), the only national source of objective health data to provide 
accurate estimates of diagnosed and undiagnosed medical conditions in 
the population. NHANES is a unique collaboration between CDC, the 
National Institutes of Health (NIH), and others to obtain data for 
biomedical research, public health, tracking of health indicators, and 
policy development. Through physical examinations, clinical and 
laboratory tests, and interviews, NHANES assesses the health status of 
adults and children in the United States. Mobile exam centers travel 
throughout the country to collect data on chronic conditions, 
nutritional status, medical risk factors (e.g., high cholesterol level, 
obesity, high blood pressure), dental health, vision, illicit drug use, 
blood lead levels, food safety, and other factors that are not possible 
to assess by use of interviews alone. Findings from this survey are 
essential for determining rates of major diseases and health conditions 
and developing public health policies and prevention interventions.
    We must address the growing disparity in the health of racial and 
ethnic minorities. CDC's REACH 2010 Demonstration Program, Racial and 
Ethnic Approaches to Community Health (REACH), helps States address 
these serious disparities in infant mortality, breast and cervical 
cancer, cardiovascular disease, diabetes, HIV/AIDS and immunizations. 
We encourage the subcommittee to provide adequate funds for CDC's REACH 
program.
    The CDC Coalition is requesting an appropriation of $49.75 million 
for Steps to a HealthierUS (STEPS) program. Additional resources will 
allow for the creation of programs in more States. Furthermore, while 
the President's budget request includes $1.5 million to support the 
YMCA Pioneering Healthier Communities initiative, $3 million is needed 
to continue to expand this important effort. This would enable 
additional communities to participate in this initiative, to allow on-
going training for communities and to support a Center for Community 
Health Advancement at the CDC to assist the YMCA and other communities 
undertaking healthy lifestyle initiatives to prevent and control 
obesity and chronic disease.
    CDC oversees immunization programs for children, adolescents and 
adults, and is a global partner in the ongoing effort to eradicate 
polio worldwide. The value of adult immunization programs to improve 
length and quality of life, and to save health care costs, is realized 
through a number of CDC programs, but there is much work to be done and 
a need for sound funding to achieve our goals. Influenza vaccination 
levels remain low for adults. Levels are substantially lower for 
pneumococcal vaccination and significant racial and ethnic disparities 
in vaccination levels persist among the elderly. Childhood immunization 
programs at CDC also need a funding boost, to ensure sufficient 
purchase and delivery of the varicella and pneumococcal vaccines. In 
addition, developing functional immunization registries in all States 
will be less costly in the long run than maintaining the incomplete 
systems currently in place. The CDC Coalition requests $802.4 million 
for the National Immunization Program at CDC.
    Injuries are the leading cause of death in the United States for 
people ages 1-34. Of all injuries, those to the brain are most likely 
to result in death or permanent disability. Each year more than 50,000 
people die as a result of a brain injury and as many as 90,000 others 
are left with a long-term disability. A traumatic brain injury (TBI) is 
defined as a blow or jolt to the head or a penetrating head injury that 
disrupts the function of the brain. The Traumatic Brain Injury Act is 
the Nation's only law that was specifically designed to respond to this 
public health crisis. The Institute of Medicine reported this month 
that this law has been effective in addressing a wide variety of gaps 
in service system development. The CDC Coalition requests that the 
subcommittee restore $30 million in appropriations for TBI programs at 
CDC and at HRSA, which President Bush zeroed out. The monies would be 
allocated as follows: CDC--$9 million; HRSA State Grant Program--$15 
million; and HRSA Protection and Advocacy program--$6 million.
    Injury at work remains a leading cause of death and disability 
among U.S. workers. During the period from 1980 through 1995, at least 
93,338 workers in the United States died as a result of injuries 
suffered on the job, for an average of about 16 deaths per day. The 
Bureau of Labor Statistics (BLS) at the Department of Labor has 
identified 5,915 workplace deaths from acute traumatic injury in 2000. 
BLS also estimates that 5.7 million injuries to workers occurred in 
1997 alone; while NIOSH estimates that about 3.6 million occupational 
injuries were serious enough to be treated in hospital emergency rooms 
in 1998. The injury prevention and workforce protection initiatives of 
NIOSH need continued support.
    Of the 4 million babies born each year in the United States, 3 
percent are born with one or more birth defects. Birth defects are the 
leading cause of infant mortality, accounting for more than 20 percent 
of all infant deaths. Children with birth defects who survive often 
experience lifelong physical and mental disabilities. An estimated 54 
million people in the United States currently live with a disability, 
and 17 percent of children under the age of 18 have a developmental 
disability. Direct and indirect costs associated with disability exceed 
$300 billion.
    Created by the Children's Health Act of 2000 (Public Law 106-310), 
the National Center on Birth Defects and Developmental Disabilities 
(NCBDDD) at CDC conducts programs to protect and improve the health of 
children and adults by preventing birth defects and developmental 
disabilities; promoting optimal child development and health and 
wellness among children and adults with disabilities. We encourage the 
subcommittee to provide at least $135 million in fiscal year 2007 
funding for the NCBDDD. This would be a modest increase of $10 million 
and would further surveillance, research and prevention activities 
related to birth defects and developmental disabilities and improve the 
lives of those living with disabilities.
    We also encourage the subcommittee to provide $10 million for CDC's 
Environmental Public Health Services Branch to revitalize environmental 
public health services at the national, State, and local level. As with 
the public health workforce, the environmental health workforce is 
declining. Furthermore, the agencies that carry out these services are 
fragmented and their resources are stretched. These services are the 
backbone of public health and are essential to protecting and ensuring 
the health and well being of the American public from threats 
associated with West Nile virus, terrorism, E. coli and lead in 
drinking water.
    We appreciate the subcommittee's hard work in advocating for CDC 
programs in a climate of competing priorities. We encourage you to 
consider our request for $8.5 billion, plus sufficient funding to 
prepare for a possible influenza pandemic, for CDC in fiscal year 2007.
                                 ______
                                 
         Prepared Statement of the College of New Rochelle, NY

    Mr. Chairman and Members of the subcommittee, on behalf of The 
College of New Rochelle (CNR), and the thousands of New York City 
metropolitan area residents impacted by our programs each year, I am 
grateful for the opportunity to submit testimony to your committee 
regarding our Center for Wellness project.

        THE NATIONAL HEALTH CARE CRISIS: A NEED FOR THE PROJECT

    Government sources report that one of the most important issues 
currently facing American society is the health care crisis. Among the 
reasons cited are the escalating costs of health care, an increasing 
lack of access to health insurance among the poor and middle class, an 
aging population and a growing national shortage of qualified nurses 
and other health care providers.
    Recent data shows the following:
  --Out of some 40 million Americans who are informal care givers, an 
        estimated 72 percent are women;
  --Women represent 71 percent of Americans age 85+, the fastest 
        growing segment of the population;
  --Almost two-thirds of Americans are overweight or obese;
  --One in three Americans born in the year 2000 will develop Type 2 
        diabetes;
  --Surveys indicate that 28 percent of high school girls think they 
        are overweight; 60 percent report trying to lose weight; 8 
        percent suffer from anorexia or bulimia;
  --More than half of all Americans get too little physical activity;
  --Some 45 million Americans have no health insurance; and
  --Over 1 million new and replacement nurses will be needed nationwide 
        by 2020.
    One significant health care issue is the individual's lack of 
attention to participation in self-care. Government experts emphasize 
the importance of widespread public awareness of basic health habits 
and preventative care, as well as support for those seeking 
preventative assistance in making better health and lifestyle choices. 
In order to keep the crisis from increasing, the U.S. Department of 
Health and Human Services, through the Office of Disease Prevention and 
Health Promotion, has launched a national initiative, Healthy People 
2010. Through its School of Nursing, and programs such as Healthy 
Campus 2010, CNR has been participating actively in HHS initiatives for 
many years, developing local health education programs which benefit 
students and New York City metropolitan area residents, and which help 
address national goals.
    The Office of Disease Prevention and Health Promotion has 
identified ten major public health issues based on their causal 
relationship to serious or chronic illnesses. These are: insufficient 
physical activity, overweight and obesity, decreasing environmental 
quality, tobacco use, substance abuse, irresponsible sexual behavior, 
mental health disorders, injury and violence, immunization 
deficiencies, and lack of access to health care. People of all socio-
economic backgrounds are susceptible; however, the risk factors are 
even greater among the poor, the elderly and the uninsured.
    Moreover, recent studies reveal that those most at risk for 
developing chronic and life-threatening conditions are African 
Americans, Hispanics, and Asians--populations largely represented in 
the New York metropolitan area where CNR has six campus locations 
serving 7,000 students and many local residents.

         THE NATIONAL NURSING SHORTAGE: CNR'S SCHOOL OF NURSING

    Compounding the health care crisis is the critical and 
unprecedented nationwide shortage of nurses--one that is uniquely 
different from previous shortages. Among the causes cited for this 
growing problem are an aging nursing workforce, increased job 
opportunities for women in other fields, and fundamental changes in how 
and in what setting patients are treated. A compelling statistic is the 
average age of nurses which is now over 45. A significant percentage of 
nurses currently employed will most likely retire just as the baby boom 
generation reaches Medicare age.
    According to a recent Federal survey an estimated 1 million new and 
replacement nurses will be needed nationwide by 2020. Government 
leaders are stressing the urgency of embarking on a national agenda to 
encourage more students to choose nursing as a career. Among their 
recommendations are the creation of incentives to recruit new 
candidates to the profession, and the broad-scale development of 
creative approaches for the continuing preparation and retention of 
skilled nurses.
    CNR's School of Nursing (SON), founded in 1976, belongs to the 
National League for Nursing and is accredited by the Commission on 
Collegiate Nursing Education. The School is ideally poised to assume a 
leadership role in enacting the national recommendations cited above. 
In recent years, the School has been especially successful in 
recruiting students (including many from disadvantaged backgrounds) and 
in fostering a lifelong commitment to nursing careers. Enrollment in 
SON has increased by 25 percent over the past 2 years. At present, 
there are 669 students enrolled in SON: 580 in the baccalaureate 
program and 89 in the masters program. SON programs are addressing the 
shortage by creating initial student access to the nursing profession 
and also by providing a career ladder for nurses seeking to advance 
their careers. Five separate programs are offered:
  --Undergraduate program leading to a Bachelor of Science Degree in 
        Nursing (BSN);
  --Programs of study for registered nurses seeking either a BSN or a 
        Master of Science Degree;
  --BSN program for those holding degrees in other fields;
  --Graduate program with several tracks leading to an MS Degree in 
        Nursing; and
  --Several post-Master certificate programs.
    A pivotal function of CNR's multi-faceted Center for Wellness 
project includes the building of a new state-of-the-art facility on the 
College's New Rochelle campus, providing space for nursing and health 
education classes and events. This will heighten the visibility of 
nurses as educators as a crucial part of the nursing profession 
throughout the New York City area and beyond. The new facility and its 
related health and wellness education programs also hold much promise 
for drawing a greater number of students to SON as well as providing 
expanded access and opportunity for nurses seeking to acquire 
additional professional skills and/or further their careers.

         THE CENTER FOR WELLNESS AT THE COLLEGE OF NEW ROCHELLE

    The proposed Center for Wellness will be a state-of-the-art multi-
purpose facility at the College's main campus and will house Nursing 
programs, Physical Education, Health Education and Health Services 
programs. The faculty will create a comprehensive center for the 
development and delivery of a broad range of integrated health and 
wellness education programs. The program will include a variety of 
health and educational activities in an intergenerational fashion to 
involve students, employees, and members of the surrounding community. 
Health seminars will cover a wide variety of issues including parenting 
and women's issues, smoking, diabetes, heart disease, nutrition and 
weight issues, sex education and assault issues, drug abuse prevention 
and treatment, and wellness education. The School of Nursing will offer 
courses and workshops in wellness and disease prevention, not only 
through the curriculum in the School of Nursing, but also to the 
students, staff and faculty in Westchester and at the branch campuses. 
The integrated wellness program will be supplemented with fitness and 
education programs targeted to specific populations such as the New 
Rochelle School District, the Senior Center of New Rochelle and the 
United Hebrew Home.
    The programs at the Center for Wellness will provide access to 
timely information and help foster lifelong healthy lifestyle choices 
among students, faculty and staff at the main campus and throughout the 
five metropolitan New York communities where CNR has city campus 
locations. At these city campuses, CNR will give busy low-income adult 
students access to wellness promotion, health maintenance and fitness 
programs on campus. For example, the College is working with the New 
York City health education program ``Take Care New York'' to educate 
all of our students on the necessity of a healthy lifestyle. CNR will 
also use distance learning technology so that faculty and staff at its 
campuses can share their own expertise, as well as that of national 
experts, with CNR students and community members.
    The College of New Rochelle recognizes that preventative health 
care is vital to our Nation's future. This Center will position CNR as 
a model institution for the development and delivery of innovative 
health and wellness education. CNR believes that this holistic approach 
to wellness will serve as motivation for more students to enter the 
field of nursing and thus begin to alleviate the nursing shortage. The 
programs, adaptable to the needs of many different communities and 
populations, will be able to be replicated at other institutions 
regionally and nationally.
    The total cost to establish the Center for Wellness is estimated at 
$25 million. Through the support of the subcommittee, The College of 
New Rochelle received funding through the Labor, HHS and Education 
Appropriations Bill in the amount of $200,000 in 2005. CNR has utilized 
this funding for the development of wellness education programs that 
have benefited CNR students, middle school students, and senior 
citizens from the area surrounding the New Rochelle Campus. In fiscal 
year 2007, The College hopes that the subcommittee can fund our request 
of $2.7 million to construct and equip the Center.
                                 ______
                                 
           Prepared Statement of the Diabetes Care Coalition

    Mr. Chairman and members of the Committee, thank you for the 
invitation today to discuss how government, private industry and non-
governmental agencies can form innovative partnerships to address the 
epidemic of uncontrolled diabetes in America. This raging epidemic is 
simply too great a challenge for any but a collective effort.
    I know this subcommittee has little ability to change the fiscal 
reality that you must produce an appropriations bill that, for a second 
consecutive year, must reduce spending under your jurisdiction by 
multiple billions of dollars. This fiscal reality does not change the 
fact that one out of every three people with diabetes will suffer a 
heart attack by age 40, every day 144 Americans with diabetes will go 
blind, every hour three people with diabetes will undergo an 
amputation, and every minute 20 people with diabetes undergo kidney 
dialysis. The sad fact is most of these and other complications of 
diabetes are preventable through known interventions. But, not everyone 
living with diabetes is aware of some of the simple things they can do 
to monitor their disease and prevent some of these terrible 
consequences.
    My entire career has been dedicated to improving the care of people 
with diabetes, through research into the causes of diabetes 
complications, and how to improve diabetes care. I have been President 
of the American Diabetes Association, a member of the Coalition I 
represent today, and the founding Chairman of the private-public 
partnership of the National Diabetes Education Program (NDEP), which 
was funded by the National Institutes of Health and the Centers for 
Disease Control and Prevention (CDC) to improve the care of Americans 
with diabetes. I am also the Medical Advisor to the Diabetes Care 
Coalition (DCC) on whose behalf I am speaking today.
    As Dr. Gerberding told the House of Representatives Appropriations 
Subcommittee on Labor, Health and Human Services, Education, and 
Related Agencies in March 2006, ``where we invest, we can make a 
difference''. I am here today to tell you that the DCC is committing 
significant private sector resources to mount a critical public 
awareness campaign aimed at improving the health of individuals with 
diabetes. We are initiating discussions with experts at the CDC, and 
are excited about the potential opportunity to develop an innovative 
partnership with this world-renown agency to leverage scarce Federal 
resources, and combine our efforts with theirs, to immediately begin to 
reduce the burden of this rapidly growing disease.
    In this difficult fiscal environment where we are seeing the CDC 
budget cut this year by hundreds of millions of dollars, and the 
President's proposal to cut it again by almost $200 million next year, 
we believe it is imperative to encourage creative solutions to reach 
the millions of Americans living with diabetes with information that 
can ultimately prevent heart attacks, strokes, blindness, amputations, 
and other complications of this disease. The DCC represents what is 
truly a creative solution to combat the problem of uncontrolled 
diabetes.
    The DCC was born out of a recognition by its various participants 
that Americans with diabetes lack a basic understanding of how best to 
control their disease to reduce their risk of complications like heart 
attacks and strokes. The DCC's pilot ``Know Your A1C'' campaign 
represents a novel approach to empower people with diabetes to take 
personal responsibility by working with their diabetes healthcare team 
to manage the disease.
    Personally, I am concerned that the Federal Government's commitment 
to battling the epidemic of uncontrolled diabetes is under-funded and 
potentially losing ground. Since 2003, the CDC estimates that the 
prevalence of diabetes in America increased 14 percent. Over 20.8 
million adult Americans live with diabetes today compared to 18.2 
million in 2003. While I recognize the limitations on the Federal 
budget and the tough choices that have to be made in this Committee 
every day, now is not the time to approve declining budgets for our 
Federal programs that aim to prevent and manage diabetes.
    I do not want to overwhelm you with facts and figures, but it is 
clear from even a brief review that diabetes is about to overwhelm 
America's medical system. By providing you with perspective related to 
the reach of diabetes, I trust you will appreciate the need to invest 
in battling uncontrolled diabetes before its impact devastates our 
health system. The place our Nation needs to make this investment is 
here in your appropriations bill, in the CDC.
    Diabetes strikes across age groups, economic status, and ethnicity. 
Projections for the future are even more ominous. The Yale Schools of 
Public Health and Medicine project the population of Americans living 
with diabetes will increase two and a half times by 2025. Supporting 
this projection, the CDC estimates that 33 percent of all children and 
nearly one half of minority children born in the year 2000 will develop 
diabetes by 2050.
    The economic cost of diabetes is enormous. In 2002, the total 
economic impact of diabetes was $132 billion. Put another way, 1 out of 
every 10 health care dollars spent in the United States is spent on 
diabetes care and its complications. CMS estimates that 32 percent of 
the Medicare budget goes towards caring for Americans with diabetes--an 
amazing one-third of the entire Medicare program that is struggling 
with long-term solvency issues far more critical and a near-term fiscal 
crisis than Social Security solvency.
    The human costs of uncontrolled diabetes are more shocking:
  --2 out of 3 people with diabetes in America will die of a heart 
        attack or stroke.
  --Diabetes is the leading cause of blindness, causing 12,000 to 
        24,000 new cases each year.
  --Diabetes is the leading cause of kidney failure, accounting for 43 
        percent of new cases in 2002.
  --More than 60 percent of non-traumatic lower-limb amputations occur 
        in people with diabetes.
    Unfortunately, most diabetes patients are not controlling the risk 
factors that can keep them healthy. A1C is a compelling example of this 
trend. A1C is the single most important measure of glucose control over 
time and a proven risk factor for all major diabetes complications. A1C 
is a test that shows glucose control over the previous 3 months; sort 
of a diabetes batting average except that lower is better.
    Diabetes patients should know their A1C number and work to keep it 
in check--similar to blood pressure or cholesterol levels. The test is 
paid for by managed care, Medicare, and most private insurance plans; 
there are few financial barriers to being in the know.
    However, a recent study by the New York State Department of Health 
found that 89 percent of patients with diabetes did not know their A1C. 
Worse, even among those who knew their A1C, 80 percent had A1C's above 
the value deemed acceptable by all diabetes organizations. Nationally, 
the CDC estimates that 65 percent of all diabetes patients are out of 
control, defined by the CDC as ``an A1C level above 7.''
    I urge this Committee to consider, based on the dire state of 
diabetes in America, whether we can or should continue to overlook the 
basic diabetes care needs of Americans. The answer to me seems obvious; 
we must embark on an aggressive campaign to encourage Americans to 
manage diabetes to control its staggering human and financial costs 
that encompass all sectors of the American community.
    The DCC works to bridge the diabetes management knowledge gap by 
educating diabetes patients and their healthcare teams on ways to 
battle uncontrolled diabetes primarily through A1C awareness and 
management. Through public education in its initial test markets, the 
DCC aims to help diabetes patients take control of their disease and 
live longer, healthier lives--without the specter of heart attack, 
stroke, amputation, or kidney failure.
    The American Diabetes Association and the Juvenile Diabetes 
Research Foundation International are jointly leading the DCC's ``Know 
Your A1C'' campaign to battle uncontrolled diabetes in America. 
Providing financial support to this novel non-branded, public-private 
partnership are six of the world's leading pharmaceutical and medical 
device companies: Abbott Diabetes Care Inc., Becton, Dickinson and 
Company, LifeScan, Inc., Novo Nordisk Inc., Roche Diagnostics 
Corporation, and sanofi-aventis U.S. Inc.
    The ``Know Your A1C'' campaign is different from other public 
service campaigns. It encourages Americans and their families to 
control diabetes by focusing primarily on the message that patients 
need to know and to manage their A1C. Prior to launching its campaign, 
the DCC conducted research to determine the most effective way to 
encourage patients to manage diabetes and the findings supported a sole 
focus on A1C control.
    The campaign utilizes television, radio and print placements to 
reach families affected by diabetes in the pilot markets. While these 
placements consist of paid advertising today, beginning in late 2006, 
most of the effort will rely on public service announcements generated 
under an agreement with the Ad Council.
    The effort is enhanced by the sales teams of the corporate 
supporters who distribute unbranded educational materials into medical 
offices, clinical laboratories, pharmacies, diabetes educators' offices 
and any other location likely to be frequented by a person with 
diabetes in the pilot markets. The campaign also provides an order 
fulfillment system via 800 number allowing people to request basic 
materials associated with the campaign, a website and direct mail to 
healthcare professionals to ensure campaign materials have the broadest 
reach possible in the test markets.
    In 2006, the DCC will expand upon its 2005 ``Know Your A1C'' pilot 
program in Atlanta and Tampa. This year, the campaign will reach the 
television and radio markets of Atlanta, GA, Lexington, KY, Little 
Rock, AR and Memphis, TN.
    The DCC is expanding its focused campaign simply because it is 
proven to work. Consider some of these compelling highlights of the 
campaign's achievements in 2005 in Atlanta and Tampa.
  --An improvement in the number of patients with diabetes who report 
        obtaining an A1C test in the past 3 months from a low of 25 
        percent prior to campaign launch to an average of 52 percent 
        during the campaign.
  --An increase in patient with diabetes understanding of A1C awareness 
        from a low of 38 percent among people with diabetes prior to 
        the launch of the campaign to an average of 54 percent by the 
        end of the campaign; and
  --An increase in patient with diabetes understanding of what the A1C 
        test measures from a low of 17 percent prior to the campaign to 
        an average of 41 percent during the campaign.
    Based upon these results, the Ad Council will join the DCC to 
refine the ``Know Your A1C'' campaign and transform it from a regional 
effort into a national public service campaign. This campaign is 
expected to launch in late 2006. Plus, the campaign hopes to reach 
English and Spanish speaking populations. I hope you share in my 
enthusiasm for this program as it could potentially transform America's 
ambivalence towards the uncontrolled diabetes epidemic into a national 
call to action.
    We would like to build on the current NIH and CDC patient awareness 
campaigns and will soon talk to CDC about the best ways to work with it 
to improve patient awareness of A1C levels. This may include CDC 
support for needed patient and healthcare provider components that 
inform Americans with diabetes how they can and should manage the 
disease not presently part of the campaign. Components the DCC would 
like to incorporate in the campaign include more aggressive healthcare 
provider education tools, documents informing families how to help 
manage a family member's diabetes, information detailing steps patients 
can take for A1C control, components that speak more directly to multi-
cultural audiences and a more robust order fulfillment program.
    While the Diabetes Care Coalition will provide an expanded national 
``Know Your A1C'' campaign in late 2006 and the personnel necessary to 
distribute the materials associated with the campaign, a partnership 
with the Federal Government will enable us to expand and enhance our 
campaign. A public-private partnership will give us the expertise and 
funding needed to take the battle to all Americans and their healthcare 
teams to eliminate uncontrolled diabetes. This makes economic and 
humanitarian sense.
    Today, the DCC joins the American Diabetes Association in 
requesting an increase in the CDC diabetes prevention and control 
program by $20.8 million in fiscal year 2007. Given the scope and reach 
of diabetes, we believe this is a modest request even in this budget 
climate.
    We also encourage this Committee to urge the CDC to dedicate new 
and existing resources for its diabetes control program to battling 
uncontrolled diabetes. To best serve the American people, CDC must 
equally address both aspects of controlling this disease--primary 
prevention activities to stop new cases of diabetes, as well as 
secondary prevention activities to improve the health of the 20.8 
million people living with diabetes.
    Members of the Committee, the time to battle the epidemic of 
uncontrolled diabetes is now. If we miss this opportunity, America will 
lose substantial ground and run the risk of never getting the diabetes 
epidemic under control.
    Unfortunately, the 20.8 million Americans living with diabetes 
today represent ``the low water mark'' in the reach and scope of the 
disease. It is time to realize that diabetes is here to stay in America 
and to act in a way that accepts this truth. Please help empower 
Americans living with diabetes, and the growing numbers who will live 
with it tomorrow, to ``Know Your A1C'' by providing the CDC with the 
resources needed to battle the epidemic of uncontrolled diabetes.
    Thank you for your time and consideration.
                                 ______
                                 
        Prepared Statement of the InterTribal Bison Cooperative

                      INTRODUCTION AND BACKGROUND

    My name is Ervin Carlson, a Tribal Council member of the Blackfeet 
Tribe of Montana and President of the InterTribal Bison Cooperative. 
Please accept my sincere appreciation for this opportunity to submit 
testimony to the honorable members of the Appropriations Sub-Committee 
on Labor, Health and Human Services and Education. The InterTribal 
Bison Cooperative (ITBC) is a Native American non-profit organization, 
headquartered in Rapid City, South Dakota, comprised of 57 federally 
recognized Indian Tribes located within 19 States across the United 
States.
    Buffalo thrived in abundance on the plains of the United States for 
many centuries before they were hunted to near extinction in the 1800s. 
During this period of history, buffalo were critical to survival of the 
American Indian. Buffalo provided food, shelter, clothing and essential 
tools for Indian people and insured continuance of their subsistence 
way of life. Naturally, Indian people developed a strong spiritual and 
cultural respect for buffalo that has not diminished with the passage 
of time.
    Numerous tribes that were committed to preserving the sacred 
relationship between Indian people and buffalo established the ITBC as 
an effort to restore buffalo to Indian lands. ITBC focused upon raising 
buffalo on Indian Reservation lands that did not sustain other economic 
or agricultural projects. Significant portions of Indian Reservations 
consist of poor quality lands for farming or raising livestock. 
However, these wholly unproductive Reservation lands were and still are 
suitable for buffalo. ITBC began actively restoring buffalo to Indian 
lands after receiving funding in 1992 as an initiative of the Bush 
administration.
    Upon the successful restoration of buffalo to Indian lands, 
opportunities arose for Tribes to utilize buffalo for tribal economic 
development efforts. ITBC is now focused on efforts to assure that 
tribal buffalo projects are economically sustainable. Federal 
appropriations have allowed ITBC to successfully restore buffalo the 
tribal lands, thereby preserving the sacred relationship between Indian 
people and buffalo. The respect that Indian tribes have maintained for 
buffalo has fostered a serious commitment by ITBC member Tribes for 
successful buffalo herd development. The successful promotion of 
buffalo as a healthy food source will allow Tribes to utilize a 
culturally relevant resource as a means to achieve self-sufficiency.
        funding request for preventative health care initiative
    The InterTribal Bison Cooperative respectfully requests an 
appropriation for fiscal year 2007 in the amount of $2,000,000 in the 
form of an earmark to the Department of Health and Human Service 
Department's budget. ITBC intends to utilize the funds to conduct a 
national demonstration project focused on the delivery of bison meat to 
Native Americans suffering from diet related diseases.
    The Native American population currently suffers from the highest 
rates of Type 2 diabetes. The Indian population further suffers from 
high rates of cardio vascular disease and various other diet related 
diseases. Studies indicate that Type 2 diabetes commonly emerges when a 
population undergoes radical diet changes. Native Americans have been 
forced to abandon traditional diets rich in wild game, buffalo and 
plants and now have diets similar in composition to average American 
diets. More studies are needed on the traditional diets of Native 
Americans versus their modern day diets in relation to diabetes rates. 
However, based upon the current data available, it is safe to assume 
that disease rates of Native Americans are directly impacted by a 
genetic inability to effectively metabolize modern foods. More 
specifically, it is well accepted that the changing diet of Indians is 
a major factor in the diabetes epidemic in Indian Country.
    Approximately 65-70 percent of Indians living on Indian 
Reservations receive foods provided by the USDA Food Distribution 
Program on Indian Reservation (FDPIR) or from the USDA Food Stamp 
Program. The FDPIR food package is composed of approximately 58 percent 
carbohydrates, 14 percent proteins and 28 percent fats. Studies have 
shown that the FDPIR food package has not been compatible with the 
genetic compositions of Native Americans and has been a major factor in 
the high incidence of diet-related disease among Native Americans. 
Indians utilizing Food Stamps generally select a grain based diet and 
poorer quality protein sources such as high fat meats based upon 
economic reasons and the unavailability of higher quality protein food 
sources.
    Buffalo meat is low in fat and cholesterol and is compatible to the 
genetics of Indian people. ITBC intends to develop a health care 
initiative that would educate Indian Reservation families of the 
benefits of incorporating buffalo meat into their diets. In conjunction 
with educating Reservation families on the benefits of buffalo meat, 
ITBC intends to develop methods to make buffalo meat accessible for 
Indian families and to promote incorporation of buffalo into their 
diets. ITBC intends to coordinate with Reservation health care 
providers in nutritional studies of Reservation populations that 
incorporate buffalo meat into diet packages.
    ITBC believes that incorporating buffalo meat will positively 
impact the diets of Indian people living on Reservations. A healthy 
diet for Indian people that results in a lower incidence of diabetes 
and other diet related illnesses will reduce Indian Reservation health 
care costs and result in a savings for taxpayers.

          FUNDING REQUEST FOR ITBC TRAINING AND LABOR PROGRAM

    The InterTribal Bison Cooperative respectfully requests an 
appropriation for fiscal year 2007 in the amount of $500,000. This 
amount is $400,000 above the fiscal year 2006 appropriation for ITBC 
and is critical to maintain last years funding level and to develop 
ITBC's training and labor program.
    In fiscal year 2005, the ITBC and its member Tribes were funded at 
$100,000, a decrease of $200,000 from the previous year. ITBC is now 
requesting $500,000 for fiscal year 2007 for job training as part of 
ITBC's labor initiative. To insure the success of ITBC' s buffalo 
restoration efforts to Indian lands, training for the various jobs 
related to the buffalo projects is essential. Most member Tribes of 
ITBC have reservation unemployment rates of 72 percent. Jobs 
opportunities on most Indian Reservations are limited, low-paying, and 
often seasonal and temporary. The jobs created by buffalo restoration 
to Indian lands will positively impact Tribal unemployment rates and 
the overall Reservation poverty levels. Raising buffalo as an economic 
development effort requires skilled labor in permanent employment. ITBC 
has developed a job training program incorporating on-the-job training 
and work experience for youth that specifically addresses the unique 
needs of managing and maintaining buffalo. ITBC's training program 
further focuses on strengthening the economic development opportunities 
of buffalo restoration with training specific to meat processing, 
veterinary science, wildlife and biological services, infrastructure 
development, business and management training, and the overall 
development of a skilled workforce.
    Sufficient funding for job training is critical to the success of 
the buffalo restoration projects. The increase in funding will ensure 
that ITBC can provide job training, job growth training to ITBC member 
tribes. Without funding at the requested level, the buffalo restoration 
projects have less assurance of success.

                       ITB GOALS AND INITIATIVES

    In addition to developing a preventative health care initiative, 
ITBC intends to continue with buffalo restoration efforts and the 
Tribal buffalo marketing initiative.
    In 1991, seven Indian Tribes had small buffalo herds, with a 
combined total of 1,500 animals. The herds were not utilized for 
economic development but were often maintained as wildlife only. During 
ITBC's relatively short 10-year tenure, it has been highly successful 
at developing existing buffalo herds and restoring buffalo to Indian 
lands that had no buffalo prior to 1991. Today, through the efforts of 
ITBC, over 35 Indian Tribes are engaged in raising over 15,000 buffalo. 
All buffalo operations are owned and managed by Tribes and many 
programs are close to achieving self-sufficiency and profit generation. 
ITBC's technical assistance is critical to ensure that the current 
Tribal buffalo projects gain self-sufficiency and become profit-
generating. Further, ITBC's assistance is critical to those Tribes 
seeking to start a buffalo restoration effort.
    Through the efforts of ITBC, a new industry has developed on Indian 
reservations utilizing a culturally relevant resource. Hundreds of new 
jobs directly and indirectly revolving around the buffalo industry have 
been created. Tribal economies have benefited from the thousands of 
dollars generated and circulated on Indian Reservations.

                               CONCLUSION

    ITBC has proven highly successful since its establishment to 
restore buffalo to Indian Reservation lands to revive and protect the 
sacred relationship between buffalo and Indian Tribes. Further, ITBC 
has successfully promoted the utilization of a culturally significant 
resource for viable economic development.
    ITBC has assisted Tribes with the creation of new jobs, on-the-job 
training and job growth in the buffalo industry resulting in the 
generation of new money for tribal economies. ITBC is also actively 
developing strategies for marketing Tribally owned buffalo. Finally, 
and most critically for Tribal populations, ITBC is developing a 
preventive health care initiative to utilize buffalo meat as a healthy 
addition to Tribal family diets to reduce the incidence of diet-related 
illnesses.
    ITBC strongly urges you to support its request for a $2,000,000 
earmark to the Department of Health and Human Service Department's 
budget to develop the critically needed preventative health care 
initiative utilizing Tribally produced buffalo.
                                 ______
                                 
          Prepared Statement of the John B. Amos Cancer Center

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to submit testimony to the hearing record regarding the 
John B. Amos Cancer Center (JBACC) in Columbus, Georgia. JBACC is a 
comprehensive community cancer center designed to address the continuum 
of the disease from prevention and early detection through treatment, 
survivorship and palliation.
    Accredited by the Commission on Cancer, American College of 
Surgeons, JBACC's mission is to provide exceptional quality-driven 
care. Accordingly, we have opened a (49,620 sq. ft.) hospital-based 
cancer center located on its own campus and surrounded by meditation 
gardens. This unique facility is designed to address cancer along a 
disease management approach allowing patients, families, and the 
community at large to enter our services at any point in the disease 
process whether it is for education, diagnosis, treatment, or 
psychosocial support. Our outreach programs are a significant component 
of our action plan to improve the health of the region, as well. 
Further development of these programs is the reason I address you 
today.
    As you are aware, the John B. Amos Cancer Center received fiscal 
year 2005 Labor, HHS, and Education Appropriations. I would like to 
thank the subcommittee for this support and elaborate on the success of 
our programs thus far.
    Leveraging community and government support, we have developed 
extensive Breast and Cervical Cancer Screening Programs that allow us 
to reach many underserved areas of the 14 county region encompassing 
our service area. Community Health Advisors (CHAs) trained and educated 
by JBACC in collaboration with the West Georgia Cancer Coalition to 
address cancer education, prevention, and diagnostic care, assist in 
the facilitation of community screenings to maximize the effect of the 
screening events. These CHAs are native to the communities they serve 
and therefore possess intuitive knowledge necessary for conducting 
successful community screenings such as appropriate venues and 
marketing techniques for the respective population. Other factors, such 
as matching a bilingual CHA with Hispanic communities to increase 
accessibility and comfort levels are also considered.
    Screenings are conducted on a weekly basis in communities 
throughout the region. Rural communities are specifically targeted as 
screening sites at least once a month. A culturally diverse 
multidisciplinary team extends a comprehensive approach to providing 
care and access to services at these events. This is a level of service 
previously unattainable in some areas. The team includes a bilingual 
physician, a nurse practitioner, a nurse, a case manager, and clerical 
personnel. Additionally, volunteers are often available to set up 
educational materials. The CHAs often attend the events as well and may 
sometimes act as liaisons between patients and the JBACC staff.
    By the point at which many patients walk into the Amos Cancer 
Center facility, the disease has advanced to a stage at which treatment 
and cure is exceedingly difficult. Therefore, the primary goal of 
community screenings is to promote and make available early detection 
and treatment options. To this end, initial on-site exams are performed 
free of charge, regardless of ability to pay, to increase service 
accessibility. Abnormal exams are referred to care coordinators for 
referral for additional screenings or diagnostic testing, as 
applicable. Dependent upon the patient's schedule, this can usually be 
achieved with the same week as the initial screening. A surgical 
consult is provided 2 to 4 days after testing, if necessary. If further 
investigation is warranted, coordinators access the system to see that 
the patient's needs, including financial and psychological are met. The 
target timeline objective is two weeks from exam to diagnosis and 
treatment. Identification of cervical abnormalities is slightly more 
involved and requires a timeline of approximately 3.5 to 4 weeks.
    The outreach program is not limited to screenings. Educational 
programs and cancer prevention programs are provided to organizations 
throughout the region. These include breast health lectures provided to 
churches, sororities, and healthcare groups, and providing educational 
materials and interactive displays for cancer-themed events on local 
college campuses. These events reinforce the importance of early 
detection.
    We have developed a successful early detection outreach program. 
The requested funding of $2 million in fiscal year 2007 would allow us 
to expand the program to be even more effective within the fourteen 
county region in which 511,736 citizens reside. Expansion efforts would 
allow us to reach traditionally underserved populations by scheduling 
screenings in communities not yet familiar with our programs. This 
includes rural and urban areas in both Georgia and Alabama, some of 
which lie in the socio-economically deprived ``Black Belt''.
    In addition to the community screenings, funding would provide for 
the development of two permanent weekly cancer screening clinics. These 
clinics would allow citizens the peace of mind of the availability of 
set screening opportunities, rather than waiting for a local 
opportunity to occur.
    Funding from JBACC's fiscal year 2005 Labor, HHS, Education 
Appropriation was limited to breast and cervical cancer screening. 
However, we have identified a need and an opportunity within the 
community to focus on men's health issues as well, through prostate 
screenings. The requested funding would allow for the expansion of our 
outreach program to include this component. Incorporation of prostate 
screenings into our existing program could occur seamlessly. This would 
allow us to expand our focus to include a population previously not 
served in this capacity. Excluding skin cancers, prostate cancer is the 
most common cancer in American men. While the statistics regarding 
prostate cancer are staggering, early detection and more effective 
treatment methods have led to lower death rates in recent years. This 
further underscores the need for prostate screening programs in 
underserved areas to improve the health status of the region.
    The requested funding would also provide for colorectal screenings. 
This year, nearly 150,000 men and women will be diagnosed with 
colorectal cancer while approximately 56,000 will die from it. Once 
again, however, early detection and treatment are essential to 
increased survival rates. However, studies indicate that many people 
are often uncomfortable talking about the disease. They are also 
misguided on their risk factors and chance of getting the disease. 
Overcoming these obstacles to diagnosis and treatment can be achieved 
through community educational and screening opportunities.
    Mr. Chairman, John B. Amos Cancer Center is committed to improving 
the health of the region by addressing and embracing the Healthy People 
2010 focus areas of overall cancer deaths. Recognizing that to reach 
our goals we must design programs that engage the region in our early 
detection and screening programs, we have taken great strides to do so. 
We believe in the documented success of our outreach programs and hope 
that the subcommittee will provide $2 million toward program expansion. 
Through the expansion, we will reach underserved populations and reduce 
cancer mortality and morbidity, thereby improving the health of the 
region in accordance with the goals of the Department of Health and 
Human Services as well as this subcommittee.
                                 ______
                                 
                Prepared Statement of Matria Healthcare

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

  --Provide full funding in fiscal year 2007 for the Health and Human 
        Services (HHS) Health Information Technology Initiative, 
        including funding for the Office of the National Coordinator 
        for Health Information Technology (ONCHIT) and the Agency for 
        Healthcare Research and Quality (AHRQ).
  --Provide a 5 percent increase for fiscal year 2007 to the National 
        Institutes of Health (NIH) budget. Within NIH, provide an 
        increase of 5 percent to the National Library of Medicine 
        (NLM).
  --Urge the National Coordinator for the Office of the National 
        Coordinator for Health Information Technology (ONCHIT), the 
        National Library of Medicine (NLM) at the National Institutes 
        of Health (NIH), the Agency for Healthcare Research and Quality 
        (AHRQ), and the Centers for Medicare and Medicaid Services 
        (CMS) to conduct outreach activities to all public and private 
        sector organizations which have demonstrated capabilities in 
        health information technology, particularly to those who have 
        demonstrated capabilities in disease management technology as 
        it relates to saving health care dollars, and improving care 
        for chronically ill individuals and the workforce.
    Chairman Specter and members of the subcommittee, thank you for the 
opportunity to present this written statement regarding the importance 
of health information technology, specifically as it relates to disease 
management technology, saving health care dollars, and improving care 
for chronically ill individuals and the workforce.
    Matria Healthcare is a national leader in disease management. Our 
disease management programs have been adopted by leading corporations, 
health plans, and State governments as a proven solution for reducing 
costs and improving health and productivity. Because 15 percent of the 
population typically drives 85 percent of healthcare costs, Matria 
believes the strongest, most effective healthcare solutions start with 
a strong disease management program to begin curbing costs immediately.
    The disease management component of Matria's health enhancement 
offering provides management programs for the Nation's most costly 
chronic diseases, episodic conditions, and issues affecting the 
psychosocial well-being of patients and has produced outcomes like no 
other provider. Matria's industry-leading TRAX technology platform 
represents the state-of-the-art in healthcare data warehousing and 
protocol-driven healthcare delivery. This platform is driving the 
clinical and financial outcome success of Matria in over one hundred 
Fortune 1000, health plan, and State government programs. Matria's 
technology platform is being utilized by members of the National 
Coordinator for Health Information Technology's Interoperability 
Consortium to successfully improve clinical outcomes and reduce 
healthcare expenditures amongst its employees.
    In April 2004, President Bush revealed his vision for the future of 
healthcare in the United States. The President's plan involves a health 
care system that puts the needs of the patient first, is more 
efficient, and is cost-effective. At this time, he established, within 
the Office of the Secretary of Health and Human Services, an Office of 
the National Coordinator for Health Information Technology (ONCHIT). 
Among other things, this office is meant to ensure that appropriate 
information is available to guide medical decisions, improve healthcare 
quality, reduce healthcare costs resulting from inefficiency, medical 
errors, inappropriate care, and incomplete information, promote a more 
efficient marketplace, greater competition, and increase in choice, and 
improve the coordination of care and information among hospitals, 
laboratories, physician offices, and other ambulatory care providers.
    Matria's health enhancement offerings are consistent with these 
goals of the President and the ONCHIT. In the transition towards a 
health care system where informed consumers will own their personal 
health records, health savings accounts, and health insurance, it is 
important for the Federal Government to partner with public and private 
sector organizations which have demonstrated capabilities in this 
arena.
    Health information technology will improve the practice of medicine 
and make it more efficient. The rapid implementation of secure and 
interoperable electronic health records will, for example, 
significantly improve the safety, quality, and cost-effectiveness of 
health care. To implement this vision, Matria urges the subcommittee to 
support the President's budget request of $116 million for the ONCHIT 
to provide strategic direction for development of a national 
interoperable health care system. Matria also encourages the 
subcommittee to support the $50 million Health Information Technology 
Initiative through the Agency for Healthcare Research and Quality 
(AHRQ) to accelerate the development, adoption, and diffusion of 
interoperable information technology in a range of health care 
settings. Additionally, Matria urges the subcommittee to provide a 5 
percent increase for fiscal year 2007 to the National Institutes of 
Health (NIH) budget, and within NIH, provide a proportional increase of 
5 percent to the National Library of Medicine (NLM).
    Finally, Matria encourages the subcommittee to urge the National 
Coordinator for the ONCHIT, NLM, AHRQ, and the Centers for Medicare and 
Medicaid Services (CMS) to conduct outreach activities to all public 
and private sector organizations which have demonstrated capabilities 
in health information technology, particularly to those who have 
demonstrated capabilities in disease management technology as it 
relates to saving health care dollars, and improving care for 
chronically ill individuals and the workforce.
    By working together, the goal of creating an efficient national 
healthcare system will be realized. Thank you for allowing me to submit 
this testimony to you today.
                                 ______
                                 
    Prepared Statement of the National Alliance to End Homelessness

    The National Alliance to End Homelessness (the Alliance) is a 
nonpartisan, nonprofit organization that has several thousand partner 
agencies and organizations across the country. These partners are local 
faith-based and community-based nonprofit organizations and public 
sector agencies that provide homeless people with shelter, transitional 
and permanent housing, and services such as substance abuse treatment, 
job training, and health and mental health care. In addition, we have 
supported over 220 State and local entities as they create 10 year 
plans to end homelessness. The Alliance represents a united effort to 
address the root causes of homelessness and challenge society's 
acceptance of homelessness as an inevitable by-product of American 
life.
    Overview.--Adequate social services program funding is essential to 
ending homelessness. Housing must be coupled with appropriate services 
such as health care, employment preparation, mental health and 
substance abuse treatment, child care, and youth directed programs to 
be effective. These programs were put to the test as social service 
agencies assisted Katrina evacuees. The Social Services Block Grant, 
the Community Services Block Grant, Projects for Assistance in 
Transition from Homelessness, Education for Homeless Children and Youth 
funded school liaisons and Health Care for the Homeless clinics among 
others were essential as the gulf coast residents overcame their 
housing crisis. These lessons illustrate how HHS, Labor, and Education 
programs can help those homeless due to other crises such as job loss 
or catastrophic illness.

                                 GOALS

    1. Moving Forward to End Homelessness.--By implementing 10 year 
plans to end homelessness, communities across America are ending 
homelessness. Communities are using Federal, State, and local funds to 
help homeless persons, some of whom have been homeless for years, 
maintain housing. It is important that this progress not be undermined. 
To this end, the Alliance recommends the following:
      A. Allocate $55 million for services in permanent supportive 
        housing within SAMHSA's Center for Mental Health Services.
      B. Reject cuts to the Grants for the Benefit of Homeless 
        Individuals/Treatment for Homeless Individuals (GBHI) and 
        insure that additional local programs can access these funds.
      C. Increase funding to Projects for Assistance in Transition from 
        Homelessness (PATH) to $65 million.
      D. Increase the Runaway and Homeless Youth Act Programs to $140 
        million and reject detrimental policy recommendations.
      E. Fund Education for Homeless Children and Youth services at its 
        full authorized level of $70 million.
      F. Increase funding for the Homeless Veterans Reintegration 
        Program to $50 million.
    2. Connecting Homeless Families, Individuals, and Youth to 
Mainstream Services.--The estimated 3.5 million people who are homeless 
throughout a year depend on mainstream programs such as the ones below 
to live day to day and once housed, remain housed. These programs help 
address the complex situations persons experiencing homelessness are 
trying to overcome. The Alliance recommends the following to meet this 
goal:
      A. Fund the Social Services Block Grant at $1.7 billion, the same 
        funding level as fiscal year 2006.
      B. Reject elimination of the Community Services Block Grant.
      C. Appropriate $171 million for the Health Care for the Homeless 
        programs within the Health Resource Services Administration's 
        Consolidated Health Centers program.
      D. Appropriate $60 million in education and training vouchers for 
        youth exiting foster care under the Safe and Stable Families 
        Program.

Goal #1--Moving Forward to End Homelessness
            Support Services for Permanent Supportive Housing Projects
    The Alliance recommends allocating $55 million for services in 
permanent supportive housing within SAMHSA's Center for Mental Health 
Services. The administration has set a goal of ending chronic 
homelessness by 2012. We know this goal is attainable based on evidence 
based practices. For example, through the collaborative initiative 
grants program, HHS, the Department of Veterans Affairs, and HUD have 
funded programs and seen results. These eleven grants have ended 
homelessness for 550 people who cumulatively had over 5,000 years of 
homelessness. Unfortunately, funding for these grants will end in 2006. 
The President has proposed an increase of $209 million for the 
McKinney/Vento homelessness programs as part of the proposed fiscal 
year 2007 HUD budget to primarily pay for housing for those who are 
chronically homeless. No such investment has been included for HHS.
            Treatment for Homeless Individuals
    The Alliance recommends that Congress fully reject cuts in Grants 
for the Benefit of Homeless Individuals (GBHI) funding and work to 
strengthen the program for additional grantees. Maintaining programs 
such as GBHI is essential to achieving the President's goal of ending 
chronic homelessness by 2012. Mainstream health, welfare, addiction, 
and mental health programs often do not adequately serve homeless 
people. In 2003, the U.S. Department of Health and Human Services 
studied mainstream programs and their ability to serve chronically 
homeless populations. The report, entitled Ending Chronic Homelessness: 
Strategies for Action, explained that no mainstream program is 
comprehensive enough to adequately serve chronically homeless people. 
Thus, HHS included in the recommendations that future program budgets 
should focus on funding programs directed for chronic homelessness.
    There are a variety of reasons mainstream programs fail to 
adequately service people who are chronically homeless. Many programs 
simply lack the ability to fund or coordinate the full range of health, 
housing, and support services required to adequately help homeless 
people. Grants through the Treatment for Homeless Individuals/Grants 
for the Benefit of Homeless Individuals (GBHI) program help homeless 
service providers assemble services that meet the complex needs of 
their clients and maintain their housing.
            Projects for Transition Assistance from Homelessness (PATH)
    The Alliance recommends that Congress increase PATH funding to $65 
million.
    The PATH program provides homeless people with serious mental 
illnesses access to mental health services. PATH focuses on outreach to 
eligible consumers, followed by help in ensuring that those consumers 
are connected with mainstream services. Under the PATH formula grant, 
approximately 30 States share in the program's annual appropriations 
increases. The remaining States and territories receive the minimum 
grant of $300,000 for States and $50,000 for territories. These amounts 
have not been raised since the program was authorized in 1991. To 
account for inflation, the minimum allocation should be raised to 
$600,000 for States and $100,000 for territories. Amending the minimum 
allocation requires a legislative change. If the authorizing committees 
do not have sufficient time to address this issue, we hope that 
appropriators will explore ways to make the amendment through 
appropriations bill language.
            Runaway and Homeless Youth Programs
    The Alliance recommends funding the Runaway and Homeless Youth Act 
(RHYA) programs at $140 million. RHYA programs support cost-effective, 
community and faith-based organizations that protect youth from the 
harms of life on the streets. The problems of homeless and runaway 
youth are addressed by the Administration for Children and Families 
within HHS, which operates coordinated competitive grant programs like 
RHYA. The RHYA programs can either reunify youth safely with family or 
find alternative living arrangements. RHYA programs end homelessness 
by: engaging youth living on the street with Street Outreach Programs, 
quickly providing emergency shelter and family crisis counseling 
through the Basic Centers, or providing supportive housing that helps 
young people develop lifelong independent living skills through 
Transitional Living Programs.
            Education for Homeless Children and Youth
    The Alliance recommends funding Education for Homeless Children and 
Youth (EHCY) at its full authorized level of $70 million. The most 
important potential source of stability for these children is school. 
The mission of the Education for Homeless Children and Youth program is 
to ensure that homeless children can continue to attend school and 
thrive. A struggle for homeless service providers who serve families 
with children is to maintain the children's stability during a time 
when their lives are turned upside down. Even if new housing can be 
found in a short time, the lasting effects of a spell of homelessness 
can be devastating.
    The Education for Homeless Children and Youth program, within the 
Department of Education's Office of Elementary and Secondary Education, 
removes obstacles to enrollment and retention by establishing liaisons 
between schools and shelters and providing funding for transportation, 
tutoring, school supplies, and the coordination of statewide efforts to 
remove barriers.
            Homeless Veterans Reintegration Program (HVRP)
    The Alliance recommends that Congress increase HVRP funding to $50 
million.
    HVRP, within the Department of Labor's Veterans Employment and 
Training Service (VETS), provides competitive grants to community-
based, faith-based, and public organizations to offer outreach, job 
placement, and supportive services to homeless veterans. HVRP is the 
primary employment services program accessible by homeless veterans and 
the only targeted employment program for any homeless subpopulation. 
The Department of Labor estimates that 8,750 homeless veterans will be 
served through HVRP at the fiscal year 2006 appropriation level of $22 
million. This figure represents just 2 percent of the overall homeless 
veteran population, which the Department of Veterans Affairs estimates 
numbers more than 400,000 over the course of a year. An appropriation 
at the authorized level of $50 million would enable HVRP grantees to 
reach approximately 19,866 homeless veterans.

Goal #2--Connecting Homeless Families, Individuals and Youth to 
        Mainstream Services
            Social Services Block Grant (SSBG)
    The Alliance recommends that Congress fully restore SSBG funding to 
its fiscal year 2006 level of $1.7 billion. Cuts to programs like the 
SSBG will create additional barriers for communities trying to achieve 
the President's goal of ending chronic homelessness by 2012. SSBG funds 
are essential for programs dedicated to ending homelessness. In 
particular, youth housing programs and permanent supportive housing 
providers often receive State, county, and local funds which originate 
from the SSBG. As the U.S. Department of Housing and Urban Development 
has focused its funding on housing, programs that provide both housing 
and social services have struggled to fund the service component of 
their programs. This gap is often closed using Federal programs such as 
SSBG.
            Community Services Block Grant (CSBG)
    The Alliance recommends that Congress fully restore CSBG funding to 
its fiscal year 2006 level of $630 million. Eliminating funding for the 
CSBG will destabilize the progress communities have made toward ending 
homelessness by not only ending services directly provided by CSBG 
funds but limiting a community's ability to access other Federal 
dollars such as those provided by HUD. This runs contrary to the 
President's stated goal of ending chronic homelessness by 2012. 
Community Action Agencies (CAAs) are directly involved in housing and 
homelessness services. In several communities, CAAs lead the Continuum 
of Care (CoC). CoCs coordinate local homeless service providers and the 
community's McKinney-Vento Homeless Assistance Grant application 
process with the Department of Housing and Urban Development.
    In the fiscal year 2004 Community Services Block Grant Information 
Systems report published by the U.S. Department of Health and Human 
Services, CAAs reported administering $207.4 million in Section 8 
vouchers, $30 million in Section 202 services \1\ and $271.1 million in 
other Department of Housing and Urban Development (HUD) programs which 
includes homeless program funding.\2\
---------------------------------------------------------------------------
    \1\ Section 202 is dedicated to housing from elderly and disabled 
individuals and families.
    \2\ U.S. Department of Health and Human Services, Administration of 
Children and Families. The Community Services Block Grant Fiscal Year 
2004 Statistical Report. Prepared by the National Association for State 
Community Services Programs.
---------------------------------------------------------------------------
            Health Care for the Homeless (HCH)
    The Alliance recommends $171 million, the amount recommended by the 
President, for HCH (8.7 percent of the $1.963 billion requested for the 
Consolidated Health Centers account). Persons living on the streets 
suffer from health problems resulting from or exacerbated by the 
conditions of being homeless, such as hypothermia, frostbite, and 
heatstroke. In addition, they often have infections of the respiratory 
and gastrointestinal systems, tuberculosis, vascular diseases such as 
leg ulcers, and hypertension.\3\ Health care for the homeless programs 
are vital to prevent these conditions from becoming fatal. Congress 
allocates 8.7 percent of the Consolidated Health Centers account for 
Health Care for the Homeless (HCH) projects. The HCH program has 
achieved significant success since its inception in 1987, but the 
health care needs Americans experiencing homelessness each year far 
exceed the service capacity of Health Care for the Homeless grantees. 
The President's fiscal year 2007 budget would create 15 to 20 new 
projects, serving an additional 25,000 to 30,000 people experiencing 
homelessness.
---------------------------------------------------------------------------
    \3\ Harris, Shirley N, Carol T. Mowbray and Andrea Solarz. Physical 
Health, Mental Health and Substance Abuse Problems of Shelter Users. 
Health and Social Work, Vol. 19, 1994.
---------------------------------------------------------------------------
            Foster Youth Education and Training Vouchers
    The Alliance recommends that Congress appropriate $60 million in 
education and training vouchers for youth exiting foster care under the 
Safe and Stable Families Program. The Education and Training Voucher 
Program offers funds to foster youth and former foster youth to enable 
them to attend colleges, universities and vocational training 
institutions. Students may receive up to $5,000 a year for college or 
vocational training education. The funds may be used for tuition, 
books, housing, or other qualified living expenses. Given the large 
number of people experiencing homelessness who have a foster care 
history, it is important to provide assistance such as these education 
and training vouchers to stabilize youth, prevent economic crisis, and 
prevent possible homelessness.

                               CONCLUSION

    Homelessness is not inevitable. As communities implement plans to 
end homelessness, they are struggling to find funding for the services 
homeless and formerly homeless clients need to maintain housing. The 
Federal investments in mental health services, substance abuse 
treatment, employment training, youth housing, and case management 
discussed above will help communities create stable housing programs 
and change social systems which will end homelessness for millions of 
Americans.
                                 ______
                                 
  Prepared Statement of the National Association of Community Health 
                                Centers

    On behalf of more than 1,000 health center grantees across the 
country serving more than 15 million patients, the National Association 
of Community Health Centers (NACHC) is pleased to submit this statement 
for the record, and thank the subcommittee for its continued support 
and investment in the Health Centers program.

                          ABOUT HEALTH CENTERS

    Over more than 40 years, the Health Centers program has grown from 
a small demonstration project providing desperately needed primary care 
services in underserved communities to one of the fundamental elements 
of our Nation's health care safety net. Funding was approved in 1965 
for the first two neighborhood health center demonstration projects, 
one in Boston, Massachusetts, and the other in Mound Bayou, 
Mississippi.
    Today, America's health centers are helping communities meet 
escalating health needs and address costly and devastating health 
problems, from prenatal and infant health development to chronic 
illness (like diabetes and asthma), to mental health, substance 
addiction, domestic violence and HIV/AIDS. Health centers are the 
family doctor for 1 in 8 uninsured individuals, and 1 in every 5 low-
income children. Health centers serve as the primary health care safety 
net for many communities across the country and the Federal grant 
program enables more low-income and uninsured patients to receive care 
each year.
    Every Federally Qualified Health Center (FQHC) is governed by a 
community board with a patient majority--a true patient democracy. 
Health centers are required to be located in a federally designated 
Medically Underserved Area (or MUA), and must provide a package of 
comprehensive primary care services to anyone who comes in the door, 
regardless of their ability to pay. At the typical health center, 
roughly one-quarter of the operating revenues are from the Federal 
grant; and just over 40 percent are from reimbursement through Federal 
insurance programs, principally Medicare and Medicaid. The balance of 
the revenues are from State and community partnerships, privately 
insured individuals, and patients ability to pay.
    The Health Centers program is administered by the Bureau of Primary 
Health Care (BPHC) at the Health Resources and Services Administration 
(HRSA), within the U.S. Department of Health and Human Services (HHS).

                           FUNDING BACKGROUND

    The subcommittee has approved substantial funding increases for the 
Consolidated Health Centers program over the past several years 
resulting in a broad expansion effort to serve many of those that 
remain underserved in our country. Most recently, the increase in 
funding approved for fiscal year 2006 will help more than 600,000 
additional Americans gain access to effective, affordable primary and 
preventive care services offered by our Nation's Health Centers.
    Since 2001, the subcommittee has increased funding for Health 
Centers in order to stabilize existing centers and meet the goals of 
the President's initiative--1,200 new or expanded centers and an 
additional 6.1 million patients served by 2006. To date, the expansion 
has brought high-quality services to an additional 4 million Americans 
and has produced new or expanded facilities in over 800 communities 
nationwide. Even with the increases provided over the past several 
years, hundreds of communities submitted applications that received 
high ratings but could not be funded, due to lack of funds. There is 
clearly a tremendous need and a tremendous desire to expand health 
center services to new communities.
    The health centers program has succeeded in expanding access to 
primary and preventive care services in underserved communities across 
the country. The Office of Management and Budget rated the Health 
Centers program as one of the top 10 Federal programs, and the best 
competitive grant program within all of HHS. With additional resources, 
health centers stand ready to provide low-cost, highly effective care 
to millions more uninsured and underserved individuals and families.

                            FISCAL YEAR 2007

    In his fiscal year 2007 budget proposal, President Bush requested 
an increase for the Health Centers program of $181 million, for a total 
funding level of $1.963 billion in fiscal year 2007. NACHC strongly 
supports the President's requested increase for the program, which will 
continue the historic expansion of the Health Centers program into 
hundreds of additional communities nationwide.
    In 2005, President Bush called for ``a community health center in 
every poor county'' in America. NACHC strongly supports this goal and 
urges Congress to provide funds to begin this critical expansion 
effort. NACHC was encouraged that the administration did not recommend 
waiving the statutorily designated proportionality requirements for 
Migrant, Public Housing and Homeless Health Centers in order to 
implement this second expansion initiative.
    In addition to the expansion efforts, it is critical that Federal 
funding for health centers keep pace with the growing cost of 
delivering care. NACHC requests that the subcommittee designate $50 
million of any increase in funding to be used to make base grant 
adjustments for existing centers, allowing an average increase of 2.8 
percent in current health center grants, equal to the Medicare Economic 
Index. Under the subcommittee's leadership, Congress has provided base 
grant adjustments for existing centers in 5 out of the 7 previous 
fiscal years. A recent study by NACHC found that in the 2 years that 
these adjustments were not included in the Health Centers 
appropriation, the number of patient visits per grantee actually 
decreased.
    NACHC appreciates the subcommittee's leadership in stabilizing the 
Federal Tort Claims Act (FTCA) judgment fund for health centers in past 
years. For fiscal year 2007, the President has requested that 
$44,500,000 be appropriated for this purpose. This is the same funding 
level as last year, and NACHC expects it will be sufficient to cover 
FTCA claims in 2007.
    In 1997, Congress authorized and began funding the HRSA Loan 
Guarantee Program (LGP) for the construction, renovation, and 
modernization of health centers. Demand for this guarantee program has 
accelerated significantly in the last year. NACHC expects that at the 
current rate of usage, the remaining $5 million in credit subsidy will 
be entirely used during fiscal year 2006. In response that the success 
of this program, NACHC is requesting an additional $5 million be 
provided until expended for additional loan guarantees. The LGP has 
proven to be a vital resource for health centers across the country as 
they seek financing to fund the facilities necessary to accommodate the 
growth in patient visits resulting from recent expansion efforts.
    Finally, Health Centers support funding for other Federal programs 
that are integral to the continued expansion and strength of community 
health centers. These include:
  --$150 million for the National Health Service Corps, which is the 
        largest source of health professionals for health centers;
  --$250 million for Title III of the Ryan White CARE Act, which 
        provides grants to health centers and other safety net 
        providers for outpatient early intervention services;
  --$550 million for Title VII and Title VIII Health Professions 
        programs, particularly Area Health Education Centers, which 
        bring together academic and community partners to improve the 
        supply and distribution of health professionals in underserved 
        communities.
  --$170 million for health information technology (HIT) resources 
        through various programs at the Department of Health and Human 
        Services. Health centers must have adequate resources through 
        HHS to facilitate the utilization of electronic health records 
        and other important HIT tools to promote health disparities 
        reduction.

                               CONCLUSION

    America's health centers are grateful to the subcommittee for its 
ongoing efforts to support and stabilize the Health Centers program and 
to expand health centers' reach into more than 5,000 communities 
nationwide. As a result of those efforts, more than 15 million people 
have access to the affordable, effective primary care services that our 
Nation's health centers provide.
    We respectfully ask that the subcommittee continue that investment, 
as the work of caring for our uninsured and medically underserved is 
far from complete. Some 36 million Americans are still without regular 
access to medical services. America's health centers look forward to 
meeting that need and rising to the challenge of providing a health 
care system that works for all Americans. We look forward to working 
with you over the coming year to move toward that goal.
    If you need any additional information or have any questions 
related to health centers or NACHC, please do not hesitate to contact 
me or John Sawyer, Assistant Director of Federal Affairs, at (202) 331-
4603, or via email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5afb6a4b2bca0b785aba4a6ada6eba6aaa8eb">[email&#160;protected]</a>
                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs

    The National Association for State Community Services Programs 
(NASCSP) thanks this committee for its continued support of the 
Community Services Block Grant (CSBG), and seeks an appropriation of 
$650 million for the State grant portion of the CSBG, the same as its 
fiscal year 2004 appropriation. We are requesting that the CSBG funding 
be restored to the fiscal year 2004 level this year in order for the 
CSBG Network to continue addressing the long-term needs of those 
families affected by Hurricanes Katrina and Rita, those families 
transitioning from welfare to work, and to assist low-income workers in 
remaining at work through supportive services such as transportation 
and child care. It is essential that the CSBG funding be restored in 
full for fiscal year 2007. The across the board cuts the CSBG has 
experienced the past several years have decreased the ability of the 
CSBG Network to provide essential services to low-income Americans.
    In addition, NASCSP urges this Committee to eliminate all 
authorization language regarding the management of the CSBG from the 
fiscal year 2007 appropriation bill. In fiscal year 2006, the 
appropriations bill included authorization language regarding the use 
of the block grant at the State level. Specifically, the fiscal year 
2006 appropriations report included the following authorization 
language which conflicted with ``SEC. 675C. USES OF FUNDS (A)(3) of the 
Public Law 105-285: The Community Opportunities, Accountability, and 
Training and Educational Services Act of 1998 (the CSBG authorization 
law): ``That to the extent Community Services Block Grant funds are 
distributed as grant funds by a State to an eligible entity as provided 
under the Act, and have not been expended by such entity, they shall 
remain with such entity for carryover into the next fiscal year for 
expenditure by such entity consistent with program purposes.''
    The 1998 CSBG Authorization allows CSBG eligible entities to carry 
over up to 20 percent of funds but requires the State to recapture or 
redistribute any funds that exceed 20 percent. According to the 1998 
CSBG Authorization, once these funds are recaptured the State is to 
redistribute the excess funds to other low-income communities in dire 
need of additional funds. When language such as the above is placed in 
the Appropriations document, it overrides the Authorization language. 
The inclusion of such language in the appropriations report caused a 
hardship on States as they managed the block grant. Passing national 
legislation which contradicts the authorization language regarding the 
distribution of funds preempts the prerogative of States. NASCSP urges 
the committee to discourage the incorporation of authorization language 
in the appropriations act.
    NASCSP is the national association that represents State 
administrators of the Community Services Block Grant (CSBG), and State 
directors of the Department of Energy's Low-Income Weatherization 
Assistance Program.

                               BACKGROUND

    The States believe the Community Services Block Grant (CSBG) is a 
unique block grant that has successfully devolved decision making to 
the local level. Federally funded with oversight at the State level, 
the CSBG has maintained a local network of nearly 1,100 agencies which 
coordinate nearly $9.7 billion in Federal, State, local, and private 
resources each year. Operating in 99 percent of counties in the Nation 
and serving nearly 15.2 million low-income persons, local agencies, 
known as Community Action Agencies (CAAs), provide services based on 
the characteristics of poverty in their communities. For one town, this 
might mean providing job placement and retention services; for another, 
developing affordable housing; in rural areas it might mean providing 
access to health services or developing a rural transportation system.
    Since its inception, the CSBG has shown how partnerships between 
States and local agencies benefit citizens in each State. We believe it 
should be looked to as a model of how the Federal Government can best 
promote self-sufficiency for low-income persons in a flexible, 
decentralized, non-bureaucratic and accountable way.
    Long before the creation of the Temporary Assistance for Needy 
Families (TANF) block grant, the CSBG was setting the standard for 
private-public partnerships that work to the betterment of local 
communities and low-income residents. Family oriented, while promoting 
economic development and individual self-sufficiency, the CSBG relies 
on an existing and experienced community-based service delivery system 
of CAAs and other non-profit organizations to produce results for its 
clients.

        MAJOR CHARACTERISTICS OF THE COMMUNITY SERVICES NETWORK

    Emergency Response.--CAAs are utilized by Federal and State 
emergency personnel as a frontline resource to deal with emergency 
situations such as floods, hurricanes and economic downturns. They are 
also relied on by citizens in their community to deal with individual 
family hardships, such as house fires or other emergencies.
    In fact, during and after Hurricane Katrina and Rita the State CSBG 
offices and local CAAs quickly mobilized to provide immediate and long-
term assistance to over 355,000 evacuees. This immediate assistance 
included, but was not limited to, transportation, food, medical check-
ups, housing, utility deposits, job placement, and clothing. State CSBG 
offices and CAAs across the country coordinated their relief efforts 
with other agencies providing disaster relief assistance such as FEMA, 
Red Cross, and other faith-based and community-based organizations.
    State CSBG offices through their local network of CAAs continue to 
provide the long-term assistance evacuees will need as they relocate 
and re-establish themselves through self-sufficiency and family 
development programs. These programs offer comprehensive approaches to 
selecting and offering supportive services that promote, empower and 
nurture the individuals and families seeking economic self-sufficiency. 
At a minimum, these approaches include:
  --A comprehensive assessment of the issues facing the family or 
        family members and of the resources the family brings to 
        address these issues;
  --A written plan for becoming more financially independent and self-
        supporting;
  --A comprehensive mix of services that are selected to help the 
        participant implement the plan;
  --Professional staff members who are flexible and can establish 
        trusting, long-term relationships with program participants; 
        and
  --A formal methodology used to track and evaluate progress as well as 
        to adjust the plan as needed.
    Additional information on the CSBG Network's Hurricane Katrina 
relief efforts may be found in the attached issue brief.
    Accountable.--The Federal Office of Community Services, State CSBG 
offices and CAAs have worked closely to develop a results-oriented 
management and accountability (ROMA) system. Through this system, 
individual agencies determine local priorities within six common 
national goals for CSBG and report on the outcomes that they achieved 
in their communities.
    Leveraging Capacity.--For every CSBG dollar they receive, CAAs 
leverage $4.87 in non-federal resources (State, local, and private) to 
coordinate efforts that improve the self-sufficiency of low-income 
persons and lead to the development of thriving communities.
    Volunteer Mobilization.--CAAs mobilize volunteers in large numbers. 
In fiscal year 2004, the most recent year for which data are available, 
the CAAs elicited more than 44 million hours of volunteer efforts, the 
equivalent of almost 21,182 full-time employees. Using just the minimum 
wage, these volunteer hours are valued at nearly $227 million.
    Locally Directed.--Tri-partite boards of directors guide CAAs. 
These boards consist of one-third elected officials, one-third low-
income persons and one-third representatives from the private sector. 
The boards are responsible for establishing policy and approving 
business plans of the local agencies. Since these boards represent a 
cross-section of the local community, they guarantee that CAAs will be 
responsive to the needs of their community.
    Adaptability.--CAAs provide a flexible local presence that 
governors have mobilized to deal with emerging poverty issues.
    The statutory goal of the CSBG is to ameliorate the effects of 
poverty while at the same time working within the community to 
eliminate the causes of poverty. The primary goal of every CAA is self-
sufficiency for its clients. Helping families become self-sufficient is 
a long-term process that requires multiple resources. This is why the 
partnership of Federal, State, local, and private enterprise has been 
so vital to the successes of the CAAs.

                        WHO DOES THE CSBG SERVE?

    National data compiled by NASCSP show that the CSBG serves a broad 
segment of low-income persons, particularly those who are not being 
reached by other programs and are not being served by welfare programs. 
Based on the most recently reported data, from fiscal year 2004:
  --More than 2.7 million customer families have incomes at or below 
        the poverty level; 1.1 million customer families have incomes 
        at or below 50 percent of the poverty guidelines. In 2004, the 
        poverty level for a family of three was $15,670.
  --58 percent of adults have a high school diploma or equivalency 
        certificate.
  --44 percent of all customer families are ``working poor'' and have 
        wages or unemployment benefits as income.
  --23 percent depend on pensions and Social Security and are therefore 
        poor, former workers.
  --Almost 430,000 families are TANF participants, 22 percent of the 
        average monthly TANF caseload.
  --Nearly 60 percent of families assisted have children under 18 years 
        of age.

                    WHAT DO LOCAL CSBG AGENCIES DO?

    Since Community Action Agencies operate in rural areas as well as 
in urban areas, it is difficult to describe a typical Community Action 
Agency. However, one thing that is common to all is the goal of self-
sufficiency for all of their clients. Reaching this goal may mean 
providing day care for a struggling single mother as she completes her 
General Equivalency Diploma (GED) certificate, moves through a 
community college course and finally is on her own supporting her 
family without Federal assistance. It may mean assisting a recovering 
substance abuser as he seeks employment. Many of the Community Action 
Agencies' clients are persons who are experiencing a one-time 
emergency. Others have lives of chaos brought about by many overlapping 
forces--a divorce, sudden death of a wage earner, illness, lack of a 
high school education, closing of a local factory or the loss of family 
farms.
    CAAs provide access to a variety of opportunities for their 
clients. Although they are not identical, most will provide some if not 
all of the services listed below:
  --a variety of crisis and emergency safety net services;
  --employment and training programs;
  --transportation and child care for low-income workers;
  --individual development accounts;
  --micro business development help for low-income entrepreneurs;
  --local community and economic development projects;
  --housing and weatherization services;
  --Head Start;
  --energy assistance programs;
  --nutrition programs;
  --family development programs; and
  --senior services.
    CSBG funds many of these services directly. Even more importantly, 
CSBG is the core funding which holds together a local delivery system 
able to respond effectively and efficiently, without a lot of red tape, 
to the needs of individual low-income households as well as to broader 
community needs. Without the CSBG, local agencies would not have the 
capacity to work in their communities developing local funding, private 
donations and volunteer services and running programs of far greater 
size and value than the actual CSBG dollars they receive.
    CAAs manage a host of other Federal, State and local programs which 
makes it possible to provide a one-stop location for persons whose 
problems are usually multi-faceted. Over half (52 percent) of the CAAs 
manage the Head Start program in their community. Using their unique 
position in the community, CAAs recruit additional volunteers, bring in 
local school department personnel, tap into religious groups for 
additional help, coordinate child care and bring needed health care 
services to Head Start centers. In many States they also manage the Low 
Income Home Energy Assistance Program (LIHEAP), raising additional 
funds from utilities for this vital program. CAAs may also administer 
the Weatherization Assistance Program and are able to mobilize funds 
for additional work on residences not directly related to energy 
savings that, for example, may keep a low-income elderly couple in 
their home. CAAs also coordinate the Weatherization Assistance Program 
with the Community Development Block Grant program to stretch Federal 
dollars and provide a greater return for tax dollars invested. They 
also administer the Women, Infants and Children (WIC) nutrition program 
as well as job training programs, substance abuse programs, 
transportation programs, domestic violence and homeless shelters, as 
well as food pantries.

                        EXAMPLES OF CSBG AT WORK

    Since 1994, CSBG has implemented Results-Oriented Management and 
Accountability practices whereby the effectiveness of programs is 
captured through the use of goals and outcomes measures. Below you will 
find the network's first nationally aggregated outcomes achieved by 
individuals, families and communities as a result of their 
participation in innovative CSBG programs during fiscal year 2004:
  --103,057 participants gained employment with the help of community 
        action (49 States reporting);
  --13,313 participants obtained ``living wage'' employment with 
        benefits (35 States reporting);
  --88,187 low-income participants obtained safe and affordable housing 
        in support of employment stability (43 States reporting);
  --510,322 low-income households achieved an increase in non-
        employment financial assets, including tax credits, child 
        support payments, and utility savings, as a result of community 
        action ($133.5 million in aggregated savings);
  --5,645 families achieved home ownership as a result of community 
        action assistance (41 States reporting);
  --56,283 low-income people obtained pre-employment skills and 
        received training program certificates or diplomas (47 States 
        reporting);
  --30,776 low-income people completed Adult Basic Education or GED 
        coursework and received certificates or diplomas (40 States 
        reporting);
  --9,647 low-income people completed post-secondary education and 
        obtained a certificate or diploma (41 States reporting); and
  --2,284,577 new community opportunities and resources were created 
        for low-income families as a result of community action work or 
        advocacy, including ``living wage'' jobs, affordable and 
        expanded public and private transportation, medical care, child 
        care and development, new community centers, youth programs, 
        increased business opportunity, food, and retail shopping in 
        low-income neighborhoods (46 States reporting).
    All the above considered, NASCSP urges this committee to fund the 
CSBG grant to the States at $650 million.
                                 ______
                                 
         Prepared Statement of the National Consumer Law Center

    The National Consumer Law Center (NCLC),\1\ on behalf of our low-
income clients,\2\ respectfully submits this testimony regarding the 
appropriation of funds for the Low Income Home Energy Assistance 
Program (LIHEAP) \3\ for fiscal year 2007. NCLC and our clients are 
strong supporters of LIHEAP, the primary safety net between low-income 
consumers and the disconnection of vital utility service. The high 
energy prices that squeeze the budgets of low-income households to the 
breaking point show no sign of abating. The recent National Energy 
Assistance Directors' Association (NEADA) national study on LIHEAP 
recipients documents the tremendous value of LIHEAP to low-income 
families as well as the severe sacrifices made by the poor to pay their 
home energy bills.\4\ Low-income families and fixed-income elderly 
clients continue to fall further behind as energy prices have reached a 
new, higher baseline. LIHEAP is essential for their safety and well 
being. We thank the subcommittee for its strong support of the LIHEAP 
program in the fiscal year 2006 appropriations process and, in light of 
the forecasted continued high energy prices, urge the subcommittee to 
consider fully appropriating LIHEAP at $5.1 billion in regular LIHEAP 
funds for fiscal year 2007, the amount authorized under the Energy 
Policy Act of 2005, with advance appropriations of the same amount for 
fiscal year 2008.
---------------------------------------------------------------------------
    \1\ The National Consumer Law Center (NCLC) is a nonprofit 
organization that represents the interests of low-income consumers on a 
broad range of issues, including access to adequate and affordable 
supplies of utility service for home heating and cooling. This 
testimony was prepared by Olivia Wein, staff attorney in NCLC's 
Washington, DC office.
    \2\ The Appalachian People's Action Coalition (Ohio); Texas Legal 
Services Center; Action, Inc. (Gloucester, MA); Action for Boston 
Community Development, Inc.
    \3\ 42 U.S.C.  8621 et seq.
    \4\ National Energy Assistance Directors Association, National 
Energy Assistance Survey (April 2004) (NEADA survey) available at 
www.neada.org.
---------------------------------------------------------------------------
    Home Energy Prices Are At An All-Time High.--Residential energy 
prices were expected to continue to rise this year, but the disruption 
in the Gulf fuel refineries by the hurricanes sent them skyrocketing. 
Consequently, paying home energy bills has been all the more difficult 
for fixed income seniors and low-income households and has made LIHEAP 
all the more important for these vulnerable families. The Center on 
Budget and Policy Priorities has acknowledged that this year marks the 
``largest 1-year jump in home heating prices in three decades.'' \5\  
According to Guy Caruso, Administrator of the Energy Information 
Administration at the U.S. Department of Energy, ``several factors are 
driving up winter prices and expenditures: first, international factors 
such as low spare crude oil capacity and political tensions contribute 
to uncertainty and low supply growth for crude oil and high crude 
prices; second, recent hurricanes and associated disruptions exacerbate 
already tight markets in oil, petroleum products, and natural gas; and, 
finally, winter weather affects consumption and consequently household 
expenditures.'' \6\ The summer heat is also dangerous, especially for 
the elderly, the very young and those with chronic diseases. 
Unfortunately, the vast majority of newer electric generation plants 
rely on natural gas, thus tying electricity prices to the volatile 
natural gas prices. Taking all of these factors into account, it is 
obvious how critical LIHEAP's heating and cooling assistance is to the 
livelihood of so many families. The mounting increases in essential 
residential energy prices as illustrated in the chart below are putting 
more and more families' health and safety at risk.
---------------------------------------------------------------------------
    \5\ Center on Budget and Policy Priorities. ``Steep Spike in Energy 
Costs Increases Low-Income Households' Need For Help Paying Heating 
Bills This Winter'' (Oct. 6, 2005).
    \6\ Statement of Guy Caruso, Administrator for the Energy 
Information Administration, U.S. Department of Energy before the 
Committee on Energy and Natural Resources, United States Senate. Full 
Committee Hearing--Winter Fuels Outlook (Oct. 18, 2005).
---------------------------------------------------------------------------
    More Households Than Ever Cannot Keep Up With Costs Of Home 
Energy.--Although the costs of home energy have been a burden to most 
Americans, those with low incomes have been hurt the most. The salary 
for low-income Americans has stayed relatively flat while the cost of 
living has gone up, resulting in even more challenging struggles just 
to make ends meet for many families. According to Dr. Meg Power of 
Economic Opportunity Studies, families below 150 percent of the Federal 
poverty guideline spend on average about $1,470 on energy costs, about 
19 percent of their total yearly income. In 2005, however, low income 
families were expected to pay more than $1,650.\7\ Those prices will 
only go up for 2006. Having their heat switched off is a real 
possibility for numerous low-income households, and although there are 
winter utility shut-off moratoria in place for many States, not every 
home is protected against energy shut-offs in the middle of winter. As 
we approach the lifting of winter shut-off moratoria, we expect to see 
a wave of disconnections as households are unable to afford the cost of 
the energy bills. In the summer, the inability to keep the home cool 
can be lethal, especially to seniors. According to the CDC, in 2001 300 
deaths were caused by excessive heat exposure and seniors and young 
children are particularly vulnerable to heat stress.\8\ The CDC also 
notes that air-conditioning is the number one protective factor against 
heat-related illness and death.\9\
---------------------------------------------------------------------------
    \7\ Meg Power, PhD. Economic Opportunity Studies. ``Energy Bills of 
Low-Income Consumers in Fiscal Year 2005, The Resources Available to 
Help Them Pay, and the Impact on Their Household Budgets'' (Nov. 23, 
2004).
    \8\ CDC, ``Extreme Heat: A Prevention Guide to Promote Your 
Personal Health and Safety'' available at www.bt.cdc.gov/disasters/
extremeheat/heat_guide.asp.
    \9\ Id.
---------------------------------------------------------------------------
    Iowa.--Despite milder winter temperatures this winter, the sharp 
rise in natural gas prices has set back a record number of low-income 
households in Iowa. The number of low-income households with past due 
energy accounts as of January 2006 is 14.7 percent higher than the same 
time last year and 162 percent higher than the number in January 1999. 
The total amount of arrearages of LIHEAP households has also grown 
sharply due to the increase in prices. By January 2006, the total 
amount of LIHEAP household arrearages had increased 32 percent from the 
same period in 2005 and 169 percent compared to the same period in 
1999. The total number of LIHEAP households increased 8 percent from 
this same period last year.\10\
---------------------------------------------------------------------------
    \10\ National Energy Assistance Directors, ``Est. Total Households 
Receiving LIHEAP Heating Assistance by State--Projected Applications 
for Fiscal Year 2006'' (2/13/06).
---------------------------------------------------------------------------
    Ohio.--In Ohio, the number of households entering into the State's 
low-income energy affordability program, the Percentage of Income 
Payment Program (PIPP), increased 23 percent from January 2005 to 
January 2006. The increase is even more dramatic at 84 percent, when 
comparing PIPP enrollment from January 2002 to January 2006. The total 
dollar arrearage amounts for PIPP customers also increased 27 percent 
from January 2005 to January 2006. Likewise, the total PIPP arrearages 
have increased dramatically, 84 percent, from January 2002 to January 
2006. Ohio's LIHEAP program expects to provide heating assistance to 
almost 5 percent more households in fiscal year 2006 than in fiscal 
year 2005 (and almost 30 percent more households when compared to Ohio 
households that received heating assistance in fiscal year 2002).\11\
---------------------------------------------------------------------------
    \11\ Based on date from the National Energy Assistance Directors, 
``Est. Total Households Receiving LIHEAP Heating Assistance by State--
Projected Applications for Fiscal Year 2006 (2/13/06)'' and ``Estimated 
Total Households Receiving LIHEAP Heating Assistance by State Actuals 
in 2002, 2003; Projected in 2004.'' Available at www.neada.org.
---------------------------------------------------------------------------
    Pennsylvania.--Utilities in Pennsylvania that are regulated by the 
Pennsylvania Public Utility Commission (PA PUC) have established 
universal service programs that assist utility customers in paying 
bills and reducing energy usage. Even with these programs, electric and 
natural gas utility customers find it difficult to keep pace with their 
energy burdens. The PA PUC estimates that approximately 21,000 
households entered the current heating season without heat-related 
utility service--this number includes about 4,000 households who are 
heating with potentially unsafe heating sources such as kerosene space 
heaters. This is an increase of 68 percent when compared to the average 
number entering the heating season without heat for the years 2000-
2003. An additional 17,500 residences where service was previously 
terminated are now vacant.\12\ In 2005, the number of terminations 
increased 52 percent compared with terminations in 2004.\13\ As of 
January 2006, 17.48 percent of residential electric customers and 18.19 
percent of natural gas customers are overdue on their energy bills. As 
of February 2006, Pennsylvania projected serving 354,065 LIHEAP 
applicants in fiscal year 2005, an 8.2 percent increase over the prior 
year.\14\
---------------------------------------------------------------------------
    \12\ http://www.puc.state.pa.us/general/press_releases/
press_releases.aspx?ShowPR=1435.
    \13\ http://www.puc.state.pa.us/general/pdf/Terminations_Table_Jan-
Dec04-05.pdf
    \14\ http://www.neada.org/news/news060213_liheap06projections.pdf
---------------------------------------------------------------------------
    LIHEAP Helps These Vulnerable Households.--Growing utility 
arrearages for low-income households will only place these fragile 
households on a downward spiral towards disconnections. Adequate LIHEAP 
assistance can help families facing terminations, but, even more 
importantly, adequate LIHEAP appropriations can help struggling 
families maintain vital energy services and protect the health and 
safety of vulnerable seniors, families with young children or disabled 
family members. The recent NEADA national energy assistance survey 
found that 48 percent of LIHEAP recipients would have had their 
electricity or home heating fuel discontinued if LIHEAP had not been 
available.\15\
---------------------------------------------------------------------------
    \15\ NEADA Survey, Table 47.
---------------------------------------------------------------------------
    The Need For LIHEAP Is Greater Than Ever.--The continued sharp rise 
in residential energy prices is expected for the near future. The data 
from Iowa, Ohio and Pennsylvania, which are amongst the few States that 
collect residential utility customer payment data, show that even in a 
milder than normal winter, the prices have risen to such a degree that 
an increasing number of low-income households is falling behind. This 
year's dramatic rise in residential energy prices has yielded the 
greatest number of LIHEAP applications in 12 years.\16\ Last year, the 
number of eligible recipients for LIHEAP climbed to 32 million; 
however, only around 5 million were able to benefit from it.
---------------------------------------------------------------------------
    \16\ http://www.neada.org/news/news060213_liheap06projections.pdf.
---------------------------------------------------------------------------
    The Consequences Of Unaffordable Energy Bills Are Dire.--When 
people are unable to afford paying their home energy bills, many 
dangerous and unhealthy actions are often taken. Common practices 
include resorting to alternative heating sources, such as space 
heaters, ovens and burners, all of which are huge fire hazards; 
numerous deaths due to fires started by space heaters have already 
occurred this year and are a recurring problem every year. According to 
the U.S. Consumer Product Safety Commission, about 25,000 fires in 
homes are caused by space heaters and 300 people are killed because of 
them every year in the United States.\17\ Other dangerous practices 
include illegal gas hookups that create dangerous gas leaks, keeping 
the thermostat at unhealthy and sometimes hypothermic temperatures (and 
hyperthermic temperatures in the summer). Those who cannot afford their 
winter heating bill often face dire choices such as sacrificing food, 
medical care or prescription medicine.\18\ In the summer, the inability 
to afford cooling bills can result in heat-related deaths and illness. 
The loss of essential utility services can be devastating, especially 
for poor families that can find themselves facing the prospects of 
hypothermia in the winter, hyperthermia in the summer,\19\ eviction, 
property damage from frozen pipes, the use of dangerous alternative 
sources of heat,\20\ and the potential threat of the intervention of 
child welfare agencies.\21\ Studies have also demonstrated the clear 
links between homelessness and utility disconnections, as well as the 
connections between unaffordable utility service and the disruption to 
families and children's education. LIHEAP works to bring fuel costs 
within a manageable range for low-income households. There are other 
societal benefits to a strong LIHEAP. A recent study documents an 
association between receipt of LIHEAP assistance and a reduced 
incidence of undernutrition in young children.\22\
---------------------------------------------------------------------------
    \17\ U.S. Department of Energy: A Consumer's Guide to Energy 
Efficiency and Renewable Energy. http://www.eere.energy.gov/consumer/
your_home/space_heating_cooling/index.cfm/mytopic=12600.
    \18\ NEADA Survey, Table 39. To pay their energy bills, 22 percent 
of LIHEAP recipients went without food, 38 percent went without medical 
or dental care, 30 percent did not fill or took less than the full dose 
of a prescribed medicine.
    \19\ From 2000 to 2003, approximately 50 percent-68 percent of 
heat-related deaths were 60 years old or older. Office of Climate, 
Water and Weather Services, Heat Related Fatalities by Age and Gender, 
reports for 2000--2003.
    \20\ In 1998 there were over 49,000 heating-equipment related home 
fires resulting in 388 deaths and 1,445 injuries and $515 million in 
property damage. National Fire Protection Association Fact Sheets on 
Home Heating, in United States Home Heating Fire Patterns and Trends, 
John H. Hall, Jr., NFPA, June 2001.
    \21\ Robert B. Swift, Rising Costs for Home Heating Fuel Could 
Spawn More Problems, Sunbury (PA) Item, Jan. 29, 2000.
    \22\ Pediatric Academic Societies, Publication #921, Platform 
Presentation, Epidemiology Session, May 6, 2003, Seattle, WA: 
Children's Sentinel Nutrition Assessment Program: Heat or Eat: Low 
Income Home Energy Assistance Program and Nutritional Risk Among 
Children < 3.
---------------------------------------------------------------------------
    People are putting themselves at risk when they do not have 
sufficient funds to pay their home energy bills, but LIHEAP can and 
does come to their aid and does greatly alleviate some of the hardship 
caused by high energy bills. With the assistance of LIHEAP, households 
will not have to make such unconscionable, dangerous sacrifices.
    The Need for Advance Appropriations is Critical.--The timing of the 
release of the LIHEAP block grant to the States is critical for the 
effective and efficient operation of the State programs. The normal 
appropriations process leaves very little time between enactment of the 
Labor-HHS-Education spending bill and the start of most States' heating 
programs. An advance appropriation is essential for States to determine 
income guidelines and benefit levels well ahead of time and for 
properly planning the components of their program year (e.g., amounts 
set aside for heating, cooling and emergency assistance, 
weatherization, self sufficiency and leveraging activities). Without 
advance appropriations, delayed passage of the spending bill can force 
States to open their winter heating program without knowledge of their 
final grant amount. Advance appropriations shield States from 
disruption of the start-up of their winter heating programs if there is 
a delay in the passage of the Labor-HHS-Education spending bill.
    LIHEAP Works.--LIHEAP is a targeted block grant that assists 
vulnerable low-income households with the costs of home energy. 
According to the U.S. Department of Health and Human Services, one-
third of households receiving LIHEAP heating and cooling assistance had 
an elderly member; over 30 percent of households receiving heating and 
cooling assistance had a member with a disability; and almost one third 
of households receiving heating assistance and around a fifth of 
households receiving cooling assistance had young children. In fiscal 
year 2001, LIHEAP recipient households had a mean individual energy 
burden almost five times the energy burden for non-low income 
households.\23\ A While there are broad Federal guidelines for LIHEAP, 
States have the flexibility to tailor their programs to best meet their 
needs. Administrative costs are minimal--capped at 10 percent. This 
ensures that the vast majority of LIHEAP dollars are directed to energy 
assistance for low-income families.
---------------------------------------------------------------------------
    \23\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Office of Community Services, Division of 
Family Assistance, LIHEAP Home Energy Notebook for Fiscal Year 2001 
(February 2003), Table A-2b, p. 49.
---------------------------------------------------------------------------
    The National Association of Regulatory Utility Commissioners 
(NARUC), the National Energy Assistance Directors Association and the 
National Fuel Funds Network also support fully funding the regular 
block grant LIHEAP program at $5.1 billion.
    Conclusion.--In light of the continued projected increase in 
residential energy costs and LIHEAP's continued demonstrated success in 
helping low-income families maintain access to vital energy service, we 
urge the subcommittee to appropriate $5.1 billion for the regular 
LIHEAP program in fiscal year 2007 as well as advance appropriations 
for fiscal year 2008 of $5.1 billion for the regular program. Thank you 
for consideration of our testimony.
                                 ______
                                 
          Prepared Statement of the National Kidney Foundation

    The National Kidney Foundation (NKF), a voluntary health 
organization whose membership includes patients and families; organ 
transplant recipients; families who have donated the organs of loved 
ones for transplantation and living organ donors; and health care 
professionals, is pleased to submit public witness testimony for the 
written record in support of fiscal year 2007 Appropriations.
    We are very appreciative of the $1,800,000 in funding that Congress 
provided in fiscal year 2006 to establish a Chronic Kidney Disease 
(CKD) program within the Centers for Disease Control and Prevention 
(CDC). As the subcommittee drafts the fiscal year 2007 Labor, Health 
and Human Services, and Education Appropriations Bill, we respectfully 
request your continued support for funding to expand these activities, 
as outlined below. Unfortunately, the administration did not request 
continued funding for this program in its 2007 Budget Request.

                    IMPACT OF CHRONIC KIDNEY DISEASE

    The implications of kidney disease for the public are considerable, 
yet the average American is relatively unaware of its consequences. 
Twenty million Americans have CKD, and another 20 million are at risk 
of developing the disease, but most people with kidney disease do not 
know they have it and will not be diagnosed until it has threatened 
their health and even their lives. Individuals with diabetes or 
hypertension are especially vulnerable.
    Kidney disease is the 9th leading cause of death in the United 
States, and death by cardiovascular disease is 10 to 30 times higher in 
kidney dialysis patients than in the general population. Kidney disease 
is associated with 25 percent of the Medicare budget and 7 percent of 
the Medicare population has a diagnosis of kidney disease. Further, the 
number of individuals with end stage renal disease (ESRD), irreversible 
kidney failure requiring either dialysis or a transplant to remain 
alive, is expected to increase from 382,000 patients in 2000 to 712,000 
by 2015. Effective treatments are available to reduce morbidity and 
mortality resulting from kidney disease and its complications and to 
retard progression to kidney failure. However, CKD is not being 
detected sufficiently early to initiate treatment regimens and reduce 
death and disability. NKF believes a public health approach would 
contribute toward early detection and treatment, thereby reducing 
hardship and saving money and lives.

                          2006 CDC ACTIVITIES

    NKF is working closely with CDC to implement this program and we 
are very pleased with the progress to date. CDC intends to use the 
current-year appropriation to identify and coordinate sources for CKD 
data; propose solutions to fill data deficiencies; undertake a 
surveillance system feasibility study; fund pilot projects in selected 
States; and, organize an expert consensus conference to lay the 
groundwork for a Public Health Kidney Disease Strategic Plan. Earlier 
this year, CDC requested proposals to support the development of a 
comprehensive CKD surveillance system. The agency expects to award two 
grants in 2006 designed to identify sources of CKD data, as well as 
gaps and deficiencies in existing data. The program will also propose 
solutions to remedy deficiencies, including the execution of a 
feasibility study and pilot test for a surveillance system. Additional 
activities in 2006 will include studies of the economic benefit of CKD 
intervention.

                        FISCAL YEAR 2007 REQUEST

    A restoration of funding to the 2006 level would enable CDC to 
continue planning for capacity and infrastructure for a kidney disease 
epidemiology, research and health outcomes program and to institute a 
CKD surveillance system. We are hopeful for a funding increase over 
fiscal year 2006, which would enable the agency to expand the number 
and scope of grants to support State-based community demonstration 
projects for CKD detection and treatment, a core component of this CKD 
initiative. We envision this would include tracking the progression of 
CKD in patients who have been diagnosed, as well as identify the onset 
of kidney disease among individuals who are members of high risk 
groups.
    We thank you for your past support of this initiative and 
respectfully request your continued support, to enable CDC and the 
public health community to move forward to address the growing concern 
of Chronic Kidney Disease.
                                 ______
                                 
         Prepared Statement of the National League for Nursing

    The National League for Nursing (NLN)--representing more than 1,100 
nursing schools and health care agencies, some 17,000 individual 
members comprised of nurses, educators, administrators, public members, 
and 18 constituent leagues--appreciates the subcommittee's past support 
for nursing education and your continued recognition of the important 
role nurses play in the delivery of health care services.
    We, however, are concerned. Unless additional resources are 
expended, the advancements made by Congress to help alleviate the 
nursing shortage will be impeded owing to the currently proposed fiscal 
year 2007 appropriations level. The NLN advocates your continued 
support for Title VIII--Nursing Workforce Development Programs (Public 
Health Services Act), housed in the Health Resources and Services 
Administration (HRSA) with the congressionally prescribed mission of 
ensuring a sufficient supply of nurses. We urge you to fund the Title 
VIII programs at a minimum level of $175 million for fiscal year 2007. 
Placing this minimal funding request in perspective, note that during 
the last serious nursing shortage in 1974, Congress appropriated $153 
million for nurse education programs. In today's dollars that 
appropriation would equate to approximately $592 million, nearly four 
times the amount the Federal Government is spending on nurse education 
now.
    Today's nursing shortage is very real and very different from any 
experienced in the past. The existing shortage is evidenced by an aging 
workforce and too few people entering the profession. A critical factor 
exacerbating the national nurse-workforce deficiency is the declining 
number of qualified nurses available to teach future generations of 
registered nurses. The NLN's Faculty Survey conducted in 2002 concludes 
that not enough qualified nurse educators exist to teach the number of 
nurses necessary to ameliorate the nursing shortage.
    The NLN Survey found three trends influencing the future of nursing 
education over the next decade:
The aging of the nurse faculty population
    An average of 1.3 full-time faculty members per program left their 
positions in nursing education in 2002. About half the survey 
respondents had at least one unfilled budgeted full-time faculty 
position and some had as many as 15 such positions. 36.5 percent of 
faculty who left their positions in the preceding year did so because 
of retirement; 8.6 percent of faculty were 61 years of age or older; 
and 75 percent of the current faculty population is expected to retire 
by 2019.
    Approximately 1,800 full-time faculty members leave their positions 
each year. About 10,000 master's level nurses graduate per year, 15 
percent of whom would have to enter teaching in order to maintain 
today's production level for generating the Nation's nurse workforce. 
Since this is highly unlikely, the gap between unfilled positions and 
the candidate pool is widening significantly.
The increasing number of part-time faculty
    The number of part-time faculty has increased notably since 1996--
nearly 17 percent in baccalaureate programs and 14 percent in associate 
degree programs. Part-time faculty now provides approximately 23 
percent of the estimated number of faculty FTEs.
    Part-time employees often are not an integral part of the design, 
implementation, and evaluation of the overall nursing education 
program. Many may hold other positions that often limit their 
availability to students. Further, many part-time faculty have not been 
prepared for the faculty role.
The large number of nursing faculty who are not prepared at the 
        doctoral level
    Approximately half the full-time faculties in baccalaureate and 
higher-degree programs hold a doctoral degree. In associate degree 
programs, doctorally-prepared faculty account for only 6.6 percent of 
the total faculty and the number is slightly more than 5 percent in 
diploma programs. Only 350 to 400 nursing students receive doctoral 
degrees each year and the pool of doctorally-prepared candidates for 
full-time nursing professorships is very limited.
    Educators without doctoral degrees may lack credibility within a 
university setting and have limited opportunities to assume leadership 
positions. Institutions with low numbers of doctorally-prepared 
educators may be less likely to obtain funds to support research or 
educational innovations. As important as educational incentives are for 
future practicing nurses, the scholarships for doctoral students who 
will instruct the next generation of nurses are even more critical.
    Since less than an adequate number of nurse educators currently 
teach in the education pipeline, the situation appears to be growing 
acute and is not expected to improve in the near future absent adequate 
intervention. In a survey of the 2004-2005 academic year conducted by 
the NLN, an estimated 147,000 qualified applications were turned away 
from nursing programs at all degree levels owing in large part to the 
lack of faculty necessary to teach this number of additional students. 
This number represents a 17.6 percent increase from the 2003-2004 
academic year. With an increasing application pool, a key priority in 
tackling the nurse shortage has to be scaling up the capacity to accept 
qualified applicants. Today's undersized supply of appropriately 
prepared nurses and nurse faculty does not bode well for meeting the 
needs of a diverse, aging population.
    Congress made an important step in passing the Nurse Reinvestment 
Act in 2002. The new monies used to fund loans and scholarships are 
appreciated. Yet, it has become abundantly clear that significantly 
more funding is required to even minimally meet the HRSA charge to 
support nursing students and schools of nursing so as to meet the 
existing and rising national needs for nurses. In fiscal year 2005, 
HRSA was forced to turn away 82 percent of the applicants for the Nurse 
Education Loan Repayment Program and more than 98 percent of the 
applicants for the Nursing Scholarship Program due to lack of adequate 
funding.
    Please do not allow the Nation to lose ground in the effort to 
remedy the nursing shortage. Fund Title VIII--Nursing Workforce 
Development Programs at a level commensurate with the severity of the 
health care crisis facing the Nation today. Your support will help 
ensure that nurses exist in the future who are prepared and qualified 
to take care of you, your family, and all those in this country who 
will need our care.
                                 ______
                                 
           Prepared Statement of the Oncology Nursing Society

    The Oncology Nursing Society (ONS) appreciates the opportunity to 
submit written comments for the record regarding fiscal year 2007 
funding for cancer and nursing related programs. ONS, the largest 
professional oncology group in the United States composed of more than 
33,000 nurses and other health professionals, exists to promote 
excellence in oncology nursing and the provision of quality care to 
those individuals affected by cancer. As part of its mission, the 
Society honors and maintains nursing's historical and essential 
commitment to advocacy for the public good.
    This year more than 1.4 million Americans will be diagnosed with 
cancer and more than 565,000 will lose their battle with this terrible 
disease. Despite these grim statistics, significant gains in the War 
Against Cancer have been made through our Nation's investment in cancer 
research and its application. Research holds the key to improved cancer 
prevention, early detection, diagnosis, and treatment, but such 
breakthroughs are meaningless unless we can deliver them to all 
Americans in need. Recent studies have reported 126,000 registered 
nurse vacancies in hospitals and 13,900 registered nurse vacancies in 
nursing homes. Moreover, a recent survey of ONS members found that the 
nursing shortage is having an adverse impact in oncology physician 
offices and hospital outpatient departments. Some respondents indicated 
that when a nurse leaves their practice that they are unable to hire a 
replacement due to the shortage--leaving them short-staffed and posing 
scheduling challenges for the practice and the patients. These 
vacancies in all care settings create significant barriers to ensuring 
access to quality care.
    To ensure that all people with cancer have access to the 
comprehensive, quality care they need and deserve, ONS advocates on-
going and significant Federal funding for cancer research and 
application, as well as funding for programs that help ensure an 
adequate oncology nursing workforce to care for people with cancer. The 
Society stands ready to work with policymakers at the local, State, and 
Federal levels to advance policies and programs that will reduce and 
prevent suffering from cancer and sustain and strengthen the Nation's 
nursing workforce.

    SECURING AND MAINTAINING AN ADEQUATE ONCOLOGY NURSING WORKFORCE

    Oncology nurses are on the front lines in the provision of quality 
cancer care for individuals with cancer--administering chemotherapy, 
managing patient therapies and side-effects, working with insurance 
companies to ensure that patients receive the appropriate treatment, 
providing counseling to patients and family members, and engaging in 
myriad other activities on behalf of people with cancer and their 
families. Cancer is a complex, multifaceted chronic disease, and people 
with cancer require specialty-nursing interventions at every step of 
the cancer experience. People with cancer are best served by nurses 
specialized in oncology care, who are certified in that specialty. 
Overall, age is the number one risk factor for developing cancer. 
Approximately 77 percent of all cancers are diagnosed at age 55 and 
older. Currently, Medicare beneficiaries account for more than 50 
percent of all cancer diagnoses and 64 percent of cancer deaths. Over 
the next 10 to 15 years the number of Medicare beneficiaries with 
cancer is estimated to double while, according to U.S. Department of 
Labor estimates, more than 1.1 million registered nursing vacancies 
will need to be filled by 2012 to meet growing patient demand and 
replace retiring nurses.
    As the overall number of nurses will drop precipitously in the 
coming years, we likely will experience a commensurate decrease in 
number of nurses trained in the specialty of oncology. With an 
increasing number of people with cancer needing high quality health 
care, coupled with an inadequate nursing workforce, our Nation could 
quickly face a cancer care crisis of serious proportion with limited 
access to quality cancer care, particularly in traditionally 
underserved areas. A study in the New England Journal of Medicine found 
that nursing shortages in hospitals are associated with a higher risk 
of complications--such as urinary tract infections and pneumonia, 
longer hospital stays, and even patient death. Without an adequate 
supply of nurses, there will not be enough qualified oncology nurses to 
provide the quality cancer care to a growing population of people in 
need and patient health and well-being could suffer.
    Further, of additional concern is that our Nation also will face a 
shortage of nurses available and able to conduct cancer research and 
clinical trials. With a shortage of cancer research nurses, progress 
against cancer will take longer because of scarce human resources 
coupled with the reality that some practices and cancer centers 
resources could be funneled away from cancer research to pay for the 
hiring and retention of oncology nurses to provide direct patient care. 
Without a sufficient supply of trained, educated, and experienced 
oncology nurses, our Nation may falter in its delivery and application 
of the benefits from our Federal investment in research.
    ONS has joined with others in the nursing community in advocating 
$175 million as the fiscal year 2007 funding level necessary to support 
implementation of the Nurse Reinvestment Act and the range of nursing 
workforce programs housed at the U.S. Health Resources and Services 
Administration (HRSA). Enacted in 2002, the Nurse Reinvestment Act 
included new and expanded initiatives, including loan forgiveness, 
scholarships, career ladder opportunities, and public service 
announcements to advance nursing as a career. Despite the enactment of 
this critical measure, HRSA fails to have the resources necessary to 
meet the current and growing demands for our Nation's nursing 
workforce. For example, in fiscal year 2005, HRSA was forced to turn 
away 82 percent of the applicants for the Nurse Education Loan 
Repayment Program and over 98 percent of the applicants for the Nursing 
Scholarship Program due to lack of adequate funding.
    While a number of years ago one of the biggest factors associated 
with the shortage was a lack of interested and qualified applicants, 
due to the efforts of the nursing community and other interested 
stakeholders, the number of applicants is growing. As such, now one of 
the greatest factors contributing to the shortage is that nursing 
programs are turning away qualified applicants to entry-level 
baccalaureate programs due to a shortage of nursing faculty. According 
to the American Association of Colleges of Nursing (AACN), at least 
32,617 of such qualified applicants were turned away in 2004 alone. 
Many of these qualified students are being placed on waiting lists that 
may be as long as 2 years or more. The National League for Nursing 
(NLN) released a preliminary report in December 2005 that showed that 
due to faculty shortages, in total schools of nursing were forced to 
reject more that 147,000 qualified applications for 2005, an 18 percent 
increase over 2004 figures. The number of full-time nursing faculty 
required to ``fill the nursing gap'' is approximately 40,000 and 
currently there are less than 20,000 full-time nursing faculty in the 
system. The nurse faculty shortage is only expected to worsen with time 
as faculty age continues to climb, averaging 52 years in 2004. 
Significant numbers of faculty are expected to retire in the coming 
years with insufficient numbers of candidates in the pipeline to take 
their places. If funded sufficiently, the components and programs of 
the Nurse Reinvestment Act will help address the multiple factors 
contributing to the nursing shortage.
    ONS strongly urges Congress to provide HRSA with a minimum of $175 
million in fiscal year 2007 to ensure that the agency has the resources 
necessary to fund a higher rate of nursing scholarships and loan 
repayment applications and support other essential endeavors to sustain 
and boost our Nation's nursing workforce. Nurses--along with patients, 
family members, hospitals, and others--have joined together in calling 
upon Congress to provide this essential level of funding. One Voice 
Against Cancer (OVAC), a collaboration of more than 45 national 
nonprofit organizations representing millions of Americans, also 
advocates $175 million for the Nurse Reinvestment Act in fiscal year 
2007. ONS and its allies have serious concerns that without full 
funding, the Nurse Reinvestment Act will prove an empty promise and the 
current and expected nursing shortage will worsen, and people will not 
have access to the quality care they need and deserve.

 BOOST OUR NATION'S INVESTMENT IN CANCER PREVENTION, EARLY DETECTION, 
                             AND AWARENESS

    Approximately two-thirds of cancer cases are preventable through 
lifestyle and behavioral factors and improved practice of cancer 
screening. Although the potential for reducing the human, economic, and 
social costs of cancer by focusing on prevention and early detection 
efforts remains great, our Nation does not invest sufficiently in these 
strategies. While as a Nation we spend almost a trillion dollars a year 
on our health care system, we only allocate approximately 1 percent of 
that amount for population-based prevention efforts. By 2020, cancer 
and other chronic disease expenditures will reach $1 trillion or 80 
percent of health care costs. The Nation must make significant and 
unprecedented Federal investments today to address the burden of cancer 
and other chronic diseases, and to reduce the demand on the healthcare 
system and diminish suffering in our Nation both for today and 
tomorrow.
    As the Nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering at the community level what is learned from research. 
Therefore, ONS joins with our partners in the cancer community--
including OVAC--in calling on Congress to provide additional resources 
for the CDC to support and expand much-needed and proven effective 
cancer prevention, early detection, and risk reduction efforts. 
Specifically, ONS advocates the appropriation of $427.5 million in 
fiscal year 2007 for the CDC's comprehensive cancer, ovarian cancer, 
breast and cervical cancer early detection, cancer registries, prostate 
cancer, colorectal cancer, and skin cancer programs. ONS also urges a 
funding increase for the CDC's physical activity, nutrition, and 
tobacco-control programs to help reduce risk factors for developing 
cancer and other chronic diseases. ONS advocates the following fiscal 
year 2007 funding levels:
  --$250 million for the National Breast and Cervical Cancer Early 
        Detection Program;
  --$65 million for the National Cancer Registries Program;
  --$25 million for the Colorectal Cancer Prevention and Control 
        Initiative;
  --$50 million for the Comprehensive Cancer Control Initiative;
  --$20 million for the Prostate Cancer Control Initiative;
  --$5 million for the National Skin Cancer Prevention Education 
        Program;
  --$7.5 million for the Ovarian Cancer Control Initiative;
  --$5 million for the Geraldine Ferraro Blood Cancer Program;
  --$145 million for the National Tobacco Control Program; and
  --$70 million for the Nutrition, Physical Activity, and Obesity 
        Program.

            SUSTAIN AND SEIZE CANCER RESEARCH OPPORTUNITIES

    Our Nation has benefited immensely from past Federal investment in 
biomedical research at the National Institutes of Health (NIH). ONS has 
joined with the broader health community in advocating $29.7 billion 
for NIH in fiscal year 2007. This will allow NIH to sustain and build 
on its research progress resulting from the recent doubling of its 
budget while avoiding the severe disruption to that progress that would 
result from a minimal increase. Cancer research is producing 
extraordinary breakthroughs--leading to new therapies that translate 
into longer survival and improved quality of life for cancer patients. 
We have seen extraordinary advances in cancer research resulting from 
our national investment that have produced effective prevention, early 
detection and treatment methods for many cancers. To that end, ONS 
calls upon Congress to allocate $5.034 billion to the National Cancer 
Institute (NCI) in fiscal year 2007 to continue our battle against 
cancer.
    The National Institute of Nursing Research (NINR) supports basic 
and clinical research to establish a scientific basis for the care of 
individuals across the life span--from management of patients during 
illness and recovery to the reduction of risks for disease and 
disability and the promotion of healthy lifestyles. These efforts are 
crucial in translating scientific advances into cost-effective health 
care that does not compromise quality of care for patients. 
Additionally, NINR fosters collaborations with many other disciplines 
in areas of mutual interest such as long-term care for older people, 
the special needs of women across the life span, bioethical issues 
associated with genetic testing and counseling, and the impact of 
environmental influences on risk factors for chronic illnesses such as 
cancer. ONS joins with the nursing community in advocating an 
allocation of $150 million for NINR in fiscal year 2007.

                               CONCLUSION

    ONS stands ready to work with policymakers to advance policies and 
support programs that will reduce and prevent suffering from cancer and 
sustain and strengthen our Nation's nursing workforce. Moreover, ONS 
maintains a strong commitment to working with Members of Congress, 
other nursing societies, patient organizations, and other stakeholders 
to ensure that the oncology nurses of today continue to practice 
tomorrow and that we recruit and retain new oncology nurses to meet the 
unfortunate growing demand that we will face in the coming years. Thank 
you for this opportunity to discuss the fiscal year 2007 funding levels 
necessary to ensure that our Nation has a sufficient nursing workforce 
to care for the patients of today and tomorrow and that our Nation 
continues to make gains in our fight against cancer.
                                 ______
                                 
       Prepared Statement of the Pancreatic Cancer Action Network

    On behalf of The Pancreatic Cancer Action Network (PanCAN), I thank 
you for this opportunity to present written testimony to the Labor, 
Health and Human Services, and Education subcommittee of the House 
Appropriations Committee.
    PanCAN was founded in 1999 to focus national attention on the need 
to find the cure for pancreatic cancer. We provide public and 
professional education that embraces the urgent need for more research, 
effective treatments, prevention programs, and early detection methods. 
PanCAN is the first and only national patient based advocacy 
organization specifically focused on pancreatic cancer. We now have a 
full time staff of 30 individuals, and 90 ``Team Hope'' affiliates in 
communities across the country, comprised of thousands of volunteers 
who seek to increase awareness about this disease, raise funds, and 
voice their concern that there is a desperate need to find a cure for 
pancreatic cancer.

                    BACKGROUND ON PANCREATIC CANCER

    Every 17 minutes, someone in the United States dies form pancreatic 
cancer. It is the 4th leading cause of cancer death in the Untied 
States. The facts on pancreatic cancer are striking:
  --Over 33,730 Americans will be diagnosed with pancreatic cancer in 
        2006, and 32,300 will die from this disease.
  --The 99 percent mortality rate is the highest of any cancer.
  --There are no early detection methods.
  --The average life expectancy after diagnosis with metastatic disease 
        is just 3 to 6 months.
    Yet, despite these statistics, pancreatic cancer receives the least 
amount of research funding from the Federal Government of all major 
cancers. Federal funding for pancreatic cancer research totaled roughly 
$66 million in fiscal year 2005, a mere 1 percent of the National 
Cancer Institute's (NCI's) $4.825 billion research budget. While good 
progress is being made in early detection, research and treatment 
programs for some cancers, this is clearly not the case for pancreatic 
cancer.
    Pancreatic cancer is the deadliest cancer for one reason: limited 
Federal funding opportunities discourage researchers from pursuing 
pancreatic cancer as a focus. There are less than 15 fully-funded 
researchers nationwide who are specifically dedicated to this disease. 
The combination of few dollars and few researchers means there has been 
very little scientific progress.
    PanCAN has outlined opportunities below for the Federal Government 
to take specific actions to facilitate progress in combating this 
disease.
Provide Adequate Funding Increases for Cancer Research, Prevention, and 
        Treatment Programs
    Pancreatic cancer is the country's fourth leading cause of cancer 
death, killing over 33,730 people annually, yet it remains severely 
under-funded when comparing NCI funding levels for the top five cancers 
based on mortality. The NCI spent a reported $66 million on pancreatic 
cancer research in fiscal year 2005, yet the other four top cancers (in 
mortality) are funded at levels at least four times this amount. 
Further, the discrepancy in funding has existed for many years, only 
compounding this inconsistency.
    PanCAN supports the highest possible funding increase that Congress 
can provide for the National Institute of Health (NIH) and the NCI in 
fiscal year 2007. With additional funding for both the NIH and the NCI, 
new research grants can be awarded to fulfill the research goals 
identified by the NCI as essential to combating this disease. PanCAN is 
a member of the ``One Voice Against Cancer'' (OVAC) coalition which is 
comprised of more than 50 cancer advocacy organizations that have come 
together to support our common goal: increased Federal funding for 
cancer research, prevention and training programs that are funded 
through the NIH, NCI and Centers for Disease Control and Prevention 
(CDC).
    PanCAN wholeheartedly endorses OVAC's proposed fiscal year 2007 
funding requests that seek a 5 percent increase for both the NIH and 
NCI. We urge you to provide a minimum of $29.7 billion for the NIH in 
fiscal year 2007. Separate testimony submitted to the Committee by OVAC 
reiterates the need for additional Federal funding for biomedical 
research: ``The tremendous investment our Nation has made in the NIH 
has reaped remarkable returns and set the table for a period of 
unparalleled innovation in the fight against cancer and other diseases. 
For fiscal year 2007, OVAC joins with the broader public health 
community and urges Congress to provide $29.7 billion for the NIH. This 
is the minimal level of funding that will allow the NIH to maintain the 
current pace of discovery and innovation.''
    PanCAN also supports the NCI Director's Professional Judgment 
Budget, which calls for a total of $5.9 billion for the NCI in fiscal 
year 2007. Those within the agency and very knowledgeable of the 
research being conducted by the NCI have developed this plan and 
accompanying budget that seeks to investigate the most promising 
research available to the community at this time. We urge the Committee 
to do all that it can to support investments in biomedical research 
that will save lives. At a minimum, we urge the Committee to support a 
funding increase of 5 percent above last year's level for the NCI, 
which would bring the agency's fiscal year 2007 funding level to $5.034 
billion. This funding level would provide an additional $240 million to 
at least keep the existing level of research at the NCI moving forward 
at a stable pace and thus protect the current number of investigator 
grant awards from significant cuts.
Ensure that Pancreatic Cancer Research is Not Compromised as the NCI 
        Shifts its Focus from Disease Specific Research to More Global 
        Science Initiatives
    Last year, PanCAN requested that the Committee oversee 
implementation of the short, medium, and long-term strategies as 
identified in the Pancreatic Cancer Progress Review (PRG). The PRG has 
been in place since September 2002 and yet, 4 years later, few of these 
strategies have been implemented. For this reason, PanCAN urges the 
Committee to require the NCI to implement, in fiscal year 2007, all of 
the outstanding strategies as identified in the NCI implementation plan 
for pancreatic cancer PRG recommendations.
    Through conversations and meetings with NCI leadership, we've 
learned about the shift in the NCI's focus on research. Disease 
specific science is being shelved in favor of sexier initiatives in the 
areas of nanotechnology, genomics, and the development of a biospecimen 
repository.
    As the NCI moves its scientific agenda forward in these three 
areas, PanCAN is concerned that critical resources will be taken away 
from the significant investments that have been made in research 
related to early detection, diagnosis and treatment protocols for 
specific cancers. Other cancers have achieved significant declines in 
their respective mortality rates after early detection protocols have 
been developed. Since there is no such tool for diagnosing pancreatic 
cancer early in its development, the mortality rates remain high, and 
tens of thousands of patients are lost each year. As the advocacy 
community for pancreatic cancer patients, we feel that the NCI cannot 
justify any reductions in funding for pancreatic cancer research until 
significant reductions are achieved in the mortality rate for this 
cancer.
    PanCAN urges the Committee to obtain assurance from the NCI that 
the cornerstone research of the agency will not be diminished as these 
new scientific initiatives are pursued. Further, PanCAN urges the 
Committee to direct the NCI to develop a written report that 
specifically details how these three major scientific initiatives will 
specifically advance pancreatic cancer research and submit this report 
to the Committee by April 1, 2007.
Support Selected Opportunities for Advancement of Pancreatic Cancer 
        Research to Capitalize on the Initial Investment of Disease 
        Specific Research
    Identify genetic factors, environmental factors, and gene-
environment interactions that contribute to pancreatic cancer 
development.
    Achieve a more complete understanding of the biology of the normal 
pancreas and the development of pancreatic adenocarcinoma and use this 
knowledge to improve prevention, early detection, and treatment 
interventions.
    Develop nationwide tissue and data repositories, molecular 
profiling resources, and bioinformatics tools for pancreatic cancer 
research. Use these resources to develop prevention and early detection 
interventions that are based on molecular features of pancreatic 
cancer.
    Establish models for the study of environmental factors, gene-
environment interactions, chemoprevention, chemotherapy, radiation 
therapy, vaccines, and imaging to improve understanding of pancreatic 
cancer risk, prevention, diagnosis, and treatment.
    Identify and develop surveillance and diagnosis methods for early 
detection of pancreatic cancer and its precursors.
    Develop and establish sustained, expanded training and career 
development efforts in pancreatic cancer research and care to build a 
comprehensive, multidisciplinary research community focused on this 
disease.
    Mr. Chairman, the scientific community--through research--is making 
great progress in combating cancer. More people are surviving cancer 
today than any other time in history. Unfortunately, these achievements 
are not extended to the vast majority of pancreatic cancer patients. We 
urge you to provide America's world-renowned research enterprise with 
the funding levels necessary for investigators to continue to work 
their magic and develop screening protocols, effective treatments and 
therapies that will one day lead to the eradiation of all cancers--
including pancreatic. To quote Congressman Clay Shaw (R-FL), a cancer 
patient, ``When you approach the finish line, you don't walk . . . you 
run!'' If the United States truly seeks to move forward with its 
ambitious goal to stop pain and death from cancer by 2015, it is 
imperative that Federal research programs be adequately funded to 
achieve this goal. On behalf of the 33,730 patients diagnosed with 
pancreatic cancer in 2006, I urge you to support increased funding for 
cancer research, treatment and prevention programs in your fiscal year 
2007 bill.
                                 ______
                                 
   Prepared Statement of People for the Ethical Treatment of Animals

    People for the Ethical Treatment of Animals (PETA) represents more 
than 1.3 million Americans who support the Federal Government's ongoing 
commitment to develop scientifically valid safety tests to protect 
human health and the environment from chemical hazards while reducing, 
and ultimately replacing, the use of animals. Thank you for the 
opportunity to present testimony relevant to the fiscal year 2007 
budget request for the National Institute of Environmental Health 
Sciences in relation to the National Toxicology Program (NTP).

                           HISTORY OF THE NTP

    The NTP was established in 1978 to provide information about 
potentially toxic chemicals and to coordinate toxicity testing programs 
within the Federal Government, strengthen the science of toxicology, 
and develop and validate improved testing methods. Three agencies form 
the core of the NTP: the National Institute of Environmental Health 
Sciences of the National Institutes of Health (NIEHS/NIH), the National 
Institute of Occupational Safety and Health of the Centers for Disease 
Control and Prevention (NIOSH/CDC), and the National Center for 
Toxicological Research of the Food and Drug Administration (NCTR/FDA). 
The NTP's activities are funded through the NIEHS at an annual level of 
approximately $500 to $600 million.\1\
---------------------------------------------------------------------------
    \1\ White House Office of Technology Assessment. Researching health 
risks. Washington, DC: EOP (1993).
---------------------------------------------------------------------------
                   NTP RODENT CANCER TESTING PROGRAM

    During the 1960s and 70s, as vast numbers of new chemicals were 
being produced and used in agriculture, manufacturing, food 
preparation, and virtually every other aspect of modern life, the 
public became increasingly concerned that these chemicals were finding 
their way into the environment and food supply. Since much of the 
public anxiety regarding chemicals related to their potential to cause 
cancer, the Federal Government instituted a program to assess the 
cancer-causing potential of chemicals using rats and mice--on the 
assumption that rodent carcinogens could also present a cancer risk to 
humans. This rodent cancer-testing program began under the auspices of 
the National Cancer Institute, but has been managed by the NTP since 
its inception in 1968.
    A conventional NTP rodent cancer study takes approximately 5 years 
to design, conduct and interpret, consuming at least 860 animals and up 
to $4 million per chemical tested.\2\ The study exposes three groups of 
animals to three different doses of a test chemical, while a fourth 
group (known as the ``control'' group) receives no chemical exposure. 
The chemically exposed animals receive daily doses of a test substance 
for their entire 18- to 24-month life span. If these animals develop 
more tumors than the non-chemically exposed controls, this is taken as 
evidence that a chemical causes cancer. To date, the NTP has tested 
hundreds of substances in rodent cancer studies--including 
pharmaceuticals, pesticides, plastics, industrial chemicals, and even 
plant extracts--at a projected cost of more than 1 billion U.S. 
taxpayer dollars.\3\ 
---------------------------------------------------------------------------
    \2\ NIEHS Fact Sheet: The National Toxicology Program. Research 
Triangle Park, NC: NIEHS (1996).
    \3\ 502 lifetime cancer studies in rats and mice <greek-e> $2-4 
million/study = $1-2 billion.
---------------------------------------------------------------------------
                        A HISTORY OF CONTROVERSY

    The NTP recently celebrated the publication of its 500th rodent 
cancer study as ``the gold standard in animal toxicology.'' \4\ 
However, in contrast to the fanfare with which this announcement was 
made, the history of NTP rodent cancer studies is one of controversy 
spanning several decades, with top Federal officials admitting:
---------------------------------------------------------------------------
    \4\ NIEHS News Release: NTP completes 500th two-year rodent study 
and report; series is the gold standard of animal toxicology. 25 Jan 
2001. <http://www.niehs.nih.gov/oc/news/ntp500.htm>.
---------------------------------------------------------------------------
    ``The current 2-year rodent carcinogenicity study was never 
validated and there is little evidence supporting the repeatability and 
reproducibility of the current rodent carcinogenicity study.'' \5\
---------------------------------------------------------------------------
    \5\ Contrera JF, Jacobs AC, DeGeorge JJ. Carcinogenicity testing 
and the evaluation of regulatory requirements for pharmaceuticals. 
Regulatory Toxicology and Pharmacology 25, 130-145 (1997).
---------------------------------------------------------------------------
  --Drs. Joseph Contrera, Abigail Jacobs, and Joseph DeGeorge
    Food and Drug Administration, Center for Drug Evaluation and 
Research
    ``We have been concerned about the predictivity of 2-[year] [rodent 
cancer studies] for the past 10 [years], as our experience and 
knowledge have expanded.'' \6\
  --Drs. Bernard Schwetz and David Gaylor
    Food and Drug Administration, Office of the Director/National 
Center for Toxicological Research
    ``The problem is we don't know what the findings really mean.'' \7\
---------------------------------------------------------------------------
    \7\ Brinkley J. Many say lab-animal tests fail to measure human 
risk. The New York Times 1993 Mar 23;Sect A:1.
---------------------------------------------------------------------------
  --Dr. Robert Maronpot, chief, Laboratory of Experimental Pathology,
    National Institute of Environmental Health Sciences (NIEHS)
    ``Even if a chemical is found to be nontoxic in animal studies, the 
safety of the chemical cannot be assured.'' \8\
---------------------------------------------------------------------------
    \8\ Shane BS. Human reproductive hazards. Environmental Science and 
Technology 30, 1193 (1989).
---------------------------------------------------------------------------
  --Dr. Barbara Shane, NTP executive secretary
    ``I have to say we don't serve the American people very well right 
now.'' \6\
---------------------------------------------------------------------------
    \6\ Schwetz B, Gaylor D. New directions for predicting 
carcinogenesis. Molecular Carcinogenesis 20, 2 75-279 (1997).
---------------------------------------------------------------------------
  --Dr. Kenneth Olden, director, NTP & NIEHS (1991-2005)

                            PETA'S ANALYSIS

    PETA recently conducted an in-depth analysis of all 502 federally 
funded and conducted lifetime rodent cancer studies published on the 
NTP website as of January 2006.\9\ On the basis of this analysis, 
together with more than 25 years of published scientific literature on 
this subject, we have determined that:
---------------------------------------------------------------------------
    \9\ PETA's full report is available upon request or may be 
downloaded from http://www.stopanimaltests.com/u-ntp.asp.
---------------------------------------------------------------------------
  --The great majority of the U.S. Government's more than $1 billion 
        investment in the NTP rodent cancer-testing program has 
        produced little or no actual benefit, having been used to 
        underwrite studies that:
    --Have been judged by the NTP itself to be ``inadequate'' or to 
            produce ``equivocal'' (ambiguous) results, which are of no 
            use to health authorities ($121 million).
    --Have produced such dubious and conflicting results that more than 
            75 percent of tested chemicals remain either unclassified 
            as to their cancer risk to humans, or are lumped into such 
            meaningless categories as ``possible'' human carcinogens or 
            ``unclassifiable'' as to human cancer risk--designations 
            that do nothing to enhance public health or worker 
            protection ($460-720 million).
    --Have been shown by other scientists to produce consistent and 
            reproducible results only 57 percent of the time when the 
            same chemicals are tested more than once using the same 
            method--a result that could be achieved by simply tossing a 
            coin.
  --Critical public health and worker protection measures related to 
        cigarette smoke, asbestos, benzene, and other cancer-causing 
        substances were delayed for many years because of misplaced 
        trust in animal tests, which for years could not replicate 
        cancerous effects that had already been documented in 
        people.\10\ \11\ \12\ \13\ If standard animal tests failed to 
        readily identify these well-known human carcinogens, how many 
        other dangerous chemicals are Americans being exposed to today 
        as a result of misleading animal data?
---------------------------------------------------------------------------
    \10\ Laskin S, Sellakumar AR. Models in chemical respiratory 
carcinogenesis. In: Karbe E, Park JF, eds. Experimental lung cancer: 
carcinogenesis and bioassays. New York: Springer-Verlag (1974).
    \11\ Rodelsperger K, Woitowitz H-J. Airborne fiber concentrations 
and lung burden compared to the tumor response in rats and humans 
exposed to asbestos. Annals of Occupational Hygiene 39, 715-725 (1995).
    \12\ DeLore P, Borgomono C. Acute leukemia following benzene 
poisoning. Journal de MAE1decin de Lyon 9, 227-236 (1928).
    \13\ De Marini DM and others. Benchmarks: alternative methods in 
toxicology. MA Mehlman, ed. Princeton, NJ: Princeton Scientific 
Publishing (1989).
---------------------------------------------------------------------------
  --Conversely, substances such as saccharin and ethyl acrylate (used 
        in the manufacturing of latex paints and textiles) have been 
        branded as ``probable'' human carcinogens and stigmatized on 
        the basis of animal data later dismissed as irrelevant or 
        otherwise inapplicable to humans.\14\ False alarms such as 
        these can cost society billions in terms of loss of viable 
        products in commerce, decreased international competitiveness, 
        job loss, litigation, and unnecessary public anxiety.
---------------------------------------------------------------------------
    \14\ NIEHS Fact Sheet: The Report on Carcinogens--9th edition. 15 
May 2000. <http://www.niehs.nih.gov/oc/news/9thROC.htm>.
---------------------------------------------------------------------------
  --Lifetime cancer studies in rats and mice are so costly and 
        inefficient that the NTP has only been able to conduct an 
        average of 12 such studies per year over the past several 
        decades. At this rate, it would take the NTP more than 32,000 
        years, 68 million animals, and $160 billion to test the more 
        than 80,000 environmental chemicals whose cancer-causing 
        potential has not yet been specifically assessed.\15\
---------------------------------------------------------------------------
    \15\ Ward EM, Schulte PA, Bayard S, et al. Priorities for 
development of research methods in occupational cancer. Environmental 
Health Perspectives 111, 1-12 (2003).
---------------------------------------------------------------------------
    These findings call into question the wisdom of continued Federal 
appropriations to the NTP rodent cancer-testing program. Taxpayer 
dollars would be better spent developing more reliable, relevant, and 
cost-effective methods for assessing chemical safety.

              NTP VISION AND ROADMAP FOR THE 21ST CENTURY

    The NTP itself appears to recognize the limitations of relying upon 
decades old and never validated toxicity studies. In 2003, the NTP 
articulated its ``vision'' to move toxicology from an observational to 
a predictive science with markedly reduced reliance on animal 
testing.\16\ Among the methods that the NTP has identified for further 
development are ``high throughput'' screens, which combine robotics and 
in vitro (cell-based) toxicology to create a system capable of rapidly 
and inexpensively screening tens of thousands of substances per year at 
multiple concentrations relevant to real-world human exposure levels. 
PETA believes that a ``battery'' of several in vitro tests--based on 
human tissues and mechanisms of cancer induction that are relevant to 
people (e.g., genetic damage, cell transformation, depression of the 
immune system, hormone imbalance, etc.) represents the most credible 
and viable approach to accurately identifying chemicals that pose a 
cancer risk to humans.

                       REQUEST FOR APPROPRIATIONS

    In order to more rapidly and effectively screen chemicals to detect 
those that present a cancer risk to humans, we respectfully urge the 
subcommittee to support increasing appropriations from within the 
existing NIEHS budget for the development and validation of efficient 
and economical non-animal test methods under the NTP's ``21st Century 
Vision'' program.\16\ Given the dubious value of the NTP rodent cancer-
testing program, we respectfully recommend that funding of this program 
be discontinued and redirected instead to the NTP Vision program.
---------------------------------------------------------------------------
    \16\ Toxicology in the 21st Century: The Role of the National 
Toxicology Program. 24 Feb 2004. <http://ntp-server.niehs.nih.gov/
index.cfm?objectid=EE4AED80-F1F6-975E-7317D7CB17625A15>.
---------------------------------------------------------------------------
                 REQUEST FOR COMMITTEE REPORT LANGUAGE

    We also respectfully request that the subcommittee consider the 
following report language for the Senate Labor, Health and Human 
Services, Education and Related Agencies Appropriations bill:

    ``Not later than March 30, 2007, the Director of the NTP/NIEHS 
shall provide Congress with a report detailing the number of rodent 
lifetime cancer studies funded to date by the NTP/NCI which (i) 
produced results deemed to be equivocal and/or inadequate for 
classification as to human cancer risk, or (ii) have failed to provide 
a clear answer as to whether the substance tested presents a cancer 
risk to humans. The Director's report should detail the costs 
associated with such studies, and explain the NTP's continued reliance 
on rodent lifetime cancer studies in light of criticisms from senior 
Federal officials regarding their dubious validity and utility.''

    Thank you for the opportunity to submit this request on behalf of 
our more than 1.3 million members and supporters.
                                 ______
                                 
                   Prepared Statement of Project R&R

    Project R&R: Release and Restitution for Chimpanzees in U.S. 
Laboratories, whose advisory board of chimpanzee experts includes 12 
organizations with a combined membership of 500,000, respectfully 
submits testimony on our funding priority.
    We request that Federal funding for breeding chimpanzees for 
research, or for projects that require breeding, be terminated. We do 
so for the following reasons:
  --A ``surplus'' of chimpanzees has resulted from over-breeding in the 
        1980s for HIV/AIDS research and later findings that they are a 
        poor HIV/AIDS model.\1\
---------------------------------------------------------------------------
    \1\ National Research Council (1997) Chimpanzees in research: 
strategies for their ethical care, management and use. National 
Academies Press: Washington, D.C.
---------------------------------------------------------------------------
  --There are enough chimpanzees to address existing federally funded 
        research.\2\
---------------------------------------------------------------------------
    \2\ Report of the Chimpanzee Management Plan Working Group to the 
National Advisory Research Resources Council; May 18, 2005.
---------------------------------------------------------------------------
  --As a result of the ``surplus,'' the government funds a national 
        sanctuary system.\3\
---------------------------------------------------------------------------
    \3\ http://www.ncrr.nih.gov/compmed/cm_chimp.asp.
---------------------------------------------------------------------------
  --The current population costs about $11 million Federal per year.
  --Breeding more chimpanzees increases taxpayers' financial burden.
  --Expansion of the population compounds existing concerns about their 
        quality of care.
  --While there is a breeding moratorium, NIH still funds research 
        projects requiring breeding.\4\
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
  --The public is concerned about the use of chimpanzees in research.
    Background.--Of an estimated 1,300 chimpanzees in laboratories in 
the United States today, approximately 850 are federally owned or 
supported. In the mid-1990s, the National Research Council (NRC) made 
recommendations to address the ``surplus'' that included a moratorium 
on breeding federally-owned or supported chimpanzees for at least 5 
years \5\ (implemented in 1995). The National Advisory Research 
Resources Council, which advises NCRR on funding activities, policies, 
and program, met on 09/15/05 and recommended that NCRR extend the 
moratorium to 12/07. The recommendation was accepted \6\--reasons 
included the high costs associated with care and the fact that 
chimpanzees are a poor model for human HIV research.\7\ \8\
---------------------------------------------------------------------------
    \5\ National Research Council (1997) Chimpanzees in research: 
strategies for their ethical care, management and use. National 
Academies Press: Washington, D.C.
    \6\ http://www.ncrr.nih.gov/compmed/cm_chimp.asp
    \7\ Muchmore, E., (2001) Chimpanzee models for human disease and 
immunobiology, Immunological Reviews, 183, 86-93.
    \8\ Reynolds, V., (1995) Moral issues in relation to chimpanzee 
field studies and experiments, Alternatives to Laboratory Animals, 23, 
621-625.
---------------------------------------------------------------------------
    Circumventing the moratorium.--Despite the moratorium, NIH funds 
research projects requiring breeding. For example, the National 
Institute of Allergy and Infectious Diseases (NIAID) maintains a 
contract with the New Iberia Research Center (NIRC) to provide 10 to 12 
infants annually for research. The 10 year contract entitled ``Leasing 
of chimpanzees for the conduct of research' was allotted over $22 
million ($3.9 million has been spent since 2002).\9\
---------------------------------------------------------------------------
    \9\ Source: http://dcis.hhs.gov/nih/nih_daily_active_web.html (See 
contract No. 272022754).
---------------------------------------------------------------------------
    NIRC has also received $5.47 million from 09/00 to 08/05 for a 
grant from NCRR to maintain 138 chimpanzees for breeding. NIH/NCRR 
spends more than $1 million annually to maintain the NIRC breeding 
colony.\10\ These grants result in $9 million going to breeding-related 
activities at NIRC alone since 2000.
---------------------------------------------------------------------------
    \10\ http://nirc.louisiana.edu/divisions/nihgrants.html
---------------------------------------------------------------------------
    Such expenditures circumvent the intent of the breeding moratorium, 
compelling the need to prevent the growing financial burden of 
increasing numbers of chimpanzees, particularly since, by the 
government's own admission, a ``surplus'' already exists.
    Costs for Chimpanzee Maintenance.--The cost of care for chimpanzees 
is a major concern, particularly with NIH's tightening budget. In 1995, 
the Institute for Laboratory Animal Research (ILAR) published a study 
that projected the future costs of maintaining chimpanzees in U.S. 
research.\11\ ILAR, a division of the National Academies of Science, 
functions as ``an advisor to the Federal Government, the biomedical 
research community, and the public.'' \12\
---------------------------------------------------------------------------
    \11\ Dyke, B., Williams-Blangero, S. et al, 1995 ``Future costs of 
chimpanzees in U.S. research institutions,'' ILAR Journal V37(4) http:/
/dels.nas.edu/ilar_/ilarjournal/37_4/37_Future.shtml
    \12\ Institute for Laboratory Animal Research, website at http://
dels.nas.edu/ilar_n/ilarhome/about.shtml
---------------------------------------------------------------------------
    The ILAR study examined the per diem costs of the existing 
population of chimpanzees at six facilities. Taking into account a 
variety of factors such as longevity, distribution of sex, and 
complexity of care, it projected costs of maintaining the present 
colony over the next 60 years. To account for inflation, an annual 4 
percent increase was incorporated, corresponding approximately to the 
Biomedical Research and Development Price Index.
    The results of the study indicated that the lifetime cost of 
maintaining chimpanzees over the next 60 years--the approximate 
lifespan of chimpanzees in captivity--will exceed $3.14 billion. The 
1995 projection, however, was based on a population of 1,447 
chimpanzees. The present population of federally owned or supported 
chimpanzees in 2006, due to implementation of the partial breeding 
moratorium in 1995 and the close of the Coulston Foundation in 2002, 
stands closer to 850. This represents approximately 59 percent of the 
1,447 number used in ILAR's projection. Thus we can estimate the cost 
of the existing colony to be $1.85 billion.
    The ILAR projection also concluded that the current 2006 annual 
costs would be approximately $18.8 million. Adjusting this number by 59 
percent results in $11 million spent in 2006 alone to maintain 
chimpanzees for research.
    It is important to note that $11 million represents only a partial 
estimate of the entire Federal expenditure for chimpanzee research. The 
total population of U.S. chimpanzees available for research is 
estimated at 1,300. Approximately 500 of these chimpanzees are 
privately owned. Privately owned chimpanzees are also partially funded 
by Federal research dollars. Therefore, the 2006 estimate of annual 
expenditure actually exceeds $11 million by an undetermined amount.
    Delivery of care.--USDA inspection reports indicate that facilities 
housing chimpanzees for research are not adequately meeting basic 
housing needs. Inspection reports for the NIRC 2004 showed some 
chimpanzees being housed in less than the minimal space requirements. 
The facility was given one year to correct the non-compliance, which 
needed to be further extended as construction of new housing facilities 
was still not completed. NIRC was also cited 7 times during its 12/04 
inspection for improperly sanitizing cages and living quarters, as well 
as for failing to provide adequate environment enhancement.
    Inspection reports filed on the Southwest Foundation for Biomedical 
Research and the Yerkes Primate Facility, both National Primate 
Research Centers, also demonstrate multiple non-compliant items for 
failing to keep chimpanzee areas in well-maintained condition, and 
failing to maintain safe facilities free of dangers due to disrepair.
    A poor model.--It is widely agreed within the scientific community 
that chimpanzees are a poor model for HIV. Years of research 
demonstrated that HIV-infected chimpanzees do not develop AIDS. 
Similarly, while chimpanzees are used in current hepatitis C research, 
they do not model the course of the human disease. The decoding of the 
chimpanzee genome pointed out similarities as well as differences 
between humans and chimpanzees. Some of those greatest differences 
relate to the immune system.\13\ Such differences question the validity 
of using chimpanzees in infectious disease research, further arguing 
the need to curb populations and costs.
---------------------------------------------------------------------------
    \13\ The Chimpanzee Sequencing and Analysis Consortium/Mikkelsen, 
TS, et al.,(1 September 2005) Initial sequence of the chimpanzee genome 
and comparison with the human genome, Nature 437, 69-87.
---------------------------------------------------------------------------
    Ethical concerns.--The U.S. public is concerned about the use of 
chimpanzees in research because of their intellectual, emotional and 
social similarities to humans. A 2005 poll conducted by the Humane 
Research Council revealed that 4 out of 5 (83 percent) of the U.S. 
public recognize chimpanzees as highly intelligent, social individuals 
who have an extensive capacity to communicate. A full 71 percent of 
Americans support the release of chimpanzees if they have been used in 
research for more than 10 years.\14\ A 2001 poll conducted by Zogby 
International showed that 90 percent of Americans believe it is 
unacceptable to confine chimpanzees in government-approved cages.\15\
---------------------------------------------------------------------------
    \14\ U.S. Public Opinion of Chimpanzee Research, Support for a Ban, 
and Related Issues, Prepared for the New England Anti-Vivisection 
Society, by the Humane Research Council, 2005.
    \15\ Public Opinion Poll, Prepared for the Chimpanzee 
Collaboratory, by Zogby International, 2001.
---------------------------------------------------------------------------
    Conclusion.--We respectfully request that the following language 
appear in the House Labor, Health and Human Services, Education and 
Related Agencies Appropriations Subcommittee Report for Fiscal Year 
2007:
    ``None of these funds shall be used for the breeding of chimpanzees 
or research projects that require the breeding of chimpanzees.''
    We hope the committee will accommodate this modest request that 
will save the government substantial money, benefit chimpanzees, and 
allay some concerns of the public at large. Thank you for your 
consideration.
                                 ______
                                 
                Letter From Senator Pat Roberts, et al.
                                     Washington, DC, April 5, 2006.

Hon. Arlen Specter, Chair,
Hon. Tom Harkin, Ranking Member,
Subcommittee on Labor, HHS, and Education, Senate Committee on 
        Appropriations, Washington, DC
    Dear Chairman Specter and Ranking Member Harkin: As you begin your 
work on the fiscal year 2007 Labor, Health and Human Services, and 
Education Appropriations bill, we urge you to provide the same level of 
funding for Title VII health professional as was appropriated in fiscal 
year 2005 ($299,552,000). These programs provide direct financial 
support for health care workforce development and education. In 
addition, they are the only Federal programs designed to train 
providers in interdisciplinary setting to respond to the needs of 
special and underserved populations. They also work to increase 
minority representation in the health care workforce.
    The fiscal year 2006 Labor, Health and Human Services, Education 
Appropriations bill dramatically reduced funding for Title VII health 
professions programs, resulting in a 51 percent overall cut below 
fiscal year 2005. At a time of serious health professions shortages, 
this reduction has already had devastating effects on the country's 
neediest communities. By restoring funding to these programs to fiscal 
year 2005 levels, you will enable them to continue to improve the 
distribution, quality, and diversity of the health professions 
workforce.
    We respectfully urge you to restore funding to the Title VII 
programs in the fiscal year 2007 Labor, Health and Human Services, and 
Education appropriations bill. We greatly appreciate your consideration 
of the request.
            Sincerely,
                    Senators Pat Roberts, Jack Reed, Elizabeth Dole, 
                            Daniel K. Akaka, Susan M. Collins, Lamar 
                            Alexander, Richard Durbin, Sam Brownback, 
                            Blanche L. Lincoln, Richard G. Lugar, James 
                            M. Jeffords, Paul S. Sarbanes, Norm 
                            Coleman, Charles E. Schumer, Byron L. 
                            Dorgan, Frank R. Lautenberg, Dianne 
                            Feinstein, Mark L. Pryor, Hillary Rodham 
                            Clinton, Evan Bayh, Christopher J. Dodd, 
                            Patrick J. Leahy, John F. Kerry, Tim 
                            Johnson, Debbie Stabenow, Jon Kyl, Ken 
                            Salazar, Bill Nelson, Benjamin E. Nelson, 
                            Edward M. Kennedy, Robert Menendez, Barbara 
                            A. Mikulski, Russell D. Feingold, George V. 
                            Voinovich, Mary L. Lanorieu, Maria 
                            Cantwell, Barack Obama, Joseph I. 
                            Lieberman, Jeff Bingaman, Harry Reid, John 
                            D. Rockefeller, IV, Conrad Burns, Barbara 
                            Boxer, Mark Dayton, Lincoln Chafee, Patty 
                            Murray, Christopher S. Bond, Carl Levin, 
                            Mike DeWine, Chuck Hagel, John Warner, 
                            Lindsey Graham, Richard M. Burr, James M. 
                            Talent, Jeff Sessions, and Ron Wyden.
                                 ______
                                 
           Prepared Statement of the Spina Bifida Association

    On behalf of the more than 70,000 individuals and their families 
who are affected by Spina Bifida, the Spina Bifida Association (SBA) 
appreciates the opportunity to submit written testimony for the record 
regarding fiscal year 2007 funding for the National Spina Bifida 
Program and other related Spina Bifida initiatives. SBA is the national 
voluntary health agency working on behalf of people with Spina Bifida 
and their families through education, advocacy, research and service. 
The Association was founded in 1973 to address the needs of the Spina 
Bifida community and today serves as the representative of 56 chapters 
serving more than 125 communities nationwide. SBA stands ready to work 
with Members of Congress and other stakeholders to ensure our Nation 
takes all the steps necessary to reduce and prevent suffering from 
Spina Bifida.

                       BACKGROUND ON SPINA BIFIDA

    Spina Bifida, a neural tube defect (NTD), occurs when the spinal 
cord fails to close properly during the early stages of pregnancy, 
typically within the first few weeks of pregnancy and most often before 
the mother knows that she is pregnant. Over the course of the 
pregnancy--as the fetus grows--the spinal cord is exposed to the 
amniotic fluid which increasingly becomes toxic. It is believed that 
the exposure of the spinal cord to the toxic amniotic fluid erodes the 
spine and results in Spina Bifida. There are varying forms of Spina 
Bifida occurring from mild--with little or no noticeable disability--to 
severe--with limited movement and function. In addition, within each 
different form of Spina Bifida the effects can vary widely. 
Unfortunately, the most severe form of Spina Bifida occurs in 96 
percent of children born with this birth defect.
    The result of this neural tube defect is that most children with it 
suffer from a host of physical, psychological, and educational 
challenges--including paralysis, developmental delay, numerous 
surgeries, and living with a shunt in their skulls which seeks to 
ameliorate their condition by helping to relieve cranial pressure 
associated with spinal fluid that does not flow properly. As we have 
testified previously, the good news is that after decades of poor 
prognoses and short life expectancy, children with Spina Bifida are now 
living long enough to become adults with Spina Bifida. These gains in 
longevity principally are due to breakthroughs in research, combined 
with improvements generally in health care and treatment. However, with 
this extended life expectancy, our Nation and people with Spina Bifida 
now face new challenges--education, job training, independent living, 
health care for secondary conditions, aging concerns, among others. 
Despite these gains, individuals and families affected by Spina Bifida 
face many challenges--physical, emotional, and financial. Fortunately, 
with the advent of the National Spina Bifida Program 4 years ago, 
individuals and families affected by Spina Bifida now have a national 
resource to provide them with the support, information, and assistance 
they need and deserve.
    While the consumption of 400 micrograms of folic acid daily prior 
to becoming pregnant and throughout the first trimester of pregnancy, 
can help reduce the incidence of Spina Bifida by up to 75 percent, 
cases of Spina Bifida still occur and our Nation still must take steps 
to ensure that the tens of thousands of individuals living with Spina 
Bifida can live full, healthy, and productive lives. To ensure the 
highest quality-of-life possible, prevention interventions and 
treatment therapies must be identified, developed, and delivered to 
those in need.

                          COST OF SPINA BIFIDA

    It is important to note that the lifetime costs associated with a 
typical case of Spina Bifida--including medical care, special 
education, therapy services, and loss of earnings--are as much as $1 
million. The total societal cost of Spina Bifida is estimated to exceed 
$750 million per year, with just the Social Security Administration 
payments to individuals with Spina Bifida exceeding $82 million per 
year. Moreover, tens of millions of dollars are spent on medical care 
paid for by the Medicaid and Medicare Programs. Our Nation must do more 
to help reduce the emotional, financial, and physical toll of Spina 
Bifida on the individuals and families affected. Efforts to reduce and 
prevent suffering from Spina Bifida help to save money and save lives.

  IMPROVING QUALITY-OF-LIFE THROUGH THE NATIONAL SPINA BIFIDA PROGRAM

    SBA has worked with Members of Congress to ensure that our Nation 
is taking all the steps possible to prevent Spina Bifida and diminish 
suffering for those currently living with this condition. With 
appropriate, affordable, and high-quality medical, physical, and 
emotional care, most people born with Spina Bifida likely will have a 
normal or near normal life expectancy. Ensuring access to these 
services is essential to improving the quality-of-life for those born 
with this birth defect.
    The National Spina Bifida Program at the National Center for Birth 
Defects and Developmental Disabilities (NCBDDD) at the Centers for 
Disease Control and Prevention (CDC) works on two critical levels--to 
reduce and prevent Spina Bifida incidence and morbidity and to improve 
quality-of-life for those living with Spina Bifida. The program seeks 
to ensure that what is known by scientists is practiced and experienced 
by the 70,000 individuals and families affected by Spina Bifida. 
Moreover, the National Spina Bifida Program works to improve the 
outlook for a life challenged by this complicated birth defect--
principally identifying valuable therapies from in-utero throughout the 
lifespan and making them available and accessible to those in need.
    The National Spina Bifida Program serves as a national center for 
information and support to help ensure that individuals, families, and 
other caregivers, such as health professionals, have the most up-to-
date information about effective interventions for the myriad primary 
and secondary conditions associated with Spina Bifida. Among many other 
activities, the program helps individuals with Spina Bifida and their 
families learn how to treat and prevent secondary health problems, such 
as bladder and bowel control difficulties, learning disabilities, 
depression, latex allergy, obesity, skin breakdown and social and 
sexual issues. Children with Spina Bifida often have learning 
disabilities and may have difficulty with paying attention, expressing 
or understanding language, and grasping reading and math. All of these 
problems can be treated or prevented, but only if those affected by 
Spina Bifida--and their caregivers--are properly educated and taught 
what they need to know to maintain the highest level of health and 
well-being possible. The National Spina Bifida Program's secondary 
prevention activities represent a tangible quality-of-life difference 
to the 70,000 individuals living with Spina Bifida with the goal being 
living well with Spina Bifida.
    In fiscal year 2006, Congress folded funding for a study on folic 
acid (also known as the ``China Study'') into the National Spina Bifida 
Program and provided $5.1 million in fiscal year 2006 (a final 
allocation of $5 million after the one percent across-the-board cut) 
for this new joint program. SBA appreciates Congressional interest and 
intent in ensuring that the CDC's folic acid and Spina Bifida 
activities are coordinated. SBA maintains a strong interest in working 
with NCBDDD and Members of the subcommittee to ensure that this new 
joint program fulfills Congressional intent and that the quality-of-
life components of the National Spina Bifida Program receive adequate 
funding to support ongoing and expanded endeavors.
    SBA advocates that the National Spina Bifida Program receive $6 
million in fiscal year 2007 and that that sum be used to expand and 
continue to promote quality-of-life programs that support people with 
Spina Bifida so they can live fulfilling and productive lives. In its 
first 3 years, this program already has made a difference for our 
community and with additional resources it can expand its reach and 
provide additional assistance and hope to those with an affected loved 
one. Increasing funding for the National Spina Bifida Program will help 
ensure that our Nation continues to mount a comprehensive effort to 
prevent and reduce suffering from Spina Bifida.

                        PREVENTING SPINA BIFIDA

    While the exact cause of Spina Bifida is unknown, over the last 
decade, medical research has confirmed a link between a woman's folate 
level before pregnancy and the occurrence of Spina Bifida. Sixty 
million women are at-risk of having a child born with Spina Bifida and 
each year approximately 3,000 pregnancies in this country are affected 
by Spina Bifida, resulting in 1,500 births. As mentioned above, the 
consumption of 400 micrograms of folic acid daily prior to becoming 
pregnant and throughout the first trimester of pregnancy can help 
reduce incidence of Spina Bifida up to 75 percent. There are few public 
health challenges that our Nation can tackle and conquer by three-
fourths in such a straightforward fashion. However, we must still be 
concerned with addressing the 25 percent of Spina Bifida cases that 
cannot be prevented by folic acid consumption, as well as ensuring that 
all women of childbearing age--particularly those most at-risk for a 
Spina Bifida pregnancy--consume adequate amounts of folic acid.
    The good news is that progress has been made in convincing women of 
the importance of folic acid consumption and the need to maintain diet 
rich in folic acid. Since 1968, the CDC has led the Nation in 
monitoring birth defects and developmental disabilities, linking these 
health outcomes with maternal and/or environmental factors that 
increase risk, and identifying effective means of reducing such risks. 
Former CDC Director Jeff Koplan has stated that the agency's folic acid 
prevention campaign has reduced neural tube defect births by 20 
percent. This public health success should be celebrated, but it is 
only half of the equation as approximately 3,000 pregnancies still are 
affected by this devastating birth defect. The Nation's public 
education campaign around folic acid consumption must be enhanced and 
broadened to reach segments of the population that have yet to heed 
this call--such an investment will help ensure that as many cases of 
Spina Bifida can be prevented as possible.
    SBA works collaboratively with CDC and the March of Dimes to 
increase awareness of the benefits of folic acid, particular for those 
at elevated risk of having a baby with neural tube defects (those who 
have Spina Bifida themselves or those who have already conceived a baby 
with Spina Bifida). With additional funding in fiscal year 2007 these 
activities could be expanded to reach the broader population in need of 
these public health education, health promotion, and disease prevention 
messages. SBA advocates that Congress provide additional funding to CDC 
to allow for a particular public health education and awareness focus 
on at-risk populations (e.g. Hispanic-Latino communities) and health 
professionals who can help disseminate information about the importance 
of folic acid consumption among women of childbearing age.
    In addition to a $6 million fiscal year 2007 allocation for the 
National Spina Bifida Program, SBA supports a fiscal year 2007 
allocation of $135 million for the NCBDDD so the agency can enhance its 
programs and initiatives to prevent birth defects and developmental 
disabilities and promote health and wellness among people with 
disabilities.

        IMPROVING HEALTH CARE FOR INDIVIDUALS WITH SPINA BIFIDA

    The mission of the Agency for Healthcare Research and Quality 
(AHRQ) is to improve the outcomes and quality of health care; reduce 
its costs; improve patient safety; decrease medical errors; and broaden 
access to essential health services. The work conducted by the agency 
is vital to the evaluation of new treatments in order to ensure that 
individuals and their families living with Spina Bifida continue to 
receive the high quality health care that they need and deserve--SBA 
recommends that AHRQ receive $443 million in fiscal year 2007 so that 
it can continue to conduct follow-up efforts to evaluate Spina Bifida 
treatments, promulgate associated standards of care, and further the 
provision of evidence-based care stemming from the outcomes of the 2003 
Spina Bifida Research Conference.

         SUSTAIN AND SEIZE SPINA BIFIDA RESEARCH OPPORTUNITIES

    SBA seeks to support individuals and families affected by Spina 
Bifida, maximize the prevention of Spina Bifida, and ensure that all 
babies born with Spina Bifida have the greatest chance of survival and 
the highest quality-of-life--through the lifespan. When families 
recently diagnosed with a Spina Bifida pregnancy contact SBA, the 
organization puts them in touch with another family who has a child 
with the condition so they can learn of the joys and challenges of 
having a child with the birth defect. Unfortunately, traditionally when 
families have faced a Spina Bifida diagnosis they have had two 
difficult options. The first is to continue the pregnancy with the 
expectation of multiple surgeries for the child after birth, uncertain 
life expectancy, and many physical and developmental challenges and 
complications. The second, unfortunately, is to terminate the 
pregnancy. Fortunately, now there may be an important and effective 
third option.
    Since the late 1990s, doctors at three U.S. hospitals--Children's 
Hospital of Philadelphia, Vanderbilt University Medical Center in 
Nashville, and the University of California at San Francisco--have been 
operating before birth on fetuses diagnosed with Spina Bifida. In 2004, 
the University of North Carolina became the fourth hospital in the 
Nation to perform the in-utero operations. By closing the spinal lesion 
early in pregnancy, physicians believe they can minimize the damage 
created by fluid leaking from the spine, as well as limit by the harm 
done due to the spinal cord's contact with the amniotic fluid. Surgeons 
have found that closing the hole in the spine in this fashion before 
birth may correct breathing problems in 15 percent of the children 
receiving the procedure and may reduce the need for a shunt to drain 
fluid from the brain by between 33 percent and 50 percent.
    To determine whether or not this new procedure is safer and more 
effective than the traditional post-birth surgery to address the 
condition, the National Institute of Child Health and Human Development 
(NICHD) is conducting a large study involving the Children's Hospital 
of Philadelphia, Vanderbilt University Medical Center, and the 
University of California at San Francisco. While these three 
institutions have undertaken preliminary studies of the in-utero 
surgery technique, the overall and long-term effectiveness of this 
approach as compared to traditional therapy remains unknown. Given the 
potential for this surgery to ameliorate many of the conditions 
associated with Spina Bifida, we must do a better job of studying and 
evaluating this procedure, educating health care providers about this 
surgery as a potential option, and making information about it 
available to more families facing a Spina Bifida pregnancy.
    Additionally, the National Institute of Diabetes and Digestive and 
Kidney Diseases (NIDDK) is scheduled to host an interagency meeting in 
spring 2006 on urological complications. We are also excited to report 
that the National Institute of Neurological Disorders and Stroke 
(NINDS) has formed a trans-agency Spina Bifida Working Group. SBA looks 
forward to working with both agencies on these and other important 
Spina Bifida related initiatives.
    Our Nation has benefited immensely from our past Federal investment 
in biomedical research at the National Institutes of Health (NIH). SBA 
joins with the rest of the public health community in advocating that 
NIH receive $29.7 billion in fiscal year 2007. This funding will 
support applied and basic biomedical, psychosocial, educational, and 
rehabilitative research to improve the understanding of the etiology, 
prevention, cure and treatment of Spina Bifida and its related 
conditions. In addition, SBA urges the NIH to explore the following as 
they relate to individuals with Spina Bifida: assistive technology, in 
utero surgery, cost of care, women's and men's health, tethered spinal 
cord, hydrocephalus, latex allergies, and other related factors.

                               CONCLUSION

    SBA stands ready to work with policymakers to advance policies that 
will reduce and prevent suffering from Spina Bifida. Again, we thank 
you for the opportunity to present our views on funding for programs 
that will improve the quality-of-life for the 70,000 Americans and 
their families living with Spina Bifida and stand ready to answer any 
questions you may have.
                                 ______
                                 
           Prepared Statement of the Tuomey Healthcare System

    Mr. Chairman, and Members of the subcommittee, thank you for the 
opportunity to submit testimony regarding the need for a Bedside 
Medication Verification System and subsequently a Computerized 
Practitioner Order Entry and Clinical Decision Support System at Tuomey 
Healthcare System.
    For more than 90 years, Tuomey's growth and advancement have been 
guided by professionals who care deeply about the Sumter community and 
the individual healthcare needs of every person in it. From the small 
20-bed Sumter Hospital born out of Timothy Tuomey's gift in 1913 to a 
healthcare system of more than 1,600 employees and 266 beds, Tuomey's 
history has been one of compassion and resolve. It is propelled by a 
long-term vision for healthcare that's second to none and is enhanced 
by a deeply philanthropic mission.
    Since 2000, Tuomey has provided tens of millions of dollars in 
community services. And each year, we absorb almost $20 million in 
indigent care. Our employee base is tremendously dedicated to Sumter's 
health as well, as evidenced by their gift of close to $1 million since 
2000. Through all of this, Tuomey is committed to Sumter, and it shows 
in everything we do. In the last year, Tuomey has ranked in the 97th 
and 98th percentiles nationally in the Press Ganey customer 
satisfaction scores in the inpatient and ambulatory surgery center 
categories.
    The demand for Tuomey services will be further increased with the 
upcoming addition of approximately 850 service men and women to Shaw 
Air Force Base and the closing of the base's inpatient hospital. This 
equates to an approximate 3,000 person increase in total population to 
the Sumter community. To handle Tuomey's additional patient volume and 
to continue providing the quality care for which we are known, it is 
imperative we increase our inpatient capacity. Likewise, we must expand 
our women's and obstetrics service areas and our Emergency Department 
to meet the growing needs of this community. It is an expensive 
proposition, but one to which we are committed. It's the next step in 
our path to safeguarding this community's health.
    Plans are currently underway for the construction of a new 24-bed 
women's complex called The Tuomey Women's Center, expansion and 
enhancement of our nurseries, the addition of 22 general medical 
inpatient rooms, and the expansion of the Emergency Department. The 
total combined cost of these expansions and enhancements is $31.5 
million.
    High quality care and patient safety are the core elements of 
everything we do at Tuomey, utilizing technology where appropriate and 
cost effective. We have been a Meditech Information Systems customer 
since 1988, with virtually every department in our facility 
computerized, to include nursing documentation, radiology results, 
laboratory results and all financials. In July 2005, we went live with 
the McKesson Electronic Medical Record, which allows physicians to 
access patient information from anywhere with an internet connection, 
enhancing the timely delivery and continuity of care. However, even 
with the benefits gained from our technology, we still deal with the 
challenges of caring for sicker patients in a shorter period of time 
with limited financial resources and shortages of skilled labor. Like 
many other hospitals, a completely safe and accurate medication 
management process remains one of our most difficult challenges. In 
addition, the medication management process is one of the areas where 
technology can offer the greatest number of improvements in terms of 
patient safety and quality of care.
    In its 1999 report, ``To Err is Human: Building a Safer Health 
System,'' The Institute of Medicine (IOM) estimated that 44,000 to 
98,000 patients die each year from medical errors, of which the largest 
portion, up to one-third, has been linked to medication errors or 
adverse drug events (ADEs). A medication error can lead to increased 
charges and longer patient stays while adverse drug events can lead to 
patient injury and death. While there is a difference between 
medication errors and adverse drug events, Tuomey's goal is to avoid 
both and to consistently offer the highest quality care in the safest 
patient care environment possible.
    Medication administration safety is dependent on five basic safety 
checks: the correct patient, the correct drug, the correct dose, the 
correct route of administration and the correct time of administration. 
Any deviation from these five standards of medication administration 
practice can lead to medication errors and Adverse Drug Events. Given 
that there are now more than 17,000 brand and generic names for 
pharmaceuticals in North America and nurses are caring for sicker 
patients on shorter hospital stays, the implementation of automated 
systems to safeguard against human errors in all aspects of the 
medication administration process has reached a state of critical need 
at Tuomey.
    Currently, Tuomey is using an antiquated, yet not uncommon, system 
of medication ordering in which providers handwrite orders that are 
sent via pneumatic tube to a pharmacy location. The pharmacy staff 
deciphers the handwritten orders to the best of their human ability and 
sends the medications to the nursing staff that then rely on 
handwritten orders and the five rights of medication administration. In 
addition, the pharmacy charges the patient's account for the 
medications at the point the medications are dispensed from the 
pharmacy. The pharmacy is then responsible for crediting the patient's 
account if the medications are never taken.
    The failure rate for this type of system is staggering throughout 
the healthcare community. Physicians, pharmacists, nurses and support 
staff work long hours with fluctuating levels of stress. Experts have 
estimated that at least 38 percent of all medication errors take place 
at the bedside using manual handwritten systems like the one currently 
in use at Tuomey. There are simply too many distractions and too many 
chances for something to go wrong when completely relying on protocols 
and procedures to assure safe and accurate medication administration. 
It is important to note, though, that Tuomey has never been complacent 
with a system that puts any patient at risk. Tuomey has remained 
vigilant to the risks associated with its current medication 
administration process and has made many improvements and changes to 
the manual system to promote patient safety and accuracy.
    Unfortunately, for many years, there has not been a feasible 
alternative to the manual system. Technology and system availability 
have only recently reached a State worth investigating for true process 
improvement. Tuomey has investigated the currently available 
technologies and has identified viable solutions to improve the 
medication administration process. Bedside Medication Administration 
systems using barcode verification (BMV) and Computerized Physician 
Order Entry with Clinical Decision Support (CPOE/CDSS) have been 
identified as two systems that can greatly minimize the chance of 
errors and promote the highest quality care in the medication 
administration process.
    Bedside Medication Administration using barcode identification 
systems have consistently been shown to improve patient safety and 
patient billing in hospital sites throughout the country. The basic 
process for bar code medication administration systems begins with an 
initial positive identification of a patient by the nursing staff. 
After the initial identification, the patient is given a wristband with 
an identifying bar code. From that point forward, the patient will be 
identified via a scan of the wristband's bar code. Before administering 
any medication or performing a treatment, the patient must be 
identified to the system via the scan. By first correctly identifying 
the patient to the system, the nurse then allows the system to double 
check the other four rights before the actual administration.
    If a medication order has expired or been changed, the nurse is 
immediately alerted to avoid a possible medication error or Adverse 
Drug Event. The basic setup for the bar code medication administration 
system involves a laptop computer with a scanner linked to a hospital 
wireless network that runs the medication verification and patient 
billing systems. Accurate identification and correct order association 
assure patient safety and patient billing is accurately updated at the 
point of administration.
    Computerized Practitioner Order Entry (CPOE) and Clinical Decision 
Support System (CDSS) implementation at Tuomey will virtually eliminate 
the chance of error in the deciphering of handwritten orders and 
eliminate any need for transcription all together since providers will 
be entering all medication and treatment orders directly into the 
information system with alerts and warnings regarding allergies, 
duplications and dangerous interactions readily available. If the 
orders are accurately entered and double checked for safety, then the 
bedside point of administration system will accurately ensure the 
correctly entered orders are carried out safely and accurately as 
intended by the ordering clinicians. Nurses will ensure that all five 
standards of medication administration are correct and accurate using 
barcodes identifying both the medication and the patient.
    While Bedside Medication Verification and Computerized Practitioner 
Order Entry/Clinical Decision Support Systems are highly 
interdependent, staging of the implementations are vital to success. 
CPOE/CDSS cannot receive real-time feedback regarding medication 
administration without a Bedside Medication Verification system 
implemented and functioning. Likewise, Computerized Practitioner Order 
Entry (CPOE) and Clinical Decision Support System (CDSS) maturity lags 
behind Bedside Medication Verification due to the level of 
sophistication and logic design required. Any implementation strategy 
for Bedside Medication Verification and CPOE/CDSS at Tuomey Healthcare 
System must include plans to implement Bedside Medication Verification 
before moving to the other systems.
    In fiscal year 2007, we hope that the subcommittee will support our 
request for funding of $1.5 million in order to implement a Bedside 
Medication Verification system that will be Phase I of this entire 
project. It is our belief that we will be highly successful in this 
project and could serve as a resource and site for other health care 
organizations to learn from in enhancing the safety of all patients.
    As healthcare continues to evolve, so does Tuomey Healthcare 
System. We're here to anticipate the needs of the communities we serve, 
responding with proactive healthcare initiatives, such as the systems 
noted above. Our stable but consistent growth positions Tuomey as one 
of South Carolina's largest healthcare systems. Tuomey is committed to 
Sumter, and it shows in everything we do.
                                 ______
                                 

                     NATIONAL INSTITUTES OF HEALTH

  Prepared Statement of the American Association for Cancer Research 
                                 (AACR)

    The number of cancer deaths is falling and the number of cancer 
survivors is increasing each year. This remarkable progress has 
occurred because of the advances in cancer research, discovery, 
detection, prevention, and treatment made possible, in part, by a 
strong and steady level of funding and commitment by the Federal 
Government.
    The National Cancer Program supports an incredible array of cancer 
research programs that shows great promise for benefit to patients with 
cancer. To sustain the research momentum that has been so carefully 
built up over the past decade--and to continue to give hope to those 
with cancer--the Congress must provide sufficient resources to preserve 
the scientific infrastructure and foster new discoveries.
    The American Association for Cancer Research (AACR) stands ready to 
contribute its share to accelerate our progress against this 
devastating disease. The AACR joins with other leaders in the cancer 
community to call upon the Congress to take the following actions to 
enable these invaluable programs to continue their contributions to 
improving the lives of patients with cancer and other life-threatening 
diseases:
    (1) Provide a 5 percent increase in funding for the National 
Institutes of Health to $29.75 billion for fiscal year 2007; and
    (2) Provide a 5 percent increase in funding for the National Cancer 
Institute to $5.03 billion for fiscal year 2007.
    Early this year, it was reported that the number of cancer deaths 
every year in the United States fell for the first time in more than 70 
years. Coupled with the fact that observed cancer death rates from all 
cancers combined dropped 1.1 percent each year from 1993 to 2002, these 
persistent declines in cancer mortality rates are evidence of the 
success of the National Cancer Program and its research, prevention, 
and treatment advances.
    Among these advances are a series of new targeted cancer therapies 
that have evolved from a process of rational drug design based upon our 
expanded understanding of the genetic basis of disease. For example, 
Herceptin became the first targeted therapy for breast cancer in 1997--
it is an injectable antibody that targets and blocks the function of 
HER2 protein when it is overproduced in the body, which leads to 
cancer. In 2001, Gleevec became the first approved kinase inhibitor for 
cancer, shutting down the BCR-ABL kinase that causes chronic myeloid 
leukemia. These discoveries have led to a half-dozen other more recent 
drug approvals that are based upon these and other novel mechanisms of 
action.
    Exciting, life-saving scientific progress such as this will only 
continue if it is nurtured and sustained by an adequate level of 
Federal research investment. The American Association for Cancer 
Research (AACR) calls upon the President and the United States Congress 
to make the commitment to sustain this research momentum by increasing 
the appropriations for the National Institutes of Health (NIH) to 
$29.75 billion and the National Cancer Institute (NCI) to $5.03 billion 
for fiscal year 2007. Without such a commitment, promising research 
will be abandoned, new treatments may never come to fruition, and 
patients with cancer will lose the hope of enjoying a life beyond 
cancer.
    The AACR stands ready to contribute its share to accelerate our 
progress against this devastating disease. As AACR approaches its 
Centennial Year in 2007, with more than 24,000 members, it is well 
positioned to foster and facilitate the scientific developments that 
will underpin our forward movement in basic, translational, and 
clinical cancer research. Through its five prestigious scientific 
journals--including Cancer Research, the most frequently cited cancer 
journal in the world--AACR rapidly disseminates cutting-edge, peer-
reviewed findings throughout the medical research community. AACR's 
Annual Meeting attracts more than 16,000 scientists worldwide to cross-
disciplinary sessions led by the world's leading experts. The AACR has 
been at the forefront of the art of anticancer drug development and the 
science of cancer prevention, and originated the annual International 
Conference on Cancer Prevention Research. Through these high quality 
scientific meetings, along with prestigious awards and research 
training programs and grants, the AACR utilizes a multilayered approach 
to stimulate and foster the best science that will lead to the conquest 
of cancer.
    No single sector or entity alone can successfully tackle the 
complex set of diseases known as cancer. Academic scientists and 
clinicians have a large role to play in discovery and the translation 
of discoveries into standard clinical care. Biotechnology and 
pharmaceutical companies, with their vast research and development and 
manufacturing and distribution capabilities, are also essential for the 
smooth, efficient, and effective delivery of cancer medicines to 
hospitals and patients. Barriers or roadblocks in any aspect of the 
research, discovery, development, or delivery path will have an adverse 
impact on achieving the goal of conquering cancer and saving lives.
    Central to this multisector effort is the National Cancer Program 
and the fundamental and foundational work of the National Cancer 
Institute. For 35 years, because of the National Cancer Act, the NCI 
has spearheaded the research efforts that have led to the declining 
mortality rates we are experiencing today. The strategies underlying 
the National Cancer Program have been developed by the NCI in close 
collaboration with the cancer community. Each year the Director of the 
NCI engages in an open and transparent priority-setting process to 
develop a plan and budget proposal for the following year. It is 
reviewed by the cancer community and published each fall as The 
Nation's Investment in Cancer Research: A Plan and Budget Proposal. It 
is the definitive guide to how the NCI is using its funds and how it 
plans to spend additional funds should they become available.
    The scope and breadth of the activities in which the National 
Cancer Institute is engaged are truly remarkable. As the leader of the 
Nation's grand plan to attack cancer, the NCI must be provided with the 
resources necessary to carry out its mission on many different fronts 
and in many different ways. The five-year doubling of the budget of the 
NIH enabled the National Cancer Institute to begin to expand its 
activities into promising new areas that had been beyond its reach. 
However, since the completion of the budget doubling in 2003, 
negligible NCI budget increases (in the .5 to 2.6 percent range) and an 
actual hard budget cut in fiscal year 2006, have forced retrenchment 
and curtailing of some research.
    Our Nation's current investment in the National Cancer Institute 
supports a broad range of scientific research, infrastructure, 
communications structure, and technological advances. The AACR strongly 
supports continued and increased investments in these key areas as the 
surest way to guarantee progress against cancer. In particular, the 
AACR urges that the NCI maintain its focus on:
  --Research to understand the causes and mechanisms of cancer, 
        including continued studies into the genetic, environmental, 
        and lifestyle factors that contribute to cancer causation. This 
        research includes population studies that identify cancer 
        risks, studies of normal as well as abnormal biological 
        functioning, and research on cellular and molecular mechanisms 
        of cancer initiation, progression, and metastasis.
  --Research on new approaches to prevent or delay the onset of cancer, 
        including nutrition, vaccination, and chemoprevention. This 
        research should continue its emphasis on behavioral factors 
        that affect cancer risk--poor diet, lack of physical activity, 
        sun exposure, and tobacco use--and strategies to change these 
        behaviors.
  --Research to improve early detection and diagnosis of cancer through 
        the discovery and development of biomarkers and imaging 
        techniques. This research includes using proteomic technologies 
        to develop biomarker panels and anatomical and molecular 
        imaging techniques to detect tumors and identify metastasis, as 
        well as studying how patients accept and comply with cancer 
        screening methods.
  --Research to discover, develop, and evaluate therapeutics for 
        destroying or controlling cancer cells and metastasis. These 
        include localized therapies--such as surgery or radiotherapy; 
        systemic therapies--such as chemotherapy or vaccines; 
        molecularly targeted therapies (such as Herceptin and Gleevec) 
        directed at specific tumors or tissues; and combinations which 
        are often more effective than either therapy alone.
  --Research to improve the quality of cancer care and the quality of 
        life of cancer patients, including the development of ways to 
        measure quality, the impact of aging on quality of care, health 
        and lifestyle issues of cancer survivors, and the development 
        and application of interventions to overcome cancer health 
        disparities.
    The National Cancer Institute carries out this vast research 
portfolio through a wide variety of different vehicles and mechanisms 
in its research infrastructure. The AACR strongly favors continued and 
increased support for these areas to optimize the return on research 
dollars. In particular, the AACR recommends that the National Cancer 
Institute continue to utilize the following successful multisector 
approaches to implementing the National Cancer Program:
  --Extramural program supports independent scientists conducting 
        research in universities, teaching hospitals, and other 
        organizations outside the NIH. The largest portion of NCI 
        research funds is devoted to this program. It supports a 
        balanced portfolio of more than 7,000 research and training 
        awards, as well as grants, cooperative agreements, and 
        contracts with individual investigators, professional 
        societies, and research institutions. Peer-reviewed research 
        under this program includes genetic, epidemiological, 
        behavioral, social, applied, and surveillance research, basic 
        prevention science, cancer biomarkers, chemopreventive agent 
        development, community oncology and prevention trials, early 
        detection, nutrition science, organ system research, cancer 
        diagnostics, imaging, drug development, and biometrics, among 
        others.
    Thousands of AACR member scientists participate in and depend upon 
support from the extramural program to advance their research goals. 
Investigator-initiated scientific research is the engine driving new 
discoveries and advances in cancer research and it must remain at the 
forefront of efforts to conquer this disease. Funding for this aspect 
of the National Cancer Program must be maintained at a sufficiently 
high level to promote and advance research progress.
  --Training and Career Development to increase the number of 
        scientists who specialize in the basic or clinical biomedical 
        fields is a critical NCI function. Such investments foster the 
        development of interdisciplinary teams and ensure a growing 
        core of well trained investigators to focus on cancer.
  --Partnerships, including with other agencies, pharmaceutical 
        companies, academia, and a wide variety of other organizations, 
        are essential to leverage the limited resources of the NCI. 
        Interagency agreements with the Food and Drug Administration 
        and the Centers for Medicare and Medicaid Services have been 
        highly successful in expediting new drug development and 
        coverage for new treatments. The Academic Public Private 
        Partnership Program (AP4) supports a new way of accelerating 
        drug discovery and development through multiple partnerships.
  --Additional important means used by the National Cancer Institute to 
        advance its cancer research agenda include Cancer Centers and 
        Centers of Research Excellence at major academic and research 
        institutions across the country; Networks and Consortia, such 
        as the Early Detection Research Network; NCI-Supported Clinical 
        Trials that involve more than 12,000 investigators; Cancer 
        Surveillance through the voluminous data collected by the NCI 
        Surveillance, Epidemiology, and End Results (SEER) program; 
        Technology Development, including the cancer Biomedical 
        Informatics Grid (caBIG) platform for sharing research data; 
        and Communication, Education, and Dissemination of research 
        progress directly to and for the benefit of the public and 
        public health professionals.
    Through this wide array of effective mechanisms, the National 
Cancer Institute seeks to implement the ambitious research goals of the 
National Cancer Program. Each facet of the strategy is important and 
generates synergies with other facets to accomplish more than the 
apparent sum of the parts. Cuts to cancer research funding jeopardize 
multiple facets of the strategy and have a direct adverse impact on 
patients by delaying or halting development of promising treatments.
    To sustain the research momentum that has been so painstakingly 
built up over the past decade, the Congress must provide sufficient 
resources to preserve the current infrastructure and prevent its 
diminishment through inflation or other means. The American Association 
for Cancer Research and the cancer community, recognizing the many 
competing demands on the Federal budget, believe that, at a minimum, a 
5 percent increase for the NIH and the NCI, to $29.75 billion and $5.03 
billion respectively, will enable these valuable programs to continue 
in a strong, if not robust, way.
    To make a quantum push forward with our efforts against cancer, the 
Director of the National Cancer Institute has identified, with 
significant communitywide input, at least five additional areas and 
opportunities that the NCI is poised to exploit if the resources become 
available. By investing in these new strategic initiatives (at an 
additional cost of less than $800 million) the Congress will clearly 
demonstrate its strong commitment to making the conquest of cancer a 
national priority and a goal that is within our reach. Several of these 
areas for strategic new investments to accelerate our progress against 
cancer include:
  --Expand the Number of Cancer Centers to improve access for 
        underserved populations and extend their outreach and 
        collaboration capabilities.
  --Reengineer Cancer Clinical Trials through implementation of the 
        recommendations of the Clinical Trials Working Group.
  --Link Science and Technology using a variety of new mechanisms and 
        resources.
  --Integrate Cancer Science and encourage interdisciplinary team 
        science across the biomedical research community.
    This Nation has the most sophisticated and highly developed 
biomedical research infrastructure in the world in the National 
Institutes of Health. A significant portion of that research investment 
is directed squarely at the cancer problem. Incredible progress has 
been made in understanding this disease and in devising cutting-edge 
approaches to preventing, controlling, and eliminating it. The pace of 
this research must be maintained to continue our record of advances 
that is leading to decreased mortality and improved patient care and 
outcomes.
    The American Association for Cancer Research respectfully requests 
the Congress to support, at a minimum, a 5 percent funding increase for 
the National Institutes of Health (to $29.75 billion) and the National 
Cancer Institute (to $5.03 billion) to preserve the ability of these 
successful institutions to continue their groundbreaking work toward 
the conquest of cancer for the benefit of all of our citizens.
                                 ______
                                 
Prepared Statement of the American Association for Geriatric Psychiatry

    The American Association for Geriatric Psychiatry (AAGP) 
appreciates this opportunity to present its recommendations on issues 
related to fiscal year 2007 appropriations for mental health research 
and services. AAGP is a professional membership organization dedicated 
to promoting the mental health and well being of older Americans and 
improving the care of those with late-life mental disorders. AAGP's 
membership consists of approximately 2,000 geriatric psychiatrists as 
well as other health professionals who focus on the mental health 
problems faced by senior citizens.
    AAGP appreciates the work this subcommittee has done in recent 
years in support of funding for research and services in the area of 
mental health and aging through the National Institutes of Health (NIH) 
and the Substance Abuse and Mental Health Services Administration 
(SAMHSA). Although we generally agree with others in the mental health 
community about the importance of sustained and adequate Federal 
funding for mental health research and treatment, AAGP brings a unique 
perspective to these issues because of the elderly patient population 
served by our members.
    AAGP recognizes the Federal budget constraints that the 
subcommittee must consider in making allocations. At the same time, it 
is important to note that research dollars and better trained 
professionals can help avert a crisis in the delivery of mental health 
care to the elderly in future generations when more efficient and 
effective therapies are identified through research. In fact, the New 
England Journal of Medicine has just published an important study, 
funded by NIMH, that suggests we can significantly decrease relapse 
rates in depression--which lead to more physician visits and 
hospitalizations--by continuing these patients for longer periods on 
antidepressant medication. In addition, studies of the IMPACT model for 
treating late-life depression suggest that effective treatment of 
depression in primary care reduces the cost of general health care in 
those settings.
    Even as we note the important research being doing in the field, 
there are serious concerns, shared by AAGP and researchers, clinicians, 
and consumers that there exists a critical disparity between 
appropriations for research, training, and health services and the 
projected mental health needs of older Americans. This disparity is 
evident in the convergence of several key factors:
  --demographic projections inform us that, with the aging of the U.S. 
        population, there will be an unprecedented increase in the 
        burden of mental illness among aging persons, especially among 
        the baby boom generation;
  --this growth in the proportion of older adults and the prevalence of 
        mental illness is expected to have a major direct and indirect 
        impact on general health service use and costs;
  --despite the fact that effective treatment exists, the current 
        mental health needs of many older adults remain unmet;
  --the number of physicians being trained in geriatric mental health 
        research and clinical care is insufficient to meet current 
        needs, and this workforce shortfall is projected to become a 
        crisis as the U.S. population ages over the next decade;
  --a major gap exists between research, mental health care policy, and 
        service delivery; and
  --as funding for Federal health research has slowed across 
        disciplines, the allocation of funds for research that focuses 
        specifically on aging and mental health is disproportionately 
        low, and woefully inadequate to deal with the impending crisis 
        of mental health in older Americans.
    In this context, it is important to note actions relating to late 
life mental health addressed by the White House Conference on Aging, 
which was convened by President Bush in December 2005. Recognizing the 
current health and mental health needs of older Americans and the 
challenges awaiting as the Baby Boom generation ages, delegates placed 
mental health and geriatric health professional training issues at the 
forefront by voting them among their top 10 resolutions.

       DEMOGRAPHIC PROJECTIONS AND THE MENTAL DISORDERS OF AGING

    With the baby boom generation nearing retirement, the number of 
older Americans with mental disorders is certain to increase in the 
future. By the year 2010, there will be approximately 40 million people 
in the United States over the age of 65. Over 20 percent of those 
people will experience mental health problems. A national crisis in 
geriatric mental health care is emerging and has received recent 
attention in the medical literature. Action must be taken now to avert 
serious problems in the near future. While many different types of 
mental and behavioral disorders can occur late in life, they are not an 
inevitable part of the aging process, and continued research holds the 
promise of improving the mental health and quality of life for older 
Americans.
    The current number of health care practitioners, including 
physicians, who have training in geriatrics is inadequate. As the 
population ages, the number of older Americans experiencing mental 
problems will almost certainly increase. Since geriatric specialists 
are already in short supply, these demographic trends portend an 
intensifying shortage in the future. There must be a substantial public 
and private sector investment in geriatric education and training, with 
attention given to the importance of geriatric mental health needs. We 
will never have, nor will we need, a geriatric specialist for every 
older adult. However, without mainstreaming geriatrics into every 
aspect of medical school education and residency training, broad-based 
competence in geriatrics will never be achieved. There must be adequate 
funding to provide incentives to increase the number of academic 
geriatricians to train health professionals from a variety of 
disciplines, including geriatric medicine and geriatric psychiatry. 
This year's loss of all funding for geriatric health professions 
programs under Title VII of the Public Health Service Act is a stunning 
blow to this critical need, and AAGP urges the subcommittee to restore 
these programs.
    Current and projected economic costs of mental disorders alone are 
staggering. It is estimated that total costs associated with the care 
of patients with Alzheimer's disease is over $100 billion per year in 
the United States. Psychiatric symptoms (including depression, 
agitation, and psychotic symptoms) affect 30 to 40 percent of people 
with Alzheimer's and are associated with increased hospitalization, 
nursing home placement, and family burden. These psychiatric symptoms, 
associated with Alzheimer's disease, can increase the cost of treating 
these patients by more than 20 percent. Although NIA has supported 
extensive research on the cause and treatment of Alzheimer's, treatment 
of these behavioral and psychiatric symptoms has been neglected and 
should be supported through NIMH.
    Depression is another example of a common problem among older 
persons. Of the approximately 32 million Americans who have attained 
age 65, about 5 million suffer from depression, resulting in increased 
disability, general health care utilization, and increased risk of 
suicide. Depression is associated with poorer health outcomes and 
higher health care costs. Co-morbid depression with other medical 
conditions affects a greater use and cost of medications as well as 
increased use of health services (e.g., medical outpatient visits, 
emergency visits, and hospitalizations). For example, individuals with 
depression are admitted to the emergency room for hypertension, 
arthritis, and ulcers at nearly twice the rate of those without 
depression. Those individuals with depression are more likely to be 
hospitalized for hypertension, arthritis, and ulcers than those without 
depression. And, those with depression experience almost twice the 
number of medical visits for hypertension, arthritis and ulcers than 
those without depression. Finally, the cost of prescriptions and number 
of prescriptions for hypertension, arthritis, and ulcers were more than 
twice than those without depression.
    Older adults have the highest rate of suicide rate compared to any 
other age group. Comprising only 13 percent of the U.S. population, 
individuals age 65 and older account for 19 percent of all suicides. 
The suicide rate for those 85 and older is twice the national average. 
More than half of older persons who commit suicide visited their 
primary care physician in the prior month--a truly stunning statistic.

                  NATIONAL INSTITUTE OF MENTAL HEALTH

    In his fiscal year 2007 budget, the President proposed a decrease 
in funding for the National Institutes of Health (NIH), for the first 
time in 30 years. This decline in funding is likely to have a 
devastating impact on the ability of NIH to sustain the ongoing, multi-
year research grants that have been initiated in recent years.
    AAGP would like to call to the subcommittee's attention the fact 
that, even in the years in which funding was increased for NIH and 
NIMH, these increases did not always translate into comparable 
increases in funding that specifically address problems of older 
adults. Data supplied to AAGP by NIMH indicates that while extramural 
research grants by NIMH increased 59 percent during the five-year 
period from fiscal year 1995 through fiscal year 2000 (from 
$485,140,000 in fiscal year 1995 to $771,765,000 in fiscal year 2000), 
NIMH grants for aging research increased at less than half that rate: 
only 27.2 percent during the same period (from $46,989,000 to 
$59,771,000). Furthermore, despite the fact that over the past 5 years, 
Congress, through committee report language, has specifically urged 
NIMH to increase research grant funding devoted to older adults, this 
has not occurred.
    AAGP is pleased that NIMH has recently renewed its emphasis on 
mental disorders among the elderly, and commends the recent creation of 
a new Aging Treatment and Prevention Intervention Research Branch at 
NIMH. AAGP would like the scope of this Branch increased into a 
comprehensive aging Branch that is responsible for all facets of 
clinical research, including translational, interventions, and disease-
based psychopathology. The Branch should also be given adequate 
resources to fulfill its primary mission within NIMH.
    In addition to supporting research activities at NIMH, AAGP 
supports increased funding for research related to geriatric mental 
health at the other institutes of NIH that address issues relevant to 
mental health and aging, including the National Institute of Aging 
(NIA), the National Institute on Alcohol Abuse and Alcoholism (NIAAA), 
the National Institute on Drug Abuse (NIDA), and the National Institute 
of Neurological Disorders and Stroke.

                   CENTER FOR MENTAL HEALTH SERVICES

    It is also critical that there be adequate funding for the mental 
health initiatives under the jurisdiction of the Center for Mental 
Health Services (CMHS) within SAMHSA. While research is of critical 
importance to a better future, the patients of today must also receive 
appropriate treatment for their mental health problems. SAMHSA provides 
funding to State and local mental health departments, which in turn 
provide community-based mental health services to Americans of all 
ages, without regard to the ability to pay. AAGP was pleased that the 
final budgets for the last 5 years have included $5 million for 
evidence-based mental health outreach and treatment to the elderly. 
AAGP worked with members of this subcommittee and its House counterpart 
on this initiative, which is a very important program for addressing 
the mental health needs of the Nation's senior citizens. Increasing 
this mental health outreach and treatment program must be a top 
priority, as it is the only Federally funded services program dedicated 
specifically to the mental health care of older adults.
    The greatest challenge for the future of mental health care for 
older Americans is to bridge the gap between scientific knowledge and 
clinical practice in the community, and to translate research into 
patient care. Adequate funding for this geriatric mental health 
services initiative is essential to disseminate and implement evidence-
based practices in routine clinical settings across the States. 
Consequently, we would urge that the $5 million for mental health 
outreach and treatment for the elderly included in the CMHS budget for 
fiscal year 2005 be increased to $20 million for fiscal year 2006. Of 
that $20 million appropriation, AAGP believes that $10 million should 
be allocated to a National Evidence-Based Practices Program, which will 
disseminate and implement evidence-based mental health practices for 
older persons in usual care settings in the community. This program 
will provide the foundation for a longer-term national effort that will 
have a direct effect on the well-being and mental health of older 
Americans.
    The Community Mental Health Services Block Grant Program requires 
States and territories to include an annual plan for providing 
comprehensive community mental health services to adults with a serious 
mental illness and children with a serious emotional disturbance. 
Experience has demonstrated that States do not make adequate provisions 
for older adults. AAGP recommends that SAMHSA require these plans to 
include specific provisions for mental health services for older 
adults.

              HEALTH RESOURCES AND SERVICES ADMINISTRATION

    Despite growing evidence of the need for more geriatric specialists 
to care for the nation's elderly population, a critical shortage 
persists. For fiscal year 2006, the Congress inexplicably eliminated 
all funding for the geriatric health professions program under Title 
VII of the Public Health Service Act. The loss of these programs could 
have a disastrous impact on physician workforce development over the 
next decade, with dangerous consequences for the growing population of 
older adults who will not have access to appropriate specialized care. 
The geriatric health professions program supports three important 
initiatives. The Geriatric Faculty Fellowship trains faculty in 
geriatric medicine, dentistry, and psychiatry. The Geriatric Academic 
Career Award program encourages newly trained geriatric specialists to 
move into academic medicine. The Geriatric Education Center (GEC) 
program provides grants to support collaborative arrangements that 
provide training in the diagnosis, treatment, and prevention of 
disease. In fiscal year 2005, these programs were funded at $31.5 
million, but, while they were funded in the Senate Appropriations bill 
for fiscal year 2006, the final legislation followed the House version, 
which eliminated funding for them. AAGP urges the subcommittee to 
restore funding to this program at fiscal year 2005 levels.
    The loss of these programs, just as the massive Baby Boomer 
generation are entering late life, will have a devastating effect on 
the Nation's ability to provide the kind of health care that will allow 
these seniors to be independent and productive as they age.

                               CONCLUSION

    Based on AAGP's assessment of the current need and future 
challenges of late life mental disorders, we submit the following 
fiscal year 2007 funding recommendations:
    1. The current rate of funding for aging grants at NIMH and CMHS is 
inadequate and should be increased to at least three times their 
current funding levels. In addition, the substantial projected increase 
in mental disorders in our aging population should be reflected in the 
budget process in terms of dollar amount of grants and absolute number 
of new grants.
    2. To help the country's elderly access necessary mental health 
care, previous years' funding of $5 million for evidence-based mental 
health outreach and treatment for the elderly within CMHS must be 
increased to $20 million.
    3. Funding for the geriatric health professions program under Title 
VII of the Public Health Service Act should be restored to fiscal year 
2005 levels.
    4. Both NIMH and CMHS must support adequate infrastructure and 
funding within both NIMH and CMHS to develop initiatives in aging 
research, to monitor the number and quality of applicants for aging 
research grants, to promote funding of meritorious projects, and to 
manage those grant portfolios.
    5. The scope of the recently formed Aging Treatment and Prevention 
Intervention Research Branch at NIMH should be increased to include all 
relevant clinical research, including translational, interventions, and 
disease-based psychopathology, and must receive NIMH's full support so 
it may fulfill its primary mission.
    AAGP looks forward to working with the members of this subcommittee 
and others in Congress to establish geriatric mental health research 
and services as a priority at appropriate agencies within the 
Department of Health and Human Services.
                                 ______
                                 
    Prepared Statement of the American Association of Immunologists

    The American Association of Immunologists (``AAI'') is pleased to 
have this opportunity to submit its views on fiscal year 2007 funding 
for the National Institutes of Health (NIH). AAI would like to thank 
the members of the subcommittee for their strong support for biomedical 
research, and in particular, express our great appreciation to the 
chairman, Senator Specter, and Ranking Member, Senator Harkin, for 
their extraordinary leadership and dedication to advancing biomedical 
research.
    The AAI is a not-for profit professional society representing more 
than 6,500 research scientists and physicians who are the world's 
leading experts on the immune system. While our members work in 
academia, government, and industry, most are among the more than 
200,000 research personnel affiliated with more than 3,000 institutions 
who depend on NIH funding to support their work.\1\ With approximately 
84 percent of NIH funds awarded to these individuals and institutions, 
NIH's funding level has a huge impact both on the advancement of 
biomedical research and on the local, State, and national economies.
---------------------------------------------------------------------------
    \1\ National Institutes of Health Fiscal Year 2007 Performance 
Budget Overview, pp.1-2. Many AAI members are medical school professors 
and researchers who receive grants from NIH, and in particular from the 
National Institute of Allergy and Infectious Diseases (NIAID) and the 
National Cancer Institute (NCI) (as well as other NIH Institutes and 
Centers), to support their research endeavors.
---------------------------------------------------------------------------
                      THE IMPORTANCE OF IMMUNOLOGY

    Immunological research is crucial in a world increasingly at risk 
from infectious agents and chronic diseases.\2\ Basic research on the 
immune system provides a foundation for the development of diagnostics, 
vaccines, and therapeutics. Current efforts are focused on preventing 
and treating diseases caused by natural infectious agents, including 
influenza and avian flu, SARS, West Nile Virus, tuberculosis, and AIDS, 
as well as those that may be modified for use as agents of 
bioterrorism, including plague, smallpox, and anthrax. In addition, 
basic immunological research continues to be crucial in the development 
of increasingly effective approaches for treating chronic diseases, 
including cancer, autoimmune diseases, inflammatory disorders, and 
immunodeficiencies.
---------------------------------------------------------------------------
    \2\ Immunologists depend heavily on the use of animal models in 
their research. Without animal experimentation, theories about immune 
system function and treatments that might cure or prevent disease would 
have to be tested first on human subjects, something our society--and 
our scientists--would never countenance. Despite the clear necessity 
for animal research, we are experiencing both increasing regulatory 
burden in animal experimentation (eroding the return on NIH's 
investment), and threats from people and organizations that oppose such 
research. The legal and illegal methods used by some groups to further 
an animal-rights/anti-medical research agenda are diverting precious 
resources from our work, threatening the personal safety and security 
of scientists, and delaying the progress of important research now 
underway.
---------------------------------------------------------------------------
    The immune system works by recognizing and attacking ``foreign 
invaders'' (i.e., bacteria and viruses) inside the body. It also plays 
an important role in controlling the growth of tumor cells. The immune 
system can protect its host (human or animal) from illness or disease 
either entirely--by attacking and destroying the virus, bacterium, or 
tumor cell--or partially, resulting in a less serious illness. But even 
a healthy immune system cannot completely protect us from all threats 
that might cause disease. Moreover, the immune system also has a ``dark 
side'': it can lead to the rejection of transplanted organs or bone 
marrow and--if it is working improperly--can allow the body to attack 
itself instead of an invader, resulting in an ``auto-immune'' disease 
(e.g., Type 1 diabetes, multiple sclerosis, rheumatoid arthritis).
    Recent advances in immunology have allowed for revolutionary 
treatments. For example, therapeutic substances called ``biologics'' 
have provided new, effective treatments for painful, debilitating and 
life-threatening diseases such as rheumatoid arthritis, inflammatory 
diseases, and cancer. Biologics that use modified human antibodies and 
cell receptors specifically target the substance (TNF) that causes 
joint destruction in rheumatoid arthritis, and the painful symptoms of 
psoriasis, and ankylosing spondylitis. An engineered antibody 
(herceptin) is being used to control the reoccurrence of breast cancer; 
resulting in a two-fold reduction in reoccurrence. Another monoclonal 
antibody and human protein--CTLA4Ig--has been dramatically effective in 
clinical trials treating prostate cancer and melanoma as well as 
showing promise as a treatment for lupus, arthritis, multiple 
sclerosis, and organ transplant rejection.
    Immunologists have also focused on improved approaches to vaccine 
development, including a vaccine for Hemophilius influenza type b. This 
vaccine has reduced the incidence of pediatric meningitis in the United 
States from approximately 20,000 to 200 cases per year. Our 
understanding of what makes an efficacious vaccine will be critical as 
we face future pandemics, be they natural, like avian flu, or altered 
pathogens that could be used for bioterrorism, like missilized anthrax.
    None of these advances could have been made without substantial 
public investment in basic immunological research. But even as we make 
huge strides, new threats emerge: immunologists are working feverishly 
to defend against bird flu and potential bioterrorism pathogens.

           THE NIH BUDGET: TROUBLE IN THE POST-DOUBLING YEARS

    AAI is very grateful to this subcommittee and the Congress for 
doubling the NIH budget from fiscal year 1998 to fiscal year 2003. This 
``doubling'' represented an unprecedented commitment by the Federal 
Government to preventing, treating, and curing disease, and has allowed 
scientists to begin new, cutting edge research made possible by recent 
advances in sequencing the genomes of humans, model organisms, and 
microbial pathogens that cause human and animal diseases.
    But scientific research takes time, and the doubling of the NIH 
budget will have been for naught if we are unable to complete ongoing 
studies or retain trained personnel. Indeed, the doubling has already 
been eroded. Since 2003, the annual increases in the NIH budget have 
not kept pace with biomedical research inflation.\3\ Moreover, the 
President's fiscal year 2007 ``flat'' budget would result in an 
effective decrease in the NIH budget, only the second time in 36 years 
that the NIH budget has been reduced. This would have a devastating 
effect:
---------------------------------------------------------------------------
    \3\ NIH funding increases/decreases since the doubling period ended 
[fiscal year 2004 (3.03 percent), fiscal year 2005 (2.18 percent) and 
fiscal year 2006 (-.12 percent)] have all been below the Biomedical 
Research and Development Price Index (``BRDPI''), a U.S. Department of 
Commerce (``DOC'') estimate of the cost of inflation for biomedical 
research. The BRDPI was developed by the DOC's Bureau of Economic 
Analysis under an agreement with NIH and is updated annually. It 
indicates how much the NIH budget must increase to maintain purchasing 
power. Projections for future years are prepared by the NIH Office of 
Science Policy.
---------------------------------------------------------------------------
    1. Key NIH Institutes could be forced to drop paylines even lower 
than the current, far too low 10-14 percent (significantly below the 
approximately 22 percent funded during the doubling); \4\
---------------------------------------------------------------------------
    \4\ AAI analyzed paylines of key NIH Institutes from fiscal year 
2000-fiscal year 2002; see www.nih.gov.
---------------------------------------------------------------------------
    2. There would be no inflationary increases for direct, recurring 
costs in non-competing Research Project Grants (RPGs), undermining 
NIH's fiscal year 2007 goal to ``preserve to the greatest extent 
possible the ability of scientists to obtain individual support for 
their research ideas.'' National Institutes of Health Summary of the 
Fiscal Year 2007 President's Budget February 6, 2006, p.3;
    3. It would have rapid, adverse repercussions on the future of the 
research enterprise. Our brightest young people will be deterred from 
pursuing biomedical research careers if their chances of receiving an 
NIH grant become even lower. If we cannot attract and retain the best 
young minds, the United States will lose its preeminence in science and 
technology to nations--including India, Singapore, China, and Korea--
that are investing aggressively to compete.
    4. It would not permit increases in already inadequate stipends to 
pre- and post-doctoral fellows, and will undermine efforts to attract 
excellent scientists to NIH and to academia.

                      PANDEMIC INFLUENZA/INFLUENZA

    Influenza leads to more than 200,000 hospitalizations and about 
36,000 deaths nationwide in an average year. Pandemic influenza could 
cause millions of deaths and hospitalizations. Despite these very real 
threats, the President's fiscal year 2007 NIH Budget includes an 
increase of only $17 million to support specific research initiatives 
focused on pandemic influenza, bringing total NIH spending on influenza 
to approximately $199 million (about $35 million over fiscal year 
2006).
    The vast majority of funds (more than $3 billion) appropriated to 
date under the Department of Health and Human Services Pandemic 
Influenza Preparedness Plan have been devoted to other pandemic 
influenza related activities (including production/procurement of 
vaccines/antivirals). While these public health efforts are extremely 
important, it is essential to realize that any existing pathogen that 
could cause influenza or pandemic influenza (e.g., bird flu) can 
mutate, rendering existing countermeasures ineffective. Since new 
influenza strains can quickly emerge, research to identify new 
pathogens, understand the immune response, and develop tools for 
protecting against the pathogen should never take a back seat to other 
pandemic influenza-related activities. The need for this research 
supports AAI's request for an increased budget for NIH.

                          BIODEFENSE RESEARCH

    AAI supports the President's request for $1.891 billion for 
biodefense research, an increase of 6.2 percent over fiscal year 2006. 
NIH's fiscal year 2007 biodefense research priorities include 
continuing work on developing vaccines and treatments for anthrax, 
smallpox, plague, tularemia, hemorrhagic fevers, and botulinum toxin.
    NIH plans to direct $160 million to an Advanced Development Fund 
(``ADF'') within the Office of the NIH Director to ``support efforts to 
work with academia and industry to develop candidate countermeasures 
from the point of Investigation New Drug Application (INDA) to the 
level that these candidate countermeasures could be eligible for 
acquisition by Project Bioshield.'' AAI urges that the NIH Director 
work closely with the NIAID Director to ensure that the ADF focuses on 
NIH's traditional expertise in basic and translational research and not 
on activities relevant to commercial development or the manufacturing 
of a product.
    NIH also plans to spend $25 million to construct additional high 
containment laboratories at biosafety level (BSL) 3 and to renovate 
existing labs to meet current BSL-3 standards. (BSL-3 labs are 
necessary for the safe conduct of research on dangerous and infectious 
pathogens.) AAI recommends that these funds be used first for the 
renovation of existing labs; the construction of new labs may not be 
necessary with the limited research funding that may be available this 
year.

                         ADMINISTRATIVE ISSUES

1. Office of Portfolio Analysis and Strategic Initiatives
    AAI supports the newly formed Office of Portfolio Analysis and 
Strategic Initiatives (OPASI) as a way of better managing and analyzing 
NIH's portfolio. While we understand the need for a ``Common Fund'' to 
support OPASI, we believe that, in this difficult fiscal climate, such 
a fund should be limited and should grow no faster than the overall NIH 
budget.

2. Research, Management and Support (RM&S)
    The President's fiscal year 2007 budget proposal for Research, 
Management and Services (RM&S), which supports the management, 
monitoring, and oversight of intramural and extramural research 
activities (including NIH's highly regarded peer review process), 
includes an increase of $14 million, or 1.3 percent. AAI supports an 
appropriate increase in the RM&S budget to ensure that it is sufficient 
(1) to enable NIH to supervise a portfolio of increasing size and 
complexity and (2) to ensure that NIH funds are well and properly 
spent.

3. Outsourcing
    AAI continues to be concerned about the ``outsourcing'' of NIH 
jobs. While certain NIH jobs may be appropriate for such an approach, 
it should not be applied to program administration staff, many of whom 
are highly experienced and have historical knowledge and understanding 
of NIH programs and policies. Such outsourcing would result in the loss 
of a dedicated and capable workforce and reduce efficiency in the long 
run.

AAI'S RECOMMENDED BUDGET INCREASE FOR FISCAL YEAR 2007: 5 PERCENT (1.2 
                   PERCENT ABOVE PROJECTED INFLATION)

    AAI strongly believes that we must increase the NIH budget now in 
order to capitalize on important advances that have resulted from the 
doubling. We urge this subcommittee to increase the NIH budget by 5 
percent ($1.4 billion) in fiscal year 2007, for a total budget of 
$29.75 billion. This increase, which is only 1.2 percent above the 
projected rate of biomedical research inflation, would enable 
researchers to capitalize on important advances that have resulted from 
the doubling, leading to increased translational and clinical 
applications. It would also assist efforts to attract and retain bright 
young American scientists to research careers.

                     THE EFFECTIVE USE OF NIH FUNDS

    While AAI advocates a 5 percent increase in NIH funding, we agree 
that NIH should use its existing funds as effectively as possible. To 
that end, we recommend the following:

(1) The ``NIH Roadmap for Biomedical Research'' (``NIH Roadmap'')
    AAI notes that the President's fiscal year 2007 budget request for 
the NIH Roadmap has grown to $443 million, an increase of $113 million 
over fiscal year 2006. While AAI supports this effort to fund 
multidisciplinary, interdisciplinary research and agrees that such 
research is an important part of biomedical research in the 21st 
century, we recommend that funds allocated to the NIH Roadmap not grow 
faster than the overall NIH budget and that all Roadmap funds, 
including the Director's Pioneer Awards, be awarded through a rigorous 
peer review process.

(2) NIH ``Enhanced Access to Scientific Publications'' Policy
    AAI recommends that NIH partner with not-for-profit scientific 
publishers to provide enhanced public access to NIH-funded research 
results, rather than continuing an expensive effort to publish 
manuscripts itself. In this era of limited funds, NIH should work with 
these willing partners to ensure that its budget is used to support and 
advance research and not to duplicate services already provided by the 
private sector. AAI urges the subcommittee to support efforts underway 
between NIH and the not-for-profit scientific publishing community to 
develop a policy that will enhance public access while addressing the 
concerns of publishers.

(3) Peer review and the independence of science
    Millions of lives--as well as the prudent use of taxpayer dollars--
depend on government officials receiving--and taking--the very best and 
most independent scientific advice available. We urge this subcommittee 
to provide oversight which ensures that funds expended enhance the 
ability of scientists to provide independent scientific advice 
(particularly on government scientific advisory panels) and preserve 
independent peer review (including ensuring the review of scientific 
research results by peers through robust, independent scientific 
journals).

                               CONCLUSION

    AAI greatly appreciates this opportunity to testify and thanks the 
members of this subcommittee for your strong support for biomedical 
research, the NIH, and the scientists who devote their lives to 
preventing, treating, and curing disease. We look forward to working 
with you and hope that you will contact me or AAI if you have any 
questions or if we can be of assistance.
                                 ______
                                 
  Prepared Statement of the American Association of Nurse Anesthetists

                                 FISCAL YEAR 2007 APPROPRIATIONS REQUEST SUMMARY
----------------------------------------------------------------------------------------------------------------
                                           Fiscal year 2006         Fiscal year 2007      AANA fiscal year 2007
                                                actual                   budget                  request
----------------------------------------------------------------------------------------------------------------
HHS/HRSA/BHPr Title VIII Advanced      Awaiting grant           Grant allocations not    $4 million for nurse
 Education Nursing, Nurse Anesthetist   allocations.             specified.               anesthesia education
 Education Reserve.                    $3.5 million fiscal                               $65 million for
                                        year 2005.                                        advanced education
                                                                                          nursing
Title VIII HRSA BHPr Nursing           $151,191,000             $150,000,000             $175,000,000
 Education Programs.
----------------------------------------------------------------------------------------------------------------

    The AANA is the professional association for more than 34,000 
Certified Registered Nurse Anesthetists (CRNAs) and student nurse 
anesthetists representing over 90 percent of the nurse anesthetists in 
the United States. Today, CRNAs are directly involved in approximately 
65 percent of all anesthetics given to patients each year in the United 
States. CRNA services include administering the anesthetic, monitoring 
the patient's vital signs, staying with the patient throughout the 
surgery, as well as providing acute and chronic pain management 
services. CRNAs provide anesthesia for a wide variety of surgical cases 
and are the sole anesthesia providers in almost 70 percent of rural 
hospitals, affording these medical facilities obstetrical, surgical, 
and trauma stabilization, and pain management capabilities. CRNAs work 
in every setting in which anesthesia is delivered including hospital 
surgical suites and obstetrical delivery rooms, ambulatory surgical 
centers (ASCs), pain management units and the offices of dentists, 
podiatrists and plastic surgeons.
    Nurse anesthetists are experienced and highly trained anesthesia 
professionals whose record of patient safety in the field of anesthesia 
was bolstered by the Institute of Medicine report that found in 2000, 
that anesthesia is 50 times safer than 20 years previous. (Kohn L., 
Corrigan J., Donaldson M., ed. To Err is Human. Institute of Medicine, 
National Academy Press, Washington DC, 2000.) Nurse anesthetists 
continue to set for themselves the most rigorous continuing education 
and re-certification requirements in the field of anesthesia. Relative 
anesthesia patient safety outcomes are comparable among nurse 
anesthetists and anesthesiologists, with Pine having recently 
concluded, ``the type of anesthesia provider does not affect inpatient 
surgical mortality.'' (Pine, Michael MD et al. Surgical mortality and 
type of anesthesia provider. Journal of American Association of Nurse 
Anesthetists. Vol. 71, No. 2, p. 109-116. April 2003.) In addition, a 
recent AANA workforce study's data showed that CRNAs and 
anesthesiologists are substitutes in the production of surgeries. 
Through continual improvements in research, education, and practice, 
nurse anesthetists are vigilant in their efforts to ensure patient 
safety.
    CRNAs provide the lion's share of the anesthesia care required by 
our U.S. Armed Forces through active duty and the reserves, from here 
at home to the leading edge of the field of battle. In May 2003, at the 
beginning of ``Operation Iraqi Freedom'' 364 CRNAs were deployed to the 
Middle East to ensure military medical readiness capabilities. For 
decades, CRNAs have staffed ships, remote U.S. military bases, and 
forward surgical teams without physician anesthesiologist support.

      IMPORTANCE OF TITLE VIII NURSE ANESTHESIA EDUCATION FUNDING

    The nurse anesthesia profession's chief request of the subcommittee 
is for $4 million to be reserved for nurse anesthesia education and $65 
million for advanced education nursing from the Title VIII program. 
This sustained funding is justified by two facts. First, there is a 12 
percent vacancy rate of nurse anesthetists in the United States 
impacting people's healthcare. And second, the Title VIII program, 
which has been strongly supported by members of this subcommittee in 
the past, is an effective means to help address the nurse anesthesia 
workforce demand. This demand for CRNAs is something that the nurse 
anesthesia profession addresses every day with success, and with the 
critical assistance of Federal funding through HHS' Title VIII 
appropriation.
    The increase in funding for advanced education nursing from $58 
million to $65 million is necessary to meet the continuing demand for 
nursing faculty and other advanced education nursing services 
throughout the United States. Only a limited number of new programs and 
traineeships can be funded each year at the current funding levels. The 
program provides for competitive grants and contracts to meet the costs 
of projects that support the enhancement of advanced nursing education 
and practice and traineeships for individuals in advanced nursing 
education programs. This funding is critical to the efforts to meet the 
nursing workforce needs of Americans who need healthcare.
    In 2003, the AANA conducted a nurse anesthesia workforce study that 
concluded a 12 percent vacancy rate in hospitals for CRNAs, and a lower 
vacancy rate in ambulatory surgical centers. The supply has increased 
in recent years, stimulated by increases in the number of CRNAs 
trained. However, these increases had not been enough to offset the 
number of retiring CRNAs. This trend, established in 2003, requires a 
continuous growth in the number of nurse anesthesia graduates to fill 
the vacancy rate. This is compounded by the rising number of Medicare-
eligible Americans, from about 34 million today to more than 40 million 
in 2010, who will require the care that CRNAs provide.
    The problem is not that our 99 accredited programs of nurse 
anesthesia are failing to attract qualified applicants; it is that the 
programs are full. Each CRNA program continues to turn away qualified 
applicants--bachelor's educated registered nurses who had spent at 
least 1 year serving in an acute care environment. These CRNA schools 
are located all across the country including the following:

------------------------------------------------------------------------
                                                           Number of
                                                        accredited nurse
                        State                              anesthesia
                                                            programs
------------------------------------------------------------------------
PA...................................................                 12
FL...................................................                  6
OH...................................................                  5
TX...................................................                  5
IL...................................................                  4
NY...................................................                  4
CA...................................................                  3
CT...................................................                  3
MD...................................................                  3
RI...................................................                  2
WI...................................................                  1
------------------------------------------------------------------------

    Recognizing the importance of nurse anesthetists to quality 
healthcare, the AANA has been working with the 99 accredited programs 
of nurse anesthesia to increase the number of qualified graduates. In 
addition, the AANA has worked with nursing and allied health deans to 
develop new CRNA programs.
    The Council on Certification of Nurse Anesthetists (CCNA) reports 
that in 1999, our schools produced 948 new graduates. In 2005, that 
number had increased to 1,790, an 89 percent increase in just 5 years. 
This growth is expected to continue. The CCNA projects CRNA programs to 
produce over 1,900 graduates in 2006.
    To truly meet the nurse anesthesia workforce challenge, the 
capacity and number of CRNA schools must continue to expand. With the 
help of competitively awarded grants supported by Title VIII funding, 
the nurse anesthesia profession is making significant progress, 
expanding both the number of clinical practice sites and the number of 
graduates.
    The AANA is pleased to report that this progress is extremely cost-
effective from the standpoint of Federal funding. Anesthesia can be 
provided by nurse anesthetists, physician anesthesiologists, or by 
CRNAs and anesthesiologists working together. As mentioned earlier, it 
has been confirmed, ``the type of anesthesia provider does not affect 
inpatient surgical mortality.'' Yet, for what it costs to train just 
one anesthesiologist, several CRNAs may be educated to provide the same 
service with the same optimum level of safety. This represents a 
significant educational cost/benefit for supporting CRNA educational 
programs with Federal dollars vs. supporting other models of anesthesia 
education.
    To further demonstrate the effectiveness of the $3 million Title 
VIII investment in nurse anesthesia education, the AANA surveyed its 
CRNA program directors in 2003 to gauge the impact of the Title VIII 
funding. Of the eleven schools that had reported receiving competitive 
Title VIII Nurse Education and Practice Grants funding from 1998 to 
2003, the programs indicated an average increase of at least 15 CRNAs 
graduated per year. They also reported on average more than doubling 
their number of graduates, who provide care to patients during and 
following their education. Moreover, they reported producing additional 
CRNAs that went to serve in rural or medically underserved areas. Under 
both of these circumstances, an increased number of student nurse 
anesthetists and CRNAs are providing healthcare to the people of 
medically underserved America.
    We believe it is important for the subcommittee to allocate $4 
million for nurse anesthesia education for several reasons. First, as 
this testimony has documented, the funding is cost-effective and well 
needed. Second, the Title VIII authorization previously providing such 
a reserve expired in September 2002. Third, this particular funding is 
important because nurse anesthesia for rural and medically underserved 
America is not affected by increases in the budget for the National 
Health Service Corps and community health centers, since those 
initiatives are for delivering primary and not surgical healthcare. 
Lastly, this funding meets an overall objective to increase access to 
quality healthcare in medically underserved America.

       TITLE VIII FUNDING FOR STRENGTHENING THE NURSING WORKFORCE

    The AANA joins a growing coalition of nursing organizations and 
others in support of the subcommittee providing a total of $175 million 
in fiscal year 2007 for nursing shortage relief through Title VIII. 
This amount is approximately $25 million over the fiscal year 2005 
level and over the President's fiscal year 2007 budget.
    Every district in America is familiar with the importance of 
nursing. The AANA is appreciative of the leadership of the subcommittee 
and the congressional support for the $5 million increase over the 
President's request in fiscal year 2005 for nurse education funding.
    America spends more than $2 trillion on healthcare this year, paid 
by private and public sources. About $298 billion accounted for 
Medicare outlays in 2005. Medicare directs about $8.7 billion of that 
to fund direct and indirect GME, with some 99 percent of that funding 
helping to educate physicians and allied health professionals, and 
about 1 percent to help educate nurses. For every present and future 
healthcare patient, Congress must put some focus on nurses and nurse 
anesthesia care.
    To ensure that America has access to nurse anesthesia care when 
needed, a sustained investment from Congress is necessary especially 
for the provision of services in rural and medically underserved 
America. Quality anesthesia care provided by CRNAs saves lives, 
promotes quality of life, and makes fiscal sense. This Federal support 
for nurse education will improve patient access to quality services and 
strengthen the Nation's healthcare delivery system.
    Thank you.
                                 ______
                                 
        Prepared Statement of the American College of Cardiology

    The American College of Cardiology appreciates the opportunity to 
provide the subcommittee with recommendations for fiscal year 2007 
funding for life-saving cardiovascular research and education.
    The ACC is a 33,000 member non-profit professional medical society 
and teaching institution whose purpose is to foster optimal 
cardiovascular care and disease prevention through professional 
education, promotion of research, and leadership in the development of 
standards and formulation of health care policy.
    Heart disease is the leading cause of death for both women and men 
in the United States, killing more than 900,000 Americans each year. 
More than 70 million Americans live with some form of heart disease. 
The economic impact of cardiovascular disease on the U.S. health care 
system continues to grow as the population ages. In 2005, heart disease 
and stroke were projected to cost the Nation $393 billion, including 
health care services, medications, and lost productivity.
    As the premier cardiovascular society, the ACC supports a strong 
Federal investment in research and public education that addresses the 
prevention, detection and treatment of cardiovascular disease. Current 
Federal research is providing breakthrough advances that fundamentally 
change our understanding of cardiovascular disease, leading to more 
effective treatments, decreased costs and increased quality of life for 
patients.
    For instance, a study published in the February 2006 issue of the 
Journal of the American College of Cardiology yielded important 
findings for women with coronary heart disease. Part of the National 
Heart, Lung, and Blood Institute (NHLBI)'s Women's Ischemia Syndrome 
Evaluation (WISE) study, researchers found that women with a condition 
called coronary microvascular syndrome often go undiagnosed for heart 
disease because dysfunction occurs in very small arteries of the heart 
and does not show up when physicians use standard tests. As a result of 
the missed diagnosis, women are not treated for angina and high 
cholesterol and remain at high risk for a heart attack. National 
Institutes of Health (NIH) studies like WISE are helping to unravel the 
mystery of cardiovascular disease in women and hold immediate 
implications for the treatment of women at risk for heart disease.
    The ACC is extremely concerned that the administration's budget 
request proposes no increase in funding for the NIH and cuts funding 
for many critical health programs. If instituted, the administration's 
budget would force the research community to scale back and even halt 
valuable initiatives. The ACC is encouraged that the Senate recently 
approved an amendment to its budget resolution that provides an extra 
$7 billion for key health and education programs.

                        FUNDING RECOMMENDATIONS

    The ACC urges Congress to support the following fiscal year 2007 
funding recommendations.
    National Institutes of Health: $29.849 billion.--Research conducted 
through the NIH has resulted in better diagnosis and treatment of 
cardiovascular disease, improving the quality of life for those living 
with the disease and lowering the number of deaths attributed to it.
    National Heart Lung and Blood Institute: $3.068 billion.--The NIH 
is doing critical research into the causes, treatment and prevention of 
cardiovascular disease through the NHLBI.
    Agency for Healthcare Research and Quality: $440 million.--The 
Agency for Healthcare Research and Quality (AHRQ)'s health services 
research complements the research of the NIH by helping cardiologists 
make choices about what treatments work best, for whom and when.
    CDC State Heart Disease and Stroke Prevention Program: $55 
million.--The Centers for Disease Control and Prevention (CDC) State 
Heart Disease and Stroke Prevention program's public education efforts 
is making strides in the prevention and early intervention of 
cardiovascular disease.
    HRSA Rural and Community AED Program: $9 million.--The Health 
Resources and Services Administration (HRSA) Rural and Community Access 
to Emergency Defibrillation program is saving lives by placing external 
defibrillators in public facilities.

                                SUMMARY

    The ACC appreciates the subcommittee's past support for these 
important programs. The ACC urges Congress to provide a strong fiscal 
year 2007 investment in the cardiovascular research and education 
programs described above to continue the great strides being made in 
fighting cardiovascular disease. Should you have any questions, please 
contact Jennifer Brunelle at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="107a7262657e757c7c507173733e7f6277">[email&#160;protected]</a> or (301) 581-3477.
                                 ______
                                 
    Prepared Statement of the American College of Obstetricians and 
                             Gynecologists

    The American College of Obstetricians and Gynecologists (ACOG), 
representing 49,000 physicians and partners in women's health care, is 
pleased to offer this statement to the House Committee on 
Appropriations, Subcommittee on Labor, Health and Human Services, and 
Education. We thank Chairman Regula, Ranking Member Obey, and the 
entire subcommittee for their leadership to continually address 
maternal and child health care services.
    The Nation has made important strides to improve women and 
children's health over the past several years, and ACOG is grateful to 
this Committee for its commitment to research. We look forward to 
working with the Members of this Committee to ensure that vital 
research continues to eliminate disease and to ensure valuable new 
treatment discoveries are implemented. The National Institutes of 
Health (NIH) has examined and determined many disease pathways, while 
the Health Resources and Services Administration (HRSA) and the Centers 
for Disease Control and Prevention (CDC) have been successful in 
translating research findings into valuable public health policy 
solutions. This dedicated commitment to elevate, promote and implement 
medical research faces an uncertain future at a time when scientists 
are on the cusp of new cures.
    It is essential that the Committee provide strong support for 
current studies, and for future advances, as well. We urge the 
Committee to support a an fiscal year 2007 appropriation of $29.75 
billion for the NIH, and $1.328 billion for the National Institute of 
Child Health and Human Development (NICHD), both a 5 percent increase 
over fiscal year 2006 levels. We also continue to support efforts to 
secure adequate funds for important public health programs at HRSA 
($7.5 billion) and the CDC ($8.5 billion plus funding for pandemic 
influenza preparedness).Continued appropriations to these agencies will 
ensure ongoing and new research initiatives continue to yield positive 
results for women and children's health.

        NATIONAL INSTITUTES OF HEALTH--RESEARCH LEADING THE WAY

Research at the NICHD
    The NICHD conducts research that holds great promise to improve 
maternal and fetal health and safety. With the support of Congress, the 
Institute has initiated research addressing the causes of cerebral 
palsy, gestational diabetes and pre-term birth. However, much more 
needs to be done to reduce the rates of maternal mortality and 
morbidity in the United States. More research is needed on such 
pregnancy-related issues as the impact of chronic conditions during 
pregnancy, racial and ethnic disparities in maternal mortality and 
morbidity, and drug safety with respect to pregnancy.
    A commitment to research in maternal health sheds light on a 
breadth of issues that save women's lives. Important research examining 
the following issues must continue:
            Reducing High Risk Pregnancies
    NICHD's Maternal Fetal Medicine Unit Network, working at 14 sites 
across the United States (University of Alabama, University of Texas-
Houston, University of Texas-Southwestern, Wake Forest University, 
University of North Carolina, Brown University-Women and Infant's 
Hospital, Columbia University, Drexel University, University of 
Pittsburgh-Magee Women's Hospital, University of Utah, Northwestern 
University, Wayne State University, Case Western University, and Ohio 
State University), will help reduce the risks of cerebral palsy, 
caesarean deliveries, and gestational diabetes. This Network discovered 
that progesterone reduces preterm birth by one-third.
            Reducing the Risk of Perinatal HIV Transmission
    In the last 10 years, NICHD research has helped decrease the rate 
of perinatal HIV transmission from 27 percent to 1.2 percent. This 
advancement signals the near end to mother-to-child transmission of 
this deadly disease.
            Reducing the Effects of Pelvic Floor Disorders
    The Institute has made recent advancements in the area of pelvic 
floor disorders. The NICHD is investigating whether women that have 
undergone cesarean sections have fewer incidences of pelvic floor 
disorder than women who have delivered vaginally.
            Reducing the Prevalence of Premature Births
    NICHD is helping our Nation understand how adverse conditions and 
health disparities increase the risks of premature birth in high-risk 
racial groups.
            Drug Safety During Pregnancy
    The NICHD recently created the Obstetric and Pediatric Pharmacology 
Branch to measure drug metabolism during pregnancy.
The Challenge of the Future: Attracting New Researchers
    Despite the NICHD's critical advancements, reduced funding has made 
it difficult for this research to continue, largely due to the lack of 
new investigators. Congressional programs such as the loan repayment 
program, the NIH Mentored Research Scientist Development Program for 
reproductive health, and a small grant program, all attract new 
researchers, but low pay lines make it difficult for the NICHD to 
maintain them. Due to the structure of the peer review system, previous 
grant recipients have an advantage because their grants require fewer 
funds. This makes it more difficult for new investigators to get into 
the system, jeopardizing the future of women's health research. We urge 
the Committee to significantly increase funding at the NICHD to 
maintain a high level of research innovation and excellence, in turn 
reducing the incidence of maternal morbidity and mortality and 
discovering cures for other chronic conditions.

      HRSA AND CDC: TURNING RESEARCH INTO PUBLIC HEALTH SOLUTIONS

    It is essential that we rapidly transform women's health research 
findings into public health solutions. HRSA and the CDC have created 
women and children's health outreach programs based on research 
conducted on infant mortality, birth defects, gynecological cancers, 
and a variety of other health issues.
    For example, research shows tobacco abuse and health disparities 
are risk factors for infant mortality. Healthy Start offers programs 
for States, which fund provider and community education programs that 
improve maternal health through tobacco cessation programs, and finds 
ways to decrease the infant mortality rate by investigating cultural 
and institutional health disparities. Research also shows that early 
screening and detection of certain strands of the human papilloma virus 
(HPV) may progress into cervical cancer. By screening thousands of low-
income women who would not otherwise receive access to care; this CDC 
program has saved hundreds of lives.

National Fetal Infant Mortality Review
    The Fetal and Infant Mortality Review (FIMR) is a cooperative 
Federal agreement between ACOG and the Maternal Child Health Bureau at 
HRSA. FIMR uses the expertise of ob-gyns and local health departments 
to find solutions to problems related to infant mortality. In light of 
the increase in the infant mortality rate for 2002, the FIMR program is 
vital to develop community-specific, culturally appropriate 
interventions. Today 220+ local programs in 42 States are implementing 
FIMR and finding it is a powerful tool to bring communities together to 
address the underlying problems that negatively affect the infant 
mortality rate.
    In order to meet the demand of the increasing number of FIMR 
programs, NFIMR must be able to continue its activities at an adequate 
funding level. A rigorous national evaluation of FIMR conducted by 
Johns Hopkins University has concluded that the FIMR methodology is an 
effective perinatal initiative. Based on that new research, FIMR can 
now be called an evidence based MCH intervention. All Healthy Start 
programs and every locality with disparities in infant outcomes should 
be actively encouraged to implement this FIMR process. We urge this 
Committee to recognize the many positive contributions of the FIMR 
program and ensure it remains a fully funded program within HRSA.

Provider's Partnership
    Through May 2003, HRSA funded the Provider's Partnership, a 
cooperative agreement between the Federal Maternal and Child Health 
Bureau and ACOG. This Partnership includes a series of State-level 
projects initiated to address key women's health issues, while 
simultaneously building partnerships between ACOG Members and public 
health leadership.
    The Partnership works specifically with psychosocial issues that 
greatly impact the health and well-being of women. The morbidity and 
mortality attributed to issues such as a woman's depression, tobacco 
use, substance abuse and domestic violence are becoming increasingly 
apparent as they weigh on both the woman and her entire family. Without 
treatment, these psychosocial issues place a heavy financial burden on 
State and Federal resources. Obstetrician-gynecologists play a critical 
role in addressing these problems within their current practice; 
however because of the complexity and the importance of promptly 
linking at-risk women with appropriate services, responsibility for 
full psychosocial assessment and treatment cannot fall solely on 
obstetrician-gynecologists. Partnerships between women's health care 
physicians and State and community programs are needed that allow for 
integration of medical care with psychosocial services. Partnerships 
increase coordination thereby minimizing demands on both the behavioral 
health care system and individual providers. Provider's Partnership 
enables stakeholders to improve prevention interventions, so that later 
complications can be avoided.
    There are currently 30 State-level Partnership teams focused on 
depression in women, tobacco use, perinatal HIV transmission and oral 
health. These teams have been successful at surveying obstetric 
providers on their screening; counseling and referral practices for 
perinatal depression and tobacco use, the results of which have been 
the basis for the development of statewide legislative and practice 
policy guidelines; establishing pilot screening and intervention 
initiatives for depression in women; and instituting provider training 
and technical assistance for depression and tobacco use screening and 
intervention. Despite their successes, these teams still struggle for 
funds to offset administrative and program costs. Representatives from 
additional States have expressed an interest in developing an ACOG 
Provider's Partnership; however, any new efforts are being postponed 
until additional funding can be identified. We urge the committee to 
restore funding for the Partnership to fiscal year 2003 levels.

The National Breast and Cervical Cancer Early Detection Program 
        (NBCCEDP)
    The National Breast and Cervical Cancer Early Detection Program 
(NBCCEDP) administered by the CDC is an indispensable health program in 
helping underserved women gain access to screening programs for early 
detection of breast and cervical cancers. The NBCCEDP has served over 
2.5 million women and provided 5.8 million screening examinations. 
Early detection and treatment of breast and cervical cancers greatly 
increase a woman's odds of conquering these diseases. The President's 
fiscal year 2007 Budget recommends decreasing funding by $1.4 million, 
preventing access to these services for an estimated 4,000 women per 
year. We strongly urge the Committee to continue saving women's lives 
and prevent cuts to this vital program.

National Center on Birth Defects and Developmental Disabilities 
        (NCBDDD)
    Birth defects affect about one in every 33 babies born in the 
United States each year. Babies born with birth defects have a greater 
chance of illness and long term disability than babies without birth 
defects. According to the CDC, a great opportunity for further 
improvement lies in prevention strategies that, if implemented prior to 
conception, would result in additional improvement of pregnancy 
outcomes. A cooperative agreement between the NCBDDD and ACOG has 
resulted in increased provider knowledge of genetic screening and 
diagnostic tests, technical guidance on routine preconception care and 
prenatal genetic screening, and improved access to care for women with 
disabilities.
    Again, we would like to thank the Committee for its continued 
support in addressing the multiple factors that affect maternal and 
child health. We strongly urge this subcommittee to support increased 
funding for the NICHD, and renewed appropriations for the maternal 
child health programs at the CDC and HRSA. By continuing to translate 
research done at the NICHD into positive outreach programs such as the 
Provider's Partnership and the NBCCEDP, we can further improve our 
Nation's overall health.
                                 ______
                                 
        Prepared Statement of the American Diabetes Association

    Thank you for the opportunity to submit testimony on the importance 
of Federal funding for diabetes programs at the Centers for Disease 
Control and Prevention (CDC) and diabetes research at the National 
Institutes of Health (NIH).
    As the Nation's leading nonprofit health organization providing 
diabetes research, information and advocacy, the American Diabetes 
Association feels strongly that Federal funding for diabetes prevention 
and research efforts is critical not only for the 20.8 million 
Americans who currently have diabetes, but also for the more than 40 
million who have a condition known as ``pre-diabetes.''
    Diabetes is a serious disease, and is a contributing and underlying 
cause of many of the diseases on which the Federal Government spends 
the most health care dollars. In addition to the $132 billion in 2002 
dollars in direct and indirect costs spent solely on diabetes each 
year, diabetes is a significant cause of heart disease (which costs our 
Nation $258.5 billion each year), a significant cause of stroke ($57.9 
billion each year), and the leading cause of kidney disease ($40.3 
billion). Diabetes is also the leading cause of adult-onset blindness 
and lower limb amputations.
    Approximately 48,000 people suffering from diabetes live in each 
congressional district and the number of people living with diabetes in 
this country is growing at a shocking rate. In the last 2 years alone, 
diabetes prevalence in the United States has increased by 14 percent. 
The number of Americans with diabetes is now growing at a rate of 8 
percent per year and is the single most prevalent chronic illness among 
children. Because of the systemic havoc that diabetes wreaks throughout 
the body, it is no surprise that the life expectancy of a person with 
the disease averages 10-15 years less than that of the general 
population.
    As the statistics listed above illustrate, we are facing an 
epidemic of diabetes in this country, which if left unchecked could 
have significant implications for many future generations. A recent 
study of the diabetes epidemic in New York City warns that diabetes-
caused heart attacks threatens to reverse the tremendous gains made in 
preventing deaths from heart disease. One of the authors of the study 
termed it ``a public health catastrophe.'' We know, for example, that 
in every 24 hour period, there will be 4,100 people diagnosed with 
diabetes, 230 amputations in people with diabetes, 120 people who enter 
end-stage kidney disease programs and 55 people who go blind. All told, 
there will be nearly 225,000 deaths from diabetes each year. That is 
the ultimate cost of underfunding research and prevention programs.
    While science continues to work towards finding a cure, we must 
first adequately fund the diabetes prevention and outreach work being 
done at the Centers for Disease Control and Prevention. Therefore, we 
are requesting:
  --At least a 10 percent increase over fiscal year 2006 levels for the 
        CDC's Center on Chronic Disease Prevention and Health, 
        including an additional $20.8 million increase for the CDC's 
        Division of Diabetes Translation (DDT), only $1 for each 
        American suffering from diabetes; and
  --Restoration of the Preventive Health & Health Services Block Grant.
    The CDC's Division of Diabetes Translation is critical to our 
national efforts to prevent and manage diabetes because they translate 
the research that has already been done to real programs at the 
community level. Currently, for every $1 that diabetes costs this 
country, the Federal Government invests less than $.01 to help 
Americans prevent and manage this deadly disease. This dynamic must be 
changed. While the Association strongly believes that significant 
funding is needed to fully fund programs in all 50 States, our request 
of $20.8 million will allow these critical programs to expand to an 
additional 10 States.
    In 2005 DDT provided support for more than 50 State- and 
territorial-based Diabetes Prevention and Control Programs (DPCPs) to 
increase outreach and education, and reduce the complications 
associated with diabetes. However, funding constraints required DDT to 
provide severely limited support to 22 States, 8 territories, and D.C. 
This level of funding, referred to as ``capacity building,'' allows a 
State to do surveillance, but is not enough for the State to do much--
or anything--in the way of intervention.
    DDT was able to provide the higher level of support, ``basic 
implementation,'' to the other 28 States. At the basic implementation 
level, States are able to devise and execute community-level programs. 
With an additional $20.8 million over fiscal year 2006 funding levels, 
an additional 10 States could start to receive the substantial benefits 
of basic implementation programs.
    The basic implementation programs undoubtedly make a major impact 
on local communities. For example, the West Virginia DPCP has developed 
a model education training program in state-of-the-art diabetes care, 
and has established a work-site health promotion program for State 
employees. At the same time, by collaborating with the West Virginia 
Association of Diabetes Educators, the State has almost doubled the 
number of certified diabetes educators, and plans to expand that 
success to underserved rural areas through satellite training programs. 
Our goal is to make this a reality for the rest of the country, so that 
communities have the ability to invest in their future by investing in 
diabetes prevention and education.
    Without fully-funded diabetes programs and projects in all parts of 
the country, it will be exceedingly difficult--if not impossible--to 
control the escalating costs associated with diabetic complications and 
to stem the epidemic rise in diabetes rates. State DPCPs, when provided 
with enough funding, are proven programs that have been extremely 
successful in helping Americans prevent and manage their diabetes. In 
the Division of Diabetes Translation Program Review fiscal year 2004, 
the CDC stated, ``The Basic Implementation DPCPs serve as the backbone 
for our growing primary prevention efforts. These State programs are 
the key elements to our success in meeting the challenges of 
controlling and preventing diabetes.'' For example, the Texas DPCP 
contracts with local health departments, community health centers, and 
local non-profits to serve counties throughout the State. These 
programs have demonstrated success in promoting physical activity, 
weight and blood pressure control, and smoking cessation for those with 
diabetes. One of their programs, Coordinated Approach to Child Health 
(CATCH), is an elementary school program to increase activity levels, 
improve diets and reduce children's risk for obesity, a leading factor 
in the development of diabetes in children. Americans in every State 
should have access to such quality programs. Unfortunately, the 
Division's fiscal year 2006 budget of just over $63 million, and the 
President's request for a cut in fiscal year 2007 to $62.42 million, 
will prevent more counties and States from implementing programs such 
as the one described above.
    In addition to DPCP, the CDC's Division of Diabetes Translation 
also conducts other activities to help people currently living with 
diabetes. To put research into action, CDC works with NIH to jointly 
sponsor the National Diabetes Education Program (NDEP), which seeks to 
improve the treatment and outcomes of people with diabetes, promote 
early detection, and prevent the onset of diabetes. The CDC is also 
currently working to develop a National Public Health Vision Loss 
Prevention Program that will investigate the economic burden and 
strengthen the surveillance and research of this all-to-common 
complication of diabetes. In addition, CDC funds work at the National 
Diabetes Laboratory to support scientific studies that will improve the 
lives of people with diabetes. In fiscal year 2005, the Division of 
Diabetes Translation alone published 53 manuscripts on the care, 
prevention, and science of diabetes, including 17 abstracts.
    The Association appreciates the increased attention by Congress to 
diabetes research at the National Institutes of Health (NIH) in recent 
years. While there is not yet a cure for diabetes, researchers at NIH 
are working on a variety of projects that represent hope for the 
millions of individuals with Type 1 and Type 2 diabetes. The 
Association strongly encourages you to provide at least a 5 percent 
increase to the NIH to fulfill this promise. Unfortunately, while the 
death rate due to diabetes has increased by more than 40 percent in 
recent years, diabetes research funding has not kept pace. Indeed, from 
1987-2001, appropriated diabetes funding as a share of the overall NIH 
budget has dropped by more than 20 percent (from 3.9 percent to 2.9 
percent). While Congress had initially begun to address this 
discrepancy, the fiscal year 2006 budget reduced funding at the 
National Institutes of Diabetes, Digestive and Kidney Diseases (NIDDK) 
by $9 million. This is unconscionable when diabetes deaths continue to 
increase at such a rate. The Association believes that NIH research and 
CDC translational programs go hand in hand in the effort to combat the 
diabetes epidemic.
    The Association is also supportive of restoration of the CDC's 
Preventive Health & Health Services Block Grant (PBG). The PBG, which 
allows States to develop innovative health programs at the community 
level, received $99 million in fiscal year 2006, but is currently 
slated for no funding for fiscal year 2007. These programs have been 
very successful. In the State of Louisiana, the grants are used to 
train school based health personnel on the diagnosis and management of 
type 2 diabetes, and also to screen adolescents at significant risk for 
type 2 diabetes. There are 53 school based health centers in Louisiana 
that are directly assisted by this program. As the State continues to 
rebuild following Hurricane Katrina, it would be tragic to remove this 
small but critical piece of health infrastructure funding.
    The Association, and the millions of individuals with diabetes we 
represent, firmly believes that we could rapidly move toward curing, 
preventing, and managing this disease by increasing funding for 
diabetes programs and research both at CDC and NIH. Your leadership is 
essential to accomplishing this goal. As you are considering fiscal 
year 2007 funding, we ask you to remember that chronic diseases, 
including diabetes, account for nearly 70 percent of all health care 
costs as well as 70 percent of all deaths annually. Unfortunately, less 
than $1.25 per person is directed toward public health interventions 
focused on preventing the debilitating effects associated with chronic 
diseases, demonstrating that Federal investment in chronic disease 
prevention remains grossly inadequate. We cannot ignore those Americans 
who are currently living with diabetes and other diseases.
    In closing, the American Diabetes Association strongly urges the 
subcommittee and Congress to provide a 10 percent increase for the 
CDC's Center on Chronic Disease Prevention and Health, including a 
$20.8 million increase for the CDC's Division of Diabetes Translation, 
and to restore the Preventive Health & Health Services Block Grant. 
Providing this funding would be an important step towards empowering 
States to fight diabetes at the community level. Additionally, we urge 
the subcommittee to increase NIH funding by 5 percent to allow for an 
increased commitment to diabetes research.
    On behalf of the 20.8 million Americans with diabetes--a disease 
that crosses gender, race, ethnicity and political party; a disease 
that is among the most costly, debilitating, deadly and prevalent in 
our Nation; and a disease that is exploding throughout our Nation--
thank you for the opportunity to submit this testimony. The American 
Diabetes Association is prepared to answer any questions you might have 
on these important issues.
                                 ______
                                 
      Prepared Statement of the American Foundation for the Blind

    Mr. Chairman and members of the subcommittee, my name is Paul 
Schroeder and I am the Vice President for Programs and Policy at the 
American Foundation for the Blind. Thank you for giving the American 
Foundation for the Blind (AFB) the opportunity to submit testimony to 
the subcommittee as you begin to consider funding priorities for fiscal 
year 2007. The AFB is a national non-profit organization with a 
commitment to enhancing and promoting the health, education, 
employment, and overall quality of life for people with vision loss.
    For nearly a century AFB has been expanding possibilities for 
people with vision loss by setting trends and devising innovative 
programs. For example, AFB works with the corporate sector to get the 
latest technologies that promote equal access into the hands of people 
who have vision loss. AFB also promotes the development and 
dissemination of new ideas and resources for service professionals, and 
AFB assists consumers with vision loss to maintain independent and 
healthy lives by providing them and their families with information 
about services and advice on purchasing decisions. In these and many 
other ways AFB continues to respond to the current needs of the vision 
loss community.
    The AFB, with headquarters in New York City, and a Public Policy 
Center in Washington, DC, also operates the National Center on Vision 
Loss in Dallas, TX, to help ensure that Americans with vision loss have 
information and access to all technologies needed to maintain their 
independence. This innovative resource center offers information, 
education, technology, and training--all under one roof and through the 
Internet--to create accessible living and work environments for people 
who are visually impaired. The AFB has launched a $2.4 million 
campaign--Project Independence--to expand and enhance the Dallas center 
and ensure it has national reach through web-based and other 
information dissemination programs. Also this year, the AFB has 
enhanced its efforts to promote health maintenance and prevention of 
secondary health conditions among those with vision loss. The testimony 
that follows will speak in more detail to this issue.

RECOGNIZING THE LEADERSHIP OF THE SUBCOMMITTEE IN SUPPORT OF AMERICANS 
                           WITH DISABILITIES

    According to the Institute of Medicine's 1991 report Disability in 
America: Toward a National Agenda for Prevention, ``disability is an 
issue that affects every individual, community, neighborhood and family 
in the United States.'' This statement remains equally true today. An 
estimated 54 million people in the United States currently live with a 
disability, including severe vision loss. There are approximately 10 
million Americans that are blind or have vision impairment, 6.5 million 
of whom are elderly. With the continued aging of the population, the 
number of elderly Americans affected by vision loss will only increase.
    Mr. Chairman, AFB commends the subcommittee's leadership and 
commitment to programs of interest and benefit to citizens with 
disabilities. Within the jurisdiction of the Labor, Health and Human 
Services, and Education Subcommittee are the vast majority of the 
Federal programs that support services to people with disabilities. The 
main focus of our testimony, however, is to highlight for the 
subcommittee the critically important work of the CDC's National Center 
on Birth Defects and Developmental Disabilities.

     THE CDC'S NATIONAL CENTER ON BIRTH DEFECTS AND DEVELOPMENTAL 
                              DISABILITIES

    Mr. Chairman, on behalf of the American Foundation for the Blind, I 
would like to commend the leadership of the CDC's National Center on 
Birth Defects and Developmental Disabilities (NCBDDD) for their hard 
work and dedication to their mission to promote the health and wellness 
of children and adults living with disabilities. We are particularly 
pleased and supportive of the Center's new focused initiatives to 
address the secondary health effects of people with vision loss and 
other disabilities.
    It has been widely documented that individuals with disabilities 
experience negative health, social, emotional, family, and community 
outcomes at higher rates than others. Sadly, 20.1 percent of people 
with disabilities lack health insurance, as compared to 17.8 percent of 
the general population. Moreover, secondary conditions such as heart 
disease, diabetes and stroke, all of which are modifiable and 
preventable, are also particularly acute among Americans with vision 
loss. For example, elderly Americans with vision loss have higher rates 
of depression, hypertension, heart disease, stroke, and physical 
injuries than people without these sensory impairments. Unique to 
individuals with vision loss is the risk of prescription errors 
stemming from inaccessible print labeling and/or instructions about 
safe administration of the drugs.
    These disparities in health have multiple consequences including 
the decreased ability to perform valued activities, participate in 
social roles including employment, and ever-escalating costs associated 
with deteriorating health conditions.
    Many Americans with vision impairment, however, could substantially 
improve their every day lives and prevent the onset of secondary 
conditions with appropriate health interventions and information. To 
ensure that this help is available, additional research to strengthen 
the evidence base for effective public health interventions needs to be 
conducted. In addition, substantially enhanced dissemination programs 
of these interventions through a website and other means accessible to 
people with vision loss is a vital component of such a program. Such a 
dedicated program would be of significant benefit to those facing 
vision loss and their families. The initiation of such a program at the 
National Center on Birth Defects and Developmental Disabilities would 
reduce health disparities and push forward the public health frontier 
in assisting people with blindness and vision loss.

                            RECOMMENDATIONS

    Mr. Chairman, the administration's request for the National Center 
on Birth Defects and Developmental Disabilities is $110,481,000, a 
decrease of $14.28 million below fiscal year 2006 levels. If enacted, 
this would be the second year in a row that the incredibly important 
programs funded in this national Center received cuts. AFB strongly 
encourages the subcommittee to reverse these reductions and to 
specifically add $950,000 for a dedicated program to ameliorate and 
prevent secondary health conditions that affect individuals with vision 
loss. AFB would also encourage the subcommittee to support an expansion 
of the proposed Center on Vision Loss in Dallas, Texas.

                        SUMMARY AND CONCLUSIONS

    Mr. Chairman, again we wish to thank the subcommittee for its past 
leadership and commitment to disability issues. With your leadership 
much additional progress can be made to improve the lives and health of 
Americans with vision loss.
    Thank you for this opportunity to testify.
                                 ______
                                 
        Prepared Statement of the American Physiological Society

    The American Physiological Society (APS) thanks the subcommittee 
for its sustained support for the National Institutes of Health (NIH). 
The doubling of the agency budget that took place between fiscal years 
1996 and 2002 allowed the NIH to expand its efforts to address old and 
new challenges in biomedical science. Our Nation's investment in basic, 
translational, and clinical research plays an important role in the 
continued health and prosperity of our people. Increases in NIH funding 
have allowed researchers to explore scientific opportunities on an 
unprecedented scale. However, to build on existing knowledge and 
explore new areas, NIH must be able to provide research support for 
innovative ideas. In fiscal year 2006 the NIH budget was cut for the 
first time since 1970, and the administration's fiscal year 2007 budget 
proposal would keep the agency at the same level. Taking inflation into 
account, the President's budget plan represents another budget cut that 
will reduce the number of research grants funded. As funding falters, 
the best and brightest minds will turn away from careers in medical 
science. If NIH cannot fund new ideas, this will not only hamper 
efforts to find cures, it will also discourage up and coming 
researchers who could become the next generation of basic and clinical 
scientists. The APS urges you to make every effort to provide the NIH 
with a 5 percent funding increase so we can take advantage of more 
scientific opportunities that will lead to ways to alleviate the 
suffering and burdens of disease and strengthen the Nation's scientific 
workforce to face future challenges.
    The APS is a professional society dedicated to fostering research 
and education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. The Society was 
founded in 1887 and now has more than 10,000 member physiologists 
across the United States. The APS offers these comments on the budget 
recognizing both the enormous financial challenges facing our Nation 
and the enormous opportunities before us to make progress against 
disease.
    NIH's task is both to cure specific diseases and to look broadly at 
scientific opportunities that may help us expand our understanding of 
biological problems that affect health. Basic research contributes to a 
body of knowledge whose importance will only be determined over time. 
Physiology, which is the study of biological function, provides the 
foundation for much of the translational research that turns 
discoveries into therapies and prevention strategies.
    One example of this is the lung disease cystic fibrosis. Over the 
last 20 years, the scientific community has made great leaps in 
understanding the role that genes play in the development of various 
diseases. The CFTR gene responsible for cystic fibrosis was identified 
in 1989. Since then, researchers have worked to gain a better 
understanding of what happens in the disease at the molecular level 
with the hope of developing a gene therapy that would prolong and 
improve patients' lives. One critical question was how much of the 
normal gene is necessary to improve lung function. In late 2005, NIH 
supported researchers at the University of Iowa published the results 
of experiments in which they delivered healthy copies of the CFTR gene 
to cultured lung cells taken from cystic fibrosis patients.\1\ They 
were then able to measure whether function improved with increasing 
amounts of gene product. Unexpectedly, delivery of low levels of the 
CFTR gene was more effective than very high doses. This type of 
experiment provides the foundation for designing safe and effective 
clinical treatments.
---------------------------------------------------------------------------
    \1\ S. L. Farmen et al., Am J Physiol Lung Cell Mol Physiol 289, 
L1123-30 (Dec. 2005).
---------------------------------------------------------------------------
    In addition to supporting research, the NIH must also address 
workforce issues to be sure our Nation's researchers are ready to meet 
the challenges they will face in the future. Last year the NIH 
announced a new program to encourage clinical and translational 
research at universities. The new Clinical and Translational Service 
Awards (CTSAs) will provide a total of $30 million in fiscal year 2006 
to develop new research and training programs at academic institutions 
around the country. This will allow researchers to capitalize on 
knowledge generated from basic research through the development of 
clinical applications and treatments.
    The NIH plays many critical roles in advancing biomedical research. 
It provides opportunities for individual researchers at universities 
and medical schools throughout the country to compete for research 
funds based upon the scientific merit of their ideas. NIH also carries 
out other functions including:
  --Sponsoring research training opportunities for young scientists and 
        physicians;
  --Funding major collaborative initiatives that bring together 
        multiple institutions with diverse resources;
  --Providing the public with up-to-date information about the latest 
        research on various diseases and health conditions through 
        individual institutes and online resources such as ``MedLine 
        Plus'' and ClinicalTrials.gov;
  --Supporting unique science education programs, particularly for 
        underserved minority students; and
  --Funding innovative research through the NIH Roadmap initiative.
    These activities are critical to moving science forward, and they 
are unique to the NIH. Another example is the newly developed Genes and 
Environment Initiative (GEI). The GEI is a multi-institute effort to 
identify genetic and environmental risk factors that contribute to 
common diseases such as asthma, diabetes, heart disease, cancer and 
Alzheimer's disease. The planned research will build on the Human 
Genome Project and take advantage of new technologies developed in the 
pursuit of basic research. With its wide range of expertise, the NIH is 
uniquely suited to undertake broad projects such as this.
    The examples listed above represent a select few examples from the 
NIH's extensive and outstanding portfolio. The APS joins the Federation 
of American Societies for Experimental Biology (FASEB) and the Ad Hoc 
Group for Medical Research Funding in urging that NIH be provided with 
a 5 percent funding increase in fiscal year 2007 to permit the agency 
to maintain its current wide-ranging and important research efforts. 
This forward-looking approach to our Nation's biomedical research 
efforts is much to be preferred over the administration's proposal to 
fund the agency at last year's level, which would force the NIH to 
contract its research portfolio, thus leaving many important projects 
unfunded.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors

    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide this testimony for the record to the Senate Subcommittee on 
Labor, Health and Human Services, Education, and Related Agencies 
regarding fiscal year 2007 appropriations for the Low Income Home 
Energy Assistance Program (LIHEAP). The Governors appreciate the 
subcommittee's consistent support for the LIHEAP program. We also 
welcome the additional fiscal year 2006 funds recently provided by the 
Congress, even as we recognize the difficult challenges facing the 
subcommittee in this time of severe fiscal constraints. However, in 
light of sharply higher home energy prices, we request the subcommittee 
to provide the full authorized amount of $5.1 billion in regular fiscal 
year 2007 LIHEAP funding--to restore the purchasing power of the LIHEAP 
program. In addition, we request that the subcommittee provide 
contingency funds to address energy emergency situations.
    The continuing trend in rising prices for natural gas and home 
heating fuels is creating a growing home energy crisis for low-income 
citizens across the Nation. Low-income households, whose percentage of 
income spent on energy may be four times that of average households, 
can amass significant home energy debt that makes it difficult to 
purchase heating fuels or pay outstanding utility bills. High levels of 
accumulated arrearages owed by low-income households raise the prospect 
of hundreds of thousands of households cut off from utility service 
this spring.
    Particularly in the Northeast, which is heavily dependent on 
deliverable home heating fuels such as home heating oil, kerosene, and 
propane, price volatility has an especially perverse impact. These low-
income households, without the disposable income to purchase fuels off-
season, typically enter the market when both the demand for and price 
of fuels are high. Without access to LIHEAP assistance during the 
heating season, they may not be able to obtain any fuel at all, due to 
the collect-on-delivery business policy commonly used by fuel dealers. 
If LIHEAP benefit levels are too low, these households may not be able 
to afford the cost of the required minimum delivery.
    LIHEAP is a vital tool in making home energy more affordable for 
almost 5 million of the Nation's very low-income households faced with 
high energy burden--the elderly and disabled on fixed incomes and 
families with young children. Over the past 5 years, as the average 
price of home heating oil and natural gas more than doubled, the 
purchasing power of the LIHEAP grant has plummeted--undercutting the 
ability of the program to serve adequately these vulnerable households. 
States across the country in recent years have seen significant 
increases in their regular LIHEAP caseloads, as well as in requests for 
emergency crisis from those households in imminent danger of a utility 
or fuel service cut-off. The number of requests for LIHEAP assistance 
has reached its highest level in more than a decade. In response to the 
continually rising home energy costs and the growing crisis in this 
recent heating season, States across the country have stepped in to 
provide more than $450 million for low-income energy programs. In 
addition to regulatory actions, such as extending shut-off moratoria 
periods and limiting deposit and reconnection fees, many State public 
utility commissions have provided more than $100 million in assistance 
from funding sources such as public benefit funds or universal service 
funds.
    The LIHEAP program delivers maximum program dollars to households 
in need--the consequence of its administrative costs being among the 
lowest of human service programs. In the Northeast, States have 
incorporated various administrative strategies designed to minimize the 
amount of program funds used to operate the program. Innovative 
administrative strategies include the use of uniform application forms 
to determine program eligibility, establishment of a one-stop shopping 
approach for the delivery of LIHEAP and related programs, sharing 
administrative costs with other programs, and the use of mail 
recertification.
    The recent action by Congress to increase LIHEAP funding in fiscal 
year 2006 is a welcome and important step to begin restoring some of 
the lost LIHEAP purchasing power. However, the prospect of continued 
high and potentially volatile prices for home energy means that the 
projected need continues to outweigh available Federal and State 
funding. Even with these additional Federal and State funds, the value 
of the LIHEAP grant has been significantly reduced, defraying only a 
modest amount of a low-income household's total heating bill; and it 
reaches only a small percentage of the households that need assistance.
    Increased Federal funding is vital for LIHEAP to assist the 
Nation's vulnerable, low-income households faced with unaffordable home 
energy bills. An increase in the regular LIHEAP appropriation to the 
full authorized level of $5.1 billion for fiscal year 2007 in addition 
to contingency funds, will enable our States to help mitigate the 
potential life-threatening emergencies and economic hardship that 
confront the Nation's most vulnerable citizens. With these additional 
funds, States can provide assistance to more households in need, offer 
benefit levels that can make a meaningful reduction in their home 
energy burden, lessen the need for emergency crisis, plan and operate a 
more efficient program, and again make optimal use of leveraging and 
other cost-effective programs.
    We thank the subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of the 
Low Income Home Energy Assistance Program to the Northeast.
                                 ______
                                 
          Prepared Statement of the American Lung Association

                    SUMMARY: FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                           Agency                               Amount
------------------------------------------------------------------------
National Institutes of Health..............................       30,205
    National Heart, Lung, and Blood Institute..............        3,099
    National Cancer Institute..............................        5,030
    National Institute of Allergy and Infectious Disease...        4,682
    National Institute of Environmental Health Sciences....          680
    National Institute of Nursing Research.................          146
    Fogarty International Center...........................           70
Centers for Disease Control and Prevention.................        8,500
    National Institute for Occupational Safety and Health..          285
    Office on Smoking and Health...........................          145
    Environmental Health: Asthma Activities................           70
    Tuberculosis Control Programs..........................          252
Influenza Pandemic.........................................        2,652
------------------------------------------------------------------------

    The American Lung Association is pleased to present our 
recommendations for programs in the Labor Health and Human Services and 
Education Appropriations Subcommittee purview. These appropriations 
will make a difference in the lives of millions of Americans who suffer 
from lung disease.
    The American Lung Association is one of the oldest voluntary health 
organizations in the United States, with a National Office and 
constituent associations around the country. Founded in 1904 to fight 
tuberculosis, the American Lung Association today fights lung disease 
in all its forms, with special emphasis on funding research for cures, 
promoting cleaner air and helping prevent kids from smoking. The Lung 
Association is funded by contributions from the public, along with 
gifts and grants from corporations, foundations and government 
agencies, and achieves its many successes through the work of thousands 
of committed volunteers and staff.

                        THE TOLL OF LUNG DISEASE

    Each year, an estimated 349,000 Americans die of lung disease. Lung 
disease is America's number three killer, responsible for one in every 
seven deaths. More than 35 million Americans suffer from a chronic lung 
disease. Each year lung disease costs the economy an estimated $157.8 
billion. Lung diseases represent a spectrum of chronic and acute 
conditions that interfere with the lung's ability to extract oxygen 
from the atmosphere, protect against environmental or biological 
challenges and regulate a number of metabolic processes. Lung diseases 
include: asthma, chronic obstructive pulmonary disease, lung cancer, 
tuberculosis, pneumonia, influenza, sleep disordered breathing, 
pediatric lung disorders, occupational lung disease and sarcoidosis.

                 CHRONIC OBSTRUCTIVE PULMONARY DISEASE

    Chronic Obstructive Pulmonary Disease, or COPD, is a growing health 
problem. Yet it remains relatively unknown to most Americans and much 
of the research community. COPD refers to a group of largely 
preventable diseases, including emphysema and chronic bronchitis, that 
generally gradually limit the flow of air in the body. COPD is the 
fourth leading cause of death in the United States and worldwide.
    In 2004, the annual cost to the Nation for COPD was $37.2 billion. 
This includes $20.9 billion in direct health care expenditures, $8.9 
billion in indirect morbidity costs and $7.4 billion in indirect 
mortality costs. Medicare expenses for COPD beneficiaries were nearly 
2.5 times that of the expenditures for all other patients.
    It has been estimated that 11.4 million patients have been 
diagnosed with some form of COPD and as many as 24 million adults may 
suffer from its consequences. In 2004, an estimated 9 million Americans 
were diagnosed with chronic bronchitis by a health professional. 
Further, an estimated 3.6 million Americans have been diagnosed with 
emphysema in their lifetime. In 2002, 120,555 people in the United 
States died of COPD. Women have exceeded men in the number of deaths 
attributable to COPD since 2000. Over the past 30 years, the death rate 
due to COPD has doubled while the death rates for heart disease, cancer 
and stroke have decreased by over 50 percent.
    Today, COPD is treatable but not curable. Fortunately, promising 
research is on the horizon for COPD patients. Research on the genetic 
susceptibility underlying COPD is making progress. Research is also 
showing promise for reversing the damage to lung tissue caused by COPD.
    Despite these promising research leads, the American Lung 
Association believes that research resources committed to COPD are not 
commensurate with the impact COPD has on the United States and the 
world.
    The American Lung Association strongly recommends that the NIH and 
other Federal research programs commit additional resources to COPD 
research programs. In addition, there is a need for improved 
surveillance data on the disease. The Lung Association supports the CDC 
in gathering more information about COPD as part of the National Health 
and Nutrition Examination Survey, the Behavioral Risk Factor 
Surveillance System and other health surveys. This information will 
help public health professionals and researchers understand the disease 
better and lead to possible control of the disease.

                              TOBACCO USE

    Tobacco use is the leading preventable cause of death in the United 
States, killing more than 438,000 people every year. Smoking is 
responsible for one in five U.S. deaths. The direct health care and 
lost productivity costs of tobacco-caused disease and disability are 
also staggering, an estimated $167 billion each year. Taxpayers pay 
billions of dollars each year to treat tobacco-caused disease through 
federally funded health programs including Medicare and Medicaid.
    The CDC's Office on Smoking and Health provides significant 
technical assistance to States that are using tobacco settlement 
dollars to develop comprehensive and effective tobacco prevention 
programs, in addition to providing a small, yet essential, amount of 
Federal assistance directly to State tobacco control and prevention 
programs. States that currently fund comprehensive programs, as well as 
those seeking to develop programs, rely on CDC's expertise. Funds for 
tobacco prevention at CDC also are used to maintain comprehensive 
information on smoking and health and to support ongoing research on 
tobacco-related issues.
    We believe Congress should fund the type of youth tobacco 
prevention programs that science tells us are essential to counter the 
impact of tobacco company marketing to our kids. The American Lung 
Association strongly supports a minimum level of $145 million in fiscal 
year 2007 funding for the CDC's Office on Smoking and Health.

                                 ASTHMA

    Asthma is a chronic lung disease in which the bronchial tubes 
become swollen and narrowed, preventing air from getting into or out of 
the lung. An estimated 30.2 million Americans have ever been diagnosed 
with asthma by a health professional. Approximately 20.5 million 
Americans currently have asthma, of which 11.7 million had an asthma 
attack in 2004. Asthma prevalence rates are 39 percent higher among 
African Americans than whites. Studies also suggest that Puerto Ricans 
have higher asthma prevalence rates and age-adjusted death rates than 
all other Hispanic subgroups.
    Asthma is expensive. The growth in the prevalence of asthma will 
have a significant impact on our Nation's health expenditures, 
especially Medicaid. Asthma incurs an estimated annual economic cost of 
$16.1 billion to our Nation. Asthma is the third leading cause of 
hospitalization among children under the age of 15. It is also the 
number one cause of school absences attributed to chronic conditions. 
The Federal response to asthma has three components: research, programs 
and planning. We are making progress on all three fronts but more must 
be done:

Asthma Research
    Researchers are developing better ways to treat and manage chronic 
asthma. Two examples show why this should continue. Research supported 
by National Heart, Lung and Blood Institute (NHLBI) has shown that 
using corticosteroids to treat children with mild to moderate asthma is 
safe and effective, answering a parent's question about whether these 
effective drugs would stunt the growth of children who used them.
    Genetic research is also providing insights into asthma. 
Researchers in the NHLBI-supported Asthma Clinical Research Network 
have discovered that a genetic variation determines how well asthma 
patients will respond to the most common asthma medication, inhaled 
beta-agonists. This discovery will help physicians better target the 
drugs they proscribe.

Asthma Programs
    Last year, Congress provided approximately $31.9 million for the 
Centers for Disease Control and Prevention (CDC) to conduct asthma 
programs. The American Lung Association recommends that CDC be provided 
$70 million in fiscal year 2007 to expand its asthma programs. This 
funding includes State asthma planning grants, which leverage small 
amounts of funding into more comprehensive State programs.

Asthma Surveillance
    In addition to public education programs, the CDC has been piloting 
programs to determine how to establish a nationwide health-tracking 
system. The pilots have shown how to integrate different data to 
determine how pervasive asthma is in these communities. Congress needs 
to increase funding to create a nationwide health-tracking system, 
based on the localized pilots that are underway now.

                              LUNG CANCER

    An estimated 350,679 Americans are living with lung cancer. During 
2005, an estimated 172,570 new cases of lung cancer will be diagnosed. 
This year 163,510 Americans will die from lung cancer. Survival rates 
for lung cancer tend to be much lower than those of most other cancers. 
Men have higher rates of lung cancer than women. However, over the past 
30 years, the lung cancer age-adjusted incidence rate has decreased 9 
percent in males compared to an increase of 143 percent in females. 
Further, African Americans are more likely to develop and die from lung 
cancer than persons of any other racial group.
    Given the magnitude of lung cancer and the enormity of the death 
toll, the American Lung Association strongly recommends that the NIH 
and other Federal research programs commit additional resources to lung 
cancer research programs. We support increasing the National Cancer 
Institute budget to $5.003 billion.

                               INFLUENZA

    Influenza is a highly contagious viral infection and one of the 
most severe illnesses of the winter season. It is responsible for an 
average of 200,000 hospitalizations and 36,000 deaths each year. 
Further, the emerging threat of a pandemic influenza is looming. Public 
health experts warn that over half a million Americans could die and 
over 2.3 million could be hospitalized if a moderately severe strain of 
a pandemic flu virus hits the United States. To prepare for a potential 
pandemic, the American Lung Association supports funding the Federal 
Pandemic Influenza Plan at the recommended level of $2.652 billion.

                              TUBERCULOSIS

    Tuberculosis is an airborne infection caused by a bacterium, 
Mycobacterium tuberculosis (TB). TB primarily affects the lungs but can 
also affect other parts of the body, such as the brain, kidneys or 
spine. There are an estimated 10 million to 15 million Americans who 
carry latent TB infection. Each has the potential to develop active TB 
in the future. About 10 percent of these individuals will develop 
active TB disease at some point in their lives. In 2005, there were 
14,093 cases of active TB reported in the United States.
    The American Lung Association has endorsed the Institute of 
Medicine (IOM) report, Ending Neglect: The Elimination of Tuberculosis 
in the United States, IOM report and its recommendations on how to 
eliminate TB in the United States. While declining overall TB rates are 
good news, the emergence and spread of multi-drug resistant TB pose a 
significant threat to the public health of our Nation. Continued 
support is needed if the United States is going to continue progress 
toward the elimination of TB. We estimate it will cost $528 million for 
the CDC Tuberculosis Elimination Program to implement the report 
recommendations. We request that Congress increase funding for 
tuberculosis programs to $252 million for fiscal year 2007.
    The NIH also has a prominent role to play in the elimination of TB. 
Currently there is no highly effective vaccine to prevent TB 
transmission. However, the recent sequencing of the TB genome and other 
research advances has put the goal of an effective TB vaccine within 
reach. In addition, the American Lung Association encourages the 
subcommittee to fully fund the TB vaccine blueprint development effort 
at the National Institutes of Allergy and Infectious Disease (NIAID).
Fogarty International Center TB Training Programs
    The Fogarty International Center (FIC) at NIH provides training 
grants to U.S. universities to teach AIDS treatment and research 
techniques to international physicians and researchers. Because of the 
link between AIDS and TB infection, FIC has created supplemental TB 
training grants for these institutions to train international health 
care professionals in the area of TB treatment and research. However, 
we believe TB training grants should not be offered exclusively to 
institutions that have received AIDS training grants. The TB grants 
program should be expanded and open to competition from all 
institutions. The American Lung Association recommends Congress provide 
$70 million for FIC to expand the TB training grant program from a 
supplemental grant to an open competition grant.

                          ENVIRONMENTAL HEALTH

    The National Institute of Environmental Health Sciences funds vital 
research on the impact of environmental influence on disease. The 
American Lung Association supports increasing the appropriation from 
this subcommittee to $680 million.

          RESEARCHING AND PREVENTING OCCUPATIONAL LUNG DISEASE

    The American Lung Association recommends that the subcommittee 
provide $285 million for the National Institute for Occupational Safety 
and Health (NIOSH) at the CDC.

                               CONCLUSION

    In conclusion, Mr. Chairman, lung disease is a continuing, growing 
problem in the United States. It is America's number three killer, 
responsible for one in seven deaths. The lung disease death rate 
continues to climb. Mr. Chairman, the level of support this committee 
approves for lung disease programs should reflect the urgency 
illustrated by these numbers.
                                 ______
                                 
   Prepared Statement of the American Nephrology Nurses' Association

    The American Nephrology Nurses' Association (ANNA) appreciates the 
opportunity to submit written comments for the record regarding fiscal 
year 2007 funding to address the challenges that kidney disease and the 
nursing shortage are posing to the Nation. ANNA exists to advance 
nephrology nursing practice and positively influence outcomes for 
patients with kidney or other disease processes requiring replacement 
therapies through advocacy, scholarship, and excellence. ANNA consists 
of more than 12,000 registered nurses and other health care 
professionals with varying experience and expertise in such areas as 
hemodialysis, peritoneal dialysis, conservative management, continuous 
renal replacement therapies, chronic kidney disease, and renal 
transplantation.
    As part of our mission, we educate health professionals, the 
public, and policymakers to increase public awareness and understanding 
of the unique health care needs and challenges people with kidney 
disease face. Moreover, ANNA maintains a strong commitment to securing 
public policies and programs that help secure better treatments and 
care for individuals with kidney disease. ANNA specifically seeks to 
advance public and private efforts to improve treatment of kidney 
disease, reduce and prevent the onset of end stage renal disease 
(ESRD), and ensure that all people with kidney disease have access to 
the medical care and treatment options they need to live the highest 
quality of life possible.
    To that end, ANNA respectfully requests that Congress reject the 
President's proposed $11 million cut in funding for the National 
Institute of Diabetes and Digestive and Kidney Diseases (NIDDK) and 
instead support increased funding for diabetes and kidney disease 
research to find better treatments, preventive interventions, and 
develop a cure. NIDDK conducts and supports research on most of the 
more serious diseases affecting public health. The Institute supports 
much of the clinical research on the diseases of internal medicine and 
related subspecialty fields, as well as many basic science disciplines. 
Additional fiscal year 2007 funding for NIDDK will help advance our 
Nation's understanding of the risk factors associated with kidney 
disease, boost efforts to identify ways in which kidney disease can be 
reduced and prevented, and increase initiatives to improve care and 
treatment of individuals with chronic kidney disease as well as those 
with ESRD.
    The National Institute of Nursing Research (NINR) supports clinical 
and basic research to establish a scientific basis for the care of 
individuals across the life span-from management of patients during 
illness and recovery to the reduction of risks for disease and 
disability, the promotion of healthy lifestyles, promoting quality of 
life in those with chronic illness, and care for individuals at the end 
of life. NINR seeks to understand and ease the symptoms of acute and 
chronic illness, to prevent or delay the onset of disease or disability 
or slow its progression, to find effective approaches to achieving and 
sustaining good health, and to improve the clinical settings in which 
care is provided. Importantly, NINR research also focuses on the 
special needs of at-risk and under-served populations, with an emphasis 
on health disparities, such as those seen among the ESRD population. 
These efforts are crucial in the creation of scientific advances and 
their translation into cost-effective health care that does not 
compromise quality. ANNA is pleased to join with others in the nursing 
community in advocating a fiscal year 2007 allocation of $150 million 
for NINR.
    As you know, the Nation is facing a nursing shortage of 
unprecedented proportion. At the same time the nursing shortage is 
expected to worsen, the number of people with ESRD needing access to 
state-of-the-art treatment and care is estimated to increase 
significantly. More than 350,000 Americans have ESRD which gives the 
United States the highest incidence rate. As the population continues 
to grow and age and medical services advance, the need for nurses will 
continue to increase. A report issued by the U.S. Health Resources and 
Services Administration (HRSA), Projected Supply, Demand, and Shortages 
of Registered Nurses: 2000-2020, predicted that the nursing shortage is 
expected to grow to 29 percent by 2020, compared to a seven percent 
shortage in 2005. Nurses are crucial to the health of our Nation and 
those with ESRD.
    According to the U.S. Department of Health and Human Services 
(HHS), the nursing workforce programs housed at HRSA will support the 
recruitment, education, and retention of an estimated 36,750 nurses and 
nursing students and approximately 956 new loan repayments and 
scholarships among other activities. With additional funding in fiscal 
year 2007, the HRSA nursing workforce programs would have more 
sufficient resources to bolster the Nation's nursing workforce at a 
rate necessary to help stem the nursing shortage tide. To address this 
current and growing challenge in the health care delivery system, ANNA 
urges Congress to support the nursing community's request of $175 
million for the HRSA nursing workforce programs. Moreover, please note 
that ANNA supports the written testimony submitted by the Americans for 
Nursing Shortage Relief (ANSR) Alliance and respectfully requests your 
full and fair consideration of the funding allocations and issues 
outlined by ANSR.
    Please know that we understand that Congress has limited resources 
to allocate. However, we are concerned that without adequate funding 
for research and the Nation's nursing workforce, the Nation will falter 
in its efforts to diminish suffering from kidney disease and to provide 
quality nursing care to all in need. On behalf of ANNA's Board of 
Directors and the hundreds of thousands of individuals with kidney 
disease to whom we provide care, thank you for this opportunity to 
submit written testimony regarding the fiscal year 2007 funding levels 
necessary to ensure that our Nation adequately supports kidney disease 
research and the Nation's nursing workforce. Please feel free to 
contact us at any time; we are happy to be a resource to subcommittee 
members and your staff.
                                 ______
                                 
      Prepared Statement of the American Public Health Association

    The American Public Health Association (APHA) is the Nation's 
oldest, largest and most diverse organization of public health 
professionals in the world, dedicated to protecting all Americans and 
their communities from preventable, serious health threats and assuring 
community-based health promotion and disease prevention activities and 
preventive health services are universally accessible in the United 
States. We are pleased to submit our views on Federal funding for 
public health activities in fiscal year 2007.

         RECOMMENDATIONS FOR FUNDING THE PUBLIC HEALTH SERVICE

    The APHA's budget recommendation for overall funding for the Public 
Health Service includes funding for the Centers for Disease Control and 
Prevention (CDC), the Health Resources and Services Administration 
(HRSA), the Substance Abuse and Mental Health Services Administration 
(SAMHSA), the Agency for Healthcare Research and Quality (AHRQ), and 
the National Institutes of Health (NIH), as well as agencies outside 
the subcommittee's jurisdiction--the Food and Drug Administration (FDA) 
and the Indian Health Service (IHS). We encourage the subcommittee to 
restore $1 billion in funding cuts that occurred in fiscal year 2006, 
and reject the President's proposal to cut an additional $600 million 
from the Public Health Service.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    The APHA believes that Congress should support CDC as an agency--
not just the individual programs that it funds. We support a funding 
level for CDC that enables it to carry out its mission to protect and 
promote good health and to assure that research findings are translated 
into effective State and local programs.
    In the best professional judgment of the APHA, in conjunction with 
the CDC Coalition--given the challenges of terrorism and disaster 
preparedness, new and re-emerging infectious diseases, the epidemic of 
obesity, particularly among children, and our many unmet public health 
needs and missed prevention opportunities--we believe the agency will 
require funding of at least $8.5 billion, plus sufficient funding to 
prepare the Nation against a potential influenza pandemic. This request 
reflects the support CDC will need to fulfill its core missions for 
fiscal year 2007, as well as funding for the Agency for Toxic 
Substances and Disease Registry and the Vaccines for Children program.
    The APHA appreciates the subcommittee's work over the years, 
including your recognition of the need to fund chronic disease 
prevention, infectious disease prevention and treatment, and 
environmental health programs at CDC. By translating research findings 
into effective intervention efforts, CDC has been a key source of 
funding for many of our State and local programs that aim to improve 
the health of communities. Perhaps more importantly, Federal funding 
through CDC provides the foundation for our State and local public 
health departments, supporting a trained workforce, laboratory capacity 
and public health education communications systems.
    CDC also serves as the command center for our Nation's public 
health defense system against emerging and reemerging infectious 
diseases. With the potential onset of an influenza pandemic, in 
addition to the many other natural and man-made threats that exist in 
the modern world, the CDC has become the Nation's--and the world's--
expert resource and response center, coordinating communications and 
action and serving as the laboratory reference center. States and 
communities rely on CDC for accurate information and direction in a 
crisis or outbreak.
    Unfortunately, Congress cut overall CDC funding in fiscal year 2006 
for the first time in 25 years. And in fiscal year 2007, the President 
has proposed cutting CDC funding even more--more than 2 percent 
overall, and more than 4.5 percent to CDC's core programs. We are 
moving in the wrong direction, especially in these challenging times 
when public health is being asked to do more, not less. In light of the 
current workload placed on the public health service--in addition to 
the threat of emerging diseases such as the avian flu--it simply does 
not make any sense to cut the budget for CDC at a time when the threats 
to public health are so great. Funding public health outbreak by 
outbreak is not an effective way to ensure either preparedness or 
accountability. Until we are committed to a strong public health 
system, every crisis will force trade offs.
    CDC serves as the lead agency for bioterrorism preparedness and 
must receive sustained support for its preparedness programs in order 
for our Nation to meet future challenges. APHA supports the proposed 
increase for anti-terrorism activities at CDC, including the increases 
for the Strategic National Stockpile and the new Botulinum Toxin 
Research funding. However, we strongly caution that the President's 
proposed level-funding of the State and local capacity grants continues 
to reflect a $95 million cut from fiscal year 2005 levels. We encourage 
the subcommittee to restore these cuts to ensure that our States and 
local communities can be prepared in the event of an act of terrorism.
    Unfortunately, the President's budget proposes the elimination of 
some very important CDC programs, like the Preventive Health and Health 
Services Block Grant. Within an otherwise-categorical funding 
construct, the Preventive Health and Health Services Block Grant is the 
only source of flexible dollars for States and localities to address 
their unique public health needs. The track record of positive public 
health outcomes from Prevention Block Grant programs is strong, yet so 
many requests go unfunded. However, the President's budget proposes the 
elimination of the Preventive Health and Health Services Block Grant--
again. We appreciate the work of the subcommittee to at least partially 
restore the fiscal year 2006 elimination of the Block Grant. 
Nevertheless, the $20 million cut to the Block Grant in fiscal year 
2006 reduces the States' ability to tailor Federal public health 
dollars to their specific needs. As States use their Prevention Block 
Grant dollars to address high priority needs such as emerging and 
chronic diseases, child safety seat programs, suicide prevention, smoke 
detector distribution and fire safety programs, adult immunization, 
oral health, worksite wellness, infectious disease outbreaks, food 
safety, emergency medical services, safe drinking water, and 
surveillance needs--we can scarcely understand why the Prevention Block 
Grant should be eliminated. We encourage the subcommittee to restore 
the cuts and fund the Prevention Block Grant at $132 million.
    We also encourage the subcommittee to provide $10 million for CDC's 
Environmental Public Health Services Branch to revitalize environmental 
public health services at the national, State, and local level. As with 
the public health workforce, the environmental health workforce is 
declining. Furthermore, the agencies that carry out these services are 
fragmented and their resources are stretched. These services are the 
backbone of public health and are essential to protecting and ensuring 
the health and well being of the American public from threats 
associated with West Nile virus, terrorism, E. coli and lead in 
drinking water.
    We appreciate the subcommittee's hard work in advocating for CDC 
programs in a climate of competing priorities.

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

    HRSA programs are designed to give all Americans access to the best 
available health care services. Through its programs in thousands of 
communities across the country, HRSA provides a health safety net for 
medically underserved individuals and families, including more than 45 
million Americans who lack health insurance; 50 million Americans who 
live in neighborhoods where primary health care services are scarce; 
African American infants, whose infant mortality rate is more than 
double that of whites; and the estimated 1 to 1.2 million people living 
with HIV/AIDS. Programs to support the underserved place HRSA on the 
front lines in erasing our Nation's racial/ethnic and rural/urban 
disparities in health status. HRSA funding goes where the need exists, 
in communities all over America. We support a growing trend in HRSA 
programs to increase flexibility of service delivery at the local 
level, necessary to tailor programs to the unique needs of America's 
many varied communities. The agency's overriding goal is to achieve 100 
percent access to health care, with zero disparities. In the best 
professional judgment of the APHA, to respond to this challenge, the 
agency will require an overall funding level of at least $7.5 billion 
for fiscal year 2007.
    The APHA is gravely concerned about a number of programs that are 
slated for deep cuts or elimination under the administration's budget 
proposal. Building on the HRSA programs that were cut or eliminated in 
the fiscal year 2006 appropriations bill, we strongly suggest that this 
trend is moving our Nation in the wrong direction. We urge the 
subcommittee to restore funding to HRSA programs that were cut last 
year, as well as ensure adequate funding for fiscal year 2007 by 
rejecting the proposed cuts contained in the President's budget.
    We express our dismay at the eroding support from the subcommittee 
for some of HRSA's programs over the last few years, including Health 
Professions programs, Area Health Education Centers, and the Maternal 
and Child Health block grant, among others. On top of the $250 million 
cut to the agency for fiscal year 2006, the President has proposed 
another $321 million overall cut from last year's appropriated level. 
Under the President's proposal, total cuts to HRSA since fiscal year 
2005 would reach more than $570 million, a devastating 8 percent cut in 
2 years. We urge the subcommittee to restore the fiscal year 2006 cuts, 
and reject the President's proposed cuts for fiscal year 2007.
    One program that has received consistent support from the 
subcommittee is the community-based health centers and National Health 
Service Corps-supported clinics, which form the backbone of the 
Nation's health safety net. More than 4,000 of these sites across the 
Nation provide needed primary and preventive care to 15 million poor 
and near-poor Americans. HRSA primary care centers include community 
health centers, migrant health centers, health care for the homeless 
programs, public housing primary care programs and school-based health 
centers. Health centers provide access to high-quality, family-
oriented, culturally and linguistically competent primary care and 
preventive services, including mental and behavioral health, dental and 
support services. Nearly three-fourths of health center patients are 
uninsured or on Medicaid, two-thirds are people of color, and more than 
90 percent live below 200 percent of the poverty level. Additional 
primary care is provided by 2,700 clinicians in the National Health 
Service Corps. Corps members work in communities with a shortage of 
health professionals in exchange for scholarships and loan repayments. 
The APHA is pleased that the President has requested a significant 
increase for Community Health Centers for a total of $1.918 billion.
    Nevertheless, in the context of corresponding cuts to the Health 
Professions programs, we are left with some doubt about who, exactly, 
is going to staff all these new Community Health Centers. We are once 
again very concerned that the HRSA health professions programs under 
Title VII and VIII of the Public Health Service Act have landed on the 
chopping block. Today our Nation faces a widening gap between 
challenges to improve the health of Americans and the capacity of the 
public health workforce to meet those challenges. An adequate, diverse, 
well-distributed and culturally competent health workforce is 
indispensable to our national readiness efforts and to address critical 
health care needs. These programs help meet the health care delivery 
needs of the areas in this country with severe health professions 
shortages, at times serving as the only source of health care in many 
rural and disadvantaged communities. Therefore, the elimination of most 
funding for the Title VII health professions training programs and flat 
funding for Title VIII nurse training will only make certain that the 
needs of these medically underserved populations will not be met.
    Furthermore, we believe the elimination of the Healthy Community 
Access Program, universal newborn hearing screening programs, and the 
Emergency Medical Services for Children Program, will further undermine 
the availability of basic health services for some that are most in 
need--especially children. The Healthy Community Access Program is an 
example in which communities build partnerships among health care 
providers to deliver a broader range of health services to their 
neediest residents. This program of coordinated service delivery is 
innovative, not duplicative of other available programs, and therefore 
its elimination is of grave concern. Also, the proposed zero funding of 
universal newborn hearing screening programs in the administration's 
budget will likely cause many hearing impairments in infants to go 
undetected, which can negatively impact speech and language 
acquisition, academic achievement, and social and emotional 
development. The proposed elimination of the Emergency Medical Services 
for Children Program will likely halt the improvements made in recent 
years to pediatric emergency care, which will disproportionately affect 
children who are eligible for Medicaid and SCHIP, but not enrolled due 
to State enrollment limits and budgetary pressures, and therefore 
frequently use emergency health services.
    The Maternal and Child Health (MCH) Block Grant is operating for a 
second year with less funds than in fiscal year 2005, yet with greater 
needs among more pregnant women, infants, and children, particularly 
those with special health care needs. Furthermore, if programs like the 
Traumatic Brain Injury program, Universal Newborn Hearing Screening, 
and Emergency Medical Services for Children program are eliminated, 
those costs will be borne by the MCH Block Grant.
    We are pleased with the increases proposed by the President for 
programs under the Ryan White CARE Act, administered by HRSA's HIV/AIDS 
Bureau. The CARE Act programs are an important safety net, providing an 
estimated 571,000 people access to services and treatments each year. 
At a time when HIV/AIDS is the sixth leading cause of death for people 
who are 25 to 44 years old in the United States, and the number of new 
domestic HIV/AIDS cases is increasing, we support increased funding for 
Ryan White Act programs.
    Through its many programs and initiatives, HRSA helps countless 
individuals live healthier, more productive lives. As leaders of our 
Nation, this subcommittee decides what direction we will go in terms of 
delivering health care to those who need it most. The APHA believes 
that with adequate resources, HRSA is well positioned to meet these 
challenges as it continues to provide needed health care to the 
Nation's most vulnerable citizens. We encourage the subcommittee to 
restore the funds to these important public health programs and reject 
the proposed cuts in the President's budget.

           AGENCY FOR HEALTHCARE RESEARCH AND QUALITY (AHRQ)

    We request a funding level of $440 million for the AHRQ for fiscal 
year 2007, an increase of $121 million over the enacted fiscal year 
2006 level. This level of funding is needed for the agency to fully 
carry out its congressional mandate to improve health care quality, 
including eliminating racial and ethnic disparities in health, reducing 
medical errors, and improving access and quality of care for children 
and persons with disabilities. The cuts proposed in the administration 
budget will severely hamper these efforts.

   SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION (SAMHSA)

    The APHA supports a funding level of $3.466 billion for SAMHSA for 
fiscal year 2007, an increase of $107 million over the enacted fiscal 
year 2006 level. This funding level would provide support for substance 
abuse prevention and treatment programs, as well as continued efforts 
to address emerging substance abuse problems in adolescents, the nexus 
of substance abuse and mental health, and other serious threats to the 
mental health of Americans.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    The APHA supports a funding level of $29.75 billion for the NIH for 
fiscal year 2007, an increase of $1.1 billion over the enacted fiscal 
year 2006 level. The translation of fundamental research conducted at 
NIH provides the basis for community based public health programs that 
help to prevent and treat disease.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

    The budget of the Office of Minority Health faced several years of 
decreasing budgets prior to last year. In fiscal year 2006, OMH 
received $56 million; and the proposed budget in fiscal year 2007 is 
$46 million. APHA is concerned that at a time when we have increasing 
evidence of disparities in health care delivery, access and health 
outcomes, the budget of OMH is getting cut. We support maintaining OMH 
funding at the fiscal year 2006 level.

                               CONCLUSION

    In closing, we emphasize that the public health system requires 
financial investments at every stage. Successes in biomedical research 
must be translated into tangible prevention opportunities, screening 
programs, lifestyle and behavior changes, and other interventions that 
are effective and available for everyone. While we have said this 
before, in the post-September 11th era, we need to apply this to our 
spending growth in terrorism and influenza preparedness as well. We 
must think in a broad and balanced way, leveraging homeland security 
programs and funding whenever possible to provide public health 
benefits as a matter of routine, rather than emergency.
    We thank the subcommittee for the opportunity to present our views 
on the fiscal year 2007 appropriations for public health service 
programs.
                                 ______
                                 
   Prepared Statement of the American Society for Clinical Pathology

       DEMAND FOR QUALIFIED LABORATORY PERSONNEL OUTSTRIPS SUPPLY

    On behalf of the American Society for Clinical Pathology (ASCP), a 
non-profit organization representing 140,000 pathologists, medical 
technologists, cytotechnologists and other medical laboratory 
professionals, we are submitting this written testimony regarding the 
Title VII Allied Health Professions program that is administered by the 
Health Resources and Services Administration (HRSA).
    Last year, funding for the Title VII Allied Health Professions 
program was cut by 68 percent. Funding for these programs, which 
provide seed money for the establishment and expansion of medical 
laboratory education training programs, was reduced from $300 million 
in fiscal 2005 to $94 million for the 2006 fiscal year. Funding for the 
allied health and other disciplines program was reduced from $11.8 
million to $4 million. Congress eliminated funding for the allied 
health special project grants that fund medical laboratory education 
programs under the Title VII of the Public Health Service Act. These 
programs represent a small portion of the funding provided by the 
Labor, Health and Humans Services, and Education Appropriations bill, 
but their importance to developing the next cadre of laboratory 
professionals can not be overstated.
    Because few patients have direct contact with the people who work 
in our Nation's medical laboratories, the important role these health 
care practitioners play in patient care often goes unnoticed. Not only 
is laboratory testing key to diagnosing patient health, but 
laboratories also help identify appropriate patient treatments. In 
fact, the results of diagnostic laboratory testing impact over 70 
percent of all healthcare treatment decisions. So, ensuring that our 
Nation's laboratories possess the laboratory professionals needed to 
accurately process laboratory testing demands is critical to patient 
health.
    Unfortunately, the United States continues to face a severe 
shortage of qualified laboratory personnel. The U.S. Department of 
Labor projects that approximately 15,000 medical laboratory 
professionals will be needed each year through 2014. Unfortunately, 
fewer than 5,000 individuals are graduating each year from accredited 
or approved educational training programs.
    Hardest hit by the shortage are rural areas and areas served by 
smaller hospitals. These areas are finding it increasingly difficult to 
recruit and retain qualified laboratory personnel. According to data 
gathered by the American Society for Clinical Pathology, half of all 
medical laboratories are reporting substantial difficulties hiring new 
testing personnel. It can often take a laboratory 6 to 12 months to 
hire an employee.
    Another cause for concern is the average age of the laboratory 
workforce, which has been increasing steadily over the past few years, 
reflecting the fact that the pace with which younger, newly trained 
laboratorians have entered the laboratory workforce has not kept pace 
with retirements. At 43.7, the average age of medical technologists is 
essentially the same as that of nurses (43.3). An aging workforce can 
be more vulnerable to the adverse health and safety risks associated 
with shift work. Moreover, as our Nation ages, estimates project that 
the demand for laboratory testing services may increase.
    Personnel turnover is also an increasing problem. With competition 
for laboratory personnel intensifying over the last year, turnover 
rates for some categories of laboratory personnel exceed 20 percent. 
Because of the difficulty in finding qualified staff, medical 
laboratories are increasingly turning to temporary staff (many of whom 
may already be working full- or part-time at another medical 
laboratory) to handle the patient testing workload.
    To make matters worse, our Nation's capacity to train new 
laboratory personnel has declined substantially over the past 10 years. 
According to the National Accrediting Agency for Clinical Laboratory 
Sciences, school closings in the last 5 years have reduced the number 
of medical technologists and medical laboratory technicians being 
trained annually. The number of individuals graduating from these 
educational programs has declined approximately 35 percent over the 
last 10 years, from 6,783 graduates in 1994 to 4,390 in 2004. Over the 
last 10 years, the number of educational programs for laboratory 
professionals has declined more than 30 percent, from 637 programs in 
1994 to 435 programs in 2004. For cytotechnologists, the number of 
educational programs has been reduced 25 percent over the last 10 
years, from 65 programs in 1994 to 49 programs in 2004. Only 260 
cytotechnologists graduate from these educational programs each year. 
Now with the devastating cuts to the Title VII programs, more programs 
may close.
    Besides reducing our ability to train new laboratorians quickly, 
these losses have an especially profound impact on rural areas, where 
prospective laboratory practitioners often seek training close to home. 
Wyoming, for example, has no accredited or approved medical laboratory 
educational programs. Not surprisingly, data provided by HRSA indicates 
Wyoming has one of the lowest concentrations of laboratory 
professionals per resident (66 per 100,000 residents) in the United 
States.
    ASCP believes that the Title VII Allied Health Education Programs 
have helped make a difference. For example, the University of Nebraska 
has for several years now offered a medical laboratory education 
program that has received funding under the allied health and other 
disciplines program. The University's program includes an effective 
distance training program that has served other nearby States as well. 
HRSA data indicates Nebraska has more than 128 laboratory professionals 
per 100,000 residents--almost twice the number of Wyoming and one of 
the highest concentrations of laboratory personnel in the United 
States. Because of cuts to the Title VII programs, Federal funding for 
the University of Nebraska's medical laboratory education program has 
been eliminated.
    Given that medical technologist and medical laboratory technician 
jobs have often been ranked among the best jobs by the Jobs Rated 
Almanac, we hope increasing funding for laboratory professionals 
education programs will help encourage more individuals to pursue 
rewarding careers in the medical laboratory. Your help in restoring 
funding for these important educational programs will make our shared 
goal of reversing the laboratory personnel shortage much more 
obtainable. ASCP joins with our colleagues in the Health Professions 
and Nursing Education Coalition to request that Congress appropriate 
$550 million for the Title VII programs.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following statement on the fiscal year 2007 appropriation for the 
National Institutes of Health (NIH). The ASM is the largest single life 
science Society with over 42,000 members who are involved in basic 
biomedical research, research and development activities, and 
diagnostic testing in university, industry, government and clinical 
laboratories.
    The ASM is deeply concerned that the President's proposed fiscal 
year 2007 budget falls far short of adequately funding biomedical 
research supported by the NIH. Under the President's fiscal year 2007 
budget request, 18 of the 19 Institute budgets are reduced in real 
dollars. These proposed reductions come at a time when more, not less, 
research is needed to address pressing health problems. Funding for the 
NIH in recent years has fallen substantially in constant dollars, 
foreshadowing a troubling future for biomedical research and for 
progress against health challenges from emerging and entrenched 
infectious diseases and chronic diseases. The continued toll on human 
life from chronic diseases, new threats from pandemic diseases and the 
potential dangers from bioterrorism make the ASM firmly believe that 
now is not the time to perpetuate the decline in funding of the past 
three fiscal years for the NIH. Biomedical research supported by the 
NIH is critical to the discovery of new knowledge and understanding 
which underpins development of medical treatments and vaccines. As the 
U.S. population ages and as global stability is threatened by 
pandemics, basic research which can only be supported by the NIH is 
essential to the well being of the world. However, basic biomedical 
research and the recruitment and training of the next generation of 
researchers will be weakened if funding for the NIH stagnates and does 
not keep pace with inflation for a fourth year.
    The ASM commends Congress for the past decades of substantial and 
sustained funding for the NIH, an investment which is key to global 
health and benefits all Americans medically and economically. The ASM 
is pleased that the Senate recently has taken steps to increase the NIH 
budget for fiscal year 2007. The ASM urges Congress to continue to 
recognize the medical, economic, and strategic importance of adequately 
funding the NIH and recommends at least a 5 percent increase for the 
NIH in fiscal year 2007, an appropriation of $29.75 billion. This level 
of funding is the minimum amount necessary to sustain the current rate 
of research progress and offset biomedical research inflation.
biomedical research benefits public health preparedness and the economy
    In the past year, there have been tragic reminders that being 
unprepared protects neither the public health nor the economic and 
strategic interests of the United States. Increased support for 
biomedical research is needed because new knowledge and technology are 
the pillars of preparedness against biological threats. Each day we 
face local, national, and global threats to health, safety, and well-
being. To counter these threats, the NIH's resources are focused on 
preserving and improving health in this country and elsewhere through 
innovative, cutting-edge research. Declining cancer, heart disease and 
stroke mortality, extended HIV/AIDS life expectancies, and massive 
genome databanks are evidence of the power of biomedical research. 
Research supported by the NIH is responding to the realities of 21st 
century medicine, developing predictive and preemptive medical 
capabilities to overcome expected health resource shortages and 
unforeseen dangers like newly identified microbial pathogens.
    Research funded by the NIH also contributes to the Nation's 
competitiveness and economic strength, which is clearly rooted in basic 
science that generates commercially viable products and technologies. 
Biomedical research advances scientific knowledge, expands the high-
technology workforce of the Nation, and enhances innovation among the 
country's private sector companies. Roughly 84 percent of the proposed 
fiscal year 2007 NIH budget will support the extramural science 
community through research grants and contracts. This funding will 
sustain work by more than 200,000 research personnel affiliated with 
approximately 3,000 hospitals, universities, private companies, and 
other research facilities.

          INFECTIOUS DISEASE RESEARCH NEEDS INCREASED SUPPORT

    Inadequate increases in funding for biomedical research weakens our 
national defenses against infectious diseases, which despite some 
medical victories persist as the second leading cause of death 
worldwide, accounting for 26 percent of all deaths. Infectious diseases 
particularly affect years of healthy life lost because they cause 
approximately two-thirds of deaths among children less than 5 years of 
age. Our ability to combat infectious diseases depends on basic 
research of how microbes spread, how they are harbored in the 
environment, and how they cause disease. The National Institute of 
Allergy and Infectious Diseases (NIAID) supports research that is 
essential to developing strategies to prevent, diagnose and treat 
infectious diseases here and abroad. NIAID funding supports both 
intramural and extramural researchers in academia and the private 
sector searching for new therapies, diagnostics, vaccines, and other 
technologies that improve health care for infectious diseases. This 
critical work also focuses on high-priority homeland security 
initiatives, includes influenza preparedness and counter-bioterrorism. 
Unfortunately, the proposed fiscal year 2007 budget leaves funding for 
the NIAID flat, about $4.4 billion or 0.3 percent over the fiscal year 
2006 appropriation. With additional resources the NIAID could fund more 
promising initiatives and restore funding for research projects.

                    THE THREAT OF PANDEMIC INFLUENZA

    Biomedical research and preparedness save lives and, in the case of 
pandemic influenza, the number of lives saved could be significant. 
Anticipating dire possibilities if the H5N1 avian influenza virus 
mutates sufficiently to move easily from human to human, the Department 
of Health and Human Services (DHHS) and other Federal agencies recently 
introduced the National Strategy for Pandemic Influenza. The ASM 
commends this plan as a prudent response to what could become a lethal 
global event. Fearsome pandemics have ravaged human populations three 
times in the past century: the 1918-1919 Spanish influenza that took 
more than 40 million lives worldwide, the 1957 Asian influenza, and the 
1968 Hong Kong influenza. Those unusually virulent viral strains 
contained genetic material from avian influenza viruses like the 
current H5N1 virus. Confirmed reports of H5N1 related deaths in birds 
and mammals are coming from an expanding list of nations, where 
millions of domestic and wild fowl have died or been destroyed. In just 
the 4 months since the introduction of the National Strategy for 
Pandemic Influenza, H5N1 has spread to 37 nations. At present about 186 
humans have contracted the disease, more than half of whom have died. 
Feared for their facile ability to infect and kill, influenza viruses 
are always with us. Every year, seasonal influenza causes 250,000 to 
500,000 deaths worldwide. In the United States, this highly 
communicable disease annually causes an average 36,000 deaths, more 
than 200,000 hospitalizations, and, when calculated with pneumonia, an 
estimated $37.5 billion in direct and indirect costs. Together 
influenza and pneumonia are the leading infectious cause of deaths in 
the United States, ranked seventh among all causes of death. The 
Centers for Disease Control and Prevention has estimated that if 
pandemic flu arrives in the United States, 90 million people will 
become ill and almost 2 million people could die. The global potential 
for profound loss, millions of human lives and billions in financial 
costs, clearly demands that our public health institutions be ready 
with the most effective preventive and therapeutic measures against 
influenza.
    The ASM strongly supports the critically important NIH influenza 
initiatives. Researchers sponsored by the NIAID are focusing on 
effective vaccines and antivirals as prioritized in the national 
strategic plan, which calls for pandemic vaccine within 6 months of 
detection, as well as enough antiviral treatment. Scientists supported 
by the NIAID have completed a successful clinical trial of an 
experimental inactivated H5N1 influenza vaccine. Research efforts in 
the DHHS Plan also include the development of new vaccine delivery 
systems and higher capacity cell-based production methods. Recent 
advances supported by the NIAID include the institute's Influenza 
Genome Project, collecting to date the full genomic sequences of more 
than 830 influenza viral isolates from human patients and building a 
repository databank for use by other scientists.

                  PROGRESS AGAINST INFECTIOUS DISEASES

    There are numerous research programs at the NIH that battle a long 
and growing list of infectious diseases which deserve increased 
support. Biomedical research consistently yields new ways to treat or 
prevent diseases. The following are just a few examples of new science 
advances:
    Scientists supported by the NIAID have collaborated to develop a 
tissue culture cell system in which the whole hepatitis C virus can be 
grown, which will allow researchers to better understand how Hepatitis 
C Virus (HCV) replicates and causes infection. HCV is a major cause of 
chronic liver disease with over 170 million infected people worldwide 
and can progress to cirrhosis of the liver, leading to liver cancer and 
failure. Two studies by the NIAID have shown that anti-cancer drugs 
show promise as potential antiviral drugs and merit further 
exploration. A vaccine to protect adults and adolescents against 
illness due to Bordetella pertussis infection, or whooping cough, has 
proved more than 90 percent effective in a large-scale clinical trial, 
which could help stem the increase in pertussis cases in the United 
States. The NIAID has supported a clinical trial of a vaccine against 
pneumococcal disease, which is a major cause of illness and death in 
children worldwide.
    Biomedical research must remain focused on major killers like HIV/
AIDS, tuberculosis and malaria, which together are responsible for more 
than 5 million deaths each year. Despite extensive prevention programs, 
an estimated 14,000 people are newly infected with HIV daily. Twenty-
five years after physicians first described AIDS as a new disease, more 
than 40 million people are living with HIV. The bacterium that causes 
TB currently infects about one-third of the world's population. Multi-
drug resistant (MDR) TB increased 13.3 percent in the United States 
from 2003 to 2004, the largest single year increase in MDR TB since 
l993, presenting significant challenges to treatment and control of TB 
in the United States and abroad. Extensively drug-resistant (XDR) TB 
has increased in the industrialized nations from 3 percent of MDR TB 
cases in 2000 to 11 percent in 2004. Two new engineered TB vaccines 
developed with support of the NIAID have entered clinical trials and a 
number of TB drug candidates are ready for clinical testing. Scientists 
continue to pursue a wealth of genomic data to understand malaria 
pathogenesis and to uncover new molecular targets for both drugs and 
vaccines for malaria which has an incidence of 300 to 500 million cases 
a year.
    The NIAID funds extensive, multifaceted programs focused on these 
devastating diseases. In the past year, advances include: the new 
Center for HIV/AIDS Vaccine Immunology to address what is proving to be 
the very difficult task of finding HIV vaccines, with clinical sites in 
England, Africa, and three U.S. States; a clinical trial of two topical 
microbicides to assess effectiveness in stopping HIV transmission; and 
detection of a cellular protein that helps the tuberculosis microbe 
resist standard antimicrobials.

               EMERGING DISEASES AND BIODEFENSE RESEARCH

    A world influenced by rapid transit and global markets challenges 
not just U.S. competitiveness, but also our public health networks and 
our national sense of security. We no longer can view far-flung disease 
outbreaks as remote or theoretical threats to our well-being. The 
administration has requested $1.9 billion in fiscal year 2007 funding 
for the NIH's biodefense efforts in recognition that the ability to 
counter bioterrorism depends on progress in biomedical research and the 
support of scientific capacity to respond to new biological threats. In 
2005, the NIAID awarded two additional grants to research consortia 
aimed at new vaccines, therapies, and diagnostics, completing a 
national network of 10 Regional Centers of Excellence for the NIAID 
Biodefense and Emerging Infectious Diseases Research program. Research 
targets include anthrax, plague, smallpox, West Nile fever, botulism, 
hantaviruses, viral hemorrhagic fevers and many other less-common 
diseases. The NIAID also began clinical trials of an experimental DNA 
vaccine against the West Nile virus, which first appeared in the United 
States in 1999; two NIAID-supported teams identified how Nipah and 
Hendra viruses attack human and animal cells, both emerging viruses 
that cause serious respiratory and neurological disease; and NIAID 
researchers and their university partners determined which host-cell 
enzymes Ebola viruses can hijack to infect humans.

                               CONCLUSION

    To sustain the pace of research discovery, we must continue to 
enhance the research capacity and productivity of the Nation's 
biomedical research enterprise. We must be prepared for the predictable 
diseases and build sufficient research capacity to detect and respond 
quickly to unexpected health threats. The 2002-2003 outbreak of Severe 
Acute Respiratory Syndrome (SARS) is a prime example of this balance, a 
rapid international response occurred to the sudden reality of a novel 
pathogen, which spread to more than two dozen countries. Biomedical 
scientists drew upon vast reserves of earlier viral research and 
quickly developed three distinct SARS vaccines now being evaluated, 
with the first human clinical trial opening just 21 months after SARS 
appeared as a new disease. Increased funding for biomedical research 
will strengthen our public health preparedness, our technological 
competitive edge and our ability to improve the quality and length of 
life for people. We urge Congress to provide at least a 5 percent 
increase for the NIH budget for fiscal year 2007 to help accomplish 
these goals.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is submitting the 
following statement in support of increased funding for the Centers for 
Disease Control and Prevention (CDC) in fiscal year 2007. The ASM is 
the largest single life science society with over 42,000 members who 
are involved in research and diagnostic testing in university, 
industry, government and clinical laboratories.
    The fiscal year 2007 budget request would reduce funding for the 
CDC for the second year in a row. Excluding one-time emergency funding 
items, CDC core programs would be cut over 4 percent below the fiscal 
year 2006 level of funding, which was 4 percent below the fiscal year 
2005 budget. In view of the CDC's critical role in protecting the 
health and safety of the public, the cumulative two year reduction of 
funding of over 8 percent is cause for serious concern. The ASM 
recommends that Congress provide $8.5 billion plus sufficient funding 
for pandemic influenza preparedness for the CDC in fiscal year 2007. 
This level of funding will sustain core programs crucial to improving 
public health in the United States and overseas.
    The CDC works with partners in the United States and across the 
globe to monitor health status and trends, detect and investigate 
health problems, conduct research to enhance prevention, develop and 
advocate sound health policies, and foster safe and healthy 
environments. CDC capabilities must expand, not contract, as increasing 
worldwide connectivity brings global health concerns to the United 
States. Among the CDC's health protection goals are ``people prepared 
for emerging health threats'' and ``healthy people in a healthy 
world.'' Both will require continued, extensive efforts here and abroad 
and clearly need sustained funding to assure success.

                            CDC PREPAREDNESS

    CDC leadership in public health requires readiness to respond to 
unexpected health crises, above and beyond the Agency's ability to 
guard day-to-day wellness of people. In fiscal year 2005, the CDC's 
Epidemic Intelligence Service (EIS) officers responded to 66 health 
outbreaks, eight of them in other countries, and personnel from the CDC 
assigned to State or local health departments conducted 367 field 
investigations. After Hurricane Katrina struck the Gulf Coast, the CDC 
quickly provided information critical to preserving health and created 
the Katrina Information Network, later called the Emergency Response 
Information Network. Within two weeks, the CDC posted nearly 200 
pertinent documents on its website (on infection control, first 
responder and volunteer safety, environmental issues and more). A 
commercial test kit for mold contamination, developed in 2003 by 
scientists of the CDC and a private biotech company, became a valuable 
assessment tool post-Katrina. Calls to the agency for rapid response 
generally involve infectious diseases, which persist as a principal 
concern of the CDC.

                           PANDEMIC INFLUENZA

    Within the proposed fiscal year 2007 budget, pandemic influenza is 
a top-priority for funding for the CDC. The requested $188 million for 
pandemic preparedness would expand the CDC's participation in the 
Federal interagency National Strategy for Pandemic Influenza, the 
Federal agency plan to prevent, detect, and treat outbreaks of 
influenza. Since mid-2005, a virulent avian influenza virus (strain 
H5N1) has been moving more rapidly from nation to nation, killing 
millions of wild and domestic birds and causing concern that viral 
mutations might cause human-to-human transmission. Scientists recently 
found that the human virus strains responsible for three major 
pandemics in the 20th century contained genetic material derived from 
avian viruses. Thus far, human deaths from H5N1 have been relatively 
few, but those known to be infected suffer a high mortality rate. 
Globally, traditional seasonal influenza already kills 250,000 to 
500,000 each year; pandemic influenza could kill many millions. 
Although the H5N1 virus has not reached the United States, many health 
officials consider future outbreaks in this country to be inevitable. 
If viral mutations provoke a human pandemic, 15-35 percent of the U.S. 
population could be affected, exacting a large number of influenza 
deaths and economic losses of $71.3-$166.5 billion, according to the 
CDC's estimates.
    The proposed fiscal year 2007 funding for pandemic preparedness 
will continue fiscal year 2006 improvements in domestic disease 
surveillance, upgrades of quarantine stations at major ports of entry, 
and support of global surveillance and detection activities in endemic, 
epidemic, and other high-risk countries. The proposed budget would fund 
new resources to increase stocks of diagnostic reagents; establish 
laboratory facilities with appropriate biocontainment capabilities; 
develop models and risk-assessment tools to predict disease spread; 
increase seasonal flu vaccine production; establish a viral-genome 
reference library; and create an electronic registry to more 
effectively track, distribute and administer vaccines to the public. 
The CDC would conduct studies that examine human infections of animal 
influenza A viruses; an additional $2.8 million would streamline 
outbreak response in countries identified as needing special 
assistance; and nearly $20 million would help States administer more 
seasonal influenza vaccines and thus stimulate greater vaccine 
production by manufacturers.
    In the past year, Federal support for the CDC's influenza 
preparedness activities yielded promising testing and vaccine 
development innovations. Researchers developed a laboratory test to 
diagnose currently circulating A/H5 (Asian lineage) strains of 
influenza in patients, which was approved this February by the Food and 
Drug Administration. Using advanced molecular technology, the test 
gives preliminary results within four hours, compared to two to three 
days with previous testing. To more rapidly detect U.S. influenza 
outbreaks, the test is being distributed to laboratories within the 
national Laboratory Response Network (LRN), facilities in all 50 States 
with special training in molecular testing, biosafety, and containment 
procedures. The CDC also shared the new testing technology with the 
World Health Organization (WHO); the CDC is one of four WHO 
Collaborating Centers worldwide providing technical and logistical 
expertise on pandemic influenza. Using new genetic sequence 
information, scientists from the CDC also collaborated last year with 
Federal and academic researchers to reconstruct the virus responsible 
for an estimated 20 to 50 million people during the 1918-19 pandemic. 
The virus particles are being stored at the CDC, for use in expedited 
vaccine and antiviral drug development.

                          INFECTIOUS DISEASES

    To protect public health, the CDC has a major responsibility for 
preventing and controlling infectious diseases, still a leading cause 
of death and disability in this country and worldwide. The ASM is 
particularly aware of the important role of the CDC in protecting 
against infectious diseases. The fiscal year 2007 budget request 
includes $245 million for infectious disease programs, from laboratory 
research and epidemic investigations to surveillance networks, public 
education programs and specialized training. Increased funding for 
infectious diseases is needed not only to maintain and expand funding 
for existing infectious disease problems, but also to respond to new 
infectious disease threats and emergencies. The CDC must be able and 
ready to respond to shifting challenges, as it has done in the past for 
emerging disease outbreaks. The public clearly expects and relies on 
the CDC for rapid response to disease threats and for accurate, 
science-based advice on health issues. After the agency consolidated 
all of its more than 40 health information hotlines and clearinghouses 
into one toll-free service last March, the consumer center handled 
nearly 500,000 calls during its first 9 months and continues to expand.
    Preventing and controlling serious infectious diseases in the 
United States depends on the CDC's scientific expertise and education 
outreach tailored for specific diseases. An example is the CDC program 
to prevent HIV/AIDS, sexually transmitted diseases, and tuberculosis, 
an ongoing multi-faceted effort that is allotted $1.0 billion in the 
administration's fiscal year 2007 request ($86 million more than fiscal 
year 2006). Tuberculosis continues to be a serious threat in the United 
States and worldwide, with a 13.3 percent increase in multi-drug 
resistant (MDR) TB in the United States from 2003 to 2004, the largest 
single year increase in MDR TB since 1993. An estimated 40,000 
individuals newly acquire HIV in the United States each year and far 
more effort to prevent new infections is needed. The prevalence of 
anti-retroviral resistance to therapy at the time of HIV diagnosis is 
also increasing rapidly and will result in dramatically increased 
morbidity and health care costs if more effective efforts at prevention 
are not implemented. In contrast, new pediatric HIV infections are 
decreasing in number and routine prenatal HIV testing planned by the 
CDC for fiscal year 2007 should decrease pediatric cases even further. 
The CDC's National Plan to Eliminate Syphilis, started in 1999, 
requires further support with syphilis rates among U.S. men 
unfortunately increasing in the United States.
    Preventive health in the United States met a major milestone last 
year, when government efforts finally eliminated rubella virus, the 
highly contagious agent of childhood measles. The ASM agrees with the 
CDC's fiscal year 2007 budgetary emphasis on vaccination, certainly one 
of the most efficient and effective methods to fight infectious 
diseases. The fiscal year 2007 $2.6 billion immunization program 
continues two established components to protect the Nation's children, 
the Vaccines for Children program that provides vaccines free to 
children in financial need (40 percent of all childhood vaccines 
purchased in the United States), and the Section 317 program, 
supporting State-managed immunization programs. Researchers from the 
CDC recently used computer modeling to evaluate economic benefits from 
this country's standard childhood immunization schedule, comprising 
seven vaccines for illnesses like diphtheria, mumps, and polio. They 
concluded that collectively the immunizations not only save thousands 
of lives each year, but also $10 billion in direct medical costs plus 
more than $40 billion in indirect costs.
    The CDC's protection of American health and safety reaches beyond 
national borders, facing infections that can migrate from one afflicted 
population to the next through global travel and commerce. 
International collaboration against pandemic influenza is a large-scale 
example, but one among many such responses. Last year, experts from the 
CDC worked with officials from the WHO and the Angola government to 
control an outbreak of Marburg hemorrhagic fever in that African 
nation, posting traveler alerts on its website and providing on-site 
laboratory and field investigative services.
    The proposed fiscal year 2007 budget requests $381 million for the 
CDC's global health activities, to improve detection and control of 
diseases such as HIV/AIDS, malaria, polio, and measles. In fiscal year 
2005, the CDC program Preventing Mother-and-Child HIV Transmission 
collaborated with other nations to screen 2 million pregnant women in 
15 countries, giving short-course antiretroviral prophylaxis to 125,000 
who tested HIV-positive. The fiscal year 2007 budget includes $122 
million in direct AIDS-related funding for ongoing prevention, 
treatment, and surveillance in 25 countries. From 1988 to 2004, global 
polio incidence declined by more than 99 percent, saving about 250,000 
lives and avoiding 5 million cases of childhood paralysis. Global 
deaths due to measles fell by 48 percent between 1999 and 2004.
    The National Laboratory Training Network (NLTN) is a unique 
training system sponsored by the CDC and the Association of Public 
Health Laboratories. The NLTN is solely dedicated to ensuring quality 
laboratory practice for testing of public health significance through 
relevant and timely continuing education offered in a variety of 
educational venues at a reasonable cost, often at no charge. The NLTN 
Continuing Education programs offer laboratories critical insights into 
public health needs while also ensuring high quality, cost-effective, 
and clinically relevant direct patient testing needs are met. The ASM 
strongly supports the continuation of the NLTN programs though the CDC.

                              BIOTERRORISM

    The possibility of bioterrorism persists as a principal focus for 
the CDC, and the fiscal year 2007 budget requests $1.7 billion to 
support ongoing programs, the Strategic National Stockpile (SNS), 
surveillance and quarantine efforts, laboratory research on high-risk 
pathogens like anthrax, and assistance to State and local governments. 
Since its creation in 1999, the SNS has expanded its inventory of 
vaccines, drugs, and other countermeasures, preparing for health crises 
like influenza pandemics, natural catastrophes like Hurricane Katrina, 
and biological, chemical, radiological, or nuclear terrorist attacks. 
Supplies can be delivered anywhere in the United States within 12 hours 
of an event. The SNS fiscal year 2007 request of $593 million increases 
the fiscal year 2006 appropriation by $70 million, nearly $50 million 
of which will finance portable hospital units under the Mass Casualty 
Initiative, for rapid deployment to expand local hospital capacity. The 
CDC's fiscal year 2007 bioterrorism strategy also includes funding to 
utilize a recent invention, a new mass spectrometry method from the 
CDC's Environmental Health Laboratory for detecting botulinum toxin in 
people and the Nation's milk supply within 15 seconds. The additional 
funds will improve the method to more rapidly detect anthrax lethal 
factor, ricin and other toxins that can be used as bioweapons, as well 
as fully exploit the method's ``fingerprinting'' of suspect toxins to 
determine their source.
    The ASM asks Congress to recognize and support the CDC's crucial 
activities by providing increased support for the CDC's core programs 
and pandemic influenza preparedness.
                                 ______
                                 
        Prepared Statement of the American Society of Nephrology

                              INTRODUCTION

    The American Society of Nephrology (ASN) is pleased to submit this 
statement for the record to the Senate Appropriations Subcommittee on 
Labor, Health and Human Services, and Education in support of the ASN's 
top funding and research priorities for fiscal year 2007.
    The ASN is a professional society of more than 10,000 researchers, 
physicians, and practitioners who are committed to the treatment, 
prevention, and cure of kidney disease. Specifically, the ASN is 
committed to enhance and assist the study and practice of nephrology, 
to provide a forum for the promulgation of research, and to meet the 
professional and continuing education needs of its members.
    The ASN statement focuses on those issues and programs that most 
immediately fall under the committee's jurisdiction and assist our 
members to fulfill their missions. We want to express our strong 
support for advancing programs supported by the National Institutes of 
Health (NIH) and Agency for Healthcare Research and Quality (AHRQ). The 
ASN thanks the subcommittee for its commitment and steadfast support of 
these programs.

                       THE FACE OF KIDNEY DISEASE

    Kidney disease is a major health problem in the United States, and 
along with Alzheimer's disease, the fastest growing cause of death in 
the United States. (CDC data). It is estimated that at least 15 million 
people have lost 50 percent of their kidney function without even 
knowing it and suffer from Chronic Kidney Disease (CKD). Another 20 
million more Americans are at increased risk of developing kidney 
disease. Sub clinical kidney disease has emerged recently as a major 
risk factor for CVD. The culmination of unimpeded progression is end 
stage renal disease (ESRD), a condition in which patients have 
permanent kidney failure, affects almost 400,000 Americans, and 
directly causes 50,000 deaths annually. In the past 10 years, the 
number of patients in the United States with ESRD has almost doubled. 
Although the largest age group having ESRD ranges from 45-64 years old, 
rates increase steadily for those between the ages of 65-74 and are 
disproportionately high in African-Americans. African-Americans 
represent about 32.4 percent of all patients treated for kidney failure 
in the United States and the risk of ESRD for middle-age African-
American males with high blood pressure is six times that of their 
Caucasian counterparts.

                             ECONOMIC COSTS

    Although no dollar amount can be affixed to human suffering or the 
loss of human life, economic data can help to identify and quantify the 
current and projected future financial costs associated with ESRD. The 
2000 report of the United States Renal Data System indicates that the 
total Medicare ESRD program cost will more than double, surpassing $28 
billion, by 2010, as the prevalence of kidney failure is projected to 
double. The annual average cost per ESRD patient is approximately 
$55,000. These escalating costs serve to magnify the need to 
investigate new, and better apply, recently proven strategies for 
preventing progressive kidney disease.
    In short, we can treat and maintain patients who have lost their 
kidney function but the critical need is to prevent the loss of kidney 
function and its complications in the first place. Meeting this vital 
goal can only be accomplished through more concerted research and 
education.

                MAJOR CAUSES OF END STAGE RENAL DISEASE

    Diabetes, a disease that affects 17 million Americans, is the most 
common cause of ESRD in the United States. Nearly 34 percent of all 
Americans being treated for kidney failure have diabetes. Moreover, 
only 18 percent of people with diabetes survive 5 years after beginning 
treatment for kidney failure. With current projections that the 
epidemic of obesity-related diabetes mellitus will continue to soar, a 
dramatic increase in kidney disease is anticipated in the next 10 
years.
    Hypertension, or high blood pressure, is the next leading cause of 
ESRD, accounting for 23.6 percent of ESRD patients. Similar to 
diabetes, higher rates of hypertension can be found among certain age 
and ethnic groups. For example, hypertension is common among African-
Americans (35 percent). It is also a disease of the aged and accounts 
for 37 percent of new ESRD cases in those 65 years old and above.
    Despite recent progress and discoveries regarding the major causes 
of ESRD, it is among many areas of disease research that remain under-
investigated. Researchers agree that significant inroads in previously 
understudied sub-fields need to be made. Significant among them, more 
focus and direction need to be introduced into the general field of 
renal research and patient and physician education. These pressing 
factors provided the impetus for an informal dialogue on the resulting 
calls to action.

                        LACK OF PUBLIC AWARENESS

    A major problem with kidney disease is that it is largely a 
``Silent Disease''. In fact, of the 15 million Americans who have lost 
at least half of their kidney function, the vast majority have no 
knowledge of their condition. While people with chronic kidney disease 
may not show any symptoms, this does not mean that they are not going 
to have long-term damage to their kidney function, requiring dialysis 
or a transplant. These people may also be especially vulnerable to 
cardiovascular disease. If these 15 million people were identified 
early, there are new therapies, particularly special blood pressure 
drugs known as ACE inhibitors, which could be prescribed with 
potentially significant benefits. In addition, vigorous treatment of 
hypertension and other complications that cause illnesses and loss of 
productivity could be administered to the patients.
    Given the cost to human life and to the Federal Government caused 
by ESRD specifically, as well as other forms of kidney disease, we urge 
this subcommittee to provide funding increases for kidney disease 
research.

                        KIDNEY DISEASE RESEARCH

National Institutes of Health (NIH)
    The ASN applauds Congress and members of the subcommittee for 
leading the bipartisan effort to double our investment in promising 
biomedical research supported and conducted by the NIH. NIH has served 
as a vital component in improving the Nation's health through research, 
both on and off the NIH campus, and in the training of research 
investigators, including nephrology researchers. Strides in biomedical 
discovery have had an impact on the quality of life for people with 
kidney disease. If we are to sustain this momentum and translate the 
promise of biomedical research into the reality of better health, this 
Nation must maintain its commitment to medical research. We support the 
recommendation of the Ad-Hoc Group for Medical Research Funding to add 
5 percent in fiscal year 2007 to the NIH budget for a total of $29.750 
billion.
    In fiscal year 2007, the NIH budget must grow by 3.5 percent, or 
nearly $1 billion, just to keep pace with inflation. Further, the NIH 
has ambitious plans for new initiatives to combat the health challenges 
of the future. To ensure that NIH's momentum is not further eroded, and 
to continue the fight against the diseases and disabilities that affect 
millions of Americans, the ASN will work with the administration and 
the Congress to seek an NIH budget of at least $30 billion for fiscal 
year 2007.
National Institute of Diabetes, Digestive, and Kidney Diseases (NIDDK)
    Many recent advances have been made in our understanding into the 
causes and progression of renal failure, such as: how diabetes and 
hypertension affect the kidney and the mechanisms responsible for acute 
renal failure.
    Despite these advances, the number of people with renal failure and 
the numbers who die of renal failure continue to increase each year. 
Most alarming is the significant increase in diabetes, the most common 
cause of chronic kidney failure, and its relationship to kidney 
disease. The ASN believes the rising incidence and prevalence of 
diabetes-related kidney disease warrants additional recourses to 
improve our understanding of the relationship between kidney disease 
and diabetes.
    The NIDDK sponsors a number of activities that researchers hope 
will lead to improved detection, treatment and prevention of kidney 
disease and chronic kidney failure. To ensure ongoing kidney disease 
and kidney disease related research and important clinical trials 
infrastructure development we recommend a 5 percent increase for the 
NIDDK over fiscal year 2006 levels.

        ASN RESEARCH GOALS & RECOMMENDATIONS FOR KIDNEY DISEASE

    In the fall of 2004, the ASN conducted a series of research 
retreats to develop priorities to combat the growing prevalence of 
kidney disease in the United States. The ASN joined experts, both 
within and outside the renal community, and identified five areas 
requiring attention: acute renal failure, diabetic nephropathy, 
hypertension, transplantation, and kidney-associated cardiovascular 
disease.
    The final research retreat report(s) highlighted priorities and 
contained three overriding recommendations. Theses include:

1. Development of Core Centers for kidney disease research
    Expansion of the kidney research infrastructure in the United 
States can be achieved by vigorous funding of a program of kidney 
research core centers. Specifically, we propose that the number of 
kidney centers be increased with the goal of providing core facilities 
to support collaborative research on a local, regional and national 
level. It should be emphasized that such a program of competitively 
reviewed kidney core centers would facilitate investigator-initiated 
research in both laboratory and patient-oriented investigation. This 
approach is highly compatible with the collaborative research 
enterprise conceived in the NIH Road Map Initiative.

2. Support programs/research initiatives that impact the understanding 
        of the relationship between renal and cardiovascular disease
    It is now well recognized that chronic kidney dysfunction is an 
important risk factor for the development of cardiovascular disease. It 
is recommended that the NIDDK and NHLBI work cooperatively to support 
both basic and clinical science projects that will shed light on the 
pathogenesis of this relationship and to support the exploration of 
interventions that can decrease cardiovascular events in patients with 
CKD. Thus, we specifically propose that NHLBI should support 
investigator-initiated research grants in areas of kidney research with 
a direct relationship to cardiovascular disease. Similarly, NHLBI 
should work collaboratively with NIDDK to support the proposed program 
of kidney core research centers.

3. Continued support and expansion of investigator initiated research 
        projects
    In each of the five subjects there are areas of fundamental 
investigation that require the support of investigator initiated 
projects, if ultimately progress is to be made in the understanding of 
the basic mechanisms that underlie the diseases processes. It is 
recommended that there should be an expansion of support for research 
in the areas that lend themselves to this mechanism of funding, by 
encouraging applications with appropriate program announcements and 
requests for proposals. In addition to vigorous support for RO1 grants, 
continued funding of Concept Development and R21/R33 grants is 
essential to support development of investigator-initiated clinical 
studies in these areas of high priority. Such funding is critical to 
accelerate the transfer of new knowledge from the bench to the bedside.
    In summary, the ASN foresees the following important directions in 
the future of kidney disease research:
  --Continued research in acute renal failure, diabetic nephropathy, 
        hypertension, transplantation, and kidney-associated 
        cardiovascular disease;
  --The establishment of core centers for kidney disease research;
  --Persistent attention to the relationship between kidney disease and 
        hypertension and collaboration between NIDDK and NHLBI;
  --Expansion of investigator initiated research projects.
    The ASN will strive to fulfill its mission statement and research 
recommendations (agenda). The ASN will remain active on Capitol Hill 
and assist members of Congress and the administration in their 
understanding of kidney disease and problems facing CKD and ESRD 
patients and the health care providers who serve them.
Agency for Health Care Research and Quality (AHRQ)
    Complementing the medical research conducted at NIH, the AHRQ 
sponsors health services research designed to improve the quality of 
health care, decrease health care costs, and provide access to 
essential health care services by translating research into measurable 
improvements in the health care system. The AHRQ supports emerging 
critical issues in health care delivery and addresses the particular 
needs of priority populations, such as people with chronic diseases. 
The ASN firmly believes in the value of AHRQ's research and quality 
agenda, which continues to provide health care providers, policymakers, 
and patients with critical information needed to improve health care 
and treatment of chronic conditions such as kidney disease. The ASN 
supports the Friends of AHRQ recommendation of $440 million for AHRQ in 
fiscal year 2007.

                               CONCLUSION

    Currently, there is no cure for kidney disease. The progression of 
chronic renal failure can be slowed, but never reversed. Meanwhile, 
millions of Americans face a gradual decline in their quality of life 
because of kidney disease. In many cases, abnormalities associated with 
early stage chronic renal failure remain undetected and are not 
diagnosed until the late stages. In sum, chronic renal failure requires 
our serious and immediate attention.
    As practicing nephrologists, ASN members know firsthand the 
devastating effects of renal disease. ASN respectfully requests the 
subcommittees' continued support to enable the nephrology community to 
continue with its efforts to find better ways to treat and prevent 
kidney disease.
    Thank you for your continued support for medical research and 
kidney disease research. To obtain further information about ASN, 
please go to http://www.asn-online.org or contact Paul Smedberg, ASN 
Director of Policy & Public Affairs at 202-416-0646.
                                 ______
                                 
    Prepared Statement of the Association of Academic Health Centers

    The Association of Academic Health Centers (AAHC) is pleased to 
submit this statement for the record with its fiscal year 2007 
appropriations recommendations for a number of essential programs that 
are critical to improving health and health care delivery in our 
Nation.
    The AAHC, the national organization representing almost 100 
academic health centers, is dedicated to improving the Nation's health 
care system by mobilizing and enhancing the strengths and resources of 
the academic health center enterprise in health professions education, 
patient care, and research. An academic health center consists of an 
allopathic or osteopathic medical school, one or more other health 
professions schools or programs, and one or more owned or affiliated 
teaching hospitals, health systems, or other organized health care 
services. Our member institutions have enormous impact on their 
regions, the Nation, and the global economy.

                        THE RESEARCH ENTERPRISE

    AAHC member institutions are the infrastructure of the Nation's 
research enterprise. Academic health center researchers in both the 
basic and clinical sciences are pushing the bounds of science to 
advance progress in the diagnosis and treatment of myriad diseases and 
chronic illnesses. In addition, our institutions are engaged in a broad 
range of health services research contributing to improvements in the 
organization, financing, and delivery of health services.
    Our key partner in the nation's research achievements is the 
National Institutes of Health (NIH), which throughout its history has 
provided the necessary funding for basic science research and a wide 
array of projects to test clinical applications. Maintaining NIH's 
capabilities to carry out investigator-initiated research is absolutely 
critical to ensure that the Nation advances in health care, sustains 
the education and advancement of highly trained scientists, and builds 
the infrastructure for the conduct of research across the country. We 
believe that America's preeminence in science and its leading position 
in our global economy are tied closely to the Nation's investment in 
its research enterprise through the NIH.
    Over the past 3 years, increases in appropriations for the NIH have 
not kept pace with inflation. In fact, the administration's current 
proposal to freeze the NIH budget at a level that is more than 11 
percent below the 2003 funding level in constant dollars can only be 
viewed as threatening to the Nation. The practical effect of such 
funding is that NIH cannot sustain its ongoing efforts and at the same 
time support promising new research. The opportunity costs in terms of 
our capacity to reduce the burden of illness and improve patient 
outcomes are enormous. Disrupting ongoing research projects or failing 
to support promising new proposals is, in the long run, more costly 
than any short-term budget savings. The cost will be counted by the 
missed opportunities to mitigate or cure many conditions, reducing the 
quality of life for people throughout the world.
    We believe that the Congress must renew its commitment to the 
research enterprise, even in these times of budgetary restraint. 
Failure to do so means that with each passing year the NIH will support 
less internal and extramural research. We are very pleased that the 
Senate Budget Resolution for fiscal year 2007 provides for a $7 billion 
increase in overall discretionary dollars for health and education 
programs, including an assumption of at least $1 billion for the NIH. 
We are very grateful for the leadership of Senators Specter and Harkin 
who proposed an amendment to increase funding and argued persuasively 
for making this investment in the future of biomedical research. We 
strongly recommend that funding for the NIH in fiscal year 2007 be 
increased at least 5 percent or no less than the funding provided in 
fiscal year 2005 to prevent further erosion of its purchasing power.

                    THE HEALTH PROFESSIONS WORKFORCE

    The health workforce must be viewed as a cornerstone of our 
Nation's well being. The health professions not only treat and care for 
patients but also represent an economic engine for the country. 
Unfortunately, the supply of health professionals is threatened. By 
most estimates, there are an insufficient number of health 
professionals to meet current and future demands. It has been estimated 
that the Nation will need approximately 3.5 million health care workers 
in addition to the 2 million workers to replace those who leave the 
workforce.
    Further, the geographic maldistribution of health professionals--
especially primary care physicians and other non-physician 
practitioners--leaves large numbers of Americans without access to care 
with as many as 50 million people living in communities officially 
designated as health professions shortage areas. Of particular concern 
are estimated shortages in dentistry, medicine, nursing, pharmacy, and 
an array of allied health professionals that will likely increase with 
an aging population and potentially less migration of health 
professionals throughout the world.
    The health and economic prosperity of the Nation depend on an 
effective and well-trained health workforce. Key to ensuring an 
adequate supply is investment in the educational programs and the 
students who are pursing careers in the health professions. Moreover, 
these educational programs need to increasingly attract students who 
will practice in underserved areas--both during their training and 
afterward. At the same time, continuing education and distance learning 
programs must be maintained to connect practitioners with advances in 
care and provide opportunities for consultation and referral. 
Strengthening the health care delivery system in underserved areas is 
key to our efforts to improve the health of the Nation and eliminate 
the disparities in health outcomes that result from inadequate access 
to care.
    The cornerstone of efforts to address the maldistribution of health 
professionals, to train a diverse health professions workforce, and to 
promote access for elderly and other vulnerable populations has been 
the programs authorized under Title VII of the Public Health Service 
Act. These programs include targeted scholarships for disadvantaged 
students; initiatives at the secondary school level to prepare students 
for college-level programs in the allied health professions; direct 
support for programs in pharmacy, dentistry, geriatrics, pediatrics, 
and other primary care disciplines; and Area Health Education Centers 
and Health Education and Training Centers. In addition, Title VIII 
funds for nursing have been especially important in helping to address 
widespread and persistent shortages and to develop programs for much 
needed advanced practice nurses, including the faculty to direct these 
programs. Support for health professions programs has been unstable 
and, in the case of Title VII, was cut more than half this year--from 
$252 million in fiscal year 2005 to $99 million in fiscal year 2006.
    It is also important to note that cutting support for health 
professions education is likely to undermine current efforts to 
significantly expand community health centers. Staffing for these 
centers relies on primary care practitioners in the disciplines that 
are the focus of many of the programs in Titles VII and VIII. A recent 
study published in The Journal of the American Medical Association 
(March 1, 2006; Vol. 295, No. 9) found that workforce shortages ``may 
impede the expansion of the U.S. community health center safety net, 
particularly in rural areas.'' The study also recommends that funding 
for Title VII be bolstered as this is ``the only Federal program that 
exists to encourage the production of primary care clinicians likely to 
practice in underserved areas . . .''
    Reports from the member institutions of the AAHC confirm the 
adverse impact of further reductions in funding for Title VII. For 
example, at the University of Nebraska Medical Center, Title VII grants 
totaling $3.2 million were received in fiscal year 2005. These grants 
support the placement of behavioral health professionals in more than 
140 rural and other underserved settings providing over 5,000 annual 
behavioral health visits.
    In addition, the Nebraska Geriatric Education Center, supported by 
a Title VII grant, plays a key role in training professionals to meet 
the needs of older patients while at the same time expanding access to 
care for this population. Finally, the School of Allied Health and the 
primary care medicine programs at the University of Nebraska Medical 
Center depend on Title VII grants to increase the diversity of their 
student population and to provide teaching opportunities in sites 
serving rural and other underserved communities.
    Without continuing support from Title VII grants, California health 
professions training programs could lose approximately $18 million 
annually. Statewide programs in California train physicians to work in 
underserved areas such as rural and inner city clinics, teach medical 
Spanish and cultural awareness skills to health professionals, and work 
with community health workers in low-income neighborhoods to teach 
self-help skills to patients with diabetes and asthma.
    In North Carolina more than $12.5 million in Title VII grants were 
distributed to the University of North Carolina at Chapel Hill, Duke 
University, and Wake Forest University. These funds are used to train 
primary care physicians, dentists, geriatric specialists, physician 
assistants, and others. These programs have helped to recruit a diverse 
cadre of students as well as support the work of Area Health Education 
Centers which are linked to the universities and provide essential 
access to care in underserved areas.
    These are just a few examples of the valuable work that results 
from the Federal funding of Title VII. The administration's 
recommendations would virtually eliminate funding for these programs.
    Leaders of academic health centers nationwide confirm that these 
programs have made a difference in the nation's health. The Nation's 
return on its investment is clear. Title VII has succeeded in (1) 
supplying a workforce to serve populations in need, (2) enabling 
institutions and communities to recruit a diverse workforce, and (3) 
expanding access to care for many of the Nation's most vulnerable 
individuals.
    We strongly recommend that funding for Titles VII and VIII total 
$550 million for fiscal year 2007. This would help to off-set the $155 
million cut in place for this year and ensure that these critical 
programs can continue to address the urgent need to improve the health 
of our Nation.

                     HOSPITAL PREPAREDNESS PROGRAM

    The continuing threats from natural and/or terrorist events require 
our health system to be prepared to treat mass casualty events. 
Critical emergency care and inpatient surge capacity must be available 
across the country. Because of the financial condition of many public 
and non-profit hospitals, the cost of capital to undertake the 
necessary preparations for the treatment of large numbers of patients 
is beyond their reach. These funds make it possible for hospitals to 
build the infrastructure and surge capacity that is necessary to meet 
unknown, but potentially large, public health emergencies.
    We strongly support the administration's budget request for $474 
million for the hospital preparedness program to continue progress 
toward a more rapid and coherent response to these unpredictable 
circumstances.

                    STATE HIGH-RISK INSURANCE POOLS

    The number of uninsured in America continues to grow as employers 
curtail or drop group coverage and many workers are forced to forego 
coverage. The AAHC has been at the forefront of efforts to address the 
crisis of the Nation's uninsured. This is an urgent problem and we are 
committed to supporting a range of approaches to make health coverage 
more accessible and affordable.
    One subset of the uninsured population involves individuals at risk 
for health care coverage because of one or more pre-existing health 
conditions. Some of these individuals have only been able to purchase 
coverage under the auspices of State high-risk health insurance pools 
because no other insurance product is available to them. State high-
risk insurance pools are a vital pathway for those who have been 
excluded from the health insurance market because of their health 
status.
    Section 2745 of the Public Health Service Act authorizes a program 
of grants to the States for the establishment and operation of 
qualified high-risk health insurance pools. In the recently enacted 
Deficit Reduction Act, Congress extended this program and authorized 
$75 million for fiscal year 2007. Unfortunately, the President's budget 
does not recommend any funding for this important program. We urge the 
subcommittee to fund this grant program at the fully authorized amount 
of $75 million.
    We thank you for the opportunity to present our views and 
recommendations regarding funding for discretionary health programs in 
fiscal year 2007. Our member institutions are committed to improving 
the Nation's health and well-being, and we look forward to working with 
Chairman Specter and all members of the subcommittee. We are pleased to 
be available to provide information and answer questions at any time.
                                 ______
                                 
  Prepared Statement of the Association of American Cancer Institutes

    The Association of American Cancer Institutes (AACI), representing 
86 of the Nation's premier academic and free-standing cancer centers, 
appreciates the opportunity to submit this statement for consideration 
as the Labor-Health and Human Services Appropriations Subcommittee 
plans the fiscal year 2007 appropriations for the National Institutes 
of Health (NIH) and the National Cancer Institute (NCI).

                AMERICA'S INVESTMENT IN CANCER RESEARCH

    Thirty-five years ago, a diagnosis of cancer was largely a death 
sentence. Since then, our national investment in cancer research has 
reaped remarkable returns, including potential cancer vaccines, 
improved detection strategies, and targeted, less difficult therapies. 
The last several years have been particularly exciting for science and 
specifically for cancer research. Advances such as the sequencing of 
the human genome and improved insights about the genetics of cancer 
have led to promising new approaches to the prevention and treatment of 
cancer. Today, many patients are benefiting from targeted drug 
therapies, like Gleevec, Tarceva and Avastin that are more specific, 
less toxic and more effective. It is the support of the Nation's cancer 
research enterprise by the NCI, 80 percent \1\ of whose funds are spent 
at academic research institutions across the country, that has led to 
these discoveries.
---------------------------------------------------------------------------
    \1\ United States. Department of Health and Human Services. The 
Nation's Investment in Cancer Research. 2006. (http://plan.cancer.gov/
pdf/nci_2007_plan.pdf)
---------------------------------------------------------------------------
    The President's 2007 budget proposal provides only level funding 
for the NIH and a $40 million cut for the NCI. This is of great concern 
to the Nation's cancer centers, which play a critical role in the 
progress against cancer, and are major hubs of State of the art cancer 
research, drug development, treatment, prevention and control. A 
depleted budget for NCI directly impacts the pace of scientific 
discovery and may mean that new ideas to combat cancer will go 
unexplored, and the development of novel cancer therapies will be 
seriously compromised. Reduced funding will also discourage the next 
generation of cancer researchers leading some to choose other fields. 
We are at a time of unprecedented opportunity to make a dramatic 
assault on cancer, and the hard-won momentum that has been achieved in 
recent years must be sustained. Otherwise, America risks losing an 
entire generation of ideas that could produce possible cures for the 
diseases we know as cancer.

                CANCER RESEARCH: SAVING LIVES AND MONEY

    At the Nation's cancer institutes, we have demonstrated that cancer 
research saves lives. Cancer mortality rates decreased by 10 percent 
between 1991 and 2001, translating to as many as 321,000 lives saved 
\2\ and in 2003, the number of cancer deaths dropped for the first time 
since the war on cancer began. The death rate for all cancers combined 
is dropping about 1.1 percent per year, while the rate of new cancers 
is holding steady.\2\ The five-year relative survival rate for all 
cancers diagnosed between 1995 and 2000 is 64 percent, an increase from 
just 50 percent in the mid-1970s. Thanks to prevention research and the 
development of early detection technologies and new treatments, today, 
nearly 10 million Americans are cancer survivors.\2\
---------------------------------------------------------------------------
    \2\ Statistics from the American Cancer Society.
---------------------------------------------------------------------------
    The financial cost of cancer is rising, but research advances help 
to mitigate cancer's annual price tag, which in 2005 was estimated at 
$210 billion, including $136 billion in lost productivity and over $70 
billion in direct medical costs.\3\ Tamoxifen, used to treat breast 
cancer, is saving $41,372 for each year of life gained in women 35 to 
49 years old; $68,349 for women 50 to 59 years old; and $74,981 for 
women 60 to 69 years old.\4\ The drug Cisplatin has translated to an 
increase in the survival rate for testicular cancer patients. The drug 
cost an estimated $56 million to develop and has already produced an 
annual return of $166 million in treatment savings.\5\ That research 
saves money is evident.
---------------------------------------------------------------------------
    \3\ Estimates from the National Heart, Lung and Blood Institute.
    \4\ United States Senate. Joint Economic Committee, Office of the 
Chairman, Connie Mack. The Benefits of Medical Research and the Role of 
NIH. 2000. (http://jec.senate.gov)
    \5\ Estimates from Lasker/Funding First. (www.fundingfirst.org)
---------------------------------------------------------------------------
   THE NATION'S CANCER CENTERS: ECONOMIC ENGINES IN THEIR COMMUNITIES

    In addition to training the future workforce for cancer care and 
research, America's cancer centers themselves have direct economic 
impact, both locally and nationally. It is estimated that every dollar 
spent on research funding and patient activities at cancer centers 
translates to $2.50 to $3 invested in the local economy.\6\ In 
addition, the amount of research support and operating budgets that are 
leveraged through NCI-designated cancer centers support grant (CCSG) 
funding alone is striking. The total amount of research support is more 
than ten times the amount generated by the CCSG grants themselves.\7\ 
By attracting patients from outside the community, constructing new 
laboratories and clinical facilities, recruiting new faculty and staff 
from outside the region who bring cutting-edge scientific, clinical and 
public health expertise to work in communities, and developing 
entrepreneurial opportunities in the biotech and pharmaceutical 
industries, cancer research centers serve as an economic stimulus and 
generate commerce in their communities.
---------------------------------------------------------------------------
    \6\ United States. Department of Commerce, Bureau of Economic 
Analysis. Regional Multipliers: A User Handbook for the Regional Input-
Output Modeling System (RIMS II). 3rd ed. 1997.
    \7\ United States. National Cancer Institute. Advancing 
Translational Cancer Research: A Vision of the Cancer Center and SPORE 
Programs of the Future. 2003. (http://deainfo.nci.nih.gov/advisory/
ncab/p30-p50/P30-P50final12feb03.pdf)
---------------------------------------------------------------------------
            UNITED STATES: GLOBAL LEADER IN CANCER RESEARCH

    The United States is a world leader in the battle against cancer 
because of the Nation's past investment in cancer research, but our 
competitive edge will quickly erode without continued commitment. 
Sustained inquiry and scientific advancement are critical to 
maintaining our competitive stature. Failure to appropriate new funds 
for biomedical innovation and discovery threatens America's capacity to 
compete with emerging global economies and other countries are eager to 
take our place as the world's leader in biomedical research. The United 
States must significantly enhance its research and technical capacity 
to maintain our preeminent position.

                               CONCLUSION

    In summary, cancer research saves lives, saves money, stimulates 
economic growth at home and enhances U.S. competitiveness abroad. 
Federal investment in cancer research must remain a national priority. 
America must commit to sustaining the pace of cancer-related science so 
that new discoveries are translated into clinical benefit for all. 
Congress has the opportunity now to take an important leadership role 
in assuring that the NIH budget is increased in fiscal year 2007. We 
urge your support to increase this critically important funding.
                                 ______
                                 
     Prepared Statement of the Association of Independent Research 
                               Institutes

    The Association of Independent Research Institutes (AIRI) 
respectfully submits this written statement for the record of the U.S. 
Senate Appropriations Subcommittee on Labor, Health and Human Services, 
and Education. AIRI appreciates the commitment that the members of this 
Subcommittee have made to biomedical research through support for the 
National Institutes of Health (NIH).
    AIRI is a national organization of 86 independent, not-for-profit 
research institutes that perform basic and clinical research in the 
biological and behavioral sciences in 28 States. Our member institutes 
are private, stand-alone research centers that set their sights on the 
vast frontiers of medical science. AIRI institutes--many of which were 
originally established by generous philanthropists or from spin-offs of 
unique university research areas--tend to be relatively small in size, 
with budgets ranging from a few million to hundreds of millions of 
dollars. In addition, each AIRI institution is governed by its own 
independent Board of Directors, which allows our members to be 
structurally nimble and capable of adjusting their research programs to 
emerging areas of inquiry. While the primary function of AIRI 
institutes is research, most are also strongly involved in training the 
next generation of biomedical researchers. In a testament to the 
quality of research and innovative ideas that AIRI institutes bring to 
the national biomedical enterprise--our institutions consistently 
exceed the success rates of the overall NIH grantee pool, and receive 
about 11 percent of NIH's peer reviewed, competitively awarded 
extramural grants.
    The doubling of the NIH budget allowed the biomedical research 
community to accelerate solutions to human disease and disability. We 
have blazed new trails for medical research, diving into the 
intricacies of how the human body musters its defenses, and how those 
responses can be evaluated, enhanced, and modified. In addition, it 
helped us to realize new scientific management strategies such as 
fostering interdisciplinary research and creating new robust teams of 
scientists that, before the doubling, did not have scientific common 
ground. These research teams navigate the fast progressing research 
environment where there is an increasing need to integrate and 
aggregate basic research, computational capabilities, and clinical 
evidence into new cures more quickly. Further, the doubling has helped 
us to redefine health and healthcare goals based on scientific 
discoveries that were out of reach prior to the doubling. We now talk 
about disease and health care in terms of predictive, preventative and 
pre-emptive tactics.
    With flexible structures that are friendly to change, AIRI 
institutes are able to move amongst the new science partnerships that 
will transform America's health and health care in the 21st century. 
NIH has responded to the rapidly changing world by strategically 
framing the next generation of biomedical research through cross-
cutting, interdisciplinary initiatives such as those supported in the 
NIH Roadmap, the NIH Neuroscience Blueprint, the new Clinical and 
Translational Science Award program and the new Genes, Environment and 
Health Initiative. AIRI institutes are innovators poised to foster 
partnerships that will nurture the collaborative environment necessary 
to successfully and efficiently conduct research within these evolving 
NIH frameworks.
    AIRI endorses the fiscal year 2007 Ad Hoc Group for Medical 
Research proposal to increase the NIH budget by five percent over the 
fiscal year 2006 level. We recognize that the current budget 
environment puts pressure on Congress to face difficult funding trade-
offs; however, as this subcommittee works to define priorities for the 
year and set goals for the future, AIRI asks that you maintain your 
long-term commitment of support for NIH and its mission. The 
President's fiscal year 2007 budget would flat-fund NIH. The 5 percent 
increase for NIH supported by AIRI would not only allow the agency to 
sustain current programs but also invest in critical new initiatives. 
This would prevent NIH from falling behind the ``Innovation Index''--
the rate of biomedical inflation as calculated in the Biomedical 
Research and Development Price Index (BRDPI) plus a modest investment 
in new initiatives.
    Using the fiscal year 2007 BRDPI projection as a base, NIH would 
require an increase of at least 3.8 percent over fiscal year 2006. AIRI 
strongly believes that an increase for NIH above BRDPI is justified by 
the health needs as well as current and burgeoning research 
capabilities of the Nation. An increase above BRDPI would allow new 
innovative ideas to be funded and would infuse existing programs to 
evolve as their research findings push them to higher levels of basic 
understanding, translation and clinical functionality.
    AIRI also hopes that the subcommittee will support programs and 
policies that foster a sustainable, biomedical research workforce. The 
biomedical research community is dependent upon a knowledgeable and 
skilled workforce to address current and future critical health 
research challenges. The cultivation and preservation of this workforce 
is dependent upon several factors, including the ability to: recruit 
scientists and students globally; train researchers both in basic and 
clinical biomedical research; focus on career development initiatives 
to recruit and retain researchers at critical stages; support new and 
young investigators; and maintain the NIH extramural investigator 
salary cap at Executive Level I. By again maintaining the NIH 
extramural investigator salary cap (the salary level that extramural 
researchers may apply toward their NIH grants) at Executive Level I in 
the fiscal year 2007 Appropriations bill, Congress will ensure that 
extramural investigators' salaries are competitive with the salary 
level for intramural researchers at NIH. As we work to enhance 
biomedical research capabilities, we should not impose barriers that 
would discourage talented people from committing to careers in 
research.
    In addition, AIRI urges Congress to support NIH-funded equipment 
and infrastructure programs. As the investment in medical research and 
the national biomedical research agenda have expanded, the need for 
acquisition and modernization of laboratory equipment and 
infrastructure has become critical. NIH equipment grants meet the 
specific infrastructure needs of research institutions to maximize 
productivity of their research grants.
    Medical research is a long-term process and, in order to meet the 
challenges of improving human health, we must not diminish our Federal 
commitment and investment. It is essential to sustain the momentum of 
NIH-funded research so that it continues to meet the goal of improving 
the health of all Americans. AIRI would like to thank the subcommittee 
for its important work to ensure the health of the Nation, and we 
appreciate this opportunity to present recommendations concerning the 
fiscal year 2007 Appropriations bill.
                                 ______
                                 
Prepared Statement of the Association of Women's Health, Obstetric and 
                        Neonatal Nurses (AWHONN)

    The Association of Women's Health, Obstetric and Neonatal Nurses 
(AWHONN) appreciates the opportunity to provide comment on the fiscal 
year 2007 appropriations for nursing education, research, and workforce 
development programs as well as programs designed to improve maternal 
and child health. AWHONN is a membership organization of 22,000 nurses, 
and it is our mission to promote the health and well-being of all women 
and newborns. AWHONN members are registered nurses, nurse 
practitioners, certified nurse-midwives, and clinical nurse specialists 
who work in hospitals, physicians' offices, universities, and community 
clinics throughout the United States.

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

AWHONN recommends a minimum of $7.5 billion in funding for HRSA
    AWHONN is deeply concerned by the President's budget request of a 
$255 million cut in fiscal year 2007 to HRSA. Through its many programs 
and new initiatives, HRSA helps countless individuals live healthier, 
more productive lives. In this day and age, rapid advances in research 
and technology promise unparalleled change in the Nation's health care 
delivery system. HRSA could be well positioned to meet these new 
challenges as it continues to provide for the Nation's most vulnerable 
citizens. In order to respond to these challenges, AWHONN asserts that 
HRSA will require an overall funding level of at least $7.5 billion for 
fiscal year 2007.

     TITLE VIII--NURSING WORKFORCE DEVELOPMENT PROGRAMS UNDER HRSA

AWHONN recommends a minimum of $175 million in funding for Title VIII
    Nursing workforce development programs are authorized under Title 
VIII of the Public Health Service Act. These programs are essential 
components of the American health care safety net, which brings 
critical services to our entire Nation. In addition, Title VIII 
programs are the only comprehensive Federal programs that provide 
annual funds for nursing education that help nursing schools and 
nursing students prepare to meet patient needs in a changing healthcare 
delivery system. These programs are also in institutions that train 
nurses for practice in medically underserved communities and Health 
Professional Shortage Areas. While the President's budget recommends 
level funding of Title VIII at $150 million for fiscal year 2007, 
AWHONN supports a minimum of $175 million in funding for Title VIII 
Nursing Workforce Development programs.
    In 2002, Congress enacted the Nurse Reinvestment Act that provides 
funding for new and expanded programs such as scholarship and repayment 
programs like the Nurse Education Loan Repayment Program (NELRP), 
career ladders, internships and residencies, retention programs, and 
faculty loans designed to encourage students to consider nursing, keep 
nurses in the field, and ensure that nurse educators are plentiful 
enough to educate future nurses that we desperately need. These new 
programs received an initial appropriation of $20 million in fiscal 
year 2003, which was in addition to $93 million in funding provided for 
existing Title VIII programming. Unfortunately, due to limited funding 
in the first 2 years of the new authorization, the loan and scholarship 
programs have not been as successful as they could be in providing 
support to students in nursing schools. For example, NELRP is a 
competitive program that repays 60 percent of the qualifying loan 
balance of registered nurses selected for funding in exchange for 2 
years of service at a critical shortage facility. In fiscal year 2005, 
HRSA made a total of 599 awards of this nature with an obligation of 
$19 million. These loans are imperative for continuing to bring nurses 
into underserved communities in addition to bringing nurses through 
their education and training years.
    Nurses are essential health care providers, and the nursing 
community seeks the support of this subcommittee for bolstering 
existing nursing programs and creating new ones for recruiting students 
into the nursing profession. In addition, AWHONN seeks development of 
qualified faculty members for educating new nurses, and we need to 
create career opportunities for retaining nurses as faculty. The entire 
nursing workforce needs strengthening. As a result, it will take long-
term planning and innovative initiatives at the local, State, and 
Federal level to assure an adequate supply of a qualified nurse 
workforce for the Nation. Federal investment in nursing education and 
retention programs is critical for meeting the health care needs of our 
Nation.
            Increased funding for Title VIII will make a positive 
                     impact on the nursing shortage

    Recent data from the Bureau of Health Professions, Division of 
Nursing's National Sample Survey of Registered Nurses--February 2002, 
confirm that of the approximately 2.9 million registered nurses in the 
Nation only 82 percent of these nurses work full-time or part-time in 
nursing. A dominant factor in this shortage is the impending retirement 
of up to 40 percent of the workforce by 2010. This surge in retirement 
will occur at the same time as the surging baby boomer population 
retires, which will noticeably cause an increase in demand for health 
care services and the services of registered nurses. In addition, the 
U.S. Bureau of Labor and Statistics detailed in February 2004 that 
registered nurses will have the largest projected 10-year job growth in 
the United States, with about 1 million new job openings by 2010.
    The shortage of registered nurses and the effect of this shortage 
on staffing levels, patient safety and quality care demands attention 
and a significant increase in funding to bolster and improve these 
programs. Nursing is the largest health profession, yet only one-fifth 
of one percent of Federal health funding is directed to nursing 
education. A significant increase in funding for these programs can 
help lay the groundwork for expanding the nursing workforce, through 
education and clinical training and retention programs.
            Increased funding for Title VIII will help fill the nursing 
                    gap
    The nursing shortage is not confined solely to care providers, and 
this demand for providers is hindered by the growing shortage of 
nursing faculties. Nursing faculty continues to decrease in number. 
According to a 2005 survey on faculty vacancies from the American 
Association College of Nursing, the number of full-time nursing faculty 
required to ``fill the nursing gap'' is approximately 40,000. 
Currently, there are less than 20,000 full-time nursing faculty in the 
system. In 2004, nursing schools turned away more than 32,000 qualified 
applicants to entry-level baccalaureate and graduate nursing programs 
due to insufficient faculty, clinical sites, classroom space, clinical 
preceptors, and budget constraints, including almost 3,000 students who 
could potentially fill faculty roles. When all nursing programs are 
considered, the number turned away during the 2003-2004 academic year 
grows to more than 125,000 qualified applicants. Without sufficient 
support for current nursing faculty and adequate incentives to 
encourage more nurses to become faculty, nursing schools will fail to 
have the teaching infrastructure necessary to educate and train our 
next generation of nurses that we so desperately need.
    While the capacity to implement faculty development is currently 
available through Section 811 and Section 831, adequate funding and 
direction is needed to ensure that these programs are fully 
operational. Options to provide support for full-time doctoral study 
are essential to rapidly prepare the nurse educators of the future. 
AWHONN recommends that a portion of the funds be allocated for faculty 
development and mentoring.
            Increase funding for Title VIII will encourage advance 
                    practice nursing.
    AWHONN recognizes the importance of the investment in advanced 
practice nursing programs. As in other professions, the advanced degree 
has become a necessary achievement for career advancement, and 
registered nurses who pursue the MSN degree are part of the cadre of 
nurses who go on to become faculty. Our Nation needs more nurses with 
basic training to enter the field, but focusing only on these nurses 
addresses only half the problem. The nursing shortage encompasses 
nursing faculty; both advanced practice nursing and basic nursing must 
receive additional funding but not one at the expense of the other.
      title v--maternal and child health bureau (mchb) under hrsa
AWHONN recommends $850 million in funding for MCHB
    The Maternal and Child Health Bureau incorporates valuable programs 
like the Traumatic Brain Injury program, Universal Newborn Hearing 
Screening, Emergency Medical Services for Children and Healthy Start, 
which were zeroed out, and the Maternal and Child Health Block Grant 
(MCH) that was level funded. These programs provide comprehensive, 
preventive care for mothers and young children, as well as an array of 
coordinated services for children with special needs. In fact, MCH 
serves over 80 percent of all infants in the United States, half of all 
pregnant women, and 20 percent of all children.
            Restore Funding to the Universal Newborn Hearing Screening
    The Children's Health Act of 2000 authorized funding for grants and 
programs to improve State-based newborn screening. Newborn screening is 
a public health activity used for early identification of infants 
affected by certain genetic, metabolic, hormonal or functional 
conditions for which there are effective treatment or intervention. 
Screening detects disorders in newborns that, left untreated, can cause 
death, disability, mental retardation and other serious illnesses.
    Screening programs coordinated through MCHB help to ensure that 
every baby born in the United States receives, at a minimum, a 
universal core group of screening tests regardless of the State in 
which he or she is born. However, the administration again proposes 
eliminating universal newborn screening programs. It goes without 
saying that more disorders will go unnoticed if the affected newborns 
are not screened. AWHONN encourages the subcommittee to restore funding 
to the fiscal year 2006 level plus inflation for the newborn hearing 
screening program.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

AWHONN recommends $29.75 billion in funding for the NIH
    Multiple institutes housed under the National Institutes of Health 
(NIH) serve valuable roles in helping promote the importance of nursing 
in the health care industry along with the health and well-being of 
women and newborns. While AWHONN applauds the doubling of NIH's budget 
over the years, the President's Budget signals a level funding of NIH 
programs for fiscal year 2007. By allowing level funding, America will 
most certainly loose its edge in biomedical research.

        NATIONAL INSTITUTE OF NURSING RESEARCH (NINR) UNDER NIH

AWHONN recommends $160 million in funding for NINR
    The National Institute of Nursing Research (NINR) engages in 
significant research affecting areas such as health disparities among 
ethnic groups, training opportunities for management of patient care 
and recovery, and telehealth interventions in rural/underserved 
populations. This research allows nurses to continually refine their 
practice and provide quality patient care.
    For example, NINR research is invaluable in contributing to 
improved health outcomes for women. Recent public awareness campaigns 
target differences in the manifestation of cardiovascular disease 
between men and women. The differing symptoms are the source of many 
missed diagnostic opportunities among women suffering from the disease, 
which is the primary killer of American women. Because of the emphasis 
on biomedical research in this country, there are few sources of funds 
for high-quality behavioral research for nursing other than NINR. It is 
critical that we increase funding in this area in an effort to optimize 
patient outcomes and decrease the need for extended hospitalization. 
While the President's budget recommended level funding for NINR at $137 
million, AWHONN requests $160 million for fiscal year 2007.

NATIONAL INSTITUTE OF CHILD HEALTH AND HUMAN DEVELOPMENT (NICHD) UNDER 
                                  NIH

AWHONN recommends $1.328 billion in funding for NICHD
    The National Institute of Child Health and Human Development 
(NICHD) seeks to ensure that every baby is born healthy, that women 
suffer no adverse consequences from pregnancy, and that all children 
have the opportunity for a healthy and productive life unhampered by 
disease or disability. For example, with increased funding, NICHD could 
expand its use of the NICHD Maternal-Fetal Medicine Network to study 
ways to reduce the incidence of low birth weight. Prematurity/low birth 
weight is the second leading cause of infant mortality in the United 
States and the leading cause of death among African American infants. 
AWHONN, like many organizations directly involved in programs to 
improve the health of women and newborns, looks to NICHD to provide 
national initiatives, such as the Maternal-Fetal Medicine Network that 
assists with the care of pregnant women and babies.

 NATIONAL INSTITUTE OF ENVIRONMENTAL HEALTH SCIENCES (NIEHS) UNDER NIH

AWHONN recommends $680 million for NIEHS
    Research conducted by the National Institute of Environmental 
Health Sciences (NIEHS) plays a critical role in what we know about the 
relationship between environmental exposures and the onset of diseases. 
Through the research sponsored by this Institute, we know that 
Parkinson's disease, breast cancer, birth defects, miscarriage, delayed 
or diminished cognitive function, infertility, asthma and many other 
diseases and ailments have confirmed environmental triggers. Our 
expanded knowledge, as a result, allows both policymakers and the 
general public to make important decisions about how to reduce toxin 
exposure and reduce the risk of disease and other negative health 
outcomes.

 INDIAN HEALTH SERVICE (IHS) UNDER THE DEPARTMENT OF HEALTH AND HUMANS 
                             SERVICES (HHS)

AWHONN recommends $5.54 billion in funding for IHS
    The Indian Health Service (IHS) is the principal Federal health 
care provider and health advocate for the American Indian and Alaska 
Native populations. The President's budget recognizes this importance 
by requesting an increase to the IHS budget of $124 million over the 
fiscal year 2006 level, bringing the total to $4 billion for fiscal 
year 2007. While AWHONN applauds this increase, we recommend further 
increased funding for IHS to fully achieve its goals.
    A recent study of Federal health care spending per capita found 
that the United States spends $3,803 per year per Federal prisoner, 
while spending about half that amount for a Native American: $1,914. 
Per capita health care spending for the U.S. general population is 
$5,065 per year. A significant increase in funding over fiscal year 
2006 spending levels is necessary for the Federal government to fulfill 
its responsibility to Indian Country and achieve its stated goals.
    While the nursing shortage continues nationwide, IHS has been 
disproportionately affected by the lack of RNs. IHS nurses are older, 
with an average age of 48, and nearly 80 percent of RNs are over the 
age of 40. Further, the average vacancy rate for RNs is 14 percent. IHS 
administers three interrelated scholarship programs designed to meet 
the health professional staffing needs of IHS and other health programs 
serving Indian people. These programs are severely under-funded. 
Targeted resources need to be invested in the IHS health professions 
programs in order to recruit and retain registered nurses in Indian 
Country.

       CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC) UNDER HHS

AWHONN recommends $8.65 billion in funding for CDC
    The President's budget request funds the CDC at $8.2 billion for 
fiscal year 2007, a $179 million decrease over fiscal year 2006. It is 
critically important to increase funding for CDC. For example, CDC has 
been deeply involved in the prevention of birth defects through 
programs like the Folic Acid Education Campaign and the National Center 
on Birth Defects and Developmental Disabilities (NCBDDD) for over 30 
years. The public health impact of birth defects is tremendous. Of the 
four million babies born each year in the United States, approximately 
120,000 are born with a serious birth defect. CDC funds several 
programs critical to reducing the number of children born with birth 
defects, including funding to States for birth defects tracking 
systems. Due to lack of funds, in fiscal year 2005 CDC was only able to 
fund 15 States, which were down from 28 States in fiscal year 2004. 
Additional funding for these grants is needed to fund all of the States 
seeking CDC assistance for these critical surveillance programs.
    Overall, AWHONN urges the Subcommittee to at a minimum restore all 
cuts to programs from fiscal year 2006 and adjust for inflation. 
Funding the aforementioned agencies and their programs at this minimum 
level will at least allow them to effectively operate and achieve their 
stated mission. AWHONN thanks you for your time, and we greatly 
appreciate this opportunity submit testimony on these critical areas of 
funding.
                                 ______
                                 
 Prepared Statement of the Charles R. Drew University of Medicine and 
                                Science

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2007

  --Provide a 5 percent increase for fiscal year 2007 to the National 
        Institutes of Health (NIH) and a proportional increase of 5 
        percent to the individual institutes and centers, specifically, 
        the National Cancer Institute (NCI), the National Center for 
        Research Resources (NCRR), and the National Center on Minority 
        Health and Health Disparities (NCMHD).
  --Continue to urge NCI to support the establishment of a 
        collaborative minority health comprehensive research center at 
        a historically minority institution in collaboration with the 
        existing NCI Cancer Centers. Continue to urge NCRR and NCMHD to 
        collaborate on the establishment of a minority health 
        comprehensive research center.
  --Urge the Department of Health and Human Service, particularly the 
        Office of Minority Health (OMH), to support a Health 
        Professions Leadership Development and Support Program at 
        Charles R. Drew University of Medicine and Science.
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present you with testimony. Charles R. Drew University 
of Medicine and Science is one of four predominantly minority medical 
schools in the country, and the only one located west of the 
Mississippi River. It is also one of the Hispanic serving institutions 
in California.
    Charles R. Drew University of Medicine and Science is located in 
the Watts-section of South Central Los Angeles, and has a mission of 
rendering quality medical education to underrepresented minority 
students, and, through its affiliation with the University of 
California Los Angeles (UCLA) at the co-located King-Drew Medical 
Center, Drew provides valuable health care services to the medically 
underserved community. Through innovative basic science, clinical, and 
health services research programs, Charles R. Drew University works to 
address the health and social issues that strike hardest and deepest 
among inner city and minority populations.
    The population of this medically underserved community is 
predominately African American and Hispanic. Many of these people would 
be without health care if not for the services provided by Charles R. 
Drew University of Medicine and Science. This record of service has led 
Charles R. Drew University (in partnership with UCLA School of 
Medicine) to be designated as a Health Resources and Services 
Administration Minority Center of Excellence.

               RESEARCH: A RESPONSE TO HEALTH DISPARITIES

    Racial and ethnic disparities in health outcomes for a multitude of 
major diseases in minority and underserved communities continue to 
plague this Nation that was built on a premise of equality. As 
articulated in the Institute of Medicine report entitled ``Unequal 
Treatment: Confronting Racial and Ethnic Disparities in Health Care'', 
this problem is not getting better on its own. For example, African 
American males develop cancer 15 percent more frequently than white 
males. Similarly, African American women are not as likely as white 
women to develop breast cancer, but are much more likely to die from 
the disease once it is detected. In fact, according to the American 
Cancer Society, those who are poor, lack health insurance, or otherwise 
have inadequate access to high-quality cancer care, typically 
experience high cancer incidence and mortality rates. Despite these 
devastating statistics, we still do not have the resources to try to 
combat cancer in our communities.
    In response to these findings and the high cancer rate in our own 
community, Charles R. Drew University of Medicine and Science has been 
working to build a Life Sciences Research Facility on its campus. The 
Center would specialize in providing not only medical treatment 
services for the community, but would also serve as a research 
facility, focusing on prevention and the development of new strategies 
in the fight against cancer. These strategies will be disseminated 
locally and nationally to communities at risk, as well as to others 
engaged in comprehensive cancer prevention programs.
    The Life Sciences Research Building will provide the additional 
laboratory and support space necessary for further progress and 
development of innovative research in the clinical, biological, and 
life sciences. The new, three story building will provide Drew with 
state-of-the-art, flexible, modern biomedical and bio-behavioral 
research space. The proposed structure will provide 40,000 gross square 
feet, which is a significant increase over existing facilities at the 
University. Current research activities will be enhanced by additional 
laboratory and support space. The facility will house the Life Sciences 
Institute, building upon Drew's demonstrated strengths in clinical 
research, health services research, and basic science research. The 
Life Sciences Research Building will allow researchers in the College 
of Medicine and in the College of Allied Health to capitalize on the 
explosion of knowledge in genetics and biology, epidemiology, and 
health care delivery while exploring the interface between health, 
social, and economic infrastructure, cultural attitudes, and 
legislative policy. The Institute will play a unifying role for the 
life sciences across the University by bringing researchers from a wide 
array of disciplines together under one roof to collaborate in forward-
looking research aimed at improving the health and quality of life of 
medically underserved and low-income communities.
    Mr. Chairman, the support that this subcommittee has given to the 
National Institutes of Health (NIH) and its various institutes and 
centers has and continues to be invaluable to our university and our 
community. The dream of a state-of-the-art facility to aid in the fight 
against cancer and other diseases in our underserved community would be 
impossible without the resources of NIH.
    To help facilitate the establishment of the Life Sciences Research 
Building at Charles R. Drew University of Medicine and Science, the 
University is seeking support from the National Institutes of Health's 
National Center for Research Resources (NCRR), the National Center for 
Minority Health and Health Disparities (NCMHD), and the National Cancer 
Institute (NCI).

     HEALTH PROFESSIONS LEADERSHIP DEVELOPMENT AND SUPPORT PROGRAM

    A Health Professions Leadership Development & Support Program is 
designed to: (1) enhance faculty recruitment and retention support for 
academicians providing for the supervision, instruction, and guidance 
of resident physicians-in-training in underserved communities; and (2) 
provide financial stability for the Office of Graduate Medical 
Education (GME) to ensure the sustainability of this national priority 
area.
    This is a critical program for improving the minority pipeline as 
outlined in the recent report by a committee chaired by former 
Secretary of DHHS, Dr. Louis Sullivan titled ``Missing Persons: 
Minorities in the Health Professions September 20, 2004''. This report 
highlights the critical role played by institutions such as Drew 
University as a major training site for minority health care 
professionals and biomedical scientists. Specifically, this program 
will help to support the Drew University Graduate Medical Education 
program.
    The Program will be used by the University to augment and/or 
recruit physician leaders in Family Medicine, Pediatrics, Psychiatry, 
Surgery, Internal Medicine, and Obstetrics/Gynecology in response to 
the need to develop external, non-County residency rotations. The 
Surgery residency program was not renewed as of 2005, however, the 
University plans to reapply for a new program as part of its faculty 
recruitment plans. These actions coincide with the affiliated medical 
center's anticipated efforts to secure institutional approval from the 
Centers for Medicare and Medicaid Services (CMS) as well as the Joint 
Commission on the Accreditation of Healthcare Organizations (JCAHO).

                               CONCLUSION

    Despite our knowledge about racial/ethnic, socio-cultural and 
gender-based disparities in health outcomes, the ``gap'' continues to 
widen in most instances. Not only are minority and underserved 
communities burdened by higher disease rates, they are less likely to 
have access to quality care upon diagnosis. As you are aware, in many 
minority and underserved communities preventive care and/or research is 
completely inaccessible either due to distance or lack of facilities 
and expertise. This is a critical loss of untapped potential in both 
physical and intellectual contributions to the entire society.
    Even though institutions like Charles R. Drew are ideally situated 
(by location, population, and institutional commitment) for the study 
of conditions in which health disparities have been well documented, 
research is limited by the paucity of appropriate research facilities. 
With your help, the Life Sciences Research Facility will facilitate 
translation of insights gained through research into greater 
understanding of disparities.
    We look forward to working with you to lessen the burden of health 
disparities and working with the Department of Health and Human 
Services to address the residency training program issues at Charles R. 
Drew University.
    Mr. Chairman, thank you for the opportunity to present testimony on 
behalf of Charles R. Drew University of Medicine and Science.
                                 ______
                                 
          Prepared Statement of the Cooley's Anemia Foundation

                                SUBJECT

    Mr. Somma's testimony thanks the subcommittee for the past support 
it has shown to the Cooley's Anemia Foundation and to the patients who 
are afflicted with this fatal genetic blood disease, also known as 
thalassemia. He urges the Committee to restore the funding cut in the 
President's budget from the Thalassemia Blood Safety Surveillance 
program at CDC. He discusses the importance of funding NIH research 
into this disease, particularly through NHLBI and NIDDK. He challenges 
the subcommittee to challenge the NIH to find the cure for thalassemia 
and, with it, for other similar diseases through a strong commitment to 
gene therapy. He urges continued support for the Thalassemia Clinical 
Research Network.
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present this testimony to the subcommittee today. My 
name is Frank Somma. I live in Holmdel, New Jersey and I am honored to 
serve as the National President of the Cooley's Anemia Foundation. I 
speak to you in my capacity as a volunteer. As many members of this 
subcommittee know, Cooley's anemia, or thalassemia, is a fatal genetic 
blood disease.
    I could bog you down in a detailed scientific explanation of what 
happens physiologically when the human body cannot produce red blood 
cells in adequate numbers and of adequate quality to sustain life. I am 
not going to do that. The important thing for members of this 
subcommittee to remember about Cooley's anemia is that it is an 
incurable and fatal genetic blood disease. Period.
    I also understand that I can present you with five pages of single-
spaced testimony. I am not going to do that either. Instead, I am 
respectfully going to address the following three issues in a clear and 
succinct manner.
  --The first is the immediate need to restore $2.0 million to the CDC 
        to fund the thalassemia blood safety surveillance network.
  --The second issue is the equally critical need for this subcommittee 
        to commit our government to the development of a focused gene 
        therapy program that is designed to cure something.
  --The third issue is the urgent need to restore funding to NIH to 
        assure the continuation of desperately needed research at NIDDK 
        and for the Thalassemia Clinical Research Network at NHLBI.
Blood Safety Surveillance
    Mr. Chairman, when a baby is diagnosed with Cooley's anemia, or 
thalassemia major, the standard of treatment is to begin that child on 
blood transfusions. I want to be very clear here that the treatment is 
not to give the child a blood transfusion; it is to begin a lifetime 
treatment regimen of such invasive and dangerous intervention. Our 
patients receive a blood transfusion every two weeks for the rest of 
their lives.
    Because Cooley's anemia patients are transfused so regularly, they 
are the early warning system for problems in the blood supply. If there 
is an emerging infection or other problem with the blood supply, it is 
our patients that will get it first.
    Please understand that nearly every patient over the age of 18 
today who has thalassemia major also has HIV or hepatitis C as a result 
of their transfusions--or did have it while they were still alive.
    Blood safety is a major national issue. Surgical and trauma 
patients often have no choice but to be transfused. And, it is done an 
emergency basis many times. Nothing is more important to the patient at 
the time of transfusion than that they can be confident that the blood 
being pumped into their veins is free from infectious agents.
    Utilizing the status of our patient population, the CDC has been 
monitoring the overall safety of the blood supply to this Nation and is 
prepared to issue an alert if a new virus or threat emerges. The blood 
safety surveillance program is currently operating very effectively 
through the Office of Hereditary Blood Diseases in the National Center 
for Birth Defects and Developmental Disability (NCBDDD) with about $2.0 
million in funding. Inexplicably, the President's budget eliminates the 
program, leaving the blood supply vulnerable to contamination by new 
viruses or mutated versions of old viruses, putting all Americans not 
just those with Cooley's Anemia at risk.
    We are respectfully requesting that the subcommittee restore this 
funding to the $2.0 million level that currently exists in order to 
continue to protect Americans from unnecessary infections and diseases 
that may occur in the blood supply.
Gene Therapy
    Mr. Chairman, it has been a long time coming, but we are here to 
bring you some very good news about gene therapy. After a lot of false 
starts, we can now see a pathway for scientists to follow to help turn 
the promise of gene therapy into cures for single gene disorders. The 
problem to this point has not been one of science; it has been one of 
expectations. As a society, we forgot that science requires trial and 
error and that experiments are just that--experiments.
    Today, gene therapy is advancing at a rapid pace in the rest of the 
world. Exciting work is being undertaken in Japan and China, in the UK 
and in France. Unfortunately, it is showing less progress the United 
States of America . . . and that is not right. We are the international 
leaders in scientific research and, in a field like this--fraught with 
financial, scientific and ethical minefields--it is essential that 
America be the world leaders. We set the highest ethical and moral 
standards on every one of these issues. We protect human subjects best. 
It is simply too important to leave it to anyone else.
    For persons with a single cell mutation disorder like thalassemia 
or sickle cell disease or severe combined immune deficiency (SCID), 
gene therapy holds out great promise for a cure. In fact, the CAF has 
recently launched the CURE Campaign: Citizens United for Research 
Excellence. The theme of the campaign is ``It is Time to Cure 
Something.'' We are now learning so much about how to deliver healthy 
genes to unhealthy cells that we cannot turn back--nor can we as a 
Nation afford to let our friends in Europe and Asia race ahead of us in 
the areas of biomedical research and gene therapy.
    We hope that this Congress--speaking through this subcommittee--
will do what we have done and dare the NIH and its grantees to ``cure 
something.'' You are investing nearly $29 billion of taxpayer money in 
this agency that houses the ``best and the brightest'' and that funds 
``the best and the brightest.'' We as Americans must never stop 
striving to reach previously unimaginable heights. If that means that 
we have to shake up the status quo and create a new funding mechanism, 
let's do it. But let's not continue to follow the slow going 
incremental'' path of the past.
    We need to spend our tax dollars in a coordinated and focused 
manner that will maximize the chances that we will unlock the secrets 
of how to correct single gene defects. We are very close now, with an 
experiment currently being conducted--in France--that may be a 
breakthrough. It is time for the United States to step up and lead the 
world in this life-saving area of research.
NIH and the Thalassemia Clinical Research Network
    Mr. Chairman, about 5 years ago, working closely with members of 
this subcommittee, the CAF convinced the NHLBI of the need to create a 
clinical research network that would allow the top researchers in the 
field to collaborate on desperately needed research projects using 
common protocols. Today, that network is up and running and is the 
focal point for thalassemia research, most of which takes place in 
academic medical centers throughout the country.
    However, there is a cloud hanging over this, and all other, 
research at NIH. As the Biomedical Research and Development Price Index 
continues to escalate, the buying power of a flat-funded NIH continues 
to decrease. There would be nothing wrong with this if we had cured 
thalassemia, and hemophilia, and cystic fibrosis, and all other genetic 
and non-genetic diseases. But that is not the case.
    There is an enormous amount of work to be done. And there is no one 
else to do it but our National Institutes of Health, with the support 
of our Congress and President.
    I urge the subcommittee to settle for nothing less than a 5 percent 
increase in funding for NIH so that the critical life saving research 
that is occurring there can continue. Some of our fellow citizens don't 
have another year to wait.

                               CONCLUSION

    As I indicated at the outset, Mr. Chairman, I am not interested in 
filling the air with words. Unfortunately, I don't have the luxury of 
time to do that. The Cooley's Anemia Foundation has three priorities 
this year:
  --Funding the blood safety surveillance program at CDC at $2.0 
        million;
  --An enhanced focus on gene therapy designed to cure something; and,
  --A five percent increase in NIH funding to continue current vital 
        research programs.
    Mr. Chairman, every night when I watch my beautiful, smart, 
talented 21 year old daughter Alicia put a needle under her skin to 
infuse a drug for 8-10 hours to remove the excess iron in her system 
from her bi-weekly blood transfusions, I know we can do better.
    Please excuse my passion, but this is the United States of America. 
I know we can prevent this disease from happening in newborns. I know 
we can improve the lives of those who currently have it. And, most 
importantly, I am absolutely certain we can cure it once and for all.
    You don't need five pages of testimony from me to do that. You just 
need to demand the very best from the very best--our scientists, our 
government, the patient advocacy community and ourselves.
    Thank you for your very kind attention and for all the support this 
committee has shown to our patients and their families over the years.
                                 ______
                                 
  Prepared Statement of the Crohn's and Colitis Foundation of America

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

    (1) A 5 percent increase for the National Institute of Diabetes, 
and Digestive and Kidney Diseases, and the National Institute of 
Allergy and Infectious Diseases.
    (2) $700,000 for the National Inflammatory Bowel Disease 
Epidemiological Program at the Centers for Disease Control and 
Prevention.
    Mr. Chairman, thank you for the opportunity to submit testimony on 
behalf of the Crohn's and Colitis Foundation of America (CCFA). We 
greatly appreciate your leadership and the opportunity to work with you 
to improve the quality of life for our patients and families.
    My name is Kenneth Edmonds and I serve on the National Board of 
Trustees for the CCFA, the Nation's oldest and largest voluntary 
organization dedicated to finding a cure for and to seeking to prevent 
Crohn's disease and ulcerative colitis.
    Through research, education and support, CCFA is committed to 
improving the quality of life of children and adults affected by these 
diseases, collectively known as inflammatory bowel disease (IBD). I am 
one of them.
    IBD is a chronic disorder that causes inflammation of the digestive 
tract. It affects approximately 1.4 million Americans, 30 percent of 
whom are diagnosed in their childhood. IBD can cause persistent 
diarrhea, severe abdominal pain, fever, and, at times, rectal bleeding. 
If complications develop, it also can lead to, among other conditions, 
anemia, liver disease and colorectal cancer.
    Indeed, inflammatory bowel disease can be painful and debilitating. 
And, its impact is perhaps most devastating for children and 
adolescents, whose diagnoses often make them stand out at a time when 
they most want to fit in. Their disease can make them not only feel 
different, but look different as some adolescents with IBD may have 
delays in physical growth and puberty, causing them to appear younger 
and smaller than their peers. But, at any age, being diagnosed with IBD 
can bring change and challenge.
    The news of my diagnosis came not in one, sudden rush, but rather 
in a long, gradual backslide--and into a hospital bed. In retrospect, I 
exhibited typical signs of IBD as early as 1993 while a student in 
college. But, unfortunately, I responded to those signals like too many 
adolescents and young adults--I overlooked them.
    At the time, I experienced acute abdominal pain so sharp and sudden 
that I would double over. These cramps often came without warning, 
creating an intense urge to use the nearest bathroom. On these 
occasions and others, my stools had traces of blood.
    But, because I was young and active, I didn't think that much about 
it. And, I certainly didn't talk about it, to anyone. I chalked these 
brief episodes up to my regimen, rather than my abdomen. I figured that 
I just needed to add more greens to my diet and add more hours to my 
sleep.
    But, by 1996, after moving to Chicago, my symptoms had become too 
persistent, too serious and too severe to ignore. By the summer of that 
year, I had developed sores or ulcers on my tongue, making it difficult 
and painful to eat. I lost appetite and lost weight.
    In addition to the persistent diarrhea and acute cramps, I also had 
developed a tear (a fissure) in the lining of my anus, which caused 
excruciating pain and bleeding during bowel movements. I also suffered 
from severe exhaustion.
    As you can imagine, this was an agonizing predicament: I was losing 
weight, but could not eat. I was fatigued, but could not sleep. I had 
frequent, sudden bowel movements, but they caused sharp, piercing pain. 
Indeed, I had deteriorated dramatically; my condition relegating me to 
somewhere between bedridden and bathroom-bound.
    A misdiagnosis, three, long, withering weeks, and a plane ride 
later, I found myself in the Washington Hospital Center under the care 
of my uncle, a gastroenterologist here in the District. After a series 
of tests, x-rays and examinations, I was diagnosed with Crohn's colitis 
and prescribed medications for my symptoms. Since my hospitalization 10 
years ago, I am pleased to report that the disease has been in 
remission and I have enjoyed relatively good health.
    But, Mr. Chairman, IBD is a life-long disease. While there are drug 
therapies to treat symptoms, there is no medical cure. And, its cause 
is unknown.
    That's why CCFA's work has been so critical and groundbreaking.

                  RECOMMENDATIONS FOR FISCAL YEAR 2007

(1) National Institutes of Health
    In fact, CCFA has developed incredibly successful research 
partnerships with the NIH, forging longstanding collaborations with the 
National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK), which sponsors the majority of IBD research, and the National 
Institute of Allergy and Infectious Diseases (NIAID). CCFA provides 
crucial ``seed-funding'' to researchers, helping investigators gather 
preliminary findings, which in turn enables them to pursue advanced IBD 
research projects through the NIH. This approach led to the 
identification of the first gene associated with Crohn's--a landmark 
breakthrough in understanding this disease.
    Mr. Chairman, CCFA's scientific leaders, with significant 
involvement from NIDDK, have developed an ambitious research agenda, 
titled ``Challenges in Inflammatory Bowel Disease'' that outlines and 
seeks to address the many opportunities that currently exist. 
Fortunately, the field of IBD is widely viewed within the scientific 
community as one of tremendous potential. To help capitalize on these 
opportunities, CCFA recommends that the subcommittee provide a 5 
percent increase in funding for NIDDK and NIAID in fiscal year 2007. 
Moreover, CCFA requests that the subcommittee encourage these two 
institutes to expand their IBD research portfolios at a similar rate.
(2) Centers for Disease Control and Prevention
            IBD Epidemiology Program
    Mr. Chairman, CCFA estimates that 1.4 million people in the United 
States suffer from IBD, but there could be many more. We do not have an 
exact number due to these diseases' complexity and the difficulty in 
identifying them.
    We are extremely grateful for your leadership in providing funding 
over the past 2 years for an epidemiology program on IBD at the Centers 
for Disease Control and Prevention. This program is yielding valuable 
information about the prevalence of IBD in the United States and 
increasing our knowledge of the demographic characteristics of the IBD 
patient population. If we are able to generate an accurate analysis of 
the geographic makeup of the IBD patient population, it will provide us 
with invaluable clues about the potential causes of IBD.
    Unfortunately Mr. Chairman, the President has eliminated funding 
for this important program in his fiscal year 2007 budget for the CDC. 
CCFA encourages the subcommittee to restore support for the IBD 
Epidemiology Program at last year's level of $700,000.
    Once again Mr. Chairman, thank you for the opportunity to submit 
written testimony
                                 ______
                                 
     Prepared Statement of the Digestive Disease National Coalition

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

  --Provide increased funding for the National Institutes of Health 
        (NIH) at an increase of 5 percent over fiscal year 2006. 
        Increase funding for the National Cancer Institute (NCI), the 
        National Institute of Diabetes and Digestive and Kidney 
        Diseases (NIDDK) and the National Institute of Allergy and 
        Infectious Diseases (NIAID) by 5 percent.
  --Continue focus on digestive disease research and education at NIH, 
        including the areas of Inflammatory Bowel Disease (IBD), 
        Hepatitis and other liver diseases, Irritable Bowel Syndrome 
        (IBS), Colorectal Cancer, Endoscopic Research, Pancreatic 
        Cancer, Celiac Disease, and Hemochromatosis.
  --$30 million for the Centers for Disease Control and Prevention's 
        (CDC) Hepatitis Prevention and Control activities.
  --$25 million for the Center for Disease Control and Prevention's 
        (CDC) Colorectal Cancer Screening and Prevention Program.
    Chairman Specter, thank you for the opportunity to again submit 
testimony to the subcommittee. Founded in 1978, the Digestive Disease 
National Coalition (DDNC) is a voluntary health organization comprised 
of 23 professional societies and patient organizations concerned with 
the many diseases of the digestive tract. The Coalition has as its goal 
a desire to improve the health and the quality of life of the millions 
of Americans suffering from both acute and chronic digestive diseases.
    The DDNC promotes a strong Federal investment in digestive disease 
research, patient care, disease prevention, and public awareness. The 
DDNC is a broad coalition of groups representing disorders such as 
Inflammatory Bowel Disease (IBD), Hepatitis and other liver diseases, 
Irritable Bowel Syndrome (IBS), Pancreatic Cancer, Ulcers, Pediatric 
and Adult Gastroesophageal Reflux Disease, Colorectal Cancer, Celiac 
Disease, and Hemochromatosis.
    Mr. Chairman, the social and economic impact of digestive disease 
is enormous and difficult to grasp. Digestive disorders afflict 
approximately 65 million Americans. This results in 50 million visits 
to physicians, over 10 million hospitalizations, collectively 230 
million days of restricted activity. The total cost associated with 
digestive diseases has been conservatively estimated at $60 billion a 
year.
    The DDNC would like to thank the subcommittee for its past support 
of digestive disease research and prevention programs at the National 
Institutes of Health (NIH) and the Centers for Disease Control and 
Prevention (CDC). With respect to the coming fiscal year, the DDNC is 
recommending an increase of 5 percent to $30.1 billion for the National 
Institutes of Health (NIH) and all of its Institutes.
Specifically the DDNC recommends
  --$5.35 billion for the National Cancer Institute (NCI).
  --$2 billion for the National Institute of Diabetes and Digestive and 
        Kidney Disease (NIDDK).
  --$4.89 billion for the National Institute of Allergy and Infectious 
        Diseases (NIAID).
    We at the DDNC respectfully request that any increase for NIH does 
not come at the expense of other Public Health Service agencies.
    With the competing and the challenging budgetary constraints the 
subcommittee currently operates under, the DDNC would like to highlight 
the research being accomplished by NIDDK which warrants the increase 
for NIH.

                       INFLAMMATORY BOWEL DISEASE

    In the United States today about 1 million people suffer from 
Crohn's disease and ulcerative colitis, collectively known as 
Inflammatory Bowel Disease (IBD). These are serious diseases that 
affect the gastrointestinal tract causing bleeding, diarrhea, abdominal 
pain, and fever. Complications arising from IBD can include anemia, 
ulcers of the skin, eye disease, colon cancer, liver disease, 
arthritis, and osteoporosis. Crohn's disease and ulcerative colitis are 
not usually fatal but can be devastating. The cause of IBD is still 
unknown, but research has led to great breakthroughs in therapy.
    In recent years researchers have made significant progress in the 
fight against IBD. In 1998, the FDA approved the first drug ever 
specifically to fight Crohn's disease, a remarkable milestone. The DDNC 
encourages the subcommittee to continue its support of IBD research at 
NIDDK and NIAID at a level commensurate with the overall increase for 
each institute. The DDNC would like to applaud the NIDDK for its strong 
commitment to IBD research through the Inflammatory Bowel Disease 
Genetics Research Consortium. The DDNC urges the Consortium to continue 
its work in IBD research. Given the recent advancements in treatment 
for these diseases and the increased risk that IBD patients have for 
developing colorectal cancer, the DDNC strongly believes that 
generating improved epidemiological information on the IBD population 
is essential if we are to provide patients with the best possible care. 
Therefore the DDNC and its member organization the Crohn's and Colitis 
Foundation of America encourage the CDC to initiate a nationwide IBD 
surveillance and epidemiological program in fiscal year 2007.

                HEPATITIS C: A LOOMING THREAT TO HEALTH

    It is estimated that there are over 4 million Americans who have 
been infected with Hepatitis C of which over 2.7 million remain 
chronically infected. About 10,000 die each year and the Centers for 
Disease Control and Prevention (CDC) estimates that the death rate will 
more than triple by 2010 unless there is additional research, 
education, and more effective treatments and public health 
interventions. Hepatitis C infection is the largest single cause for 
liver transplantation and one of the principal causes of liver cancer 
and cirrhosis. There is currently no vaccine for hepatitis C, and 
treatment has limited success, making the infection among the most 
costly diseases in terms of health care costs, lost wages, and reduced 
productivity. Patients who are older at the time of infection, those 
who continually ingest alcohol, and those co-infected with HIV 
demonstrate accelerated progression to more advanced liver disease.
    The DDNC applauds all the work NIH and CDC have accomplished over 
the past year in the areas of hepatitis and liver disease. The DDNC 
urges that funding be focused on expanding the capability of State 
health departments, particularly to enhance resources available to the 
hepatitis C State coordinators. The DDNC also urges that CDC increase 
the number of cooperative agreements with coalition partners to develop 
and distribute health education, communication, and training materials 
about prevention, diagnosis and medical management for hepatitis A, B, 
and C.
    The DDNC supports $30 million for the CDC's Hepatitis Prevention 
and Control activities. The hepatitis division at CDC supports the 
hepatitis C prevention strategy and other cooperative nationwide 
activities aimed at prevention and awareness of hepatitis A, B, and C. 
The DDNC also urges the CDC's leadership and support for the National 
Viral Hepatitis Roundtable to establish a comprehensive approach among 
all stakeholders for viral hepatitis prevention, education, strategic 
coordination, and advocacy.

                      COLORECTAL CANCER PREVENTION

    Colorectal cancer is the third most commonly diagnosed cancer for 
both men and woman in the United States and the second leading cause of 
cancer-related deaths. Colorectal cancer affects men and women equally. 
According to the American Cancer Society, this year alone about 135,400 
individuals will be diagnosed with colorectal cancer, and of those 
diagnosed 56,700 patients will die. Although colorectal cancer is 
preventable and curable when polyps are detected early, a General 
Accounting Office report issued in March 2000 documented that less than 
10 percent of Medicare beneficiaries have been screened for colorectal 
cancer. This report revealed a tremendous need to inform the public 
about the availability of screening and educate health care providers 
about colorectal cancer screening guidelines. In 2003, the New York 
City Department of Health has recommended colonoscopy for everyone over 
age 50 to prevent colorectal cancer.
    The DDNC recommends a funding level of $25 million for the CDC's 
Colorectal Cancer Screening and Prevention Program. This important 
program supports enhanced colorectal screening and public awareness 
activities throughout the United States. The DDNC also supports the 
continued development of the CDC-supported National Colorectal Cancer 
Roundtable, which provides a forum among organizations concerned with 
colorectal cancer to develop and implement consistent prevention, 
screening, and awareness strategies.

                           PANCREATIC CANCER

    In 2006, an estimated 33,730 people in the United States will be 
found to have pancreatic cancer and approximately 32,300 will die from 
the disease. Pancreatic cancer is the fifth leading cause of cancer 
death in men and women. Only 1 out of 4 patients will live 1 year after 
the cancer is found and only 1 out of 25 will survive 5 or more years. 
Although we do not know exactly what causes pancreatic cancer, several 
risk factors linked to the disease have been identified:
    (1) Age: Most people are over 60 years old when the cancer is 
found;
    (2) Sex: Men have pancreatic cancer more often than women;
    (3) Race: African Americans are more likely to develop pancreatic 
cancer than are white or Asian Americans;
    (4) Smoking;
    (5) Diet: Increased red meats and fats; and
    (6) Diabetes.
    The National Cancer Institute (NCI) has established a Pancreatic 
Cancer Progress Review Group charged with developing a detailed 
research agenda for the disease. The DDNC encourages the subcommittee 
to provide an increase for pancreatic cancer research at a level 
commensurate with the overall percentage increase for NCI and NIDDK.

                     IRRITABLE BOWEL SYNDROME (IBS)

    IBS is a disorder that affects an estimated 35 million Americans. 
The medical community has been slow in recognizing IBS as a legitimate 
disease and the burden of illness associated with it. Patients often 
see several doctors before they are given an accurate diagnosis. Once a 
diagnosis of IBS is made, medical treatment is limited because the 
medical community still does not understand the pathophysiology of the 
underlying conditions.
    Living with IBS is a challenge, patients face a life of learning to 
manage a chronic illness that is accompanied by pain and unrelenting 
gastrointestinal symptoms. Trying to learn how to manage the symptoms 
is not easy. There is a loss of spontaneity when symptoms may intrude 
at any time. IBS is an unpredictable disease. A patient can wake up in 
the morning feeling fine and within a short time encounter abdominal 
cramping to the point of being doubled over in pain and unable to 
function.
    The unpredictable bowel symptoms may make it next to impossible to 
leave your home. It is difficult to ease the pain that may repeatedly 
occur periodically throughout the day. A patient can become reluctant 
to eat for fear that just eating a meal will trigger symptoms all over 
again. IBS has a broad and significant impact on a person's quality of 
life. It strikes individuals from all walks of life and results in a 
significant toll of human suffering and disability.
    While there is much we don' understand about the causes and 
treatment of IBS, we do know that IBS is a chronic complex of systems 
affecting as many as one in five adults. In addition:
    (1) It is reported more by women than men;
    (2) It is the most common gastrointestinal diagnosis among 
gastroenterology practices in the United States;
    (3) It is a leading cause of worker absenteeism in the United 
States; and
    (4) It costs the U.S. Health Care System an estimated $8 billion 
annually.
    Mr. Chairman, much more can still be done to address the needs of 
the nearly 35 million Americans suffering from irritable bowel syndrome 
and other functional gastrointestinal disorders. The DDNC recommends 
that NIDDK increase its research portfolio on Functional 
Gastrointestinal Disorders and Motility Disorders.

                             GASTROPARESIS

    Gastroparesis, or paralysis of the stomach, refers to a stomach 
that empties slowly. Gastroparesis is characterized by symptoms from 
the delayed emptying of food, namely: bloating, nausea, vomiting or 
feeling full after eating only a small amount of food. Gastroparesis 
can occur as a result of several conditions; it can occur in up to 30 
percent to 50 percent of patients with diabetes mellitus. A person with 
diabetic gastroparesis may have episodes of high and low blood sugar 
levels due to the unpredictable emptying of food from the stomach, 
leading to diabetic complications. Other causes of gastroparesis 
include Parkinson's disease and some medications, especially narcotic 
pain medications. In many patients a cause of the gastroparesis cannot 
be found and the disorder is termed idiopathic gastroparesis. Over the 
last several years, as more is being found out about gastroparesis, it 
has become clear this condition affects many people and the condition 
can cause a wide range of symptoms of differing severity.

                             CELIAC DISEASE

    Celiac Disease is a life-long condition in which the body develops 
an allergy to gluten, a protein found in wheat, barley, and rye, which 
can result in damage to the small intestine. Celiac disease affects as 
many as 2 million Americans. Onset of the disease can occur at any age. 
The common symptoms of Celiac Disease include fatigue, anemia, chronic 
diarrhea or constipation, weight loss, and bone pain. The only 
treatment for celiac disease is strict adherence to a gluten-free diet. 
Undiagnosed and untreated celiac disease can lead to other disorders 
such as osteoporosis, infertility, neurological conditions, and in rare 
cases cancer. Persons with Celiac Disease often have other associated 
autoimmune disorders as well.

                      DIGESTIVE DISEASE COMMISSION

    In 1976, Congress enacted Public Law 94-562, which created a 
National Commission on Digestive Diseases. The Commission was charged 
with assessing the State of digestive diseases in the United States, 
identifying areas in which improvement in the management of digestive 
diseases can be accomplished and to create a long-range plan to 
recommend resources to effectively deal with such diseases. The 
Commission's subsequent report in 1979 laid the groundwork for 
significant progress in the area of digestive disease research. After 
almost 25 years, however, the burden of digestive diseases among the 
U.S. population remains substantial.
    The DDNC recognizes the creation of the National Commission on 
Digestive Diseases, and looks forward to working with the National 
Commission to address the numerous digestive disorders that remain in 
today's diverse population.

                               CONCLUSION

    The DDNC understands the challenging budgetary constraints and 
times we live in that this subcommittee is operating under, yet we hope 
you will carefully consider the tremendous benefits to be gained by 
supporting a strong research and education program at NIH and CDC. 
Millions of Americans are pinning their hopes for a better life, or 
even life itself, on digestive disease research conducted through the 
National Institutes of Health.
    Mr. Chairman, on behalf of the millions of digestive disease 
sufferers, we appreciate your consideration of the views of the 
Digestive Disease National Coalition. We look forward to working with 
you and your staff.

                  DIGESTIVE DISEASE NATIONAL COALITION

    The Digestive Disease National Coalition was founded 25 years ago. 
Since its inception, the goals of the coalition have remained the same: 
to work cooperatively to improve access to and the quality of digestive 
disease health care in order to promote the best possible medical 
outcome and quality of life for current and future patients with 
digestive diseases.
                                 ______
                                 
           Prepared Statement of the Doris Day Animal League

    The Doris Day Animal League represents 350,000 members and 
supporters nationwide who support a strong commitment by the Federal 
Government to research, development, standardization, validation and 
acceptance of non-animal and other alternative test methods. We are 
also submitting our testimony on behalf of the Humane Society of the 
United States and The Procter & Gamble Company. Thank you for the 
opportunity to present testimony relevant for the fiscal year 2007 
budget request for the National Institute of Environmental Health 
Sciences (NIEHS) for the fiscal year 2007 activities of the National 
Toxicology Program Center for the Evaluation of Alternative 
Toxicological Test Methods (NICEATM), the support center for the 
Interagency Coordinating Committee for the Validation of Alternative 
Test Methods (ICCVAM).
    In 2000, the passage of the ICCVAM Authorization Act into Public 
Law 106-545, created a new paradigm for the field of toxicology. It 
requires Federal regulatory agencies to ensure that new and revised 
animal and alternative test methods be scientifically validated prior 
to recommending or requiring use by industry. An internationally agreed 
upon definition of validation is supported by the 15 Federal regulatory 
and research agencies that compose the ICCVAM, including the EPA. The 
definition is: ``the process by which the reliability and relevance of 
a procedure are established for a specific use.''

                         FUNCTION OF THE ICCVAM

    The ICCVAM performs an invaluable function for regulatory agencies, 
industry, public health and animal protection organizations by 
assessing the validation of new, revised and alternative toxicological 
test methods that have interagency application. After appropriate 
independent peer review of the test method, the ICCVAM recommends the 
test to the Federal regulatory agencies that regulate the particular 
endpoint the test measures. In turn, the Federal agencies maintain 
their authority to incorporate the validated test methods as 
appropriate for the agencies' regulatory mandates. This streamlined 
approach to assessment of validation of new, revised and alternative 
test methods has reduced the regulator burden of individual agencies, 
provided a ``one-stop shop'' for industry, animal protection, public 
health and environmental advocates for consideration of methods and set 
uniform criteria for what constitutes a validated test methods. In 
addition, from the perspective of animal protection advocates, ICCVAM 
can serve to appropriately assess test methods that can refine, reduce 
and replace the use of animals in toxicological testing. This function 
will provide credibility to the argument that scientifically validated 
alternative test methods, which refine, reduce or replace animals, 
should be expeditiously integrated into Federal toxicological 
regulations, requirements and recommendations.

                         HISTORY OF THE ICCVAM

    The ICCVAM is currently composed of representatives from the 
relevant Federal regulatory and research agencies. It was created from 
an initial mandate in the NIH Revitalization Act of 1993 for NIEHS to 
``(a) establish criteria for the validation and regulatory acceptance 
of alternative testing methods, and (b) recommend a process through 
which scientifically validated alternative methods can be accepted for 
regulatory use.'' In 1994, NIEHS established the ad hoc ICCVAM to write 
a report that would recommend criteria and processes for validation and 
regulatory acceptance of toxicological testing methods that would be 
useful to Federal agencies and the scientific community. Through a 
series of public meetings, interested stakeholders and agency 
representatives from all 14 regulatory and research agencies, developed 
the NIH Publication No. 97-3981, ``Validation and Regulatory Acceptance 
of Toxicological Test Methods.'' This report, and subsequent revisions, 
has become the sound science guide for consideration of new, revised 
and alternative test methods by the Federal agencies and interested 
stakeholders.
    After publication of the report, the ad hoc ICCVAM moved to 
standing status under the NIEHS' NICEATM. Representatives from Federal 
regulatory and research agencies and their programs have continued to 
meet, with advice from the NICEATM's Advisory Committee and independent 
peer review committees, to assess the validation of new, revised and 
alternative toxicological methods. Since then, several methods have 
undergone rigorous assessment and are deemed scientifically valid and 
acceptable. In addition, the ICCVAM is working to streamline assessment 
of methods from the European Union (EU) that have already been 
validated for use within the EU. The open public comment process, input 
by interested stakeholders and the continued commitment by the Federal 
agencies has led to ICCVAM's success. It has resulted in a more 
coordinated review process for rigorous scientific assessment of the 
validation of new, revised and alternative test methods.

                       REQUEST FOR APPROPRIATIONS

    On December 19, 2000, the ``ICCVAM Authorization Act'' which makes 
the entity a permanent standing committee, was signed into Public Law 
No. 106-545. For several years, the NIEHS has provided financial 
resources to the NICEATM for ICCVAM's activities. In order to ensure 
that Federal regulatory agencies and their stakeholders benefit from 
the work of the ICCVAM, it is important for NIEHS to provide funding at 
an appropriate level. We respectfully request a fiscal year funding 
level of $4 million.

                 REQUEST FOR COMMITTEE REPORT LANGUAGE

    The NIEHS should support the NICEATM/ICCVAM in creating a five-year 
roadmap for assertively setting goals to prioritize ending the use of 
antiquated animal tests for specific endpoints. While the stream of 
methods forwarded to the ICCVAM for assessment has remained relatively 
steady, it is imperative that the ICCVAM take a more proactive role in 
isolating areas where new methods development is on the verge of 
replacing animal tests. These areas should form a collective call by 
the Federal agencies that compose ICCVAM to fund any necessary 
additional research, development, validation and validation assessment 
that is required to eliminate the animal methods. We also strongly urge 
the NICEATM/ICCVAM to closely coordinate research, development and 
validation efforts with its European counterpart, the European Centre 
for the Validation of Alternative Methods (ECVAM) to ensure the best 
use of available funds and sound science. This coordination should also 
reflect a willingness by the Federal agencies comprising ICCVAM to more 
readily accept validated test methods proposed by the ECVAM to ensure 
industry has a uniform approach to worldwide chemical safety 
evaluation.
    We also respectfully request the subcommittee consider the 
following report language for the Senate Labor, Health and Human 
Services, Education and Related Agencies Appropriations bill:
    ``The Committee commends the National Interagency Center for the 
Evaluation of Alternative Methods/Interagency Coordinating Committee on 
the Validation of Alternative Methods (NICEATM/ICCVAM) for its 
leadership role in the assessment of new, revised and alternative 
scientifically validated methods for the Federal government. The 
Committee also commends the National Toxicology Program (NTP) for 
finalizing its `Roadmap to Achieve the NTP Vision, A Toxicology Program 
for the 21st Century', which commits to `develop and validate improved 
testing methods and, where feasible, ensure that they reduce, refine or 
replace the use of animals' as one of its top four goals.
    ``The Committee directs the NICEATM/ICCVAM, in partnership with the 
relevant Federal agency program offices and the NTP, to build on the 
NTP Roadmap to create a 5-year plan to research, develop, translate and 
validate new and revised non-animal and other alternative assays for 
integration of relevant and reliable methods into the Federal agency 
testing programs. In this 5-year plan the Federal agency program 
offices shall be directed to identify areas of high priority for new 
and revised non-animal and alternative assays or batteries of those 
assays to create a path forward for the replacement, reduction and 
refinement of animal tests, when this is scientifically valid and 
appropriate. The Committee directs a transparent, public process for 
developing this plan and recommends the plan be presented to the 
Committee by November 15, 2007. Funding for developing the plan shall 
be from the NIEHS and the NTP, and shall not reduce the NICEATM/ICCVAM 
funding base.''
                                 ______
                                 
     Prepared Statement of the Dystonia Medical Research Foundation

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

  --Provide increased funding for the National Institute of Health at 
        an increase of 5 percent over fiscal year 2006. Increase 
        funding for the National Institute of Neurological Disorders 
        and Stroke (NINDS), the National Institute of Deafness and 
        other Communication Disorders (NIDCD), and the National Eye 
        Institute (NEI) by 5 percent.
  --Fiscal Year 2007 Recommendations for NIH
    --NIH: $30 billion
    --NINDS: $1.61 billion
    --NEI: $700.4 million
    --NIDCD: $412.7 million
  --Continue to accelerate funding for intramural and extramural 
        dystonia research at NINDS.
  --Continue to expand NIDCD's intramural and extramural research on 
        dysphonia.
  --Continue to expand NEI's intramural and extramural research on 
        dystonia.
    Chairman Specter, thank you for the opportunity to submit testimony 
to the subcommittee on behalf of the Dystonia Medical Research 
Foundation (DMRF). Dystonia has affected the lives of many Americans 
and we are thankful to be able to provide for you our recommendations 
for fiscal year 2007 Federal funding with regards to dystonia research.
    Dystonia is a neurological disorder characterized by powerful and 
painful involuntary muscle spasms that causes the body to twist, 
repetitive jerking movements, and sustained postural deformities. There 
are several different variations of dystonia, including: focal 
dystonias which affect specific parts of the body, such as the arms, 
legs, neck, jaw, eyes, vocal cords; and generalized dystonia, affecting 
many parts of the body at the same time. Some forms of dystonia are 
genetic and others are caused by injury or illness. Dystonia does not 
affect a person's consciousness or intellect, but is a chronic and 
progressive movement disorder for which, at this time, there is no 
known cure. The Foundation estimates that some form of dystonia affects 
about 300,000 people in North America.
    Even though there is no known cure for dystonia, there are 
treatments to lessen the severity of the symptoms of the disease such 
as oral medications, botulinum toxin injections, and in some cases 
surgery. Having increased access to these medical therapies is becoming 
an increasing larger issue for the community as a whole.
    In the past few decades, dystonia researchers have made several 
exciting scientific advancements and have been able to rapidly turn 
laboratory and clinical research into diagnostic examinations and 
treatment procedures, directly benefiting those affected. Genetics, in 
particular, is opening up a new understanding into the cause and 
pathophysiology of the disorder. Thus far, 13 dystonia related genes or 
gene loci have been identified. In 1997, the DYT1 gene for childhood 
early onset dystonia was identified, and we now have a genetic test 
available to confirm diagnosis of this particular type of dystonia. 
Most recently, in 2002, the gene for myoclonus dystonia was identified. 
However the community is still without a diagnostic test and 
misdiagnosis still occurs too frequently.
    Deep brain stimulation is a surgical procedure that was originally 
developed to treat Parkinson's disease but is now being applied to 
severe cases of dystonia. Deep brain stimulation has drastically 
improved the lives of dozens of dystonia patients during the past few 
years. Individuals who were previously bedridden by muscle spasms and 
pain are able to walk without assistance, to speak clearly, to dress 
themselves, to get a driver's license, to date, to travel, and to live 
the life of an able-bodied person. Deep brain stimulation is currently 
used primarily to treat severe cases of generalized dystonia but its 
promising role in treating focal dystonias is being explored. Surgical 
interventions are a crucial and active area of dystonia research.

                    RESEARCH, AWARENESS, AND SUPPORT

    Now is an exciting time to be involved in dystonia research and 
awareness. Researchers are becoming more interested in movement 
disorders and dystonia at the National Institutes of Health (NIH), and 
research is yielding promising clues for better understanding and 
management of this disorder.
    One way the Dystonia Medical Research Foundation has advocated for 
more research on dystonia, is by funding ``seed'' grants to 
researchers. Thus far the Dystonia Foundation has funded over 415 
grants and fellowships totaling more than $21 million. Due to our 
advocacy there are a growing number of talented researchers dedicated 
to understanding the biochemistry of dystonia, genetic causes, new 
therapeutics and the necessity of an epidemiology study.
    Another primary goal of the Dystonia Foundation is education of 
both lay and medical audiences. The Foundation conducts regular medical 
workshops and patient symposiums to present, discuss, and disseminate 
comprehensive medical and research data on dystonia. In January 2001, 
NINDS co-sponsored a genetics and animal models meeting, designed to 
involve not only prominent researchers but inviting junior 
investigators to participate in the discussions. In September, 2005 NIH 
funded a workshop on ``Rehabilitation in Dystonia'' at which leading 
experts from neurosurgeons and neurologists to physical therapists, 
psychologists, and biomedial engineers argued for more aggressive 
research and the use of new concepts and tools in the treatment of 
dystonia and in 2006 NIH is funding a science workshop on the dystonia 
protein torsinA/Nuclear envelope. On June 6 & 7 a NINDS Research Agenda 
Workshop will take place.
    The Young Investigators Award Program and the Residency Program are 
in place to entice emerging medical professionals into the field of 
dystonia research and cultivate future dystonia experts.
    Since 1995, over 10,000 educational medical videos have been 
distributed to hospitals, medical and nursing schools, and at medical 
conventions. In addition to medical and coping publications, we have a 
children's video to educate families and increase public awareness of 
this devastating disorder in younger populations. Media awareness is 
conducted throughout the year, and especially during Dystonia Awareness 
Week, observed nationwide from June 4 through 11. Local volunteers have 
been successful in securing news stories on dystonia in local venues as 
well as national media shows such as Good Morning America, The Oprah 
Winfrey Show, and Maury Povich. Through his friendship with the mother 
of a dystonia patient, screen star Kirk Cameron has taken an interest 
in promoting dystonia awareness, and the Dystonia Foundation is in the 
process of investigating the possibility of a public service 
announcement and several appearances at fundraising events. In the Fall 
of 2006 the new dystonia documentary entitled TWISTED will be premiered 
on PBS.
    The Dystonia Foundation has over 100 chapters, support groups, and 
area contacts across North America. In addition, there are chairpersons 
whose mission is to promote awareness, children's advocacy, 
development, extension, Internet resources, leadership, medical 
education, and symposiums. Furthermore, patient symposiums are held 
internationally and regionally to provide the latest medical and coping 
information to dystonia patients and others interested in the disorder.

             DYSTONIA AND THE NATIONAL INSTITUTES OF HEALTH

    The Dystonia Medical Research Foundation recommends an increase to 
$31.6 billion or 5 percent for NIH overall, and a 5 percent increase 
for NINDS, and NIDCD. We at DMRF request that this increase for NIH 
does not come at the expense of other Public Health Service agencies.
    We also urge the subcommittee to recommend that NINDS provide the 
necessary funding for additional extramural research. There is also an 
imperative need for NINDS to increase its efforts to educate the public 
and medical community about dystonia through co-sponsorship of 
workshops and seminars. We also encourage the subcommittee to support 
NIDCD in its efforts to revamp its strategic planning process by 
implementing a Strategic Planning Group which will help NIDCD as they: 
consider applications for high program priority; develop program 
announcements and requests for applications; and develop new research 
areas in the Intramural Research Program.
    The National Institute of Neurological Disorders and Stroke (NINDS) 
awarded eleven grants for dystonia research in response to the Program 
Announcement, ``Studies into the Causes and Mechanisms of Dystonia'' 
(August 2002). These awards covered a wide range of research areas, 
which included gene discovery, the genetics and genomics of dystonia, 
the development of animal models of primary and secondary dystonia, 
molecular and cellular studies inherited forms of dystonia, 
epidemiology studies, and brain imaging. In addition, the National 
Institute on Deafness and Other Communication Disorders (NIDCD) funded 
an eighth study on brainstem systems and their role in spasmodic 
dysphonia.
    DMRF also supports the many intramural researchers studying 
dystonia. Research includes: exploring improved clinical rating scales 
for dystonia, elevations of sensory motor training, utilizing Botox as 
a possible treatment for focal hand dystonia, characterization of 
abnormalities in sensory regions of the brain, treatments for spasmodic 
dysphonia, deep brain stimulation (the direct electrical stimulation of 
specific brain targets), non-invasive transcranial brain stimulation, 
anatomy imaging of the affect of dystonia on brain activity, and 
exploring the link between laryngitis and spasmodic dysphonia. The 
public awareness impact of pianist Leon Fleisher's treatment through 
the NIH intramural research program has had a tremendously positive 
impact.
    NINDS continues to work with dystonia research and voluntary 
disease groups in the community. In June 2005, NINDS sponsored a 
workshop on spasmodic dysphonia, which was held at the NIH and was 
supported by the NINDS and the NIH Office of Rare Diseases. NIH staff 
are currently drafting a white paper on the results of the meeting and 
future research opportunities for improving the diagnosis, 
understanding the pathogenesis, developing new treatments, and 
preventing spasmodic dysphonia. Another NINDS laboratory is 
investigating several neurodegenerative disorders, including a form of 
hereditary dystonia known as the Mohr-Tranebjaerg deafness-dystonia 
syndrome. This form of dystonia is inherited through the X chromosome. 
The NINDS laboratory is investigating how abnormalities in a specific 
protein lead to the death of affected cells.
    Dystonia is the third most common movement disorder after 
Parkinson's Disease and tremor, and effects many times more people than 
better known disorders such as Huntington's Disease, muscular dystrophy 
and ALS or Lou Gehrig's Disease. We ask that NINDS fund dystonia-
specific extramural research at the same level that it supports 
research for other neurological movement disorders.

                               CONCLUSION

    The ultimate goal of the Dystonia Foundation is a cure for 
dystonia. Until that goal is realized, we are hungry for knowledge 
about the nature of dystonia and for more effective treatments with 
fewer side effects. We have amassed many exceptional and diligent 
researchers; who are committed to our goal, and our top priority is 
funding their very important research. But the Foundation cannot do it 
alone. We need Federal support through NIH to continue to fund quality 
scientific research and eliminate this debilitating disease.
    Combine the thwarting of scientific progress with the decreased 
access to therapies and all the progress of the last few years could be 
wiped away. We ask that you aggressively support medical research, 
specifically for movement disorders and brain research. By doing so, 
you are doing a tremendous service for my family and myself and to the 
hundreds of thousands of people and families affected by dystonia.
    Thank you very much.
                                 ______
                                 
                 Prepared Statement of the FSH Society

    Chairman Specter, Senator Harkin and members of the subcommittee, I 
am Daniel Perez, President & CEO of the FSH Society. The FSH Society is 
a non-profit volunteer health agency organized by patients for patients 
with facioscapulohumeral muscular dystrophy (FSHD). Our purpose is to 
be a resource for individuals and families with FSH muscular dystrophy 
(FSHD), represent them and advocate on their behalf. On behalf of the 
FSH Society and its members, thank you for this opportunity to testify.
    FSHD is the third most prevalent form of muscle disease and the 
second most prevalent adult muscular dystrophy. It affects 1/20,000 
people. For men, women, and children the major consequence of 
inheriting FSHD is a lifelong progressive and severe loss of all 
skeletal muscles. The FSH Society was created because of a need for a 
comprehensive resource for FSHD individuals and families. A world 
leader in combating muscular dystrophy it has provided well over a 
million dollars in seed grants to pioneering researchers worldwide and 
created an international collaborative network of patients and 
researchers. The Society relies entirely on private grants, donations 
and philanthropy. Since our establishment in 1991, our major focus has 
been to help facilitate Federal research agencies such as the National 
Institutes of Health (NIH) grow funding and programs for FSHD research. 
The Society has submitted 28 written and five oral testimonies to 
Senate and House Appropriations Subcommittees on Labor, Health, Human 
Services and Education on the need for more NIH funding on FSHD.
    The NIH often applauds the effort and dedication of the Society in 
expanding research efforts in FSHD and bringing additional attention to 
this dystrophy. We commend the Director of the NIH, Dr. Elias Zerhouni, 
for the significant efforts made by his agency in muscular dystrophy. 
Between 1987 and 2005, the overall NIH funding for dystrophy increased 
from $4.6 million to $39.3 million. Since 2000, the FSHD budget has 
increased from $400,000 to $2.1 million (fiscal year 2006 estimated). 
We applaud Dr. Stephen I. Katz, Director, National Institute of 
Arthritis and Musculoskeletal Disorders (NIAMS) and Chairman of the 
Muscular Dystrophy Coordinating Committee (MDCC), and John D. Porter, 
Program Director Muscular Dystrophy, National Institute of Neurological 
Disorders and Stroke (NINDS) and Executive Secretary MDCC, for their 
extraordinary comprehension, accuracy and for the speed in which the 
NIH Action Plan for Muscular Dystrophy was researched, compiled, 
written, and approved. The NIH is making significant investments to 
understand muscular dystrophy research needs and has made excellent 
choices in recruiting program staff with the ability to understand the 
extremely complex nature of muscular dystrophy. However, to this day, 
the NIH reports difficulty in growing and expanding its FSH muscular 
dystrophy research portfolio and in receiving sufficient numbers of 
investigator-submitted applications of high quality.

                   THE MD-CARE ACT, PUBLIC LAW 107-84

    Congress enacted The Muscular Dystrophy Community Assistance, 
Research and Education Amendments of 2001 (the MD-CARE Act, Public Law 
107-84) that was signed into law on December 18, 2001. Both the Senate 
and House acted with force and clarity to mandate the NIH and other 
applicable Federal agencies, to immediately expand and intensify 
research on all forms of muscular dystrophy. The MD-CARE Act declared 
that: (1) the Director of the NIH work with the Directors of NIAMS, 
NINDS and NIH National Institute of Child Health and Human Development 
(NICHD) to expand and intensify research on all nine types of dystrophy 
described in the Act; (2) Centers of excellence for research should be 
established for all nine types of dystrophy; (3) a MDCC with two-thirds 
government and one-third public members be established to coordinate 
activities across NIH and other national research agencies on all forms 
of dystrophy; and; (4) the MDCC to submit a research action plan for 
conducting, and supporting research and education for all nine types of 
dystrophy. The MD-CARE Act also requires annual updates on research 
funding amounts by the Department of Health and Human Services (DHHS) 
for Duchenne, Myotonic, FSHD and other muscular dystrophies.
    In August 2004, the MDCC submitted an initial report for the NIH 
Muscular Dystrophy Research and Education Plan to Congress which was 
put through a more intensive planning process that involved external 
scientific experts in the field of muscular dystrophy and muscle 
disease. This detailed version of the MDCC ``Action Plan for the 
Muscular Dystrophies'' was submitted to Congress in December 2005.
    FSHD is prominently and well represented in the five sections of 
the NIH ``Action Plan for the Muscular Dystrophies.'' Three key 
sections for FSHD research are: Mechanisms Section, Research Objective 
3, ``Define the molecular pathogenetic mechanisms that lead to 
facioscapulohumeral muscular dystrophy''; Mechanisms Section, Research 
Objective 4, ``Establish mouse (and cellular) models for 
facioscapulohumeral muscular dystrophy, specific to emerging candidate 
genes and/or disease genomics, to understand the epigenetic mechanisms 
and for the development of novel intervention strategies''; and, the 
Infrastructure Section, Research Objective 13, ``Stimulate 
international collaborations and infrastructure sharing to ensure that 
opportunities are exploited and resources are used to maximum 
advantage, particularly in cases of novel opportunity or for the rare 
and/or understudied muscular dystrophies.'' The full description and 
text of research objective three in the mechanisms section illustrates 
that the NIH fully comprehends what needs to be done to achieve 
progress in FSHD.\1\
---------------------------------------------------------------------------
    \1\ NIH Action Plan for the Muscular Dystrophies, Mechanisms 
Section, Research Objective 3: ``Define the molecular pathogenetic 
mechanisms that lead to facioscapulohumeral muscular dystrophy,'' 
December 2005.
    ``Defining the molecular mechanisms by which a reduction in repeats 
at the D4Z4 translates into the multi-system symptoms seen in 
facioscapulohumeral muscular dystrophy has been difficult. Elucidation 
of the function of the allelic variants (A and B) at D4Z4 may help 
advance understanding of disease mechanisms. If perturbations of 
chromatin structure and/or derepression of gene expression ultimately 
figure into pathogenesis, there are some other diseases that could help 
inform researchers in this field. A potentially important avenue of 
research is the analysis of the chromatin structure at the D4Z4 locus, 
including methylation and/or binding of specific repressors or 
activators. Such chromatin conformational changes have been suggested 
as a possible disease mechanism, presumably affecting the regulation of 
expression of other genes. Since the issue of altered regulation of 
genes in the vicinity of D4Z4 remains controversial, there is a need 
for careful studies using microarrays or other techniques, to determine 
if genes near the D4Z4 repeat units on chromosome 4q, or at more 
distant locations on this chromosome, are up-regulated or down-
regulated in facioscapulohumeral muscular dystrophy. The expression and 
function of the D4Z4 gene, DUX4, should be analyzed. The association of 
4qter with the nuclear lamina and the potential role of this 
association upon gene expression profiles should be explored. Genetic 
causes for facioscapulohumeral muscular dystrophy, other than the D4Z4 
contraction (such as non-chromosome 4 linked cases), should be 
investigated in available patients.''
---------------------------------------------------------------------------
    It is absolutely clear that muscular dystrophy is a high priority 
for the NIH and it understands the research that needs be developed, 
funded and contracted. However, the dystrophies such as FSHD with 
complex etiology, low prevalence or that present unique scientific 
opportunity are getting far less funding than they deserve. FSHD is 
clearly deficient in projects and funding caused by it being a 
complicated disease with complex etiology that requires mastery to 
review grants or to undertake research. In the dystrophy area, the NIH 
believes that insight gained from studying a specific type of dystrophy 
will provide benefit for all of the muscular dystrophies. Sadly, that 
is not the case for FSHD.

          NIH EFFORTS ON FSH MUSCULAR DYSTROPHY (2000-PRESENT)

    NIH has supported several initiatives in recent years in dystrophy 
research and training. In response to the fiscal year 2000 report 
language, the NINDS, NIAMS and the NIH Office of Rare Diseases (ORD) 
held a research symposium in May 2000, in Bethesda, on the cause and 
treatment of FSH muscular dystrophy. The international team of 
researchers and NIH staff assembled research recommendations and 
directions that called for enhancing the understanding of the mechanism 
and molecular process associated with FSHD, strategies for exploring 
potential treatments and therapies, strategies to promote establishment 
of biomaterials registries and longitudinal and population based 
studies of FSHD, and a listing of required infrastructure and research 
resources.
    The findings of the conference on FSHD were used to create NIH 
solicitations. One request focused on exploratory and high risk 
research applications on FSH muscular dystrophy, and several other 
announcements were made for grant applications on therapeutic and 
pathogenic approaches for muscular dystrophy in which FSHD was 
mentioned.
    In September 2000, the NINDS and NIAMS issued a contract to 
establish and fund a National Registry for Myotonic and FSH Muscular 
Dystrophy based at the University of Rochester. Patients join the 
registry voluntarily by providing medical and family history data. The 
registry brings together FSHD patients and families seeking to 
participate in research with researchers seeking patients for research 
on the disorder.
    Several program announcements were issued to promote large scale 
clinical and translational research in muscular dystrophy, as called 
for in the MD-CARE Act, called the Senator Paul D. Wellstone Muscular 
Dystrophy Research Centers. One of these centers, at the University of 
Rochester, focuses on myotonic and FSH muscular dystrophy. One-quarter 
of this Wellstone MD CRC center focuses on the molecular pathology of 
FSHD and serves as a resource for cell lines, tissue biopsies, 
antibodies and data about gene expression. This Wellstone MD CRC core 
at Rochester is the only funding specific for FSHD in the six Wellstone 
MD CRCs.
    The MD-CARE Act provides that the Wellstone MD CRC centers are not 
to replace funding and projects in existing basic research portfolios. 
In addition to building national infrastructure for dystrophy research, 
the NIH is expanding research resources for FSHD by funding several 
basic research grants related to understanding the mechanism and 
pathology of FSH muscular dystrophy.
    One of these grantees, Rossella Tupler, supported by the FSH 
Society, helped bring about a momentous breakthrough in FSHD research. 
The prestigious scientific journal Nature made an advance online 
publication of ``Facioscapulohumeral muscular dystrophy in mice over-
expressing FRG1'', by Davide Gabellini and Rossella Tupler, et al., on 
December 11, 2005. The Nature paper is a breakthrough on multiple 
levels, it: (1) creates an animal model for FSHD; (2) points to a gene, 
called FRG1, that causes FSHD; (3) identifies other genetic processes 
impacted by FRG1 over-expression involved in other major adult 
dystrophies; (4) shows that both the FRG1 gene and mis-expressed pre-
mRNA intermediary products can be targeted and regulated by new and 
novel gene therapy techniques to correct expression levels; and (5) 
gives FSHD the hard target needed in order have better success in 
securing major funding from large agencies. They have demonstrated that 
transcriptional modulation of a gene from the region can produce an 
interesting, potentially relevant phenotype. This model can now be used 
to create conditional variants and ultimately move on to look for 
transcriptional suppressors of the phenotype.
    The NINDS, NIAMS and NICHD support career development and training 
awards for muscle biology and neuroscience through three program 
announcements for domestic and foreign investigators to help create a 
cadre of new scientists and researchers working on muscular dystrophy. 
The NINDS, NIAMS program officers in dystrophy are working diligently 
trying to help extramural researchers submit the highest quality 
applications.
    The NIH assisted Dr. Melanie Ehrlich of Tulane University, who was 
displaced by hurricane Katrina by offering a position in the NIAMS 
intramural research laboratory of Dr. Kuan Wang and granting 
supplemental relief funds to salvage her FSHD research.

                     NIH MUSCULAR DYSTROPHY FUNDING

    However, in the 6 years since the MD-CARE Act was signed the NIH 
[NIAMS, NINDS, NICHD, NHGRI] funding for FSHD remains very small. Since 
2000, the overall NIH wide muscular dystrophy budget has increased from 
$12.6 million to $39.0 million in fiscal year 2007 estimated. Since 
2000, the FSHD budget has increased from $400,000 to $2.1 million in 
fiscal year 2007 estimated. In the past year, at least five basic 
research grant applications (R01s) were submitted on FSHD and none were 
chosen for funding! Though the international field of FSHD researcher 
is small, the researchers are absolutely top-rate, world class and 
certainly competitive with other NIH grant applicants. Five 
applications represents about 25-30 percent of the entire field of FSHD 
researchers with the standing and experience to submit a basic research 
grant. A significant amount of FSHD researchers are submitting grant 
applications!

                           NATIONAL INSTITUTES OF HEALTH (NIH) APPROPRIATIONS HISTORY
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                            FSHD         FSHD
            Fiscal year             NIH overall  MD research   MD percent      FSHD      percent of   percent of
                                                                 of NIH      research        MD          NIH
----------------------------------------------------------------------------------------------------------------
2000..............................      $17,821       $12.60        0.071        $0.40         3.18       0.0022
2001..............................       20,458        21.00        0.103         0.50         2.38       0.0024
2002..............................       23,296        27.60        0.118         1.30         4.71       0.0056
2003..............................       27,067        39.10        0.144         1.50         3.83       0.0055
2004..............................       27,887        38.70        0.139         2.20         5.67       0.0079
2005..............................       28,494        39.50        0.139         2.00         5.06       0.0070
2006..............................       28,428        39.3E        0.138         2.1E         5.31       0.0074
2007E.............................       28,428        39.0E        0.137         2.1E         5.38       0.0074

----------------------------------------------------------------------------------------------------------------
Source: NIH/OD Budget Office & NIH OCPL.

    NIAMS has one research contract for FSHD, the National Registry for 
Myotonic and FSH muscular dystrophy for $295,888 (fiscal year 2005). 
Its total muscular dystrophy portfolio for fiscal year 2005 was 57 
projects, including two Wellstone MD CRC components for a total of 
$17,136,343. FSHD was only 1.7 percent of NIAMS fiscal year 2005 
muscular dystrophy funding.
    NINDS reports three research grants, one intramural grant, one 
research contract, and one-quarter of a Wellstone CRC for FSHD for a 
total of $1,359,930 in fiscal year 2005. The total muscular dystrophy 
fiscal year 2005 portfolio reported for fiscal year 2005 was 33 
projects, including two Wellstone CRCs for a total of $11,987,219. FSHD 
was only 11.4 percent of NINDS fiscal year 2005 muscular dystrophy 
funding.
    NICHD reports that approximately ten percent of its $4,762,321 
fiscal year muscular dystrophy portfolio has some broad or general 
application to FSHD, but does not identify specific projects. The NICHD 
reports that $400,000 was spent on FSHD. The total muscular dystrophy 
fiscal year 2005 portfolio reported was 17 projects, including three 
Wellstone MD CRC components for a total of $4,762,321. FSHD was only 
8.4 percent of NICHD fiscal year 2005 dystrophy funding.
    The NIAMS, NINDS, NICHD, and NHGRI--the four lead institutes on 
muscular dystrophy--reported a combined total of 108 projects on 
muscular dystrophy totaling $34,285,883 in fiscal year 2005. Of that 
total amount facioscapulohumeral muscular dystrophy (FSHD) received 
$1,440,555 in directly titled funds for three grants, one contract and 
one-quarter of a Wellstone MD CRC.
    The NIH now has six Wellstone MD CRCs, which are approximately 
equivalent to 27 basic research grants (R01). One-quarter of one 
Wellstone, or one R01 equivalent, has direct relevance to FSHD. Only 
3.7 percent of the total Wellstone MD CRC expenditure is being spent on 
the second most prevalent adult muscular dystrophy or the third most 
prevalent form of muscular dystrophy affecting men, women and children.

                                REQUEST

    Mr. Chairman and Members of the Committee, we request an 
appropriation of $10 million-$12.5 million to accomplish the FSH 
muscular dystrophy research plan as outlined by the NIH and submitted 
to the Congress. As a start, simply examining the scope of the work 
outlined in the NIH Action Plan for Muscular Dystrophy ``Mechanisms 
Section, Research Objective 3: Define the molecular pathogenetic 
mechanisms that lead to FSH muscular dystrophy,'' illustrates a 
requirement of at least 12 to 15 basic research grants (R01s) and/or 
high risk innovative research grants (R21s) that require $5 million-$6 
million to adequately fund them.
    We also request that the umbrella area of muscular dystrophy 
receive an appropriation commensurate with similar disease areas, and 
we request equity by starting with a doubling of the current $39 
million to $80 million to adequately fund the NIH research plan for 
dystrophy. NIH Disease Funding, Special Areas of Interest table shows 
that similar umbrella areas of health burden, scope, and impact such as 
Multiple Sclerosis ($109 million), Motor Neuron Disease ($57 million), 
Cystic Fibrosis ($89 million), Parkinson's ($223 million), and 
Huntington's ($48 million) receiving average funding levels of $105 
million. Muscular dystrophy affects hundreds of thousands of 
individuals, including family and friends.
    We understand that the NIH overall budget went down in fiscal year 
2006 to $28,428M from $28,494M and that Congress is strapped with other 
priorities. Chairman Specter, thank you for the constant and consistent 
support of biomedical research and for the NIH programs that offer hope 
for millions of sick and dying people. Mr. Chairman, members of the 
committee and members of Congress, the opportunities for FSHD research 
are greater than ever. The past year brought with it several major 
breakthroughs and discoveries and we are on the cusp of understanding 
FSHD and a never before seen class of disease. Now that we have a very 
refined plan of attack and research direction by the NIH, the need for 
funding is even greater. FSHD research needs to continue unabated and 
we remind you that there is no treatment or therapy for this 
devastating and crippling disease.
    We ask the subcommittee to appropriate in fiscal year 2007 $12.5 
million for FSH Muscular Dystrophy and $80 million for Muscular 
Dystrophy either as new money towards the overall NIH budget or as a 
requested allocation/re-allocation of resources internally within the 
NIH, to support the NIH stated plan of action to work on dystrophy. We 
thank the subcommittee for this opportunity to present our views.
                                 ______
                                 
          Prepared Statement of the Foster Grandparent Program

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit this testimony in support of fiscal year 2007 
funding for the Foster Grandparent Program (FGP), the oldest and 
largest of the three programs known collectively as the National Senior 
Volunteer Corps, which are authorized by Title II of the Domestic 
Volunteer Service Act (DVSA) of 1973, as amended and administered by 
the Corporation for National and Community Service (CNS). NAFGPD is a 
membership-supported professional organization whose roster includes 
the majority of more than 350 directors, who administer Foster 
Grandparent Programs nationwide, as well as local sponsoring agencies 
and others who value and support the work of FGP.
    Mr. Chairman, I would like to begin by thanking you and the 
distinguished members of the subcommittee for your steadfast support of 
the Foster Grandparent Program. No matter what the circumstances, this 
subcommittee has always been there to protect the integrity and mission 
of our programs. Our volunteers and the children they serve across the 
country are the beneficiaries of your commitment to FGP, and for that 
we thank you. I also want to acknowledge your outstanding staff for 
their tireless work and very difficult job they have to ``make the 
numbers fit.''--an increasingly difficult task in this budget 
environment.
    NAFGPD remains concerned that the Corporation's fiscal year 2007 
request does not provide any new funding where it is needed most--in 
the field. All of us recognize the spending constraints placed on the 
President and, most importantly on you and the Appropriations 
Committee. However, in a time of such scarce Federal resources, NAFGPD 
believes strongly that any new funding should flow to our programs in 
the field where it is most urgently needed, not CNCS headquarters.
    This fiscal year 2007 budget request follows fiscal year 2006 in 
which FGP experienced a nearly $500,000 funding cut. The last time FGPs 
in the field realized any increases at all to cover the increased costs 
of doing business--especially in the area of transportation costs--was 
in fiscal year 2005; that increase amounted to a very small .84 
percent, when inflationary price increases have been averaging 2-3 
percent every year. FGP programs continue to face considerable stress 
in covering the rising costs of administering programs and maintaining 
program quality.
    NAFGPD respectfully requests two things of the subcommittee:
    (1) To provide $115.929 million for the Foster Grandparent Program 
in fiscal year 2007, an increase of $4.992 million over the fiscal year 
2006 level. This critical funding will ensure the continued viability 
of the Foster Grandparent Program, and allow for important expansion of 
this unique program. Specifically, this proposal would fund a 3 percent 
cost of living increase for every Foster Grandparent Program and 
expansion grants to existing programs that would add 370 new low-income 
senior volunteers to serve children;
    (2) To maintain current appropriations statutory language that 
prohibits CNCS from using funds in the bill to pay non-taxable stipend 
to volunteers whose incomes exceed 125 percent of the national poverty 
level. In its budget narrative, CNCS has again requested that this 
language be eliminated because it stifles innovation. In fact, CNCS has 
the ability to test any innovations they wish through demonstration 
activities--they just cannot pay a non-taxable stipend to volunteers 
whose incomes exceed 125 percent of the national poverty level. 
Congress has repeatedly over the last six years disavowed this practice 
and re-affirmed that the non-taxable stipend must be reserved for low-
income volunteers. We ask that you again protect the mission of the 
Foster Grandparent and Senior Companion Programs--to enable low-income 
older people--to serve their communities by maintaining this important 
statutory language.

                            FGP: AN OVERVIEW

    Established in 1965, the Foster Grandparent Program was the first 
federally funded, organized program to engage older volunteers in 
significant service to others. From the 20 original programs based 
totally in institutions for children with severe mental and physical 
disabilities, FGP now comprises nearly 350 programs in every State and 
the District of Columbia, Puerto Rico, and the Virgin Islands. These 
programs are now primarily in community-based child caring agencies or 
organizations--where most special needs children can be found today--
and are administered locally through a non-profit organization or 
agency and Advisory Council comprised of community citizens dedicated 
to FGP and its mission. FGP represents the best in the Federal 
partnership with local communities, with Federal dollars flowing 
directly to local sponsoring agencies, which in turn determine how the 
funds are used. Through this partnership and the flexibility of the 
program, FGP is able to meet the immediate needs of the local 
communities. This was demonstrated by Foster Grandparent Programs in 
communities that were impacted by the influx of Hurricane Katrina 
evacuees. Foster Grandparents rallied to provide services to children 
in shelters, child care centers, and schools.
    There are currently 38,700 Foster Grandparent volunteers who give 
over 36 million hours annually to more than 277,000 children. The 
Foster Grandparent Program is unique for several reasons. The program 
is one of only two volunteer programs in existence that enable seniors 
living on very limited incomes to serve their communities as volunteers 
by providing a small non-taxable stipend and other support which allow 
volunteers to serve at little or no cost to themselves. FGP volunteers 
provide intensive, consistent service--15 to 40 hours every week, 
usually four hours every day. FGP provides intensive pre-service 
orientation and at least 48 hours of ongoing training every year to 
keep volunteers current and informed on how to work with children who 
have special needs. And our volunteers provide one-to-one service to 
their assigned children, exactly what is required to help prepare our 
Nation's neediest children to become self-sufficient adults.

                          FGP: THE VOLUNTEERS

    The Foster Grandparent Program is a versatile, dynamic, and 
uniquely multi-purpose program. First, the program gives Americans 60 
years of age or older who are living on incomes at or less than 125 
percent of the poverty level the opportunity to serve 15 to 40 hours 
every week and use the talents, skills and wisdom they have accumulated 
over a lifetime to give back to the communities which nurtured them 
throughout their lives. Seniors in general are not valued or respected 
in today's society, and low-income seniors are particularly devalued 
because of their economic status. They are rarely asked by their 
communities to contribute through volunteering, because they are not 
traditionally those who participate in community activities.
    FGP actively seeks out these low-income seniors. We dare to ask 
them to serve, to give something back. And we help them to develop the 
additional skills they may need to function effectively in settings 
unfamiliar to them, like public schools, hospitals, childcare centers, 
and juvenile detention facilities. We also provide them with ongoing 
training and support throughout their tenure as Foster Grandparents. 
Through their service, our older volunteers say they feel and stay 
healthier, that they feel needed and productive. Most importantly, they 
leave to the next generation a legacy of skills, perspective and 
knowledge that has been learned the hard way--through experience.
    Within budgetary constraints, FGP is engaging older people who are 
not usually asked to serve and those usually considered as needing 
services rather than being able to serve: 86 percent are 65 or older 
and 45 percent come from various ethnic groups.

                           FGP: THE CHILDREN

    Through our volunteers, the Foster Grandparent Program also 
provides person-to-person service to children and youth under the age 
of 21 who have special or exceptional needs, many of whom face serious, 
often life-threatening challenges. With the changing dynamics in family 
life today, many children with disabilities and special needs lack a 
consistent, stable adult role model in their lives. The Foster 
Grandparent is very often the only person in a child's life who is 
there every day, who accepts the child, encourages him no matter how 
many mistakes the child makes, and focuses on the child's successes.
    Special needs of children served by Foster Grandparents include 
AIDS or addiction to crack or other drugs; abuse or neglect; physical, 
mental, or learning disabilities; speech, or other sensory 
disabilities; incarceration and terminal illness. Of the children 
served, 7 percent are abused or neglected, 26 percent have learning 
disabilities, and 11 percent have developmental delays. FGP focuses its 
resources in areas where they will have the most impact: early 
intervention services and literacy activities. Nationally, 85 percent 
of the children served by Foster Grandparents are under the age of 12, 
with 39 percent of these children age 5 or under. Foster Grandparents 
work intensively with these very young children to address their 
problems at as early an age as possible, before they enter school. 
Nearly one-half of FGP volunteers serve nearly 12 million hours 
annually addressing literacy and emergent-literacy problems with 
special needs children.
    Activities of the FGP volunteers with their assigned children 
include teaching parenting skills to teen parents; providing physical 
and emotional support to babies abandoned in hospitals; helping 
children with developmental, speech, or physical disabilities develop 
self-help skills; reinforcing reading and mathematics skills; and 
giving guidance and serving as mentors to incarcerated or other youth.

                        FGP: THE VOLUNTEER SITES

    The Foster Grandparent Program provides child-caring agencies and 
organizations offering services to special-needs children with a 
consistent, reliable, invaluable extra pair of hands 15 to 40 hours 
every week to assist in providing these services. Seventy-one percent 
of FGP volunteers serve in public and private schools as well as sites 
that provide early childhood pre-literacy services to very young 
children, including Head Start.

                      FGP: COST-EFFECTIVE SERVICE

    The Foster Grandparent Program serves local communities in a high 
quality, efficient and cost-effective manner, saving local communities 
money by helping our older volunteers stay independent and healthy and 
out of expensive in-home or institutional care. Using the Independent 
Sector's 2003 valuation for one hour of volunteer service ($17.19/
hour), the value of the service given by Foster Grandparents annually 
is over $618 million, and represents a 5-fold return on the Federal 
dollars invested in FGP. The annual Federal cost for one Foster 
Grandparent is $3,800--less than $4 per hour.
    The value local communities place on FGP and its multifaceted 
services is evidenced by the large amount of cash and in-kind donations 
contributed by communities to support FGP. For example, FGP's fiscal 
year 2001 Federal allocation was matched with $40 million in non-
Federal donations from States and local communities in which Foster 
Grandparents volunteer. This represents a non-Federal match of 42 
percent, or $.42 for every $1 in Federal funds invested--well over the 
10 percent local match required by law.

                NAFGPD'S FISCAL YEAR 2007 BUDGET REQUEST

    Given the dramatically expanding number of low-income seniors 
eligible to serve and the staggering number of troubled and challenged 
children in America today, we respectfully request that the 
subcommittee provide $115.929 million for the Foster Grandparent 
Program in fiscal year 2007, an increase of $4.992 million over fiscal 
year 2006. This critical funding will ensure the continued viability of 
the Foster Grandparent program, and allow for an expansion of this 
important program.
    The requested increase would be allocated for the following 
purposes, in order of priority:
    1. in accordance with the Domestic Volunteer Service Act (DVSA), 
designate one-third of the increase over the fiscal year 2006 level to 
fund Program of National Significance (PNS) expansion grants to allow 
existing FGP programs to expand the number of volunteers serving in 
areas of critical need as identified by Congress in the DVSA. This 
expansion of FGP was overwhelmingly supported and endorsed by White 
House Conference in Aging delegates at the recent 2005 Conference 
convened by the President.
    2. use all remaining funds to award an administrative cost increase 
of at least 3 percent to each existing Foster Grandparent Program in 
order to maintain quality, enable recruitment and sustain the work 
already being done by programs.
    This funding proposal will generate opportunities for approximately 
370 new low-income senior volunteers to contribute 390,000 hours of 
service annually to nearly 2,000 additional children with special needs 
through PNS grants to existing FGPs.
    We request that no funds be provided for Senior Demonstration. 
Language in the Corporation for National and Community Service's Budget 
Justification indicate that any demonstration funds awarded will again 
be used for programming that allows the payment of a stipend to 
individuals whose incomes exceed 125 percent of the national poverty 
level. In recognition of the fact that this practice has nothing to do 
with the true spirit of volunteerism, Congress has expressly prohibited 
this practice for the last 6 years in appropriations language; we 
request that this important language be maintained to protect the 
purpose of FGP and SCP: to enable low-income elders to serve their 
communities.
    The message is clear: (1) the population of low-income seniors 
available to volunteer 15 to 40 hours every week is increasing; (2) 
communities need and want more Foster Grandparent volunteers and more 
Foster Grandparent Programs. The subcommittee's continued investment in 
FGP now will pay off in savings realized later, as more seniors stay 
healthy and independent through volunteer service, as communities save 
tax dollars, and as children with special needs are helped to become 
contributing members of society.
    Mr. Chairman, in closing I would like to again thank you for the 
subcommittee's support and leadership for FGP over the years. NAFGPD 
takes great comfort in knowing you and your colleagues in Congress 
appreciate what our low-income senior volunteers accomplish every day 
in communities across the country.
                                 ______
                                 
    Prepared Statement of Friends of the National Institute on Aging

    Chairman Specter and members of the subcommittee, thank you for 
this opportunity to testify in support of increasing funding within the 
National Institutes of Health (NIH), and in particular within the 
National Institute on Aging (NIA).
    The Friends of the NIA is a relatively new coalition comprised of 
some 50 organizations from academia and the non-profit community. All 
of the groups comprising the Friends of the NIA conduct, fund or 
advocate for scientific efforts to improve the health and quality of 
life for Americans as they grow older. All of our groups support the 
continuation and expansion of biomedical, behavioral, and social 
science research within the NIA. The Friends of the NIA seeks to raise 
awareness about aging research and the important scientific progress 
supported and guided by the NIA. Our testimony not only addresses 
recent research advances funded by the NIA, but also points to missed 
opportunities if there is not growth in the NIA appropriation from 
Congress in fiscal year 2007.
    The NIA is dedicated to conducting biomedical, behavioral, and 
social science research in order to prevent disease and other problems 
of the aged, and to maintain the health and independence of older 
Americans. This research is all the more urgent because of the 
explosive growth of the older population in the United States. This 
year, the first wave of our largest generation--some 77 million members 
of the postwar Baby Boom generation--began turning aging 60. Currently 
there are some 36 million Americans aged 65 and older. That population 
is expected to double in size within the next 25 years, at which time 
nearly 20 percent of the American population will be older than age 65 
and eligible for old age assistance for health care under the Federal 
Medicare program (Federal Interagency Forum on Aging-Related Statistics 
2004, Older Americans). Of particular interest is the dramatic growth 
that is anticipated among those most at risk for disease and 
disability, people age 85 and over whose numbers are expected to grow 
from 4.3 million in 2000 to at least 19.4 million in 2050 (65+ in the 
United States: 2005, U.S. Census, 2006).
    This growing population presents many social and economic 
challenges as increasing numbers of Americans reach retirement age. 
This rapidly expanding population, many of whom will have multiple 
medical needs, will require substantial changes in health care 
delivery. Aging itself is not the cause of disease, disability, and 
frailty, but these conditions are influenced by age-related changes, 
lifestyle choices and rising risk factors. We also know that outside 
influences, such as economic, physical, environmental, and caregiving 
stresses increase vulnerability to disease, especially amongst the 
elderly. NIA has a broad research portfolio and is the only Institute 
that studies the normal changes associated with aging as well as 
pathological conditions from an interdisciplinary perspective. 
Understanding when and how changes occur as we age provides important 
clues for developing interventions that will prevent and treat 
diseases, and improve quality of life.
    In addition to participating in NIH-wide initiatives, NIA has made 
and supported many significant contributions of its own to the 
biomedical and psycho-social understanding of the aging processes and, 
through ongoing clinical trials, to the testing of promising 
interventions for the detection, treatment and prevention of many age-
related conditions.
    The NIA is the lead Federal research agency for Alzheimer's disease 
(AD). AD is the most common cause of dementia and a serious threat to 
the Nation's health and economic well-being. Today, an estimated 4.5 
million Americans, 1 in 10 persons over age 65 and nearly one-half of 
those over 85, suffer from this debilitating disease. That toll is 
projected to increase to 5.1 million people by 2010 and 16 million by 
2050 (Hebert et al. 2003, Alzheimer's Disease in the U.S. Population). 
Over the next decade, Medicare spending on beneficiaries with AD will 
more than triple to $189 billion. Our concern is that flattened budgets 
for the NIH institutes are threatening major AD research initiatives. 
One example is the Alzheimer's Disease Neuroimaging Initiative (ADNI), 
launched in 2004 as a public/private partnership: the most 
comprehensive effort to date to identify neuroimaging strategies and 
biomarkers to identify the onset of mild cognitive impairment and early 
AD with greater sensitivity. The project currently involves 
approximately 50 sites across the United States and Canada and holds 
the promise of early diagnosis and subsequent interventions that could 
postpone or more effectively treat AD. The Genetics Initiative is 
another multi-site collaboration that is collecting, sharing, and 
analyzing data to complete the picture of genetic risk factors for AD. 
These programs offer enormous potential to identify AD and intervene 
early, but lack of adequate funding will prevent or slow realization of 
the full potential of these programs. With aging baby boomers on the 
horizon, we cannot afford this delay.
    Great strides have been made in AD. Only a few years ago, this 
disease could not be positively confirmed until autopsy. Now we can 
diagnose the disease in life with a high degree of certainty; we 
understand some of the basic mechanisms of the disease; and five 
approved drugs for treating symptoms are now approved with many new 
compounds being tested in publicly and industry-supported clinical 
trials.
    This is a critical time for investment not retrenchment. Scientists 
are poised to find effective ways to prevent, delay onset, and even 
treat this disease. If the onset of AD could be delayed by just two 
years, the AD afflicted population would remain at current size, even 
with the expected increases in senior population; a five-year delay of 
onset would cut the projected AD population in half.
    Other promising NIA biomedical research efforts into prominent 
diseases include research programs to discover new Parkinson's 
susceptibility genes; studies of age-related bone loss and 
osteoporosis; development of programs to assess genetic and 
environmental factors in racial and ethnic health differences 
simultaneously; and bone marrow failure diseases, all of which occur in 
higher incidence in people over 60.
    NIA's behavioral and social science research programs have been 
instrumental in providing crucial economic and demographic population 
information. NIA's Centers on the Demography of Aging, particularly 
their Health and Retirement Survey (HRS) and the National Long-Term 
Care Survey (NLTCS), provide critical data on the health and economic 
status of the older population. These data have been used by Congress 
to better understand the budgetary impact of population aging, as 
potential changes to public programs such as Social Security, Medicare, 
and Medicaid are deliberated. By using NLTCS data, investigators 
identified the declining rate of disability in older Americans first 
observed in the mid-1990s--a trend that has continued. This trend, if 
continued, could have momentous impact on reducing the need for costly 
long-term care. The Social Security Administration recognizes and co-
funds the HRS as a ``Research Partner'' and posts the study on its home 
page to improve its availability to the public and to policymakers. In 
2005, the Center for Medicare and Medicaid Services (CMS) funded a 
supplemental survey using the HRS to provide timely information on who 
is likely to enroll in the new Medicare Part D prescription drug 
program and how those decisions are related to knowledge of the 
program, drug use and costs.
    There is building evidence that continued engagement in productive 
activities has a positive impact on health and life satisfaction. The 
experience and expertise of the new 65+ population offers great 
potential to help address workforce shortages as well as some of the 
critical social needs of our country. The NIA is working to build a 
research agenda that focuses on maximizing older workers' safety, 
health, productivity and life satisfaction--knowledge that this will be 
critical to developing sound national policies.
    NIA provides critical support for the training of new 
investigators. The reduction in funded proposals as a result of limited 
NIA budget will impact the ability to recruit and sustain an 
appropriate pool of qualified researchers in gerontology and 
geriatrics. Numerous reports have cited the need for more geriatricians 
and geriatric-trained professionals for our aging society. By 2030, the 
United States will need up to 36,000 geriatricians and will fall far 
short of that figure by as many as 25,000 unless effective steps are 
taken to train new providers (Medical Never-Never Land, Alliance for 
Aging Research, 2002). Further budget cuts will reduce funding 
available for training, and may force some leading researchers and 
practitioners to abandon gerontology as well as the mentoring of new 
professionals in the field.
    With bipartisan leadership in Congress, the NIH budget doubled 
between 1998 and 2003 ($13.6 to $27.3 billion). However, since 2003, 
funding for the NIH in real dollars has been on a downward trajectory. 
Under the President's proposed fiscal year 2007 budget, the NIA is 
slated to be decreased in real terms by $10 million. Further, in order 
to preserve clinical trials already underway, NIA will fund only 18 
percent of new grant proposals. This is down substantially from 28.5 
percent in 2003, and will not come close to supporting the more than 50 
percent of submitted applications that the NIA has determined to be 
highly promising. At the same time that the acceptance rate of new 
proposals is down, the funding levels of new grants has also dropped 
from years past. Moreover, even those grantees receiving funding face 
an average reduction from requested budgets by 18 percent across the 
board. (Fiscal Year 2007, National Institutes on Aging, Justification 
of Estimates for Appropriations Committees). Investigator-initiated 
research projects provide new breakthroughs in knowledge and treatment 
to benefit older Americans and their families. Declining budgets slow 
momentum and impact future research programs. For example, continued 
cuts will impact projects such as, the start up of new clinical trials 
in caloric restriction, testosterone supplementation in men, and 
lifestyle interventions and independence for elders, all of which have 
shown great potential for significant public health outcomes.
    The Friends of the National Institute on Aging recommend the 
following directives:
    (1) The time for research on aging is now if we are to achieve a 
healthier and more productive aging America. To further this goal, the 
Friends of the NIA endorse the recommendation issued by the Ad Hoc 
Group for Medical Research in calling for a 5 percent overall increase 
for the National Institutes of Health in fiscal year 2007.
    (2) NIA needs additional resources to support individual 
investigator awards, to avoid an 18 percent cut in its existing grants, 
and to sustain training and research opportunities for new 
investigators.
    Mr. Chairman, the Friends of the NIA thanks you for this 
opportunity to outline the challenges threats and opportunities that 
lie ahead as you consider appropriate funding for the NIH and the 
National Institute on Aging.
                                 ______
                                 
            Prepared Statement of Friends of NIDA Coalition

    The Friends of the National Institute on Drug Abuse (FoN), a 
burgeoning coalition of scientific and professional societies, patient 
groups, and other organizations committed to preventing and treating 
substance use disorders as well as understanding the causes and public 
health consequences of addiction, is pleased to provide testimony in 
support of the NIDA's extraordinary work. Pursuant to clause 2(g)4 of 
House Rule XI, the Coalition does not receive any Federal funds.
    Drug abuse is costly--to individuals and to our society as a whole. 
Smoking, alcohol abuse and illegal drugs cost this country more than 
$500 billion a year, with illicit drug use alone accounting for about 
$180 billion in health care, crime, productivity loss, incarceration, 
and drug enforcement. Beyond its monetary impact, drug and alcohol 
abuse tear at the very fabric of our society, often spreading 
infectious diseases and bringing about family disintegration, loss of 
employment, failure in school, domestic violence, child abuse, and 
other crimes. The good news is that treatment for drug abuse is 
effective and recovery from addiction is real for millions of Americans 
across the country. Preventing drug abuse and addiction and reducing 
these myriad adverse consequences in the ultimate aim of our Nation's 
investment in drug abuse research. Over the past three decades, 
scientific advances resulting from research have revolutionized our 
understanding of and approach to drug abuse and addiction.
    NODA supports a comprehensive research portfolio that spans the 
continuum of basic neuroscience, behavior and genetics research through 
applied health services research and epidemiology. While supporting 
research on the positive effects of evidence-based prevention and 
treatment efforts, NIDA also recognizes the need to keep pace with 
emergent problems. Research shows encouraging trends that NIDA's public 
education and awareness efforts are having an impact: For example, the 
2005 Monitoring the Future Survey of 8th, 10th, and 12th graders shows 
a dramatic 19 percent reduction in use since 2001. However, areas of 
significant concern remain. Some of NIDA's current research priorities 
include understanding more about methamphetamine and the brain, 
addressing the growing problem of prescription drug abuse, using drug 
abuse treatment to curtail the spread of HIV/AIDS, and encouraging 
collaborations that address comorbidity.
    Because of the critical importance of drug abuse research for the 
health and economy of our Nation, we write to you today to request your 
support for a 5 percent increase for NIDA in the fiscal 2007 Labor, 
Health and Human Services, Education and Related Agencies 
Appropriations bill. That would bring total funding for NIDA in fiscal 
2007 to $1,050,030,450. Recognizing that so many health research issues 
are inter-related, we also support a 5 percent increase for the 
National Institutes of Health overall, which would bring its total to 
$30 billion for fiscal 2007, This work deserves continuing, strong 
support from Congress. Below is a short list of significant NIDA 
accomplishments, challenges, and successes.
    Adolescent Brain Development--How Understanding the Brain Can 
Impact Prevention Efforts.--NIDA maintains a vigorous developmental 
research portfolio focused on adolescent populations. NIDA working 
collaboratively with other NIH Institutes has shown that the human 
brain does not fully develop until about age 25. This adds to the 
rationale for referring to addiction as a ``developmental disease;'' it 
often starts during the early developmental stages in adolescence and 
sometimes as early as childhood, a time when we know the brain is still 
developing. Having insight into how the human brain works, and 
understanding the biological underpinnings of risk taking among young 
people will help in developing more effective prevention programs. FoN 
believes NIDA should continue its emphasis on studying adolescent brain 
development to better understand how developmental processes and 
outcomes are affected by drug exposure, the environment and genetics.
    Medications Development.--NIDA has demonstrated leadership in the 
field of medications development by partnering with private industry to 
develop anti-addiction medications resulting in a new medication, 
buprenorphine, for opiate addiction. FoN recommends that NIDA continue 
its work with the private sector to develop much needed anti-addiction 
medications, for cocaine, methamphetamine, and marijuana dependence.
    Co-Occurring Disorders.--NIDA recognizes the need to to adequately 
address research questions related to co-occurring substance abuse and 
mental health problems. In particular, NIDA has developed robust 
collaborations with other agencies (such as NIAAA, NIMH and SAMHSA) to 
stimulate new research to develop effective strategies and to ensure 
the timely adoption and implementation of evidence-based practices for 
the prevention and treatment of co-occurring disorders. Through these 
initiatives, NIDA is supporting research to determine the most 
effective models of clinically appropriate treatment and how to bring 
them to communities with limited resources. FoN recognizes the 
imperative for continued funding of essential research into the nature 
of and improved treatment for these complex disorders and endorses 
these efforts.
    Drug Abuse and HIV/AIDS.--One of the most significant causes of HIV 
virus acquisition and transmission involves drug taking practices and 
related risk factors in different populations (e.g. criminal justice, 
pregnant women, minorities, and youth). Drug abuse prevention and 
treatment interventions have been shown to be effective in reducing HIV 
risk. FoN congratulates NIDA on its ``Drug Abuse and HIV--Learn the 
Link'' public awareness campaign, targeting young people, and believes 
NIDA should continue to support research that focuses on developing and 
testing drug-abuse related interventions designed to reduce the spread 
of HIV/AIDS.
    Emerging Drug Problems.--NIDA recognizes that drug use patterns are 
constantly changing and expends considerable effort to monitor drug use 
trends and to rapidly inform the public of emerging drug problems. FoN 
believes NIDA should continue supporting research that provides 
reliable data on emerging drug trends, particularly among youth and in 
major cities across the country and will continue its leadership role 
in alerting communities to new trends and creating awareness about 
these drugs.
    Reducing Prescription Drug Abuse.--NIDA research has documented 
continued increases in the numbers of people, especially young people, 
who use prescription drugs for non-medical purposes. Particular concern 
revolves around the inappropriate use of opiod analgesics--very 
powerful pain medications. FoN commends NIDA for its research focus in 
this area, and for the new Prescription Opioid Use and Abuse in the 
Treatment of Pain initiative. Research targeting a reduction in 
prescription drug abuse, particularly among our Nation's youth, will 
continue to be a priority for NIDA. Finally, FoN endorses NIDA's 
programmatic research designed to further the development of 
medications that are less likely to have abuse/addiction liability, and 
to develop prevention and treatment interventions for adolescents and 
adults who are abusing prescription drugs.
    Reducing Methamphetamine Abuse.--NIDA continues to recognize the 
epidemic abuse of methamphetamine across the United States. 
Methamphetamine abuse not only affects the users, but also the 
communities in which they live, especially due to the dangers 
associated with its production. FoN believes NIDA should continue to 
support research to address the broad medical consequences of 
methamphetamine abuse, and is encouraged by the evidence of treatment 
effectiveness in these populations. Topics of particular concern 
include: understanding the effects of prenatal exposure to 
methamphetamine, developing pharmacotherapies and behavioral therapies 
to treat methamphetamine addiction and information dissemination 
strategies to inform the public that treatment for methamphetamine 
addiction is effective.
    Reducing Inhalant Abuse.--FoN recognizes that inhalant use 
continues to be a significant problem among our youth. Inhalants pose a 
particularly significant problem since they are readily accessible, 
legal, and inexpensive. They also tend to be abused by younger teens 
and can be highly toxic and even lethal. FoN applauds NIDA's inhalant 
research portfolio and believes NIDA should continue its support of 
research on prevention and treatment of inhalant abuse, and to enhance 
public awareness on this issue.
    Long-Term Consequences of Marijuana Use.--NIDA research shows that 
marijuana can be detrimental to educational attainment, work 
performance, and cognitive function. However, more information is 
needed in order to assess the full impact of long-term marijuana use. 
Therefore, FoN recommends that NIDA continue to support efforts to 
assess the long-term consequences of marijuana use on cognitive 
abilities, achievement, and mental and physical health, as well as work 
with the private sector to develop medications focusing on marijuana 
addiction.
    Translating Research Into Practice.--FoN commends NIDA for its 
outreach and work with State substance abuse authorities to reduce the 
current 15- to 20-year lag between the discovery of an effective 
treatment intervention and its availability at the community level. In 
particular, FoN applauds NIDA for continuing its work with SAMHSA to 
strengthen State substance abuse agencies' capacity to support and 
engage in research that will foster statewide adoption of meritorious 
science-based policies and practices. FoN encourages NIDA to continue 
collaborative work with State substance abuse agencies to ensure that 
research findings are relevant and adaptable by State substance abuse 
systems. NIDA is also to be congratulated for its broad and varied 
information dissemination programs as part of an effort to ensure drug 
abuse research is used in everyday practice. The Institute is focused 
on stimulating and supporting innovative research to determine the 
components necessary for adopting, adapting, delivering, and 
maintaining effective research-supported policies, programs, and 
practices. As evidence-based strategies are developed, FoN urges NIDA 
to support research to determine how these practices can be best 
implemented at the community level.
    Primary Care Settings and Youth.--NIDA recognizes that primary care 
settings, such as offices of pediatricians and general practitioners, 
are potential key points of access to prevent and treat problem drug 
use among young people; yet primary care and drug abuse services are 
commonly delivered through separate systems. FoN encourages NIDA to 
continue to support health services research on effective ways to 
educate primary care providers about drug abuse; develop brief 
behavioral interventions for preventing and treating drug use and 
related health problems, particularly among adolescents; and develop 
methods to integrate drug abuse screening, assessment, prevention and 
treatment into primary health care settings.
    Utilizing Knowledge of Genetics and New Technological Advances to 
Curtail Addiction.--NIDA recognizes that not everyone who takes drugs 
becomes addicted and that this is an important phenomenon worthy of 
further exploration. Research has shown that genetics plays a critical 
role in addiction, and that the interplay between genetics and 
environment is crucial. The science of genetics is at a crucial phase--
technological advances are providing the tools to make significant 
breakthroughs in disease research. For example, FoN believes NIDA 
should take advantage of new high-resolution genetic technologies which 
may help to develop new tailored treatments for smoking.
    Reducing Health Disparities.--NIDA research demonstrates that the 
consequences of drug abuse disproportionately impacts minorities, 
especially African American populations. FoN believes that researchers 
should be encouraged to conduct more studies in this population and to 
target their studies in geographic areas where HIV/AIDS is high and or 
growing among African Americans, including in criminal justice 
settings.
    The Clinical Trials Network--Using Infrastructure to Improve 
Health.--FoN applauds the continued success of NIDA's National Drug 
Abuse Treatment Clinical Trials Network (CTN), which was established in 
1999 and has grown to include over 17 research centers or nodes spread 
across the country. The CTN provides an infrastructure to test the 
effectiveness of new and improved interventions in real-life community 
settings with diverse populations, enabling an expansion of treatment 
options for providers and patients. FoN suggests NIDA continue to 
develop ways to use the CTN as a vehicle to address emerging public 
health needs.
    Behavioral Science.--NIDA has long demonstrated a strong commitment 
to supporting behavioral science research. FoN encourages NIDA to 
continue to determine the interplay of behavioral, biological, and 
social factors that affect development and the onset of diseases like 
drug addiction to understand common pathways that may underlie other 
compulsive behaviors such as gambling and eating disorders.
    Drug Treatment in Criminal Justice Settings.--NIDA is very 
concerned about the well-known connections between drug use and crime. 
Research continues to demonstrate that providing treatment to 
individuals involved in the criminal justice system decreases future 
drug use and criminal behavior, while improving social functioning. 
Blending the functions of criminal justice supervision and drug abuse 
treatment and support services create an opportunity to have an optimal 
impact on behavior by addressing public health concerns while 
maintaining public safety. FoN strongly supports NIDA's efforts in this 
area, particularly the Criminal Justice Drug Abuse Treatment Studies 
(CJ-DATS), a multi-site set of research studies designed to improve 
outcomes for offenders with substance use disorders by improving the 
integration of drug abuse treatment with other public health and public 
safety systems.
    Social Neuroscience.--Research-based knowledge about the dynamic 
interactions of genes with environment confirm addiction as a complex 
and chronic disease of the brain with many contributors to its 
expression in individuals. FoN applauds NIDA's involvement in the 
recently released ``social neuroscience'' request for applications, and 
encourages the Institute to continue its focus on the interplay between 
genes, environment, and social factors and their relevance to drug 
abuse and addiction.
    Translational Research: Ensuring Research is Adaptable and 
Useable.--FoN commends NIDA for its broad and varied information 
dissemination programs. FoN also understands that the Institute is 
focused on stimulating and supporting innovative research to determine 
the components necessary for adopting, adapting, delivering, and 
maintaining effective research-supported policies, programs, and 
practices. As evidence-based strategies are developed, FoN urges NIDA 
to support research to determine how these practices can be best 
implemented at the State and community level.
    Blending Research and Practice.--FoN notes that it takes far too 
long for clinical research results to be implemented as part of routine 
patient care, and that this lag in diffusion of innovation is costly 
for society, devastating for individuals and families, and wasteful of 
knowledge and investments made to improve the health and quality of 
people's lives. FoN applauds NIDA's collaborative approach aimed at 
proactively involving all entities invested in changing the system and 
making it work better. NIDA is leading efforts to make the best 
substance abuse treatments available to those who need them, and this 
effort requires working with many different contributors to assimilate 
their feedback and create change at multiple levels.

                               CONCLUSION

    The Nation's investment in scientific research has changed the way 
people view drug abuse and addiction in this country. We now know how 
drugs work in the brain, their health consequences, how to treat people 
already addicted, and what constitutes effective prevention strategies. 
FoN asks you to provide an appropriation of $1,050,030,450 for NIDA, so 
that it may continue to serve the public health of all Americans and 
capitalize on new opportunities as science advances.
    We understand that the fiscal year 2007 budget cycle will involve 
setting priorities and accepting compromise. However, in the current 
climate, we believe a focus on substance abuse and addiction, which 
according to the World Health Organization account for nearly 20 
percent of disabilities among 15-44 year olds, deserve to be 
prioritized accordingly. We look forward to working with you to make 
this a reality.
    Thank you, Mr. Chairman, and the subcommittee, for your support for 
the National Institute on Drug Abuse.
                                 ______
                                 
             Prepared Statement of the Heart Rhythm Society

    The Heart Rhythm Society (HRS) thanks you and the Subcommittee on 
Labor, Health and Human Services and Education for your past and 
continued support of the National Institute of Health, and specifically 
the National Heart, Lung and Blood Institute (NHLBI).
    The Heart Rhythm Society, founded in 1979 to address the scarcity 
of information about the diagnosis and treatment of cardiac 
arrhythmias, is the international leader in science, education and 
advocacy for cardiac arrhythmia professionals and patients, and the 
primary information resource on heart rhythm disorders. The Heart 
Rhythm Society serves as an advocate for millions of American citizens 
from all 50 States, since arrhythmias are the leading cause of heart-
disease related deaths. Other, less lethal forms of arrhythmias are 
even more prevalent, account for 14 percent of all hospitalizations of 
Medicare beneficiaries.\1\ Our mission is to improve the care of 
patients by promoting research, education and optimal health care 
policies and standards. We are the preeminent professional group, 
representing more than 4,200 specialists in cardiac pacing and 
electrophysiology.
---------------------------------------------------------------------------
    \1\ Heart Rhythm Foundation, Arrhythmia Key Facts, 2004 http://
www.heartrhythmfoundation.org/facts/arrhythmia.asp.
---------------------------------------------------------------------------
    The Heart Rhythm Society recommends the subcommittee renew its 
commitment to supporting biomedical research in the United States and 
recommends Congress provide NIH with a 5 percent increase for fiscal 
year 2007. This translates into an appropriation of $29.849 billion for 
NIH, with $3.068 billion designated to the National Heart, Lung, and 
Blood Institute (NHLBI). This increase will enable NIH and NHLBI to 
sustain the level of research that leads to research breakthroughs and 
improved health outcomes. In particular, the Heart Rhythm Society 
recommends Congress support research into abnormal rhythms of the 
heart.
    HRS appreciates the actions of Congress to double the budget of the 
NIH in recent years. The doubling has directly promoted innovations 
that have improved treatments and cures for a myriad of medical 
problems facing our Nation. Medical research is a long-term process and 
in order to continue to meet the evolving challenges of improving human 
health we must not let our commitment wane. Furthermore, NIH research 
fuels innovation that generates economic growth and preserves our 
Nation's role as a world leader in the biomedical and biotech 
industries. Healthier citizens are the key to robust economic growth 
and greater productivity. Economists estimate that improvements in 
health from 1970 to 2000 were worth $95 trillion. During the same time 
period, the United States invested $200 billion in the NIH. If only 10 
percent of the overall health savings resulted from NIH-funded 
research, our investment in medical research has provided a 50-fold 
return to the economy.\2\
---------------------------------------------------------------------------
    \2\ Murphy, KM and Topel, RH, The Value of Health and Longevity, 
National Bureau of Economic Research Working Paper Series, Working 
Paper 11405, June 2005.
---------------------------------------------------------------------------
                        RESEARCH ACCOMPLISHMENTS

    In the field of cardiac arrhythmias, NIH-funded research has 
advanced our ability to treat atrial fibrillation and thus prevent the 
devastating complications of stroke. Atrial fibrillation is found in 
about 2.2 million Americans and increases the risk for stroke about 5-
fold. About 15-20 percent of strokes occur in people with atrial 
fibrillation. Stroke is a leading cause of serious, long-term 
disability in the United States and people who have strokes caused by 
AF have been reported as 2-3 times more likely to be bedridden compared 
to those who have strokes from other causes. Each year about 700,000 
people experience a new or recurrent stroke and in 2002 stroke 
accounted for more than 1 of every 15 deaths in the United States. 
Ablation therapy however is providing a cure for individuals whose 
rapid heart rates had previously incapacitated them, giving them a new 
lease on life.\3\
---------------------------------------------------------------------------
    \3\ American Stroke Association and American Heart Association, 
Heart Disease and Stroke Statistics_2005 Update, 2005 http://
www.americanheart.org/downloadable/heart/
1105390918119HDSStats2005Update.pdf.
---------------------------------------------------------------------------
    Important advances have also been made in identifying patients with 
heart failure and those who have suffered a heart attack and are at 
risk for sudden death. The development, through initial NIH-sponsored 
research, and implantation of sophisticated internal cardioverter 
defibrillators (ICD's) in such patients has saved the lives of hundreds 
of thousands and provides peace of mind for families everywhere, 
including that of Vice-President Cheney's. A new generation of 
pacemakers and ICDs is restoring the beat of the heart as we grow 
older, permitting us to lead more normal and productive lives, reducing 
the burden on our families, communities and the healthcare system. 
Arrhythmias and sudden death affect all age groups and are not solely 
diseases of the elderly.
    Research advances in molecular genetics have provided us the root 
basis for life-threatening abnormal rhythms of the heart associated 
with of wide range of inherited syndromes including long and short QT, 
Brugada syndromes, and hypertrophic cardiomyopathies. This knowledge 
has provided guidance to physicians for better detection and treatment 
of these sudden death syndromes reducing mortality and disability of 
infants, children and young adults. Individuals who survive an instance 
of sudden death often remain in vegetative states, resulting in a 
devastating burden on their families and an enormous economic burden on 
society. These advances have translated into sizeable savings to the 
health care system in the United States. Researchers are also 
developing a noninvasive imaging modality for cardiac arrhythmias. 
Despite the fact that more than 325,000 Americans die every year from 
heart rhythm disorders, a noninvasive imaging approach to diagnosis and 
guided therapy of arrhythmias, the equivalent of CT or MRI, has 
previously not been available.
    The NIH-funded Public Access Defibrillation (PAD) Trial was also 
able to determine that trained community volunteers increase survival 
for victims of cardiac arrest. It had already been known that 
defibrillation, utilizing an automated external defibrillator (AED), by 
trained public safety and emergency medical services personnel is a 
highly effective live-saving treatment for cardiac arrest. A NIH-funded 
trial however was able to conclude that placing AED's in public places 
and training lay persons to use them can prevent additional deaths and 
disabilities.\4\
---------------------------------------------------------------------------
    \4\ National Heart Lung and Blood Institute, NIH, Public Access 
Defibrillation by Trained Community Volunteers Increases Survival for 
Victims of Cardiac Arrest, November 2003 http://www.nhlbi.nih.gov/new/
press/03_11_11.htm.
---------------------------------------------------------------------------
    Without NIH support, these life-saving findings may have taken a 
decade to unravel. The highly focused approach utilizing basic and 
clinical expertise, funded through Federal programs made these advances 
a reality in a much shorter time-period.

                          BUDGET JUSTIFICATION

    These impressive strides notwithstanding, cardiac arrhythmias 
continue to plague our society and take the lives of loved ones at all 
ages, nearly one every minute of every day, as well as straining an 
already burdened health system. Sudden Cardiac Arrest is a leading 
cause of death in the United States, claiming an estimated 325,000 
lives every year, or one life every two minutes.\5\ The burden of 
morbidity and mortality due to cardiac arrhythmias is predicted to grow 
dramatically as the baby boomers age. Atrial fibrillation strikes 3-5 
percent of people over the age of 65,\6\ presenting a skyrocketing 
economic burden to our society in the form of healthcare treatment and 
delivery. It is estimated in 2005 that the direct and indirect cost of 
stroke will be $56.8 billion.\7\ Cardiac diseases of all forms increase 
with advancing age, ultimately leading to the development of 
arrhythmias. NIH research provides the basis for the medical advances 
that hold the key to lowering health care costs.
---------------------------------------------------------------------------
    \5\ Heart Rhythm Foundation, The Facts on Sudden Cardiac Arrest, 
2004 http://www.heartrhythmfoundation.org/its_about_time/pdf/
provider_fact_sheet.pdf.
    \6\ Heart Rhythm Society, Atrial Fibrillation & Flutter, 2005_ttp:/
/www.hrspatients.org/patients/heart_disorders/atrial_fibrillation/
default.asp.
    \7\ American Stroke Association, Impact of Stroke, 2005 http://
www.strokeassociation.org/presenter.jhtml?identifier=1033.
---------------------------------------------------------------------------
    The above progress we have witnessed in recent years will provide 
treatments for this illness, only if the resources continue to be 
available to the academic scientific and medical community. However, 
the budgets appropriated by Congress to the NIH in the past three years 
were far below the level of scientific inflation. These vacillations in 
funding cycles threaten the continuity of the research and the momentum 
that has been gained over the years. While HRS recognizes that Congress 
must balance other priorities, sustaining multi-year growth for the 
biomedical research enterprise is critical. A central objective of the 
doubling of the NIH budget was to accelerate solutions to human disease 
and disability. NIH is now engaging in the next generation of 
biomedical research to translate basic research and clinical evidence 
into new cures. Our ability to bring together uniquely qualified and 
devoted investigators and collaborators both at the basic science level 
and in the clinical arena is a vital key to our to this success. 
Funding models however show that a threshold exists, below which NIH 
will not be able to maintain its current scope and number of grants, 
let alone expand its programs to address new concerns and emerging 
opportunities. Furthermore, the United States is in danger of losing 
its leadership role in science and technology. The United States faces 
growing competition from other nations, such as China and India, which 
are working to invest more of their GDP's into building state-of-the-
art research institutes and universities to foster innovation and 
compete directly for the world's top students and researchers.\8\
---------------------------------------------------------------------------
    \8\ Task Force on the Future of American Innovation, The Knowledge 
Economy: Is the United States Losing it's Competitive Edge?, February 
16, 2005.
---------------------------------------------------------------------------
    It is for this reason that we are asking for your support to 
increase NIH appropriations by 5 percent for a fiscal year 2007 budget 
of $29.849 billion for NIH and $3.068 billion for NHLBI. The Heart 
Rhythm Society recommends Congress specifically acknowledge the need 
for cardiac arrhythmia research to prevent sudden cardiac arrest and 
other life threatening conditions such as sudden infant death syndrome, 
definitive therapeutic approaches for atrial fibrillation and the 
prevention of stroke, and other genetic arrhythmia conditions. Thank 
you very much for your consideration of our request.
    If you have any questions or need additional information, please 
contact Nevena Minor, Coordinator, Health Policy at the Heart Rhythm 
Society (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="74151911181a1d171f341c06071b1a181d1a115a1b0613">[email&#160;protected]</a> or 202-464-3434).
    Thank you again for the opportunity to submit testimony.
                                 ______
                                 
       Prepared Statement of the Hemophilia Federation of America

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

  --Continued support for Hemophilia Treatment Centers through the 
        Health Resources and Services Administration Maternal and Child 
        Health Block Grant.
  --$10 million for hemophilia programs at the Centers for Disease 
        Control and Prevention and expansion of the program to allow 
        partnerships with additional patient-based organizations within 
        the hemophilia community.
  --A 5 percent increase overall for the National Institutes of Health, 
        including a 5 percent increase for the National Heart, Lung, 
        and Blood Institute, and the National Institute for Allergy and 
        Infectious Diseases.

                              INTRODUCTION

    The Hemophilia Federation of America (HFA) is a national nonprofit 
organization that assists and advocates for the blood clotting 
disorders community. The vision of the HFA is that the blood clotting 
disorders community will face no barriers to choice of treatment and 
quality of life.
    The programming of HFA is designed to be of assistance to the 
consumer and their families and is structured to follow our mission and 
vision. We at HFA consider ourselves the ``consumer organization.'' 
That was the purpose of our organization when we were established a 
decade ago and it has remained constant in the structure and activities 
of the organization. The following is a summary of some of the programs 
that HFA offers to the hemophilia community:
``Helping Hands''
    Helping Hands is a program that offers financial assistance to 
patients and families in a crisis. The grant applicant requests funds 
for emergency assistance with various needs such as: rent, utilities, 
car repair, and quality of life issues. Over one half of the requests 
funded in recent years were first time applicants. The requests are 
comprised of referrals from member organizations and industry.
``Dads in Action''
    Dads in Action is a new program launched in the fall of 2003 that 
is designed to encourage dads to take a more active role in their 
children's lives, to be more involved in the care of their child with 
hemophilia and to strengthen communication throughout the family. 
Participants return to their home chapters to start a ``Dads in 
Action'' program where they carry the lessons learned to fellow Dads at 
their local chapter. The program receives high reviews from 
participants and is an integral part of our vision for the community.
The Annual HFA Symposium
    HFA's annual Symposium is one of the brightest stars in our 
programmatic agenda. This event has grown from a small gathering of 100 
people in 1996 to over 500 in 2006. Are sole focus at this annual event 
is the consumer. Our patients view that annual symposium as a big 
family reunion where they learn how to cope with everyday situations. 
There are also free programs for teens and children. The goal of the 
Symposium is to address issues that impact the entire community. 
Presenters are experts in their field and share their expertise with 
the community.

            FISCAL YEAR 2007 APPROPRIATIONS RECOMMENDATIONS

Hemophilia Treatment Centers/Health Resources and Services 
        Administration
    In 1974, Congress created a network of Hemophilia Treatment Centers 
(HTCs) throughout the United States. This treatment centers remain 
essential to ensuring that comprehensive and specialized care is 
available for persons with bleeding disorders. There are currently over 
140 HTCs in the United States. These centers abide by Federal 
guidelines for the delivery of comprehensive hemophilia services as 
developed by the Health Resources and Services Administration and the 
Centers for Disease Control and Prevention.
    HTC's provide family centered, state-of-the-art medical and 
psychosocial services, as well as education and research to persons 
with inherited bleeding disorders. The bleeding disorder community 
utilizes many services through the Hemophilia Treatment Centers. These 
services include diagnostic evaluations for hemophilia, von Willebrand 
disease and other bleeding disorders. They also include annual 
comprehensive evaluations, clinical trials on new blood clotting 
therapies, coordination with the individual's primary care physician, 
emergency consultations, hematological management for surgeries, dental 
procedures and childbirth. HTC's educate patients and family members on 
infusion training, encourage collaboration with clinicians throughout 
the United States, participate in CDC research, and collaborate with 
the hemophilia community.
    At the Health Resources and Services Administration, funding is 
provided to HTC's through the Maternal and Child Health Block Grant 
program. For fiscal year 2007, HFA encourages the subcommittee to 
reject the president's proposed $36 million cut to MCHBG, and restore 
funding to the fiscal year 2006 level of $816 million.
Hemophilia Program at the Centers for Disease Control and Prevention
    Mr. Chairman, HFA strongly supports the expansion of hemophilia 
related programs within CDC's National Center on Birth Defects and 
Developmental Disabilities' Hereditary Blood Disorders program. In 
partnership with HRSA, this program provides vital support to 
Hemophilia Treatment Centers, particularly in the areas of research, 
education, disease management, blood safety and surveillance. For 
fiscal year 2007, HFA encourages the subcommittee to provide an 
increase of $3 million for hemophilia related activities at CDC. This 
proposed increase would bring the total level of CDC funding for the 
hemophilia treatment center network to $10 million. This increase is 
important given the fact the program has been level funded for over 10 
years.
    HFA was very pleased that the fiscal year 2006 Senate Labor-HHS-
Education committee report encouraged CDC to expand opportunities for 
additional patient-based organizations to participate in the agency's 
hemophilia program. Under the current structure of the program, only 
one hemophilia organization is eligible to receive support for the 
purpose of providing much needed services to patients. In order to 
maximize the effectiveness of the CDC program, we believe that 
additional patient based organizations should be empowered to receive 
funding on an annual basis. As referenced earlier, HFA offers a wide 
variety of high quality, consumer focused, programs that no other 
organization provides. If the CDC program were opened-up to allow 
additional organizations to participate, we would be able to help a 
much larger number of patients and families throughout the country. We 
encourage the subcommittee to support our efforts in this regard in the 
fiscal year 2007 bill.
Research at the National Institutes of Health
    HFA applauds the National Heart, Lung and Blood Institute, the 
National Institute of Diabetes and Digestive and Kidney Diseases, and 
the National Institute of Allergy and Infectious Diseases for their 
strong support of hemophilia related research. We are grateful to the 
subcommittee for recognizing the growing problem of bleeding disorders 
in women, which if untreated, can lead to serious medical conditions 
including anemia, unnecessary hysterectomies, and menstrual 
complications.
    Patients and families in the hemophilia community are placing their 
hopes for a better quality of life on treatment advances made through 
biomedical research. For fiscal year 2007, we encourage the 
subcommittee to provide a 5 percent increase overall for each institute 
and center at the NIH.
    Mr. Chairman, thank you for the opportunity to present the views of 
the Hemophilia Federation of America.
                                 ______
                                 
        Prepared Statement of Hepatitis Foundation International

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

  --Continue the great strides in research at the National Institutes 
        of Health (NIH) by providing a 5 percent budget increase for 
        fiscal year 2007. Increase funding for the National Institute 
        for Allergy and Infectious Diseases (NIAID), the National 
        Institute of Diabetes and Digestive and Kidney Diseases 
        (NIDDK), the National Institute on Alcohol Abuse and Alcoholism 
        (NIAAA), and the National Institute on Drug Abuse (NIDA) by 5 
        percent.
  --Continued support for the hepatitis B vaccination program for 
        adults at the Centers for Disease Control and Prevention (CDC) 
        as well as CDC's Prevention Research Centers by providing an 8 
        percent increase for CDC.
  --Support for the Substance Abuse and Mental Health Services 
        Administration (SAMHSA) by providing an 8 percent increase in 
        fiscal year 2007.
  --Urge CDC, NIAID, NIDDK, NIAAA, NIDA, and SAMHSA to work with 
        voluntary health organizations to promote liver wellness, 
        education, and prevention of both hepatitis and substance 
        abuse.
    Mr. Chairman and members of the subcommittee, thank you for your 
continued leadership in promoting better research, prevention, 
education, and control of diseases affecting the health of our Nation. 
I am Thelma King Thiel, Chairman and Chief Executive Officer of the 
Hepatitis Foundation International (HFI).
    Currently, five types of viral hepatitis have been identified, 
ranging from type A to type E. All of these viruses cause acute, or 
short-term, viral hepatitis. Hepatitis B, C, and D viruses can also 
cause chronic hepatitis, in which the infection is prolonged, sometimes 
lifelong. While treatment options are available for many patients, 
individuals with chronic viral hepatitis B and C represent a 
significant number of patients requiring a liver transplant. Current 
treatments have limited success and there is no vaccine available for 
hepatitis C, the most prevalent of these diseases.

                              HEPATITIS A

    The hepatitis A virus (HAV) is contracted through fecal/oral 
contact (i.e. fecal contamination of food, water, and diaper changing 
tables if not cleaned properly), and sexual contact. In addition, 
eating raw or partially cooked shellfish contaminated with HAV can 
spread the virus. Children with HAV usually have no symptoms; however, 
adults may become quite ill suddenly experiencing jaundice, fatigue, 
nausea, vomiting, abdominal pain, dark urine/light stool, and fever. 
There is no treatment for HAV; however, recovery occurs spontaneously 
over a 3 to 6 month period. About 1 in 1,000 with HAV suffer from a 
sudden and severe infection that may require a liver transplant. A 
highly effective vaccine can prevent HAV. This vaccination is 
recommended for all children and individuals who have chronic liver 
disease or clotting factor disorders, in addition to those who travel 
or work in developing countries.

                              HEPATITIS B

    Hepatitis B (HBV) claims an estimated 5,000 lives every year in the 
United States, even though therapies exist that slow the progression of 
liver damage. Vaccines are available to prevent hepatitis B. This 
disease is spread through contact with the blood and body fluids of an 
infected individual and from an HBV infected mother to child at birth. 
Unfortunately, due to both a lack in funding to vaccinate adults and 
the absence of an integrated preventive education strategy, 
transmission of hepatitis B continues to be problematic. Additionally, 
there are significant disparities in the occurrence of chronic HBV-
infections. Asian Americans represent four percent of the population; 
however, they account for over half of the 1.3 million chronic 
hepatitis B cases in the United States. Current treatments do not cure 
hepatitis B, but appropriate treatment can help to reduce the 
progression to liver cancer and liver failure. Yet, many are not 
treated. Preventive education and universal vaccination are the best 
defenses against hepatitis B.

                              HEPATITIS C

    Infection rates for hepatitis C (HCV) are at epidemic proportions. 
Unfortunately, many individuals are not aware of their infection until 
many years after they are infected. This creates a vicious cycle, as 
individuals who are infected continue to spread the disease, 
unknowingly. The Center for Disease Control and Prevention estimates 
that there are over 4 million Americans who have been infected with 
hepatitis C, of which over 2.7 million remain chronically infected, 
with 8,000-10,000 deaths each year. Additionally, the death rate is 
expected to triple by 2010 unless additional steps are taken to improve 
outreach and education on the prevention of hepatitis C and scientists 
identify more effective treatments and cures. As there is no vaccine 
for HCV, prevention education and treatment of those who are infected 
serve as the most effective approach in halting the spread of this 
disease.

                         PREVENTION IS THE KEY

    The absence of information about the liver and hepatitis in 
education programs over the years has been a major factor in the spread 
of viral hepatitis through unknowing participation in liver damaging 
activities. Adults and children need to understand the importance of 
the liver and how viruses and drugs can damage its ability to keep them 
alive and healthy. Many who are currently infected are unaware of the 
risks they are taking that expose them to viral infections and ultimate 
liver damage.
    Knowledge is the key to prevention. Preventive education is 
essential to motivate individuals to protect themselves and avoid 
behaviors that can cause life-threatening diseases. Primary prevention 
that encourages individuals to adopt healthful lifestyle behaviors must 
begin in elementary schools when children are receptive to learning 
about their bodies. Schools provide access to one-fifth of the American 
population.
    Individuals need to be motivated to assess their own risk 
behaviors, to seek testing, to accept vaccination, to avoid spreading 
their disease to others, and to understand the importance of 
participating in their own health care and disease management. The NIH 
needs to support education programs to train teachers and healthcare 
providers in effective communication techniques, and to evaluate the 
impact preventive education has on reducing the incidence of hepatitis 
and substance abuse.
    Therefore, HFI recommends that CDC, NIAID, NIDDK, NIAAA, NIDA, and 
SAMHSA be urged to work with voluntary health organizations to promote 
liver wellness, education, and prevention of viral hepatitis, sexually 
transmitted diseases and substance abuse.
    Only a major investment in immunization and preventive education 
will bring these diseases under control. All newborns, young children, 
young adults, and especially those who participate in high-risk 
behaviors must be a priority for immunization, outreach initiatives, 
and preventive education. We recommend that the following activities be 
undertaken to prevent the further spread of all types of hepatitis:
  --Provide effective preventive education in our elementary and 
        secondary schools so children can avoid the serious health 
        consequences of risky behaviors that can lead to viral 
        hepatitis.
  --Train educators, health care professionals, and substance abuse 
        counselors in effective communication and counseling 
        techniques.
  --Promote public awareness campaigns to alert individuals to assess 
        their own risk behaviors, motivate them to seek medical advice, 
        encourage immunization against hepatitis A and B, and to stop 
        the consumption of any alcohol if they have participated in 
        risky behaviors that may have exposed them to hepatitis C.
  --Expand screening, referral services, medical management, 
        counseling, and prevention education for individuals who have 
        HCV, many of whom may be co-infected with HIV and Hepatitis C 
        and/or Hepatitis B.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    HFI recommends an 8 percent increase in fiscal year 2007 for 
further implementation of CDC's Hepatitis C Prevention Strategy. This 
increase will support and expand the development of State-based 
prevention programs by increasing the number of State health 
departments with CDC funded hepatitis coordinators. The Strategy will 
use the most cost-effective way to implement demonstration projects 
evaluating how to integrate hepatitis C and hepatitis B prevention 
efforts into existing public health programs.
    CDC's Prevention Research Centers, an extramural research program, 
plays a critical role in reducing the human and economic costs of 
disease. Currently, CDC funds 26 prevention research centers at schools 
of public health and schools of medicine across the country. HFI 
encourages the subcommittee to increase core funding for these 
prevention centers, as it has been decreasing since this program was 
first funded in 1986. We recommend the subcommittee provide an 8 
percent increase for the Prevention Research Centers program in fiscal 
year 2007.
    Also, HFI recommends that the CDC, particularly the Division of 
Adolescent and School Health (DASH), work with voluntary health 
organizations to promote liver wellness with increased attention toward 
childhood education and prevention.

                        INVESTMENTS IN RESEARCH

    Investment in the NIH has led to an explosion of knowledge that has 
advanced understanding of the biological basis of disease and 
development of strategies for disease prevention, diagnosis, treatment, 
and cures. Countless medical advances have directly benefited the lives 
of all Americans. NIH-supported scientists remain our best hope for 
sustaining momentum in pursuit of scientific opportunities and new 
health challenges. For example, research into why some HCV infected 
individuals resolve their infection spontaneously may prove to be life 
saving information for others currently infected. Other areas that need 
to be addressed are:
  --Reasons why African Americans do not respond as well as Caucasians 
        and Hispanics to antiviral agents in the treatment of chronic 
        hepatitis C.
  --Pediatric liver diseases, including viral hepatitis.
  --The outcomes and treatment of renal dialysis patients who are 
        infected with HCV and HBV.
  --Co-infections of HIV/HCV and HIV/HBV positive patients.
  --Hemophilia patients who are co-infected with HIV/HCV and HIV/HBV.
  --The development of effective treatment programs to prevent 
        recurrence of HCV infection following liver transplantation.
  --The development of effective vaccines to prevent HCV infection.
    HFI supports a 5 percent increase for NIH in fiscal year 2007. HFI 
also recommends a comparable increase of 5 percent in hepatitis 
research funding at NIAID, NIDDK, NIAAA, and NIDA.
    HFI is dedicated to the eradication of viral hepatitis, which 
affects over 500 million people around the world. We seek to raise 
awareness of this enormous worldwide problem and to motivate people to 
support this important--and winnable--battle. Thank you for providing 
this opportunity to present testimony.
                                 ______
                                 
              Prepared Statement of In Defense of Animals

    Six years ago, In Defense of Animals (IDA) testified before 
Congress about the NIH's egregious oversight failures and illegal 
funding of the New Mexico-based Coulston Foundation, at the time the 
world's largest chimpanzee lab. IDA testified about Coulston's abysmal 
animal care record and unprecedented violations, dating back to 1993, 
of Federal animal welfare laws. IDA recommended, among other things, a 
Congressional investigation.
    Within weeks of IDA's March 2000 testimony, the NIH took ownership 
of 288 chimpanzees from Coulston, citing concerns about the lab's 
resources and ability to properly care for the animals, which IDA had 
raised in our testimony. The NIH left the chimpanzees in Coulston's 
``care'' and continued to illegally fund the lab despite its continued 
animal welfare violations.
    The NIH's Coulston oversight debacle resulted in international 
media coverage, public outrage and intense Congressional scrutiny. As a 
result, the NIH was finally forced to end its illegal funding of 
Coulston in June 2001. The agency took over ownership of the lab where 
the 288 chimpanzees were housed, renamed it the ``Alamogordo Primate 
Facility'' (APF), and awarded a ten-year, $42 million taxpayer-funded 
contract to Charles River Laboratories (CRL) to operate it. However, 
the APF was now NIH-owned and part of the agency's Intramural Research 
Program; the contract between the NIH and CRL explicitly states that 
the NIH is responsible for ``day-to-day management'' of the lab, 
including its ``associated animal activities.''
    Subsequently, the House Committee on Energy and Commerce conducted 
an investigation, and found that the NIH had indeed continued to fund 
Coulston despite its violation of Federal administrative laws. This 
prompted the Investigations subcommittee to question the NIH's 
oversight and management of billions of dollars in taxpayer-funded 
grants; this subcommittee consequently launched a broad investigation 
of the NIH in March 2003.
    Amazingly, six years after IDA's March 2000 testimony, the NIH 
oversight debacle that launched a prior Congressional investigation is 
actually worse, and cries out for Congressional action. That is because 
in September 2004, New Mexico District Attorney Scot Key filed multiple 
counts of criminal animal cruelty against CRL. After an independent 
investigation that lasted almost one year, the D.A. found that it was 
``standard practice'' for CRL to have trained animal care staff leave 
at the end of the workday, and leave the ``care'' of critically ill or 
injured chimpanzees to once-per-hour monitoring by untrained security 
guards. This ``standard practice''--instituted in August 2002 as an 
apparent cost-saving measure--resulted in the suffering and deaths of 
two chimpanzees, Rex and Ashley, and the near-death of a third, Topsy. 
The D.A. charged CRL and APF Director Rick Lee with three counts of 
criminal cruelty alleging abandonment and failure to provide necessary 
sustenance. This understaffed small-town D.A. with a caseload of 
murders had stepped in to enforce the law and protect the chimpanzees 
from a multi-billion dollar public company and a $28 billion Federal 
agency. It should be noted that because the APF is now a Federal 
research lab, the USDA has no jurisdiction under the Animal Welfare 
Act. This was the first time in U.S. history that an entire lab had 
been charged with criminal animal cruelty. This case, the culmination 
of 10 years of NIH-funded abuse of these New Mexico chimpanzees, 
contains shocking facts that cry out for further Congressional action.
    Despite initial promises of cooperation, CRL instead hired a high-
powered criminal law firm perhaps best known for obtaining an acquittal 
of a two-time husband killer after she had shot husband number two in 
New Mexico. CRL refused to cooperate with the D.A.'s criminal 
investigation. CRL refused to comply with the D.A.'s subpoena demanding 
records relating to the three chimpanzees. The D.A. then obtained a 
grand jury subpoena, but CRL still refused to supply the records to the 
D.A. The NIH did nothing to force CRL to cooperate.
    Tellingly, however, CRL did supply these records to an ad-hoc NIH 
consultant with no law enforcement authority. During only a portion of 
his one-day site visit, this veterinarian simply reviewed the records, 
without interviewing a single witness, and, predictably, found no 
problems. Neither the NIH nor CRL wanted an independent, legitimate law 
enforcement officer, such as the D.A., to get within a mile of these 
records, and did everything possible to prevent his obtaining them. The 
NIH did not want any independent, legitimate investigation, since any 
problems found would be an indictment of the agency's own management of 
the lab. The NIH's responsibility for ``oversight'' at its own lab 
constitutes an unmitigated conflict of interest. Had the NIH found a 
chimpanzee shot in the head, the agency would no doubt have ruled it a 
suicide.
    Like CRL, the NIH has also refused to supply these records to the 
public, even after IDA filed a Federal FOIA lawsuit in September 2004. 
In its briefs, the NIH has actually claimed that it does not possess 
these clinical records--for NIH-owned chimpanzees at an NIH-owned 
facility that is part of the NIH's Intramural Research Program. This 
laughable assertion is belied by the NIH's own contract with CRL, which 
explicitly states that the NIH does indeed possess these records.
    CRL submitted only one of two reports generated by the one-day NIH 
site visit to the New Mexico court trying the criminal case--
predictably, the one praising CRL's veterinary care, which was based on 
only a review of records, not any witness interviews nor an actual 
investigation. However, the criminal charges had nothing to do with 
CRL's veterinary care, but instead CRL's alleged ``standard practice'' 
of abandoning critically ill or injured chimpanzees to once-per-hour 
monitoring by untrained security guards. The second report, written by 
the NIH Project Officer for the CRL contract and obtained by IDA 
through FOIA, clearly shows that the NIH was completely and totally 
unaware of the abandonment alleged by the D.A.
    During the time period covered by the multiple counts of criminal 
animal cruelty, the NIH actually awarded CRL bonuses totalling $175,000 
paid for with taxpayer funds. CRL received the maximum bonuses; the 
major criterion for these bonuses was ``no animal care deficiencies.''
    While the D.A.'s independent investigation--run by a 24-year police 
veteran--took almost a year and interviewed six witnesses, including 
eyewitnesses, the NIH interviewed no witnesses regarding Rex, Ashley 
and Topsy and allowed the so-called ``investigation'' to be conducted 
by CRL--another blatant conflict of interest. Because CRL refused to 
cooperate--despite its initial promises--the D.A. could only interview 
ex-CRL employees. But those ex-employees painted a devastating portrait 
of the alleged acts of cruelty and CRL's operation of this NIH lab.
    Dr. Kelly Avila started work at the APF only 58 days after she 
graduated from veterinary school. She told the D.A.'s investigator that 
she had been promised training, but instead found herself the main 
clinician for over 250 chimpanzees. She confirmed that in August 2002, 
APF Director Rick Lee instituted the policy where security guards would 
take over for animal care at quitting time, 4:00 p.m. She repeatedly 
stated that Ashley, the first chimpanzee mentioned in the criminal 
charges, had shock. Avila had ``serious problems'' with APF practices, 
and discussed problems associated with having security/maintenance 
personnel perform animal care. She started a system of writing daily 
reports of what she found on exams and also which chimpanzees were sick 
and needed monitoring; apparently no such systemic surveillance existed 
before her arrival. Being fresh out of vet school, she also said she 
felt she had to defer to the more-experienced vets Lee and Langner. She 
stated that financial considerations played a role in the standard of 
care; if she wanted an animal care staffer to stay past quitting time 
she would have to go through Andrea Lee, the APF's Program 
Administrator and wife of Director Rick Lee. That would have ``meant 
that Dr. Lee's wife would have gotten all over my case for overtime.'' 
Avila said that it was ``always a fight'' with Andrea Lee--who had no 
veterinary training whatsoever--and that the ``veterinary staff . . . 
either cowed down to this lady or you had to leave.'' Avila also stated 
that Rick Lee, instead of training her as promised, ``spent his time in 
the office doing director kind of activities,'' and that she hardly 
ever saw him. Instead, she said her mentors included an online message 
board, the Veterinary Information Network (VIN).
    Dr. Avila posted dozens of messages to the VIN during her year 
working at the APF. Perhaps the most devastating was posted on 
September 16, 2002, only hours before Ashley died. Avila explains 
Ashley's condition, that she was bleeding from a fight and suffered 
from a condition that makes blood clotting more difficult. After 
describing how she had treated Ashley to that point, she then asks the 
chilling, all-revealing question: ``Does anyone have other ideas on how 
to treat?'' Many of these messages demonstrate a facility in disarray, 
and a veterinarian fresh out of vet school who was trying to do the 
right thing but was clearly in over her head. Avila asked for advice on 
almost every conceivable subject relating to chimpanzee care: reference 
texts for chimpanzee nutrition (she noticed what she thought were signs 
of malnutrition); how to conduct biopsies and take bone marrow samples; 
how to treat hypertension; how to interpret ultrasounds and x-rays. She 
repeatedly stated that she conducted her own medical literature 
searches in attempts to find treatments. She tells of her APF 
colleagues' ignorance of specific treatments and dangerous side effects 
of drugs. In a May 23, 2003 post, she states ``I recently lost my fifth 
chimp,'' then describes how a chimp died after a tooth extraction. 
Importantly, she states that this chimp had a history of suffering from 
grand mal seizures when given ketamine, which is one of the only two 
sedatives allowed at the APF (the other is pharmacologically similar to 
ketamine), and says that she had just been lucky prior to that because 
she had given him only very small doses as supplements. She states this 
is one of the reasons she is resigning. She tells VIN that respiratory 
diseases, measles and chicken pox have been passed to the chimps from 
human employees over the past year. She asks about vaccinations, 
questioning why the APF only vaccinates against tetanus, and is told 
that there is a standard series of vaccinations recommended for 
chimpanzees, which includes tetanus, measles, mumps and rubella. She 
describes her fight against a drug company trying to test a drug for 
hepatitis C on chimpanzees, since the side effects in humans are so 
severe and she is concerned that the chimpanzees would suffer, while 
relating that she ``dislike[s] the pressure greatly'' that she is 
getting from the drug company to perform the study. For one chimpanzee, 
she is ``at her wits end'' in trying to find a treatment; one she had 
previously used ``led to more edema so I won't be doing that again. Oh 
well I guess I am learning here,'' and then asks for suggestions on how 
to treat. She asks if anyone knows of a procedure for tapping the heart 
(fluid) of a chimpanzee, and asks ``Do I proceed as I would with a 
dog?'' In another revealing post, she asks if anyone has experience 
with using steroids as an appetite stimulant in chimpanzees, for a 40-
year-old. Other vets chime in, saying that old age is not a disease, 
and that this and some of her other posts indicate that she is treating 
symptoms, not trying to get diagnosis so she can treat an underlying 
disease. Avila responds with a devastating indictment of the APF 
operation: ``I am working at getting actual diagnosis before I continue 
treatments. There is great resistance to this as the old adage `if it 
ain't broke don't fix it' applies here on a regular basis! However, it 
is against my nature to give up and allow people to act foolishly while 
I clean up the mess they leave behind so I will continue to try to find 
specific diagnosis and treat those whenever I can.'' A similar post 
concerns a self-mutilating chimpanzee; Avila is concerned about the 
long-term effects of Prozac. Vets chime in again that she should try to 
determine the underlying cause of the self-mutilation; one vet relates 
that's what she did, and was able to stop the mutilation and wean a 
baboon off of Prozac. Avila states that the APF behaviorist pretty much 
wants to keep the chimpanzee on Prozac forever, and agrees that she 
should try to find the underlying cause of the self-mutilation.
    Maintenance man Ernest Farwell went into great detail about the 
cases of Rex and Ashley to the D.A.'s investigator. He confirms Dr. 
Avila's recollection that August 2002 is when CRL instituted the policy 
of having maintenance/security, such as Farwell, take over from animal 
care after quitting time. Like the other maintenance man interviewed, 
Benjamin Thompson, Farwell confirmed that he received no special 
training in chimpanzee care. He saw Rex unconscious, lying on his side 
with his mouth open, vomiting, and an animal care staffer suctioning 
out the vomit with an evacuation wand. He witnessed Dr. Avila say to 
the animal care staffer ``We have to go, he won't let us stay.'' The 
animal care staffer then actually removed Rex's life support, and he 
and Avila left while Rex was still unconscious and vomiting. Farwell 
later witnessed Rex on his side, but with the vomit coming out of his 
mouth (since no one was there to suction it out). Rex was found dead 
later that night; the pathology report showed vomit in his mouth and 
trachea. Farwell also witnessed Ashley; when he first saw her, he was 
shocked at the amount of blood in her cage, and she was still bleeding. 
He then witnessed her shake violently; this was the symptom of shock 
mentioned by Dr. Avila in her witness statement. Later he found her 
dead. Farwell also states that APF employees were threatened with 
polygraph tests when Rick Lee was trying to find out who gave 
information to the D.A. about the alleged cruelty, and were ordered not 
to speak with anyone, including the D.A., about the allegations. Such 
threats violate the 1988 Federal Employee Polygraph Protection Act. 
This climate of intimidation was also apparent when Farwell complained 
about having to give medicine to chimpanzees, protesting that he wasn't 
qualified, explaining ``If animal care found a problem with the boilers 
you wouldn't expect them to fix it.'' He was then written up and felt 
threatened, and signed an agreement that he would perform these duties 
(i.e., care of chimpanzees) and anything else CRL told him to, for 
apparent fear of losing his job.
    The APF had problems from day one; for the first 6 months, the 
facility did not have requirements for care as basic as euthanasia 
drugs. This resulted in chimpanzee suffering; CRL actually had to 
borrow euthanasia drugs from the Coulston Foundation, which was 
offsite, miles away, and almost bankrupt. Although the chimpanzees 
lacked for drugs, APF Program Administrator Andrea Lee--who made 
decisions on animal care overtime--had plenty; in 2004, she was 
criminally charged with 15 counts of fraudulently obtaining a 
controlled substance (Vicodin). She had been illegally using the DEA 
licenses of two APF veterinarians--at a taxpayer-funded facility--and 
pled guilty to one count. APF veterinarian Cynthia Doane--not the NIH 
or CRL management--became suspicious and began to investigate. Further 
buttressing the existence of a climate of intimidation and fear at the 
APF, Doane wrote a letter to the New Mexico Board of Pharmacy in April 
2004, stating her willingness to help in the investigation, but that 
``I emphasize, however, that I cannot trust anyone at my place of work 
at this time.''
    Instead of proclaiming its innocence by demanding its day in court, 
CRL, presumably with the NIH's blessing, threw up one legal 
technicality after another in a prolonged effort to hide from the 
evidence accumulated by the D.A. and to prevent a jury, and the public, 
from ever seeing it argued in open court. CRL claimed that the State of 
New Mexico had no jurisdiction to prosecute its own animal cruelty 
statute because the APF was located on a Federal Air Force Base, 
despite the fact that the New Mexico legislature had specifically 
amended its cruelty statute in 2001 because of the chimpanzee abuses at 
this very same facility. This amendment gave the D.A. the legal 
authority to prosecute CRL. The company claimed that because the New 
Mexico cruelty statute did not require qualified personnel, there was 
no abandonment because untrained security guards were in the vicinity 
of the critically ill or injured chimpanzees (once per hour). And in 
the most egregious of all the technicalities, CRL actually claimed that 
it was engaged in the practice of veterinary medicine in the cases of 
Rex, Ashley and Topsy, and because the cruelty statute exempts the 
practice of veterinary medicine, the case should be dismissed. In other 
words, according to CRL and the NIH, the deliberate policy of denying 
veterinary care constitutes the practice of veterinary care. 
Incredibly, the judge agreed with that technicality, and dismissed the 
case--a dismissal having nothing to do with the merits of the D.A.'s 
investigation or case. The D.A. appealed, and the case is currently 
being adjudicated at the New Mexico Court of Appeals, the State's 
second-highest court.

                            RECOMMENDATIONS

    IDA believes that given the NIH's egregious record, Congress should 
both investigate and hold hearings, not only into the NIH/Coulston/
Charles River debacle, but the larger oversight issues raised by the 
NIH's actions. One would have thought that, given the years of Coulston 
Foundation administrative animal welfare violations, the NIH would have 
been that much more careful in choosing and overseeing a successor. 
Instead, the facility--now directly owned and managed by the NIH--
descended into alleged criminal animal cruelty. Given the NIH's ten-
year record of funding abuse against these chimpanzees, we respectfully 
request that the NIH be barred from any responsibility whatsoever for 
them. These chimpanzees have endured enough; the survivors should be 
placed at a reputable private sanctuary for permanent retirement, with 
the remainder of the $42 million contract going to the sanctuary. This 
would be the morally and ethically correct course of action that is so 
greatly overdue for these long-suffering chimpanzees.
                                 ______
                                 
             Prepared Statement of Independence Technology

    Mr. Chairman and members of the subcommittee, my name is Gregg 
Howard and I am the Vice President for Sales and Reimbursement for 
Independence Technology, LLC, a Johnson & Johnson company. I appreciate 
the opportunity to provide comments in support of the many programs 
within the jurisdiction of the subcommittee that are important to 
citizens with disabilities.
    The Institute of Medicine report, ``Disability in America: Toward a 
National Agenda,'' began with the words ``Disability is an issue that 
affects every individual, community, neighborhood, and family in the 
United States.'' These words are as true today as when the IOM 
published its report.
    The demographic imperative resulting from the aging of the baby 
boom generation will soon substantially increase the proportion and 
numbers of Americans in the older age groups that are most at risk of 
physical and mental impairments, limitations, and disabilities. At the 
same time, certain trends in other age groups--for example, the 
increased rates of survival of extremely premature infants, increases 
in the prevalence of obesity in younger populations and a growing 
number of disabled Iraq era veterans--are putting more children and 
younger adults at risk of disabling conditions. Thus, the promotion of 
good health, independence, and social integration for people with 
disabilities and the prevention of disabling injuries, diseases, and 
disorders are more important objectives than ever.
    Mr. Chairman, the Labor, Health and Human Services, and Education 
subcommittee funds the significant majority of Federal programs of 
interest and benefit to citizens with disabilities. These programs are 
in the Department of Labor, the Department of Health and Human 
Services, and the Department of Education. At the end of this 
statement, we list these many programs in tabular form and include a 
fiscal year 2007 funding recommendation for each of these programs. We 
join with the 100 plus organizations of Consortium for Citizens with 
Disabilities in making these recommendations and would urge the 
subcommittee's efforts to address these funding needs.
    Mr. Chairman, also very importantly, the Social Security 
Administration, Medicare and Medicaid programs are of significant 
importance for citizens with disabilities. While these programs are 
mostly viewed as entitlements and therefore fall in the jurisdiction of 
the Senate Finance Committee and House Ways and Means Committee, your 
subcommittee appropriates administrative funds that permit the 
operations of these programs. On behalf of Independence Technology, 
LLC, I would like to highlight a matter currently under consideration 
by administrative personnel at Medicare that will have an important 
impact on the lives of many disabled Americans.
    Independence Technology, LLC, has invested over $100 million over 
the last decade to develop a revolutionary new mobility system that 
allows individuals with disabilities to achieve extensive function and 
the physical mobility necessary in order to live independently. This 
innovative technology is the first of its kind to largely eliminate 
barriers by climbing stairs, improving reach, transversing various 
surfaces, and balancing the seated user at standing eye level. For many 
this technology can take the place of more costly and/or drastic 
alternatives such as moving from one's home, extensive home 
modifications, use of home health aides, and unnecessary 
institutionalization or bed confinement.
     While this new technology is clearly not appropriate for all 
individuals with mobility impairments, for the subset disabled of 
individuals for whom it is appropriate, it is a life changing device 
which improves health, functional status, independent living, and 
quality of life. In 2002 and 2003 the Veterans Health Administration 
evaluated these devices and made a determination as to which subset of 
disabled veterans could appropriately benefit from the device. Based on 
this review and policy determination, the Veterans Health 
Administration now prescribes and provides financial support for the 
procurement of these devices.
    Currently underway at CMS is a similar review process. On January 
26, 2006 CMS posted for public comment the application by Independence 
Technology, LLC, for the development of a National Coverage 
Determination for an interactive balancing mobility system such as the 
iBOT. A total of 151 comments were presented to CMS by patients, 
disability groups, health care providers, and others affected by 
disabilities. Letters were also sent in support of the application by 
10 U.S. Senators and approximately 20 House Members. Overall, 97 
percent of the comments provided to CMS on this matter were positive.
    The comment period for establishing a National Coverage 
Determination for ``interactive balancing mobility systems'' closed on 
March 5, 2006. CMS now has up to 6 months to announce a decision on the 
question of proceeding to the development of a National Coverage 
Determination. It is our view that the establishment of coverage 
criteria for this new state-of-the-art interactive balancing mobility 
systems sends an important message that when research and development 
results in technological advancements improving the health, functional 
status, independent living, and quality of life, these advances will be 
made accessible to those who will benefit.
    Mr. Chairman, in summary we appreciate the leadership of you and 
your subcommittee in championing so many important programs of benefit 
to disabled Americans. While we recognize the limitations placed on the 
subcommittee by spending ceilings, we would urge your careful review 
and considerations of the funding recommendations found at the end of 
this statement. We would also request the subcommittee's support and 
direct guidance to CMS to support reimbursement policies that will help 
bring new technological advances such as the iBOT to disabled Americans 
who stand to benefit from their use.
    Thank you for the opportunity to testify.

           APPROPRIATIONS RECOMMENDATIONS FOR FISCAL YEAR 2007
                        [In millions of dollars]
------------------------------------------------------------------------
                                                Fiscal year
                                   Fiscal year      2007     Fiscal year
                                    2006 final   President     2007 CCD
------------------------------------------------------------------------
       DEPARTMENT OF LABOR

Workforce Investment Act
 (selected programs):
    Adult Employment.............        857.0        712.0        987.9
    Pilots, Demonstrations,               29.7         17.7        151.0
     Research....................
    Youth Activities.............        940.5        840.5      1,093.4
Office of Disability Employment           27.7         20.0         47.5
 Policy..........................
Work Incentives Grants...........         19.5  ...........         20.7

  DEPARTMENT OF HEALTH AND HUMAN
             SERVICES

Health Services Resources
 Administration:
    Maternal & Child Health Block        693.0        693.0        724.0
     Grant.......................
    Developmental Disabilities
     Act Programs:
        Basic State Grants--              71.8         72.0         84.5
         Councils on DD..........
        Protection & Advocacy             38.7         39.0         45.0
         Systems--DD.............
        University Centers for            33.2         33.0         37.0
         Excellence in DD........
        Projects of Nat'l Sig. &          11.4         11.0         22.6
         Family Support..........
    TBI State Grants.............          9.0  ...........         15.0
    TBI Protection & Advocacy              3.1  ...........          6.0
     Grants......................
    Universal Newborn Hearing             10.0  ...........         10.0
     Screening...................
Centers for Disease Control and
 Prevention:
    Birth Defects, Developmental         124.7        110.5        137.6
     Disabilities, & Health......
    Chronic Disease Prevention...        836.6        818.7        417.4
    Environmental Health.........        149.9        141.0        153.0
    Preventive Health Block Grant         99.0  ...........        133.6
    Injury Prevention and Control        139.0        138.2        142.8
    Epilepsy Program.............          7.7  ...........          8.0
    TBI Registries and                     5.3          5.3          9.0
     Surveillance................
National Institutes of Health....     28,578.0     28,578.0     29,750.0
    Natl. Institute of Child           1,264.7      1,257.0      1,327.9
     Health and Hum. Dev.........
    Natl. Institute on Deafness &        393.0        392.0        412.7
     Other Communication
     Disorders...................
    Natl. Inst. of Neurological        1,534.8      1,525.0      1,611.5
     Disorders & Stroke..........
    Natl. Institute on Mental          1,403.8      1,395.0      1,474.0
     Health......................
    Natl. Institute on Drug Abuse      1,000.0        995.0      1,050.0
    Natl. Institute on Alcohol           435.9        433.0        457.7
     Abuse.......................
Social Services Block Grant......      1,683.0      1,200.4      2,380.0
Child Care & Development Block         2,062.1      2,062.0      2,588.0
 Grant...........................
Head Start.......................      6,876.0      6,786.0      7,300.0
Child Abuse Prevention and                95.2        101.0        142.0
 Treatment Act...................
Nat'l Family Caregiver Support           162.0        160.0        162.0
 Program.........................
Grants to States to Remove                10.9         10.9         25.0
 Barriers to Voting..............
Protection & Advocacy for Voting           4.9          4.8         10.0
 Access..........................
SAMHSA:
    Children's Mental Health             104.1        104.1        109.7
     Services....................
    PATH Homeless Program........         54.3         54.3         57.1
    Protection & Advocacy for             34.0         34.0         40.0
     Indivs. with MI.............
    Mental Health Block Grant....        428.5        428.5        451.2
    Projects of Regional and             263.2        228.1        285.9
     Nat'l Significance..........

     DEPARTMENT OF EDUCATION

Individuals with Disabilities
 Education Act:
    State and Local Grants Part B     10,582.8     10,682.9     16,938.9
    Preschool Grants.............        380.8        380.8        841.0
    Early Intervention Part C....        436.4        436.4        680.0
    Part D National Programs:
        State Personnel                   50.1  ...........         55.7
         Development.............
        Technical Assistance and          48.9         48.9         57.6
         Dissemination...........
        Personnel Preparation....         89.7         89.7        108.7
        Parent Information                25.7         25.7         28.6
         Centers.................
        Technology and Media.....         38.4         31.1         42.6
        Transition Initiative....  ...........          2.0          5.5
Research and Innovation (Inst.            81.7         81.7         92.4
 Ed. Sciences)...................
Rehabilitation Services
 Administration:
    Rehabilitation State Grant...      2,693.0      2,837.2      3,120.0
    Client Assistance Programs...         11.8         11.8         13.0
    Rehabilitation Training......         38.4         38.4         42.7
    Special Demonstrations.......          6.5          6.5         28.1
    Recreation...................          3.0  ...........          3.0
    Protection & Advocacy for             16.5         16.5         22.0
     Individual Rights...........
    Projects with Industry.......         20.0  ...........         50.0
    Supported Employment State            29.7  ...........         50.0
     Grant.......................
    Migrant & Seasonal Farm                2.0  ...........          2.3
     workers.....................
    Independent Living State              22.6         22.6         25.0
     Grant.......................
    Centers for Independent               74.6         74.6         82.9
     Living......................
    Independent Living Serv. for          32.9         32.9         36.5
     Older Blind Ind.............
    State Assistive Technology            22.4         22.4         29.0
     Programs and TA.............
    Protection & Advocacy for              4.4  ...........          6.0
     Assistive Tech..............
National Institute for Disability        106.7        106.7        120.0
 & Rehabilitation Research.......
Demonstration Projects-Disability          6.9  ...........         10.0
 (Higher Ed.)....................
National Council on Disability...          3.1          2.8          3.7
Helen Keller National Center.....          8.5          8.5         11.7
American Printing House for the           17.6         17.6         20.0
 Blind...........................
------------------------------------------------------------------------

                                 ______
                                 
   Prepared Statement of the International Foundation for Functional 
                       Gastrointestinal Disorders

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

  --Provide a 5 percent increase for fiscal year 2007 to the National 
        Institutes of Health (NIH) budget. Within NIH, provide 
        proportional increases of 5 percent to the various institutes 
        and centers, specifically, the National Institute of Diabetes 
        and Digestive and Kidney Diseases (NIDDK).
  --Accelerate funding for extramural clinical and basic functional 
        gastrointestinal disorders (FGID) and motility disorders 
        research at NIDDK.
  --Continue to urge NIDDK to develop a strategic plan on irritable 
        bowel syndrome (IBS) with the purpose of setting research 
        goals, determining improved treatment options for IBS 
        sufferers, and assisting in recruitment of new investigators to 
        conduct IBS research.
  --Urge the National Institute of Child Health and Human Development 
        (NICHD) and NIDDK to continue to support research into fecal 
        and urinary incontinence, including the development of a 
        standardization of scales to measure incontinence severity and 
        quality of life and to develop strategies for primary 
        prevention of fecal incontinence associated with childbirth.
  --Provide funding to NIDDK and the National Cancer Institute (NCI) 
        for more research on the causes of esophageal cancer.
    Chairman Specter and members of the subcommittee, thank you for the 
opportunity to present this written statement regarding the importance 
of functional gastrointestinal and motility disorders research. IFFGD 
has been serving the digestive disease community for fifteen years. We 
work to broaden the understanding about functional gastrointestinal and 
motility disorders in adults and children. IFFGD speaks about and 
raises awareness on disorders and diseases that many people are 
uncomfortable and embarrassed to talk about. The prevalence of fecal 
incontinence and irritable bowel syndrome or IBS, as well as a host of 
other gastrointestinal disorders affecting both adults and children, is 
underestimated in the United States. These conditions are truly hidden 
in our society. Not only are they misunderstood, but also the burden of 
illness and human toll has not been fully recognized.
    Since its establishment, the IFFGD has been dedicated to increasing 
awareness of functional gastrointestinal and motility disorders, among 
the public, health professionals, and researchers. While maintaining a 
high level of public education efforts, the IFFGD has also become 
recognized for our professional symposia. We consistently bring 
together a unique group of international multidisciplinary 
investigators to communicate new knowledge in the field of 
gastroenterology. In the spring of 2007, IFFGD will be hosting our 
Seventh International Symposium on Functional Gastrointestinal 
Disorders, bringing scientists, researchers, and clinicians from across 
the world together to discuss the current science and opportunities on 
IBS and other functional gastrointestinal and motility disorders. Also, 
in November of 2002, we hosted a conference on fecal and urinary 
incontinence, the proceedings of which were published in 
Gastroenterology, the official journal of the American 
Gastroenterological Association (AGA). The IFFGD has also been working 
with the National Institute of Child Health and Human Development 
(NICHD), the National Institute of Diabetes and Digestive and Kidney 
Diseases (NIDDK), and the Office of Medical Applications of Research 
(OMAR) in the NIH Office of the Director on the State of the Science 
Conference on Fecal and Urinary Incontinence.
    The majority of the diseases and disorders we address have no cure. 
We have yet to completely understand the pathophysiology of the 
underlying conditions. Patients face a life of learning to manage 
chronic illness that is accompanied by pain and an unrelenting myriad 
of gastrointestinal symptoms. The costs associated with these diseases 
are enormous; estimates range from between $25-$30 billion annually. 
The human toll is not only on the individual but also on the family. 
Economic costs spill over into the workplace. In essence, these 
diseases reflect lost potential for the individual and society. The 
IFFGD is a resource and provides hope for hundreds of thousands of 
people as they try to regain as normal a life as possible.

                     IRRITABLE BOWEL SYNDROME (IBS)

    IBS strikes people from all walks of life affecting between 25 to 
45 million Americans and results in significant human suffering and 
disability. This chronic disease is characterized by a group of 
symptoms, which include abdominal pain or discomfort associated with a 
change in bowel pattern, such as loose or more frequent bowel 
movements, diarrhea, and/or constipation. Although the cause of IBS is 
unknown, we do know that this disease needs a multidisciplinary 
approach in research and often treatment.
    IBS can be emotionally and physically debilitating. Because of 
persistent bowel irregularity, individuals who suffer from this 
disorder may distance themselves from social events, work, and even may 
fear leaving their home.
    In the House and Senate fiscal years 2004, 2005, and 2006 Labor, 
Health and Human Services, and Education Appropriations bills, Congress 
recommended that NIDDK develop an IBS strategic plan. The development 
of a strategic plan on IBS would greatly increase the institute's 
progress toward the needed research on this functional gastrointestinal 
disorder, as well as serve to advance our understanding of this 
disease, determine improved treatment options for IBS sufferers, and 
assist in recruiting new investigators to conduct IBS research. NIDDK 
is formulating an action plan for digestive diseases through the 
National Commission on Digestive Diseases and has indicated that IBS 
will be included as a component of this overall plan. IBS must be given 
sufficient attention, however, in order to increase the FGID and 
motility disorders research portfolio at NIDDK.

                           FECAL INCONTINENCE

    At least 6.5 million Americans suffer from fecal incontinence. 
Incontinence is neither part of the aging process nor is it something 
that affects only the elderly. Incontinence crosses all age groups from 
children to older adults, but is more common among women and in the 
elderly of both sexes. Often it is a symptom associated with various 
neurological diseases and many cancer treatments. Yet, as a society, we 
rarely hear or talk about the bowel disorders associated with multiple 
sclerosis, diabetes, colon cancer, uterine cancer, and a host of other 
diseases.
    Damage to the anal sphincter muscles; damage to the nerves of the 
anal sphincter muscles or the rectum; loss of storage capacity in the 
rectum; diarrhea; or pelvic floor dysfunction can cause fecal 
incontinence. People who have fecal incontinence may feel ashamed, 
embarrassed, or humiliated. Some don't want to leave the house out of 
fear they might have an accident in public. Most try to hide the 
problem as long as possible. They withdraw from friends and family, and 
often limit work or education efforts. Incontinence in the elderly 
burdens families and is a major reason for nursing home admissions, an 
already huge social and economic burden in our increasingly aging 
population.
    In November 2002, the IFFGD sponsored a consensus conference--
``Advancing the Treatment of Fecal and Urinary Incontinence Through 
Research: Trial Design, Outcome Measures, and Research Priorities.'' 
Among other outcomes, the conference resulted in six key research 
recommendations:
    1. More comprehensive identification of quality of life issues 
associated with fecal incontinence and improved assessment and 
communication of treatment outcomes related to quality of life.
    2. Standardization of scales to measure incontinence severity and 
quality of life.
    3. Assessment of the utility of diagnostic tests for affecting 
management strategies and treatment outcomes.
    4. Development of new drug compounds offering new treatment 
approaches to fecal incontinence.
    5. Development and testing of strategies for primary prevention of 
fecal incontinence associated with childbirth.
    6. Further understanding of the process of stigmatization as it 
applies to the experience of individuals with fecal incontinence.
    The IFFGD has been working with the NICHD, NIDDK, and OMAR on a 
State of the Science Conference on Fecal and Urinary Incontinence. The 
goal of this conference will be to assess the state of the science and 
outline future priorities for research on both fecal and urinary 
incontinence; including, the prevalence and incidence of fecal and 
urinary incontinence, risk factors and potential prevention, 
pathophysiology, economic and quality of life impact, current tools 
available to measure symptom severity and burden, and the effectiveness 
of both short and long term treatment. Once the conference is 
completed, the NIH must prioritize implementation of the 
recommendations of this important conference.

                 GASTROESOPHAGEAL REFLUX DISEASE (GERD)

    Gastroesophageal reflux disease, or GERD, is a common disorder 
affecting both adults and children, which results from the back-flow of 
acidic stomach contents into the esophagus. GERD is often accompanied 
by persistent symptoms, such as chronic heartburn and regurgitation of 
acid. But sometimes there are no apparent symptoms, and the presence of 
GERD is revealed when complications become evident. One uncommon 
complication is Barrett's esophagus, a potentially pre-cancerous 
condition associated with esophageal cancer. Symptoms of GERD vary from 
person to person. The majority of people with GERD have mild symptoms, 
with no visible evidence of tissue damage and little risk of developing 
complications. There are several treatment options available for 
individuals suffering from GERD.
    Gastroesophageal reflux (GER) affects as many as one-third of all 
full term infants born in America each year. GER results from an 
immature upper gastrointestinal motor development. The prevalence of 
GER is increased in premature infants. Many infants require medical 
therapy in order for their symptoms to be controlled. Up to 25 percent 
of older children and adolescents will have GER or GERD due to lower 
esophageal sphincter dysfunction. In this population, the natural 
history of GER is similar to that of adult patients, in whom GER tends 
to be persistent and may require long-term treatment.

                             GASTROPARESIS

    Gastroparesis, or paralysis of the stomach, refers to a stomach 
that empties slowly. Gastroparesis is characterized by symptoms from 
the delayed emptying of food, namely: bloating, nausea, vomiting or 
feeling full after eating only a small amount of food. Gastroparesis 
can occur as a result of several conditions; it can occur in up to 30 
percent to 50 percent of patients with diabetes mellitus. A person with 
diabetic gastroparesis may have episodes of high and low blood sugar 
levels due to the unpredictable emptying of food from the stomach, 
leading to diabetic complications. Other causes of gastroparesis 
include Parkinson's disease and some medications, especially narcotic 
pain medications. In many patients a cause of the gastroparesis cannot 
be found and the disorder is termed idiopathic gastroparesis. Over the 
last several years, as more is being found out about gastroparesis, it 
has become clear this condition affects many people and the condition 
can cause a wide range of symptoms of differing severity.

                           ESOPHAGEAL CANCER

    Approximately 13,000 new cases of esophageal cancer are diagnosed 
every year in this country. Although the causes of this cancer are 
unknown, it is thought that this cancer may be more prevalent in 
individuals who develop Barrett's esophagus. Diagnosis usually occurs 
when the disease is in an advanced stage; early screening tools are 
currently unavailable.

              CHILDHOOD DEFECATION DISORDERS AND DISEASES

    Chronic Intestinal Pseudo-Obstruction (CIP).--About 200 new cases 
of CIP are diagnosed in American Children each year. Often life 
threatening, the future for children severely affected with CIP is 
brightened by the evolving promise of cure with intestinal or multi-
organ transplantation.
    Hirschsprung's Disease.--A serious childhood and sometimes life-
threatening condition that can cause constipation, occurs once in every 
5,000 American children born each year. Approximately 20 percent of 
children with HD will continue to have complications following surgery. 
These complications include infection and/or fecal incontinence.
    Functional Constipation.--Millions of children (1 in every 10) each 
year will be diagnosed with functional constipation. In fact, it is the 
chief complaint of 3 percent of pediatric outpatient visits and 10-25 
percent of pediatric gastroenterology visits.

  FUNCTIONAL GASTROINTESTINAL AND MOTILITY DISORDERS AND THE NATIONAL 
                          INSTITUTES OF HEALTH

    The International Foundation for Functional Gastrointestinal 
Disorders recommends an increase of 5 percent for NIH overall, and a 5 
percent increase for NIDDK and NICHD. However, we request that this 
increase for NIH does not come at the expense of other Public Health 
Service agencies.
    We urge the subcommittee to provide the necessary funding for the 
expansion of the NIDDK's research program on functional 
gastrointestinal disorders (FGID) and motility disorders. This 
increased funding will allow for the growth of new research on FGID and 
motility disorders at NIDDK, a strategic plan on IBS, and increased 
public and professional awareness of FGID and motility disorders. In 
addition, we urge the subcommittee to continue to support and provide 
adequate funding to the Office of Research on Women's Health (ORWH) 
under the NIH Office of the Director, particularly for their 
Specialized Centers of Research on Sex and Gender Factors Affecting 
Women's Health (SCORs) program and the Building Interdisciplinary 
Research Careers in Women's Health (BIRCWH) program. The ORWH supports 
important research into IBS.
    A primary tenant of IFFGD's mission is to ensure that clinical 
advancements concerning GI disorders result in improvements in the 
quality of life of those affected. By working together, this goal will 
be realized and the suffering and pain millions of people face daily 
will end.
    Thank you.
                                 ______
                                 
   Prepared Statement of the Industrial Minerals Association--North 
                                America

    It appears that the President's 2007 Budget for the Centers for 
Disease Control (CDC) includes a proposed reduction from $255.2 million 
to $250.2 million in funding for the National Institute for 
Occupational Safety and Health (NIOSH). IMA-NA notes that the fiscal 
year 2007 estimate carries forward fiscal year 2006 Conference language 
to move management and administrative costs ($34.8 million) from 
Occupational Safety and Health to Business Services Support. However, 
please note that the portion of the NIOSH budget to cover CDC overhead 
apparently has increased from 4.3 percent of NIOSH's budget in 2001 to 
nearing 14 percent in fiscal year 2007. This fee appears to be taking 
an increasingly larger share of NIOSH funds that otherwise would be 
dedicated to occupational safety and health research. IMA-NA encourages 
you to fund NIOSH as a stand-alone agency within the HHS organizational 
structure.
    IMA-NA also favors increasing the fiscal year 2007 budget to expand 
the NIOSH in-house mining research program. Recent mining fatalities in 
the underground coal-mining sector have highlighted the need for a 
forward-looking initiative to improve mine emergency communications and 
to develop reliable technologies for tracking the location of 
underground miners. While IMA-NA supports these research initiatives, 
there is concern that other critical mine safety and health-related 
research important to the industrial minerals sector could be affected 
adversely. IMA-NA encourages you to fund NIOSH mining-related 
occupational safety and health research programs above current funding 
levels to address such critical issues as cumulative musculoskeletal 
trauma, dust control, and noise-induced hearing loss.
    The Industrial Minerals Association--North America (IMA-NA) is a 
trade association organized to advance the interests of North American 
companies that mine or process industrial minerals. These minerals are 
used as feedstocks for the manufacturing and agricultural industries 
and are used to produce such essential products are glass, paints and 
coatings, ceramics, detergents and fertilizers. The IMA-NA membership 
includes producers of ball clay, bentonite, borates, feldspar, 
industrial sand, mica, soda ash (trona), sodium silicate, talc and 
wollastonite. IMA-NA's membership also includes many of the suppliers 
to the industrial minerals industry, including equipment manufacturers, 
railroads and trucking companies, and consultants.
    IMA-NA respectfully requests your support in opposing reductions in 
funding for occupational safety and health research, particularly as 
they affect mine safety and health. In the latter regard, we 
respectfully request additional funding above current levels.
                                 ______
                                 
         Prepared Statement of the HHT Foundation International

    Mr. Chairman and honorable members of the committee, thank you for 
the opportunity to present my family's story in this testimony in 
support of the HHT Foundation's legislative initiative. I would like 
express my appreciation to Congresswoman DeLauro for all of her 
assistance to make this testimony possible.
    My name is Jane Ribicoff Silk, I was fortunate to be the daughter 
of the former Senator Abraham & Mrs. Ruth Ribicoff, but I was 
unfortunate to have inherited Hereditary Hemorrhagic Telangiectasia 
(HHT). I am also the past president of the HHT Foundation, 
International.
    HHT is a hidden killer: 20 percent of people with HHT die early or 
are disabled due to lung or brain involvement.
    It is estimated that 70,000-100,000, or 1 in 3,000-5,000 Americans, 
are affected with Hereditary Hemorrhagic Telangiectasia (HHT). HHT is a 
genetic disorder, which affects blood vessels of the brain, spinal 
cord, lung, liver, gastrointestinal tract and most commonly, the nose. 
The affected blood vessels of the brain, spinal cord, and lung are 
prone to rupture and may result in stroke, hemorrhage or death. 
Bleeding from the nose and gastrointestinal tract can cause transfusion 
dependency and anemia, which can lead to heart failure. HHT can be 
treated successfully if correctly diagnosed. Children of an affected 
parent have a 50 percent chance of inheriting HHT.

DISABILITY AND DEATH CAN BE PREVENTED WITH PROPER DIAGNOSIS, SCREENING 
                             AND TREATMENT.
 
   Nine of 10 people with HHT are not yet diagnosed due to widespread 
lack of knowledge by medical professionals.
    HHT is a national health problem associated with high health care 
costs that has long been neglected.
    From the time I was a very young child, I experienced the trauma of 
my grandmother's severe hemorrhages of the nose. The bleeding would not 
stop. The ambulance came. My grandmother went to the hospital where she 
received multiple transfusions of blood and came back home, her nose 
packed with gauze--and still bleeding. This was not an infrequent 
occurrence. In between her severe nosebleeds, there would be daily 
nosebleeds lasting for more than an hour. My grandmother died at the 
age of 67 from a transfusion tainted with hepatitis. The severity of my 
grandmother's bleeding, and the number of transfusions she needed to 
keep her alive, can now be prevented with modern therapy.
    I realized at an early age that my mother, Ruth Ribicoff, also had 
a bleeding problem. She bled from her nose multiple times a week and 
every few months was hospitalized for transfusions due to blood loss. 
In her mid forties, it was discovered that she was also bleeding from 
her intestines. Additionally, she had HHT in her liver which caused her 
heart to pump harder and to enlarge. This eventually led to heart 
failure. She was often weak and never robustly energetic. Being the 
wife of a busy congressman, governor, cabinet member and senator put an 
additional social strain on my mother as she never knew at what 
inopportune moment she might get a bad nosebleed. Every purse she owned 
was stocked with a good supply of cotton.
    In 1972, my mother died at the age of 64 of complications of the 
liver, intestinal bleeding and nosebleeds that are treatable today. 
Even today, it is still not recognized that 9 out of 10 people with HHT 
are not diagnosed.
    My older brother, Peter, has carried the family burden of HHT 
almost his whole life and is the most impaired of all of us. His 
quality of life has been greatly diminished and he suffers every day. 
As a young boy he had occasional nosebleeds. When he was in his 20's he 
started getting backaches. He went to several doctors who could not 
help him, including Dr. Janet Travell, President Kennedy's personal 
back specialist. When he was in his 30's he began to lose sensation in 
the tops of his legs. An astute physician took some x-rays and noticed 
some dark spots around his spine. The only doctor in the world at that 
time, who used dye to see the blood vessels in the spinal cord, was in 
Paris. So, my brother took his young family and went to Paris. During 
his hospitalization, he was told to go home and have exploratory 
surgery on his spine as there were malformations there that were most 
likely life threatening. Indeed, they were life threatening. During a 
9-hour surgery, it was discovered that his HHT had affected the 
arteries of his spinal cord. He had had multiple hemorrhages over the 
years, which had caused his mysterious backaches, and if he had waited 
much longer, a massive hemorrhage of the malformed blood vessels of the 
spinal cord would have occurred--which would have either paralyzed him 
or killed him. So with meticulous care, each tangled and malformed 
artery snaking through his whole spinal column was tied off. It was not 
known if he would ever walk again. With extensive rehabilitation he did 
walk. But the loss of sensation caused by nerve damage was never 
regained. This has led to a continuously deteriorating condition for my 
brother. With a loss of sensation in his legs, he has become stooped 
over, uses a cane for balance and walks with a limp. Also due to his 
nerve damage, he has multiple complications with his bladder. For years 
he has had daily nosebleeds. He is in a weakened state all the time and 
his life has been permanently affected. If recognized early, his spinal 
cord malformation could have been treated and much suffering prevented.
    Adding further insult to injury, my brother's daughter, Judith, a 
successful young woman, has a liver abnormality associated with HHT. 
When it was first discovered, doctors thought it was a tumor and almost 
did a biopsy which could have led to her loss of life. The doctors had 
no awareness of HHT. Fortunately, because of our experience with the 
Yale University HHT Center of Excellence and Dr. Robert I. White, Jr., 
she was taken care of and is now leading a normal life.
    Last, but not least is myself. My nosebleeds started in adolescence 
and in my late teens and early 20's I had nosebleeds that could last 2 
hours--and with HHT--you never have advance warning about when they are 
coming! I have led a pretty normal life, but have never had a lot of 
stamina.
    When I was about 55, I went through a period of time of feeling 
completely exhausted. A check up at the doctor showed that my liver 
enzymes were unusually high. In the search for the cause, a CAT scan of 
my liver was done. What was discovered was something that the doctors 
in my community had never seen. They were ready to do a liver biopsy. I 
insisted that the lead doctor speak to the Yale HHT Center of 
Excellence. They explained that what they were looking at was not 
uncommon for people with HHT and should not be touched at that time. I 
am monitored regularly and as I get older, it is clear that of all of 
those in my family I am the most fortunate.
    I have a daughter with HHT and granddaughter with HHT who may one 
day have children with HHT. I ask for funding so that not only my 
family, but all future generations will not have to live with HHT 
themselves or watch a family member slowly deteriorate or die a sudden 
preventable death.

                  HOW THE FEDERAL GOVERNMENT CAN HELP

    Stroke, lung and brain hemorrhages can be prevented through early 
diagnosis, screening and treatment. Severe hemorrhages in the nose and 
gastrointestinal tract can be controlled through intervention and heart 
failure can be managed through proper diagnosis of HHT and treatments. 
Access to effective evidence-based interventions and treatment should 
be established through a joint legislative initiative between the 8 
established National HHT Treatment Centers of Excellence and the 
National Center on Birth Defects and Disabilities Hereditary Blood 
Disorders Group with a legislative initiative of a $10 million set 
aside at the CDC through the HHS Appropriations bill in support of the 
8 U.S. HHT Centers. These funds will be used to provide surveillance; 
create a multi-center clinical database to collect and analyze data; 
support epidemiological studies; document effectiveness or patient 
interventions, develop educational programs for health care programs 
and ultimately improve the quality of life for people living with HHT 
and future generations.
    An additional $0.75 million is requested for the establishment of 
an HHT National Resource Center through a partnership between the CDC 
and the national voluntary agency representing HHT Families. These 
funds would be used to provide family support, education targeted to 
families and medical professionals, annual patient conferences, 
national and international scientific meetings and an aggressive 
research program. The CDC is ready and willing to work in partnership 
with the HHT Foundation to accomplish this mission.
    Mr. Chairman, again, thank you for the opportunity to testify. On 
behalf of the HHT Foundation and all of its members I personally appeal 
to the committee for funding for the 8 HHT Centers of Excellence. We 
believe this will benefit those with HHT and also reduce health care 
costs by the prevention of complications and the development of new 
therapies for this condition.
                                 ______
                                 
      Prepared Statement of the Lupus Foundation of America, Inc.

    As President and CEO of the Lupus Foundation of America, Inc. (LFA) 
I appreciate the opportunity to submit written comments for the record 
regarding funding for lupus related programs for fiscal year 2007. The 
LFA is the Nation's leading non-profit voluntary health organization 
dedicated to improving the diagnosis and treatment of lupus, supporting 
individuals and families affected by the disease, increasing awareness 
of lupus among health professionals and the public, and finding the 
causes and cure. As you may know, lupus is a debilitating, chronic 
autoimmune disease that causes inflammation and tissue damage to 
virtually any organ system; it can cause significant disability or even 
death. Lupus is the prototypical autoimmune disease; therefore, finding 
answers to questions about lupus may also provide understanding about 
other autoimmune diseases that affect 22 million Americans. The leaders 
and members of the LFA and the 1.5 to 2 million people suffering from 
lupus respectfully request the following for fiscal year 2007 to reduce 
and treat suffering from lupus:
  --$29.7 billion for the National Institutes of Health (NIH) to 
        support lupus research. Specifically, we urge Congress to 
        direct NIH to support and bolster lupus research across all 
        relevant institutes, centers, and offices.
  --$1 million in new funding for The Office of Women's' Health at the 
        Department of Health and Human Services (HHS) to support a 
        sustained national lupus education campaign. This campaign is 
        directed towards the general public and healthcare 
        professionals who diagnose and treat people with lupus, with 
        emphasis on reaching those individuals at highest risk--women 
        of color--a health disparity that remains unexplained.
  --$1.5 million for the National Lupus Patient Registry (NLPR) at the 
        National Center for Chronic Disease Prevention and Health 
        Promotion within the Center for Disease Control and Prevention 
        (CDC) to sustain current epidemiological efforts, and expand 
        the CDC's work to include all forms of lupus and all affected 
        populations, particularly African Americans, Hispanics, and 
        Asian Americans who are disproportionately at-risk for--and 
        have worse outcomes associated with--lupus.
    The purpose of the CDC lupus registry is to collect data and 
conduct lupus epidemiological studies to better understand and measure 
the burden of the illness, the social and economic impact of the 
disease, and stimulate additional private investment by industry in the 
development of new, safe and effective therapies for lupus. Existing 
epidemiological data on lupus is decades old and no longer reliable. 
Population-based epidemiological studies of lupus must be conducted at 
strategically-located sites throughout the Nation that will provide 
accurate data on all forms of lupus (i.e. systemic lupus, primary 
discoid lupus, drug-induced lupus, neonatal lupus, antiphospholipid 
antibodies) and the disparity among the various racial and ethnic 
populations.
    To ensure that we begin to comprehensively study and understand the 
dramatic health disparities associated with lupus, the NLPR and 
associated epidemiological studies must be expanded to include 
additional sites that constitute a mix of urban and rural areas and 
contain academic centers with a track record and some existing 
infrastructure for performing epidemiological studies. Thank you.
    I am Dr. Michael Madaio, Professor of Medicine at the University of 
Pennsylvania School of Medicine, and a lupus researcher. I have been 
funded for lupus research for over twenty years. I am proud to be 
affiliated with the Lupus Foundation of America as a member of the 
Medical Scientific Advisory Board and Chairman of the Medical Advisory 
Board for the Southeastern Pennsylvania Chapter of the LFA. While I am 
a nephrologist, since my research and clinical practice is focused on 
lupus, I really work day-to-day within the realms of nephrology and 
rheumatology as well as other medical specialties and subspecialty 
areas. I understand the importance of biomedical research funding and 
the impact that Federal research funding has had, does have, and can 
have on the lives of the 1.5 million people living with lupus and the 
22 million Americans with other autoimmune diseases.
    After a tragic 40 year dearth of new treatments to manage this 
often debilitating and devastating disease, the good news is that we 
finally are on the brink of major breakthroughs, thanks to research 
sponsored by the National Institutes of Health. Exciting research and 
strides in treatments for people with lupus are on the horizon and a 
sustained investment now in lupus research will speed the day to better 
treatments and a cure. Specifically, I am conducting extensive research 
on lupus nephritis, which is kidney involvement in lupus disease. My 
field is advancing rapidly, due in large part to factors directly 
dependent on NIH funding:
  --the burgeoning growth in the number of new animal models, including 
        a wealth of informative transgenic and gene-targeted mutants;
  --increased access to improved powerful technologies such as gene and 
        protein arrays, now available at many institutions and to many 
        investigators through NIH core facilities;
  --new technologies that permit successful query of the very small 
        amounts of human tissue typically available from patients and, 
        collaboration across disciplines and across institutions to 
        bring crucial expertise together;
  --new insights into underlying biology and pathophysiology in 
        immunity and lupus are constantly emerging;
  --technologies to identify biomarkers are improved and accessible; 
        and
  --new approaches to therapy are being explored.
    These endeavors are bearing fruit but they are highly dependent on 
NIH funding.
    If funding for the NIH is cut or level funded, it could cripple or 
paralyze current lupus research efforts.
    As lupus is a systemic disease that can affect any organ or tissue 
elucidating pathogenesis (or cause) and treatments of lupus will have 
direct impact on many other autoimmune diseases (e.g. results and 
treatments translating to other diseases). Providing adequate resources 
to support lupus research will help the Nation turn the corner on 
finding better treatments or a cure for lupus while also supporting 
breakthroughs and progress for other disease states. It is important to 
note that the corollary is true: cuts in lupus research funding also 
will have an adverse effect on progress for lupus and for progress in 
related diseases. Cuts in NIH funding could bring to a standstill 
support of clinical trials and large observational studies, and could 
curtail research on those at highest risk for lupus, women of color; it 
also could negatively impact pediatric research at a time when 
researchers have just begun to undertake studies in important new 
areas. Furthermore, insufficient Federal funding also could slow much-
needed genetic research when we are just discovering the critical 
components that may contribute to lupus and its effects. Therefore, it 
is critical that biomedical researchers be provided the necessary 
resources to continue seeking answers to the questions that will lead 
to better lupus treatments. Increased research funding will help 
deliver much-needed breakthroughs from the laboratory to patients in 
need.
    The National Institute of Arthritis and Musculoskeletal and Skin 
Diseases (NIAMS), the institute most involved in lupus research, is one 
of the smallest institutes at NIH. In the past two years there has been 
a decrease in research funding for NIAMS overall, with a ten percent 
decrease in new research grants. Currently, only 12-15 percent of the 
grant applications submitted to NIAMS receives funding. Further cuts 
will cause this rate to drop precipitously to below 10 percent next 
year. Just two or three years ago, funding levels were at 25-30 
percent. Cuts in research funding, coupled with the rate of biomedical 
research inflation (3-4 percent per year), further erode NIAMS' ability 
to fund lupus research grant applications at the rate necessary to 
begin making real progress. As such, an increase above the rate of 
biomedical research inflation is necessary to allow NIH to sustain and 
build on its research progress resulting from the recent budget 
doubling while avoiding the severe disruption to that progress that 
would result from a lesser increase or cut.
    Furthermore, in the proposed budget for NIAMS for 2007 there will 
be a loss of 10 training grants; each grant funds training for four 
physicians, mostly rheumatologists. Young and senior investigators 
alike are moving into other fields because of the lost of funding. 
Exacerbating the situation, medical schools are struggling financially 
due to public funding cuts thus eliminating any safety net for 
researchers that may have previously existed. As a result, young 
investigators are not attracted to lupus research which means there 
will be not be a future generation of lupus scientists and clinicians 
to do research. Moreover, after having attracted scientists to 
translational immunology in the last five to ten years, when funding 
was increasing, there is now a possibility we could lose both the 
current and next generation of young investigators. Increased funding 
is necessary to support an adequate number of training grants. Without 
research and training funds lupus researchers might be forced to become 
private practice physicians instead, leading to an imbalance in the 
health care system: sufficient numbers of physicians to treat lupus 
patients, but no new treatments with which to care for them, and no 
researchers to develop the cures of tomorrow.
    We recognize and appreciate that Congress and the Nation face 
unprecedented fiscal challenges; however, we cannot afford to lose 
ground in biomedical research at such a promising time. The LFA looks 
forward to working with the subcommittee and others in Congress to 
reduce and prevent the suffering caused by lupus. We stand ready to 
serve as a resource for any information you may need in this regard and 
thank you for this opportunity to submit written testimony for the 
record concerning fiscal year 2007 lupus related funding.
                                 ______
                                 
   Prepared Statement of the March of Dimes Birth Defects Foundation

    The 3 million volunteers and 1,400 staff members of the March of 
Dimes appreciate the opportunity to submit the Foundation's Federal 
funding recommendations for fiscal year 2007. The March of Dimes is a 
national voluntary health agency founded in 1938 by President Franklin 
D. Roosevelt to prevent polio. Today, the Foundation works to improve 
the health of mothers, infants and children by preventing birth 
defects, premature birth and infant mortality through research, 
community services, education, and advocacy. The March of Dimes is a 
unique partnership of scientists, clinicians, parents, members of the 
business community, and other volunteers affiliated with 52 chapters in 
every State, the District of Columbia, and Puerto Rico.
    The volunteers and staff of the March of Dimes are deeply concerned 
that the funding recommendations in the President's Budget are not 
sufficient to meet the challenge of improving the health of women and 
children across the Nation. Continued under-funding of critical 
research and public health programs imperils the health of mothers and 
children today and in the future. In our judgment, the funding 
increases recommended below would lead to an immediate positive impact 
on reducing the incidence of preterm birth and birth defects, as well 
as making newborn screening for treatable metabolic and functional 
disorders more widely available.

                     NATIONAL INSTITUTES OF HEALTH

    The March of Dimes joins the larger research community in 
recommending a 5 percent increase in funding for the National 
Institutes of Health (NIH), bringing total Federal support to just 
under $30 billion. The administration's fiscal year 2007 budget 
recommendation would necessitate absolute reductions in research 
investments as the levels of funding proposed are insufficient even to 
keep up with inflation and certainly will not sustain the necessary 
investment in medical research.
National Institute of Child Health and Human Development
    The March of Dimes recommends a 5 percent increase for NICHD in 
fiscal year 2007 and an increase of at least $100 million over the next 
five years to boost prematurity-related research. Additional resources 
are needed to support research on the causes of preterm labor and 
delivery and on strategies for improving the care and treatment of 
infants born prematurely or at low birth weight. In addition, funding 
should be provided to enable the Institute to work with the Office of 
the Director of NIH to create a comprehensive strategic plan for this 
research that includes coordination of strategies and studies across 
multiple Institutes.
    Since 1981, the preterm birth rate has increased 33 percent 
resulting in more than 500,000 premature births in 2004--that is 1 in 8 
births. Preterm birth is the leading cause of death in the first month 
of life and, for those babies who do survive, one in 5 experiences 
multiple health problems including cerebral palsy, mental retardation, 
chronic lung disease, and vision and hearing loss. Preterm labor can 
happen to any pregnant woman, and the causes of nearly half of all 
premature births are unknown. This growing problem is a tragedy for 
families and expensive for the Nation. In 2003, the national hospital 
bill for the care of babies with a primary or secondary diagnosis of 
prematurity exceeded $18 billion, half of which was borne by Medicaid 
and other public programs and the remainder was charged to employers 
and families. Until we know how to prevent preterm labor, the worsening 
incidence of prematurity means that overall hospital charges will also 
spiral upward.
    In recent years, the NICHD has made a major commitment to 
increasing our understanding of the factors that result in premature 
birth and to developing strategies to prolong pregnancy. But additional 
work is needed and adequate funding is key.
    An area deserving more support is the collaborative Maternal-Fetal 
Medicine Units (MFMU) and Neonatal Research (NR) collaboratives. One 
clinical trial funded through the MFMU network reported a promising 
preventive intervention that relies on a derivative of the hormone 
progesterone. The incidence of preterm delivery was reduced by up to 30 
percent in women who received weekly injections of the compound 
compared to the women who were given a placebo. The results of this 
intervention are impressive and additional funding is needed to support 
further clinical trials of this promising intervention.
    Finally, the March of Dimes urges the subcommittee to include in 
its bill an increase of $57 million for the National Children's Study 
(NCS). While the amount may seem substantial, it is dwarfed by the cost 
of treating the diseases and conditions the study is designed to 
address. If allowed to go forward, the NCS will generate groundbreaking 
research that greatly increases our knowledge of the role family 
genetics and the environment play in the health and development of 
children. Planning for this study has been completed; the Vanguard 
sites have been designated. The project is poised to start 
implementation which will yield critical information for research on 
preterm birth. The NCS will prove a rich and ongoing information 
resource for use by scientists and clinicians to develop treatments and 
preventive measures tailored for the pediatric population. Failure to 
provide the resources needed for this study would be extremely 
shortsighted.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

Safe Motherhood/Infant Health
    The National Center for Chronic Disease Prevention and Health 
Promotion, Division of Reproductive Health works to promote optimal 
reproductive and infant health. The March of Dimes recommends a $20 
million increase in fiscal year 2007 to support expansion of research 
to identify risk factors and to develop strategies for preventing 
preterm birth. This can be accomplished with increased funding for the 
two programs described below:
    1. The Pregnancy Risk Assessment Monitoring System (PRAMS) is a 
state-specific, population-based surveillance system designed to 
identify and monitor selected maternal behaviors and experiences 
before, during, and after pregnancy. Data collected through PRAMS is 
used to increase understanding of maternal behaviors and experiences 
and their relationship to adverse pregnancy outcomes, to improve 
maternal and child health programs, and to facilitate the dissemination 
of the latest research findings and clinical practice standards. The 
March of Dimes recommends an increase of $5 million to improve PRAMS so 
that CDC can develop national estimates on behavioral and demographic 
risk factors for preterm birth.
    2. Epidemiological research conducted at CDC is vital to the 
prevention of preterm labor and delivery. The March of Dimes recommends 
an increase of $15 million for the expansion of basic etiologic 
research, research on women at risk for preterm delivery and the social 
and environmental factors contributing to higher rates of preterm 
delivery in African-American women. Increasing CDC's research 
activities related to preterm birth will lead to improvements in 
screening and early detection and new interventions for women at risk 
for preterm labor.

National Center on Birth Defects and Developmental Disabilities
    The March of Dimes recommends a minimum of $135 million in fiscal 
year 2007 funding for the National Center on Birth Defects and 
Developmental Disabilities (NCBDDD). NCBDDD conducts programs to 
protect and improve the health of children by: (1) preventing birth 
defects and developmental disabilities; and (2) promoting optimal 
development and wellness among children with disabilities. Of 
particular interest to the March of Dimes is NCBDDD's birth defects 
program that includes surveillance, research and prevention activities. 
For fiscal year 2007, the March of Dimes requests an increase of $6 
million to support surveillance and research and an additional $2 
million for folic acid education. These modest increases are vital to 
making progress in reducing the incidence of birth defects.
    In the United States, about 3 percent of all babies are born with a 
major birth defect. Birth defects are the leading cause of infant 
mortality accounting for more than 20 percent of all infant deaths 
every year. Children with birth defects who survive often experience 
long term physical and mental disabilities, and are at increased risk 
for developing other significant health problems. In fact, birth 
defects contribute substantially to the Nation's health care costs. 
According to CDC, the lifetime cost of caring for infants born with one 
of the 18 most common birth defects exceeds $8 billion annually.
    NCBDDD provides funding to assist States with community-based birth 
defects tracking systems, programs to prevent birth defects and improve 
access to health services for children with birth defects. In 2006, CDC 
has been able to support only 15 States in their efforts to improve 
surveillance programs, down from 28 States in fiscal year 2004. 
Additional resources are sorely needed to help States seeking 
assistance.
    The causes of nearly 70 percent of birth defects are unknown and it 
is therefore critical that the Committee increase funding for the 
National Birth Defects Prevention Study. This groundbreaking CDC 
initiative is being carried out by 9 regional Centers for Birth Defects 
Research and Prevention located in Arkansas, California, Georgia, Iowa, 
Massachusetts, New York, North Carolina, Texas, and Utah. Each of these 
centers obtains data on infants with major birth defects through 
interviews with their mothers and biological samples that provide 
information about medical history, environmental exposures, and 
lifestyle before and during pregnancy. The study focuses on both 
genetic and environmental causes, including medication use during 
pregnancy, maternal diet and vitamin use. This study is an ongoing 
source of information for use in research on the causes of birth 
defects. With adequate funding this study has the potential to 
dramatically increase our understanding of the causes of birth defects 
and will provide information for developing effective preventive 
measures.
    NCBDDD is conducting a national public and health professions 
education campaign designed to increase the number of women taking 
folic acid. CDC estimates that up to 70 percent of neural tube defects 
(NTDs), serious birth defects of the brain and spinal cord including 
anencephaly and spina bifida could be prevented if all women of 
childbearing age consume 400 micrograms of folic acid daily, beginning 
before pregnancy. Since fortification of grain products with folic acid 
in 1996, the rate of NTDs in the United States has decreased by 26 
percent, but more must be done to educate every woman of childbearing 
age and the health professionals who treat them about the importance of 
taking folic acid daily.
    Finally, the March of Dimes recommends that additional funds be 
provided to conduct surveillance and epidemiological research on 
cerebral palsy through the network already in place for autism (Centers 
of Excellence for Autism and Developmental Disabilities Research and 
Epidemiology). Cerebral palsy is one of the most common developmental 
disabilities and there is currently very limited surveillance and 
research being conducted.

National Immunization Program
    If the Nation is to meet the Healthy People 2010 goals of 
vaccinating 90 percent of children and adults, CDC, States, and 
localities will need the resources required to reach those in need of 
immunizations. According to the CDC, nearly 25 percent of two-year-olds 
have not received all of the recommended vaccine doses. CDC's National 
Immunization Program provides grants to 64 State, local, and 
territorial public health agencies to reduce the incidence of 
disability and death resulting from 12 vaccine preventable diseases. 
The March of Dimes urges the subcommittee to continue its longstanding 
policy of ensuring that Federal vaccine programs are well funded. For 
fiscal year 2007, the March of Dimes recommends $802.4 million to 
ensure that the National Immunization Program has the resources it 
needs to account for vaccine price increases, introduction of new 
vaccines, and to implement recommendations by the Institute of 
Medicine.

Polio Eradication
    The March of Dimes supports a funding level of $101.254 million for 
CDC's fiscal year 2007 global polio eradication activities. Level with 
fiscal year 2006, this funding would allow CDC to continue its 
supplementary immunization activities in the remaining endemic and 
high-risk countries in Africa and Asia and to move quickly to interrupt 
polio transmission in these regions. The U.S. Government must maintain 
its commitment to the worldwide eradication initiative that promises to 
save lives and reduce unnecessary health-related costs globally.

National Center for Health Statistics
    The National Center for Health Statistics (NCHS) provides data 
essential for both public and private research and programmatic 
initiatives. The National Vital Statistics System and the National 
Survey on Family Growth, for example, are major sources of information 
on the utilization of prenatal care and on birth outcomes, including 
preterm delivery, low birthweight and infant mortality. Increased 
funding would enable CDC to introduce web-based technology to 
facilitate more rapid and accurate compilation of data obtained from 
health professionals and facilities. This information is used to track 
trends in birth outcomes and to support State birth defects registries. 
Data from NCHS surveys are also used to identify emerging trends and to 
optimize use of existing program resources.

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

Newborn Screening
    Newborn screening is a vital public health activity used to 
identify genetic, metabolic, hormonal and/or functional conditions in 
newborns that if left untreated can cause disability, mental 
retardation, and even death. Although nearly all babies born in the 
United States are screened for some genetic birth defects, the number 
of these tests varies from State to State. The March of Dimes 
recommends that every baby born in the United States receive, at a 
minimum, screening for a core set of 28 metabolic disorders plus 
hearing deficiencies.
    In fiscal year 2005 and fiscal year 2006, Congress provided funding 
for implementation of Title XXVI of the Children's Health Act of 2000; 
specifically, to fund the Regional Genetic Service and Newborn 
Screening Collaboratives that work to address the maldistribution of 
genetic services and resources and bring services closer to local 
communities. The March of Dimes supports an appropriation of $25 
million to enable HRSA to improve the capacity of States to: (1) 
provide screening, counseling, testing, and special services for 
newborns and children at risk for heritable disorders; (2) educate 
health professionals and parents on the availability and importance of 
newborn screening; and (3) support States with technical assistance on 
the acquisition and use of new technologies and newborn screening 
services.

Healthy Start
    The Healthy Start Initiative is a collection of community based 
projects focused on reducing infant mortality, low birthweight and 
racial disparities in perinatal outcomes. The March of Dimes strongly 
supports Healthy Start and urges continued funding for this important 
program to decrease this Nation's tragically high rate of infant 
mortality.

Maternal and Child Health Block Grant
    In recent years, Federal funding for Title V of the Social Security 
Act, the Maternal and Child Health (MCH) Block Grant, has not kept pace 
with increased demand for services. Although the MCH Block Grant 
provides assistance for a growing number of community-based programs 
(such as home visiting, respite care for children with special health 
care needs and ``wrap around'' services for pregnant women and children 
enrolled in Medicaid and SCHIP), the funding level was reduced by $24 
million in fiscal year 2006. In order for maternal and child health 
programs to shoulder responsibility for additional beneficiaries and 
services, funding must be increased. The March of Dimes recommends full 
funding of the MCH Block Grant at the authorized level of $850 million.

Consolidated Health Centers
    Consolidated (Community) Health Centers are an important source of 
obstetric and pediatric care for more than 15 million individuals, 
approximately 40 percent of whom are uninsured. The Foundation 
recommends new funding sufficient to increase the number of centers and 
to improve the scope of perinatal services provided. Adding funds to 
this program would be consistent with the President's five-year plan to 
create and expand health center sites in 1,200 communities and to 
increase the number of patients served annually to more than 16 
million.
    Thank you for the opportunity to testify on the federally supported 
programs of highest priority to the March of Dimes. The Foundation's 
volunteers and staff in every State, the District of Columbia, and 
Puerto Rico look forward to working with members of the subcommittee to 
improve the health of the Nation's mothers, infants and children.
                                 ______
                                 
     Prepared Statement of the Medical Library Association and the 
           Association of Academic Health Sciences Libraries

    Mr. Chairman, thank you for the opportunity to testify today on 
behalf of the Medical Library Association (MLA) and the Association of 
Academic Health Sciences Libraries (AAHSL) regarding the fiscal year 
2007 budget for the National Library of Medicine (NLM). I am Marianne 
Comegys, Director of the Louisiana State University Health Sciences 
Center Library, Shreveport, Louisiana.
    MLA, a nonprofit educational organization established in 1898, 
comprises health sciences information professionals with more than 
4,500 members worldwide. Through its programs and services, MLA 
provides lifelong educational opportunities, supports a knowledgebase 
of health information research, and works with a global network of 
partners to promote the importance of quality information for improved 
health to the health care community and the public.
    AAHSL is comprised of the directors of the libraries of 142 
accredited United States and Canadian medical schools belonging to the 
Association of American Medical Colleges (AAMC). Together, MLA and 
AAHSL address health information issues and legislative matters of 
importance through a joint task force.
    Mr. Chairman, the National Library of Medicine (NLM), on the campus 
of the National Institutes of Health (NIH) in Bethesda, Maryland, is 
the world's largest medical library. NLM collects material in all areas 
of biomedicine and health care, as well as works on biomedical aspects 
of technology, the humanities, and the physical, life, and social 
sciences.
    With respect to the Library's budget for the coming year, I would 
like to touch briefly on six issues: (1) the growing demand for NLM's 
basic services; (2) NLM's outreach and education services; (3) 
Emergency preparedness and response; (4) NLM's health information 
technology activities; (5) NLM's facility needs; and (6) NLM's 
infrastructure that supports the NIH Public Access Policy.

              THE GROWING DEMAND FOR NLM'S BASIC SERVICES

    Mr. Chairman, it is a tribute to NLM that the demand for its 
collections continues to steadily increase each year. These collections 
stand at 8.5 million items-books, journals, technical reports, 
manuscripts, microfilms, photographs, and images. Housed within the 
library is one of the world's finest collections of old and rare 
medical works. NLM is a national resource for all U.S. health science 
libraries through the National Network of Libraries of Medicine. 
Increasingly, it is also becoming an international resource for world-
wide research collaboration.
    Our Nation's healthcare providers, researchers, and consumers all 
use the library's collections, through the reading rooms or through 
interlibrary loan, and on the World Wide Web. Increasingly, NLM's 
collection is also available in digital form. NLM is developing a 
strategy for selecting, organizing, and ensuring permanent access to 
digital information. By doing so they are ensuring their availability 
for future generations. This availability of health information remains 
the highest priority for the Library.
    Mr. Chairman, simply stated, NLM is a national treasure. I can tell 
you that without NLM our Nation's medical libraries would be unable to 
provide the quality information services that our Nation's healthcare 
providers, educators, researchers, and patients, have all come to 
expect.
    Recognizing the invaluable role that NLM plays in our healthcare 
delivery system, the Medical Library Association and the Association of 
Academic Health Sciences Libraries join with the Ad Hoc Group for 
Medical Research Funding in recommending a 5 percent increase for NLM 
and NIH overall in fiscal year 2007.

                         OUTREACH AND EDUCATION

    NLM's outreach programs are of particular interest to both MLA and 
AAHSL. These activities, designed to educate medical librarians, 
healthcare professionals and the general public about NLM's services, 
are an essential part of the Library's mission.
    The Library has taken a leadership role in promoting educational 
outreach aimed at public libraries, secondary schools, senior centers, 
and other consumer-based settings. NLM's emphasis on outreach to 
underserved populations assists the effort to reduce health disparities 
among large sections of the American public.
    NLM's ``Partners in Information Access'' program is designed to 
improve the access of local public health officials to health 
information. The establishment of additional programs across the 
country will go a long way towards ensuring that healthcare workers 
across America are familiar with NLM and the National Network of 
Libraries of Medicine. My own facility, the LSU Health Sciences Center 
in Shreveport, Louisiana, participates in this program. Through it, we 
are able to train public health workers on how to access health 
information online.
    We ask the Committee to encourage NLM to coordinate its outreach 
activities with the medical library community.
PubMed Central
    The medical library community also applauds NLM for its leadership 
in establishing PubMed Central, an online repository for life science 
articles. Introduced in 2000, PubMed Central was created by NLM's 
National Center for Biotechnology Information and evolved from an 
electronic archiving concept proposed by former NIH director Dr. Harold 
Varmus. The site houses 615,000 articles from 232 journals including 
the Proceedings of the National Academy of Sciences and Molecular 
Biology of the Cell.
    The medical library community believes that medical librarians 
should continue to play a key role in the further development of PubMed 
Central and we are pleased that medical librarians are members of the 
PubMed Central Advisory Committee. Because of the high level of 
expertise health information specialists have in the organization, 
collection, and dissemination of medical literature, we believe that 
our community can assist NLM with issues related to copyright, fair 
use, and information classification. We look forward to continuing our 
collaboration with the Library as this exciting project continues to 
evolve.

MEDLINEplus
    MEDLINEplus [http://www.nlm.nih.gov/medlineplus], a source of 
authoritative, full-text, health information resources from the NIH 
institutes and a variety of non-Federal sources, has grown tremendously 
in its coverage and its usage by the public. In January of 2006, 
MEDLINEplus had 8.6 million unique visitors research 67 million pages 
of health information (including information from over 1,250 
organizations). MEDLINEplus's features include illustrated interactive 
patient tutorials, a daily news feed from the public media on health-
related topics, and the NIH SeniorHealth website [http://
www.nihseniorhealth.gov], a collaborative project between NLM and the 
National Institute on Aging.
    ``Go Local'' is another new and exciting feature of MEDLINEplus. Go 
Local enables local and State agencies and others to participate by 
creating sites that connect the MEDLINEplus information seeker to local 
hospitals, pharmacies, doctors, and other health services. These 
agencies use the infrastructure created by NLM that makes this 
possible. Using Go Local, a search by topic on MEDLINEplus will lead 
the consumer to local services connected to that topic. Currently, 
there are fourteen localities participating in the Go Local service, 
and many more will be added in the near future. Through this service, 
NLM and MEDLINE are becoming increasingly valuable tools, not just for 
medical librarians and other health professionals but also for the 
health consumer.

Clinical Trials
    Mr. Chairman, I also want to address another frequently used 
service offered by NLM--its clinical trials database [http://
www.clinicaltrials.gov]. This listing of more than 27,000 Federal and 
privately funded trials for serious or life-threatening diseases was 
launched in February 2000 and currently logs more than 8 million page 
views per month and 25,000 visitors daily. The clinical trials database 
is a free and invaluable resource to patients and families interested 
in participating in cutting edge treatments for serious illnesses. The 
medical library community congratulates NLM for its leadership in 
creating ClinicalTrials.gov and looks forward to assisting the Library 
in advancing this important initiative.

                  EMERGENCY PREPAREDNESS AND RESPONSE

    Since the late 1960s, NLM has been actively involved in disaster 
response and management. As a Louisiana resident, I am pleased to 
report about NLM's relief work in response to Hurricane Katrina. NLM's 
Specialized Information Services (SIS) Division compiled a Hurricane 
Katrina Web page on toxic chemical and environmental health information 
resources. The Web page provided links to information on chemicals that 
may have been released and on environmental concerns following the wind 
and flood damage. The page also linked to the Wireless Information 
System for Emergency Responders (WISER). WISER provides information on 
400 of the most hazardous chemicals in NLM's Hazardous Substances 
Databank. It can be downloaded to a Personal Digital Assistant (PDA) or 
field laptop, providing first responders with ready access to basic 
emergency haz-mat information. At the request of the Environmental 
Protection Agency, NLM provided 15 PDAs loaded with WISER for the EPA 
National Decontamination Team to take with them when they were deployed 
to New Orleans. In addition, NLM's National Center for Biotechnology 
Information (NCBI) has provided assistance to the State of Louisiana in 
identifying Katrina victims with software tools that improve speed and 
accuracy of DNA identification.
    In addition to NLM's efforts on the national level, the South 
Central Regional office of the NLM-supported National Network of 
Libraries of Medicine provided specific help to the libraries in its 
territory that were impacted by Katrina. When librarians were dispersed 
to remote sites, the Regional office purchased laptops and printers for 
them to use. Arrangements were also made for Katrina-area libraries to 
have free interlibrary loans. The South Central Regional office also 
created a blog, ``Hurricane Katrina in the SCR,'' for librarians to 
post information regarding colleagues and building conditions. During 
the first few weeks after Katrina, when we were unsure of where our 
friends had relocated and how to contract them, the blog was an 
invaluable resource for helping us to find them and for suggesting ways 
to assist them.
    Mr. Chairman, we applaud the success of NLM's outreach initiatives, 
particularly those initiatives that reach out to medical libraries and 
healthcare consumers. We look forward to continuing our work with the 
Library in fiscal year 2007 on these important programs.

            HEALTH INFORMATION TECHNOLOGY AND BIOINFORMATICS

    Mr. Chairman, NLM played a major role in creating and nurturing the 
field of medical informatics. For nearly 35 years, the Library has 
supported informatics research and training and the application of 
advanced computing and communications to biomedical research and health 
care delivery. Many of today's informatics leaders are graduates of 
NLM-funded informatics research programs at universities across the 
country. Many of the country's exemplary electronic health record 
systems (e.g., in Indianapolis, Vanderbilt, and Pittsburgh) benefited 
from NLM grant support. The Library began supporting informatics 
research that addresses information management problems relevant to 
disaster management several years ago. It has also funded innovative 
telemedicine projects in various rural and urban medically underserved 
communities, as models for evaluating the impact of telemedicine on 
cost, quality, and care. A leader in supporting, licensing, developing, 
and disseminating standard clinical terminologies for free nationwide 
use, NLM works closely with the National Coordinator of Health 
Information technology to promote adoption of interoperable electronic 
records. Through its National Center for Biotechnology Information, NLM 
creates and provides access to GenBank, the genetic sequence 
repository, and a wide array of related scientific data and analysis 
tools. These publicly accessible resources are speeding the pace of 
scientific discovery around the world, including important insights 
into the evolution of the flu. Building on this success, NLM will 
develop databases to manage the vast amount of genetic, medical and 
environmental information that will emanate from new HHS and NIH 
efforts to analyze genetic variation in groups of patients with 
specific illnesses and to devise new ways of monitoring personal 
environmental exposures that interact with genetic variations and 
result in human diseases.
    We are pleased that NLM is supporting informatics research that 
addresses information management problems relevant to disaster 
management. Medical librarians and health information specialists have 
an important role to play in supporting these cutting edge technologies 
and in serving as important sources of health information for those 
displaced by disasters. We encourage Congress and NLM to continue their 
strong support of NLM's medical informatics and genomic science 
initiatives, at a point when the linking of clinical and genetic data 
holds increasing promise for enhancing the diagnosis and treatment of 
disease. MLA and AAHSL also support Health Information Technology 
initiatives in the Office of the National Coordinator for Health 
Information Technology (ONCHIT) and the Agency for Healthcare Research 
and Quality (AHRQ) that build upon initiatives housed at NLM.

                         NLM'S FACILITIES NEEDS

    Mr. Chairman, over the past two decades NLM has assumed several new 
responsibilities, particularly in the areas of biotechnology, health 
services research, high performance computing, and consumer health. As 
a result, the Library has had tremendous growth in its basic functions 
related to the acquisition, organization, and preservation of an ever-
expanding collection of biomedical literature. In order to complete 
these functions, NLM has had to expand its staff. NLM now houses 1,100 
staff in a facility built to accommodate only 650. This increase in the 
volume of biomedical information and in the number of personnel has led 
to a serious shortage of space at the Library.
    In order for NLM to continue its mission as the world's premier 
biomedical library, a new facility is urgently needed. The NLM Board of 
Regents has assigned the highest priority to supporting the acquisition 
of a new facility. The medical library community is pleased that 
Congress appropriated the necessary architectural and engineering funds 
for the design of the facility expansion at NLM in 2003. The community 
is also pleased that the American Center for Cures Act, (S. 2104) 
introduced in the Senate by Senator Lieberman, asks Congress to make a 
special effort to fund the expansion of NLM's facilities.
    We encourage the subcommittee to provide the resources necessary to 
construct a new facility and to support the Library's health 
information programs.

                        NIH PUBLIC ACCESS POLICY

    MLA and AAHSL support the goals of the NIH public access policy to 
create a central archive of NIH-funded research publications to advance 
science and enable NIH to better manage its research portfolio, and to 
provide electronic access to the public to NIH-funded research 
publications. We are concerned, however, that the current rate of 
participation in the voluntary policy is low--less than 4 percent. 
Information provided by the NIH Public Access Working Group indicates 
that the submission system is not difficult to use and that the 
majority of NIH-funded researchers appear to know about the policy. For 
these reasons, we concur with the conclusion of NLM's Board of Regents, 
that the NIH Policy cannot achieve its stated goals unless deposit of 
manuscripts becomes mandatory. We also support the Board of Regents' 
recommendation that NIH and NLM develop a careful plan for 
transitioning to a mandatory policy, and to provide clear guidance and 
a reasonable timetable to minimize burden on NIH-funded researchers and 
grantee institutions, and also to work with publishers to make it easy 
for them to submit articles on behalf of their NIH-supported authors.
    We encourage Congress to continue to ask for periodic evaluation of 
the plan as it is implemented in the coming months and years.
    Mr. Chairman, thank you again for the opportunity to present the 
views of the medical library community.
                                 ______
                                 
             Prepared Statement of The Mended Hearts, Inc.

    The Mended Hearts, Inc. (MHI) is a national nonprofit organization 
that offers the gift of hope to heart patients, their families and 
caregivers for more than 50 years. Mended Hearts has 21,000 members 
operating through 280 community-based chapters across the country, with 
two in Canada. Chapters partner with more than 450 hospitals and 
cardiac care facilities in providing patient-to-patient support 
services. I have been appointed by the group as their legal 
representative--a volunteer position. I am a heart disease survivor.
    About 30 years ago, I was diagnosed with a rare heart disease. 
After having chest discomfort and trouble breathing for more than two 
years, I was diagnosed with hypertrophic cardiomyopathy (HCM), a 
disease in which the heart enlarges. The heart muscle gradually 
thickens so much that heart cannot pump blood out effectively. The new 
heart muscle replacing the old heart tissue does not grow in the normal 
parallel pattern. Instead, it grows in a helter-skelter pattern. 
Studies show that 36 percent of young athletes who die suddenly have 
probable or definite hypertrophic cardiomyopathy, but it also affects 
men and women of all ages. HCM is one of the major causes of sudden 
death due to cardiac arrhythmias. There is no cure for HCM. However, 
medication may work, and there is surgery, which may alleviate the pain 
and discomfort, prolonging the patient's life. If surgery does not 
work, the alternative is a heart transplant, but donor organs are 
scarce. The doctor who made my diagnosis was trained at the National 
Institutes of Health's (NIH) National Heart, Lung, and Blood Institute 
(NHLBI).
    Initially, I received several medications, which enabled me to 
engage in most activities. However, some activities, such as walking up 
hills, caused shortness of breath and severe chest pains. But, 
generally I could function normally. After about 10 years, the 
discomfort was increasing, and it became apparent that I was in serious 
trouble. I could not walk sixty feet without having to stop to catch my 
breath. Sometimes the pain was so severe that I would almost double 
over in the middle of the street. My wife told me later that my face 
would become gray. And the perspiration would pour off my body. The 
quality of my life had deteriorated so drastically that I knew I needed 
some treatment.
    In 1988, I went to Georgetown Hospital for an angiogram--the gold 
standard for diagnosing heart problems. After the test, the 
cardiologist told me that he had bad news and worse news. The bad news 
was that I had a 95 percent blockage in my left anterior descending 
heart artery at the location known as the ``widow-makers spot.'' The 
worse news was that I had a major chance of suffering a severe heart 
attack, with less than a 5 percent chance of survival because of the 
HCM. At this point, my wife was quietly crying and I was perspiring 
profusely.
    Because Georgetown Hospital did not have the expertise to operate 
on my condition, they called the NIH to see if they would accept me as 
a patient. I was sent home pending notice from NIH. I knew that I had 
run out of alternatives. No matter what the results, I needed treatment 
and I needed it immediately.
    Subsequently, the NIH accepted me. After entering the NHLBI on 
February 9, my surgery occurred on February 11, 1998. No matter how 
trite the expression, it is very true--the day after surgery was the 
first day of the rest of my life. The surgery, a left ventricular 
myotomy and myectomy, was considered drastic. I was later told that the 
mortality rate was as high as 10 percent. That surgery is still done in 
only a few hospitals. It is considered the gold standard for the 
treatment of HCM. This Murrow Procedure, in honor of the innovator, was 
developed and improved at the NIH.
    Currently, there is a new experimental protocol in which the same 
effect is now being attempted by using alcohol to deaden the excessive 
heart tissue, instead of removing a piece of heart muscle from the 
heart's main pumping chamber, as was done in my case.
    Now, I am on medication for the rest of my life. My condition is 
progressive. More than 10 years ago, I was fitted with a pacemaker to 
ensure that my heart beats at the correct rate. I am 100 percent 
dependent upon my pacemaker. Without the pacemaker, there are times 
when my normal heart beat is so slow that I could die.
    I am eternally grateful to the physicians funded by the NHLBI, 
particularly to Dr. Charles MacIntosh and his staff, for the gift of 
life. Because of this marvelous doctor and research, I have lived 
eighteen years free of pain. I have seen two children graduate from 
college, witnessed the birth of three grandchildren, and shared these 
years with a wonderful wife. And, I have been able to work at my 
profession--attorney at law.
    I have had the gift of life restored to me. To express my gratitude 
for that gift, under the aegis of the Mended Hearts, Inc., I visit 
patients recovering from heart episodes at two hospitals: Washington 
Hospital Center and Washington Adventist Hospital. Last year MHI 
visited more than 228,000 patients and their families in our mission of 
support. We have also made 6,700 visits over the telephone to give 
succor to these patients.
    If this tale of woe is not enough, about 3.5 years ago, I suddenly 
began to have mini-strokes. I experienced five episodes within 13 
months. The last episode was just a year ago. Medication, including 
coumadin, now seems to have the incidents under control. Coumadin is a 
blood thinning drug that requires constant monitoring. At least once a 
month, I have to go to the hospital to get blood drawn from my arm to 
check the level of the drug.
    To advance the fight against heart disease and stroke, I 
respectfully ask for the fiscal year 2007 appropriations in the 
following amounts:
  --National Institutes of Health--$29.8 billion
  --National Heart, Lung, and Blood Institute--$3.1 billion
  --National Institute of Neurological Disorders and Stroke--$1.6 
        billion.
    My experience and my continued life is proof that the research 
supported by the NIH benefits not just the patients at the Clinical 
Center, but throughout the United States. The benefits go worldwide 
too.
    Cardiovascular diseases remain the major killer of men and women in 
the United States. Nearly 40 percent of people who die in the United 
States, die from cardiovascular diseases. From 1979 through 2003, 
cardiovascular operations and procedures increased 470 percent.
                                 ______
                                 
     Prepared Statement of the Montgomery County (Maryland) Stroke 
                              Association

    My name is Susan Emery. I am the President of the Montgomery County 
Stroke Association and I am a stroke survivor.
    Our Association conducts education and supports activities for 
stroke survivors, their family members, and caregivers. We serve people 
in the Maryland suburbs of Washington, D.C., and are fortunate to be in 
the same county as the National Institutes of Health. We have benefited 
on many occasions by the participation of NIH staff members in our 
membership meetings. They have been generous in sharing information 
with us about their research on stroke prevention and treatment.
    On December 26, 1965, at the age of nine, I was playing a new game 
with my brother and a few friends at the kitchen table. That is the 
last thing that I remember. I was unconscious for the next two days. My 
mother first learned, incorrectly, that I had spinal meningitis. I was 
transferred to another hospital where my mother was told that I had 
little chance of survival. Yet, I am here, more than 40 years later, 
and I have survived a stroke.
    People seldom associate strokes with children. These strokes are 
rare, but they do happen. There are about three cases of stroke per 
year in every 100,000 children aged 14 and under. One of the 
difficulties in dealing with strokes in children is getting the right 
diagnosis quickly. There are often delays in diagnosis of childhood 
stroke.
    I spent two weeks in the hospital and the subsequent 4 months in 
intensive physical therapy. My 10th birthday was spent in the hospital, 
and I have a picture in my photo album of myself with my mother and a 
new friend. My right eye is turned down, my mouth is turned down, but I 
am still smiling. During the 4 months in therapy at Holy Cross in 
Detroit, I learned the basics: how to walk, how to talk, and how to 
move the fingers on my right hand. My mother followed the doctor's 
instructions and sent me back to school very quickly, where classmates 
helped me button and unbutton my coat and carry my books, and teachers 
taped papers to the desk so I could learn to write again. I survived 
that 4 months, and would never wish to repeat it.
    I have been in therapy six times in my life. I need to tell you 
about the one time that was the most important to my family. I was 26 
years old and had just had my first child. I kept her safe, for I knew 
my limitations. I always used my left hand to support her. But when she 
was 6 months old, she got to be a little heavy, and twice, as I was 
putting her on the floor to change her diaper, my right hand slipped 
from under her buttocks. She fell only inches in both cases and did not 
even notice. But I noticed. I went in for 2 or 3 months of therapy 
close to Denver, Colorado, where I was living at the time. Here, for 
the first time, they helped my right hand and arm dexterity through 
occupational therapy. I also learned that I had aphasia--the inability 
to speak, write or understand spoken or written language because of 
brain injury--because I called things like fruit baskets ``unicorns'' 
instead of cornucopias. Instead of the word being the same, I picked a 
word that sounded the same. The therapists in Colorado worked with my 
mind and my body and I will forever be in their debt.
    Close to 15 years ago, I made a new life for myself in Maryland. 
Here, I have been an outpatient at the National Rehabilitation Hospital 
three times: once for my right foot, once for my Achilles tendon, and 
once for my right knee. I have seen numerous physiatrists, all of whom 
are excellent in their field. I have also seen my fair share of 
therapists. Since I have had therapy on and off for most of my life, I 
can honestly say that the first few times you go in to see a therapist, 
you will come out hurting more than when you went in. But in the long 
run, they help tremendously.
    On a work related note, I received a Bachelor of Science in 1978 
from Michigan State University in Computer Science and worked for 12 
years in the field. I started working in the telecommunications 
industry in 1990, and got a Master of Science from the University of 
Maryland, University College in Telecommunications Management. I now 
work for ITT Industries as a senior engineer on a contract supporting 
the Federal Aviation Administration's leased telecommunications 
activities, and have worked with the FAA for more than 10 years. I have 
done more than survive. I have become a productive member of society.
    Stroke research has changed my life. Without the research carried 
out 40 to 50 years ago, I would not have benefited from electric shock 
therapy that made me understand the muscles that move my fingers. 
Without research done 30 years ago, I may not have been able to 
understand how to exercise my hand for dexterity. Without research 
performed 10 years ago, the people around me would not understand that 
they need to get me to the hospital quickly if ever I have another 
stroke. Without current support, researchers may never understand how 
to stop strokes before they happen or how to make current stroke 
survivors live healthier lives.
    Stroke remains America's No. 3 killer and a major cause of 
permanent disability. An estimated 5.5 million Americans live with the 
consequences of stroke and about 1 in 4 is permanently disabled. Yet, 
stroke research continues to receive a mere 1 percent of the National 
Institutes of Health budget. I strongly urge you to significantly 
increase funding for the National Institutes of Health-supported stroke 
research, particularly for National Institute of Neurological Disorders 
and Stroke-supported stroke research. NIH stroke research is essential 
to prevent strokes from happening to children and adults in the first 
place, and to advance recovery and rehabilitation of those who survive 
this potentially devastating illness.
                                 ______
                                 
 Prepared Statement of the National Association of Children's Hospitals

    The National Association of Children's Hospitals (N.A.C.H.) is 
pleased to submit a statement for the record in support of the 
Children's Hospitals' Graduate Medical Education (CHGME) Program in the 
Health Resources and Services Administration. On behalf of the Nation's 
60 independent children's teaching hospitals, N.A.C.H. very much 
appreciates Chairman Specter's and the subcommittee's early and 
continuing commitment over many years to provide full, equitable GME 
funding for these hospitals. CHGME seeks to give them a level of 
Federal support for their teaching comparable to what all other 
teaching hospitals receive from Medicare.
    N.A.C.H. also appreciates the subcommittee's support for $300 
million for fiscal year 2006. Ultimately this was reduced to $297 
million, or less than level funding, due to a 1 percent across-the-
board cut in discretionary spending. This marked the third consecutive 
year CHGME was reduced due to across-the-board cuts since Congress 
first agreed to appropriate $305 million for fiscal year 2004.
    CHGME has been a success. Thanks to the program, Federal GME 
support to children's hospitals now approaches equity with Medicare GME 
support to adult hospitals. CHGME has made it possible for children's 
hospitals to strengthen their training of pediatric providers at a time 
of national shortages, without having to sacrifice clinical or research 
programs. It has enabled them to have strong financial positions, which 
are essential for their capital intensive missions.
    For fiscal year 2007, N.A.C.H. respectfully requests $330 million 
for CHGME funding. This amount would make up for erosion in funding 
over the last three years and address the cost of inflation, a critical 
factor in a program associated with both wage-related and medical 
teaching costs. Full funding would ensure the hospitals will have the 
resources necessary to train and educate the Nation's pediatric 
workforce. Given the challenges the subcommittee faces, we hope, at a 
minimum, CHGME can be maintained at level funding and not lose further 
ground in fiscal year 2007.

                   N.A.C.H. AND CHILDREN'S HOSPITALS

    N.A.C.H. represents more than 130 children's hospitals. They 
include independent acute care children's hospitals, children's 
hospitals within larger medical centers, and independent children's 
specialty and rehabilitation hospitals. N.A.C.H. helps its members 
fulfill their missions of clinical care, education, research and 
advocacy for the health and well-being of all children.
    Children's hospitals are regional and national centers of 
excellence for children with serious and complex conditions. They are 
centers of biomedical and health services research for children and 
serve as the major training centers for pediatric researchers, as well 
as a significant number of children's doctors. They also are major 
safety net providers, serving a disproportionate share of children from 
low-income families, and they are advocates for the public health of 
all children.
    Although they represent less than 5 percent of all hospitals in the 
United States, the three major types of children's hospitals provide 41 
percent of the inpatient care for all children, 42 percent of the 
inpatient care for children assisted by Medicaid, and the vast majority 
of hospital care for children with serious conditions such as cancer or 
heart defects.

                     BACKGROUND: THE NEED FOR CHGME

    While they account for less than 1 percent of all hospitals, 
independent children's teaching hospitals train nearly 30 percent of 
all pediatricians, half of all pediatric specialists and the majority 
of pediatric researchers. These hospitals provide required pediatric 
rotations for many other residents and train more than 4,800 resident 
full time equivalents annually. Shortages of pediatric specialists 
across the Nation only heighten the importance of these hospitals.
    Prior to initial funding of the CHGME program for fiscal year 2000, 
the eligible hospitals faced enormous challenges in maintaining their 
training programs. The increasingly price competitive medical 
marketplace was resulting in more and more payers failing to cover the 
costs of care, including the costs associated with teaching.
    Because they see few--if any--Medicare patients, independent 
children's hospitals were essentially left out of Medicare GME funding, 
which had become the one major source of GME financing for other 
teaching hospitals. Independent children's hospitals received only 1/
200th (or less than 0.5 percent) of the Federal GME support that all 
other teaching hospitals received under Medicare. This lack of GME 
financing, combined with financial challenges stemming from other 
missions, threatened the hospitals' teaching programs, as well as other 
services.
    Safety Net Institutions.--Independent children's hospitals are a 
significant part of the health care safety net for low-income children. 
This critical mission puts the hospitals at financial risk. In fiscal 
year 2005, children assisted by Medicaid were, on average, more than 50 
percent of all discharges from independent acute care children's 
hospitals. Yet, Medicaid, on average, paid only 79 percent of costs. 
Without disproportionate share hospital payments, Medicaid would cover, 
on average, only 73 percent of costs. Medicaid payment shortfalls for 
outpatient and physician care are even greater.
    Independent children's hospitals also are essential providers of 
care for seriously and chronically ill children. The hospitals devote 
more than 75 percent of their care to children with one or more chronic 
or congenital conditions. They provide the majority of inpatient care 
to children with many serious illnesses--from children with cancer or 
cerebral palsy, for example, to children needing heart surgery or organ 
transplants. In some regions, these children's hospitals are the only 
source of pediatric specialty care. The services they must maintain to 
assure access to high quality, complex care for all children are often 
inadequately reimbursed.
    Many of the independent children's hospitals also are a vital part 
of the emergency and critical care services in their regions. They are 
part of the emergency response system that must be in place for public 
health emergencies. Expenses associated with preparedness add to their 
continuing costs in meeting children's needs.
    Mounting Financial Pressures.--The CHGME program, and its 
relatively quick progress to full funding in fiscal year 2002, came at 
a critical time. In 1997, when Congress first considered establishing 
CHGME, a growing number of independent children's hospitals had 
financial losses; many more faced mounting financial pressures. More 
than 10 percent had negative total margins, more than 20 percent had 
negative operating margins and nearly 60 percent had negative patient 
care margins. Some of the Nation's most prominent children's hospitals 
were at financial risk. Thanks to CHGME, these hospitals have been able 
to maintain and strengthen their training programs.
    Pediatric Workforce Development.--The important role CHGME plays in 
the continual development of our Nation's pediatric workforce is not 
lost on the larger pediatric community, including the American Academy 
of Pediatrics and Association of Medical School Pediatric Department 
Chairs. They support CHGME and recognize it is critical not only to the 
future of the individual hospitals but also to provision of children's 
health care and advancements in pediatric medicine overall.

                         CONGRESSIONAL RESPONSE

    In the absence of movement to broader GME financing reform, 
Congress authorized the CHGME discretionary grant program in 1999 to 
address the existing inequity in GME financing for the independent 
children's hospitals. The legislation was reauthorized in 2000, through 
fiscal year 2005, and provided $285 million for fiscal year 2001 and 
``such sums as necessary'' in the years beyond. Congress passed the 
initial authorization as part of the ``Healthcare Research and Quality 
Act of 1999'' and the reauthorization as part of the ``Children's 
Health Act of 2000.''
    With this subcommittee's support, Congress appropriated initial 
funding for CHGME in fiscal year 2000, before the enactment of the 
program's authorization. Following enactment, Congress moved 
substantially toward full funding for the program in fiscal year 2001 
and completed that goal, providing $285 million in fiscal year 2002. 
Subsequently, Congress appropriated $290 million in fiscal year 2003, 
$303 million in fiscal year 2004, $301 million in fiscal year 2005, and 
$297 million in fiscal year 2006. (In the last three years, the funding 
levels are net of across-the-board cuts in discretionary funding.)
    Health Resources and Services Administration (HRSA).--CHGME funding 
is distributed through HRSA to 60 children's hospitals according to a 
formula based on the number and type of full-time equivalent residents 
trained, in accordance with Medicare rules, as well as the complexity 
of care and intensity of teaching the hospitals provide. Consistent 
with the authorizing legislation, HRSA allocates the annual 
appropriation in biweekly periodic payments to eligible independent 
children's hospitals.
    ``Adequate'' Rating from Administration.--The Office of Management 
and Budget gave CHGME an ``adequate'' rating in 2003, using its Program 
Assessment Rating Tool (PART). The PART review found CHGME has a 
``clear purpose,'' is ``effectively targeted,'' has specific ``long-
term performance measures'' that focus on outcomes, and holds grantees 
``accountable for cost, schedule, and performance results.''

                             CHGME SUCCESS

    The annual CHGME appropriation represents an extraordinary 
achievement for the future of children's health and the Nation's 
independent children's teaching hospitals:
  --Thanks to CHGME, the Federal Government has made substantial 
        progress in providing more equitable Federal GME support to 
        independent children's hospitals. The hospitals now receive 
        about 80 percent of the level of Federal GME support that 
        Medicare provides to other teaching hospitals. This is still 
        not true equity, but it is dramatic improvement from the 0.5 
        percent of 1998.
  --As a result of CHGME, children's hospitals have been able to make a 
        substantial improvement in their contribution to the Nation's 
        pediatric workforce, without having to sacrifice their clinical 
        or research missions. From 2000 to 2004, without the CHGME 
        hospitals being able to increase the numbers of general 
        pediatric residents they trained, the Nation would have 
        experienced a net decline in number of new pediatricians. 
        During the same time, CHGME hospitals accounted for more than 
        80 percent of new pediatric subspecialty programs and more than 
        60 percent of the new pediatric subspecialists trained.
  --CHGME has allowed children's hospitals to achieve strong financial 
        positions. According to Moody's, before 2000, children's 
        hospitals tended to have negative to break-even financial 
        margins. Since then, their margins have improved. CHGME is a 
        major reason.

                        FISCAL YEAR 2007 REQUEST

    N.A.C.H. respectfully requests that the subcommittee provide 
equitable GME funding for independent children's hospitals by providing 
$330 million in fiscal year 2007. Such funding is particularly 
important for a program that has wage-related and medical teaching 
costs and has experienced three years of successive reductions due to 
across-the-board cuts. Given the challenges the subcommittee faces, we 
hope CHGME at least can be maintained at level funding and not lose 
further ground in fiscal year 2007.
    Adequate, equitable funding for CHGME is an ongoing need. 
Children's hospitals continue to train new pediatric residents and 
researchers every year. Children's hospitals have appreciated very much 
the support they have received, including the attainment of the 
program's authorized full funding level in fiscal year 2002 and 
continuation of full funding with an inflation adjustment in fiscal 
year 2003 and fiscal year 2004. Congress can regain this progress by 
providing $330 million in fiscal year 2007.
    Continuing equitable CHGME funding is more important than ever in 
light of budget shortfalls in many States and pressures for significant 
reductions in State Medicaid spending. Because children's hospitals 
devote such a substantial portion of their care to children from low-
income families, they are especially affected by cutbacks in State 
Medicaid programs.
    Support for a strong investment in GME at independent children's 
teaching hospitals is also consistent with the repeated concern the 
subcommittee has expressed for the health and well-being of our 
Nation's children, through education, health and social welfare 
programs. And it is consistent with the subcommittee's repeated 
emphasis on the importance of enhanced investment in the National 
Institutes of Health (NIH) and in NIH support for pediatric research in 
particular, for which N.A.C.H. is grateful.
    CHGME funding is essential to the ability of the independent 
children's hospitals to sustain their GME programs. At the same time, 
the program enables them to do so without sacrificing support for other 
critically important services that also rely on hospital subsidy, such 
as specialty and critical care services, child abuse prevention and 
treatment services, poison control centers, services to low-income 
children with inadequate or no coverage, mental health and dental 
services, and community advocacy, such as immunization and motor 
vehicle safety campaigns.

                               CONCLUSION

    In conclusion, CHGME is a success. The program is an invaluable 
investment in children's health. The future of the pediatric workforce 
and children's access to quality pediatric care, including specialty 
and critical care services, depend upon CHGME. N.A.C.H. and the 
independent children's teaching hospitals are deeply grateful to the 
Chairman and subcommittee for your continuing leadership on behalf of 
children's hospitals.
                                 ______
                                 
   Prepared Statement of the National Association of County and City 
                            Health Officials

                                SUMMARY

    The proposed cuts in the fiscal year 2007 budget for the Centers 
for Disease Control and Prevention (CDC) continue a pattern of reduced 
funding for public health that gravely worries the Nation's local 
health departments. The National Association of County and City Health 
Officials (NACCHO) is particularly concerned about two funding streams 
that directly benefit local health departments, although the range of 
reductions in CDC's budget threaten overall work in prevention that we 
fully support.
    Last year, funding for State and local bioterrorism and public 
health preparedness was cut by $95 million, more than 10 percent. 
NACCHO understands that this will result in a cut of about 12 percent 
in the cooperative agreement funding that goes directly to States and 
four large cities. The Preventive Health and Health Services block 
grant program, the other major source of CDC funding to local health 
departments, was cut by $19 million, which was 16 percent below the 
actual fiscal year 2005 funding made available to grantees, and almost 
25 percent below the fiscal year 2005 appropriated amount. The fiscal 
year 2007 budget freezes preparedness funds and eliminates the block 
grant. Taken together, these reductions will seriously compromise the 
ability of the Nation's governmental public health system to fulfill 
its mission of protecting and promoting health.
    Local public health departments work every day on the front lines 
to combat threats to the health of their communities. They can ill 
afford substantial reductions in Federal support for their roles as 
first responders to bioterrorism and other public health emergencies. 
Moreover, local public health departments receive about 40 percent of 
the Preventive Health and Health Services block grant (PHHS) funds. 
These enable them to carry out programs ranging from prevention of 
heart attack and stroke to combating West Nile virus. In States where 
local health departments rely exclusively on these funds to run 
prevention programs activities to reduce the burdens of preventable 
disease will cease.
    At a time when the Nation is engaged in urgent work to protect the 
homeland from terrorists and natural disasters, as well as to stop an 
epidemic of obesity, it is profoundly counterproductive and irrational 
to reduce support for local programs that are the first line of defense 
against the greatest threats to the health of communities. NACCHO urges 
Congress to continue funding these two CDC programs at levels no less 
than those in fiscal year 2005. Those levels are $927 million for State 
and local bioterrorism preparedness and $131 million for the Preventive 
Health and Health Services block grant.
strengthening the governmental public health system to improve homeland 

                  SECURITY REQUIRES SUSTAINED FUNDING

    Congress recognized in 1997 an unmet need to strengthen the 
Nation's capacity to respond to an act of bioterrorism and initiated 
funding for bioterrorism preparedness in fiscal year 1999. The initial 
funding of about $121 million (which included $51 million solely for 
stockpiling medications) assisted CDC and State and local health 
departments to begin examining what plans and resources were necessary. 
After 9/11 and the anthrax outbreaks in the fall of 2001, Congress 
increased bioterrorism funding markedly and included $940 million for 
building State and local capacities, of which about $870 million was 
actually made available to States and localities. The Department of 
Health and Human Services got these funds out to States and three large 
cities via cooperative agreements very promptly, far ahead of other 
homeland security funds for States and localities.
    Substantial bioterrorism preparedness funds for improving all 
aspects of preparedness have actually been in the hands of State health 
departments since August 2002. Local public health departments, many of 
which have been funded for less time, are justifiably proud of the 
progress they have made.
    Extensive response plans, developed in collaboration with local 
emergency management systems, have been made. Numerous ``tabletop'' and 
real field exercises have tested local capabilities. Mass vaccination 
clinics have taken place, some as part of a real response to flu 
vaccine shortages. Communications systems and equipment that enable 
rapid electronic information exchange among and by health departments 
to their communities are operational. Improved systems for disease 
detection are in place.
    Local health departments have engaged hospitals, physicians, and 
others in the private sector to develop further their roles in 
responding to a serious disease outbreak. Complex logistical 
arrangements needed to distribute medications or equipment from the 
Strategic National Stockpile to stricken populations have been 
developed.
    In some locations, genuine public health crises, such as flu 
vaccine shortages or an influx of evacuees from the Gulf Coast in the 
wake of Katrina, have demanded a response. In the act of responding, 
local health departments and their community partners continually 
identify new challenges and new ways to improve their ability to 
respond. Improving a locality's ability to detect a disease outbreak 
promptly and to contain it swiftly is a continuous process of training, 
exercising, and improving plans based on these exercises. Interrupting 
that process through funding cuts would take the Nation's public health 
preparedness backwards, not forward. New capacities that are now in 
place cannot be sustained without sustained funding.
    Congress appropriated supplemental funding of $350 million to 
assist States and localities in pandemic influenza preparedness. These 
funds are greatly appreciated, but they cannot fill the gaps left by 
other funding cuts. The narrow range of activities permitted by CDC's 
grant guidance for the first $100 million now available to States adds 
to the tasks required of health departments, but the sums available are 
insufficient to enable hiring new personnel to carry them out. 
Moreover, the production and exercise of plans for any biological 
event, including pandemic influenza, is never a one-time activity. 
Meaningful progress requires a continuous process of training, 
exercising and improvement that involves not merely public health 
responders, but all community partners that are part of any response, 
including law enforcement, emergency management, hospitals, schools, 
and a host of private sector partners.
    The Nation has a long way to go before every citizen enjoys the 
best possible protection by disease detection and response systems that 
work as quickly as humanly possible. Providing this protection is the 
job of the governmental public health system. No other entity can do 
it. NACCHO urges Congress to reverse the cuts in funds available to 
local public health departments, the Nation's first responders to 
bioterrorism.

           THE PHHS BLOCK GRANT IS A LINCHPIN FOR PREVENTION

    Local public health departments receive approximately 40 percent of 
the Preventive Health and Health Services block grants nationally. The 
proportion varies among States from less than 5 percent to almost 100 
percent. The block grant funds fulfill three critical purposes. First, 
they enable States to address critical unmet public health needs. The 
coexistence of other Federal categorical public health funds does not 
mean that sufficient funds are available to address all public health 
needs. They are not. Improving chronic disease prevention through 
screening programs and programs that promote healthy nutrition and 
physical activity are prime examples of activities to which many 
jurisdictions devote PHHS funds. Forty percent of fiscal year 2004 
block grant funds were spent on chronic disease prevention, including 
prevention of obesity, stroke, heart disease, cancer, diabetes, and 
dental caries.
    Second, PHHS funds provide some flexible funding to address 
unexpected problems or problems unique to a particular geographic area. 
West Nile virus, a fully preventable disease spread to humans by 
mosquitoes, is one good example. Third, PHHS fund provide leverage for 
more funds and in-kind resources from non-Federal sources. In one 
southern State, local health departments collectively used $2.77 
million in block grant funds to establish new prevention programs and 
generate $5 million in additional resources for those programs.
    States are fully accountable to the Department of Health and Human 
Services for their expenditures of block grant funds and must report 
how much money they spend by specific program area. In those States 
where local health departments receive a significant amount of PHHS 
funds from the State, local prevention efforts will diminish. Local and 
State health departments are key leaders and providers of population-
based prevention programs. They work to keep prevention in the public 
eye and build on programs that have been proven effective in reducing 
disease and preventing premature death. As health care costs escalate, 
reducing the Nation's commitment to prevention by eliminating the PHHS 
block grant, weakening state and local public health departments, is 
unwise and uneconomic.
    The National Association of County and City Health Officials 
(NACCHO) is the organization representing the almost 3,000 local public 
health departments in the United States.
                                 ______
                                 
   Prepared Statement of the National Coalition for Osteoporosis and 
                         Related Bone Diseases

    The National Coalition for Osteoporosis and Related Bone Diseases 
(Bone Coalition) is pleased to comment on the fiscal year 2007 budget 
for the National Institutes of Health (NIH) as it relates to bone 
research. The Federal investment made to date goes a long way towards 
improving the bone health of our citizens and we are appreciative of 
the Committee's leadership over the years. We also congratulate the 
Committee for recognizing the complexities of the issues in the bone 
field and including language in the fiscal year 2006 committee report 
directing the NIH to establish a ``Bone Health Research Blueprint.''
    The recent Surgeon General's Report on bone health and osteoporosis 
illustrates the large burden that bone disease places on our Nation and 
its citizens. The Bone Coalition is committed to reducing the impact of 
bone diseases through expanded basic, clinical, epidemiological and 
behavioral research and through education leading to improvement in 
patient care. The Coalition participants are leading national bone 
disease organizations--the American Society for Bone and Mineral 
Research, the National Osteoporosis Foundation, the Osteogenesis 
Imperfecta Foundation, and the Paget Foundation for Paget's Disease of 
Bone.
    Bone diseases such as osteoporosis, osteogenesis imperfecta, and 
Paget's disease of bone pose a significant public health and economic 
challenge.
  --Osteoporosis.--Is a disease characterized by low bone mass and 
        structural deterioration of bone tissue, leading to bone 
        fragility and an increased susceptibility to fractures of the 
        hip, spine, and wrist. It remains widespread across all 
        populations. This is due to several factors, such as the aging 
        of our population, the prevalence of secondary osteoporosis, 
        and low bone mass that is common in immobilized patients and 
        nursing home populations. Secondary osteoporosis, resulting 
        from numerous chronic medical conditions and the long-term use 
        of many medications, causes osteoporosis and related fractures 
        in children, adolescents, and young adults. Over 10 million 
        Americans have osteoporosis, the majority of whom (80 percent) 
        are women, and 34 million more have low bone mass, placing them 
        at increased risk for this disease. One out of every two women 
        and one in four men over 50 will have an osteoporosis-related 
        fracture in her/his lifetime. Osteoporosis is responsible for 
        more than 1.5 million fractures annually, and mortality and 
        morbidity following both spine and hip fractures is high when 
        compared to unaffected peers. The estimated national direct 
        expenditures for osteoporosis and related fractures total $18 
        billion (2002 dollars) each year.
  --Paget's Disease of Bone.--The second most prevalent bone disease 
        after osteoporosis--is a chronic skeletal disorder that may 
        result in enlarged or deformed bones in one or more regions of 
        the skeleton. Excessive bone breakdown and formation can result 
        in bone that is dense, but fragile. Complications may include 
        arthritis, fractures, bowing of limbs, neurological 
        complications, and hearing loss if the disease affects the 
        skull. Prevalence in the population ranges from 1.5 percent to 
        8 percent depending on the person's age and geographical 
        location. Paget's disease primarily affects people over 50.
  --Osteogenesis Imperfecta (OI).--Causes brittle bones that break 
        easily due to a problem with collagen production. For example, 
        a cough or sneeze can break a rib, rolling over can break a 
        leg. Besides fragile bones, people with OI may have hearing 
        loss, brittle teeth, short stature, skeletal deformities, and 
        respiratory difficulties. OI affects between 20,000 to 50,000 
        Americans. In severe cases fractures occur before and during 
        birth. In some cases, an affected child can suffer repeated 
        fractures before a diagnosis can be made. Undiagnosed OI may 
        result in accusations of child abuse.
  --Cancer Metastasis to Bone.--A frequent complication of cancer is 
        its spread to bone (bone metastasis) that occurs in up to 80 
        percent of patients with myeloma, 70 percent of patients with 
        either breast or prostate cancer, and 15 to 30 percent of 
        patients with lung, colon, stomach, bladder, uterine, rectal, 
        and renal cancer causing severe bone pain and pathologic 
        fractures. Only 20 percent of breast cancer patients and 5 
        percent of lung cancer patients survive more than 5 years after 
        discovery of bone metastasis.
    According to Dr. Zerhouni, ``. . . we are facing great challenges 
in [the area of bone research]: an aging population at increasing risk 
for bone problems; the attendant costs of bone disease, both in human 
and financial terms; and the need for more physician-scientists to 
continue the important work of discovery, treatment, and prevention.''
    Bone diseases take many forms and cause complications such as 
fractures, chronic pain, hearing loss, brittle teeth, respiratory 
difficulties, bone metastasis from cancer, and neurological 
complications that reduce people's quality of life and cost society 
billions of dollars. These challenges in bone research cut across 
numerous institutes/centers at the National Institutes of Health. They 
traverse the focus of individual Institutes and require an 
interdisciplinary scientific approach.
    At the NIH, as part of the Roadmap Initiative, a series of awards 
have been established that will make it easier for scientists to 
conduct interdisciplinary research and an Office of Portfolio Analysis 
and Strategic Initiatives has been established to coordinate trans-NIH 
initiatives. The health problems in the bone field require new 
approaches. We believe these new efforts will remove obstacles to 
scientific progress and better coordinate the discoveries of tomorrow.
    NIH-supported research in bone health has led to important 
discoveries and has generated new treatments and pharmaceutical 
products. It must be recognized that new discoveries and breakthroughs 
could come from any areas of biomedical research and could result in 
new treatments and eventually a cure for bone diseases.
  --Research has taught us that those with low bone mass are at risk 
        for osteoporosis. These individuals can then address their risk 
        with exercise, diet, other behavioral and lifestyle changes, 
        and medication.
  --Research has decreased fracture risk and extended the lifespan to 
        normal for people with OI.
  --Research has identified drugs which improve the quality of life of 
        people whose cancer has metastasized to bone.
  --Research has led us to develop simple, non-invasive and accurate 
        tests that can determine bone mass and help predict fracture 
        risk.
  --Research has identified and demonstrated a variety of drugs that 
        can reduce bone loss and fractures, and even build new bone. 
        Thirty years ago, there was no treatment for osteoporosis.
  --Research has helped us to understand the need for weight-bearing 
        exercise to build and maintain bone in order to reduce fracture 
        risk. Falling can be reduced by strength-building exercise that 
        increases balance and flexibility.
    But much remains to be done. A concentrated effort is required to 
address bone health. The Coalition is particularly interested in NIH 
support for the following in fiscal year 2007:
  --Research is needed into the pathophysiology of bone loss in varied 
        populations and in targeted therapies to improve bone density 
        and bone quality according to the etiology of osteoporosis. In 
        addition research is needed to identify patients at risk for 
        fracture who do not meet current criteria for osteoporosis, as 
        well as to study the effects of available and developing 
        osteoporosis treatments on the reduction of fracture risk in 
        these patients.
  --NCI, NIAMS, NIA and NIDDK must support research to determine 
        mechanisms and to identify, block and treat cancer metastasis 
        to bone. Furthermore, NCI must expand research on osteosarcoma 
        to improve survival and quality of life and to prevent 
        metastatic osteosarcoma in children and teenagers who develop 
        this cancer.
  --Although bone mineral density has been a useful predictor of 
        susceptibility to fracture, other properties of the skeleton 
        contribute to bone strength, including mechanical loading 
        (exercise) and mechanisms of biomineralization. However, at 
        this time little is understood as to how these properties 
        assist in the maintenance of bone strength. Support of this 
        research by NIA, NIAMS, NIBIB, NICHD, NIDDK, and NHLB will 
        achieve identification of these parameters and lead to better 
        prediction for prevention and treatment of bone diseases such 
        as osteoporosis, osteogenesis imperfecta, bone loss due to 
        kidney disease, and heart attacks due to hardening of the 
        arteries.
  --Thousands of children and adolescents nationwide suffer from 
        musculoskeletal disorders and malformations, many of which have 
        devastating effects on mortality and disability. NIAMS and 
        NICHD must support research focusing on mechanisms of 
        preventing fractures and improving bone quality and correcting 
        malformations, on innovations in surgical and non-surgical 
        approaches to treatment, and on physical factors that affect 
        growth.
  --Diseases such as osteogenesis imperfecta, fibrous dysplasia, 
        osteopetrosis, and Paget's disease are caused by poorly 
        understood genetic mutations. In Paget's disease, underlying 
        genetic defects can also be exacerbated by environmental 
        factors. NIAMS, NICHD, NIDCR, and NIDDK must support research 
        on genetic defects that cause bone disease.
  --57.9 million Americans are injured annually, more than one-half 
        incur injuries to the musculoskeletal system. In the United 
        States, back pain is a major reason listed for lost time from 
        work and sports injuries are increasing in ``weekend warriors'' 
        of both sexes. NIAMS, NIA, and NCCAM must study ways to better 
        understand the epidemiology of back pain, improve on existing 
        diagnostic techniques for back pain, as well as to develop new 
        ones. NIAMS, NIBIB, NIDDK and NIA must expand research to 
        improve diagnostic and therapeutic approaches to significantly 
        lower the impact of musculoskeletal traumas, and on research on 
        accelerated fracture healing, the use of biochemical or 
        physical bone stimulation, and bone substitutes such as 
        hydroxyapatite and allogeneic tissues.
    To move this research forward, Congress must provide sufficient 
funding to the National Institutes of Health to sustain the robust 
research atmosphere in which to address the challenges in the bone 
field. The revolution in genetics/genomics that has provided new tools 
and databases and the powerful new imaging devices must not be 
hindered. Research must continue to be accelerated in order to improve 
the health of the Nation.

                            RECOMMENDATIONS

    The National Coalition for Osteoporosis and Related Bone Diseases 
supports a 5 percent increase for the National Institutes of Health 
(above the fiscal year 2006 funding level), as recommended by the Ad 
Hoc Group for Medical Research, along with the National Health Council, 
the Campaign for Medical Research and Research!America.
    The recent Surgeon General's Report on bone health and osteoporosis 
illustrates the large burden that bone disease places on our Nation and 
its citizens. We support the establishment of a ``Bone Health Research 
Blueprint'' to address the need for interdisciplinary approaches to 
research and increased coordination of research efforts. We believe 
that more deliberately integrated activities in the areas of bone 
research at NIH and at extramural institutions will move our science 
more rapidly to discoveries that will preserve health and cure disease.
    Thank you for the opportunity to submit our statement regarding the 
fiscal year 2007 budget for the National Institutes of Health.
                                 ______
                                 
     Prepared Statement of the National Community Action Foundation

 REQUESTING LEVEL FUNDING FOR THE FISCAL YEAR 2007 COMMUNITY SERVICES 
              BLOCK GRANT, LIHEAP, AND HEAD START PROGRAMS

    I first want to convey the deep gratitude of every one of the 
Nation's 1,100 Community Action Agencies to Chairman Specter and 
Senator Harkin for their leadership in amending the Budget Resolution 
to preserve critical domestic programs.
    We are requesting that the subcommittee go forward with the 
Chairman's original intent of restoring all the programs that are 
reduced or eliminated by the President's 2007 budget request. This 
remains the correct priority in light of the extreme and, in our 
opinion, destructive constraints placed on all domestic discretionary 
spending. Of course, this one-year policy is no substitute for a 
renaissance of investment in healthy children, in the workforce of 
tomorrow, in the health of the public, and in the science that will 
sharpen America's competitive edge in 21st century trade.
    The following facts on the threat to Community Action's top 
priority programs--CSBG, Head Start and LIHEAP--will indicate how 
important to Community Action are the strategic decisions facing the 
subcommittee.
    The Community Service Block Grant (CSBG) is the funding that 
underwrites the unique assignment of CAAs: their responsibility to 
convene local leadership to make a plan with the low-income community 
that implements a mix of strategies to bring in new investment and 
social resources. CAAs sustain their communities' long-term commitment 
to expand access to new opportunities for their residents who need to 
become more productive and more self-sufficient. Fifty two Senators 
have written the subcommittee opposing the President's request.
    If CSBG is reduced or eliminated, important community institutions 
will be lost.
    In Pennsylvania:
  --Mercer County's Weed & Seed Community Revitalization effort, Micro-
        enterprise Development project that makes small business owners 
        out of former low-income workers and the Elm Street 
        revitalization project will cease.
  --That CAA would also end its sponsorship of three HUD projects (22 
        units) which are home to special needs populations; those 
        precious subsidized apartments will be rented out at ``fair 
        market value''.
  --In Venango and Crawford Counties services in the areas of youth 
        development, supportive housing services, and education would 
        be eliminated.
  --The Pittsburgh and Philadelphia CAAs would close, their services 
        absorbed into a variety of city government departments;
  --Outreach Centers across the State's rural areas would be shuttered.
    In Iowa, eliminating CSBG means:
  --91 outreach centers will close; these are the local offices where 
        programs operate, meet both those in need and offer the entire 
        community space for groups working on local betterment.
  --The same will befall dozens of food pantries supported by CAA 
        warehouses, storage and trucking in which Churches and other 
        volunteers participate.
  --633 homeless children in the Hawkeye area will have no preventive 
        screenings.
  --117 elderly individuals around Davenport will lose the chore 
        assistance services that have allowed them to remain in their 
        own homes.
  --In Des Moines the vast community gardens project will shut down and 
        three thrift stores the low-income community depends on will 
        close;
  --In Dubuque, the financial literacy education initiative will end.
    Even more ominous is the prospect that no future partnerships or 
new initiatives will be imagined and developed; in the past two years, 
CAAs across America have used their CSBG as the flexible ``venture 
capital'' that supports the efforts to develop partnerships, plan 
projects, and raise and package resources. Among the results that are 
permanently changing their communities are: numerous dental clinics, 
housing developments, job creation projects, energy services for all 
the community, and clean water supply facilities. CAAs have developed 
and improved communities with permanent investments such as these for 
four decades. Ending CSBG dams up the stream of emerging community 
infrastructure and services and cuts the ties that keep public-private 
local partnerships that coordinate their resources to change local 
conditions.
    CAAs serve one-third of the Head Start and Early Head Start 
participants.--The requirements for program quality have increased as 
science's knowledge of early childhood; the expectations for the depth 
and number of services and professional care are high. The staff cannot 
receive cost of living increases, much less the salaries their skills 
merit, without reductions in enrollment. The threat to children's hard 
won gains grows with each reduction. CAAs will be forced to deny places 
to 6,300 of the 19,000 qualified children that are anticipated to go 
unserved under a freeze in fiscal year 2007 Head Start funding.
    Finally, LIHEAP must be maintained at least at its current level.--
This year the Congress, led by the Senate with many Members of this 
subcommittee in the vanguard, at last got LIHEAP right.
    The $3.1 billion the Chairman and Ranking Member supported for the 
fiscal year 2006 program is desperately needed. We have surveyed our 
member agencies who, collectively, deliver more than a third of the 
LIHEAP program nationwide. They are confident that, in spite of the 
late start, all the new resources will be distributed either to 
consumers who where shut out of the first round of assistance or to 
participants whose initial benefits were too low to buy them more than 
a few short weeks worth of fuel.
    The ``Sunbelt'' programs that nearly doubled their initial grants 
when the supplemental funds were appropriated are making especially 
speedy and good use of the resources they have long needed. It is 
surprising, but true, that low-income consumers in Florida, the Gulf 
Coast States and the Southwest spend nearly as high a percentage of 
their income on energy bills as do Midwesterners. That is just one 
reason it is essential that most of 2007 LIHEAP funds be distributed 
according to the statutory formula, as is the case with the fiscal year 
2006 funding.
    Further, the only good reason for a large contingency fund is to 
correct for the extreme effects of the formula factors that deny the 
cold States a fair share of appropriations above $2 billion. A 
presidential contingency reserve for crises should only be an amount 
sufficient to meet an unpredicted need--such as a major natural 
disaster--during the period of awaiting major supplemental emergency 
legislation. Winter and Summer do not qualify as unexpected events; 
neither do high prices. The level and timing of program funding cannot 
be abandoned to Presidential politics.
    The Department of Energy predicted on April 11 that 2007 home fuel 
prices will essentially remain at this year's record levels.(EIA Short-
term Energy Outlook) Last year, its April prediction for prices in 
normal 2005-06 winter weather turned out to be about 10 percent under 
the prices we faced in this unusually mild winter. Next winter, the 
energy markets will afford no relief for struggling LIHEAP-eligible 
customers. LIHEAP must, at least, be sustained.
    Community Action will be beside and behind this subcommittee's 
fight for a fair budget for America's priorities in every way possible 
in every part of this Nation. Thank you for considering these views and 
for your strategic and moral leadership.
                                 ______
                                 
          Prepared Statement of the National AHEC Organization

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS:

    1. Increase funding for the Health Professions and Nursing 
Education programs under Title VII and Title VIII of the Public Health 
Service Act to at least $550 million for fiscal year 2007.
    2. Restore funding for area Health Education Centers (AHECs) to the 
fiscal year 2003 level of $33.141 million.
    3. Restore funding for the Health Education Training Centers to the 
fiscal year 2003 level of $4.371 million.
    Mr. Chairman, and members of the subcommittee, I am pleased to 
present testimony on behalf of the National Area Health Education 
Centers Organization (NAO). NAO is the professional organization 
representing the Area Health Education Centers (AHECs) and the Health 
Education Training Centers (HETCs).
    I am Kathleen Vasquez, director of the Ohio Statewide AHEC program, 
director of the Medical University of Ohio's AHEC program, and the co-
chair of the National AHEC Organization (NAO)'s Public Policy 
Committee.
    AHECs develop and support the community based training of health 
professions students, particularly in underserved rural and urban 
areas. They also provide continuing education and other services that 
improve the quality of community-based health care. HETCs use the 
infrastructure of the AHECs to address the needs of diverse populations 
with persistent and severe unmet health needs. In 5 border and 6 non-
border States, HETCs train and support Community Health Workers to 
provide health information and services in their communities. Last year 
alone HETCs provided the initial training and continuing education for 
over 5,000 Community Health Workers.
    Since 1980, the Ohio AHEC program has played a vital part in 
training the State's healthcare workforce. Through a community-based 
education infrastructure, the delivery of direct patient care is 
expanded and a pipeline of professionals is maintained to provide 
future care. That pipeline of future professionals who will go on to 
practice in rural and underserved areas is maintained through 
collaborative partnerships with community health centers (CHCs) and the 
National Health Service Corps (NHSC). These partnerships allow the 
AHECs to help the Nation's health professions workforce to address 
timely issues such as bioterrorism, flu prevention and the nursing 
shortage.

     COMMUNITY HEALTH CENTERS AND THE NATIONAL HEALTH SERVICE CORPS

    Community Health Centers are dedicated to providing preventive and 
ambulatory health care to the most uninsured and underinsured 
populations by placing point-of-service facilities in these areas. A 
March 2006 study published in the Journal of the American Medical 
Association (JAMA) found that community health centers report high 
percentages of provider vacancies, including an insufficient supply of 
dentists, pharmacists, pediatricians, family physicians, and registered 
nurses. These shortages are especially pronounced in rural community 
health centers. Because Title VII programs (including AHECs and HETCs) 
have a successful record of training providers who work in underserved 
areas, the study recommends increased support for Title VII as the 
primary means of alleviating the health professions shortage in rural 
areas. The article serves as an important reminder that the success of 
CHCs is highly dependent upon a well-trained clinical staff to provide 
care.
    The Ohio AHEC program has worked closely with Community Health 
Centers to promote and support their complementary missions through the 
co-sponsorship of educational programs, the development of clinical 
training sites, and the recruitment of talented students. The Ohio AHEC 
program places students in rotations at Community Health Centers all 
over the State. For example, the Northeast Ohio AHEC places nursing, 
nutrition, and health education students in rotations at the Health and 
Dental Centers of Community Action Agency of Coloumbiana County. The 
Summit Portage AHEC places third year medical students in an 
``exploratory experience'' elective with the Akron Community Health 
Resources. Other medical students are placed at the Ohio North East 
System, which has three Community Health Centers in Youngstown, Warren, 
and Alliance. The AHECs affiliated with the Medical University of Ohio 
place students at the expansion community health center in Lima as well 
as at the only designated migrant health center in Ohio, Community 
Health Services in rural Fremont. A network of over 500 physicians 
volunteer their time to teach the students at these Community Health 
Centers along with students placed in other underserved and rural areas 
of the State.
    Through another partnership with the Ohio Primary Care Association 
(OPCA), Ohio AHECs organized a statewide health literacy and diabetes 
conference, with accompanying health literacy train-the-trainer 
components. Through this type of train- the- trainer education, Ohio 
AHECs have maximized limited resources to build capacity to continue 
providing education beyond the initial offering. Many of the 
participants in this health literacy and diabetes conference worked at 
a Community Health Center.
    The leadership of the Community Health Centers and the AHECs in 
Ohio often work closely together. I, as the Director of the Ohio 
Statewide AHEC program, serve on the board of a Community Health 
Center. The Executive Director of that same Community Health Center 
serves on the board of the Sandusky AHEC. And the Executive Director of 
the Health and Dental Centers of Community Action Agency of Columbiana 
County is a member of the Eastern Ohio AHEC Board. These partnerships 
allow the AHEC program to help Community Health Centers in Ohio to 
recruit, train, and retain well-qualified health professionals who are 
passionate about serving in a rural or otherwise underserved area.
    AHECs also undertake a variety of programs related to the placement 
and support of National Health Service Corps (NHSC) scholars and loan 
repayment recipients. The Ohio AHEC is a contractor of the NHSC 
``SEARCH'' program. The AHECs, in collaboration with the Ohio Academy 
of Family Practice and the Ohio Department of Health, annually recruit 
70 students, develop training sites, monitor placements and advise on 
individual community projects. These students will gain experience and 
exposure to practice in rural, underserved and especially community 
health center sites throughout the State.

                    BIOTERRORISM AND FLU PREVENTION

    Ohio AHECs provide nearly 400 continuing education programs, which 
are attended by 11,000 practicing professionals. These providers do not 
have to leave their communities or arrange coverage in order to attend 
these programs, because the programs are brought to them in their local 
communities. The topics of continuing education programs are determined 
by the needs of the practitioners in the community, so timely topics 
such as avian flu and bioterrorism have been recently provided.
    Ohio AHECs have stepped in to provide health professionals with the 
latest updates on surveillance, reporting, risk communication, 
treatment, and other responses to the threat of bioterrorism. In rural 
areas of the State, AHECs bring in downlinks and sponsor bioterrorism 
preparedness programs. Ohio AHECs have provided preparedness training 
for clinicians at the Community Health Centers, and also provided 
train- the- trainer education programs at 4 regional locations. In 
addition, some of our sister AHEC programs are already heavily involved 
in public education for flu prevention.

                            NURSING SHORTAGE

    Contrary to what may be commonly understood, persistent and severe 
shortages exist in a number of health professions. Chronic shortages 
exist for all health professions in many of our Nation's underserved 
communities, and substantial shortages exist in all communities for 
some high-need professions such as nursing.
    Historically, the supply of and demand for health care 
professionals has waxed and waned in a manner that produced cycles of 
shortage and excess. However, it is reasonable to believe that the 
current shortages are of a different and more persistent nature. First, 
the breadth and depth of shortages are greater than at any time in the 
past. More disciplines are in short supply, more sites of care 
(hospitals, nursing homes, home care agencies, and clinics) are 
experiencing shortages, and the duration of vacancies is longer. 
Second, the demand for health care services is steadily and inexorably 
increasing due to the aging population and the advances in medical 
technology. Third, the health care provider population is aging itself. 
Fourth, the resources with which the health care industry might respond 
to shortages are inadequate. Due to the squeeze of managed care, 
provider institutions are unable to increase salaries, and due to cuts 
in government funding, educational institutions are unable to expand 
class sizes. Finally, the career opportunities available to women, who 
historically have dominated the nursing profession, have expanded 
greatly.
    Currently, AHECs and HETCs are working with schools of nursing, 
State nursing associations, Community Health Centers, and the National 
Health Service Corps, to increase the number of qualified applicants to 
nursing schools, increase minority enrollment in nursing schools, 
expand the number of community-based nursing training sites, and 
retrain nurses who wish to re-enter the profession.

               JUSTIFICATION FOR FUNDING RECOMMENDATIONS

    Mr. Chairman, I respectfully ask the subcommittee to support our 
recommendations to increase funding for the health professions and 
nursing education programs under Title VII and Title VIII of the Public 
Health Act to at least $550 million for fiscal year 2007. Our 
recommendations are consistent with those of the Health Professions and 
Nursing Education Coalition (HPNEC). 56 of your colleagues (led by 
Senators Reed and Roberts), signed a letter to the subcommittee, 
stating that restoring funding to Title VII health professions programs 
is vital to reversing health professions shortages in the Nation's 
neediest communities.
    Two of the Title VII programs, AHECs and HETCs, improve access to 
primary and preventive care through community partnerships, linking the 
resources of academic health centers with local communities. AHECs and 
HETCs have proven to be responsive and efficient models for addressing 
an ever-changing variety of community health issues, including 
bioterrorism, flu prevention, and the nursing shortage. In order to 
continue this potential, additional Federal investment is required. We 
request that in fiscal year 2007 you restore funding to the fiscal year 
2003 levels of $33.141 million for AHECs, and $4.371 million for HETCs.
                                 ______
                                 
   Prepared Statement of the National Coalition for Heart and Stroke 
                                Research

    My name is Jack Owen Wood. I solicit your support for more 
aggressive Federal funding for research into prevention and treatment 
of the sister diseases, stroke and heart disease. Strokes and heart 
attacks are occurring at an alarming rate.
    I am representing the National Coalition for Heart and Stroke 
Research. The coalition consists of 18 national organizations 
representing more than 5 million volunteers and members united in 
support for increased funding for heart and stroke research. Members of 
the Coalition include: American Academy of Neurology; American Academy 
of Physical Medicine and Rehabilitation; American Association of 
Neurological Surgeons; American College of Cardiology; American College 
of Chest Physicians; American Heart Association; American Neurological 
Association; American Stroke Association; American Vascular Association 
Foundation; Association of Black Cardiologists; Child Neurology 
Society; Children's Cardiomyopathy Foundation, Inc.; Congress of 
Neurological Surgeons; Heart Rhythm Society; Mended Hearts, Inc.; 
National Stroke Association; Society of Interventional Radiology; and 
Society for Vascular Surgery.
    I will deal primarily with one man's personal experience with 
stroke and its functional and financial costs--my own. I have only the 
use of my right arm.
    I was born in 1937, raised in Vicksburg, Mississippi, earned an 
engineering degree at Mississippi State University and currently reside 
in Port Orchard, Washington. I worked for the Boeing Company in 
Seattle, am a former Director of the Washington State Energy Office, 
served as Director of Cost and Revenue Analysis and as the Forecasting 
Manager for a major Northwest Area Natural Gas Utility until May 1, 
1995.
    On May 1, 1995, at the age of 57, I was stricken and severely 
disabled by my stroke. Two years later I experienced a triple bypass 
heart operation. You might say I've ``been there and done that'' for 
both major cardiovascular diseases. So you see, I am an expert.
    Years ago I was offered an exciting and rewarding volunteer 
opportunity. I was asked to lead the ``JACK WOOD STROKE VICTOR TOUR'' 
for the American Heart Association.
    The JACK WOOD STROKE VICTOR TOUR was a 5-State lobbying tour. 
Through it I tried to meet personally with every Northwest 
Congressional representative on his or her home turf (in Alaska, Idaho, 
Montana, Oregon and Washington). In each meeting I was joined by local 
people, stroke survivors and their families and medical professionals. 
I told my story and asked them to join the Congressional Heart and 
Stroke Coalition and to support increased Federal funding for heart and 
stroke research.
    I am proud to say I traveled to 18 communities and met personally 
with 28 members of our delegation or their staff.
    One of the most powerful memories for me was the frequency in which 
Members of Congress or staff members related their personal experience 
with stroke. One member I spoke to lost both parents to stroke. I 
suspect many of you have stories too.
    I realize your interest is greater than the physical impact of my 
stroke. Your concern must include the financial impact, not only to me, 
but also on our country from increased health care costs and lost 
productivity and its many implications.
    I have confronted the difficult and painful task of calculating 
that cost to me. Besides being a man whose stroke took his ability to 
pick up and play with his grandchildren and his livelihood, I remain a 
statistician at heart. I could not resist calculating and telling that 
part of my story. But please remember my story is not dissimilar to 
that of many of the 5.5 million stroke survivors in the United States. 
Many of whom were stricken in their prime earning years. Who in a 
matter of moments, seemingly without warning, are transformed from a 
contributor and provider to a receiver and patient.
    Allow me to highlight three figures that I feel sum up my data and 
should be important to you. I estimate that my stroke at age 57:
  --Reduced my earnings before retirement age 65 by more than $600,000.
  --Subsequently, the cost to the Federal Government in lost income and 
        other taxes, early Medicare payments and Social Security 
        disability payments is more than $320,000.
  --My HMO spent approximately $150,000 to respond to and treat my 
        stroke.
  --One man, over $1 million.
    About 700,000 Americans will suffer a stroke this year costing this 
Nation an estimated $58 billion in medical expenses and lost 
productivity.
    Earlier I described a stroke as occurring seemingly without 
warning. All too often as in my case, people either don't know or 
ignore the signs of a stroke, even one in progress. When my stroke hit 
I denied it. It took me two days after my stroke to acknowledge it and 
seek help. Because of research into new treatments, we now have tPA, a 
clot-busting drug, which if administered within 3 hours of the onset of 
stroke symptoms, can dramatically reduce the damage of clot-based 
strokes. Had I recognized and acknowledged my stroke, gone to a 
hospital with a neurologist on staff and had there been tPA, the impact 
of my stroke most certainly would have been lessened.
    What is even more painful to me is that my impending stroke could 
have been detected. Unfortunately, we need to create easier and less 
expensive diagnostic techniques so that effective diagnostics can be 
given routinely as part of regular health exams. And they must be 
covered through insurance.
    I am not asking for your sympathy. Instead, please think of me as 
two of the ghosts in the famous Dickens' story. Please don't 
misunderstand, I am not casting you as Scrooge. See me as both the 
ghosts of things past and things yet to be. I too am here to tell you, 
the future, which I represent, needs not be. It is largely up to you.
    I hope my story and estimate of the cost of my stroke convinces you 
that taking on stroke and heart disease through increased research, 
leading to better prevention, diagnosis and treatment is fiscally 
responsible. The human and financial costs are astronomical.
    Thank you for your past support of research.
                                 ______
                                 
     Prepared Statement of the National Multiple Sclerosis Society

    Mr. Chairman and distinguished members of the subcommittee, we 
appreciate the opportunity to submit written testimony on behalf of the 
National Multiple Sclerosis Society. Multiple sclerosis (MS) is a 
chronic, unpredictable and often disabling disease of the central 
nervous system. Symptoms range from numbness in the limbs, to loss of 
vision, memory deficits, and in some instances partial or total 
paralysis. The progress, severity and specific symptoms of MS in any 
one person can vary and cannot yet be predicted, but advances in 
research and treatment are giving hope to those affected by the 
disease.
    Since its inception in 1946, the Society's highest priority has 
been to end the devastating effects of MS by supporting research aimed 
at finding the cause of MS, providing better treatments, and ultimately 
discovering a cure. In 2006, the National MS Society will spend over 
$40 million on MS research supporting over 350 MS investigations. By 
the end of 2006, the Society cumulatively will have expended some $500 
million since awarding its first three grants in 1947. This represents 
the largest privately funded program of basic, clinical, and applied 
research and training related to MS in the world.
    Any effort to conquer MS will require the collective efforts of 
many individuals as well as private and public organizations. The 
Federal Government is a critical partner in the fight against MS and 
must continue its vital role in furthering the scientific understanding 
of MS. To this end, the Society supports the following proposals 
related to Federal efforts:
  --There is a great need to determine how many Americans have MS. We 
        therefore ask that the National Institutes of Health (NIH) 
        collaborate with the Centers for Disease Control/Agency for 
        Toxic Substances and Disease Registry (CDC/ASTDR), the Society 
        and other MS organizations to begin the task of establishing 
        the incidence and prevalence of MS.
  --There is a great need to find treatments for the primary-
        progressive form of MS (PPMS). We therefore ask that NIH bring 
        additional research focus to the primary-progressive form of 
        MS.
  --There is a great need to develop laboratory tests to help 
        physicians easily diagnose and monitor MS. We therefore ask 
        that NIH expand its efforts to identify biomarkers for MS.
  --There is a great need provide effective rehabilitation services to 
        Americans with MS. We therefore urge that the National 
        Institute on Disability and Rehabilitation Research (NIDRR) in 
        the Department of Education fund one additional Medical 
        Rehabilitation Research and Training Center for MS and take 
        steps to stimulate individual research projects in MS.
  --There is a great need to sustain the country's research enterprise 
        and to accelerate the discovery of life-changing treatments for 
        MS. We therefore ask that Congress increase fiscal year 2007 
        NIH funding by 5 percent.
    The National MS Society has had a long and productive relationship 
with the NIH, particularly with National Institute of Neurological 
Disorders and Stroke (NINDS). Our founder, Sylvia Lawry, helped 
spearhead the legislation that established NINDS in 1950 and the 
Society has been pleased to work with the NINDS on many areas of mutual 
interest. Indeed, we extend our thanks to NINDS Director, Dr. Story 
Landis, and key members of her staff, for meeting the Society's senior 
leadership to explore collaborative opportunities. We look forward to 
continued discussions with Dr. Landis and are eager to initiate similar 
discussions with the leadership of other NIH institutes.
    The Federal investment in the NIH and the NIDRR plays a major role 
in MS research. At the NIH, there are two other institutes that conduct 
or fund the majority of MS research: the NINDS, which funds 75 percent, 
and the National Institute of Allergy and Infectious Diseases (NIAID), 
which funds about 20 percent. The National Center for Medical 
Rehabilitation Research (NCMRR--a unit of the National Institute of 
Child Health and Human Development) also funds a small amount of MS 
research specifically targeting rehabilitation issues. In addition to 
the NIH, the NIDRR through the Department of Education invests in MS 
research.
    For fiscal year 2006 and fiscal year 2007, it is estimated that NIH 
expenditures on MS research will be approximately $109 and 108 million, 
respectively. For fiscal year 2006 and fiscal year 2007 NIDRR 
expenditures on MS research will be approximately $1.6 million per year 
out of a total budget of $107 million per year.
  --While this demonstrates one measure of the Federal investment in MS 
        research, this amount pales in comparison with the annual 
        direct and indirect disease cost--approximately $23 billion for 
        all people with MS in the United States.\1\
---------------------------------------------------------------------------
    \1\ Based on a 1994 Duke University study, indexed for 2004 by the 
National MS Society, the average annual cost of MS is estimated at 
$57,500 per person due to lost wages, increased medical care and other 
expenses. Nationwide, there are an estimated 400,000 people with MS.
---------------------------------------------------------------------------
            INVESTING IN RESEARCH PRIORITIES RELEVANT TO MS

    The National MS Society recognizes that new discoveries and 
breakthrough findings could come from almost any area of biomedical 
research and could apply to the primary concern of our members: finding 
a cure for MS. NIH plays THE major role in maintaining our country's 
preeminence in the biotechnology industry and provides world-wide 
leadership in health research and discovery. We thus encourage Congress 
to focus on NIH as a whole, and on agencies of particular relevance to 
our concern, knowing that a well-funded Federal research enterprise 
will benefit all of us.
    Determining how many Americans are affected by MS.--An area in 
critical need of attention is determining the incidence, prevalence, 
and distribution of MS. The last national study of incidence and 
prevalence of MS in the United States took place more than 30 years 
ago. Since that time the population of the United States has changed 
dramatically in size, composition, and distribution. Moreover, numerous 
questions have arisen concerning possible ethnic, geographic, and local 
variations in the distribution of MS. Knowledge concerning these 
distributions and possible causal factors may provide important 
information concerning the nature of MS and its triggers. Rational 
policy formulation for MS health care requires up-to-date information 
concerning numbers and characteristics of persons with MS down to the 
State level.
    We are pleased to note that CDC/ASTDR has taken an important step 
in addressing this issue by convening a workshop to discuss a proposal 
for setting up national surveillance systems for MS and amyotrophic 
lateral sclerosis (ALS). The Society was pleased to participate in this 
meeting and looks forward to collaborating with CDC/ASTDR in planning 
of regional pilot studies of methods to establish incidence and 
prevalence of MS, and ultimately the design and deployment of a 
national or multi-regional surveillance system for MS. Establishment of 
such systems, however, is beyond the resources of the Society. We 
therefore urge NINDS and other appropriate NIH institutes to 
collaborate with the CDC/ATSDR and to allocate funds for the conduct of 
the critical pilot studies and to support a national effort to 
accurately measure incidence and prevalence of MS.
    Finding new treatments for primary-progressive MS.--Advances in 
immunology have provided clinicians with powerful tools to better 
understand the underlying causes of MS, leading to new therapeutic 
advances. Although there are FDA-approved treatments for relapsing MS, 
there are still no approved treatments for progressive MS. The primary-
progressive form of MS (PPMS) is characterized from the onset by the 
absence of acute attacks and instead involves a continuous and gradual 
clinical decline.
    Approximately 10 percent of individuals are diagnosed with PPMS 
from the onset. Clinically, this form of the disease is associated with 
a lack of response to any form of the approved MS therapies. This leads 
to the concept that PPMS may in fact be a very different disease as 
compared to relapsing-remitting MS. The Society identifies the study of 
primary-progressive MS as an area that merits greater attention by the 
research community in order to increase our understanding of PPMS and 
to have effective therapies for this progressive form of the disease. 
In the upcoming year, the Society encourages NIH to help the Society 
address this underserved area of MS research.
    Helping physicians with diagnosis and treatment.--The complexity of 
MS poses many challenges for both diagnosis and treatment of the 
disease. Biomarkers, substances that are detectible in blood or other 
body fluids by laboratory testing, are a promising tool for physicians 
since they could aid in diagnosis, treatment selection, and prediction 
of disease course. In addition, valid biomarkers will be very useful in 
evaluating the effectiveness of new drugs.
    The fundamental importance of biomarkers for MS has been recognized 
by the NIH Autoimmune Disease Coordinating Committee and NINDS, which 
sponsored a workshop on this topic in 2004. Moreover we are pleased to 
note that NINDS has provided $4 million for a major biomarker discovery 
effort as part of a large-scale clinical trial, CombiRx. The CombiRx 
trial is evaluating whether or not a combination of approved MS 
therapies is more effective in treating MS than individual therapies. 
We applaud NINDS for its efforts to-date and urge that NINDS and other 
NIH institutes work with the Society to expand their efforts to support 
research directed at the discovery and validation of biomarkers for MS.

         EXPANDING THE SCOPE OF FEDERAL SUPPORT FOR MS RESEARCH

    In addition to efforts at the NIH, the Society is pleased to note 
that for more than 20 years, NIDRR has funded a Medical Rehabilitation 
Research and Training Center (MRRTC) for MS. However, the institute's 
overall investment in MS research remains limited, $1.6 million in 
fiscal year 2006 and fiscal year 2007. It is dismaying that the current 
NIDRR portfolio includes only 4 projects related to MS whereas spinal 
cord injury, with a prevalence less than that of MS, has 39 active 
projects in the NIDRR portfolio.
    Since the advent of FDA-approved MS disease-modifying treatments in 
1993, persons with MS have had access to therapeutics which can slow 
the progression of disability. However, in order to maintain maximum 
levels of independence, persons with MS need rehabilitation to address 
residual deficits. Unfortunately, due to the limited support for MS 
rehabilitation research, we know relatively little about the efficacy 
of rehabilitative interventions in MS. We therefore urge the NIDRR to 
increase its support for MS rehabilitation research through the funding 
of at least one additional MRRTC along with initiatives to stimulate 
individual research projects.

           OVERALL NIH FUNDING INCREASE FOR FISCAL YEAR 2007

    The Society is deeply concerned that NIH may face a fourth year of 
overall low funding increases. This low funding level endangers the 
potential breakthroughs and discoveries that motivated Congress to 
complete a five-year campaign to double NIH's budget in 2003. In fact, 
the trend toward flat or slightly decreased NIH funding could put NIH 
on a trajectory to un-double its budget because the annual cost of 
inflation cannot be covered.
    Furthermore, we are gravely concerned that the current annual NIH 
investment in MS research of $110 million is projected to drop by $1 
million in 2007 and another $1 million in 2008. This trend jeopardizes 
progress toward a cure and new treatments for MS. Indeed, we remind the 
committee that in the 1990's, it was the NIH's basic and clinical 
research that contributed greatly to the development of the first 
disease modifying drugs for MS. Now there are 6 such drugs approved for 
MS therapy, and the NIH is funding a major trial to test whether 
combining drugs can enhance their benefit.
    Moreover, NIH-funded research catalyzes industry efforts to develop 
drugs in many ways. Industry tells us that developing biomarkers that 
can measure the progression of MS could dramatically enhance their 
efforts to develop drugs. Over the last several years, advances in 
brain imaging for MS have taken a major step towards the goal of MS 
biomarkers. The NIH has a major effort underway to identify additional 
methods to measure the progression of MS, this is another step toward 
increased understanding of MS. Moreover, because of these advances in 
understanding of MS, biotech and pharmaceutical companies currently 
have more than a dozen drugs for MS in various stages of clinical 
testing. Despite these significant efforts, the number of new drug 
applications to the Food and Drug Administration continues to decline. 
The Society fears that this negative trend will be accelerated by 
continued reductions in NIH-funded research.
    A lack of Federal funds for biomedical research and MS research, in 
particular, will also force junior and senior researchers to leave the 
scientific workforce, further slowing the pace of research. Such an 
outcome would mean that substantial investments biomedical research 
would have been squandered, and replenishing this workforce would take 
a generation. We therefore urge Congress to:
  --Appropriate a 5 percent fiscal year 2007 funding increase for NIH.
  --Balance the fiscal year 2007 NIH appropriation to allow growth 
        across all NIH institutes and all areas of disease research.
    We ask the subcommittee to be mindful of the thousands of 
Americans, and particularly those with MS, who will be affected if the 
pace of research is slowed by reductions in NIH funding. While 
treatments are available for MS, these are expensive and only partially 
effective for some patients. Until a cure is found, people affected by 
MS want more effective and more economical treatments.
    The surest path to discovering treatments for MS, and for human 
diseases in general, is by sustaining the country's investment in 
innovative biomedical research at universities and small businesses. 
Funding cuts threaten these efforts, and will invariably harm the 
country's research infrastructure. Correcting such damage may take a 
generation, and Americans with MS cannot afford to wait that long. 
Moreover, the country cannot afford the economic consequences of 
delaying the discovery of treatments that could change the lives of 
those impacted by MS.
    We thank the subcommittee for this opportunity to comment and 
applaud your commitment to advancing the health and well-being of all 
Americans through investment in biomedical research.
                                 ______
                                 
Prepared Statement of the NIH Task Force of the Bioengineering Division 
  of the Basic Engineering Group of the Council on Engineering of ASME

    The NIH Task Force of the Bioengineering Division of the Basic 
Engineering Group of the Council on Engineering of ASME, is pleased to 
provide comments on the bioengineering-related programs in the National 
Institutes of Health (NIH) fiscal year 2007 budget request. The ASME 
Bioengineering Division is focused on the application of mechanical 
engineering knowledge, skills and principles from conception to the 
design, development, analysis and operation of biomechanical systems.

                    THE IMPORTANCE OF BIOENGINEERING

    Bioengineering is an interdisciplinary field that applies physical, 
chemical and mathematical sciences and engineering principles to the 
study of biology, medicine, behavior, and health. It advances knowledge 
from the molecular to the organ systems level, and develops new and 
novel biologics, materials processes, implants, devices, and 
informatics approaches for the prevention, diagnosis, and treatment of 
disease, for patient rehabilitation, and for improving health. 
Bioengineers have employed mechanical engineering principles in the 
development of many life-saving technologies, such as the artificial 
heart, prosthetic joints and numerous rehabilitation technologies.

                               BACKGROUND

    NIH is the world's largest and most eminent organization dedicated 
to improving health through medical science. During the last 50 years, 
NIH has played a preeminent role in the major breakthroughs that have 
increased average life expectancy by 15 to 20 years.
    NIH is comprised of different Institutes and Centers that support a 
wide spectrum of research activities including basic research, disease 
and treatments related studies, and epidemiological analyses. The 
missions of individual Institutes and Centers focus on a particular 
organ (e.g. heart, kidney, eye), on a given disease (e.g. cancer, 
infectious diseases, mental illness), on a stage of development (e.g. 
childhood, old age), or, may encompass crosscutting needs (e.g., 
sequencing of the human genome and the National Institute of Biomedical 
Imaging and Bioengineering (NIBIB).
    The total fiscal year 2007 NIH budget request is $28.6 billion, 
which represents approximately the same level as the fiscal year 2006 
appropriation. Some $50 million of this increase is for radiological/
nuclear countermeasures development. NIH R&D, 97 percent of the total 
NIH budget, would also remain flat at $27.8 billion next year. The 
largest increases would go to the Office of Director and towards 
biodefense R&D.
    According to the President's fiscal year 2007 budget request, 
``NIH's highest priority is the funding of medical research through 
research project grants (RPGs). Support for RPGs allows NIH to sustain 
the scientific momentum of investigator-initiated research while 
pursuing new research opportunities.'' The administration estimates 
that the fiscal year 2007 budget would support an estimated 9,337 new 
research project grants (RPGs), an increase of about 275 new competing 
RPGs from fiscal year 2006. Nevertheless, NIH projects a decline in the 
total number of RPGs for the third year in a row, no inflation 
adjustment for most new or continuing grants, and a decline in the RPG 
success rate for the sixth year in a row down to 19 percent. RPGs 
account for 52 percent of the 2007 NIH Budget Request.
    The largest percentage increase would go to the Office of the 
Director (OD; up 25.1 percent) to boost OD funding for clinical 
research, high-risk basic research, and collaborative research in the 
NIH Roadmap for Biomedical Research. The Roadmap would receive $443 
million in fiscal year 2006 (up 34 percent), with $332 million coming 
from institute budgets. Currently, the Roadmap Initiatives provides $80 
million annually, or roughly 24 percent of the total roadmap budget, 
for bioengineering-related project.
    Other initiatives funded by the fiscal year 2007 budget request are 
5 awards for the new K/R ``Pathway to Independence'' program and the 
Genes, Environmental, and Health Initiative (GEHI) that will study 
genetic factors associated with disease and accelerate technological 
development that can measure human responses to environmental 
influences on health.
    The President's fiscal year 2007 budget requests $294.5 million for 
the NIBIB, a reduction of $1.96 million (0.7 percent) below the fiscal 
year 2006 enacted level. Most NIH institutes are also slated for 
reductions in funding in the President's budget request.
    Below are some highlights from the fiscal year 2007 budget request 
for NIBIB. Further details can be found at http://www.nibib.nih.gov/
publicPage.cfm?pageID=263#FY2007.
NIBIB Extramural Research would decline 1.3 percent, to $268 million.
    The number of research project applications to NIBIB continues to 
grow, with the number doubling from fiscal year 2003 to fiscal year 
2004 and then increasing by 20 percent from fiscal year 2004 to fiscal 
year 2005. The research budget, however, has remained flat. 
Consequently, the success rate for investigators applying for 
extramural research grants from the NIBIB is the second lowest among 
the NIH institutes and centers. It is estimated that the success rate 
for these applications was 16.8 percent in fiscal year 2004, decreasing 
to approximately 15 percent in fiscal year 2005. The projected success 
rate for fiscal year 2006 is only between 10 and 15 percent
NIBIB Intramural Research would grow 6.3 percent, to $7.7 million.
    In September 2004, the NIBIB Special Advisory Panel for Intramural 
Programs met to develop recommendations for the National Advisory 
Council on Biomedical Imaging and Bioengineering concerning an 
intramural research program within the NIBIB. Intramural research 
accounts for approximately 10 percent of the total NIH budget. The 
NIBIB currently is at the low end in terms of funds it commits to 
intramural research among all of the NIH institutes, both in terms of 
dollars expended and percentage of its total budget. The Panel 
recommended that NIBIB not pursue the near-term expansion of its 
Intramural Research Program beyond the available funding in the current 
budget and the fiscal year 2005 President's Budget proposal. The Panel 
further recommended that NIBIB use its limited intramural funds 
primarily to expand interdisciplinary training opportunities at the 
postdoctoral level. In addition to the already established training 
grants offered by the NIBIB, there is a new initiative co-sponsored by 
the NSF Engineering Directorate to offer summer institute training for 
undergraduate students. It is hoped that such programs can be offered 
regularly now and/or expanded. More information can be found at http://
bbsi.eeicom.com/.
    The estimate for NIH-wide bioengineering research was $1.291 
billion in fiscal year 2006, and $1.32 billion in fiscal year 2005. The 
proposed 2007 amount is $1.296 billion, a 0.4 percent increase over 
2006. These numbers reflect bioengineering funding by any of the 27 NIH 
institutes or Office of the Director.

                            RECOMMENDATIONS

    The Task Force is concerned that funding for bioengineering has 
continued to lag compared to many areas of NIH, and will continue to do 
so, especially now that the doubling of the NIH budget is complete and 
the total funding for NIH remains flat. While a strong supporter of the 
NIBIB, the Task Force is also concerned that bioengineering continues 
to constitute less than half the budget for the NIBIB. There is a need 
for advanced engineering concepts to be applied to basic and 
translational biomedical problems for the potential of recent 
biological advances to be realized. The request for more bioengineering 
funding addresses a critical need for developing and applying more 
complex engineering principles to biomedical problems. In many cases, 
such engineered solutions to health care problems will result in a 
reduction in health care costs. Therefore, the Task Force strongly 
urges Congress to provide increased funding for bioengineering within 
the NIBIB and across NIH. The NIBIB requires exceptional consideration 
for funding increases in the coming years. It is notable that the 
success rate for funding applications to the NIBIB is currently between 
10-15 percent, even lower than the declining average NIH-wide success 
rate of 19 percent. This is a direct manifestation of the continued 
growth of the field outpacing funding increases to the NIBIB.
    While the Task Force supports new Federal proposals that seek to 
double Federal research and development in the physical sciences over 
the next decade, the Task Force believes that strong Federal support 
for bioengineering and the life sciences is essential to the health and 
competitiveness of the Nation. Increased funding for the NIH has put 
the United States is a leading position in pharmaceuticals, 
bioengineering, and medical sciences. Long-term lack of funding for NIH 
programs would harm the tremendous gains the United States has made 
over the last decade.
    ASME International is a non-profit technical and educational 
organization with 125,000 members worldwide. The Society's members work 
in all sectors of the economy, including industry, academic, and 
government. This statement represents the views of the ASME NIH Task 
Force of the Bioengineering Division and is not necessarily a position 
of ASME as a whole.
                                 ______
                                 
      Prepared Statement of the National Primate Research Centers

    The Directors of the National Primate Research Centers (NPRCs) 
respectfully submit this written testimony for the record of the U.S. 
Senate Appropriations Subcommittee on Labor, Health and Human Services, 
and Education. The NPRCs appreciate the commitment that the members of 
this subcommittee have made to biomedical research through strong 
support for the National Institutes of Health (NIH). Given your 
leadership on this issue, the NPRCs urge Congress to direct resources 
to NIH to ensure that the Federal investment in vital biomedical 
research will not be compromised.
    The NPRCs are a national network of eight primate research centers 
supported by the NIH National Center for Research Resources (NCRR). The 
centers comprise the National Primate Research Program (NPRP), which 
was developed by Congress in 1960. The program seeks to address human 
health problems through scientific research using the animal models 
that most closely resemble humans in their genetics, physiology, and 
disease processes--primates. NPRCs support research that is sponsored 
by nearly every institute of NIH. For example, NPRCs conduct research 
to help understand and treat diseases such as heart disease, 
hypertension, cancer, diabetes, hepatitis, AIDS, kidney disease, 
Alzheimer's disease, and Parkinson's disease. They also conduct 
research on emerging infectious diseases and many aspects of 
biodefense. Each NPRC makes its facilities available to investigators 
from around the country. Our centers create collaborative research 
environments that allow scientists to combine their individual 
expertise beyond the scope of established disciplinary research 
projects.
    NPRCs endorse the fiscal year 2007 Ad Hoc Group for Medical 
Research proposal to increase the NIH budget by five percent over the 
fiscal year 2006 level. We recognize that the current budget 
environment puts pressure on Congress to face difficult funding trade-
offs; however, as this subcommittee works to define priorities for the 
year and set goals for the future, we ask that you maintain your long-
term commitment of support for NIH and its mission. The President's 
fiscal year 2007 budget would flat-fund NIH. The five percent increase 
for NIH supported by NPRCs would not only allow the agency to sustain 
current programs but also invest in critical new initiatives. This 
would prevent NIH from falling behind the ``Innovation Index''--the 
rate of biomedical inflation as calculated in the Biomedical Research 
and Development Price Index (BRDPI) plus a modest investment in new 
initiatives. Using the fiscal year 2007 BRDPI projection as a base, NIH 
would require an increase of at least 3.8 percent over fiscal year 2006 
to maintain current programs. However, we strongly believe that an 
increase for NIH above BRDPI is justified by the health needs as well 
as current and burgeoning research capabilities of the Nation. An 
increase above BRDPI would allow new innovative ideas to be funded and 
would infuse existing programs to evolve as their research findings 
push them to higher levels of basic understanding, translation and 
clinical functionality.
    As a result of years of expanded investment in biomedical research, 
the demand for the NPRCs' resources has increased significantly. The 
ability of NIH-funded researchers to conduct future projects with 
primate models will depend on the enhancement of three key areas: (1) 
the nationwide availability of primates; (2) the quality and capacity 
of primate housing and breeding facilities, as well as the availability 
of related state-of-the-art diagnostic and clinical support equipment 
at NPRCs; and (3) the number of personnel trained in primate care and 
management at NPRCs. These areas can be enhanced by an NIH/NCRR 
commitment to increase the NPRCs P51 base grants (the mechanism that 
funds each NPRC). Biomedical researchers across the Nation are 
experiencing shortages in the availability of primates for essential 
research. Increases to the P51 base grants would allow NPRCs to: expand 
existing breeding colonies and develop bridging programs to use 
effectively the under-utilized species of primates in research; invest 
in repairs, renovation, and construction of research facilities, as 
well as the purchase of modern laboratory equipment; and ensure that 
adequate numbers of experts are trained in laboratory animal medicine 
and research, because NPRCs must maintain primate management teams 
comprised of behavioral specialists, veterinarians, and primate 
research experts to ensure excellent primate care, health, and research 
success.
    Increases from NIH/NCRR to the NPRCs P51 base grant are necessary 
to meet the needs discussed above and are critical to the ability of 
NPRCs to supply adequate primate resources for scientists across the 
Nation to carry out important research projects. As mentioned 
previously, these research projects span the disease foci at NIH 
institutes and centers, and also play important roles in the NIH 
Roadmap, the NCRR Strategic Plan, and grand challenges facing the 
scientific community. In the 1950's, primate research produced the 
first vaccine for one of the world's worst childhood killers, the Polio 
virus, reducing the number of cases in the United States from 58,000 to 
one or two per year. Primates have also served as the best model for 
various types of HIV research, and their availability for use has 
resulted in at least 14 licensed anti-viral drugs for treatment of HIV 
infection. Primate models will continue to be necessary to defend the 
world against possible future epidemics such as SARS, West Nile Virus, 
and avian flu. In addition to deadly viral epidemics, primate research 
has enabled the discovery of better treatments and therapies for 
diseases and occurrences such as stroke, cataracts, depression and 
other psychiatric illnesses. Significant advances in prenatal and 
postnatal care have also resulted from primate research.
    Further, not only do primates have the potential to provide answers 
for long-standing research questions, primate research provides an 
unparalleled opportunity to address more recently defined research 
priorities, such as those relating to genomics and bioterrorism. The 
specific availability of information in the primate genome, which is 
quite similar to the human genome, makes primates essential in studies 
that require an integrated understanding of a whole biological system. 
Recent reports suggest that extensive analysis of genome structure and 
function in nonhuman primates could make immediate and significant 
contributions to the overall mission of NIH by accelerating progress in 
understanding many human diseases. Also, primates serve as critical 
animal models in biodefense research projects for which, in some cases, 
it would be inappropriate to conduct early clinical trials in humans. 
Primates are recognized as vital research resources within Federal 
strategic plans regarding biodefense research, including: the National 
Institute of Allergy and Infectious Diseases (NIAID) Strategic Plan for 
Biodefense Research; the NIAID Research Agenda for Category A Agents; 
and the NIAID Research Agenda for Category B and C Priority Pathogens. 
Also, NPRCs are partners in NIAID-funded Regional Centers of Excellence 
for Biodefense and Emerging Infectious Diseases as well as with NIAID-
funded National and Regional Biocontainment Laboratories.
    As NIH and the national biomedical research agenda evolve, NPRCs 
adjust to meet the resource needs of the research community but also to 
maintain research programs that are on the cutting-edge of science. The 
reservoirs of knowledge residing within the NPRCs create new 
opportunities for research partnerships with investigators at host 
academic institutions and in the biomedical research community at 
large. Never have the research questions been so profound, or the 
implications for human health so critical. NPRCs are poised to bridge 
the gap between knowledge already gleaned from simple cellular and 
animal models and knowledge that is needed to promote human health and 
cure human disease. Past accomplishments demonstrate, and current and 
future research directions will rely on, the roles of robust primate 
research programs in addressing critical research questions. The 
breadth and success of primate research programs confirm the vital role 
that the eight NPRCs play in biomedical research nationwide.
    Thank you for the opportunity to submit this written testimony and 
for your attention to the critical need for primate research and 
enhancement of the NPRCs P51 base grant, as well as our recommendations 
concerning funding for NIH in the fiscal year 2007 Appropriations Bill.
                                 ______
                                 
      Prepared Statement of the National Prostate Cancer Coalition

    On behalf of the National Prostate Cancer Coalition, I appreciate 
the opportunity to submit written comments regarding funding to 
Prostate Cancer programs. I would also like to offer our best estimates 
on the resources necessary to continue to fight the war on prostate 
cancer in fiscal year 2007, most specifically funding for prostate 
cancer research, prevention, detection and treatment programs funded by 
the Labor, Health and Human Services and Education Appropriations Bill.

                   HISTORY OF PROSTATE CANCER FUNDING

    For the past ten years, the NPCC has worked to reduce the burden of 
prostate cancer through awareness, outreach, and advocacy. As you may 
know Prostate cancer is the most common cancer (next to skin cancer) 
and the second leading cause of cancer-related death in men in the 
United States. It is estimated this year over 234,000 men will be 
diagnosed with prostate cancer, and more than 27,000 will die as a 
result of the disease. Of the 10 million Americans living with cancer 
today, two million of these have prostate cancer.
    This past decade has been an exciting and important one for 
prostate cancer research. Congress and the administration have taken 
notice of the impact prostate cancer has on our Nation. In 1998, 
Congress promised to double the budget of the NIH within 5 years, and 
triple the amount of Federal funding for prostate cancer research. By 
keeping that promise, prostate cancer research funding has increased 
and expanded to record levels. As a result, more men are screened and 
diagnosed with this disease and prostate cancer survivorship rates have 
increased. Also for the first time since 1930, the number of cancer 
deaths has decreased in 2003. These exciting results cannot continue 
without a stable and reasonable level of funding to the NIH. 
Unfortunately in fiscal year 2003, NIH funding did not keep up with the 
increase of inflation. Last year in fiscal year 2006 the NIH and 
prostate cancer research programs received a hard cut to programs at 
the Center for Disease Control and the National Cancer Institute.
    With less funding, researches cannot continue to discover ways to 
combat prostate cancer. New drugs and treatment options are harder to 
translate from the lab to the patients. We cannot fight the war on 
prostate cancer without the proper tools. The National Prostate Cancer 
Coalition understands the limited resources our Nation faces. However, 
when research continues to show the eradication of cancer is within 
research, we must continue to fund these programs which will save 
millions of lives, reduce untold suffering and save the Nation billions 
of dollars in healthcare costs.
    It is important to note that Americans spend over $4.6 billion per 
year for treatment of this disease (this does not include the burden of 
lost productivity and wages). Statistics show that as baby boomers 
continue to age, the number of Americans impacted by cancer will 
increase. These statistics show the far reaching effects prostate 
cancer can have, not only on individuals and their families, but the 
Nation's economy as well.

                            FUNDING REQUESTS

    This year we have joined with the Cancer and Public Health 
Communities to urge this committee and Congress to provide $29.7 
billion for the NIH, a $1.4 billion increase of fiscal year 2006. We 
request funding that will maintain current programs and progress at the 
NIH. We would also request that Congress appropriate $5.034 billion for 
the National Cancer Institute, a $240 million increase over fiscal year 
2006. Again, this funding would only maintain the current discovery 
pace. Additionally we ask for Congress to appropriate $20 million 
(+6.07 million) for the Prostate Cancer Control Initiatives at the 
Centers for Disease Control. With this program, the public receives 
information about prostate screening and early detection. With 
increased funding, this program can expand and improve outreach 
efforts.
    The NPCC urges these changes to the fiscal year 2007 Appropriations 
bill to ensure funding to cancer research and related programs are a 
top priority in fiscal year 2007 and in the future. We thank you for 
the opportunity to discuss the need for these tools to fight the war on 
prostate cancer. Again, we need to continue to fund these programs to 
ensure that our Nation continues to make advances in cancer 
eradication.
                                 ______
                                 
          Prepared Statement of the National Sleep Foundation

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

  --Provide a 5 percent increase for fiscal year 2007 to the National 
        Institutes of Health (NIH) and a proportional increase of 5 
        percent to the individual institutes and centers, specifically, 
        the National Heart, Lung, and Blood Institute (NHLBI).
  --Continue to urge the National Center on Sleep Disorders Research 
        (NCSDR) of the NHLBI and the Centers for Disease Control and 
        Prevention (CDC) to partner with voluntary health 
        organizations, such as the National Sleep Foundation (NSF), to 
        develop a collaborative sleep education and public awareness 
        initiative based on the roundtable model that other public 
        health-related agencies have used with success. In view of the 
        success of the CDC with similar initiatives, encourage and 
        support the CDC in taking a leadership role with the roundtable 
        initiative.
  --Encourage the Director of the NIH and the Director of the National 
        Heart, Lung, and Blood Institute to name a permanent Director 
        to the National Center on Sleep Disorders Research.
  --Encourage CDC to increase support for initiatives connecting sleep 
        to overall health and safety. Provide $6.321 billion for fiscal 
        year 2007 to the CDC, the same amount Congress provided to the 
        agency in fiscal year 2005.
  --Continue to urge the United States Surgeon General to develop and 
        implement a report on sleep and sleep disorders in order to 
        call attention to the importance of sleep and develop 
        strategies to protect and advance the health and safety of the 
        Nation.
    Mr. Chairman and members of the subcommittee, thank you for 
allowing me to submit testimony on behalf of the National Sleep 
Foundation (NSF). I am Dr. Barbara Phillips, Chairman of the NSF Board 
of Directors and professor at the University Of Kentucky College Of 
Health in the Department of Preventive Medicine. The NSF is an 
independent, non-profit organization that is dedicated to improving 
public health and safety by achieving understanding of sleep and sleep 
disorders, and by supporting sleep-related education, research, and 
advocacy. We work with sleep medicine and other health care 
professionals, researchers, patients and drowsy driving victims 
throughout the country as well as collaborate with many government and 
public and private organizations with the goal of preventing health and 
safety problems related to sleep deprivation and untreated sleep 
disorders.
    Sleep problems, whether in the form of medical disorders, or 
related to work schedules and a 24/7 lifestyle, are ubiquitous in our 
society. At least 50 million Americans suffer from sleep disorders and 
millions of others experience sleep problems related to other medical 
conditions; yet more than 60 percent of adults have never been asked 
about the quality of their sleep by a physician, and fewer than 20 
percent have ever initiated such a discussion. Millions of individuals 
struggle to stay alert at school, on the job, and on the road. 
According to the National Highway Traffic Safety Administration's 2002 
National Survey of Distracted and Drowsy Driving Attitudes and 
Behaviors, an estimated 1.35 million drivers have been involved in a 
drowsy driving related crash in the past five years. A large number of 
academic studies have linked work accidents, absenteeism, and school 
performance to sleep deprivation and circadian effects.
    Sleep apnea, a sleep-related breathing disorder which affects at 
least 5 percent of adult Americans and is closely related to some of 
America's most pressing health problems, such as obesity, hypertension, 
heart failure, and diabetes. Chronic insomnia, experienced by at least 
10 percent of our population is a strong risk factor for depression and 
other widespread mental health conditions. The direct and indirect 
costs associated with sleep disorders and sleep deprivation total an 
estimated $100 billion annually.
    Sleep science has clearly demonstrated the importance of sleep to 
health and well-being, yet research studies continue to show that 
millions of Americans are at risk for the serious health and safety 
consequences of untreated sleep disorders and inadequate sleep. 
Moreover their quality of life suffers and the personal and national 
economic impact is staggering. The severity of the public health burden 
represented by sleep issues are compellingly detailed in a 
groundbreaking new report, Sleep Disorders and Sleep Deprivation: An 
Unmet Public Health Problem by the Institute of Medicine.
    NSF believes that every American needs to understand that good 
health includes healthy sleep, just as it includes regular exercise and 
balanced nutrition. We must elevate sleep to the top of the national 
health agenda. We need your help to make this happen.
    Our biggest challenge is bridging the gap between the outstanding 
scientific advances we have seen in recent years and the level of 
knowledge about sleep held by health care practitioners, educators, 
employers, and the general public. Consequently, the NSF is 
spearheading two important initiatives to raise public and physician 
awareness of the importance of sleep to the health, safety and well-
being of the Nation.
    First, because resources are limited and the challenges great, we 
think creative and new partnerships need to be developed to address 
sleep awareness. Therefore, the NSF has been working with the National 
Center on Sleep Disorders Research (NCSDR) and the Centers for Disease 
Control and Prevention (CDC), to develop an ongoing, inclusive 
mechanism for public and professional awareness on sleep, sleep 
disorders and the consequences of fatigue. Such collaboration between 
Federal agencies and voluntary health organizations would create an 
opportunity for dramatically improving public health and safety as well 
as the quality of life for millions, if not all, Americans. Since 
November of 2004, NIH, CDC, and NSF have been meeting with other 
interested and diverse voluntary and professional groups and Federal 
agencies to discuss the formation of a broad coalition dedicated to 
raising public awareness of sleep. This effort should continue to 
receive the support of Congress in order to encourage the participation 
of relevant Federal agencies.
    In relation to this effort, the National Center on Sleep Disorders 
Research within the National Heart, Lung and Blood Institute (NHLBI) 
currently has an acting director as the result of the recent promotion 
of Dr. Carl Hunt. NCSDR was created in 1993 by the National Institutes 
of Health Revitalization Act (Public Law 103-43) and has served an 
important role in furthering the scientific and public health knowledge 
related to sleep deprivation and sleep disorders. NSF requests that you 
encourage both Drs. Elias Zerhouni, the Director of NIH, and Elizabeth 
Nabel, the Director of the NHLBI to name a permanent director to this 
vitally important Center as soon as possible, so that the mission of 
the NCSDR is not significantly impacted. Additionally, given the 
significant and unique mission of the Center, NIH should consider the 
following characteristics for the NCSDR director position: history of 
collaborative efforts among sleep investigators and educators; 
recognition and stature in the field of sleep medicine; and familiarity 
with the research needs and gaps in the field of sleep medicine.
    Secondly, at the National Institutes of Health's Frontiers of 
Knowledge in Sleep and Sleep Disorders conference, the U.S. Surgeon 
General acknowledged widespread illiteracy in our country regarding 
sleep loss and untreated sleep disorders. He emphasized that sleep 
problems are easily related to the three top areas of the national 
health agenda: prevention, preparedness, and health disparities. 
Prevention of some of our Nation's most pressing health problems would 
be fostered by attending to sleep disorders. Sleep deprivation is a 
major barrier to maximizing preparedness and response in times of 
crisis. Finally, like many health concerns, access to knowledge and 
medical care for sleep problems is less accessible to some of our 
citizens.
    Conferences and workshops held by the Surgeon General involve 
educating the public, advocating for effective disease prevention and 
health promotion programs and activities, and providing a highly 
recognized symbol of national commitment to protecting and improving 
the public's health. The NSF believes it is time that the Federal 
Government helps promote sleep as a public health concern through the 
development of a Surgeon General's Report on Sleep and Sleep Disorders 
in order to call attention to the importance of sleep and develop 
strategies to protect and advance the health and safety of the Nation. 
Therefore, the NSF is advocating for the development and dissemination 
of a Surgeon General's Report on Sleep and Sleep Disorders.
    The new report by the Institute of Medicine includes important 
recommendations that support the sprit of these efforts and other 
specific actions to be taken by the CDC, NIH and other Federal agencies 
and private foundations to increase surveillance of and education on 
sleep health and sleep disorders. CDC, NIH and the Surgeon General must 
partner with voluntary health organizations and increase support for 
initiatives that help ensure the health and safety of all Americans.
    Thank you again for the opportunity to present you with this 
testimony.
                                 ______
                                 
             Prepared Statement of the NephCure Foundation

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2007

    (1) A 5 percent increase for the National Institutes of Health 
(NIH) and the National Institute of Diabetes and Digestive and Kidney 
Diseases (NIDDK).
    (2) Continue to expand the NIH'S Nephrotic Syndrome (NS) and Focal 
Segmental Glomerularsclerosis (FSGS) research portfolios by 
aggressively supporting NIDDK grant proposals in this area and by 
encouraging the National Center for Minority Health and Health 
Disparities (NCMHD) to initiate studies into the incidence and cause of 
NS and FSGS in minority populations.
    Mr. Chairman and members of the subcommittee, I am pleased to 
present testimony on behalf of the NephCure Foundation (NCF), a non-
profit organization driven by a panel of respected medical experts and 
a dedicated band of patients and families working together towards a 
common goal-to save kidneys and to save lives. NCF is the only non-
profit organization exclusively devoted to fighting idiopathic 
nephrotic syndrome (NS) and focal segmental glomerulosclerosis (FSGS). 
Now in its sixth year, the NephCure Foundation continues to work 
tirelessly to support glomerular disease research.
FSGS: One Family's Story
    My son, Bradly Grizzard, was diagnosed with focal segmental 
glomerulosclerosis (FSGS) in 2002. In May of 2005, I donated one of my 
kidneys to him.
    FSGS is one of a cluster of glomerular diseases that attack the one 
million tiny filtering units (nephrons) contained in each human kidney. 
Glomerular disease attacks the portion of the nephron called the 
glomerulus, scarring and often destroying these filters. Scientists do 
not know why glomerular injury occurs, and there is no known cure for 
these diseases.
    FSGS patients, upon diagnosis, often take a downward plunge at a 
rapid rate and it is extremely difficult to make a comeback. My son was 
a star football player at his high school and was being recruited by 
college football coaches before FSGS attacked his body. When his 
kidneys failed, he was forced to give up football, and he had to try 
and juggle college classes along with several hours of dialysis a day. 
We were lucky that my kidney was a match for him, but even so the first 
few hospitals that we approached refused to perform the transplant. We 
were eventually able to find a doctor and a hospital that was willing 
to perform the operation, and the transplanted kidney is now working 
well. But Bradly must remain on costly immunosuppressant drugs for the 
rest of his life. These drugs cause many unpleasant side effects and 
medical complications.
    My son's story is not unique. There are thousands of other people 
in this country who have had their lives disrupted due to the sudden 
onset of FSGS or NS. And although kidney transplants have been very 
successful for thousands of patients, many patients end up rejecting 
the transplanted kidney. Other times, the disease comes back and 
attacks the transplanted kidney. In either case, the patient must then 
again rely on daily dialysis as a means of survival. There are 
thousands of young people who are in a race against time, hoping for a 
treatment that will save their lives. The NephCure Foundation today 
raises its voice to speak for them all, asking you to take specific 
actions that will aid our quest to find the cause and cure of FSGS and 
NS.
    First and foremost, we join the Ad Hoc Group for Medical Research 
Funding in asking for a 5 percent increase for the National Institutes 
of Health (NIH) and the National Institute of Diabetes and Digestive 
and Kidney Diseases (NIDDK).
More Research is Needed
    We are no closer to finding the cause or the cure of FSGS. 
Scientists tell us that much more research needs to be done on the 
basic science behind the disease.
    We are thankful that the NIDDK continues to work with the NephCure 
Foundation on the FSGS clinical trial. Currently 150-175 patients 
nationwide are enrolled in the trial. Recently, the steering committee 
charged with providing programmatic direction to the trial decided on 
several changes which would accelerate progress. NCF is also working 
with the NIDDK to cosponsor ancillary basic biological material studies 
of the enrolled patients.
    The NephCure Foundation is also grateful to the NIDDK for issuing 
two program announcements (PAs) that serve to initiate grant proposals 
on glomerular disease. The first program announcement, issued in 
December of 2005, includes glomerular disease as one of several kidney 
or urologic diseases for which the PA will fund grant proposals. The 
second PA, issued in March of 2006, is glomerular-disease specific. 
Both of these announcements will utilize the R21 mechanism to award 
researchers $275,000 over two years.
    We ask the Committee to encourage the NIDDK to help find the cause 
and the cure for glomerular disease by continuing its support for the 
FSGS clinical trial and the ancillary basic biological material 
studies. We also ask the NIDDK to continue to add glomerular disease to 
program announcements.
Too Little Education About a Growing Problem
    When glomerular disease strikes, it results in a loss of protein 
from the urine and edema. The edema often manifests itself as puffy 
eyelids, a symptom that many parents and physicians mistake as 
allergies. With experts projecting a substantial increase in the number 
of cases of glomerular disease in the coming years, there is a clear 
need to educate pediatricians and family physicians about glomerular 
disease and its symptoms.
    The NephCure Foundation has numerous education programs underway. A 
national FSGS conference will be held in Philadelphia from June 3rd-
4th, 2006. This conference will aim to provide attendees with the most 
up to date information on this disease. Through speakers, information 
sessions, and informal conversations with other patient families, 
attendees will realize they are not alone and will be further energized 
for the effort to find a cause and a cure for FSGS.
    Also, this summer, the NIDDK will sponsor a working group 
scientific conference. This working group will advise NIDDK on animal 
models, reagents, and other resources for the study of glomerular 
disease.
    We also applaud the work of the NIDDK in establishing the National 
Kidney Disease Education Program (NKDEP), and we seek your support in 
urging the NIDDK to make sure that glomerular disease remains a focus 
of the NKDEP.
    We ask the Committee to encourage the NIDDK to have glomerular 
disease receive high visibility in its education and outreach efforts, 
and to continue these efforts in conjunction with the NephCure 
Foundation's work. These efforts should be targeted towards both 
physicians and patients.
Glomerular Disease Strikes Minority Populations
    Nephrologists tell us that glomerular disease strikes a 
disproportionate number of African-Americans. No one knows why this is, 
but some studies have suggested that a genetic sensitivity to sodium 
may be partly responsible. DNA studies of African Americans who suffer 
from FSGS may lead to insights that would benefit the thousands of 
African Americans who suffer from kidney disease.
    As an African-American female and the mother of a son with FSGS, I 
ask that the NIH pay special attention to why this disease affects my 
race to such a large degree. The NephCure Foundation wishes to work 
with the NIDDK and the National Center for Minority Health and Health 
Disparities (NCMHD) to encourage the creation of programs to study the 
high incidence of glomerular disease within the African-American 
population.
    There is also evidence to suggest that the incidence of glomerular 
disease is higher among Hispanic-Americans than in the general 
population. An article in the February 2006 edition of the NIDDK 
publication Recent Advances and Emerging Opportunities, discussed the 
case of Frankie Cervantes, a six year old boy of Mexican and Panamanian 
descent. Frankie has FSGS, and like Bradly, received a transplanted 
kidney from his mother. We applaud the NIDDK for highlighting FSGS in 
their publication, and for translating the article about Frankie into 
both English and Spanish. Only through similar culturally appropriate 
efforts can African American and Hispanic families learn more about 
glomerular disease.
    We ask the Committee to join with us in urging the NIDDK and the 
National Center for Minority Health and Health Disparities (NCMHD) to 
collaborate on research that studies the incidence and cause of this 
disease among minority populations. We also ask that the NIDDK and the 
NCMHD undertake culturally appropriate efforts aimed at educating 
minority populations about glomerular disease.
                                 ______
                                 
             Prepared Statement of One Voice Against Cancer

    One Voice Against Cancer (OVAC) appreciates the opportunity to 
submit written comments for the record regarding funding for cancer 
programs for research, prevention, detection, and treatment as well as 
programs that educate and train nurses in fiscal year 2007 at the 
National Institutes of Health (NIH), the Centers for Disease Control 
and Prevention (CDC), and the Health Resources and Services 
Administration (HRSA). OVAC is a collaboration of more than 40 major 
national organizations representing millions of Americans affected by 
cancer, unified to urge Congress and the White House to increase 
cancer-related appropriations. OVAC stands ready to work with 
policymakers at the Federal, State, and local levels to ensure that 
these important cancer and nursing initiatives at NIH, CDC, and HRSA 
receive adequate funding in fiscal year 2007.
    Our Nation's prior investments in cancer research-related programs 
have saved thousands of lives and accelerated our progress toward the 
Administration's goal of eliminating death and suffering due to cancer 
by the year 2015. However, the challenge remains--cancer will strike 
one of every two men and one of every three women in the United States. 
This year alone, more than 1.4 million men and women in this country 
will receive the devastating news that they have cancer; yet, more than 
10 million cancer survivors can attest to the fact that we are making 
real progress against this disease.
    The Congress took a bold step forward in 1998 when it promised to 
double the budget of the National Institutes of Health (NIH) within 
five years. By keeping that promise, Congress opened the floodgates to 
countless new opportunities and advances in cancer research and 
programs. Thanks to the advances spawned by that infusion of support 
for biomedical research, cancer survivorship rates have steadily 
increased each year. For the first time since 1930, the number of 
cancer deaths in the United States decreased in 2003. Congress must 
maintain that promise with a stable and reasonable level of funding 
increases to sustain the momentum of this exciting research. Since 
fiscal year 2003, NIH funding levels have fallen far short of keeping 
pace with inflation alone, and fiscal year 2006 resulted in a hard cut 
to both NIH and National Cancer Institute funding levels.
    Less funding translates immediately into fewer discoveries, fewer 
new drugs in development, and fewer new treatments reaching patients. 
We cannot reach the 2015 goal without the continued support of the 
Congress. We appreciate that our Nation faces many challenges and 
Congress has limited resources to allocate. However, the conquest of 
cancer and elimination of health disparities is truly within our grasp. 
Making cancer a national priority will save millions of lives, reduce 
untold suffering, and save the Nation billions of dollars in healthcare 
costs now and for the foreseeable future. The investment is surely 
worth it.

            SUSTAIN AND SEIZE CANCER RESEARCH OPPORTUNITIES

    The tremendous investment our Nation has made in the National 
Institutes of Health (NIH) has reaped remarkable returns and set the 
table for a period of unparalleled innovation in the fight against 
cancer and other diseases. For fiscal year 2007, OVAC joins with the 
broader public health community and urges Congress to provide $29.7 
billion for the NIH, a $1.4 billion increase over fiscal year 2006. 
This is the minimal level of funding that will allow the NIH to 
maintain the current pace of discovery and innovation.
    OVAC recognizes the fiscal challenges facing policymakers, but does 
not believe that those challenges require us to weaken our national 
commitment to conquering cancer. While the long-term goal of providing 
adequate funding to explore the most promising opportunities must 
remain paramount, for fiscal year 2007, OVAC urges Congress to provide 
the National Cancer Institute (NCI) with at least $5.034 billion, a 
$240 million increase over fiscal year 2006. This level of funding is 
the bare minimum required to protect our cancer research enterprise and 
maintain the current pace of discovery.
    While a minimal increase of $240 million will maintain current 
programs, it is not sufficient to allow us to move forward with 
advances that we know are possible. For fiscal year 2007, OVAC would 
recommend an increase closer to that of the professional judgment 
budget prepared by the NCI Director. This budget, which calls for $5.9 
billion for fiscal year 2007, represents our national battle plan 
against cancer, outlining the critical core research that is currently 
underway and the most promising and extraordinary research 
opportunities. These exceptional research opportunities include 
expansion of the NCI-designated cancer centers program from 60 to 75 
centers; implementation of the plan to reengineer cancer clinical 
trials for greater standardization, speed, and efficiency; construction 
of linkages between science and the new technologies of advanced 
imaging, proteomics, and computational modeling; expansion of the use 
of medical informatics and bioinformatics to cancer-specific 
applications; and development of an integrative site-based approach to 
cancer research through interdisciplinary team science and 
collaboration. The professional judgment budget is developed through an 
open and public process; it reflects the best thinking of cancer 
researchers, patients, clinicians, and other constituency groups and is 
focused on the Institute's goal of eliminating suffering and death from 
cancer by the year 2015.
    The National Center on Minority Health and Health Disparities 
(NCMHD) was created by Congress to help address the undue burden of 
chronic and acute disease, morbidity and mortality, and lower survival 
rates borne by racial and ethnic minority groups, rural populations and 
other medically underserved populations. OVAC urges the Congress to 
provide the NCMHD with $200 million for fiscal year 2007 to advance its 
critical work coordinating and advancing health disparities research 
across the NIH. OVAC seeks to ensure that NCMHD has the resources to 
develop and enhance initiatives aimed at reducing and ultimately 
eliminating disparities in many chronic diseases, including cancer. 
Having worked with Congress to establish the NCMHD, the members of OVAC 
are committed to seeing it fulfill its mission and achieve its goals 
and objectives.

 BOOST OUR NATION'S INVESTMENT IN CANCER PREVENTION, EARLY DETECTION, 
                             AND AWARENESS

    The Centers for Disease Control and Prevention's (CDC) State-based 
cancer programs provide vital resources for cancer monitoring and 
surveillance, breast and cervical cancer screening, State cancer 
control planning and implementation, and awareness initiatives 
targeting skin, prostate, colon, ovarian and blood cancers. For fiscal 
year 2007, OVAC requests the following funding levels for these proven 
programs:
  --National Comprehensive Cancer Control Program: $50 million (+$33 
        million).--The Comprehensive Cancer Control program provides 
        grants and technical assistance to help States develop and 
        implement plans addressing the cancers most significantly 
        affecting their communities through prevention, early detection 
        and treatment. OVAC's request will allow this program to help 
        more States implement previously developed plans.
  --National Program of Cancer Registries: $65 million (+$16.89 
        million).--The National Program of Cancer Registries 
        facilitates State tracking of cancer trends and subsequent 
        allocation of resources to address specific needs, while also 
        identifying highly effective cancer control programs that can 
        be emulated across the country. The registry provides critical 
        data to ensure we remain on track in the fight against cancer. 
        OVAC's request will enable States to continue to collect and 
        analyze high-quality data as well as evaluate existing cancer 
        prevention efforts.
  --National Breast and Cervical Cancer Early Detection Program: $250 
        million (+$47.57 million).--OVAC appreciates the 
        Administration's longstanding commitment to this important 
        program that provides free breast and cervical screening tests 
        to low income and uninsured women. Unfortunately, millions of 
        eligible women lack access to these critical tests due to lack 
        of funding. The CDC estimates that the program currently only 
        reaches 20 percent of eligible women aged 50 to 64. OVAC's 
        funding request for fiscal year 2007 would allow at least an 
        additional 130,000 women to be served by the program.
  --Colorectal Cancer Screening, Education & Outreach Initiative: $25 
        million (+$10.51 million).--Strong scientific evidence has 
        shown that regular screening and treatment is a cost-effective 
        way to reduce colorectal cancer incidence and mortality. 
        However, screening rates for CRC are currently lower than for 
        other cancer screening services. The Colorectal Cancer 
        Screening, Education & Outreach Initiative helps increase 
        public awareness of colorectal cancer, educate health care 
        providers about colorectal screening guidelines and assist 
        State programs with colorectal cancer priorities. With 
        additional resources this program will be able to expand its 
        awareness initiatives and reduce the number of preventable 
        colorectal cancer deaths.
  --National Skin Cancer Prevention Education Program: $5 million 
        (+$2.93 million).--Skin cancer is the most common form of 
        cancer in the United States and is largely preventable. OVAC's 
        request will allow the program to educate the public about ways 
        to protect themselves and reduce the risks of getting skin 
        cancer.
  --Prostate Cancer Control Initiatives: $20 million (+6.07 million).--
        This initiative provides the public, with special emphasis on 
        men and their physicians, with information about prostate 
        cancer screening and early detection. OVAC's request will allow 
        the program to expand and improve its outreach efforts.
  --Ovarian Cancer Control Initiatives: $7.5 million (+$2.98 
        million).--The Ovarian Cancer Initiative partners with academic 
        and medical institutions to spur discovery of techniques that 
        will detect this cancer and develop more successful treatments. 
        OVAC's request will increase public and professional awareness 
        of the symptoms and best treatments for ovarian cancer, 
        restoring hope to the more than 20,000 women who will be 
        diagnosed with this devastating illness this year.
  --Geraldine Ferraro Blood Cancer Program: $5 million (+$0.46 
        million).--Authorized under the Hematological Cancer Research 
        Investment and Education Act of 2002, this program was created 
        to provide public and patient education about blood cancers, 
        including leukemia, lymphoma and myeloma. OVAC's request will 
        allow the program to continue to provide patients with 
        educational, disease management and survivorship resources to 
        enhance treatment and prognosis.

    SECURING AND MAINTAINING AN ADEQUATE ONCOLOGY NURSING WORKFORCE

    OVAC joins with the nursing community in asking Congress to provide 
$175 million in fiscal year 2007 for the Nurse Reinvestment Act and the 
other nursing workforce programs at the Health Resources and Services 
Administration (HRSA). Over the next 15 years, the number of Medicare 
beneficiaries with cancer is expected to double, while more than 1.1 
million nursing positions go unfilled. The critical role of nurses in 
our health care system cannot be overstated. Oncology nurses are on the 
front-lines of the provision of quality care for cancer patients and 
are vital to administering chemotherapy, managing patient treatments 
and side-effects and providing counseling to patients and family 
members.
    Without an adequate supply of nurses, there will not be enough 
qualified oncology nurses to provide quality, comprehensive cancer care 
to a growing patient population in need. Nurses are also vital to 
helping conduct cancer research through clinical trials, and a shortage 
will slow down the pace of medical research progress. These programs 
will help address the multiple factors contributing to the nationwide 
nursing shortage, including the decline in student enrollments, 
shortage of faculty and poor public perception of nursing as a viable 
and worthwhile profession.

                               CONCLUSION

    OVAC stands ready to work with policymakers to ensure that funding 
for cancer research and related programs is a top priority in fiscal 
year 2007 and beyond. We thank you for this opportunity to discuss the 
funding levels necessary to ensure that our Nation continues to make 
gains in our fight against cancer and has a sufficient nursing 
workforce to care for the patients with cancer of today and tomorrow.
                                 ______
                                 
       Prepared Statement of the Ovarian Cancer National Alliance

    On behalf of the Ovarian Cancer National Alliance (the Alliance), I 
thank the subcommittee for this opportunity to submit written testimony 
regarding the fiscal year 2007 funding allocations for programs in the 
Labor-Health and Human Services and Education appropriations measure 
that the Alliance and ovarian cancer community believe are necessary to 
help reduce and prevent suffering from ovarian cancer. Since its 
inception nine years ago, the Alliance has worked to increase awareness 
of ovarian cancer and boost Federal resources to support scientific 
research into diagnostics and treatments for the disease. Among the 
most urgent challenges in the ovarian cancer field are late detection 
and poor survival of women.
    As a national umbrella organization with 50 regional, State, and 
local groups, the Alliance unites and reaches more than 800,000 
grassroots activists, women's health advocates, health care 
professionals and the public to bring national attention to ovarian 
cancer. As part of this effort, the Alliance advocates for a sustained 
Federal investment in ovarian cancer research, awareness, education and 
early detection. To that end, the Alliance respectfully requests that 
the subcommittee provide the following in fiscal year 2007 funding:
  --$7.5 million to the Centers for Disease Control and Prevention's 
        (CDC) Ovarian Cancer Control Initiative;
  --$29.7 billion to the National Institutes of Health (NIH); and
  --$5.034 billion to the National Cancer Institute (NCI).
    These three agencies are working relentlessly to achieve much-
needed gains in ovarian cancer early detection, treatment and 
survivorship. Consistent investment in ovarian cancer research and 
public awareness campaigns at CDC, NIH and NCI is vital to our fight 
against this deadly disease. The Alliance believes all women should 
have the opportunity to survive ovarian cancer, but unfortunately, 
unless our Nation makes significant investment in ovarian cancer 
research and awareness efforts, thousands of women will continue to 
lose their lives every year.

                   OVARIAN CANCER'S DEADLY STATISTICS

    Today, it is both striking and disheartening to see that despite 
progress made in the scientific, medical and advocacy communities, 
ovarian cancer mortality rates have not significantly improved during 
the past decade. According to the American Cancer Society, in 2006 more 
than 20,000 American women will be diagnosed with ovarian cancer and 
approximately 15,300 will lose their lives to this disease, making it 
the fifth leading cause of cancer death in women (behind lung, breast 
and colorectal cancers). Every woman is at risk for ovarian cancer and 
one in 58 will develop it in her lifetime.
    Behind the sobering statistics are the lost lives of our loved 
ones, colleagues and community members. The country recently lost a 
national treasure to the disease when Mrs. Coretta Scott King died from 
stage III ovarian cancer in January. Her disease was considered 
terminal after a late-stage diagnosis. Unfortunately, Mrs. King's story 
is common for women in our community. When detected early, the five-
year survival rate for women with ovarian cancer increases to more than 
90 percent. However, a valid and reliable screening test--a critical 
tool for improving early diagnosis and survival rates--still does not 
exist for ovarian cancer. With no early detection test, more than 75 
percent of women diagnosed with ovarian cancer are diagnosed in stage 
III or IV. At these stages prognosis is worst as the five-year survival 
rate drops below 30 percent. In simple terms, today, almost half (45 
percent) of all women with ovarian cancer will die within five years of 
their diagnosis.
    Until a screening test is developed, public knowledge of the 
symptoms of ovarian cancer and comprehensive, effective treatment 
protocols are the keys to reduced mortality rates. The CDC Ovarian 
Cancer Control Initiative, NIH and NCI work together to support 
programs and research grants that seek to improve early detection and 
treatment and educate women and health care providers about ovarian 
cancer, thereby increasing awareness and ultimately saving lives.

   THE OVARIAN CANCER CONTROL INITIATIVE AT THE CENTERS FOR DISEASE 
                         CONTROL AND PREVENTION

    The CDC Ovarian Cancer Control Initiative plays an essential role 
in our Nation's fight to eliminate suffering and death from ovarian 
cancer. Created by Congress in 2000, the program coordinates and funds 
health activities aimed at identifying and filling any gaps in 
knowledge of ovarian cancer diagnosis and treatment. According to the 
program website, ``CDC enhances the limited knowledge about ovarian 
cancer by initiating research projects with partners, colleagues and 
national organizations to help identify factors related to early 
disease detection and treatment and survivorship.'' The CDC Ovarian 
Cancer Control Initiative actively partners with State cancer 
registries and cancer centers across the country.
    As the Nation's leading public health agency, the CDC plays an 
important role in translating and delivering research discoveries at 
the community level, especially ensuring that those populations 
disproportionately affected by cancer receive the benefits of our 
Nation's investment in medical research. With its extensive network of 
health professionals and cancer registries, the CDC is the optimal 
Federal agency for such work.

                     EARLY DETECTION AND AWARENESS

    Most women and many health professionals remain unaware of the 
signs and symptoms associated with ovarian cancer. Consequently, many 
women suffer with the disease for months, even years, prior to 
receiving an accurate--and often fatal--diagnosis. Since there is no 
effective screening tool for ovarian cancer, it is imperative that 
women and their health care providers be aware of the multiple ways 
that ovarian cancer can present in a woman through symptoms. The CDC 
Ovarian Cancer Control Initiative is unique among CDC cancer programs. 
With no screening tool, the goal of the Ovarian Cancer Control 
Initiative is to learn more about current practice and identify areas 
of knowledge and practice patterns that need improvement to reduce the 
overwhelming burden of ovarian cancer.

                    STANDARDS OF CARE AND TREATMENT

    The efforts of the CDC Ovarian Cancer Control Initiative also are 
targeted at improving prognosis for women currently living with and 
fighting the disease. Investigation into early symptoms, survival 
trends based on care provided, and research into general epidemiology 
will fill in information gaps to provide a stable body of knowledge 
which will guide future research. Most significantly, examination of 
survival trends based on care received contributes to the development 
of best practice guidelines for women with ovarian cancer. Currently, 
research funded by the Ovarian Cancer Control Initiative addresses four 
public health questions:
  --What factors influence risk perception and how does risk perception 
        affect screening behaviors?
  --What are the primary diagnostic pathways in the diagnosis of 
        ovarian cancer?
  --Are women receiving optimal surgical and chemotherapy treatments?
  --Are women receiving optimal end-of-life care?
    Investigation into these questions will allow the CDC to maximize 
screening effectiveness by primary care physicians, improve early 
detection and diagnosis and provide physicians with ``best practice'' 
guidelines for women diagnosed with ovarian cancer. According to the 
CDC, $2.2 billion is spent on treatment for ovarian cancer each year. 
This figure could greatly be reduced with earlier diagnoses and more 
efficient practice guidelines.

          CDC OVARIAN CANCER CONTROL INITIATIVE-FUNDED GRANTS

    Grants supported by the CDC Ovarian Cancer Control Initiative have 
covered a diverse array of activities over the past six years, all 
aimed at accomplishing the program's mission of increasing awareness 
and improving treatment and survivorship of ovarian cancer. Current on-
going ovarian cancer studies include the following:
  --The Division of Cancer Prevention and Control (DCPC) at the CDC is 
        investigating the influence of perceived risk of ovarian cancer 
        on screening behaviors. This information will be used to 
        maximize screening effectiveness in average and high risk 
        women.
  --Analysis of records of ovarian cancer patients and healthy women 
        presenting symptoms similar to those associated with ovarian 
        cancer to create more specific guidelines for symptom-
        recognition.
  --Investigation into the relationship between patient 
        characteristics, provider characteristics, diagnostic 
        procedures and referral patterns leading to a positive 
        diagnosis to create best practice guidelines for primary care 
        physicians.
  --Investigation into current surgical and chemotherapy practices for 
        women diagnosed with ovarian cancer to develop best practice 
        guidelines and to identify the demographics of women who 
        typically receive poor treatment plans.
  --Research and development of end-of-life care guidelines to prevent 
        undue suffering in women with ovarian cancer.

   BOOSTING THE CDC'S OVARIAN CANCER PREVENTION AND AWARENESS EFFORTS

    In only six years of existence, the CDC Ovarian Cancer Control 
Initiative has made important contributions to better understanding and 
awareness of the disease. However, until the development of a valid and 
reliable screening test, more must be done to increase awareness and 
recognition of the symptoms of ovarian cancer. The full impact and 
benefits of CDC Ovarian Cancer Control Initiative efforts will not be 
fully realized unless the results are effectively translated into 
public health interventions.
    The CDC Ovarian Cancer Control Initiative must continue to build 
its research efforts, but needs enhanced funding to move research 
results out to health care providers and women. Most significantly, 
increased resources are needed for a national effort to educate primary 
care providers on the signs and symptoms of ovarian cancer. These 
physicians and nurses are the most likely group to encounter women 
presenting with ovarian cancer warning signs and symptoms that, if 
recognized early, could lead to a faster diagnosis and therefore an 
increased chance of survival.
    Additional funding in fiscal year 2007 will enable the CDC to 
expand the reach and scope of its current ovarian cancer initiatives to 
help advance our Nation's efforts to reduce and prevent ovarian cancer 
morbidity and mortality. The allocation of $7.5 million in fiscal year 
2007 will continue the excellent progress being made and would help 
expand the program's efforts to include:
  --Development and implementation of two critical and complementary 
        national campaigns about the signs and symptoms of ovarian 
        cancer:
    --(A) A public education campaign with a focus on the signs and 
            symptoms of ovarian cancer, the importance of regular 
            monitoring for high risk populations and strategies for 
            risk reduction.
    --(B) A targeted education and awareness campaign involving primary 
            care physicians.
  --Examination of the epidemiology of ovarian cancer and development 
        of appropriate strategies for addressing issues related to 
        incidence and survival in minority populations.
  --Training of health care professionals in best practices for 
        treating ovarian cancer, emphasizing referral to gynecologic 
        oncologists for optimal survival outcomes.

             A SUSTAINED COMMITMENT TO FUND CANCER RESEARCH

    Our Nation has reaped many benefits from past Federal investments 
in biomedical research at the NIH. The Alliance has joined with the 
broader health community in urging Congress to provide NIH $29.7 
billion and NCI $5.034 billion in fiscal year 2007 to allow these 
agencies to sustain their efforts while also having the resources to 
avoid the severe disruption to that progress that would result from a 
minimal funding increase. The requested increase in NCI allocations 
represents our national battle plan against cancer, focusing on 
critical ongoing research and promising research opportunities.
    When funding stagnates or does not keep pace with inflation, 
progress in critical research programs can be halted or slowed 
significantly. Inadequate funding for the NIH, NCI and the CDC can 
result in inadequate funding for the lesser-known or less popular--yet 
terribly devastating--diseases such as ovarian cancer. The requested 
funding levels would provide the minimum resources required to preserve 
our cancer research enterprise and maintain the current pace of 
discovery.

                         SUMMARY AND CONCLUSION

    The Alliance maintains a long-standing commitment to work with 
Congress, the Administration, and other policymakers and stakeholders 
to improve the survival rate from ovarian cancer through education, 
public policy, research and communication. Please know that we 
appreciate and understand that Congress has limited resources to 
allocate, but we believe the health and safety of American women are 
imperative to the strength of our Nation and should be a national 
priority. We are concerned that without increased funding to bolster 
and expand ovarian cancer education, awareness and research efforts, 
the Nation will continue to see growing numbers of women losing their 
battle with this terrible disease.
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians and researchers--we thank you for your leadership 
and support of Federal programs that seek to reduce and prevent 
suffering from ovarian cancer. Thank you in advance for your support of 
the funding allocations we have requested for the CDC Ovarian Cancer 
Control Initiative, NIH and NCI. Please know that we stand ready to 
serve as a resource for any information you may need. Thank you for the 
opportunity to submit testimony on fiscal year 2007 ovarian cancer 
funding.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers

                              INTRODUCTION

    Thank you, Mr. Chairman Specter, Mr. Ranking Member Harkin, and 
other distinguished members of the subcommittee, for this opportunity 
to express support for the National Institutes of Health (NIH) and the 
National Center for Health Statistics (NCHS)--two agencies important to 
our organizations.

           BACKGROUND ON THE PAA/APC AND DEMOGRAPHIC RESEARCH

    The PAA is a scientific organization comprised of over 3,000 
population research professionals, including demographers, 
sociologists, and economists. The APC is a similar organization 
comprised of over 30 universities and research groups that foster 
collaborative demographic research and data sharing, translate basic 
population research for policy makers, and provide educational and 
training opportunities in population studies. Over 30 population 
research centers are located throughout the country, including two in 
Ohio (Bowling Green State University and Ohio State University) and two 
in Pennsylvania (Pennsylvania State University and the University of 
Pennsylvania).
    Demography is the study of populations and how or why they change. 
Demographers, as well as other population researchers, collect and 
analyze data on trends in births, deaths, and disabilities as well as 
racial, ethnic, and socioeconomic changes in populations. Major policy 
issues population researchers are studying include the demographic 
causes and consequences of population aging, trends in fertility, 
marriage, and divorce and their effects on the health and well being of 
children, and immigration and migration and how changes in these 
patterns affect the ethnic and cultural diversity of our population and 
the Nation's health and environment.
    The NIH mission is to support research that will improve the health 
of our population. The health of our population is fundamentally 
intertwined with the demography of our population. Recognizing the 
connection between health and demography, the NIH supports population 
research programs primarily through the National Institute on Aging 
(NIA) and the National Institute of Child Health and Human Development 
(NICHD).

                      NATIONAL INSTITUTE ON AGING

    Over the next 25 years, the number of individuals age 65 and older 
will likely double, reaching 70.3 million and comprising a larger 
proportion of the entire population, rising from 13 percent today to 20 
percent in 2030.\1\ This substantial growth in the older population is 
driving policymakers to consider dramatic changes in Federal 
entitlement programs, such as Medicare and Social Security, and other 
budgetary changes that could affect programs serving the elderly. 
Further, the macroeconomic and global impact of population aging on 
competitiveness in the world economy is becoming a bigger issue. To 
inform this debate, policymakers need objective, reliable data about 
the antecedents and impact of changing social, demographic, economic, 
and health characteristics of the older population. The NIA Behavioral 
and Social Research (BSR) program is the primary source of Federal 
support for research on these topics.
---------------------------------------------------------------------------
    \1\ Federal Interagency Forum on Aging Related Statistics. Older 
Americans 2000: Key Indicators of Well-Being. 2000.
---------------------------------------------------------------------------
    In addition to supporting an impressive research portfolio, that 
includes the prestigious Centers of Demography of Aging Program, the 
NIA BSR program also supports several large, accessible data surveys. 
Two such surveys, the National Long-Term Care Survey (NLTCS) and the 
Health and Retirement Study (HRS) have become seminal sources of 
information to assess the health and socioeconomic status of older 
people in the United States. By using NLTCS data, investigators 
identified the declining rate of disability in older Americans first 
observed in the mid-1990s--a trend that continued and even accelerated. 
This trend, if continued, could have momentous impact on reducing the 
need for costly long-term care. The HRS, which was launched in 1992 and 
has tracked 27,000 people, has provided data on a number of issues, 
including the role families play in the provision of resources to needy 
elderly and the economic and health consequences of a spouse's death. 
The Social Security Administration recognizes and funds the HRS as one 
of its ``Research Partners'' and posts the study on its home page to 
improve its availability to the public and policymakers. In 2005, the 
Center for Medicare and Medicaid Services (CMS) funded a supplemental 
survey using the HRS to provide CMS with timely information on who is 
likely to enroll in the new Medicare Part D prescription drug program 
and how those decisions are related to knowledge of the program, drug 
costs, and use.
    With additional support in fiscal year 2007, the NIA BSR program 
could fully fund its existing centers and support its ongoing surveys. 
Additional support would allow NIA to expand the centers' role in 
understanding the domestic macroeconomic as well as the global 
competitiveness impact of population aging. NIA could also use 
additional resources to support individual investigator awards by 
precluding an 18 percent cut in its existing grants, improving its 
funding payline, which is now in the 10th percentile, and sustaining 
training and research opportunities for new investigators, which are 
being heavily cut back.

        NATIONAL INSTITUTE ON CHILD HEALTH AND HUMAN DEVELOPMENT

    Since its establishment in 1968, the NICHD Center for Population 
Research has supported research on population processes and change. 
Today, this research is housed in the Center's Demographic and 
Behavioral Sciences Branch (DBSB). The Branch encompasses research in 
four broad areas: family and fertility, mortality and health, migration 
and population distribution, and population composition. In addition to 
funding research projects in these areas, DBSB also supports a highly 
regarded population research infrastructure program and a number of 
large database studies, including the Fragile Families and Child Well 
Being Study and National Longitudinal Study of Adolescent Health.
    NICHD-funded demographic research has consistently provided 
critical scientific knowledge on issues of greatest consequence for 
American families: work-family conflicts, marriage and childbearing, 
childcare, and family and household behavior. However, in the realm of 
public health, demographic research is having an even larger impact, 
particularly on issues regarding adolescent and minority health. For 
example, in 2006, researchers with the National Longitudinal Study of 
Adolescent Health, reported findings illustrating that by the time they 
reach early adulthood (age 19-24), a large proportion of American youth 
have begun the poor practices contributing to three leading causes of 
preventable death in the United States: smoking, poor diet and physical 
inactivity, and alcohol abuse. This study is striking in that it found 
the health situation of young people--in terms of behavior, health 
conditions, and access to and use of care--deteriorates markedly 
between the teen and young adult years. The study reinforces the 
importance of educating young people about adopting healthy lifestyles 
after they leave high school and the parental home.
    Understanding the role of marriage and stable families in the 
health and development of children is another major focus of the NICHD 
DBSB. Consistently, research has shown children raised in stable family 
environments have positive health and development outcomes. Therefore, 
NICHD supports research to elucidate factors that contribute to family 
formation and strong partnerships. Recent findings have identified 
factors that can destabilize relationships between new parents. These 
factors include serious health or developmental problems of the 
parents' child, lower earnings, less education, and a father who has 
other children with different mothers. Policymakers and community 
programs can use these findings to support unstable families and 
improve the health and well being of children.
    With additional support in fiscal year 2007, NICHD could restore 
full funding to its large-scale surveys, which serve as a resource for 
researchers nationwide. Furthermore, the Institute could apply 
additional resources toward improving its funding payline, which has 
gone from the 20th percentile range in 2003 to the 10th percentile in 
January 2006. Additional support could be used to preclude cuts of 17 
percent to 22 percent in applications approved for funding and to 
support and stabilize essential training and career development 
programs to prepare the next generation of researchers.

                 NATIONAL CENTER FOR HEALTH STATISTICS

    Located within the Centers for Disease Control (CDC), the National 
Center for Health Statistics (NCHS) is the Nation's principal health 
statistics agency, providing data on the health of the U.S. population 
and backing essential data collection activities. Most notably, NCHS 
funds and manages the National Vital Statistics System, which contracts 
with the States to collect birth and death certificate information. 
NCHS also funds a number of complex large surveys to help policy 
makers, public health officials, and researchers understand the 
population's health, influences on health, and health outcomes. These 
surveys include the National Health and Nutrition Examination Survey, 
National Health Interview Survey, and National Survey of Family Growth. 
Together, NCHS programs provide credible data necessary to answer basic 
questions about the state of our Nation's health.
    In fiscal year 2006, Congress provided NCHS with the same level of 
funding as in fiscal year 2005, and the Administration has recommended 
NCHS receive the same level in fiscal year 2007. For fiscal year 2007, 
the Friends of NCHS recommends the agency receive $139 million, a $30 
million increase over the fiscal year 2006 level. This funding is 
needed to, among other things, cover cost increases in basic survey 
operations, improve data timeliness and access to data, and expand and 
improve data collection to capture much needed information on issues 
such as health disparities, assisted living, and community health 
centers.

                            RECOMMENDATIONS

    At a time when our Nation is poised to reap the promise of the past 
investment made in the NIH, the agency is facing the prospect receiving 
flat funding in fiscal year 2007. When inflation is factored in, the 
NIH could actually be facing being funded for the fourth year in a row 
below the rate of biomedical research inflation. PAA and APC join other 
organizations in expressing our concern about the precarious NIH 
funding trajectory. Already, NIH has seen a 15 percent reduction in new 
grants between fiscal year 2003 and fiscal year 2006. For population 
research, increased support is needed to ensure the best research 
projects, including new and innovative projects, are being awarded, 
surveys and databases are supported, and training programs are 
stabilized. With respect to NCHS, funding is needed to sustain and 
update its major operations.
    The PAA and APC join the Ad Hoc Group for Medical Research in 
supporting an fiscal year 2007 appropriation of $29.75 billion, a 5 
percent increase over the fiscal year 2006 appropriation, for the NIH. 
In addition, the Friends of NCHS, support a fiscal year 2007 
appropriation of $139 million, a 30 percent increase over the fiscal 
year 2006 appropriation, for the NCHS. Finally, PAA and APC urge the 
subcommittee to include language in the fiscal year 2007 bill, allowing 
continuation of the National Children's Study at the NICHD.
    Thank you for considering our requests and for supporting Federal 
programs that benefit the field of demographic research.
                                 ______
                                 
      Prepared Statement of the Pulmonary Hypertension Association

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

  --$250,000 within the Centers for Disease Control and Prevention for 
        a pulmonary hypertension awareness and education program.
  --A 5 percent increase for the National Heart, Lung and Blood 
        Institute and the establishment of ``Specialized Centers of 
        Clinically Orientated Research'' on Pulmonary Hypertension at 
        the Institute.
  --$25 million for the Health Resources and Services Administration's 
        ``Gift of Life'' Donation Initiative.
    Mr. Chairman, thank you for the opportunity to submit testimony on 
behalf of the Pulmonary Hypertension Association.
    I am honored today to represent the hundreds of thousands of 
Americans who are fighting a courageous battle against this devastating 
disease. Pulmonary hypertension is a serious and often fatal condition 
where the blood pressure in the lungs rises to dangerously high levels. 
In PH patients, the walls of the arteries that take blood from the 
right side of the heart to the lungs thicken and constrict. As a 
result, the right side of the heart has to pump harder to move blood 
into the lungs, causing it to enlarge and ultimately fail.
    PH can occur without a known cause or be secondary to other 
conditions such as; collagen vascular diseases (i.e., scleroderma and 
lupus), blood clots, HIV, sickle cell, and liver disease. PH does not 
discriminate based on race, gender or age. Patients develop symptoms 
that include shortness of breath, fatigue, chest pain, dizziness, and 
fainting. Unfortunately, these symptoms are frequently misdiagnosed, 
leaving patients with the false impression that they have a minor 
pulmonary or cardiovascular condition. By the time many patients 
receive an accurate diagnosis, the disease has progress to a late 
stage, making it impossible to receive a necessary heart or lung 
transplant.
    While new treatments are available, unfortunately, PH is frequently 
misdiagnosed and often progresses to late stages by the time it is 
detected. Although PH is chronic and incurable with a poor survival 
rate, the new treatments becoming available are providing a 
significantly improved quality of life for patients. Recent data 
indicates that the length of survival is continuing to improve, with 
some patients able to manage the disorder for 20 years or longer.
    Fifteen years ago, when three patients who were searching to end 
their own isolation founded the Pulmonary Hypertension Association, 
there were less than 200 diagnosed cases of this disease. It was 
virtually unknown among the general population and not well known in 
the medical community. They soon realized that this was unacceptable, 
and formally established PHA, which is headquartered in Silver Spring, 
Maryland.
    Today, PHA includes:
  --Over 6,000 patients, family members, and medical professionals.
  --An international network of over 120 support groups.
  --An active and growing patient telephone helpline.
  --A new and fast-growing research fund. (A cooperative agreement has 
        been signed with the National Heart, Lung, and Blood Institute 
        to jointly create and fund five, five-year, mentored clinical 
        research grants and PHA has awarded eleven Young Researcher 
        Grants.)
  --Numerous electronic and print publications, including the first 
        medical journal devoted to pulmonary hypertension--published 
        quarterly and distributed to all cardiologists, pulmonologists 
        and rheumatologists in the United States.
    Mr. Chairman, at the age of 5, my wife and I noticed that our 
daughter, Emily, could not keep up with the other kids in the 
neighborhood. She seemed to lack the energy and strength to run and 
play. This condition seemed to worsen to the point to where she would 
have to stop and rest after coming down the steps in the morning. We 
noticed that when she was sitting on the bottom step in the morning, 
her lips appeared to have a bluish color.
    After pressing for an answer to these problems for several months, 
Emily was finally diagnosed with pulmonary hypertension and the doctors 
gave a probable remaining lifespan of three years. That unforgettable 
day was 8 years ago and, as you can see, Emily is still here today. She 
is here because of continued advances in the treatment of pulmonary 
hypertension and by the grace of God. There is however, NO cure for 
pulmonary hypertension. Thanks to congressional action, Emily's chances 
of a full life have greatly increased. We need, however, additional 
support for research and related activities to continue to develop 
treatments that will extend the published NIH life expectancy beyond 
the 2.8 years after diagnosis.

            FISCAL YEAR 2007 APPROPRIATIONS RECOMMENDATIONS

(A) National Heart, Lung and Blood Institute
    Mr. Chairman, PHA commends the National Heart, Lung and Blood 
Institute (NHLBI) for its strong support of PH research. According to 
leading researchers in the field, we are on the verge of significant 
breakthroughs in our understanding of the disease and the development 
of new and advanced treatments. Ten years ago, a diagnosis of PH was 
essentially a death sentence, with only one approved treatment for the 
disease. Thanks to advancements made through the public and private 
sector, patients today are living longer and better lives with a choice 
of five FDA approved therapies. Recognizing we have made tremendous 
progress, we are also mindful that we are a long way from where we want 
to be, and that is; (1) the management of pulmonary hypertension as a 
treatable chronic disease, and (2) A CURE.
    Mr. Chairman, it is our understanding that NHLBI is poised to 
establish ``Specialized Centers of Clinically Orientated Research'' in 
pulmonary hypertension later this year. We are very excited about the 
promise these Centers hold for the future development of new treatments 
and we encourage the subcommittee to support this worthy investment. In 
addition, we applaud NHLBI and the NIH Office of Rare Diseases for 
their plans to co-sponsor a two-day scientific conference on pulmonary 
hypertension this Fall. This important event will bring together 
leading PH researchers from the United States and abroad to discuss the 
state of the science in pulmonary hypertension and future research 
directions.
    In order to facilitate the establishment of the Specialized Centers 
of Clinically Orientated Research and maintain promising research 
currently underway on PH, the Pulmonary Hypertension Association 
encourages the subcommittee to provide NHLBI with a 5 percent increase 
in funding in fiscal year 2007.
(B) Centers for Disease Control and Prevention
    PHA applauds the subcommittee for its leadership over the years in 
encouraging the Centers for Disease Control and Prevention to initiate 
a Pulmonary Hypertension Education and Awareness Program. We know for a 
fact that Americans are dying due to a lack of awareness of PH, and a 
lack of understanding about the many new treatment options. This 
unfortunate reality is particularly true among minority and underserved 
populations. However Mr. Chairman, you don't have to rely solely on our 
word regarding the need for additional education and awareness 
activities. On November 11, 2005 the CDC released a long awaited 
Morbidity and Mortality Report on pulmonary hypertension. In that 
report, the CDC states:
    (1) ``More research is needed concerning the cause, prevention, and 
treatment of pulmonary hypertension. Public health initiatives should 
include increasing physician awareness that early detection is needed 
to initiate prompt, effective disease management. Additional 
epidemiologic initiatives also are needed to ascertain prevalence and 
incidence of various pulmonary hypertension disease entities.'' (Page 
1, MMWR Surveillance Summary--Vol. 54 No. SS-5)
    (2) ``Prevention efforts, including broad based public health 
efforts to increase awareness of pulmonary hypertension and to foster 
appropriate diagnostic evaluation and timely treatment from health care 
providers, should be considered. The science base for the etiology, 
pathogenesis, and complications of pulmonary hypertension disease 
entities must be further investigated to improve prevention, treatment, 
and case management. Additional epidemiologic activities also are 
needed to ascertain the prevalence and incidence of various disease 
entities.'' (Page 7, MMWR Surveillance Summary--Vol. 54 No. SS-5)
    Mr. Chairman, we are grateful to CDC for their recent support of a 
DVD highlighting the proper diagnosis of PH. However, despite repeated 
encouragement from the subcommittee over the past 5 years, CDC has not 
taken any steps to establish an education and awareness program on PH. 
Therefore, we respectfully request that you provide $250,000 in fiscal 
year 2007 for the establishment of a PH awareness initiative through 
the Pulmonary Hypertension Association.
(C)``Gift of Life'' Donation Initiative at HRSA
    Mr. Chairman, PHA applauds the success of the Health Resources and 
Services Administration's ``Gift of Life'' Donation Initiative. This 
important program is working to increase organ donation rates across 
the country. Unfortunately, the only ``treatment'' option available to 
many late-state PH patients is a lung or heart and lung 
transplantation. This grim reality is why PHA established ``Bonnie's 
Gift Project.'' ``Bonnie's Gift'' was started in memory of Bonnie 
Dukart, one of PHA's most active and respected leaders. Bonnie was a PH 
patient herself. She battled with PH for almost 20 years until her 
death in 2001 following a double lung transplant. Prior to her death, 
Bonnie expressed an interest in the development of a program within PHA 
related to transplant information and awareness. PHA will use 
``Bonnie's Gift'' as a way to disseminate information about PH, 
transplantation and the importance of organ donation to our community 
and organ donation cards.
    PHA has had a very successful partnership with HRSA's ``Gift of 
Life'' Donation Program in recent years. Collectively, we have worked 
to increase organ donation rates and raise awareness about the need for 
PH patients to ``early list'' on transplantation waiting lists. For 
fiscal year 2007, PHA recommends an appropriation of $25 million (an 
increase of $2 million) for this important program.
    Mr. Chairman, once again thank you for the opportunity to present 
the views of the Pulmonary Hypertension Association. We look forward to 
continuing to work with you and the subcommittee to improve the lives 
of pulmonary hypertension patients.
                                 ______
                                 
    Prepared Statement of the Society for Investigative Dermatology

SUMMARY OF THE SOCIETY FOR INVESTIGATIVE DERMATOLOGY'S FISCAL YEAR 2007 
                            RECOMMENDATIONS

    (1) A 5 percent increase for all of the National Institutes of 
Health (NIH) and for the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases (NIAMS).
    (2) Establishment of a skin disease clinical trials network that 
will collect baseline data for specific orphan diseases and facilitate 
the exchange of scientific data across disciplines and institutes.
    (3) Encourage NIAMS to develop collaborative funding mechanisms 
with other NIH institutes and private foundations that leverage skin 
biology studies as a developmental model that will serve for the 
advancement of research across a multitude of diseases and specialties.
    (4) Encourage NIAMS to sponsor studies that capture general and 
skin disease specific measures in order to generate incidence, 
prevalence and quality of life data attributable to skin diseases.
    (5) Increase the number of training awards through the NIH designed 
to facilitate the entry of more individuals into careers in skin 
disease research.

                               BACKGROUND

    The Society for Investigative Dermatology (SID) was founded in 
1938. Its 2,000 members represent over 40 countries worldwide, 
including scientists and physician researchers working in universities, 
hospitals and industry.
    Our members are dedicated to the advancement and promotion of the 
sciences relevant to skin health and disease through education, 
advocacy, and the scholarly exchange of scientific information along 
with our colleagues from the American Academy of Dermatology.
    This collective commitment to research is evidenced in the 
scientific journal published by the SID, the Journal of Investigative 
Dermatology. The Journal is a catalyst for the exchange of scientific 
information pertaining to the 3,000 skin diseases that afflict nearly 
80 million Americans annually.
    The purpose in presenting testimony is to increase awareness of the 
need for more skin research, based on the burden attributable to skin 
disease. It will also highlight some of the advancements that past 
support has enabled.
    We join with the Ad Hoc Group for Medical Research Funding in 
asking for a 5 percent increase to the National Institutes of Health 
(NIH) and the National Institute of Arthritis and Musculoskeletal and 
Skin Diseases (NIAMS).

                         BURDEN OF SKIN DISEASE

    Prior bill report language directed NIAMS to ``consider supporting 
the development of new tools to measure the burden of skin diseases, 
and the training of researchers in this important area''. There only a 
handful of researchers working on NIH-sponsored research that will 
provide such measures.
    Skin disease impacts our citizens more than previously estimated. A 
recent report released by the Society for Investigative Dermatology and 
the American Academy of Dermatology, ``The Burden of Skin Disease'', 
compiled data from only 21 of the known 3,000 skin diseases and 
disorders. The estimated economic costs to society each year from those 
21 diseases totaled nearly $39 billion.
    The true impact extends far beyond mere economics. These patients 
encounter discomfort and pain, physical disfigurement, disability, 
dependency and death. Skin conditions affect an individual's ability to 
interact with others and compromise the self-confidence of those 
inflicted.
    One of the most striking findings in the study was the lack of 
general and skin-disease specific measures that are needed to generate 
data surrounding the incidence, prevalence, economic burden, quality of 
life, disability and handicaps attributable to these diseases.
    We ask the Committee to devote the resources needed to develop 
components of national health surveys that capture dermatological data 
above and beyond skin cancer incidence and prevalence.

                           RESEARCH ADVANCES

    Skin is the body's largest organ and serves as the primary barrier 
to external pathogens and toxins. Researchers at the NIH campus and 
institutions around the country are working diligently to define how 
the skin functions to protect us, how this fails in disease, and how 
compromised functions in disease can be restored.
    Cell biology allows scientists to understand the life cycle of skin 
and hair-producing cells and identify the causes of disease, leading to 
better treatments and preventative measures. Advances in wound healing 
and skin ulcers are helping the growing aging population, those with 
diabetes, burn victims and our veteran population. Lasers continue to 
provide less invasive options for patients requiring surgery.
    Fundamental discoveries resulting from skin biology and 
translational research have yielded advances that are broadly 
applicable to human development and disease. Continued investment is 
required to fully capitalize on these ground-breaking advances.
    Important new research findings include the following:
  --The genes responsible for skin cancer and inherited skin disorders 
        have been identified, making targeted therapy possible.
  --The molecular mechanisms of auto-immune and inflammatory skin 
        diseases are better understood, allowing for the use of 
        focused, selective immunosuppressive therapy with greater 
        safety and efficacy.
  --Oral medications to treat and prevent viral and fungal diseases 
        have become available.
  --Lasers have made possible the removal of disfiguring skin 
        malformations.
  --Modern phototherapy and photochemotherapy allow for more effective 
        treatment of inflammatory skin disease, lymphoma, depigmenting 
        disorders and auto-immune diseases.
  --Retinoids and sunscreens have reduced the risk of skin cancer in 
        the elderly, in transplant patients, and in other populations.
  --Painless transdermal drug delivery has become available.
    Recent developments in the areas of clinical epidemiology, 
biostatistics, economics, and the quantitative social sciences have 
begun to provide objective evaluation measures, although additional and 
improved measures are still desperately needed. These measures will 
help to identify effective interventions and allow us to better 
quantify contributions to the quality of life and health of Americans.
    A significant portion of skin disease is chronic, resulting from 
aging, genetics and environmental and occupational exposure.
    We ask the NIH to work to identify additional biomarkers in order 
to better understand skin disease pathways and interaction with other 
diseases and environmental factors.

           TRANSLATING DISCOVERY TO TREATMENTS FOR AMERICANS

    The goal of skin disease research is to improve the quality of life 
for the one in three Americans that suffer from skin disease. That goal 
is embedded in the collective missions of the SID and the intramural 
and extramural scientists funded through the skin portfolios of many of 
the 27 Institutes and Centers of the NIH.
    Medical research organizations such as the SID are the direct 
recipients of the awards made possible through the rigorous peer-
reviewed grant system in place at the NIH. The ultimate beneficiaries 
are the nearly 80 million Americans that stand to benefit from the 
discoveries resulting from research grants.
    Inadequate levels of Federal funding have forced Institute 
administrators to reduce certain types of the available funding 
mechanisms currently in place at the NIH, to decrease success rates, to 
increase administrative cost reductions, to consider decreasing the 
number of awards, and to cut award levels in existing programs.
    Unfortunately, this reality impairs the ability of hypothesis-
driven research, the source of countless discoveries, to drive the 
research system. Adequate funding levels will allow the peer-review 
system to work at full potential, leading to findings that translate 
into better care for those suffering from debilitating diseases. 
Without sufficient funding provided specifically for skin research, 
nearly one third of the Nation would be denied any hope for a better 
quality of life.
    We are grateful for the past support that has been given to the NIH 
and ask you to look for innovative ways to avoid flat or decreased 
funding levels to these Institutes that are charged with improving the 
health of Americans.
                                 ______
                                 
     Prepared Statement of the Society for Maternal-Fetal Medicine

    The Society for Maternal-Fetal Medicine appreciates the opportunity 
to comment on the fiscal year 2007 budget for the National Institutes 
of Health. We are especially grateful for the Committee's support of 
the National Institute of Child Health and Human Development over the 
past years and urge your continued commitment to the critical medical 
research conducted and supported by the National Institutes of Health.
    Established in 1977, the Society for Maternal-Fetal Medicine (SMFM) 
is a not-for-profit organization of over 2,000 members that are 
dedicated to improving perinatal care through research and education. 
Maternal-fetal medicine doctors have advanced knowledge of the 
obstetrical, medical, genetic and surgical complications of pregnancy 
and their effects on both the mother and fetus. The many advances in 
research have allowed the maternal-fetal medicine physician to provide 
the direct care needed to treat the special problems that high risk 
mothers and fetuses face.
    The SMFM applauds the National Institute of Child Health and Human 
Development (NICHD) for its efforts to pursue research to understand, 
prevent and treat the abnormal events that can occur during pregnancy. 
For example:
    Preterm birth.--Remains a leading cause of death, illness, and 
disability among infants during their first year of life. It poses 
great risks to both the infant and mother. Infants born too early are 
at higher risk than full-term babies for medical and developmental 
complications. The earlier the birth, the more risk of complications. 
In addition even without any neonatal conditions, these infants face 
serious adult complications including heart disease and diabetes 
resulting from their intrauterine environment and low birthweight.
    NICHD-supported research has improved the outlook for preterm 
infants and families. The Maternal-Fetal Medicine Units (MFMU) Network 
established in 1986, to address issues pertaining to preterm births and 
low birth weight deliveries, has made steady and impressive strides in 
these areas.
    Researchers recently found that:
  --A substance in the urine of pregnant women can be measured to 
        predict the later development of preeclampsia--a life-
        threatening complication of pregnancy.
  --Weekly injections of 17-hydroxyprogesterone can reduce preterm 
        birth by more than one third among women who are at increased 
        risk of preterm delivery.
    However, despite these efforts, the rate of preterm births 
continues to rise. SMFM therefore urges full support of the MFMU 
Network so that it can continue to address these issues.
    In addition, full funding of the new Genomic and Proteomic Network 
will hasten a better understanding of the pathophysiology of premature 
birth and discover novel diagnostic biomarkers. Studies to be 
undertaken by this network will ultimately aid in formulating more 
effective interventional strategies to prevent premature birth.
    Stillbirth.--Is a major public health issue with morbidity equal to 
that of all infant deaths. Despite this significant and persistent 
burden of stillbirths, they have remained largely unstudied and, for at 
least half of all stillbirths, the cause is undetermined. The NICHD 
cooperative network has initiated a pilot study with the full study 
planned to start this year. The information that will be obtained will 
aid in future research to improve preventive and therapeutic 
interventions and to understand the pathologic mechanisms leading to 
fetal death. Increased knowledge regarding the causes of stillbirths 
will benefit families who have experienced a loss, pregnant women, and 
their physicians, and may lead to the development and evaluation of 
improved clinical and preventive interventions. Full funding of this 
study is urgently needed.
    Near-Term Births.--The preterm birth rate is now over 12 percent of 
all live births, and of these 75 percent are near term births. Near-
term birth occurs after 35-37 weeks of gestation. It is estimated that 
this group encompasses 40 percent of Neonatal ICU admissions. These 
infants are at risk for sepsis; pneumonia; feeding difficulties; white 
matter damage; seizures; apnea; and remain at risk for higher 
morbidities in early infancy. This group of infants has not been well 
studied and may account for a portion of the increase in adverse long-
term outcomes such as autism, attention deficit disorders, and 
neurodevelopmental disorders. Additional funding will allow NICHD to 
facilitate the critical need for research in this area.
    In addition to the need for funding for research, the state of 
funding for physician scientists and researchers has become a major 
problem and is in dire need of a fix.
    Over the last decade, NICHD has responded to the scientific 
community's need for enhanced training programs to provide a solid 
framework for the development of physician scientists and researchers. 
The expansion of research training programs has included a substantial 
investment in the ``T'' (Training Programs) and ``F'' (Fellowship 
Programs) line and the expansion of the ``K'' (Research Career Awards) 
line. After completion of these programs it is anticipated that 
investigators will be competitive for research awards. However, given 
the substantial reduction in the payline, the new investigator's 
ability to be successful is severely restricted. It is imperative that 
NICHD identify and provide an opportunity for funding to investigators 
that NIH has already invested in through completion of training 
programs and who have demonstrated a commitment to a research career. 
It is of major concern to the scientific community that a cadre of 
scientists may be lost due to the stringent funding payline.

                            RECOMMENDATIONS

  --The Society for Maternal-Fetal Medicine supports a 5 percent 
        increase in fiscal year 2007 for the National Institutes of 
        Health (above the fiscal year 2006 funding level) as 
        recommended by the Ad Hoc Group for Medical Research, along 
        with the National Health Council, the Campaign for Medical 
        Research and Research!America.
  --SMFM supports a 5 percent increase for the National Institute of 
        Child Health and Human Development and urge full funding 
        support for:
    --the Maternal Fetal Medicine Unit Network
    --the Genomic and Proteomic Network
    --Research in the area of near-term births
    --The stillbirth collaborative research network (SCRN)
    --Physician scientists and researchers
    Again, thank you for allowing SMFM the opportunity to express its 
concerns regarding the need for sustained funding in fiscal year 2007 
for the critical research programs supported by the National Institute 
of Child Health and Human Development and the National Institutes of 
Health overall.
                                 ______
                                 
         Prepared Statement of the Society of Nuclear Medicine

    The Society of Nuclear Medicine (SNM) appreciates the opportunity 
to submit written testimony for the record regarding Federal funding 
for biomedical research in fiscal year 2007. SNM is an international, 
scientific, professional organization with more than 16,000 members 
dedicated to promoting the science, technology, and practical 
application of nuclear medicine. Over the last 50 years, since 
biomedical imaging first began, the nuclear medicine community has had 
a positive working relationship with the National Institutes of Health 
(NIH). The research and development supported by NIH have made ground-
breaking discoveries in the field of nuclear medicine. Similarly, NIH 
has benefited from the nuclear medicine research conducted through 
Federal funding of the Medical Applications and Measurement Science 
Program at the Department of Energy (DOE). Unfortunately, that $37 
million in funding was eliminated in the fiscal year 2006 Energy and 
Water Appropriations bill. Therefore, the Society requests and strongly 
recommends that the Labor, Health and Human Services, and Education 
(LHHS) Appropriations Subcommittee work with the Energy and Water 
Development Appropriations Subcommittee to ensure that dedicated 
funding for nuclear medicine research is fully restored in fiscal year 
2007.

                       WHAT IS NUCLEAR MEDICINE?

    Nuclear medicine is an established specialty that performs 
noninvasive molecular imaging procedures to diagnose and treat diseases 
and determine the effectiveness of therapeutic treatments, whether 
surgical, chemical, or radiation. It contributes extensively to the 
treatments and diagnoses of patients with cancers of the brain, breast, 
blood, bone, bone marrow, liver, lungs, pancreas, thyroid, ovaries, and 
prostate. Molecular imaging continues to provide critical information 
to help doctors, technicians, and other health care personnel manage 
abnormalities of the heart, brain, and kidneys. In fact, recent 
advances in the detection and diagnosis of Alzheimer's disease can be 
attributed to nuclear medicine imaging procedures, specifically 
positron emission tomography (PET) scans. These advances--which were 
made possible by research performed by nuclear medicine professionals--
helped lead the Centers for Medicare and Medicaid Services (CMS) to 
extend Medicare coverage to include PET scans for some beneficiaries 
who suffer from Alzheimer's and other dementia-related diseases.
    The effect nuclear medicine has on the lives of men, women, and 
children suffering from cancer, heart, and brain diseases is far-
reaching. Annually, more than 20 million men, women, and children 
require noninvasive molecular/nuclear medical procedures. These safe, 
cost-effective procedures include PET scans to diagnose and monitor 
treatments in cancer, cardiac stress tests that analyze heart function, 
bone scans for orthopedic injuries, and lung scans for blood clots. In 
addition, patients undergo procedures to diagnose liver and gall 
bladder functional abnormalities and to diagnose and treat 
hyperthyroidism and thyroid cancer.

IMPACT OF THE LOSS OF FEDERAL FUNDING FOR NUCLEAR MEDICINE RESEARCH ON 
                                  NIH

    In fiscal year 2006, the government abandoned its fifty-year 
commitment to supporting nuclear medicine research by eliminating 
funding for the Medical Applications and Measurement Science Program at 
the DOE and making no accommodation to transition nuclear medicine 
programs to another government agency. Over the years, the DOE Medical 
Applications and Measurement Science Program has generated advances in 
the field of molecular/nuclear medicine. For example, DOE funding 
provided the resources necessary for molecular/nuclear medicine 
professionals to develop PET scanners to diagnose and monitor the 
treatment of cancer. PET scans offer significant advantages over CT and 
MRI scans in diagnosing disease and are more effective in identifying 
whether cancer is present, if it has spread, if it is responding to 
treatment, and if a person is cancer free after treatment. In fact, the 
DOE has stated that this program supports ``research in universities 
and in the National Laboratories, and occupies a critical and unique 
niche in the field of radiopharmaceutical research. The NIH relies on 
our basic research to enable them to initiate clinical trials.''
    The advances in molecular/nuclear medicine made possible by Federal 
funding of nuclear medicine research at the DOE include:
  --Modeling Radiation Damage to the Lung: Treatment of thyroid disease 
        and lymphomas using radioisotopes can cause disabling lung 
        disease. Investigators at Johns Hopkins University have 
        developed a Monte Carlo model that can be used to determine the 
        probability of lung toxicity and be incorporated into a 
        therapeutic regimen. This model will optimize the dose of 
        radioactivity delivered to cancer cells and avoid untoward 
        effects on the lung.
  --New Radiopharmaceuticals with Important Clinical Applications: The 
        DOE radiopharmaceutical science program has developed a number 
        of innovative radiotracers at the University of California at 
        Irvine for the early diagnosis of neuro-psychiatric illnesses, 
        including Alzheimer's disease, schizophrenia, depression, and 
        anxiety disorders.
  --Imaging Gene Expression in Cancer Cells: Images of tumors in whole 
        animals that detect the expression of three cancer genes were 
        accomplished for the first time by investigators at Thomas 
        Jefferson University and the University of Massachusetts 
        Medical Center. This advanced imaging technology will lead to 
        the detection of cancer in humans using cancer cell genetic 
        profiling.
  --Rapid Preparation of Radiopharmaceuticals for Clinical Use: The 
        DOE-sponsored program at the University of Tennessee has 
        developed a new method for preparing radiopharmaceuticals by 
        placing a boron-based salt at the position that will be 
        occupied by the radiohalogen. The method has been used to 
        prepare a variety of cancer-imaging agents.
  --Smaller, More Versatile PET Scanners: Brookhaven National 
        Laboratory (BNL) has completed a prototype mobile PET scanner, 
        which will record images in the awake animal. The mobile PET 
        will be able to acquire positron-generated images in the 
        absence of anesthesia-induced coma and correct for motion of 
        the animal. The long-term goal is to develop PET 
        instrumentation able to diagnose neuro-psychiatric disorders in 
        children.
  --Highest Resolution PET Scanner Developed: Scientists at the 
        Lawrence Berkeley National Laboratory (LBNL) have developed the 
        world's most sensitive PET scanner. The instrument is 10-times 
        more sensitive than a conventional PET scanner and became 
        operational in 2005.
    With restored Federal funding, essential molecular/nuclear medicine 
research will continue at universities, research institutions, national 
laboratories, and small businesses. Moreover, research with 
radiochemistry, genomic sciences, and structural biology will be able 
to usher in a new era of mapping the human brain and using specific 
radiotracers and instruments to more precisely diagnose neuro-
psychiatric illnesses and cancer.
    The future of life-saving therapies and cutting-edge research in 
molecular/nuclear medicine and imaging depends on the restoration of 
Federal funding for nuclear medicine research.

                SUSTAIN AND SEIZE RESEARCH OPPORTUNITIES
 
   For decades, Americans and people from across the world have 
benefited from the strong Federal investment in nuclear medicine and 
biomedical research at NIH. SNM hopes that the LHHS subcommittee will 
continue that trend and fund NIH and the National Institute of 
Biomedical Imaging and Bioengineering (NIBIB) and the National Cancer 
Institute (NCI) at sufficient levels in fiscal year 2007.
    SNM is proud to join its colleagues in the public health community 
in recommending that NIH receive $29.7 billion in fiscal year 2007 
funding--the same level of funding that is included in the Senate-
passed budget resolution. This funding level would permit NIH to 
sustain and build upon its current research activities, which are a 
byproduct of the recent NIH budget-doubling effort. Even a minimal 
decrease or slowed momentum in increased funding for NIH could cause 
severe disruption in the Institutes' research activities and 
capabilities.
    Research in biomedical imaging and bioengineering is progressing 
rapidly, and recent technological advances have revolutionized the 
diagnosis and treatment of disease. In 2000, NIBIB was created to 
specifically focus on biomedical imaging and bioengineering. It has 
made great strides in helping the health care community and patients 
recognize and understand different diseases and disorders. Pancreatic 
transplantation, brain scans, and improvement in epilepsy surgeries are 
just a few examples of how NIBIB research is helping to diagnose and 
treat patients. In order for NIBIB to continue its important work, SNM 
requests that Congress provide it with $388 million in Federal funding 
for fiscal year 2007. This funding level would allow NIBIB to further 
its research, development, and application of emerging and cutting-edge 
biomedical technologies to facilitate improved disease detection, 
management, and prevention.
    In addition, SNM advocates that NCI receive $5.034 billion in 
fiscal year 2007. The American Cancer Society predicts that more than 
1.4 million Americans will be diagnosed with cancer in 2005. 
Significant gains have been made in the war on cancer, and there have 
been successful breakthroughs in diagnosing and treating this terrible 
disease. Currently, PET scans are available to detect more than a dozen 
types of cancer. Cancer research is leading to new therapies that 
translate into longer survival and improved quality of life for cancer 
patients. Extraordinary advances in cancer research have resulted 
because of the strong commitment by the Federal, State, and local 
governments in combating cancer.

                               CONCLUSION

    As outlined above, SNM has a strong interest in making sure that 
biomedical research in the United States is sufficiently funded. Also, 
since NIH relied on the pool of research conducted by the DOE's Medical 
Applications and Measurement Science Program, SNM would like to stress 
the impact that the loss of Federal funding for nuclear medicine 
research will have on NIH. In order to ensure that the positive effects 
and results of research and development are not seriously compromised, 
SNM advocates the allocation of $29.7 billion for NIH, including $388 
million for NIBIB and $5.034 billion for NCI, and requests that the 
LHHS Appropriations subcommittee work with the Energy and Water 
Development Appropriations Subcommittee to ensure that Federal funding 
for nuclear medicine research is fully restored.
    SNM stands ready to work with policymakers on both sides of the 
aisle to advance biomedical research and innovation to help reduce and 
prevent suffering from disease for all Americans. Again, on behalf of 
the members of SNM, I thank you for the opportunity to submit testimony 
regarding the need for increased Federal funding for biomedical 
research.
                                 ______
                                 
   Prepared Statement of the Society for Women's Health Research and 
                   Women's Health Research Coalition

    On the behalf of the Society for Women's Health Research and the 
Women's Health Research Coalition, we are pleased to submit the 
following testimony in support of biomedical research, and more 
specifically women's health research.
    The Society for Women's Health Research is the only national non-
profit women's health organization whose mission is to improve the 
health of women through research, education, and advocacy. Founded in 
1990, the Society brought to national attention the need for the 
appropriate inclusion of women in major medical research studies and 
the need for more information about conditions affecting women 
disproportionately, predominately, or differently than men. In 1999, 
the Women's Health Research Coalition was created by the Society as a 
grassroots advocacy effort consisting of scientists, researchers, and 
clinicians from across the country that are concerned and committed to 
improving women's health research.
    The Society and Coalition are committed to advancing the health of 
women through the discovery of new and useful scientific knowledge. We 
believe that sustained funding for biomedical and women's health 
research programs conducted and supported across the Federal agencies 
is necessary if we are to accommodate the health needs of the 
population and advance the Nation's research capability.

                     NATIONAL INSTITUTES OF HEALTH

    From decoding the human genome to elucidating the scientific 
components of human physiology, behavior, and disease, scientists are 
unearthing exciting new discoveries which have the potential to make 
our lives and the lives of our families longer and healthier. The 
National Institutes of Health (NIH) has made this all possible by 
conducting and supporting our Nation's biomedical research. World-class 
researchers, scientists, and programs at NIH are dedicated to 
understanding how the human body works and to gain insight into 
countless diseases and disorders. Congressional investment and support 
for NIH has made the United States the world leader in medical research 
and has had a direct and significant impact on women's health research 
and the careers of women scientists in the last decade.
    Great strides and advancements have been made since the doubling of 
the NIH budget from $13.7 billion in 1998 to $27 billion in 2003. 
However, we are concerned that the momentum driving new research will 
erode under the current budgetary constraints. Medical research needs 
to be considered an essential investment--an investment in thousands of 
newly trained and aspiring scientists; an investment to remain 
competitive in the global marketplace; and an investment in our 
Nation's health. In fact, a recent national poll indicated that a 58 
percent of Americans believe that a strong investment in research and 
science is critical not only for our global scientific leadership but 
for the health of our economy and citizens. Furthermore, 94 percent 
consider accelerating medical research an important national priority--
comparable to homeland security.
    The administration's fiscal year 2007 budget request of $28.6 
billion for NIH is unraveling the successes from the doubling of NIH's 
budget. The proposed budget would freeze NIH funding at the fiscal year 
2006 appropriated level of $28.57 billion and cut most individual 
Institute budgets from 0.5 to 0.8 percent. The proposed decrease does 
not keep pace with the inflation rate. The annual change in the 
Biomedical Research and Development Price Index (BRDPI) will increase 
to 4.1 percent in fiscal year 2006 and 3.8 percent in fiscal year 2007 
and fiscal year 2008. BRDPI indicates how much the NIH budget would 
need to change to maintain purchasing power to compensate for the 
average increase in prices and to maintain research activity at the 
previous year's level.
    A flat-funded budget will have a negative impact on the number of 
grants NIH will be able to fund. NIH predicts total the total number of 
grants funded will decrease by 656. The number of new grants funded by 
NIH has already dropped by nearly fifteen percent from 10,393 in fiscal 
year 2003 to an estimated 9,062 for fiscal year 2006. The shrinking 
pool of available grants will have a significant impact on scientists 
as they depend upon NIH support to help cover their salaries and 
laboratory expenses. If one fails to obtain a grant they will be less 
likely to achieve tenure and new, less established researchers will be 
forced to consider other careers, resulting in a loss of the critical 
workforce needed to sustain America's cutting edge in biomedical 
research.
    In order to continue the momentum of scientific advancement and 
expedite the translation of research from the laboratory to the 
patient, the Society calls for a five percent increase for the NIH 
fiscal year 2007. In addition, we request that you strongly encourage 
the NIH to assure that women's health research receives resources 
sufficient to meet the health needs of all women.
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that the scientific community 
views the sexes.
    Sex differences play an important role in disease susceptibility, 
prevalence, time of onset and severity and are evident in cancer, 
obesity, coronary heart disease, autoimmune, mental health disorders, 
and other illnesses. This research needs to be supported and 
encouraged. Congress recognizes this importance and should support NIH 
at an appropriate level of funding and direct NIH to continue expanding 
research into sex-based biology.
    Sex differences research in heart disease has long been neglected. 
Heart disease is the number one killer of women in United States, 
killing 493,623 women. Information gaps related to the development, 
diagnosis, and treatment of heart disease among women are enormous, in 
part because women continue to be underrepresented in heart-related 
research studies. As a result, women face misdiagnosis, delayed 
diagnosis, under-treatment and mistreatment of their heart problems. In 
fiscal year 2005 the Centers for Medicare and Medicaid Services highest 
expenditure in women's health 2005 was cardiovascular/pulmonary 
services. Despite large expenditures to treat heart disease, little 
funding is targeted at research that could lead to more effective 
prevention, diagnosis, and treatment. In order to address the 
discrepancies, the Society in conjunction with WomenHeart: the National 
Coalition for Women with Heart Disease compiled a list of ten questions 
that must be answered if women are to receive optimal cardiovascular 
care and treatment. The 10 unanswered research questions are:
    1. Why do women receive significantly fewer referrals for advanced 
diagnostic testing and treatments for heart disease than men, and how 
can the referral rate for women be increased?
    2. What are the best tools and methods for assessing women's risk 
of heart disease?
    3. What are the best strategies for preventing heart disease in 
women?
    4. What treatments for heart disease work best for women?
    5. What are the most effective methods and treatments for diastolic 
heart failure, which is the most common form of congestive heart 
failure in women?
    6. How can the heart disease diagnosis and care disparities between 
white women and women of color be eliminated?
    7. What are the biological differences between men and women in the 
location, type, and heart disease risk level associated with fat 
deposits, and what determines these differences?
    8. How do sex differences in the regulation of heart rhythm affect 
risk of heart disease and response to treatment?
    9. What is the role of inflammation in heart disease in women?
    10. Why are women ages 50 and younger more likely to die following 
a heart attack than men of the same age?
    We strongly believe and encourage that these questions serve as a 
guide for NIH and other health related agencies while developing 
research portfolios.

                  OFFICE OF RESEARCH ON WOMEN'S HEALTH

    The NIH Office of Research on Women's Health (ORWH) has a 
fundamental role in coordinating women's health research at NIH, 
advising the NIH Director on matters relating to research on women's 
health; strengthening and enhancing research related to diseases, 
disorders, and conditions that affect women; working to ensure that 
women are appropriately represented in research studies supported by 
NIH; and developing opportunities for and support of recruitment, 
retention, re-entry and advancement of women in biomedical careers. 
ORWH strives to address sex and gender perspectives of women's health 
and women's health research, as well as differences among special 
populations of women across the entire life span, from birth through 
adolescence, reproductive years, menopausal years and elderly years.
    Two highly successful programs supported by ORWH that are critical 
to furthering the advancement of women's health research are Building 
Interdisciplinary Research Careers in Women's Health (BIRCWH) and 
Specialized Centers of Research on Sex and Gender Factors Affecting 
Women's Health (SCOR). These programs benefit both women's and men's 
health through sex and gender research, interdisciplinary scientific 
collaboration, and provide tremendously important support for young 
investigators in a mentored environment.
    The BIRCWH program is an innovative, trans-NIH career development 
program that provides protected research time for junior faculty by 
pairing them with senior investigators in an interdisciplinary mentored 
environment. What makes BIRCWH so unique is that it bridges advanced 
training with research independence across scientific disciplines. It 
is expected that each scholar's BIRCWH experience will culminate in 
becoming an established independent researcher in women's health. Since 
2000, 197 scholars have been trained in the twenty-four centers 
recording over 634 publications and 526 abstracts. The scholars have 
secured forty NIH grants and seventy awards from industry and 
institutional sources.
    The SCOR program, administered by the National Institute of 
Arthritis and Musculoskeletal and Skin Diseases, was developed by ORWH 
in 2001. SCOR's are designed to increase the transfer of basic research 
findings into clinical practice by housing laboratory and clinical 
studies under one roof. The program was designed to complement other 
federally supported programs addressing women's health issues such as 
BIRCWH. The eleven SCOR programs are conducting interdisciplinary 
research focused on major medical problems affecting women and 
comparing gender difference to health and disease. Each SCOR works hard 
to transfer their basic research findings into the clinical practice 
setting.
    Despite the advancement of women's health research and its 
innovative programs, we were disappointed to see ORWH receive a 
$250,000 cut in fiscal year 2006 from the Office of the Director. 
Congress must direct NIH to continue its support of ORWH and its 
programs.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

    The Department of Health and Human Services (HHS) has several 
offices that enhance the focus of the government on women's health 
research. Agencies with offices, advisors or coordinators for women's 
health or women's health research are the Department of HHS, the Food 
and Drug Administration, the Centers for Disease Control and 
Prevention, the Agency for Healthcare Quality and Research, the Indian 
Health Service, the Substance Abuse and Mental Health Services 
Administration, the Health Resources and Services Administration, and 
the Centers for Medicare and Medicaid Services. These agencies need to 
be funded at levels adequate for them to perform their assigned 
missions. We ask that the Committee Report clarify that Congress 
supports these offices and would like to see them continued and 
strengthened in the coming fiscal year.
    The focus on women's health within HHS has been critical to the 
advances made in women's health in getting the appropriate message out 
to patients and providers. Scientists have only just scratched the 
surface of understanding female biology, with new information 
forthcoming as a result of the recent sequencing of the human X 
chromosome. Now is the time to press ahead with this vital research to 
make discoveries and educate women about their health and clarify the 
misinformation they have been given for years and these offices are 
critical to the success of this effort. There are many important 
programs that we could identify from these women's health offices but 
we would like to specifically mention two in particular.

                      HHS OFFICE OF WOMEN'S HEALTH

    The HHS Office of Women's Health (OWH) is the government's champion 
and focal point for women's health issues. It works to redress 
inequities in research, health care services, and education that have 
historically placed the health of women at risk. The OWH coordinates 
women's health efforts in HHS to eliminate disparities in health status 
and supports culturally sensitive educational programs that encourage 
women to take personal responsibility for their own health and 
wellness. An extraordinary program initiated by the OWH is the National 
Centers of Excellence in Women's Health (CoEs).
    Developed in 1996, the CoEs offer a new model for university-based 
women's health care. Selected on a competitive basis, the current 
twenty CoEs throughout the country seek to improve the health of all 
women across the lifespan through the integration of comprehensive 
clinical health care, research, medical training, community outreach 
and public education, and medical school faculty leadership 
development. The CoEs are able to reach a more diverse population of 
women, including more women of color and women beyond their 
reproductive years. However, CoEs are vulnerable to pressures of 
obtaining adequate funding and having to compete for scarce resources. 
A CoE designation by the OWH is critical not only to patients and 
surrounding communities but also to establishing foundation and other 
non-government funding.
    In fiscal year 2006 OWH received a decrease in its budget and the 
proposed fiscal year 2007 would flat fund the office. We urge Congress 
to provide an increase of $1.5 million for the HHS OWH to allow it to 
continue to sustain and expand the National Centers of Excellence in 
Women's Health.

               AGENCY FOR HEALTHCARE AND RESEARCH QUALITY

    The Agency for Healthcare Research and Quality (AHRQ) is the lead 
Public Health Service agency focused on health care quality, including 
coordination of all Federal quality improvement efforts and health 
services research. AHRQ's work serves as a catalyst for change by 
promoting the results of research findings and incorporating those 
findings into improvements in the delivery and financing of health 
care. This important information provided by AHRQ is brought to the 
attention of policymakers, health care providers, and consumers who can 
make a difference in the quality of health care women receive.
    AHRQ has a valuable role in improving health care for women. 
Through AHRQ's research projects and findings, lives have been saved 
and underserved populations have been treated. For example, women 
treated in emergency rooms are less likely to receive life-saving 
medication for a heart attack. AHRQ funded the development of two 
software tools, now standard features on hospital electrocardiograph 
machines that have improved diagnostic accuracy and dramatically 
increased the timely use of ``clot-dissolving'' medications in women 
having heart attacks.
    While AHRQ has made great strides in women's health research, the 
Administration's budget for fiscal year 2007 could threaten life-saving 
research. If a budget request of $319 million were enacted, AHRQ would 
be flat funded for the third year in a row at fiscal year 2005 levels. 
Flat funding prior to application of taps by Congress seriously 
jeopardizes the research and quality improvement programs that Congress 
demands or mandates from AHRQ.
    We encourage Congress to fund AHRQ at $443 million for fiscal year 
2007. This will ensure that adequate resources are available for high 
priority research, including women's health care, gender-based 
analyses, Medicare, and health disparities.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for medical and health services research 
and its unwavering commitment to the health of the Nation through its 
support of peer-reviewed research. We look forward to continuing to 
work with you to build a healthier future for all Americans.
                                 ______
                                 
     Prepared Statement of The Humane Society of the United States

    On behalf of The Humane Society of the United States (HSUS) and our 
more than 9.5 million supporters nationwide, we appreciate the 
opportunity to provide testimony on our top funding priorities for the 
Labor, Health and Human Services, Education and Related Agencies 
Subcommittee in fiscal year 2007.

                     ALTERNATIVES TO ANIMAL TESTING

    The ICCVAM Authorization Act (Public Law 106-545) requires Federal 
regulatory agencies to ensure that new and revised animal and 
alternative test methods be scientifically validated prior to 
recommending or requiring use by industry. The internationally agreed 
upon definition of validation, supported by the 15 Federal regulatory 
and research agencies that compose the ICCVAM, is: ``the process by 
which the reliability and relevance of a procedure are established for 
a specific use.''

Function of the ICCVAM
    The ICCVAM performs an invaluable function by assessing the 
validation of new, revised and alternative toxicological test methods 
that have interagency application. After appropriate independent peer 
review, the ICCVAM recommends the test to the Federal regulatory 
agencies that regulate the particular endpoint test measures. In turn, 
the Federal agencies maintain their authority to incorporate the 
validated test methods as appropriate for the agencies' regulatory 
mandates. This streamlined approach of assessing the validation of test 
methods has reduced the regulatory burden of individual agencies; 
provided a ``one-stop shop'' for stakeholders for consideration of 
methods; and set uniform criteria for what constitutes a validated test 
method. The ICCVAM can also serve to appropriately assess test methods 
that can refine, reduce and replace the use of animals in toxicological 
testing.
    The ICCVAM's representatives have rigorously assessed several test 
methods that are now deemed scientifically valid and acceptable. In 
addition, the ICCVAM is working to streamline assessment of methods 
from the European Union (EU) that have already been validated for use 
within the EU.

Request for Appropriations
    Since passage of the ``ICCVAM Authorization Act'' in 2000, which 
makes the entity a permanent standing committee, NIEHS has provided 
between $1 and $2.6 million per fiscal year to NICEATM for ICCVAM's 
activities. In order to ensure that Federal regulatory agencies and 
their stakeholders benefit from the work of the ICCVAM, NIEHS funding 
is important. We respectfully request $4 million for this purpose in 
fiscal year 2007.

Request for Committee Report Language
    The NIEHS should support the NICEATM/ICCVAM in creating a five-year 
roadmap for assertively setting goals to prioritize ending the use of 
antiquated animal tests for specific endpoints. It is also imperative 
that the ICCVAM take a more proactive role in isolating areas where new 
methods development is on the verge of replacing animal tests. These 
areas should form a collective call by the Federal agencies that 
compose the ICCVAM to fund any necessary additional effort that is 
required to eliminate the animal methods. We also strongly urge the 
NICEATM/ICCVAM to closely coordinate efforts with its European 
counterpart, the European Centre for the Validation of Alternative 
Methods (ECVAM), to ensure the best use of available funds and sound 
science and to ensure industry has a uniform approach to worldwide 
chemical safety evaluation.
    We also respectfully request that the Committee consider including 
the following report language: ``The Committee commends the National 
Interagency Center for the Evaluation of Alternative Methods/
Interagency Coordinating Committee on the Validation of Alternative 
Methods (NICEATM/ICCVAM) for its leadership role in the assessment of 
new, revised and alternative scientifically validated methods for the 
Federal Government. The Committee also commends the National Toxicology 
Program (NTP) for finalizing its ``Roadmap to Achieve the NTP Vision, A 
Toxicology Program for the 21st Century,'' which commits to ``develop 
and validate improved testing methods and, where feasible, ensure that 
they reduce, refine or replace the use of animals'' as one of its top 
four goals.
    The Committee directs the NICEATM/ICCVAM, in partnership with the 
relevant Federal agency program offices and the NTP, to build on the 
NTP Roadmap to create a five-year plan to research, develop, translate 
and validate new and revised non-animal and other alternative assays 
for integration of relevant and reliable methods into the Federal 
agency testing programs. In this 5-year plan the Federal agency program 
offices shall be directed to identify areas of high priority for new 
and revised non-animal and alternative assays or batteries of those 
assays to create a path forward for the replacement, reduction and 
refinement of animal tests, when this is scientifically valid and 
appropriate. The Committee directs a transparent, public process for 
developing this plan and recommends the plan be presented to the 
Committee by November 15, 2007. Funding for developing the plan shall 
be from the NIEHS and the NTP, and shall not reduce the NICEATM/ICCVAM 
funding base.''

                  BREEDING OF CHIMPANZEES FOR RESEARCH

    The HSUS requests that no Federal funding be appropriated for 
breeding of chimpanzees for research, or for research that requires 
breeding of chimpanzees, for the following reasons:
  --The United States currently has a surplus of chimpanzees available 
        for use in research due to overzealous breeding for HIV 
        research and subsequent findings that they are a poor HIV 
        model.\1\
  --The cost of maintaining chimpanzees in laboratories is exorbitant, 
        totaling between and $9.3 million each year for the current 
        population of 850 federally owned or supported chimpanzees 
        ($15-30 per day per chimpanzee;\1\ $500,000 per chimpanzee's 
        50-year lifetime).
  --The National Center for Research Resources has a publicly-declared 
        moratorium on breeding chimpanzees.
  --Use of chimpanzees in research raises strong public concerns.

Background and history
    Beginning in 1995, the National Research Council (NRC) confirmed a 
chimpanzee surplus and recommended a moratorium on breeding of 
federally owned or supported chimpanzees,\1\ who now number 
approximately 850 of the 1,300 total chimpanzees available for research 
in the United States. According to a National Research Resources 
Advisory Council September 15, 2005 meeting, the National Center for 
Research Resources (NCRR) of NIH extended the moratorium until December 
2007 because of high costs of chimpanzee care, lack of existing colony 
information, and failure of chimpanzees as an HIV model. There are, 
however, cases in which the moratorium is not being obeyed, prompting 
the need for Congressional action.
---------------------------------------------------------------------------
    \1\ NRC (National Research Council) (1997) Chimpanzees in research: 
strategies for their ethical care, management and use. National 
Academies Press: Washington, D.C.
---------------------------------------------------------------------------
Deviations from the moratorium
    Despite the NCRR breeding moratorium, which prohibits breeding of 
federally owned or supported chimpanzee or NIH funding of projects that 
require chimpanzee breeding (NCRR written communication, February 28, 
2006), chimpanzee breeding is still being funded by NIH. For example, 
the National Institute of Allergy and Infectious Diseases maintains a 
contract with New Iberia Research Center in Louisiana to provide 10 to 
12 infant chimpanzees annually for research projects. The 10-year 
contract entitled ``Leasing of chimpanzees for the conduct of 
research'' has been allotted over $22 million, with $3.9 million 
awarded since its inception in September 2002.

Chimpanzees have often been a poor model for human health research
    The scientific community recognizes that chimpanzees are poor 
models for HIV because chimpanzees do not develop AIDS. Similarly, 
though chimpanzees do not model the course of the human Hepatitis C 
virus, they continue to be widely used for this research. According to 
the chimpanzee genome, some of the greatest differences between 
chimpanzees and humans relate to the immune system,\2\ calling into 
question the validity of infectious disease research using chimpanzees.
---------------------------------------------------------------------------
    \2\ The Chimpanzee Sequencing and Analysis Consortium/Mikkelsen, 
TS, et al.,(1 September 2005) Initial sequence of the chimpanzee genome 
and comparison with the human genome, Nature 437, 69-87.
---------------------------------------------------------------------------
Ethical and public concerns about chimpanzee research
    Chimpanzee research raises serious ethical issues, particularly 
because of their extremely close similarities to humans in terms of 
intelligence and emotions. Americans are clearly concerned about these 
issues: 90 percent believe it is unacceptable to confine chimpanzees 
individually in government-approved cages, and 54 percent believe that 
it is unacceptable for chimpanzees to ``undergo research which causes 
them to suffer for human benefit'' (conducted by Zogby International 
for Chimpanzee Collaboratory, 2001).
    We respectfully request the following committee report language:

    ``The Committee directs that no funds provided in this Act be used 
to support the breeding of chimpanzees for research or to support 
research that requires breeding of chimpanzees.''

                       PAIN AND DISTRESS RESEARCH

    It is estimated that at least $10.2 billion per year of the current 
National Institutes of Health budget is devoted to some aspect of 
animal research.\3\ At this time, no funding is set aside specifically 
for determination of ways to reduce the amount of pain and distress in 
animal research. Knowledge regarding recognition, assessment, and 
alleviation of animal pain and distress is critical for both the 
quality of scientific research and animal welfare.
---------------------------------------------------------------------------
    \3\ NIH extramural funding accounts for approximately 90 percent of 
the NIH budget, or $25.5 billion. Of this, approximately 40 percent is 
devoted to some aspect of animal research--totaling approximately $10.2 
billion. Intramural research also accounts for some animal research, 
but the exact figure is unknown.
---------------------------------------------------------------------------
    NIH may receive $28.6 billion in fiscal year 2007 if Congress 
fulfills the President's budget request. Out of this funding, we seek 
$2.5 million (0.009 percent) for research and development focused on 
recognizing, assessing, and alleviating animal pain and distress in 
research. This is not a request for basic research on pain pathways or 
for application to the study of human pain, for example, but for the 
benefit of animals used in painful and distressful research.
    In addition to our request for $2.5 million for this purpose, we 
also urge the Committee to specify in report language that this 
research should be conducted in conjunction with, or ``piggy-backed'' 
onto, ongoing research that already causes pain and distress. 
Infliction of pain and distress on additional animals is unnecessary, 
given the volume of existing research that is believed to involve 
moderate to significant pain and/or distress (we estimate a minimum of 
20-25 percent of all animal research). Furthermore, it is expected that 
the amount of research that involves animal pain and distress will 
increase as animal use in biodefense research increases, as one 
example.
    NIH has a statutory mandate to conduct or support research into 
alternative methods that produce less pain and distress in animals; 
this was specified in the NIH Revitalization Act of 1993 regarding a 
plan for the use of animals in research. Earmarked funding will assist 
NIH in meeting this mandate. Additionally, researchers themselves often 
comment publicly about the urgent need for funding in order to properly 
understand and mitigate pain and distress in research animals and to 
follow Animal Welfare Act and Public Health Service policy requirements 
to minimize pain and distress.
    It is well known that uncontrolled, undetected, and unalleviated 
pain and distress has adverse effects on animal welfare, which leads to 
adverse effects on the quality of science. Ultimately, the lack of 
information on pain and distress leads to misinterpretation of research 
results that could result in harmful effects in human beings when 
animal research results are applied to human clinical trials.
    Numerous surveys indicate that concern about animal pain and 
distress strongly influences public opinion about animal research in 
general. For example, 75 percent of the American public opposes 
research that causes severe animal pain and/or distress, even when the 
goal of the research is to benefit human health (survey conducted by an 
independent polling firm for The HSUS, 2001).
    Our Nation takes pride in leading the world in biomedical research, 
yet we lag behind many other countries in our efforts to minimize pain 
and distress in animal subjects. We urge the Committee to make this 
small investment of $2.5 million to promote animal welfare and enhance 
the integrity of scientific research. We also respectfully request this 
accompanying committee report language:

    ``The Committee provides $2.5 million to support research and 
development focused on improving methods for recognizing, assessing, 
and alleviating pain and distress in research animals. No pain and 
distress should be inflicted solely for the purpose of this initiative, 
since the investigations can and should be conducted in conjunction 
with ongoing research that is believed to involve pain and distress 
under Government Principle IV of Public Health Service Policy, which 
assumes that procedures that cause pain and distress in humans may 
cause pain and distress in animals.''

    Thank you for the opportunity to submit these requests on behalf of 
The Humane Society of the United States.
                                 ______
                                 

                        DEPARTMENT OF EDUCATION

              Prepared Statement of Americans for the Arts

                                REQUEST

    Americans for the Arts is pleased to submit testimony supporting 
fiscal year 2007 appropriations of $53 million for the Arts in 
Education program of the U.S. Department of Education (USDE). We call 
on the Senate Labor/HHS/ED Appropriations subcommittee to reject the 
severe cuts to the Corporation for Public Broadcasting and instead 
provide $430 million in fiscal year 2009. However, we support the 
President's request of $41.39 million for the Office of Museum Services 
within the Institute of Museum & Library Services (IMLS), also funded 
through this subcommittee.
    Americans for the Arts is one of the leading national nonprofit 
organizations for advancing the arts and arts education in America. 
With a 45-year record of objective arts industry research, we are 
dedicated to representing and serving local communities and creating 
opportunities for every American to participate in and appreciate all 
forms of the arts.

                             ARTS EDUCATION

    Our belief in the importance of practical research causes us to 
take special pleasure in supporting USDE's Arts in Education program, 
which is generating impressive evidence on the best ways to improve 
overall academic achievement by integrating the arts into the school 
curriculum.
    As members of the subcommittee know, the Elementary and Secondary 
Education Act [20 USC 7271] provides that funding up to $15 million be 
directed to the John F. Kennedy Center for the Performing Arts and 
VSAarts. Prior to fiscal year 2001, funding never exceeded that level. 
Since fiscal year 2001, however, Congress has appropriated funding 
sufficient to support a broader array of arts education programs--for 
fiscal year 2006, Congress appropriated $35.6 million.\1\ In addition 
to the Kennedy Center and VSAarts, USDE now supports grant competitions 
to further develop established arts education models and support 
professional development for arts educators in four arts disciplines.
---------------------------------------------------------------------------
    \1\ This appropriation was reduced by a 1 percent across-the-board 
rescission to $35.3 million.
---------------------------------------------------------------------------
Three Reasons to Increase Arts Education Funding
    Arts education works for children.--The most important reason to 
support arts education is simply stated: arts education works for 
children. Research increasingly confirms the beneficial effects of arts 
education in several areas, including but not limited to academic 
achievement. We refer the subcommittee to the research compendium 
Critical Links: Learning in the Arts and Student Academic and Social 
Development, released by the Arts Education Partnership in 2002, which 
includes 62 separate studies pointing to ``critical links'' between 
arts education and reading, writing, mathematics, cognitive skills, 
motivation, social behavior, and the school environment. The studies 
indicate that arts education is especially useful for students who are 
economically disadvantaged and/or in need of remedial instruction.\2\
---------------------------------------------------------------------------
    \2\ http://www.aep-arts.org/CLhome.html.
---------------------------------------------------------------------------
    Arts education provides training for a competitive workforce.--
According to the 2002 National Governors Association publication The 
Impact of Arts Education on Workforce Preparation, ``School districts 
are finding that the arts develop many skills applicable to the `real 
world' environment. In a study of 91 school districts across the 
Nation, evaluators found that the arts contribute significantly to the 
creation of the flexible and adaptable workers that businesses demand 
to compete in today's economy.'' \3\
---------------------------------------------------------------------------
    \3\ http://www.nga.org/Files/pdf/050102ARTSED.pdf.
---------------------------------------------------------------------------
    In addition, with more than 548,000 arts-centric businesses 
employing nearly three million people, arts education becomes a 
critical tool in fueling the creative industries of the future with 
arts-trained workers. Arts education is critical to the sustainability 
of an industry that comprises more than 4 percent of all U.S. 
businesses. We know from published research studies on the benefits of 
arts education that early learning in the arts nurtures the types of 
skills and brain development that are important for individuals working 
in the new economy of ideas.
    In his State of the Union address this January, President Bush said 
``We must continue to lead the world in human talent and creativity.'' 
The arts are core to the development of creativity in our children. The 
arts develop skills and talents that foster imagination, critical 
thought, and teamwork: skills that are transferable to the workplace.
    In the documentary ``The Arts and Children: A Success Story,'' Dr. 
Sol Snyder--2003 recipient of the National Medal of Science and 
Distinguished Service Professor of Neuroscience, Pharmacology and 
Psychiatry at the Johns Hopkins University--said:

    ``In the arts, one trains one's senses to perceive and integrate 
what's going on either in the visual environment, auditory involvement, 
or even in the senses of smell, taste, and touch. The arts are very 
good for building those talents, those abilities. Sensory perception 
becomes quite important in mathematics, science, business.
    ``From my own background as a physician and research scientist, I 
have noticed that the most talented, the most productive people in the 
field are those who actually have a background in the arts because 
simple narrow scientific training is not enough to make major 
discoveries. The greatest scientists actually are artists in a sense. 
They are creative; they put together disparate things.'' \4\
---------------------------------------------------------------------------
    \4\ http://www.nasaa-arts.org/publications/artsandchildren.shtml.

    A similar theme on the essential integration of the arts and 
innovation was mentioned in a recent New York Times column by Thomas 
Friedman when he wrote, ``Innovation is often a synthesis of art and 
science, and the best innovators often combine the two.'' He went on to 
write that America's growing emphasis on math and reading must maintain 
a balance with creative learning in the arts to optimize human 
talent.\5\
---------------------------------------------------------------------------
    \5\ ``Worried About India's and China's Booms? So Are They,'' 
Thomas Friedman, New York Times, March 24, 2006.
---------------------------------------------------------------------------
    There is solid research measuring how the arts are integrated into 
the classroom and how they boost achievement in math and science. 
Students who took four years of arts coursework outperformed those of 
their peers who had one half-year or less of arts coursework by 38 
points on the math portion of the SAT. Students who include art in 
their studies are four times more likely to be recognized for academic 
achievement and four times more likely to participate in a math and 
science fair.
    For example, the ``Math in a Basket'' program in the Long Beach, 
CA, school district--funded through a U.S. Department of Education Arts 
in Education Model Development & Dissemination grant--teaches students 
how to plan, design, and make baskets from scratch. Students become 
familiar with art concepts, measurement, algebraic formulas, and 
geometric concepts as they work with their baskets to find the surface 
area, perimeter, and volume of each basket. Participants in the ``Math 
in a Basket'' program score an average of 20 points higher than the 
control group on State math tests.\6\
---------------------------------------------------------------------------
    \6\ http://www.dramaticresults.org/results.php.
---------------------------------------------------------------------------
    Model programs are a wise investment.--Despite increases in overall 
Federal spending for K-12 education, evidence is beginning to 
accumulate that schools are neglecting those areas of the curriculum 
that are not subject to the mandatory testing requirements of No Child 
Left Behind (NCLB). The National Association of State Boards of 
Education (NASBE) identified the threat in its 2003 report ``The Lost 
Curriculum.'' \7\ In 2004, the Council for Basic Education released a 
survey of school principals in four States; one quarter of them 
reported that they have decreased instructional time in the arts.\8\ 
This finding was confirmed just last month in the Center for Education 
Policy's (CEP) report ``From the Capital to the Classroom: Year 4 of 
the No Child Left Behind Act,'' when it found that almost a quarter of 
school districts surveyed reported that time in science, art, and music 
had been reduced due to an increased emphasis on reading and math.\9\ 
The CEP report recommends that USDE should promote ``effective 
practices being used by school districts to enhance instruction in 
tested subjects without cutting time for other important subjects.'' 
The USDE arts education program is a wise investment in developing and 
disseminating these effective practices.
---------------------------------------------------------------------------
    \7\ http://www.nasbe.org/Research_Projects/Lost_Curriculum.html.
    \8\ http://www.ecs.org/html/Document.asp?chouseid=5058.
    \9\ http://www.cep-dc.org/nclb/Year4/Press/.
---------------------------------------------------------------------------
USDE Needs to Maintain Research Efforts in Arts Education
    Meaningful research from USDE is needed to further determine the 
status of dance, music, theater, and visual arts education. The Fast 
Response Survey System (FRSS) report ``Arts Education in Public 
Elementary and Secondary Schools'' is the only research produced by 
USDE on the delivery of arts education and the last FRSS reported data 
collected in the 1999-2000 school year. The next round of data 
collection for an updated report is long overdue. We urge the 
subcommittee to direct USDE to execute the FRSS study as intended. 
Similarly, the National Assessment of Education Progress (NAEP)--the 
national arts ``report card'' last performed in 1997--is scheduled to 
be administered in 2008, and must stay on track. The next NAEP will 
provide critical information about the arts skills and knowledge of our 
Nation's students. Both of these quantitative studies are essential to 
studying and improving access to the arts as a core academic subject.
    The Model Development & Dissemination program and the Professional 
Development program in the Arts in Education initiative at USDE receive 
targeted funding and are tested and measured in a limited number of 
implementation projects, and finally disseminated field-wide. This is a 
highly appropriate use of Federal dollars. Through this program, USDE 
promotes educational excellence, demonstrating how small projects can 
be brought to scale across entire school districts. Increased funding 
means more help for State and local departments of education to develop 
models that will work in highly disparate school districts across the 
Nation. We urge the Senate Subcommittee on Labor, Health and Human 
Services, and Education to recommend $53 million in funding for USDE's 
Arts in Education programs, with the bulk of the increase to be 
allocated to the Arts in Education Model Development and Dissemination 
Program and the Professional Development Program.

                  CORPORATION FOR PUBLIC BROADCASTING

    We urge the subcommittee to reject the Administration's proposed 
funding cuts to the Corporation for Public Broadcasting (CPB) in the 
fiscal year 2007 Labor-HHS-Education appropriations bill. Any reduction 
in CPB's budget will drastically reduce the access that many Americans 
have to public broadcasting, and thus to high-quality arts and cultural 
programming.
    CPB supports public television through its partner, the Public 
Broadcasting Service (PBS). A trusted community resource, PBS brings 
quality programs and education services to nearly 100 million people 
each week. With community-based arts programming and nationally 
televised shows, PBS is often the only source of arts programming in 
many rural parts of the country.
    Public television airs arts programming that is not available on 
commercial television. For example, the Legends of Jazz television 
series on PBS marks the first time in 40 years that jazz has been the 
focus of a national network weekly series. Hosted by noted jazz pianist 
and radio personality Ramsey Lewis, the 13 weekly, 30-minute episodes 
debuted in June 2005 on PBS stations nationwide.
    Budget cuts will weaken National Public Radio (NPR) stations and 
thus the availability of high-quality arts programming. Budget cuts 
will impact public radio broadcasting, as CPB funding represents an 
average of 13 percent of the budget for individual member stations of 
NPR. If NPR loses CPB support, many stations will have to make severe 
cuts to their programming and local services. This will especially 
impact rural areas and stations serving minority populations, as these 
stations heavily rely on Federal funding for their operating budgets. 
While local and State arts agencies also support these stations, they 
could not make up for a loss of Federal funding on this scale.
    We join a broad coalition of public broadcasting supporters with 
this request for funding:
    CPB General Appropriations--$430 million for fiscal year 2009
    CPB Digital Funding--$40 million for fiscal year 2007
    CPB Interconnection--$36 million for fiscal year 2007
    Ready to Learn--$32 million for fiscal year 2007
    Ready to Teach--$15 million for fiscal year 2007

                INSTITUTE FOR MUSEUM & LIBRARY SERVICES

    We urge the subcommittee to support no less than the President's 
proposed increase to $41.39 million for the Office of Museum Services 
within IMLS in the fiscal year 2007 Labor-HHS-Education appropriations 
bill.
    IMLS encourages excellence and leverages State, local, and private 
funds. National competition is a catalyst for excellence and improves 
museum service nationwide. Federal leadership helps disseminate models 
and puts a spotlight on the remarkable resources that museums bring to 
education and to communities across the United States. In addition, 
peer-reviewed IMLS grants assure State, local, and private funders that 
a museum has met high national standards and is worthy of their 
additional support.
    IMLS reinforces the role of museums in lifelong learning. Funding 
supports projects that address a full range of learning opportunities 
in museums, including developing exhibitions, working with schools to 
develop curriculum and programs, creating family and adult programs, 
and developing internet content. American museums provide over 18 
million instructional hours to K-12 schoolchildren. Seventy-one percent 
work with school curriculum specialists to tailor programs to support 
local and State curriculum standards, according to the 2003 edition of 
the IMLS's report ``True Needs, True Partners.''

                               CONCLUSION

    As the research cited above demonstrates, Federal funds boost the 
quality and quantity of support for arts education as well as the 
knowledge that can be gained and disseminated across the education 
establishment. Increased funding means more help for State departments 
of education, educators in schools, and local education agencies. Most 
importantly, it means a better education and more career opportunities 
for our children.
    Americans for the Arts is the leading nonprofit organization for 
advancing the arts in America. With offices in Washington, DC, and New 
York City, it has a record of more than 45 years of service. Americans 
for the Arts is dedicated to representing and serving local communities 
and creating opportunities for every American to participate in and 
appreciate all forms of the arts. Additional information is available 
at www.AmericansForTheArts.org.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    Thank you for this opportunity to provide the American Geological 
Institute's perspective on fiscal year 2007 appropriations for the 
Department of Education. The President's fiscal year 2007 request for 
the Department of Education places an emphasis on increasing U.S. 
competitiveness through math, science, and foreign language programs in 
keeping with the Administration's American Competitiveness Initiative 
announced in the President's State of the Union address. While $380 
million is devoted to new funds for projects based on this initiative, 
these new funds would be offset by significant cuts to other programs 
within the Department of Education. The Department of Education budget 
would be reduced by $3.2 billion for a total requested budget of $54.4 
billion. AGI strongly supports the President's initiative and in 
particular funding for improved science literacy for teachers and 
students, however, we do encourage the subcommittee to retain and 
provide support for other proven and effective programs.
    The National Math and Science Partnership (MSP) program as part of 
No Child Left Behind effectively strengthens K-12 science and math 
education. The President's request includes $182 million for the MSP 
program within the Department of Education, which is the same level of 
funding appropriated in fiscal year 2006. AGI supports this stable 
funding and encourages appropriate emphasis on science education. 
Science often includes mathematical exercises applied to real-world 
problems, giving students a comprehensive and interesting learning 
experience.
    The President's request for fiscal year 2007 focuses much new 
spending on math education and less on science education. Funding 
proposals based on the initiative include $125 million for Math Now for 
elementary school students and $125 million for Math Now for middle 
school students, plus an additional $10 million to create a National 
Math Panel to review and develop math curricula. While a solid math 
education is important, additional funding should also be devoted to 
science education, which complements and expands upon a mathematical 
foundation to understanding and exploring how physical, chemical and 
biological processes work.
    It is essential that highly qualified science teachers develop the 
energetic, eager and curious next generation of scientists and 
engineers. Skilled geoscientists and geoengineers, in particular, are 
needed to find, develop and maintain our energy, agricultural, water 
and air resources, to understand and mitigate natural hazards and to 
ensure an educated public with a general understanding of the Earth 
environment to enhance our public and private quality of life.
    AGI is a nonprofit federation of 44 geoscientific and professional 
societies representing more than 100,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.
    In 1999, the Third International Math and Science Study found that 
the longer U.S. students are in school, the farther they fall behind in 
math and science proficiency in international comparisons. That 
prompted President Bush to propose the National Math and Science 
Partnership (MSP) program as part of No Child Left Behind. The goal of 
the partnership program is to strengthen K-12 science and math 
education by promoting a vision of education as a continuum that begins 
with the youngest learners and progresses through adulthood with 
teacher training. Among its activities, the program supports 
partnerships that unite K-12 schools, institutions of higher education 
and private industry.
    Congress took the President's suggestion and authorized an MSP 
program at the National Science Foundation (NSF) and another 
partnership program at the Department of Education in 2002. These acts 
of Congress fund two different types of partnerships to achieve the 
overall goal of highly qualified math and science teachers ensuring 
that all students have the basic knowledge to compete in the ever 
changing and competitive job market. The funds allocated for the NSF's 
MSPs go to the highest quality proposals chosen through a competitive 
peer-reviewed grant program. The program focuses on modeling, testing 
and identification of effective math-science activities. The funds 
allocated for the Department of Education MSPs go directly to the 
States as formula grants, providing funds to all States to replicate 
and then implement the best of the NSF partnerships throughout the 
country. Once States receive the money, they make competitive grants to 
local partnerships.
    The $120 million in funds for Secondary Education Mathematics 
Initiative is part of the overall High School Initiative, which will 
expand the application of No Child Left Behind principles to improve 
high school education and raise achievement, particularly the 
achievement of students most at risk of failure. This new initiative 
combines a number of categorical programs in order to give States and 
districts more flexibility and contains stronger accountability 
mechanisms.
    AGI believes the two MSPs are the most effective approach to 
rapidly improving the abilities of all students to enhance their future 
prospects regardless of their ultimate career goals. The two programs, 
designed and authorized by Congress, are complementary. AGI supports 
funding at NSF for competitive grants for teaching tools and teacher 
training and funding at the Department of Education for formula grants 
for implementation of these tools in K-12 education. The peer-review 
process in the NSF program should be safeguarded as should the formula 
grants for all States as administered by the Department of Education. 
Moreover, the program within the Department of Education should not 
suffer a net reduction in funding in order to support a new initiative 
for mathematics. These funds should serve the Math and Science 
Partnership with no earmarks or set-asides.
    Thank you for the opportunity to present this testimony to the 
subcommittee. If you would like any additional information, please 
contact me at 703-379-2480, ext. 228 voice, 703-379-7563 fax, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a38253d2b240a2b2d233d2f286425382d">[email&#160;protected]</a>, or 4220 King Street, Alexandria VA 22302-1502.
                                 ______
                                 
 Prepared Statement of the Association of Minority Health Professions 
                                Schools

              SUMMARY OF FISCAL YEAR 2007 RECOMMENDATIONS

  --(1) $550 Million for HRSA's Health Professions Training Programs, 
        Including:
    --$34 million for Minority Centers of Excellence.
    --$36 million for the Health Careers Opportunity Program.
    --$47 million for Scholarships for Disadvantaged Students.
  --(2) $83 million for HRSA'S Healthy Communities Access Program.
  --(3) 5 percent increase overall for the National Institutes of 
        Health, including $250 million for the National Center on 
        Minority Health and Health Disparities.
  --(4) $119 million for the National Center for Research Resources 
        Extramural Facilities Construction Program.
  --(5) $65 million for the Department of Education's Strengthening 
        Historically Black Graduate Institutions Program.
  --(6) $65 million for the HHS Office of Minority Health, including 
        support for a new health disparities initiative.
    Mr. Chairman, thank you for the opportunity to present the views of 
the Association of Minority Health Professions Schools (AMHPS). I am 
Dr. Wayne Harris, Dean of the College of Pharmacy at the Xavier 
University of Louisiana.
    AMHPS is comprised of the Nation's twelve historically black 
medical, dental, pharmacy, and veterinary schools. Combined, our 
institutions have graduated 50 percent of African-American physicians 
and dentists, 60 percent of all the Nation's African-American 
pharmacists, and 75 percent of the African-American veterinarians.
    Mr. Chairman, historically black health professions institutions 
are addressing a pressing national need in carrying out their mission 
of training minorities in the health professions. While African-
Americans represent approximately 15 percent of the U.S. population, 
only 2-3 percent of the Nation's health professions workforce is 
African-American. Studies have demonstrated that when African Americans 
and other minorities are trained in minority institutions, they are 
much more likely to: (1) serve in medically underserved areas, (2) care 
for minorities, and (3) accept patients who are Medicaid dependent or 
otherwise poor.
    This is important Mr. Chairman because the gap in health status 
between our Nation's minority and majority populations continues to 
widen due in part to the lack of access to quality health care services 
in minority communities. As a result, we believe it is imperative that 
the Federal commitment to training African Americans and other 
minorities in the health professions remains strong.
    In spite of our proven success in training health professionals, 
and the important contribution these professionals make, our 
institutions continue to face a financial struggle inherent to our 
mission. The financial challenges facing the majority of our students 
affect our institutions in numerous ways. For example, we are unable to 
depend on tuition as a means by which to respond to any discontinuation 
of Federal support. Moreover, the patient populations served by the 
AMHPS institutions are overwhelmingly poor. As a result, our 
institutions cannot rely on patient care income at a time when the 
average medical school gets 40-60 percent of its operating revenue from 
health care services.
    Mr. Chairman, before I go into a discussion of our Association's 
fiscal year 2007 recommendations, I would like to share Xavier's 
experience with Hurricane Katrina and update you on our recovery 
efforts. Xavier is located in New Orleans and the entire campus was 
flooded with 3-6 feet of water. Each building on campus had significant 
damage on the first floor and the campus was shut down until January 9, 
2006. The University developed an ambitious plan to repair damage and 
resume operations on January 17, 2006 using a revised academic calendar 
to complete the entire academic year in August 2006. I am happy to 
report that the University resumed classes on January 17 as planned. 
Overall University enrollment dropped, however, from approximately 
4,000 students in August 2005 to approximately 3,000 students post-
Katrina. The College of Pharmacy enrollment was less severely affected 
with enrollment dropping from 619 to 600.
    Significant challenges still remain, including cash flow problems 
as we deal with recovery costs in the range of $30 million for 
construction and equipment and disruption of operations of key health 
care institutions in New Orleans. These institutions are vital to the 
clinical education program of the College of Pharmacy and to our 
continued recovery. It is absolutely essential to the University that 
health care delivery services are restored as quickly as possible.
    The University recognized the need to resume our academic programs 
as quickly as possible in order to continue to produce African American 
health professionals and contribute to rebuilding the City of New 
Orleans. By working with other Colleges of Pharmacy across the country, 
we were able to allow senior pharmacy students to continue their 
clinical education while under evacuation and we are pleased to report 
that pharmacy students will graduate on May 20, 2006. Our rebuilding 
effort is well underway but disruption of Federal support for important 
programs such as HRSA'S Center of Excellence would severely hinder this 
rebuilding effort.

 FISCAL YEAR 2007 RECOMMENDATIONS FOR FEDERAL PROGRAMS OF INTEREST TO 
                                 AMHPS

Health Resources and Services Administration
            Health Professions Training
    Mr. Chairman, we are disappointed that the President's budget all 
but eliminates funding again this year for health professions training 
programs focused on diversity in the workforce. The health professions 
training programs administered by the Health Resources and Services 
Administration are the only Federal initiatives designed to address the 
longstanding under-representation of minority individuals in health 
careers. HRSA's Minority Centers of Excellence, Health Careers 
Opportunity Program, and Scholarships for Disadvantaged Students, 
support health professions institutions with a historic mission and 
commitment to increasing the number of minorities in the health 
professions. For fiscal year 2007, AMHPS joins with the Health 
Professions Nursing and Education Coalition in recommending an overall 
funding level of $550 million for health professions training.
    For the health professions programs specifically focused on 
enhancing minority representation in the health care workforce, AMHPS 
recommendations are as follows:
            Minority Centers of Excellence
    The purpose of the Minority Centers of Excellence program (COE) is 
to assist schools that train minority health professionals by 
supporting programs of excellence in health professions education at 
those institutions. The COE program focuses on improving student 
recruitment and performance; improving curricula and cultural 
competence of graduates; facilitating faculty/student research on 
minority health issues; and training students to provide health 
services to minority individuals by providing clinical teaching at 
community-based health facilities. For fiscal year 2007, AMHPS 
recommends a funding level of $34 million for Minority Centers of 
Excellence (an increase of $22 million over fiscal year 2006).
            Health Careers Opportunity Program
    Grants made to health professions schools and educational entities 
under the Health Careers Opportunity Program (HCOP) enhance the ability 
of individuals from disadvantaged backgrounds to improve their 
competitiveness to enter and graduate from health professions schools. 
HCOP funds activities that are designed to develop a more competitive 
applicant pool through partnerships with institutions of higher 
education, school districts, and other community based entities. HCOP 
also provides for mentoring, counseling. primary care exposure 
activities and information regarding careers in a primary care 
discipline. Sources of financial aid are provided to students as well 
as assistance in entering into the health professions school.
    For fiscal year 2007, AMHPS recommends a funding level of $36 
million for the Health Careers and Opportunities Program (an increase 
of $32 million over fiscal year 2006).
            Scholarships for Disadvantaged Students
    The Scholarships for Disadvantaged Students program was established 
to make scholarship funds available to eligible students from 
disadvantaged backgrounds who are enrolled (or accepted for enrollment) 
as full-time students. To be eligible for funding, a school must have 
in place a program to recruit and retain students from disadvantaged 
backgrounds (including racial and ethnic minorities) and demonstrate 
that the program has achieved success based on the number or percentage 
of disadvantaged students who graduate from the school. For fiscal year 
2007, AMHPS recommends a funding level of $47 million for the 
Scholarships for Disadvantaged Students program (an increase of $47 
million over fiscal year 2007).

Healthy Communities Access Program
    Mr. Chairman, Congress passed legislation in 2003 to reauthorize 
the Community Health Centers program. Included in this important 
measure was a provision which established a demonstration authority 
within the Healthy Community Access Program to foster greater 
collaboration between historically black health professions and 
federally qualified CHC's. Specifically, this provision:
    (1) Establishes a demonstration program for the development of 
research infrastructure at historically black health professions 
schools affiliated with federally qualified Community Health Centers.
    (2) Establishes joint and collaborative programs of medical 
research and data collection between historically black health 
professions schools and federally qualified Community Health Centers 
with the goal of improving the health status of medically underserved 
populations.
    (3) Supports the cost of patient care, data collection, and 
academic training resulting from these partnerships.
    Mr. Chairman, several of our member institutions received funding 
in fiscal year 2005 under this promising new demonstration authority. 
Unfortunately, the H-CAP program was eliminated in the fiscal year 2006 
Labor-HHS bill, and the President's budget for fiscal year 2007 does 
not provide any funding for the coming year. AMHPS encourages the 
subcommittee to restore support for this important program in fiscal 
year 2007 at the fiscal year 2005 level of $83 million.

National Institutes of Health
            The National Center on Minority Health and Health 
                    Disparities
    Established in 2000 by the Minority Health and Health Disparities 
Research and Education Act (Public Law 106-525), the National Center on 
Minority Health and Health Disparities at NIH is charged with 
addressing the longstanding health status gap between minority and 
majority populations. The National Center has the authority to:
  --Directly support biomedical research, training, and information 
        dissemination focused on eliminating health status disparities.
  --Serve in a leadership capacity in developing a comprehensive plan 
        for minority health research at NIH.
  --Participate as an equal when NIH institute and center directors 
        meet to determine research policy.
  --Support the enhancement of biomedical research capacity at minority 
        health professions institutions through a ``Research 
        Endowment'' program.
  --Support the development of health professions institutions with a 
        history and mission of serving minority and medically 
        underserved communities through a ``Centers of Excellence'' 
        program.
    For fiscal year 2006, AMHPS recommends a funding level of $250 
million for the National Center. This is an increase of $54 million. 
This new funding will enable the Center to support all of its new 
programs and begin to meet the challenge of eliminating health status 
disparities within minority and medically underserved communities
            Extramural Facilities Construction
    Mr. Chairman, if we are to take full advantage of the historic 
funding increases for biomedical research that Congress has provided to 
NIH over the past decade, it is critical that our Nation's research 
infrastructure remain strong. The current authorization level for the 
Extramural Facility Construction program at the National Center for 
Research Resources is $250 million. The law also includes a 25 percent 
set-aside for ``Institutions of Emerging Excellence'' (many of which 
are minority institutions) for funding up to $50 million. Finally, the 
law allows the NCRR Director to waive the matching requirement for 
institutions participating in the program. We strongly support all of 
these provisions of the authorizing legislation.
    Unfortunately, funding for NCRR's Extramural Facility Construction 
program was completely eliminated in the fiscal year 2006 Labor-HHS 
bill. For fiscal year 2007, AMHPS encourages the subcommittee to 
restore funding for this program to its fiscal year 2004 level of $119 
million, or at a minimum, provide funding equal to the fiscal year 2005 
appropriation of $40 million.
            Research Centers in Minority Institutions
    The Research Centers at Minority Institutions program (RCMI) at the 
National Center for Research Resources has a long and distinguished 
record of helping our institutions develop the research infrastructure 
necessary to be leaders in the area of health disparities research. 
Although NIH has received unprecedented budget increases in recent 
years, funding for the RCMI program has not increased by the same rate. 
Therefore, AMHPS recommends that funding for this important program 
grow at the same rate as NIH overall in fiscal year 2007.

Strengthening Historically Black Graduate Institutions--Department of 
        Education
    The Department of Education's Strengthening Historically Black 
Graduate Institutions program (Title III, Part B, Section 326) is 
extremely important to AMHPS institutions. The funding from this 
program is used to enhance educational capabilities, establish and 
strengthen program development offices, initiate endowment campaigns, 
and support numerous other institutional development activities. For 
fiscal year 2007, AMHPS recommends an appropriation of $65 million (an 
increase of $7 million over fiscal year 2006) to continue the vital 
support that this program provides to historically black graduate 
institutions.

HHS Office of Minority Health
    The HHS Office of Minority Health (OMH) has the potential to play a 
critical role in addressing health status disparities throughout the 
country. Unfortunately, the office does not currently have the 
authority or resources necessary to support activities that will truly 
make a difference in closing the health gap between minority and 
majority populations. For fiscal year 2007, AMHPS recommends a funding 
level of $65 million for the Office, with $10 million designated for 
the following programs focused on medically underserved communities and 
capacity building for the training of minorities in health professions:
    (1) OMH sponsored programs to assist medically underserved 
communities with the greatest need in solving health disparities and 
attracting and retaining health professionals;
    (2) Assistance to minority institutions in acquiring real property 
to expand their campuses to increase the capacity to train minorities 
for medical careers;
    (3) Support of conferences for high school and undergraduate 
students to pursue health professions careers; and
    (4) Support for cooperative agreements with minority institutions 
for the purpose of strengthening their capacity to train more 
minorities in the health professions.
    Once again, thank you for the opportunity to present the views of 
the Association of Minority Health Professions Schools. We look forward 
to working with you in support of these important programs.
                                 ______
                                 
             Prepared Statement of the Center for Education

                           EXECUTIVE SUMMARY

    The Department of Education's (ED) justification for eliminating 
funding for the Education for Democracy Act is essentially the same as 
it was for fiscal year 2006. It also includes the same omissions and 
errors, as noted in the following response.
    The Center for Civic Education (Center) and others supported under 
the Act believe the three major findings of the ED report are not 
adequately supported by the facts. Brief responses to the three 
findings are presented here. More detailed responses follow.
    1. ``Limited impact.'' The first paragraph of the ED justification 
for eliminating the Civic Education program states that it is 
``eliminating small categorical programs that have limited impact. . . 
.'' The statement appears to be contradicted in the next paragraph 
which recognizes the extent of the Center's programs: ``Districts in 
nearly every State and major urban area participate in We the People 
program activities.''
    The Center's programs provide sound, sustained, and effective 
instruction in the fundamental values and principles of constitutional 
democracy annually to approximately 3 million domestic students and 2 
million students in other nations at a cost of approximately $5-6 per 
student. Research and evaluation have demonstrated the significant 
impact of these programs that provide a cost-effective means of 
reaching a significant number of students. Since its inception, the 
Center's We the People program alone has reached more than 28 million 
students in the United States.
    2. ``Little or no reliable evidence of effectiveness.'' The ED 
justification fails to cite or recognize the extensive research and 
evaluation of Center programs as well as other significant evidence of 
program effectiveness, none of which is matched by any other program in 
the field.
    3. ``Additional funding is not necessary for the successful 
operation of this program.'' To anyone aware of the history of support 
for civic education, and the policies, priorities, and practices of 
private sector funding, it is clear that support for national and 
international programs in civic education of the magnitude of those 
implemented by the Center is simply not available from sources other 
than the Federal Government. Federal funding is essential for the 
continuation of this program.
    The following information provides a more detailed response to the 
ED report.

                              INTRODUCTION

    The Department of Education's (ED) justification for eliminating 
funding for the Education for Democracy Act is essentially the same as 
it was for fiscal year 2006. It also includes the same omissions and 
errors as will be noted in the following response.
    ED's justification is composed of three major parts: that the Civic 
Education programs supported under the act (1) have ``limited impact,'' 
(2) have ``little or no reliable evidence of effectiveness,'' and that 
(3) ``additional funding is not necessary for the successful operation 
of this program.'' The Center for Civic Education (Center) and others 
supported under the Act believe these findings are not adequately 
supported by the facts. The Center's responses follow.
1. Response: The Civic Education program has ``limited impact''
    The first paragraph of the ED justification for eliminating the 
Civic Education program states that ED is ``eliminating small 
categorical programs that have limited impact. . . .'' In the next 
paragraph it states that ``The Center . . . is an established non-
profit organization with a broad network of program participants, 
alumni, volunteers, and financial supporters at the local, state, and 
national levels. Districts in nearly every State and major urban area 
participate in We the People program activities.'' It is difficult to 
square the first statement with the second, because for a relatively 
small amount of Federal funds, the Center's domestic and international 
programs have a significant impact on the education of students at the 
pre-collegiate level as well as their teachers in the United States and 
abroad. The following information supports this premise.
    The fiscal year 2006 appropriation for the Education for Democracy 
Act is $29.1 million. In round figures, the allocation of these funds 
is as follows:
  --Center for Civic Education (directed funding)
  --Domestic programs = $17 million
  --International programs = $4.5 million
  --National Council for Economic Education (directed funding)
  --International program = $4.5 million
  --Competitive international exchange program = $3.1 million
  --Note: The Center currently has a $1 million grant under this 
            program for Latin America and a $1 million grant for Africa
            Impact of the Center's Domestic Programs
    Approximately 70 percent of the Center's $17 million for domestic 
programs is allocated to public- and private-sector institutions or 
organizations at State and local levels in the form of sub-awards, free 
curricular materials, and subsidized teacher training programs. These 
funds are managed by approximately 120 coordinators located in public 
or private sector agencies or organizations at State levels. They are 
assisted by approximately 630 congressional district coordinators, many 
of whom are affiliated with school districts. These coordinators, 
essentially volunteers, receive a modest stipend to cover operating 
costs. These coordinators in turn coordinate thousands of additional 
volunteers who serve as judges, academic coaches, timers, facilitators, 
and in other roles required by the size and scope of this endeavor. The 
value of this volunteer network greatly amplifies the value of the 
Federal investment and the reach of the program and exemplifies 
American civic virtue in action. The remaining 30 percent of the funds 
pays for technical assistance to this network and the administrative 
operating costs of the Center.
    The domestic network of coordinators oversees the implementation of 
three major curricular programs that reach approximately 3 million 
students annually at a cost of approximately $5.67 per student. For 
this sum, each student receives the use of a free textbook and an 
estimated 10 to 40 or more hours of instruction in the fundamental 
values and principles of American constitutional democracy and how to 
participate competently and responsibly in political life. As noted 
below, ample research testifies to the positive outcomes of these 
programs.
    The Department of Education's rationale for cutting the Civic 
Education program claims that its ``contribution to the Department's 
mission is marginal.'' This statement does not seem to be in line with 
the policy of President Bush, who stressed the importance of civic 
education in the 2002 introduction to his initiative in History, 
Civics, and Service, in which he stated that:

    ``American children are not born knowing what they should cherish--
are not born knowing why they should cherish American values. A love of 
democratic principles must be taught. At this very moment, Americans 
are fighting in foreign lands for principles defined at our founding, 
and every American--particularly every American child--should fully 
understand these principles.''

    The question might be asked: What other programs in civic education 
does ED support, if any, that accomplish the mission set forth in 
President Bush's speech and which, if any, have the impact on students 
per Federal dollar that result from programs supported under the 
Education for Democracy Act? It should be noted that the Federal 
funding for this program is matched by cost sharing at State and local 
levels estimated at from $5-$8 in value for every Federal dollar spent.
    The need for improvement in the civic education of our Nation's 
students has been demonstrated repeatedly by research findings over the 
past several decades. This need was clearly illustrated in a recent 
survey in which only 28 percent of Americans could list two or more 
First Amendment freedoms, while more than 50 percent could name at 
least two cartoon characters from ``The Simpsons'' (McCormick Tribune 
Freedom Museum Poll, March 1, 2006). The programs supported by Congress 
under the Education for Democracy Act are a proven cost-effective means 
of remedying this shortcoming in the education of our Nation's youth.
            Impact of the Center's International Programs
    As with its domestic programs, approximately 70 percent or more of 
the Center's international funding is allocated to public- and private-
sector institutions or organizations at State and local levels in the 
United States and similar organizations in approximately 70 emerging 
and advanced democracies throughout the world. This support is provided 
in the form of sub-awards, free curricular materials, and subsidized 
teacher training programs. These funds are managed by public- and 
private-sector organizations in 28 States and similar organizations in 
the participating countries. The remaining 30 percent of the funds pay 
for technical assistance to this network and the administrative 
operating costs of the Center.
    The international network of coordinators oversees the 
implementation of curricular programs focused on education for 
democracy. It is difficult in many cases to get accurate figures on 
participation in these programs from the participating countries. We 
believe that 2 million students per year is a modest estimate. The 
students in these countries are being provided instruction in the 
fundamental values and principles of constitutional democracy and how 
to participate competently and responsibly in political life. As noted 
below, ample research testifies to the positive outcomes of these 
programs.
    The $4.5 million in baseline funding for this program from ED is 
augmented by approximately $8 million more in grants from ED, the 
Department of State, USAID, and other domestic sources. The program has 
also precipitated funding from other sources of approximately $15 
million to augment its impact. These sources include the European 
Union, the Russian Ministry of Education, the InterAmerican Development 
Bank, the World Bank, the Mexican Institute for Federal Elections, and 
other public- and private-sector sources in other countries. This 
additional support could not have been generated without the funding 
from ED that has served as ``seed'' money for the establishment of 
successful education for democracy programs in other nations.
    The impact and success of these programs is supported by research 
findings and numerous reports from U.S. Embassies and AID missions, 
which have assisted the Center in their establishment. In many cases, 
the successful impact of pilot programs supported by ED funds has 
prompted these entities to add their own funds to augment the programs. 
A notable example of such an occurrence was the Center's ED-supported 
Jordanian pilot program in democracy education, which has received 
approval for nationwide implementation by the Ministry of Education. 
The success of this program led the State Department to provide an 
additional $3.2 million to implement democracy education programs in 
ten Arab nations in North Africa and the Middle East. In turn, the 
success of that program led the State Department to request that the 
Center submit a proposal for three years of funding for the region at 
$3-4 million per year. None of this would have been possible without 
the sustained funding from ED that enables the Center to initiate and 
maintain education for democracy programs in spite of the changing 
priorities of other sources of funding. It is important to note that 
the State Department funding does not eliminate the need for the 
baseline ED funding for the international civic education program and 
that with continued ED funding, similar advances might be made in other 
parts of the world.
    It is clear that these programs are a significant and cost-
effective contribution to the administration's effort to further the 
worldwide growth of democracy, which is why President Bush has met with 
the Center's Russian partner, and Secretary of State Condolleeza Rice 
has met with the Center's partner in Pakistan. It is also clear that 
the international civic education for democracy movement, central to 
the administration's foreign policy, is at risk without significant 
continuing funding. Although a fledgling nongovernmental membership 
organization--Civitas International--was founded by the United States 
Information Agency in 1995 to assist efforts in this field, the 
organization was never able to raise sustaining funds from other 
organizations or individuals that would permit it to function 
independently. Instead, the organization asked the Center to assist it 
by folding its meetings and functions into the Center's civic education 
network.
    Note: In addition to those students reached by the Center's 
international programs, the economics program funded under this Act and 
implemented by the National Council for Economic Education reaches an 
estimated 2.4 million students annually. The goal of this effective 
program is to help students understand the principles and institutions 
of market economies and their relationship to democracy.
            Summary
    Contrary to the Department of Education's assertion in its 
justification for eliminating funding for the Education for Democracy 
Act, the Center's programs have a significant impact on the civic 
education of pre-collegiate students and their teachers in the United 
States and abroad.
    The Center's programs are proven, cost effective, and reach 
millions of students throughout the world. Approximately 3 million 
students in the United States benefit from the Center's curricular 
programs at a cost of approximately $5.67 per student. The Center's 
programs directly contribute to the mission of the Department of 
Education by accomplishing the mission set forth in President Bush's 
initiative in History, Civics, and Service.
    Approximately 2 million students per year outside of the United 
States are provided by the Center and its network of coordinators with 
instruction in the fundamental values and principles of constitutional 
democracy and learn how to participate competently and responsibly in 
political life. Funding provided by the Department of Education is 
essential for the establishment of successful education for democracy 
programs in other nations. The spectacular success of Center 
initiatives in Jordan and other Arab nations demonstrates the Center's 
cost-effective contribution to the Bush administration's effort to 
advance the worldwide growth of democracy.
2. Response: There is ``little or no reliable evidence of [the] 
        effectiveness'' of the Center's programs
    The Department's document claims that studies of the programs of 
the Center are not sufficiently rigorous to yield reliable results 
about their overall effectiveness. To that end, a single study 
conducted by the Center on students participating in the national 
finals of the Center's annual We the People competition was cited. The 
study employs nationally normed items from the National Assessment of 
Educational Progress (NAEP), the National Election Studies, and the 
College Freshman surveys. The positive results of this study were 
challenged by ED because the students were a select sample--even though 
that fact had always been clearly identified and understood as such, 
and the Department accepted it as a valid performance indicator. 
Indeed, the study in question is performed annually in partial 
fulfillment of requirements placed on the Center by the Department of 
Education.
    Since its inception in 1965 at the University of California at Los 
Angeles, the Center has conducted numerous studies on the effectiveness 
of its curricular programs and contracted with third parties that have 
also conducted such studies. (Most of these studies are not referred to 
in the ED report.) Indeed, the We the People programs have been more 
thoroughly researched than any other programs in the field.
    Each of the recent studies cited below falls within the 
recommendations of the What Works Clearinghouse at the Institute of 
Educational Sciences (IES) of the Department of Education. IES 
encourages the methodological rigor of studies that include 
experimental or high-quality quasi-experimental design and cites them 
as the best determinants for measuring curricular effectiveness.
    Study: MPR Associates, Inc.-- A high-quality quasi-experimental 
study of the We the People: The Citizen and the Constitution program 
conducted in 2003 by MPR Associates, Inc., in collaboration with noted 
research scholars Dr. Richard Niemi, University of Rochester, and Dr. 
Elizabeth Theiss-Morse, University of Nebraska-Lincoln, found 
statistically significant differences between We the People and non-We 
the People students. Specifically, We the People students enrolled in 
AP classes performed, on average, 30 percent better on the knowledge 
survey than students enrolled in non-We the People AP classes. We the 
People students in regular classrooms also significantly outperformed 
their non-We the People counterparts.
    The study also found that We the People students were more likely 
than their peers to show greater growth in their sense of political 
efficacy, sense of citizen responsibility, appreciation of obligations 
of citizenship, and a greater sense of political and community 
responsibility than the control group. The results of these studies 
show the degree to which the Center's programs meet President Bush's 
request for civic education initiatives that ``improve students' 
knowledge of American history, increase civic involvement, and deepen 
their love for our great country.'' (Bush 2002, 1) \1\ It should be 
noted that the Center was unable to obtain funding for a proposal 
submitted to the Department of Education in 2005 for a study employing 
random assignment of students to the curriculum. The Center is still 
seeking funds to use the instruments it has developed to conduct a 
longitudinal study over seven years.
---------------------------------------------------------------------------
    \1\ Bush, George W. (2002). ``President Introduces History and 
Civic Education Initiatives.'' Remarks of the president on the Teaching 
History and Civic Education Initiative, September 17. 
www.whitehouse.gov.
---------------------------------------------------------------------------
    Study: University of Texas.--Dr. Kenneth Tolo, University of Texas 
at Austin, found that the Center's We the People: Project Citizen 
program had positive effects on student attitudes and skills, including 
students' attitudes about their own effectiveness and their engagement 
in their communities. The program also enhanced student communication 
and research skills.
    The study also details seven key areas of Project Citizen 
implementation--State administration, the recruitment of and outreach 
to teachers and school administrators, teacher training, teacher and 
class use, Project Citizen competitions, benefits to students, and 
financial and political support--and offers recommendations for 
maximizing implementation efforts in each of these areas. These 
recommendations have been invaluable to improving the implementation 
strategies of Project Citizen in the United States and abroad.
    Study: RMC Research.--In 2004-2005, RMC Research used qualitative 
and quantitative measures in a quasi-experimental study of students 
taking part in the Project Citizen program in Oklahoma, Michigan, 
Colorado, the Czech Republic, and Slovakia. The study found that 
students in grades 6-12 increased their global knowledge of democracy. 
The study found significant gains in students' knowledge of public 
policy, support for freedom of belief, the right of citizens to 
question government messages, and the right to join organizations. 
Students' civic skills improved as well. Based upon these results, RMC 
is improving item reliability and will conduct a second study in 2006.
    Study: Indiana University at Bloomington.--A high-quality quasi-
experimental study of students in Indiana, Latvia, and Lithuania by 
Thomas S. Vontz, Kim K. Metcalf, and John J. Patrick, Indiana 
University at Bloomington, found that We the People: Project Citizen 
develops students' civic knowledge, skills, and dispositions positively 
and significantly, irrespective of nationality. The full report has 
been published in a volume titled Project Citizen and the Civic 
Development of Adolescent Students in Indiana, Latvia, and Lithuania.
    Study: Center for Civic Education, Bosnia and Herzegovina.--A high-
quality quasi-experimental study of students in Bosnia and Herzegovina 
in 2000 by Dr. Suzanne Soule, Center for Civic Education, found that 
Project Citizen students showed greater confidence in their knowledge 
of local government, were more skilled at explaining problems; showed 
greater analytical abilities in using facts and reason to analyze other 
people's positions on problems, had more positive attitudes with regard 
to their own power in the community and internal efficacy, and showed a 
greater propensity to hold public officials accountable. In 2002, First 
Lady Laura Bush praised the program in remarks to the Organization for 
Economic Cooperation and Development:

    ``The United States is also a partner in the Balkans, working with 
the International Community and Civitas in Bosnia and Herzegovina to 
develop a course in democracy and human rights. This course is taught 
in (primary) schools throughout the region, including Brcko, and it has 
been translated for all three ethnic groups. The course is part of a 
larger effort called `Project Citizen.' Through `Project Citizen' 
programs, children learn to identify and solve problems in their own 
communities, from supplying clean water to improving dangerous traffic 
crossings. Citizenship--a sense of belonging and responsibility--
strengthens societies.''

    Study: Center for Civic Education, Indonesia.--A high-quality 
quasi-experimental study of students in Indonesia in 2002 by Dr. 
Suzanne Soule found Project Citizen participants' political 
participation increased as a result of their involvement with the 
program. In contrast to the control group, they participated more in 
the political process, conducted more research by contacting experts to 
obtain information on issues they cared about, and participated in 
protests at higher rates. They also paid more attention to public 
affairs in the media. The dispositions of students who participated 
more fully in the program--by selecting their problems, presenting 
their proposals, and engaging in other programmatic activities--changed 
more. They became more interested in politics and public affairs. Their 
confidence in their ability to participate, along with their sense of 
political efficacy, increased. Further, high-involvement participants 
increased their expectations of the proper responsiveness of 
government, an important component of accountability.
    Study: WestEd.--The Center is currently working with WestEd, a 
leading survey-design firm, to devise knowledge and attitude tests for 
We the People: Project Citizen domestic and international use. The 
standardized test will be refined and used within and outside the 
United States with various quasi-experimental and experimental studies 
to ensure a maximum scale of comparability. The knowledge tests have 
been piloted in Nigeria and South Africa and are to be utilized in an 
experimental study in Colombia and Mexico in 2006.
    State Department Report.--In a report released by the State 
Department's Bureau of Western Hemisphere Affairs, the Center's ED-
supported Civitas Latin America program is presented as a model for 
developing Cuban democracy (see Chapters 2 and 3). The report cites 
success in training teachers and effectiveness of programs as important 
for encouraging democratic thought and practice.
    USAID Report.--The State Department report is in accord with an 
independent assessment of civic education programs funded by USAID from 
1990 to 2000, which found that ``We the People: Project Citizen has 
many of the characteristics of the most effective civic education 
programs. It is highly participatory, it relates to issues that affect 
the participants in their daily lives, it produces tangible as well as 
intangible results, and it is firmly rooted in the community in which 
it takes place.'' (Brilliant, 2000, 38).\2\
---------------------------------------------------------------------------
    \2\ Brilliant, F. (2000). Civic Education Assessment--Stage II. 
Civic Education Programming Since 1990--A Case Study Based Analysis. 
Report for the U.S. Agency for International Development.
---------------------------------------------------------------------------
            Other Evidence of the Effectiveness of the Center's 
                    Programs
    In addition to previous references to visits with program 
participants by President Bush, Mrs. Bush, and Secretary Rice, the 
obvious effectiveness of the Center's programs has been recognized at 
other times at the highest levels of government in the United States 
and other nations. For example:
  --In 1996, the Supreme Court hosted the newly elected U.S. Senate in 
        the Great Hall of the Court. The event was attended by seven 
        Justices and more than ninety senators. The major attraction of 
        the evening was a well-received demonstration of the We the 
        People competitive hearing by students from the State of 
        Oregon.
  --In 1998, students from the We the People program were honored by 
        the Department of Education when Secretary Riley announced the 
        release of the findings of the NAEP study of student knowledge 
        of civics and government.
  --In 2000, We the People students were invited to testify in Congress 
        on the subject of school violence. Members of the committee 
        before which the students testified said that they were better 
        prepared than many of the expert witnesses who had testified 
        earlier.
  --In 2004, the Bush administration hosted a White House Conference on 
        History, Civics, and Service. The only civics program featured 
        was the We the People program. Students from Arizona 
        demonstrated their outstanding knowledge of the U.S. 
        Constitution and Bill of Rights before a panel composed of a 
        noted scholar and two Federal judges. One of the Federal judges 
        commented that the students had a firmer grasp of 
        constitutional principles than most attorneys who appear in her 
        court.
  --In 2005, the Department of Education invited teachers of the We the 
        People program to speak to a Constitution Day assembly at the 
        Department, at which they were extremely well received.
  --Other nations: The following are a few of the many incidences where 
        other nations have recognized the quality and effectiveness of 
        the Center's programs:
  --The Russian Ministry of Education has approved the use of the 
        Center's We the People and Project Citizen texts in all Russian 
        schools.
  --The Mexican Institute for Federal Elections has translated and 
        adapted the Project Citizen text and is implementing it in 
        classrooms in all States of Mexico.
  --The Center has helped the U.S. Embassy in Bosnia and Herzegovina 
        develop a K-12 civic education program that is being 
        implemented in all schools in that country.
  --The Jordanian Ministry of Education has approved the implementation 
        of Project Citizen in all schools in Jordan.
  --The Kurdish Regional Authority in Iraq has translated and adapted 
        the Center's Foundations of Democracy program and implemented 
        it with more that 400,000 students in their region.
  --The U.S. Embassy in Baghdad recently supported the training of 
        teacher trainers in the Center's curricular materials and 
        intends to support their implementation throughout the country.
  --The textbook division of the Chinese Ministry of Education has 
        translated and adapted material from the Center's texts to be 
        used in schools throughout China. The division has also signed 
        a memorandum of understanding with the Center to work together 
        to develop more curricular materials.
    Summary.--The following generalizations can be made from internal 
and external research and evaluation studies conducted during the past 
seventeen years. Students who participate in the Center's curricular 
programs show the following results. In comparison with their peers and 
some adults, students in Center programs:
  --demonstrate a greater understanding of and commitment to 
        fundamental values and principles of constitutional democracy, 
        such as individual rights, the common good, the rule of law, 
        and civic responsibility. They are also less cynical, more 
        politically engaged, more politically tolerant, and think that 
        they can and do make a difference in the political life of 
        their communities and nations;
  --demonstrate a greater understanding of politics and government at 
        local, intermediate, and national levels and a deeper knowledge 
        of how to participate effectively in the political process;
  --possess better research, analytic, and communication skills. This 
        includes an increased capacity to evaluate, take, and defend 
        positions on public issues;
  --demonstrate a greater capacity to work with others to effectively 
        monitor and influence the decisions of their government;
  --pay more attention to politics and the media, discuss politics more 
        often, volunteer to work for candidates, register to vote, and 
        vote at significantly higher rates than their peers. Students 
        also take active roles in the enactment of policies to improve 
        the life of their communities and nations.
    Please see the attached bibliography for a list of studies 
conducted on Center programs.
3. Response: ``Additional funding is not necessary for the successful 
        operation of this program''
    The Department's justification claims that ``additional funding is 
not necessary for the continuation of this program.'' Further, the 
Department asserts that:

    ``[the] Center also has a long history of success raising 
additional funding support through such vehicles as selling program-
related curricular materials, trainings, and workshops, partnering with 
non-profit groups on core activities, lobbying, and seeking support 
from foundations. For example, the Center has received financial 
support from such organizations as the Pew Charitable Trusts, the 
National Endowment for the Humanities, the Joyce Mertz-Gilmore 
Foundation, the Lincoln and Therese Filene Foundation, Inc., and an 
increasing number of State and local entities. Also with a national 
board that includes . . . noted scholars (etc.), the Center will have 
many opportunities to generate additional support for core program 
activities.''

    The statements in this section of the report do not reflect a sound 
knowledge of the history, policies, and practices of public- and 
private-sector support for civic education programs in the United 
States over the past fifty years, nor a firm grounding in the facts 
regarding past and present funding of the Center or the probability of 
obtaining the level of support necessary from sources other than the 
Federal Government. To anyone aware of the history of support for civic 
education, it is clear that support for national and international 
programs in civic education of the magnitude of those implemented by 
the Center and described above is simply not available from sources 
other than the Federal Government. Federal funding is essential for the 
continuation of this program.
    The Center has always sought and sometimes received support from 
other sources. In reference to the sources the ED report notes above, 
the Center did receive $1 million from the Pew Charitable Trusts in 
1988 to develop and promote the implementation of CIVITAS: A Framework 
for Civic Education. In 1991, the Pew Charitable Trusts provided a 
grant of $400,000 to match funds the Center received from the 
Department of Education to develop the National Standards for Civics 
and Government. For several years the Joyce Mertz Gilmore Foundation 
awarded the Center $20,000 to partially offset the costs of an annual 
bilateral conference on civic education the Center conducted with the 
Federal Center for Political Education of Germany. For the past three 
years the Lincoln and Therese Filene Foundation has provided about 
$100,000 annually to support a summer institute for teachers. A similar 
level of support has, in some years, been provided for the same purpose 
by the National Endowment for the Humanities. The Center receives 
$250,000 each year from the California State Department of Education to 
augment its Federal funding for the implementation of Project Citizen 
in California. Despite its efforts, the Center has never been able to 
secure sustained funding in more substantial amounts from such sources 
for its major programs.
    The ED report claims that the Center receives income from ``such 
vehicles as selling program-related curricular materials, trainings, 
and workshops.'' Support from ED enables the Center to provide 
approximately 450,000 free textbooks to schools each year. The Center 
grosses approximately $1 million each year from the sale of these 
texts, with the majority of these funds paying for printing, handling, 
and other overhead costs connected to the materials. The remainder of 
these funds is used to support and augment the programs supported with 
Federal funds. The Center does not receive funds for ``trainings and 
workshops'' which are, in fact, provided free to thousands of teachers 
each year under its federally supported programs.
    Summary.--Although the expansion of the Center's efforts has at 
times been assisted through supplemental funding provided by States and 
foundations, the core of its efforts depends on the Federal dollars 
that the administration seeks to eliminate. Without these crucial 
funds, much of the Center's national and international networks and 
their many volunteers and programs in education for democracy will 
simply cease to exist. The Center seeks to continue to develop 
relationships with other agencies, nonprofit organizations, and funding 
sources to expand its operations and ultimately to institutionalize its 
efforts. However, if successful, the administration's attempt to 
discontinue funding would undermine the very possibility of 
institutionalizing the foremost civic education for democracy programs 
in the world by prematurely cutting the lifeline of the Center's 
networks and programs.
4. Chronological List of Research and Evaluation Studies Conducted by 
        Internal and External Evaluators on Center Domestic and 
        International Programs
    1. A Programmatic Evaluation of Civitas: An International Civic 
Education Exchange Program 2004-2005 (2006). Gary Marx, Center for 
Public Outreach. A report to the Center for Civic Education.
    2. We the People: The Citizen and the Constitution: 2005 National 
Finalists' Knowledge of and Support for American Democratic 
Institutions and Processes (2006). Sharareh Frouzesh Bennett and Dr. 
Suzanne Soule, Center for Civic Education.
    3. Evaluation of We the People: Project Citizen Summer Institutes: 
How the Teachers Translated the Experience into Classroom Instruction 
(2006). Jennifer Nairne, Center for Civic Education.
    4. Political Education Beyond National Borders: Teaching Democracy 
Abroad to Promote More Peaceful International Relations (2005). Dr. 
Alden Craddock, Bowling Green State University. Paper presented at the 
2005 German-American Conference--Responsible Citizenship, Education, 
and the Constitution.
    5. Project Citizen: Evaluation Report (2005). RMC Research 
Corporation.
    6. An Analysis of the Depiction of Democratic Participation in 
American Civics Textbooks (2005). Sharareh Frouzesh Bennett, Center for 
Civic Education. Paper presented at the 2005 German-American 
Conference--Responsible Citizenship, Education, and the Constitution.
    7. Changes in the Political Landscape and Their Implications for 
Civic Education (2005). Dr. Margaret Branson, Center for Civic 
Education. Paper presented at the 2005 German-American Conference--
Responsible Citizenship, Education, and the Constitution.
    8. Differences in Gender and Civic Education in Ukraine (2005). Dr. 
Alden Craddock, Bowling Green State University. Paper presented at the 
European Consortium of Political Research General Conference.
    9. Advancing Peace and Stability through Active Citizenship: The 
Role of Civic Education (2005). Dr. Margaret Branson, Center for Civic 
Education. Speech delivered at the Ninth Annual World Congress on Civic 
Education.
    10. Voting and Political Participation of We the People: The 
Citizen and the Constitution Alumni in the 2004 Presidential Election 
(2005). Dr. Suzanne Soule, Center for Civic Education.
    11. Monitoring the Effectiveness of Youth Participation in Project 
Citizen: A Civitas-Russia Evaluation Project: Summary of Preliminary 
Findings (2005). Dr. Charles White, Boston University.
    12. Civitas Latin America: A Civic Education Exchange Program 
Annual Evaluation Report, Year 2 (2005). West Ed. A report to the 
Center for Civic Education.
    13. A Programmatic Evaluation of Civitas: An International Civic 
Education Program 2003-2004 (2005). Gary Marx, Center for Public 
Outreach. A report to the Center for Civic Education.
    14. We the People: The Citizen and the Constitution Summer 
Institutes: How the Teachers Translated the Experience into Classroom 
Instruction (2005). Jennifer Nairne, Center for Civic Education.
    15. American Identity, Citizenship, and Multiculturalism (2005). 
Dr. Diana Owen, Georgetown University. Paper presented at the 2005 
German-American Conference--Responsible Citizenship, Education, and the 
Constitution.
    16. Knowledge of and Support for American Democratic Institutions 
and Processes by Participating Students in the National Finals 2005 
(2005). (Reports available from previous years 1999-2004). Dr. Suzanne 
Soule and Sharareh Frouzesh Bennett, Center for Civic Education.
    17. An Independent Evaluation of Civic Education Programs in 
Jordan, Egypt, and West Bank 2002-2003 (2004). Glaser Consulting Group.
    18. A Rising Tide in Indonesia: Attempting to Create a Cohort 
Committed to Democracy through Education (2004). Dr. Suzanne Soule, 
Center for Civic Education.
    19. We the People Curriculum: Results of a Pilot Test (2004). Dr. 
Ardice Hartry and Kristie Porter, MPR Associates, Inc.
    20. Civitas Latin America: A Civic Education Exchange Program 
Annual Evaluation Report, Year 1 (2004). WestEd.
    21. Evaluation Report on 2003 We the People: Project Citizen Summer 
Institutes (2004). Sharareh Frouzesh Bennett, Center for Civic 
Education.
    22. Foundations of Democracy Program and Prevention of Aggressive 
Behavior of Children in Preschool Educational Institutions (2003). Ivan 
Glasovac, Croatian evaluator.
    23. Learning to Live Together: An Evaluation of Civic-Link (2003). 
Work Research Co-operative, independent evaluator.
    24. Creating a Cohort Committed to Democracy? Civic Education in 
Bosnia and Herzegovina (2002). Dr. Suzanne Soule, Center for Civic 
Education.
    25. Voting and Political Participation of the We the People: The 
Citizen and the Constitution Alumni in the 2000 Presidential Election 
(2001). Dr. Suzanne Soule, Center for Civic Education.
    26. Programmatic Evaluation of Civitas: An International Civic 
Education Exchange Program 2000-2001 (2001). Gary Marx, Independent 
Evaluator.
    27. Civic Education Assessment--Stage II. Civic Education 
Programming Since 1990--A Case Study Based Analysis (2000). Dr. Franca 
Brilliant. Report for the U.S. Agency for International Development.
    28. Project Citizen and the Civic Development of Adolescent 
Students in Indiana, Latvia, and Lithuania (2000). Drs. Thomas Vontz, 
Kay Metcalf, and John Patrick, Indiana University.
    29. Prevention of School Violence through Civic Educational 
Curricula: Year One of a National Demonstration Program (2000). Dr. 
Kenneth Tolo, LBJ School of Public Affairs, University of Texas at 
Austin.
    30. Beyond Communism and War: The Effect of Civic Education on the 
Democratic Attitudes and Behavior of Bosnian Youth (2000). Dr. Suzanne 
Soule, Center for Civic Education.
    31. Programmatic Evaluation of Civitas: An International Civic 
Education Exchange Program 1999-2000 (2000). Eva Stahl, independent 
evaluator.
    32. An Assessment of We the People . . . Project Citizen: Promoting 
Citizenship in Classrooms and Communities (1998). Dr. Kenneth Tolo, LBJ 
School of Public Affairs, University of Texas at Austin.
    33. Bell Gardens Study on Fifth and Sixth Grade Participants in 
Center and Constitutional Rights Foundation Curricula (1997). 
University of California, Los Angeles.
    34. Program Effectiveness Panel Validation of We the People (1995). 
United States Department of Education National Diffusion Network.
    35. Civic Education and Political Attitudes: Examining the Effects 
on Political Tolerance of the We the People Curriculum (1994). Dr. 
Richard Brody, Stanford University.
    36. Testing for Learning: How New Approaches to Evaluation Can 
Improve American Schools (1992). Dr. Ruth Mitchell.
    37. An Evaluation of the Instructional Impact of the Elementary and 
Middle School Curricular Materials Developed for the National 
Bicentennial Competition on the Constitution and Bill of Rights (1991). 
Educational Testing Service.
    38. A Comparison of the Impact of the We the People. . . Curricular 
Materials on High School Students Compared to University Students 
(1991). Educational Testing Service.
    39. An Evaluation of the Instructional Effects of the Nationals 
Bicentennial Competition on the Constitution and Bill of Rights (1988). 
Educational Testing Service.
                                 ______
                                 
                Prepared Statement of the College Board

   ANCHORING MATHEMATICS AND SCIENCE EDUCATION REFORM IN AN EXPANDED 
                       ADVANCED PLACEMENT PROGRAM

Introduction
    The College Board is a national not-for-profit association of more 
than 5,000 member schools, colleges and universities, with a 
challenging mission: To connect students to college success and 
opportunity. One of the College Board's most ambitious and important 
teaching and learning programs is the Advanced Placement Program (AP). 
As a set of 38 college-level courses taught in high school, AP has 
become the most influential general education program in the country, 
and it represents the highest standard of academic excellence in our 
Nation's schools. The AP Program is a collaborative effort between 
motivated students, dedicated teachers, expert college professors, and 
committed high schools, colleges, and universities. Ninety percent of 
the colleges and universities in the United States, as well as colleges 
and universities in 30 other countries, have an AP policy granting 
incoming students credit, placement or both on the basis of their AP 
Exam grades. Many of these institutions grant up to a full year of 
college credit (sophomore standing) to students who earn a sufficient 
number of qualifying AP grades. Since its inception in 1955, the AP 
Program has allowed millions of students to take college-level courses 
and exams, and to earn college credit or placement while still in high 
school.
    President Bush's request for $90 million in new funding to train 
70,000 new AP math, science, and world language teachers over the next 
five years will dramatically improve the quality of instruction in 
these areas. The ultimate outcome will include a substantial increase 
in the number of high school graduates who enter college with the 
desire and ability to succeed in science, technology, engineering, and 
mathematics (STEM) fields and compete in a global marketplace. 
Moreover, increased support for an expanded AP Program in these content 
areas will contribute to raising standards and achievement in all of 
our Nation's high schools. The AP Program benefits both the students 
who take AP courses and those who do not take AP by promoting higher 
standards and better teaching in all classes. As such, a significant 
investment in the expansion of AP math, science, and world language 
programs will have a profound effect on the overall quality of 
education in our Nation's schools.
    AP is a 50-year-old, time-tested program with an existing 
infrastructure of tens of thousands of teachers and a network of 
hundreds of training sites across the country. Funds invested in this 
program will not need to be dedicated to creating a new system for 
teacher professional development, course development, or the 
administration and scoring of assessments. That system already exists 
as a result of our efforts over the past 50 years, and as a result of 
the involvement of thousands of schools, colleges and universities in 
the operation of the AP Program. Thus, new Federal dollars invested in 
AP can go directly into teacher training and student preparation and 
support.
    The table on page four of this statement provides a summary of the 
total dollars that each State would receive through this initiative, 
and provides one model for the use of those funds that illustrates how 
many students and teachers could be served if the full $90 million 
request were supported.

                             THE AP PROGRAM

    The principles and values of the AP Program can be stated quite 
simply:
  --AP supports academic excellence. AP represents a commitment to high 
        standards, hard work, and enriched academic experiences for 
        students, teachers, and schools.
  --AP is about equity. The AP Program should be open to all students, 
        and we believe that every student should have access to AP 
        courses and should be given the support he or she needs to 
        succeed in these challenging courses.
  --AP can drive school-wide academic reform. Schools that use AP as an 
        anchor for setting high standards and raising expectations for 
        all students see significant returns not just in terms of AP 
        participation but in terms of increasing the overall quality 
        and intensity of their academic programs.
    Across the Nation, every State, and most school districts are 
exploring ways to raise standards and ensure that all students take 
challenging courses that prepare them for success in college and work. 
AP is recognized as a powerful tool for increasing academic rigor, 
improving teacher quality, and creating a culture of excellence in high 
schools. Students who take AP courses assume the intellectual 
responsibility of thinking for themselves, and they learn how to engage 
the world critically and analytically--both inside and outside of the 
classroom. This is an invaluable experience for students as they 
prepare for college or work upon graduation from high school. Moreover, 
schools in which AP is widely offered--and accessible to all students--
experience the diffusion of higher standards throughout the entire 
school curriculum.

                   AP MATHEMATICS AND SCIENCE COURSES

    Increasing rigorous math and science education in the United States 
will significantly boost our high school graduates' math and science 
proficiency--and also increase the number of students who enter college 
ready to succeed in science, technology, engineering, and mathematics 
(STEM) careers. And we urgently need to create those opportunities for 
our students. Today, only 32 percent of American undergraduates are 
earning degrees in science and engineering, compared to 66 percent of 
undergraduates in Japan, 59 percent in China, and 36 percent in 
Germany. In 2004, China graduated 600,000 engineers, India graduated 
350,000, and the United States graduated 70,000.\1\
---------------------------------------------------------------------------
    \1\ Committee on Science, Engineering and Public Policy. Rising 
Above the Gathering Storm: Energizing and Employing America for a 
Brighter Economic Future. National Academies Press, 2006. This report 
notes that America appears to be on a ``losing path'' today with regard 
to our future competitiveness and standard of living.
---------------------------------------------------------------------------
    The AP Program is an important tool in this Nation's efforts to 
increase its economic competitiveness. AP math and science students are 
much more likely than other students to major in STEM disciplines than 
students whose first exposure to college-level math and science courses 
is in college. For example:
  --Sixteen percent of students who take AP Chemistry go on to major in 
        chemistry in college. By way of contrast, only 3-4 percent of 
        students who take general chemistry instead of AP chemistry 
        major in that field in college.
  --More than 25 percent of students who take AP Calculus go on to 
        major in a STEM field in college, and 40 percent of students 
        who take AP Physics major in physics in college.
    Furthermore, research indicates that AP math and science courses 
prepare American students to achieve a level of proficiency that 
exceeds that of students from all other nations. For example, in the 
most recent TIMSS assessments, U.S. Calculus students ranked number 15 
(out of 16 countries) in the international advanced mathematics 
assessment. But AP Calculus students who scored a 3 or better on the AP 
Calculus Exam ranked first in the world. Even AP Calculus students who 
scored a 1 or 2 on the AP Calculus Exam--below ``passing''--were ranked 
second in the world. AP Physics students, as compared to other U.S. 
physics students and physics students internationally, were also at the 
top of the ranking.
    Most significantly, there are many, many more U.S. students who can 
succeed in AP math and science courses--if they are simply given the 
chance. This year in the United States, we anticipate that more than 
100,000 students will earn a grade of 3 or above on the AP Calculus 
Exam--the grade typically required for college credit. But in a 
national analysis of the math proficiency of students enrolled in U.S. 
high schools during the 2005-2006 academic year, we can identify, by 
name and school, an additional 500,000 students who have the same 
academic background and likelihood of success in AP Calculus as the 
100,000 students who currently are fortunate enough to have an AP 
Calculus course available. If we look at Biology, we see an even larger 
gap; we expect that about 74,000 students will earn exam grades of 3 or 
higher on the AP Biology Exam this year, whereas we know that at least 
640,000 additional U.S. students have the academic skills that would 
enable them to succeed in AP Biology if they only had a course 
available to them and the encouragement to take on this challenge. 
There are literally hundreds of thousands of high school students in 
the United States who are prepared and ready to succeed in rigorous 
high school courses such as AP Calculus, AP Biology, AP Physics, and AP 
Chemistry. In many cases, the only thing preventing them from learning 
at this higher level is the lack of an AP teacher in their school or 
the lack of adequate encouragement and support to take the AP course.
    The College Board believes AP has tremendous potential to drive 
reform in a powerful way in all of our Nation's schools. No single 
program can have as strong an impact on overall student and teacher 
quality as AP. AP is not for the elite, it is for the prepared. The 
Committee's support for expanded AP math, science, and world language 
courses and exams will prepare many more students for the opportunity 
to compete in a global environment and succeed in STEM fields in 
college and work. We respectfully urge that you fully fund the 
Administration's request for AP expansion.

----------------------------------------------------------------------------------------------------------------
                                                                                         Number of
                                                                                          students    Number of
                                                                              Total      benefiting    students
                                                                            number of       from      benefiting
                                                            Potential New   middle and    teachers       from
                                                               2007 AP     high school   receiving     teachers
                          State                             funding Under    teachers      Pre-AP     receiving
                                                             President's     provided     training   AP training
                                                              Proposal     with Pre-AP      (20          (25
                                                                              or AP       students     students
                                                                             training      per 5        per AP
                                                                                         sections)     teacher)
----------------------------------------------------------------------------------------------------------------
Alabama..................................................      $1,600,989          750       60,037        3,752
Alaska...................................................         453,123          212       16,992        1,062
Arizona..................................................       2,074,097          972       77,779        4,861
Arkansas.................................................       1,016,284          476       3,8111        2,382
California...............................................      12,527,993        5,872      469,800       29,362
Colorado.................................................         933,670          438       35,013        2,188
Connecticut..............................................         542,351          254       20,338        1,271
Delaware.................................................         453,123          212       ,16992        1,062
District of Columbia.....................................         453,123          212       16,992        1,062
Florida..................................................       4,948,272        2,320      185,560       11,598
Georgia..................................................       2,823,013        1,323      105,863        6,616
Hawaii...................................................         453,123          212       16,992        1,062
Idaho....................................................         453,123          212       16,992        1,062
Illinois.................................................       3,228,779        1,513      121,079        7,567
Indiana..................................................       1,254,941          588       47,060         2941
Iowa.....................................................         482,954          226       18,111        1,132
Kansas...................................................         537,051          252       20,139        1,259
Kentucky.................................................       1,335,985          626       50,099        3,131
Louisiana................................................       2,012,675          943       75,475        4,717
Maine....................................................         453,123          212       16,992        1,062
Maryland.................................................         978,436          459       36,691        2,293
Massachusetts............................................       1,093,966          513       41,024        2,564
Michigan.................................................       2,431,666        1,140       91,187        5,699
Minnesota................................................         746,455          350       27,992        1,750
Mississippi..............................................       1,349,629          633       50,611        3,163
Missouri.................................................       1,418,338          665       53,188        3,324
Montana..................................................         453,123          212       16,992        1,062
Nebraska.................................................         453,123          212       16,992        1,062
Nevada...................................................         575,422          270       21,578        1,349
New Hampshire............................................         453,123          212       16,992        1,062
New Jersey...............................................       1,500,749          703       56,278        3,517
New Mexico...............................................         827,151          388       31,018        1,939
New York.................................................       6,191,847        2,902      232,194       14,512
North Carolina...........................................       2,401,977        1,126       90,074        5,630
North Dakota.............................................         453,123          212       16,992        1,062
Ohio.....................................................       2,504,484        1,174       93,918        5,870
Oklahoma.................................................       1,132,521          531       42,470        2,654
Oregon...................................................         902,459          423       33,842        2,115
Pennsylvania.............................................       2,659,829        1,247       99,744        6,234
Rhode Island.............................................         453,123          212       16,992        1,062
South Carolina...........................................       1,338,960          628       50,211        3,138
South Dakota.............................................         453,123          212       16,992         1062
Tennessee................................................       1,661,104          779       62,291        3,893
Texas....................................................       8,742,609        4,098      327,848       20,490
Utah.....................................................         479,572          225       17,984        1,124
Vermont..................................................         453,123          212       16,992        1,062
Virginia.................................................       1,443,618          677       54,136        3,383
Washington...............................................       1,340,908          629       50,284        3,143
West Virginia............................................         615,683          289       23,088        1,443
Wisconsin................................................         934,028          438       35,026        2,189
Wyoming..................................................         453,123          212       16,992        1,062
American Samoa...........................................         453,123          212       16,992        1,062
Guam.....................................................         453,123          212       16,992        1,062
Northern Mariana Islands.................................         453,123          212       16,992        1,062
Puerto Rico..............................................       3,877,930        1,818      145,422        9,089
Virgin Islands...........................................         453,123          212       16,992        1,062
Freely Associated States.................................  ..............  ...........  ...........  ...........
Indian set-aside.........................................  ..............  ...........  ...........  ...........
Other (non-State allocations)............................         455,400          213       1,7078        1,067
                                                          ------------------------------------------------------
      Total..............................................      91,080,000       42,694    3,415,500      213,469
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
Prepared Statement of the Council of State Administrators of Vocational 
                         Rehabilitation (CSAVR)

    This testimony is submitted on behalf of the Council of State 
Administrators of Vocational Rehabilitation (CSAVR). The CSAVR is 
composed of the chief administrators of the State Vocational 
Rehabilitation (VR) Agencies serving individuals with physical and/or 
mental disabilities in the United States, the District of Columbia and 
the Territories. These agencies constitute the State partners in the 
State-Federal Program of Rehabilitation Services provided under Title 1 
the Rehabilitation Act of 1973, as amended. State VR agencies provide 
individualized services and supports to eligible individuals with 
significant disabilities that are required for them to go to work. 
These services may include, but are not limited to, counseling and 
guidance, job training, higher education, physical and mental 
restoration services, and assistive technology. Nearly 1 million 
individuals with disabilities are served annually. In fiscal year 2005, 
these agencies placed 206,695 individuals with disabilities into 
competitive employment.
    The CSAVR, founded in 1940 to furnish input into the State-Federal 
Rehabilitation Program, provides a forum for State administrators to 
study, deliberate, and act upon matters affecting the rehabilitation 
and employment of individuals with disabilities. The Council serves as 
a resource for the formulation and expression of the collective points 
of view of State rehabilitation agencies on all issues affecting the 
provision of quality employment and rehabilitation services to persons 
with significant disabilities.

 CSAVR'S RECOMMENDATION FOR THE FISCAL YEAR 2007 APPROPRIATION FOR THE 
                PUBLIC VOCATIONAL REHABILITATION PROGRAM

    For fiscal year 2007, CSAVR recommends an increase in the 
Vocational Rehabilitation (VR) appropriation of $258 million above the 
President's budget request for fiscal year 2007. The President's budget 
proposes a 4.3 percent increase in funding for the Public VR program, 
which is the mandated CPI increase, called for in law. However, the 
President's budget request also eliminates funding for several smaller 
programs, Supported Employment (SE), Projects with Industry (PWI), and 
Migrant and Seasonal Farm Workers (MSFW), with a total loss of funding 
of 51.7 million. With the majority of State VR Agencies operating under 
an Order of Selection, a system of prioritization whereby individuals 
with the most significant disabilities are served first, it is unlikely 
that the State VR Agencies would be able to continue to provide 
services, under Title 1 of the Rehabilitation Act, to all of the 
individuals previously served under the programs that lost their 
funding.
    In addition to the proposed elimination of the SE, PWI, MSFW, and 
Recreation programs, which CSAVR does not support, HR 27, the House 
bill to reauthorize the Workforce Investment Act (WIA), and S 1021, the 
Senate bill to reauthorize the WIA, expands the requirements for VR to 
provide transition services to students with disabilities. Based on the 
significant internal and external challenges facing the Public VR 
Program, (i.e., staffing shortages, State budget shortfalls, increased 
numbers of consumers seeking services, and increased service costs and 
expectations, the CSAVR believes that an increased appropriation of 258 
million above the President's budget request for VR, for fiscal year 
2007, is an appropriate recommendation.
    The CSAVR is requesting a $206 million increase specifically for 
the purposes of implementing the new transition requirements in the 
Rehabilitation Act. The most recent data on transition students, 
published in 2003 in the Individuals with Disabilities Education Act 
(IDEA) 25 Annual Report to Congress, indicates that there were 
2,791,886 students between the ages of 12-17 and 283,265 between the 
ages of 18-21. A small sample survey of State VR Agencies revealed that 
the average annual cost to serve a transition student is $2062.00. The 
CSAVR will have the capacity to serve 100,000 new transition students 
in fiscal year 2007, with a funding increase of $206 million.
    In addition, CSAVR is requesting that you restore the $51.7 million 
to the MSFW, the SE and the PWI programs, whose budgets were eliminated 
in the President's budget request for fiscal year 2007.
    These three programs are vital to VR consumers and desperately 
needed to assure that vital support services, necessary for successful 
employment of certain populations, are maintained.

              THE PUBLIC VOCATIONAL REHABILITATION PROGRAM

    The Public VR Program is one of the most cost-effective programs 
ever created by Congress. It enables hundreds of thousands of 
individuals with disabilities to go to work each year and become tax-
paying citizens. In fiscal year 2005, the VR Program assisted 984,315 
individuals with disabilities who wanted to work, by providing them 
with the job skills, training and support services they needed to 
become employed. Of those served, 206,695 entered into competitive 
employment. Funding for the VR Program requires a State match of 21.3 
percent, and creates a State-Federal partnership that has worked 
effectively for more than 86 years, and has assisted approximately 16 
million individuals with disabilities to engage in employment and 
become tax-paying citizens.
    The Rehabilitation Act mandates that the annual Federal 
appropriation for the VR Program grow at a rate at least equal to the 
change in the Consumer Price Index (CPI) over the previous fiscal year. 
While the mandate was intended to create a floor for the VR 
appropriation, Congress has not appropriated funds above the mandated 
CPI increase since 1999. This is particularly problematic because the 
formula used to distribute these funds, which is based on a State's per 
capita income and population, results in significant variations in the 
increases in individual State's allotments. When the increase is 
limited to the CPI increase and the formula is applied, not all States 
receive increases that are equal to the annual rate of inflation. In 
fiscal year 2006, 30 States did not receive the required CPI increase 
in their State allotment.

                CHALLENGES FACING THE PUBLIC VR PROGRAM

    Over the last several years, the Public VR Program has faced a 
number of external challenges that have been compounded by the minimal 
increases in Federal funding.

                           SPECIAL EDUCATION

    Between 1990 and 2004, the Federal appropriation for special 
education increased by approximately 333 percent. During the same time 
period, the Federal appropriation for the Public VR Program increased 
by only 22 percent. As a result of these very significant increases in 
special education funding, an ever-increasing number of special 
education students are exiting the education system and seeking adult 
services, including Vocational Rehabilitation, in order to participate 
in post secondary education, job training, and/or to go to work.

          IMPACT OF THE WORKFORCE INVESTMENT ACT OF 1998 (WIA)

    The Public VR Program is a mandatory partner in the WIA and, as 
such, is required to contribute significant resources to support the 
infrastructure and other costs associated with the operation of the 
One-Stop Centers. While VR's involvement in State Workforce Investment 
Systems is critically important, WIA has placed yet another financial 
burden on an already strained program, further reducing the percentage 
of VR funds that are available to provide services and supports to 
eligible individuals with disabilities. In addition, the House bill to 
reauthorize the WIA, H.R. 27, proposes to take significant resources 
from the Public VR Program far beyond the resources contributed to the 
One-Stop Centers under current law. The Senate bill, S. 1021, also 
requires resources from VR to fund the infrastructure costs and other 
common costs associated with the operation of One-Stop Centers; 
however, the CSAVR is very grateful for the graduated CAP on 
infrastructure funding for VR in S. 1021.
  --A 2002 Longitudinal Study of the Public VR Program provided 
        evidenced based research that the VR Program is effective in 
        putting people with disabilities to work in good jobs with 
        opportunities for advancement.
  --A fiscal year 2006 Program Assessment Rating Tool (PART) Review, 
        conducted by the Office of Management and Budget (OMB) to rate 
        program performance, rated the VR Program favorably, and in 
        general, successful in meeting its program goal.
  --A report by the Social Security Administration, released annually, 
        provides detailed information on the funds disbursed to State 
        VR Agencies, based on their successfully serving beneficiaries 
        on Social Security Disability Insurance (SSDI) and Supplemental 
        Security Income (SSI). In fiscal year 2004 SSA projected a 
        470.3 million savings to the Trust Fund by the VR Program, and 
        established that every $1.00 that SSA spends on VR results in a 
        $6.00 savings.
    In this era of significant Federal and State budget deficits, and 
an increase in the unemployment rate for individuals with disabilities, 
we urge you to consider an increase in funding for the Public VR 
Program, through which you can be assured to have positive outcomes, 
based on the three factors mentioned above.
    Our Nation's ability to be competitive in a global economy depends 
on the quality of our workforce. According to information provided by 
the Department of Labor, Employment & Training Administration, during 
the fiscal year 2006 Budget Briefing, the American workforce will be 
vastly different than it is today, as the 21st century unfolds. The 
fastest growing jobs of the future will need to be filled by 
``knowledge workers,'' who have specialized skills and training. Ninety 
percent of the fastest growing jobs in the United States (U.S.) require 
some level of post-secondary education and training. Yet, the U.S. 
Census Bureau reports that in the United States, just 28 percent of 
those 25 and older in 2004 had a bachelor's degree. Integrating all 
available workers into the workforce, including workers with 
significant disabilities, will be required for employers to meet the 
demands of the 21st century economy. Significant numbers of large and 
small employers have acknowledged that hiring individuals with 
disabilities makes good business sense. It provides them with 
dependable workers and access to a market of individuals with spending 
power, which has historically been untapped. These same employers also 
have long-standing, positive relationships with VR, to whom they look 
to provide them with qualified workers with disabilities. Integrating 
all available workers into the workforce, including workers with 
disabilities, will require significant resources.
    Recently, the CSAVR developed a National VR/Business Network for 
the purposes of increasing significantly, the number and quality of 
employment opportunities for VR's consumer. This National Network, 
spearheaded by CSAVR's Director of Business Relations, has already 
expanded the number of employment opportunities available to VR's 
consumers in a significant number of States, and is continuing to grow. 
VR's positive relationships with employers, who rely heavily on the 
Public VR Program to meet their hiring needs, further emphasizes and 
documents the need for additional resources for VR.
    The Public VR Program, 86 years of history, 16 million individuals 
served, and a demonstrated return on investment. With additional 
resources, the Public VR Program can do more of what it does best--
provide the resources for individuals with disabilities to go to work 
and live the American Dream.
    The CSAVR thanks the Chairman and Members of the Senate 
Appropriations subcommittee for the opportunity to submit written 
testimony on behalf of the Public VR Program.
                                 ______
                                 
               Prepared Statement of Gallaudet University

    Mr. Chairman and members of the committee: I would like to express 
my appreciation to you and to Congress for the generous support that we 
received in fiscal year 2006 to continue maintaining and enhancing 
academic programs and salaries at Gallaudet University. I am especially 
grateful that Congress continues to support us during these challenging 
times, and I am testifying in support of our appropriation request for 
fiscal year 2007. As I prepare to retire as President at the end of 
this calendar year, I would particularly like to express my 
appreciation for the support that Congress has provided to Gallaudet 
during the 18 years of my administration and of majority control of the 
Board of Trustees by deaf individuals. One of my proudest 
accomplishments is the increase in the percentages of our employees who 
are deaf or members of minority groups. These percentages now stand at 
41 percent and 38 percent respectively.
    Consistent with our legal purpose, as stated in the Education of 
the Deaf Act (EDA), we have greatly expanded programs at the doctoral 
level. When I became President, we had only one doctoral level program 
in administration and supervision--we now have additional doctoral 
programs in audiology, clinical psychology, education, and linguistics. 
At the undergraduate level we have focused on programs, such as 
tutoring and first year seminars, designed for long term enhancement of 
our persistence and graduation rates, and we have initiated a much 
needed bachelor's level interpreter training program. At the Clerc 
Center, following guidance from Congress during the 1992 
reauthorization of the EDA, we have refocused our demonstration and 
outreach activities at the pre-college level on high priority student 
populations throughout the United States.
    During my presidency, Gallaudet responded to the Government 
Performance and Results Act (GPRA). In 2005, we had 31 ambitious goals 
published under GPRA, with 17 of those fully accomplished in that year. 
These goals reflect the wide array of programs and services that 
Gallaudet provides as required by legislative mandate and performance 
expectations as agreed to with the U.S. Department of Education. During 
2005, Office of Management and Budget (OMB) conducted a Program 
Assessment Rating Tool (PART) of Gallaudet, and, based on a limited and 
narrow set of GPRA indicators, it gave Gallaudet an ``ineffective'' 
rating. I protested the rating in part because of the assessment's 
limited scope and also because we were not involved in the assessment. 
I am pleased to inform you that OMB has agreed to conduct a 
reassessment of Gallaudet this year, and I will insist on a broader set 
of indicators that truly represent Gallaudet's complex mission.
    When I became President in 1988, every building on the Kendall 
Green campus had been constructed with virtually 100 percent Federal 
funding. Since I became President, every major construction or 
renovation project we have undertaken has been supported either by 
cost-sharing with the Federal Government or by private fundraising 
alone. For example, the buildings constructed here most recently, the 
Kellogg Conference Hotel at Gallaudet University and the Student 
Academic Center, were constructed without any additional Federal 
appropriations. We are currently well on the way to raising the funds 
needed for a facility to house our language and communication programs, 
including a $5 million leadership gift from the Sorenson family of 
Utah.
    When I became President, the Gallaudet endowment was valued at $10 
million. Partly with the assistance of the Federal Endowment Program 
created by the 1986 passage of the Education of the Deaf Act, our 
endowment now stands at $165 million and generates more than $4 million 
in annual income to support programs and scholarships.
    When I became President in 1988, total staffing at Gallaudet stood 
at about 1,450 employees. Following a comprehensive staffing reduction 
program, it now stands at just over 1,100, a reduction of more than 20 
percent. This reduction provided much needed budget flexibility during 
a time when Congress was seeking to reduce the Federal budget deficit. 
During my tenure, we have also decreased the proportion of our 
operating budget that is supported by Federal appropriations by about 
10 percentage points. This reduction was made possible in part by a 
long term plan to increase tuition charges to Gallaudet students, 
following an agreement between the University and the Department of 
Education. For many years, we increased tuition at 7 percent annually, 
more than twice the rate of inflation. Following expressions of concern 
by members of Congress and by a consulting group we retained to study 
our tuition policy, we reduced these increases to 3 percent annually 
starting in fiscal year 2006. I believe that we have been very 
responsible in our requests for Federal support and that we have done 
everything we could to seek additional sources of funding during a time 
when Congress has faced funding limitations.
    Because of Congress's ongoing support of Gallaudet in fiscal year 
2006, we have been able to maintain a competitive pay structure for our 
employees while retaining the flexibility to meet the needs of a 
changing student body. Given the unique student population we serve and 
the communication skills our employees are expected to possess, 
retaining skilled employees is critical to our mission. Gallaudet 
employees received general pay increases of 2 percent in fiscal year 
2003, 3 percent in fiscal year 2004, 2 percent in fiscal year 2005, and 
2 percent again in fiscal year 2006, increases that are below what 
Federal employees in the region received during the same timeframe, but 
in line with increases in the Consumer Price Index (CPI). During the 
most recent 12 month period, the CPI-U increased by 4 percent. It will 
be important for Gallaudet to ensure that our employees receive at 
least a 3 percent general pay increase in fiscal year 2007, 
commensurate with current increases in inflation. We are also 
requesting support for inflationary increases in non-salary areas, 
especially in the cost of utilities and benefits. In this regard, I 
need to point out that our benefits charges during the past several 
years have increased by more than 2 percent of base salaries, and we 
have had to fund those increases as part of our total payroll package.
    The administration budget for fiscal year 2007 includes $106.998 
million for Gallaudet, the same as our current fiscal year 2006 
appropriation. I have carefully analyzed our fiscal year 2006 funding 
needs and have determined that in order to award a 3 percent salary 
increase to our faculty and staff, and to meet other inflation-driven 
increases, we need an increase of about $5 million, 4.7 percent above 
our current appropriation. All of our planning is now guided by a 
comprehensive strategic plan driven by eight goals, arrived at in 
consultations involving our Board, and our faculty and staff, relating 
to student academic achievement within the liberal arts tradition, 
excellence in research and other programs, diversity among students and 
employees, leadership in the deaf community, and maintenance of a 
strong resource base.

                  FUNDING REQUEST FOR FISCAL YEAR 2007

    In our budget request to the Department of Education for fiscal 
year 2007, we addressed the need for inflationary increases as well as 
support for program development. Given the funding issues currently 
facing Congress, I am requesting support at this time for only our most 
pressing inflationary needs. Funding our need to cover inflationary 
costs will provide us some budget stability, but we will continue to 
face the need for development and enhancement of our programs. Our 
strategy will be to seek alternative sources of funding for some of 
these program priorities and to defer others. We will continue to seek 
support for program growth from both Federal and private sources in the 
future.
    Salaries.--I am requesting support for a 3 percent increase in 
salaries, approximately $2.6 million.
    Benefits.--I am requesting support for increases in benefits costs 
that have created the need for increasing charges to our operating 
units by 2 percent of base salaries, approximately $1.4 million.
    Utilities.--The total cost for utilities at Gallaudet rose by $1.8 
million, or 50 percent, between fiscal year 2002 and 2005, and I expect 
these costs to continue rising steeply in fiscal year 2006. I am 
seeking $1 million to partially offset these increases.
    My total request for fiscal year 2007 is, thus, $112 million.
    In summary, I appreciate the challenges that Congress faces in 
making appropriations decisions for fiscal year 2007, but I believe 
experience has shown that Gallaudet provides an outstanding return on 
Federal dollars that are invested here, in terms of the educated and 
productive deaf community that the Nation enjoys as a result.
                                 ______
                                 
  Prepared Statement of the Health Professions and Nursing Education 
                               Coalition

    The members of the Health Professions and Nursing Education 
Coalition (HPNEC) are pleased to submit this statement for the record 
in support of the health professions education programs authorized 
under Titles VII and VIII of the Public Health Service Act.
    HPNEC is an informal alliance of over 50 organizations representing 
a variety of schools, programs, health professionals, and others 
dedicated to ensuring that Title VII and VIII programs continue to help 
educate the Nation's health care and public health personnel. HPNEC 
members are thankful for the support the subcommittee has provided to 
the programs, which are essential to building a well-educated, diverse 
health care workforce.
    The Title VII and VIII health professions and nursing programs are 
essential components of Americans' health care safety net, bringing 
health care services to our underserved communities. These programs 
support the training and education of health care providers with the 
aim of enhancing the supply, diversity, and distribution of the 
workforce, filling the gaps in the health professions' supply not met 
by traditional market forces. The Title VII and VIII health professions 
programs are the only Federal programs designed to train providers in 
interdisciplinary settings to meet the needs of special and underserved 
populations, as well as increase minority representation in the health 
care workforce.
    The final fiscal year 2006 Labor-HHS-Education Appropriations bill 
cut Title VII & VIII programs by 34.5 percent, including a 51.5 percent 
cut to Title VII programs. Moreover, the President's fiscal year 2007 
budget proposes an additional 93.1 percent cut to Title VII and a 45.8 
percent cut overall to both Title VII and VIII.
    HPNEC members recommend that the Title VII and VIII programs 
receive an appropriation of at least $550 million for fiscal year 2007. 
This recommendation would ensure the programs have sufficient funds to 
continue fulfilling their mission of educating and training a health 
care workforce that meets the public's health care needs, restoring 
some of the unprecedented cuts imposed on the programs in fiscal year 
2006.
    As described in an April 5 letter to the subcommittee, led by 
Senators Pat Roberts and Jack Reed, and signed by 56 of your colleagues 
(letter attached), restoring funding to Title VII health professions 
programs is vital to reversing health professions shortages in the 
Nation's neediest communities. An April 3 letter led by Senators Susan 
Collins and Barbara Mikulski was signed by 54 Senators in support of 
adequate funding for Title VIII nursing programs as well (letter 
attached).
    The enacted and proposed cuts to the programs will:
Exacerbate existing provider shortages in rural, medically underserved, 
        and federally designated health professions shortage areas
  --With Title VII funding, the Department of Family Medicine at 
        Pennsylvania State University increased the number of students 
        entering primary care to 50 percent of all graduates. Through 
        rural rotations and required primary care clerkships, Penn 
        State placed 30 percent of graduates into medically underserved 
        areas over the last three years. With cutbacks in Title VII 
        funding, they will lose their ability to continue producing 
        physicians for underserved and rural areas.
  --According to the University of Nebraska Medical Center, eliminating 
        Title VII funding will cut off access to psychologists for many 
        families in rural areas. Over the last four years, the Munroe 
        Meyer Institute Department of Psychology has served children 
        and families from over 140 Nebraska cities and towns (3,500 
        patients each year), and has placed Pediatric Psychologists in 
        five rural primary care practices. The rural programs will be 
        in severe financial crisis as a result of cuts, which would 
        further reduce Nebraska's already severely limited mental 
        health services to its rural citizens.
Impede recruitment of underrepresented minorities and students of 
        disadvantaged backgrounds into the health professions and 
        intensify health disparities among minority and underserved 
        citizens
  --The Saint Louis University School of Medicine operates a Health 
        Careers Opportunity Program (HCOP). The negative impact of the 
        elimination of Federal funding on the development of pipeline 
        programming will be significant, as over 2,300 K-12 students 
        annually participate in one or more pipeline programs. A 
        correlative impact will be in the area of minority/
        disadvantaged recruitment, as pipeline programs heighten 
        awareness of opportunities for medical and pre-medical training 
        (i.e., research opportunities) at Saint Louis University. 
        Elimination of Federal dollars will severely limit the ability 
        of Saint Louis University to continue to impact young people at 
        an early age to begin thinking about medicine. A reduction in 
        minority enrollment is certain to occur at a time when 
        enrollment diversity is having critical implications on 
        institutional and faculty development, as well as on cultural 
        competency initiatives.
  --The University of Illinois' College of Medicine has received 
        Federal funding for its HCOP program for over 25 years and has 
        graduated over 1400 health professionals. With a loss of funds, 
        the school expects that the breadth of its recruitment 
        activities will be curtailed, resulting in fewer contacts with 
        underrepresented students, truncating the opportunities for 
        exposing students to medicine as a career choice, to financial 
        aid information, to curriculum preparedness, etc. These 
        programmatic impacts will shape the medical profession as a 
        whole, as there will be fewer underrepresented minorities who 
        are recruited, retained, and who graduate to become physicians; 
        fewer underrepresented minorities who are able to assist in 
        bridging the dearth of medical care in underserved areas; fewer 
        underrepresented minorities who are able to continue 
        eliminating health disparities and contributing to health 
        policy; and fewer underrepresented minorities who are 
        culturally competent to appropriately provide health care 
        services to the Nation's historically underserved populations.
Negatively impact vulnerable populations such as the elderly
  --Over four years, the South Carolina Geriatric Education Center 
        (GEC) has trained over 6,000 physicians. The enacted cuts to 
        Title VII programs eliminate funding for geriatrics programs, 
        including those at the University of South Carolina School of 
        Medicine and the Medical University of South Carolina. As one 
        of the top five States in rate of growth for older individuals, 
        the direct impact on educating physicians and other health 
        professionals on the special needs of aging adults will 
        reverberate throughout South Carolina. On a national scale, the 
        cuts will affect 50 GECs throughout the country which train 
        over 50,000 health care professionals representing 35 
        disciplines annually. These centers log 8.6 million patient 
        encounters each year, and over two-thirds of GECs serve rural 
        areas and underserved populations. The effect of this lost 
        funding is devastating to both academic institutions and older 
        individuals who will not receive care from health professionals 
        equipped to address their unique needs.
Undermine efforts to encourage health professions students to enter 
        primary care
  --The University of California, San Diego School of Medicine reports 
        that 71 percent of UCSD Hispanic Center of Excellence (HCOE) 
        alumni completed or are completing primary care residencies, 
        compared to only 57 percent of the UCSD alumni, graduating in 
        2002-2004, who have completed or are completing primary care 
        residencies.
    A November 2002 report by the Advisory Committee on Training in 
Primary Care Medicine and Dentistry emphasizes the essential role of 
the Title VII programs in enhancing public health training for the 
primary care health workforce. In its recommendations, the committee 
notes that in 1998, 42 to 56 percent of graduates from the Title VII-
supported primary care programs entered practice in underserved areas, 
compared to a mean of 10 percent of health professions graduates 
overall. Data from 1998 also indicate that 35 to 50 percent of 
graduates of these programs represented minority or disadvantaged 
groups, compared to 10 percent minority representation overall.
    Community health centers (CHCs) also benefit from Title VII and 
VIII programs. A March 2006 study published in the Journal of the 
American Medical Association found that community health centers report 
high percentages of provider vacancies, including an insufficient 
supply of dentists, pharmacists, pediatricians, family physicians, and 
registered nurses; these shortages are especially pronounced among CHCs 
in rural areas. Because Title VII programs have a successful record of 
training providers who serve underserved areas, the study recommends 
increased support for the programs as its primary means of alleviating 
the shortages. Further, the publication serves as an important reminder 
that the success of CHCs is highly dependent upon a well-trained 
clinical staff to provide care.
    During their 40-year existence, the Title VII and VIII programs 
have created a network of initiatives across the country that supports 
the training of many disciplines of health providers. These are the 
only Federal programs designed to create infrastructures at our schools 
and in our communities that facilitate customized training designed to 
bring the latest emerging national priorities to the populations at 
large and meet the health care needs of special, underserved 
populations.
    HPNEC members urge the subcommittee to consider the vital need for 
these health professions education programs as demonstrated by the 
passage of the Health Professions Education Partnerships Act of 1998 
(Public Law 105-392), which reauthorized these programs. The 
reauthorization provided additional flexibility in the administration 
of these programs and consolidated them into seven general categories: 
Minority and Disadvantaged Health Professions Training; Primary Care 
Training; Interdisciplinary, Community-Based Linkages; Health 
Professions Workforce and Analysis; Public Health Workforce 
Development; Nursing Workforce Development; and Student Financial 
Assistance.
  --The purpose of the Minority and Disadvantaged Health Professionals 
        Training programs is to improve health care access in 
        underserved areas and the representation of minority and 
        disadvantaged health care providers in the health professions. 
        Minority Centers of Excellence support programs that seek to 
        increase the number of minority health professionals through 
        increased research on minority health issues, establishment of 
        an educational pipeline, and the provision of clinical 
        opportunities in community-based health facilities. The Health 
        Career Opportunity Program seeks to improve the development of 
        a competitive applicant pool through partnerships with local 
        educational and community organizations. The Faculty Loan 
        Repayment and Faculty Fellowship programs provide incentives 
        for schools to recruit underrepresented minority faculty. The 
        Scholarships for Disadvantaged Students (SDS) make funds 
        available to eligible students from disadvantaged backgrounds 
        who are enrolled as full-time health professions students. 
        Nursing students receive 16 percent of the funds appropriated 
        for SDS.
  --The Primary Care Training category, including General Pediatrics, 
        General Internal Medicine, Family Medicine, General Dentistry, 
        Pediatric Dentistry, and Physician Assistants, provides for the 
        education and training of primary care physicians, dentists, 
        and physician assistants to improve access and quality of 
        health care in underserved areas. As noted in the November 2002 
        Advisory Committee report, two-thirds of all Americans interact 
        with a primary care provider every year, and approximately one-
        half of primary care providers trained through these programs 
        go on to work in underserved areas, compared to 10 percent of 
        those not trained through these programs. The General 
        Pediatrics and General Internal Medicine programs provide 
        critical funding for primary care training in community-based 
        settings and have been successful in directing more primary 
        care physicians to work in underserved areas. They support a 
        range of initiatives, including medical student training, 
        residency training, faculty development and the development of 
        academic administrative units. Title VII is the only Federal 
        program that provides funding for family medicine residency 
        training, academic departments, predoctoral programs, and 
        faculty development. The General Dentistry and Pediatric 
        Dentistry programs provide grants to dental schools and 
        hospitals to create or expand primary care dental residency 
        training programs. Recognizing that all primary care is not 
        only provided by physicians, the primary care cluster also 
        provides grants for physician assistant programs to encourage 
        and prepare students for primary care practice in rural and 
        urban Health Professional Shortage Areas. Additionally, these 
        programs enhance the efforts of osteopathic medical schools to 
        continue to emphasize primary care medicine, health promotion, 
        and disease prevention, and the practice of ambulatory medicine 
        in community-based settings.
  --Because much of the Nation's health care is delivered in areas far 
        removed from health professions schools, the Interdisciplinary, 
        Community-Based Linkages cluster provides support for 
        community-based training of various health professionals. These 
        programs are designed to provide greater flexibility in 
        training and to encourage collaboration between two or more 
        disciplines. These training programs also serve to encourage 
        health professionals to return to such settings after 
        completing their training. The Area Health Education Centers 
        (AHECs) provide clinical training opportunities to health 
        professions and nursing students in rural and other underserved 
        communities by extending the resources of academic health 
        centers to these areas. AHECs, which have substantial State and 
        local matching funds, form networks of health-related 
        institutions to provide education services to students, faculty 
        and practitioners. Health Education and Training Centers 
        (HETCs) were created to improve the supply of health 
        professionals along the U.S.-Mexico border. They incorporate a 
        strong emphasis on wellness through public health education 
        activities for disadvantaged populations. Given America's 
        burgeoning aging population, there is a need for specialized 
        training in the diagnosis, treatment, and prevention of disease 
        and other health concerns of the elderly. Geriatric Health 
        Professions programs support geriatric faculty fellowships, the 
        Geriatric Academic Career Award, and Geriatric Education 
        Centers, which are all designed to bolster the number and 
        quality of health care providers caring for our older 
        generations. The Quentin N. Burdick Program for Rural Health 
        Interdisciplinary Training places an emphasis on long-term 
        collaboration between academic institutions, rural health care 
        agencies and providers to improve the recruitment and retention 
        of health professionals in rural areas. The Allied Health 
        Project Grants program represents the only Federal effort aimed 
        at supporting new and innovative education programs designed to 
        reduce shortages of allied health professionals and create 
        opportunities in medically underserved and minority areas. 
        Health professions schools use the funding to help establish or 
        expand allied health training programs. The need to address the 
        critical shortage of certain allied health professionals has 
        been repeatedly acknowledged. For example, this shortage has 
        received special attention given past bioterrorism events and 
        efforts to prepare for possible future attacks. The allied 
        health project grants funding enables the training of much 
        needed allied health professionals, including those 
        experiencing significant shortages. The Graduate Psychology 
        Education Program provides grants to American Psychological 
        Association accredited doctoral, internship and postdoctoral 
        programs in support of interdisciplinary training of psychology 
        students with other health professionals for the provision of 
        mental and behavioral health services to underserved 
        populations (i.e., older adults, children, chronically ill, and 
        victims of abuse and trauma, including returning military 
        personnel and their families), especially in rural and urban 
        communities. Since its inception in 2002, the GPE Program has 
        supported 52 grants in 27 States.
  --The Health Professions Workforce and Analysis program provides 
        grants to institutions to collect and analyze data on the 
        health professions workforce to advise future decision-making 
        on the direction of health professions and nursing programs. 
        The Health Professions Research and Health Professions Data 
        programs have developed a number of valuable, policy-relevant 
        studies on the distribution and training of health 
        professionals, including the soon-to-be-released Eighth 
        National Sample Survey of Registered Nurses (NSSRN), the 
        Nation's most extensive and comprehensive source of statistics 
        on registered nurses.
  --The Public Health Workforce Development programs are designed to 
        increase the number of individuals trained in public health, to 
        identify the causes of health problems, and respond to such 
        issues as managed care, new disease strains, food supply, and 
        bioterrorism. The Public Health Traineeships and Public Health 
        Training Centers seek to alleviate the critical shortage of 
        public health professionals by providing up-to-date training 
        for current and future public health workers, particularly in 
        underserved areas. Preventive Medicine Residencies, which 
        receive minimal funding through Medicare GME, provide training 
        in the only medical specialty that teaches both clinical and 
        population medicine to improve community health. Dental Public 
        Health Residency programs are vital to the Nation's dental 
        public health infrastructure. The Health Administration 
        Traineeships and Special Projects grants are the only Federal 
        funding provided to train the managers of our health care 
        system, with a special emphasis on those who serve in 
        underserved areas.
  --The Nursing Workforce Development programs provide training for 
        entry-level and advanced degree nurses to improve the access 
        to, and quality of, health care in underserved areas. Health 
        care entities across the Nation are experiencing a crisis in 
        nurse staffing, caused in part by an aging workforce, an 
        insufficient number of young people entering the profession, 
        and a shortage of nurse faculty. At the same time, the need for 
        nursing services is expected to increase significantly over the 
        next 20 years, with the demand for licensed, registered nurses 
        growing by over 29 percent within the next nine years alone. 
        Congress responded to this dire national need by passing the 
        Nurse Reinvestment Act (Public Law 107-205) which aims to 
        attract more people into the nursing profession, increase the 
        capacity for nurse education, and encourage practicing nurses 
        to remain in the profession. The Advanced Education Nursing 
        program awards grants to train a variety of advanced practice 
        nurses, including nurse practitioners, certified nurse-
        midwives, nurse anesthetists, public health nurses, and nurse 
        administrators. Workforce Diversity grants support 
        opportunities for nursing education for disadvantaged students 
        through scholarships, stipends, and retention activities. Nurse 
        Education, Practice, and Retention grants are awarded to help 
        schools of nursing, academic health centers, nurse managed 
        health centers, State, and local governments, and other health 
        care facilities to develop programs that provide nursing 
        education, promote best practices, and enhance nurse retention. 
        The Loan Repayment and Scholarship Program repays up to 85 
        percent of nursing student loans and offers individuals who are 
        enrolled or accepted for enrollment as a full-time or part-time 
        nursing student the opportunity to apply for scholarship funds. 
        In return these students are required to work for at least two 
        years of practice in a designated nursing shortage area. The 
        Comprehensive Geriatric Education grants assist in training 
        individuals to provide geriatric care for the elderly. The 
        Nurse Faculty Loan program provides a student loan fund 
        administered by schools of nursing to increase the number of 
        qualified nurse faculty. The Title VIII nursing programs also 
        support the National Advisory Council on Nurse Education and 
        Practice, which is charged with advising the Secretary of 
        Health and Human Services and Congress on nursing workforce, 
        education, and practice improvement issues.
  --The loan programs in the Student Financial Assistance support needy 
        and disadvantaged medical and nursing school students in 
        covering the costs of their education. The Nursing Student Loan 
        (NSL) program provides loans to undergraduate and graduate 
        nursing students with a preference for those with the greatest 
        financial need. The Primary Care Loan (PCL) program provides 
        loans covering the cost of attendance in return for dedicated 
        service in primary care. The Health Professional Student Loan 
        (HPSL) program provides loans covering the cost of attendance 
        for financially needy health professions students based on 
        institutional determination. The NSL, PCL, and HPSL programs 
        are funded out of each institution's revolving fund and do not 
        receive Federal appropriations. The Loans for Disadvantaged 
        Students (LDS) program provides grants to health professions 
        institutions to make loans to health professions students from 
        disadvantaged backgrounds.
    HPNEC members respectfully urge support for funding of at least 
$550 million for the Title VII and VIII programs, an investment 
essential not only to the development and training of tomorrow's health 
care professions but also to our Nation's efforts to provide needed 
health care services to underserved and minority communities. We 
greatly appreciate the support of the subcommittee and look forward to 
working with members of Congress to achieve these goals in fiscal year 
2007 and into the future.
                                 ______
                                 
      Prepared Statement of the Institute for Student Achievement

    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to submit testimony to the hearing record regarding the 
Institute for Student Achievement (ISA), a national not for profit 
educational organization.

         INTRODUCTION TO THE INSTITUTE FOR STUDENT ACHIEVEMENT

    The Institute for Student Achievement's mission is ``to improve the 
quality of education for youth at risk so that they can succeed in our 
society.'' ISA has had a solid 15 year history of promoting high 
achievement for underserved students, first through its legacy direct 
service programs, COMET (for middle school) and STAR (for high school), 
and now through its school reform model. ISA launched its high school 
reform model in September 2001, with four pilot sites, three in New 
York City and one in Fairfax County, Virginia. As you know, funds to 
expand the work of ISA have been included in recent appropriations 
cycles, and we appreciate the support of the subcommittee. As a result 
we have created 31 small schools and learning communities serving over 
8,000 students in New York State, Virginia (in partnership with Fairfax 
County Schools), Atlanta, Georgia and Union City, New Jersey.
    ISA partners with school districts to create new small schools or 
to transform large existing high schools into clusters of autonomous 
small schools or semi-autonomous small learning communities. The ISA 
high school reform model targets underserved, underperforming young 
people, including students from low-income families, students of color, 
recent immigrants and English Language Learners. ISA helps schools to 
develop small learning communities with the seven school design 
principles that have succeeded in preparing all high school students, 
including those who are disadvantaged and underperforming, to achieve, 
graduate, and go on to college.
    Briefly described, the 7 ISA Principles are:
    A College Preparatory Instructional Program promoting rigorous 
intellectual development, strong literacy and numeracy skills, critical 
thinking, habits of mind and work, and practical knowledge of the 
college application process.
    A Dedicated Team of Teachers and a Counselor who collaborate to 
ensure that students develop and achieve academically and socially.
    Continuous Professional Development that strengthens the capacities 
of teachers, counselors and school leaders to effectively provide a 
college preparatory program through rich professional growth 
experiences; regularly scheduled team meetings; classroom interventions 
for teachers; and customized professional development on topics ranging 
from inquiry in science to conflict resolution.
    Distributed Counseling <SUP>TM</SUP> an approach in which faculty 
get to know all students well, as both learners and people, and 
integrate counseling into the education program so that students 
graduate ready for college. The counselor provides ongoing guidance to 
the teacher/advisors and direct services to students and their 
families.
    An Extended School Day and School Year provide extra time for 
students to develop skills, complete assignments, engage in test 
preparation, participate in community service projects and internships, 
and have opportunities for talent development and enrichment.
    Parent Involvement is integrated into school operations. The school 
program is designed to allow--and encourage--parents to be full 
partners in realizing educational excellence for their children.
    Continuous Organizational Improvement focuses on optimizing student 
learning. ISA and its higher education partner, the National Center for 
Restructuring Education, Schools and Teaching (NCREST) of Teacher's 
College, Columbia University, work with the small schools and small 
learning communities to assess and evaluate in order to inform 
instruction and enhance program development.
    In each ISA small learning community or small school, a team of at 
least four core subject teachers and a guidance counselor is dedicated 
to a group of 100-125 students, staying with the students over multiple 
years. Each ISA small school or small learning community selects an ISA 
coach, who is experienced in the development of small or restructuring 
schools, brings substantive knowledge of one or more core content 
areas, and has considerable background in working closely with teachers 
in reflecting on and improving their practice. The ISA coach works with 
the school over a four-year period at the school site, supporting 
school administrators and dedicated teacher/counselor teams as they 
implement the seven ISA principles to meet the needs of their school 
community.
    The ISA coach works with individual teachers to strengthen their 
pedagogical skills and facilitates curriculum development and 
implementation. He or she helps the teacher/counselor teams to create a 
personalized, supportive environment that optimizes student learning. 
The team is further assisted with the implementation of ISA's 
Distributed Counseling <SUP>TM</SUP> model and their efforts to 
increase the level of parent involvement are informed by ISA best 
practices. ISA also helps schools to develop extended day programming 
that reinforces school day learning and offers young people 
opportunities to prepare for college and career.

                           THE CONCEPTUAL AGE

    Our mission today is even more important than it was when ISA was 
founded because of the dramatic transformation of our economy and the 
nature of work. The fact is, we are charged with preparing our children 
to succeed in a world that in many ways bears little relation to the 
world we entered when we left school--or even the world we woke up in 
yesterday. In a microscopic measure of human time, we have moved 
through the Agricultural Age, to the Industrial Age, to the Information 
Age, and now to another era altogether. Author Daniel Pink calls this 
new era the Conceptual Age. It requires us to be not only knowledgeable 
and competent, but creative and inquisitive as well.
    Studies have shown that many of our high schools, even those that 
boast of high graduation and college-attendance rates, rarely demand 
that students use information, skills, and technologies to construct 
new knowledge and to solve complex problems, integrate concepts and 
ideas across disciplines, communicate effectively orally and in 
writing, and work in diverse groups. Yet this is precisely the kind of 
learning students need for a Conceptual Age. Students themselves tell 
us that they want to be held to high standards but that they find their 
high schools boring, unchallenging, and disconnected from their lives.

                          THE GLOBAL CHALLENGE

    Microsoft Chairman Bill Gates recently told the Nation's governors 
that American high school education is ``obsolete.'' He said, ``When I 
compare our high schools to what I see when I'm traveling abroad, I am 
terrified for our workforce of tomorrow. . . . In 2001, India graduated 
almost a million more students from college than the United States did. 
China graduates twice as many students with bachelor's degrees as the 
United States and [has] six times as many graduates majoring in 
engineering. . . . America is falling behind.''
    Gates was describing a global economy in which the chance to move 
up into a better economic life is slipping overseas, along with jobs 
that can be performed anywhere--manufacturing in China, technology 
support in India, online order fulfillment across borders. The Internet 
brings Bhutan and Bangalore just as close to our offices and living 
rooms as Boise. Our children's competitors are not the other schools in 
the district or the State or even the Nation. They are the 
technologically literate young people in Taiwan, India, Korea, and 
other developing nations. For today's American students, learning and 
retraining will be a lifelong experience.
    To be ``competitive'' now, U.S. students must develop sophisticated 
critical thinking and analytical skills to manage the conceptual nature 
of the work they will do. They will need to be able to recognize 
patterns, create narrative, and imagine solutions to problems we have 
yet to discover. They will have to see the big picture and ask the big 
questions. How many high schools do you know that are nurturing minds 
like that?
    The 12th-grade data from the Third International Mathematics and 
Science Study showed that of the 20 countries participating, only two--
Cyprus and South Africa--scored lower than the United States. American 
students enrolled in the most advanced courses in math and science 
performed at low levels compared to students in other countries.

                      LEAVING SOME STUDENTS BEHIND

    Two serious gaps hold back most of our students and risk the 
prosperous future of the entire country. The gap we hear least about is 
the one between a rigorous, intellectually challenging curriculum and 
the rote instructional program that is commonplace in far too many 
classrooms. The gap we hear much more about is the one in student 
achievement that is exposed when data is disaggregated by race, 
ethnicity, and family income. Our challenge is to ensure that both gaps 
are closed and that all children--not just some of them--receive a 
high-quality education that will prepare them well for the world in 
which they will live and work.
    There are tremendous gaps in achievement among racial and ethnic 
groups within our own country. We are systematically leaving behind 
large numbers of our poor and minority students. On the 2005 National 
Assessment of Educational Progress, 39 percent of white eighth-graders 
scored at or above proficient on the math exam, while only 9 percent of 
African-American and 13 percent of Hispanics achieved at that level.
    A U.S. Department of Education study shows that the average 12th-
grade African-American student is reading and doing math at around the 
level of the average eighth-grade white or Asian student. Hispanic 
students are about as far behind. On the 2004 SAT, black students, on 
the average, scored 104 points lower on the math test and 98 points 
lower on the verbal test than white students. Between 25 to 30 percent 
of America's teenagers fail to graduate from high school with a regular 
diploma. That figure climbs to more than 50 percent for black male and 
Hispanic students.
    Clearly, this is not the path to global competitiveness. The 
quality and the inequality of education in this country should be at 
the top of the agenda for every meeting of the school board and 
superintendent. An uneven playing field is everybody's turf--and it 
needs tending.

          THE INSTITUTE FOR STUDENT ACHIEVEMENT IS SUCCEEDING

    At a time when the vast majority of jobs require a college degree 
or some type of postsecondary degree, most low-achieving students are 
relegated to classrooms where remediation and instruction in low-level 
skills are the norm. But poor performance and a shortage of vision are 
not inevitable characteristics of our educational system. ISA is 
addressing this challenge.
    Typically ISA schools have attendance rates of over 90 percent 
average daily attendance. Over 95 percent of graduates from ISA schools 
and learning communities have gone on to college. The small size, 400 
students grades 9-12, results in a high level of personalization, 
individual student attention, extensive, professional development, a 
challenging curriculum, and family and community involvement. Our 
research has shown that ISA small schools and learning communities have 
higher graduation rates, very low dropout rates, outstanding student 
attendance, increased teacher satisfaction and are more cost effective 
than large high schools.
    In fiscal year 2007, ISA has requested Federal funding to help us 
continue our work in developing rigorous college preparatory high 
schools in the States of Georgia, Virginia, New Jersey and New York. 
Beyond that, our goal, with your help, is to expand the number of ISA 
schools to over 100 throughout the Nation, over the next three years. 
When we have met that challenge we will have demonstrated that there 
are model public high schools that are successfully educating all 
students in high need communities to be conceptual thinkers and ready 
for the challenges we are confronting in today's global economy. We 
hope that the subcommittee can be supportive of our efforts and our 
request for funding.
                                 ______
                                 
           Prepared Statement of the National Writing Project

    I am Richard Sterling, Executive Director of the National Writing 
Project (NWP). NWP is authorized under Title II, Subchapter C, Subpart 
2 of the Elementary and Secondary Education Act of 1965. It has been 
authorized as part of ESEA since 1991.
    I appreciate the opportunity to present this testimony requesting 
continued support for the National Writing Project. As you know, the 
Department of Education's (ED) fiscal year 2007 budget request to 
Congress did not include funding for this program.
    NWP is a national organization, a network of local writing project 
sites, working with teachers of all subject areas and at all grade 
levels to improve the teaching of writing in the Nation's schools. 
Today there are 195 university-based writing project sites in all 50 
States, the District of Columbia, Puerto Rico, and the U.S. Virgin 
Islands. NWP sites promote core principles of effective instruction 
while they respond to the needs of local schools and communities. The 
fiscal year 2006 appropriation for the NWP is $21.5 million. Another 
$22 million in local support is leveraged by writing project sites 
across the country.
    By statute, the purposes of the NWP are to (1) ``support and 
promote the expansion of the NWP network so that teachers in every 
region of the United States have access to an NWP program,'' (2) 
``ensure the consistent high quality of sites through ongoing review, 
evaluation, and technical assistance,'' and (3) ``support and promote 
the establishment of programs to disseminate effective practices and 
research findings about the teaching of writing.''
    The Department of Education's justification for elimination of the 
NWP states that the ED is ``eliminating small categorical programs that 
have limited impact and for which there is little or no evidence of 
effectiveness.'' In addition, the ED States that, ``These small 
categorical programs siphon off Federal resources that could be used by 
State and local agencies to improve the performance of all students.'' 
In relation to the NWP network these findings are not adequately 
supported by the facts. The NWP's response follows:

       RESPONSE TO THE STATEMENT: THE NWP HAS ``LIMITED IMPACT''

    It is difficult to understand the basis for the finding that the 
NWP has ``limited impact.'' The impact of a funded project is 
determined by the scale of services provided and the value of those 
services to districts, schools, teachers, and students. In terms of the 
scale of its services, the NWP is by far the largest provider of 
professional development in writing in the country.
    Data gathered by an independent evaluator, Inverness Research 
Associates (IRA), show the scale of NWP as it affects students. 
Approximately 1.95 million students are taught every year by teachers 
who received professional development services from writing project 
sites. In addition, NWP programs also directly serve 45,000 students 
through school-year and summer youth writing programs each year. (Data 
available from IRA, www.inverness-research.org.)
    Data also demonstrate the scale of NWP's reach to teachers across 
the country. The NWP network provides 19 hours of professional 
development to 1 out of every 8 secondary language arts teachers and 1 
out of every 35 elementary school teachers every year.
    In 2004-2005 alone, more than 3,000 teachers attended intensive NWP 
summer institutes. These summer institute participants directly teach 
more than 60,000 students during the school year. (Their students are 
representative of the student population: 42 percent students of color, 
13 percent English language learners, 46 percent in Title I programs.) 
These 2004-2005 teacher-participants join the more than 12,000 writing 
project teacher-leaders from past summer institutes who are serving 
their home communities. Together, these teachers conducted 7,288 
professional development programs for more than 141,000 educators in 
2004-2005.
    The network of 195 local sites is a unique national asset now 
providing geographical access to teachers in two-thirds of the counties 
in the Nation. In 2004-2005, 1,657 districts (1 out of ten in the 
Nation) and 2,907 schools (1 out of every 30 schools) chose to invest 
their professional development dollars with NWP local sites. Local 
writing project sites have formed ongoing partnerships with 371 
districts and schools.
    Thus, not only is the scale of work of the NWP network of national 
significance, there is strong evidence that the services offered are 
highly valued by States, local districts, schools, and teachers.
Expanding the NWP
    Since 2000, the NWP network has added 60 new writing project sites 
in 30 states. Each year between 6 and 10 new sites are established in 
areas of the country that previously had not been served. This 
addresses the statutory requirement to expand the NWP network ``so that 
teachers in every region of the United States have access to an NWP 
program.'' In addition to adding new sites, NWP has developed local 
satellite programs so that existing sites can provide services to 
teachers and schools at a distance from the host university. NWP 
receives an average of 12 requests for new sites and satellites each 
year from universities eager to bring the writing project to their 
local communities.
Assuring program quality
    In order to ensure the quality of local sites, NWP has conducted an 
annual site performance review since 1994. As part of the process, each 
local writing project site completes an extensive performance survey of 
its programs as well as of its teacher and administrator participants. 
The statistical data from these surveys are independently analyzed and 
reported by IRA on an annual basis. Every site must reapply for funding 
each year, and the analysis of these data, along with the site 
application, are used in the site performance review. During this 
annual review process, some sites are identified as in need of 
technical assistance from the NWP. If the sites are unable to resolve 
their issues after this technical support, they are no longer eligible 
for Federal funding. Over the last 10 years, 51 site grants were not 
renewed; however, 8 of these sites were re-funded after a transition 
period that resolved their issues.
    While each local NWP site receives a small amount of core funding 
from the Federal grant, the vast majority of the work done by each 
local NWP site is supported by States, counties, local school 
districts, and individual teachers. States, districts, and schools must 
make careful decisions about how they spend their resources for 
professional development--the fact that they continue to invest in the 
work of the NWP over many years is strong evidence of both the value 
and the effectiveness of NWP services.

    RESPONSE TO THE STATEMENT: THERE IS ``LITTLE OR NO EVIDENCE OF 
                       EFFECTIVENESS'' OF THE NWP

    The Program Assessment Rating Tool (PART) review concluded that 
``there is insufficient evidence on the overall effectiveness of NWP 
interventions.'' This assertion is based on incomplete information 
about a range of studies conducted on the effectiveness of NWP 
programs. In particular, the NWP PART section 2.1 provides incomplete 
information concerning long-term performance measures that NWP has 
employed to ``focus on outcomes and meaningfully reflect the purpose of 
the program.''
    In fact, since its inception in 1974 as a single writing project 
site located at the University of California, Berkeley, NWP has 
supported its sites in conducting numerous studies on the effectiveness 
of their professional development programs and contracted with third 
parties that have also conducted such studies. (Only two of these 
studies are referred to in the ED report.) Multiple research studies 
have shown that NWP programs significantly increase the instructional 
knowledge of teachers to teach writing. High quality quasi-experimental 
studies confirm significant gains for students of teachers who have 
participated in writing project programs. The NWP's website 
(www.writingproject.org) contains information on these and other recent 
studies.
    The PART assessment is based on incomplete information about the 
establishment of long-term measures to ensure that NWP sites 
disseminate effective practices in NWP teacher training programs. 
Beginning in 1999, following the establishment of GPRA performance 
indicators by ED, NWP contracted with IRA to collect and analyze 
additional data on teacher satisfaction with the summer training they 
received and to assess their implementation of effective instructional 
strategies in the teaching of writing in the year following the 
training. Targets were established by ED for this indicator in 1999.
    NWP has exceeded the target established for every year of the 
evaluation to date, with an average of 96 percent of elementary and 
secondary teachers reporting that they gained effective teaching 
strategies and up-to-date research that they can apply to their 
teaching. The independent evaluation also showed that instructional 
strategies that NWP participants learn in the institutes and use in 
their classrooms correlate positively with greater student achievement 
in writing on the NAEP Writing Assessment. This study is performed 
annually in partial fulfillment of requirements placed on the NWP by 
ED. To date, more than 15,000 teachers have been surveyed, with 
consistent results across all six years of the evaluation. (These 
annual reports are available at www.inverness-research.org, including 
The National Writing Project Client Satisfaction and Program Impact: 
Results from a Satisfaction Survey and Follow-up Survey of Participants 
at 2004 Invitational Institutes, December 2005.)
    The NWP PART assessment was also conducted before the conclusion of 
five rigorous quasi-experimental design studies that measured the 
extent to which students of teachers who received training by an NWP 
site improved their writing skills. Student learning in writing project 
teachers' classrooms was studied relative to student learning in 
comparable non-writing project teachers' classrooms. A team of external 
evaluators reviewed all of the research proposals and also designed and 
oversaw the independent national scoring of student writing. These five 
quasi-experimental studies have been completed and the results have 
been submitted to ED as well as posted on the NWP website.
    Central to each of the five studies conducted in 2004-2005 was the 
writing project site's commitment to understand what difference writing 
project professional development makes for participating teachers' 
practices and, in turn, what difference those changes in instructional 
practices make for student learning. Each study employed direct 
assessments of student writing, and each included carefully matched 
comparison classes and/or students. In an independent national scoring 
of student writing, NWP students' improvement outpaced that of students 
in carefully constructed comparison groups.
    Every comparison across all five studies shows positive effects of 
NWP programming. Student results were strong and favorable in those 
aspects of writing that the NWP is best known for, such as organization 
and the development of ideas. Students in writing project classrooms 
made greater gains than their peers in the area of conventions as well, 
suggesting that even these basic skills benefit from the NWP approach 
to teaching writing. These quasi-experimental studies uniformly 
indicate positive effects for the students of teachers who participated 
in writing project programs.
    These studies conform to the advice regarding rigor in quasi-
experimental designs as offered by the Institute of Educational 
Sciences (IES) of ED.

  RESPONSE TO THE STATEMENT: ``SMALL CATEGORICAL PROGRAMS SIPHON OFF 
  FEDERAL RESOURCES THAT COULD BE USED BY STATE AND LOCAL AGENCIES TO 
               IMPROVE THE PERFORMANCE OF ALL STUDENTS''

    Rather than ``siphon off'' resources, the Federal investment in the 
NWP helps to augment and amplify local expenditures in the improvement 
of writing. All NWP sites match their Federal base grant with State, 
local, and private funding at a ratio of at least 1:1. The Federal 
investment provides core funding for the NWP and enables local sites to 
leverage additional funds from a variety of sources, including host 
universities, surrounding school districts, private corporations, and 
other entities. The quantity and quality of local professional 
development depends on the modest Federal investment that has so 
clearly demonstrated its power to attract and focus local resources. 
Without these crucial Federal funds, the core writing project work that 
develops teacher expertise and leadership and supports the 
dissemination of research and effective practices will simply cease to 
exist.
    An independent analysis by IRA of cost-efficiency over the past 
five years highlights the cost effectiveness of the Federal investment 
in the NWP. Local sites have leveraged an average of $3.65 for every 
Federal dollar they received from the NWP.
    The need for strong literacy skills for our Nation's students is a 
central tenet of all current school reform efforts. The NWP is a very 
good example of a Federal-local partnership that addresses this core 
need. The Federal funds: (1) enable local sites to maintain a minimal 
but critically important effective group of teacher-leaders, (2) 
develop ongoing working relationships between universities and school 
districts, (3) respond to local needs, and (4) provide support to all 
local sites so that they can continue to improve and expand their 
programs. In summary, the NWP provides high quality, large scale, and 
cost-effective support to teachers and students to improve writing and 
learning in the Nation's schools.
                                 ______
                                 
   Prepared Statement of the State Educational Technology Directors 
                              Association

  NCLB TITLE II, PART D--ENHANCING EDUCATION THROUGH TECHNOLOGY (EETT)

    Members of the State Educational Technology Directors Association 
(SETDA) include the State directors of technology from the SEAs in all 
50 States, D.C., and American Samoa. I am pleased to submit this 
information and data which demonstrates how EETT is being utilized in 
over 80 percent of school districts across this country. EETT supports 
all areas of NCLB, including:
  --Closing the Achievement Gap
  --Recruiting and Retaining Highly Qualified Teachers
  --Improving Data Systems to Meet AYP
    EETT is also a key foundation to address the critical STEM and 
Competitiveness issues and initiatives. EETT has already begun to 
address these needs and will continue to do so through programs with 
data to support their effectiveness, including:
  --Improving math and science achievement
  --Ensuring highly qualified teachers in math and science
  --Ensuring students and teachers have skills to ensure that they are 
        prepared for the global workforce
    This testimony includes the following:
    1. Key Examples that illustrate the key role EETT plays in helping 
schools, districts, and States to meet NCLB goals, but also demonstrate 
the focus on math, science, and improving students' abilities to 
compete in a global workforce.
    2. Overview of National Trends Report on Round 3 of EETT Funding 
data and results; the entire report on how EETT funds were used in all 
50 States and D.C. can be accessed at http://www.setda.org/
content.cfm?sectionID=185.

                            1. KEY EXAMPLES

Improvements in Math and Science Achievement
    Iowa's Success With Algebra.--In Columbus Community School 
District, with 70 percent high poverty and 65 percent Hispanic 
populations, the 8th grade in the 2001-02 school year scored only 51 
percent of the students as proficient on the ITBS Math Assessment. 
Cognitive Tutor Algebra I implementation began in 2002 with the 
instructor rating a very high level of implementation by the CEO of the 
program. Columbus Students improved proficiency by 11 percent from 
Grade 8 to Grade 9. They continued to improve and were 74 percent 
proficient as 11th graders.
    Louisiana's Online Algebra I Course.--Algebra I is often a 
predictor for success in high school and beyond. Louisiana implemented 
an online Algebra I course to provide additional opportunities for 
student achievement. Preliminary evaluations indicate that students in 
the online course, with similar pre-test scores are showing more 
significant achievement gains compared to the control group as 
indicated below:

------------------------------------------------------------------------
                                                  Pre-test    Post-test
                     Group                         (fall)      (spring)
                                                    mean         mean
------------------------------------------------------------------------
Algebra I Online Students.....................         13.3         17.2
Control Students..............................         13.4         15.6
------------------------------------------------------------------------

    Michigan's Freedom to Learn Project.--This one-to-one initiative, 
which includes each student having a computer and professional 
development for teachers, showed significant impact with 7th-grade 
reading scores jumping from 29 percent to 41 percent and 8th-grade math 
scores increasing from 31 percent to 63 percent.
Closing the Achievement Gap
    Missouri's eMINTS,--The eMINTS National Center provides tools to 
teachers in grades 3-5 to integrate multimedia into lessons. Three 
years of data analysis have demonstrated the highly positive effect of 
the program on student achievement. Performance in the fourth grade in 
the fiscal year 2002 cohort was essentially equalized between African-
American and white students. Indeed, African-American students in 
eMINTS classrooms had a slightly higher average score in social studies 
for fiscal year 2002 than white students not enrolled in those 
classrooms; and in mathematics, the average performance between these 
two groups was almost identical.
    West Virginia's Basic Skills Computer Education Program.--
Researcher Dale Mann (ASBO, 2003) cited a direct correlation between 
pupil performance and technology in instruction through West Virginia's 
Basic Skills/Computer Education program. The study found that while per 
capita income had not changed between 1991 and 1998, the infusion of 
technology was the single factor that accounted for the State moving 
from 33rd among the States for student achievement to 11th. In a 
similar study, Mann found that the cost of advancing students one unit 
in reading by decreasing the class size cost $636 and using technology 
to achieve the same result cost $86 (Mann, 2003). Technology provides a 
key opportunity to increase student achievement.
    Providing Opportunities to Rural and Small School Districts Through 
Distance Education.--The U.S. Department of Education and NCES' recent 
Distance Education Courses for Public Elementary and Secondary School 
Students: 2002-2003 (2005) documents the fact that smaller and rural 
schools use distance education opportunities more often, with a strong 
emphasis on foreign language courses. Additionally, 50 percent of 
districts that provide distance learning opportunities had students 
enrolled in Advanced Placement (AP) Courses. The recent NGA Summit on 
High School reform indicated the importance of students' access and 
participation in AP Courses. At least 80 percent of districts noted 
that distance education allowed them to increase the course offerings 
for their students. EETT provides a significant funding for these 
opportunities.
Recruiting and Retaining Highly Qualified Teachers
    North Carolina's IMPACT Model Schools Grant.--This EETT grant 
program provides personnel, connectivity, hardware, software, and 
professional development to improve student achievement. A 
collaborative model, it focuses on using technology as a tool to 
encourage authentic, project-based learning incorporating 21st Century 
Learning Skills into all curriculum areas. In a time where more than 
one-half of all teachers leave the teaching field within the first 
three years, teachers who are scheduled to retire often choose to stay 
in these IMPACT schools, others request transfers into them, and new 
teachers clamor to be hired. ``These teachers like the way technology 
is changing the way they teach, and the enthusiasm with which their 
students approach learning,'' says Frances Bryant Bradburn, Director of 
Instructional Technology for the North Carolina Department of Public 
Instruction. Additionally, the initial results from this quasi-
experimental design evaluation demonstrate that:
  --In first year, students in IMPACT schools had stronger growth than 
        comparison school students, and for particular subgroups there 
        was substantially stronger growth varying from small 
        differences to about half a grade level of extra growth, 
        depending on the outcome and grade level.
  --IMPACT students often started lower than their comparison school 
        counterparts, but caught up within one school year.
  --In general, the most challenged IMPACT students showed the most 
        growth in achievement.
    Maryland Increasing Teacher Retention.--Nationally, 50 percent of 
teachers leave the field within the first three years of their careers. 
To provide additional support for new teachers, Prince George's County 
has utilized Intel's Teach to the Future to provide extensive 
technology integration training for teachers and opportunity for 
graduate credit. Associated with Towson University, the first cohort of 
125 beginning teachers are demonstrating a very high rate of retention: 
94 percent.
Improving Data Systems to Meet AYP
    Vermont Education Data Warehouse.--EETT funds in Vermont are being 
utilized directly for the implementation of data systems to support 
NCLB Accountability requirements through the Vermont Data Consortium 
that is creating a statewide ``Education Data Warehouse.'' The State 
grants provided through EETT funds support LEAs or schools in the 
development of local data systems to improve student achievement, 
support for teachers in analyzing data, improvement in evidence-based 
policy, and data standards to address local interoperability.
    Philadelphia's Instructional Management System (IMS).--A 
comprehensive reform effort that includes new resources, a standardized 
curriculum, after school programs, and professional development, IMS 
provides teachers and administrators with immediate data on student 
learning aligned to State and District standards. A benchmark 
assessment, given every five weeks, allows teachers to differentiate 
instruction, provide immediate remediation, and identify those students 
who need additional assistance. In 2003, before these technology tools 
were provided to teachers, only 9 of the 40 initial participating 
schools had met AYP; and 15 were identified for Corrective Action. At 
the end of the 2004 school year, 25 schools met their AYP targets, and 
only 10 remained in Corrective Action II.

             2. OVERVIEW OF NATIONAL TRENDS REPORT ON EETT

Key Findings
    1. Promising Interim Results at 3-Year Mark Warrant Continued 
Investment
    2. States Have Set the Bar High for Professional Development
    3. States Are Making Progress with Evaluation and Impact Research
    4. States Are Leveraging Resources through Collaborations and 
Partnerships
    Over 40 percent of States required LEAs that received NCLB II D 
competitive grant funds to focus on reading or mathematics. States are 
not only building the conditions essential to effective technology use, 
but they are also seeing results as measured in increased student 
learning.
    Nearly 25 percent of States are funding or commissioning research 
studies on the impact of educational technology on learning in schools. 
Over 88 percent of States are collecting data annually from either 
districts, schools, or both. States are increasingly triangulating data 
sources (e.g., district surveys, school surveys, teacher surveys, 
student surveys, and site visitations).
    43 percent of the States went beyond the Title II D's 25 percent 
minimum funding requirement to focus additional resources toward 
professional development. Thus, over $159 million of grant funds was 
dedicated to professional development during Round 3 of the NCLB II D 
program.
Key Facts
    1. Within the 50 States and the District of Columbia, 14,291 
districts were eligible for Title II D funds, representing 89.3 percent 
of LEAs. Collectively, the survey respondents administered $635,027,468 
in NCLB Title II D funding for Round 3, fiscal year 2004.
    2. Most States are encouraging school districts and schools to 
integrate technology systematically and 23.5 percent actually require 
that technology planning and school improvement be conducted within the 
same process.
    3. Funds are administered through both formula grants and 
competitive grants. Approximately 48 percent of the formula grants are 
under $5,000. That means that less than 4 percent of the funds require 
almost 50 percent of the administrative support for formula grants.
    4. The following States report that NCLB II D is the only source of 
funding in their State for educational technology: Arizona, California, 
Delaware, Illinois, Louisiana, Maryland, Michigan, Minnesota, Missouri, 
New Hampshire, Oklahoma, Vermont, Washington, and Wisconsin.
    5. On the other hand, many States, including Virginia, 
Pennsylvania, Florida and Alabama, are leveraging EETT to secure 
significant State investments in education technology through on-line 
assessment, high school reform, one to one initiatives and on-line 
learning initiatives.
    Full copies of the National Trends Report are available for 
download from the State Educational Technology Directors Association 
(SETDA) Website, www.setda.org. SETDA is the principal association 
representing the State directors for educational technology. SETDA?s 
membership includes all 50 States, the District of Columbia, and 
American Samoa.
    Thank you for your consideration of this data. Please contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a776d75767c5a697f6e7e7b3475687d">[email&#160;protected]</a> or 410-647-6965 with any questions.
                                 ______
                                 

                            RELATED AGENCIES

Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
subcommittee regarding the appropriation for the Corporation for Public 
Broadcasting (CPB). As the President and CEO of the National Federation 
of Community Broadcasters, I speak on behalf of 250 community radio 
stations and related organizations across the country. Nearly half our 
members are rural stations and half are minority controlled stations. 
In addition, our members include many of the new Low Power FM stations 
that are putting new local voices on the airwaves. NFCB is the sole 
national organization representing this group of stations which provide 
service in the smallest communities of this country as well as the 
largest metropolitan areas.
    In summary, the points we wish to make to this subcommittee are 
that NFCB:
  --Requests $430 million in funding for CPB for fiscal year 2009, a 
        $30 million increase over the fiscal year 2008 advance 
        appropriation;
  --Requests $40 million in fiscal year 2007 for conversion of public 
        radio and television to digital broadcasting. Also supports 
        funding for the Public TV interconnection system;
  --Requests that advance funding for CPB is maintained to preserve 
        journalistic integrity and facilitate planning and local 
        fundraising by public broadcasters;
  --Reject the Administration's proposal to rescind $103 million of 
        already-appropriated fiscal year 2007 and 2008 CPB funds;
  --Supports CPB activities in facilitating programming and services to 
        Native American, African American and Latino radio stations;
  --Supports CPB's efforts to help public radio stations utilize new 
        distribution technologies and requests that the subcommittee 
        ensure that these technologies are available to all public 
        radio services and not just the ones with the greatest 
        resources.
    Community Radio fully supports $430 million in Federal funding for 
the Corporation for Public Broadcasting in fiscal year 2009. Federal 
support distributed through CPB is an essential resource for rural 
stations and for those stations serving minority communities. These 
stations provide critical, life-saving information to their listeners 
and are often in communities with very small populations and limited 
economic bases, thus the community is unable to financially support the 
station without Federal funds.
    In larger towns and cities, sustaining grants from CPB enable 
Community Radio stations to provide a reliable source of noncommercial 
programming about the communities themselves. Local programming is an 
increasingly rare commodity in a Nation that is dominated by national 
program services and concentrated ownership of the media.
    For the past 30 years, CPB appropriations have been enacted two 
years in advance. This insulation has allowed pubic broadcasting to 
grow into a respected, independent, national resource that leverages 
its Federal support with significant local funds. Knowing what funding 
will be available in advance has allowed local stations to plan for 
programming and community service and to explore additional non-
governmental support to augment the Federal funds. Most importantly, 
the insulation that advance funding provides ``go[es] a long way toward 
eliminating both the risk of and the appearance of undue interference 
with and control of public broadcasting.'' (House Report 94-245.)
    For the last few years, CPB has increased support to rural stations 
and committed resources to help public radio take advantage of new 
technologies such as the Internet, satellite radio and digital 
broadcasting. We commend these activities which we feel provide better 
service to the American people but want to be sure that the smaller 
stations with more limited resources are not left out of this 
technological transition. A step in this direction is the $3 million 
Internet Service Grant Fund that will help rural and minority stations 
serve their listeners and communities better through a website. We ask 
that the subcommittee include language in the appropriation that will 
ensure that funds are available to help the entire public radio system 
utilize the new technologies, particularly rural and minority stations.
    NFCB commends CPB for the leadership it has shown in supporting and 
fostering the programming services to Latino stations and to Native 
American stations. For example, Satelite Radio Bilingue provides 24 
hours of programming to stations across the United States and Puerto 
Rico addressing issues in Spanish of particular interest to the Latino 
population. At the same time, American Indian Radio on Satellite 
(AIROS) is distributing programming for the Native American stations, 
arguably the fastest growing group of stations. There are now over 33 
stations controlled by and serving Native Americans.
    Last year CPB funded the establishment of the Center for Native 
American Public Radio (CNAPR). Based on a comprehensive assessment of 
the Native American Radio System, CNAPR will develop new funding 
sources for Native stations and programming; provide direct services to 
the Native Radio System; encourage collaborations; and represent the 
Native Radio System. These stations are critical in serving local 
isolated communities (all but one are on Indian Reservations) and in 
preserving cultures that are in danger of being lost. CPB's assessment 
recognized that ``. . . Native Radio faces enormous challenges and 
operates in very difficult environments.'' CPB funding is critical to 
these rural, minority stations. CPB's funding of the Intertribal Native 
Radio Summit in 2001 helped to pull these isolated stations together 
into a system of stations that can support each other. The CPB 
assessment goes on to say: ``Nevertheless, the Native Radio system is 
relatively new, fragile and still needs help building its capacity at 
this time in its development.'' The Center for Native American Public 
Radio promises to leverage additional, new funding to ensure that these 
stations can continue to provide essential services to their 
communities.
    CPB also funded a Summit for Latino Public Radio which took place 
in September 2002 in Rohnert Park, California, home of the first Latino 
Public Radio station. These Summits have expanded the circle of support 
for Native and Latino Public Radio and identified projects that will 
improve efficiency among the stations through collaborations and 
explore new ways of reaching the target audiences.
    CPB plays a very important role for the public and Community Radio 
system. They are the convener of discussions on critical issues facing 
us as a system. They support research so that we have a better 
understanding of how we are serving listeners. And they provide funding 
to programming, new ventures, expansion to new listeners, and projects 
that improve the efficiency of the system. This is particularly 
important at a time when there are so many changes in the radio and 
media environment with new distribution technologies and media 
consolidation. An example of this support is the grant that NFCB 
received to update and publish our Public Radio Legal Handbook online. 
This provides easy-to-read information to stations about complying with 
governmental regulations so that stations can function legally and use 
their precious resources for programming instead of legal fees.
    Finally, Community Radio supports $40 million in fiscal year 2007 
for conversion to digital broadcasting by public radio and television. 
It is critical that this digital funding be in addition to the on-going 
operational support that CPB provides. The President's proposal that 
digital money should be taken from the fiscal year 2007 CPB 
appropriation would effectively cut stations' grants by over 20 
percent. This would have a devastating impact as stations trying to 
recover from hard economic times. And it would come at a time when the 
local voices of community and public radio are especially important to 
notify and support people during emergency situations and to help 
communities deal with the loss of loved ones--things that commercial 
radio is no longer able to do because of media consolidation.
    While public television's digital conversion needs are mandated by 
the FCC, public radio is converting to digital to provide more public 
service and to keep up with what commercial radio is doing. The Federal 
Communications Commission has approved a standard for digital radio 
transmission. CPB has provided funding for 461 transmitters to convert 
to digital, is supporting additional research on AM radio conversion, 
and is working with radio transmitter and receiver manufacturers to 
build in the capacity to provide a second channel of programming. Most 
exciting to public and community radio is the encouraging results of 
tests that National Public Radio has conducted, with funding from CPB, 
that indicate that stations can broadcast at least two high-quality 
signals, even while they continue to provide the analog signal. The 
development of second audio channels will potentially double the public 
service that public radio can provide, particularly in service to 
unserved and underserved communities. This initial funding still leaves 
nearly 400 radio transmitters that will ultimately need to convert to 
digital or be left behind.
    Federal funds distributed by the CPB should be available to all 
public radio stations eligible for Federal equipment support through 
the Public Telecommunications Facilities Program (PTFP) of the National 
Telecommunications and Information Agency of the Department of 
Commerce. In previous years, Federal support for public radio has been 
distributed through the PTFP grant program. The PTFP criteria for 
funding are exacting, but allow for wider participation among public 
stations. Stations eligible for PTFP funding and not for CPB funding 
include small-budget, rural and minority controlled stations and the 
new Low Power FM service.
    We appreciate Congress' direction to CPB that it utilize its 
digital conversion fund for both radio and television and ask that you 
ensure that the funds are used for both media. Congress stated, with 
regard to fiscal year 2000 digital conversion funds:

    ``The required (digital) conversion will impose enormous costs on 
both individual stations and the public broadcasting system as a whole. 
Because television and radio infrastructures are closely linked, the 
conversion of television to digital will create immediate costs not 
only for television, but also for public radio stations (emphasis 
added). Therefore, the Committee has included $15,000,000 to assist 
radio stations and television stations in the conversion to 
digitalization . . .'' (S. Rpt. 105-300)''

    Community Radio also supports funding for the public television 
interconnection system. Interconnection is vital to the delivery of the 
high quality programming that public broadcasting provides to the 
American people.
    This is a period of tremendous change. Digital is transforming the 
way we do things; new distribution avenues like digital satellite 
broadcasting and the Internet are changing how we define the business 
we are in; the concentration of ownership in commercial radio makes 
public radio in general, and Community Radio in particular, more 
important as a local voice than we have ever been. New Low Power FM 
stations are providing new local voices in their communities. Community 
radio is providing essential local emergency information, programming 
about the local impact of the major global events taking place, 
culturally appropriate information and entertainment in the language of 
the native culture, as well as helping to preserve cultures that are 
dying out. During the natural disasters of this last year, radio proved 
once again to be the most dependable, available medium to get emergency 
information to the public.
    During these challenging times, the role of CPB as a convener of 
the system becomes even more important. The funding that it provides 
will allow the smaller stations to participate along with the larger 
stations which have more resources, as we move into a new era of 
communications.
    Thank you for your consideration of our testimony.
                                 ______
                                 
         Prepared Statement of the National Minority Consortia

    The National Minority Consortia (NMC) submits this statement on the 
fiscal year 2009 appropriation for the Corporation for Public 
Broadcasting (CPB). The NMC is a coalition of five national 
organizations dedicated to bringing a significant amount of programming 
from our communities into the mainstream of public broadcasting and to 
other media. The role we fulfill in this regard is crucial to public 
broadcasting's mission. We are unique as organizations and as a 
coalition of organizations in the services we provide to our 
communities and to public broadcasting. In summary, we ask the 
Committee to:
  --Direct CPB to increase its efforts for diverse programming with 
        commensurate increases for minority programming and the 
        National Minority Consortia
  --Direct CPB to continue its support for the Native radio system
  --Recommend at least $430 million for CPB core funding for fiscal 
        year 2009, a $30 million increase over fiscal year 2008 and the 
        amount being requested by CPB
  --Reject the Administration's proposal to end advance funding for CPB
  --Reject the Administration's proposal to rescind $103 million of 
        already-appropriated fiscal years 2007 and 2008 CPB funds
                            report language
    We ask for Committee report language, as a follow-up to report 
language from last year, which recognizes the contribution of the NMC 
and directs that the CPB partnership with us be expanded. The report 
from last year stated:

    ``The Committee recognizes the importance of the partnership CPB 
has with the National Minority Public Broadcasting Consortia, which 
helps develop, acquire, and distribute public television programming to 
serve the needs of African American, Asian American, Latino, Native 
American, Pacific Islander, and many other viewers. As many communities 
in the Nation welcome increased numbers of citizens of diverse ethnic 
backgrounds, the local public television stations should strive to meet 
these viewers' needs. With an increased focus on programming to meet 
local community needs, the Committee encourages CPB to support and 
expand this critical partnership.'' (S. Rpt. 109-103, p. 298)

    We request that the above language be modified to direct CPB to 
increase its support of the NMC and that it also include a reference to 
radio.

                     FISCAL YEAR 2009 APPROPRIATION

    We support a fiscal year 2009 Federal appropriation for CPB of at 
least $430 million. This would be a reasonable, albeit modest, 
contribution toward our national treasure of public broadcasting. The 
quality gap between network television and public television has never 
been wider, and it continues to grow with each new ``reality'' show.
    Public broadcasting, including PBS, NPR, and Native Radio is 
particularly important for our Nation's growing minority and ethnic 
communities. While there is a niche in the commercial broadcast and 
cable world for quality programming about our communities and our 
concerns, it is in the public broadcasting industry where minority 
communities and producers are more able to bring quality programming 
for national audiences. Additionally, public television and radio is 
universally available.

                            ADVANCE FUNDING

    We strongly oppose the Administration's proposal that the advance 
funding for CPB be eliminated, a proposal that would stop CPB funding 
for two years. We appreciate that Congress has rejected this proposal 
each of the last five years. Reasons to continue advance funding for 
CPB include:
  --The development of production of programming for public 
        broadcasting usually takes several years and substantial lead 
        time is necessary for planning productions.
  --Public broadcasting programs are supported by multiple funding 
        sources, and two years advance knowledge of the amount of 
        Federal funding allows CPB to more effectively leverage its 
        Federal funds to bring in other sources of revenue.
  --The NMC administers a significant amount of CPB programming monies, 
        and elimination of advance funding would negatively affect our 
        organizations' planning, fundraising and producing work for 
        public television and radio.

             RESCISSION OF FISCAL YEAR 2007 AND 2008 FUNDS

    We are extremely concerned about the Administration's proposal to 
rescind $103 million of already appropriated fiscal year 2007 and 2008 
CPB funds ($53.5 million of fiscal year 2007 and $50 million of fiscal 
year 2008 funds). Such a rescission/diversion of funds would wreck 
havoc on our organizations and the independent producers that we help 
support as well as many radio and television stations.

                              NATIVE RADIO

    Native American Public Telecommunications--one of the five National 
Minority Consortia organizations--works with both the radio and 
television sides of public broadcasting. NAPT operates American Indian 
Radio on Satellite (AIROS) which distributes programming to Native-
owned and other radio stations. Koahnic Broadcasting Corporation, 
headquartered in Alaska, also produces and distributes Native American 
programming.
    Native-owned radio is the fastest growing area of community radio. 
There are currently 33 Native-owned stations, all but one of which is 
located in Indian country. We greatly appreciate CPB's central role in 
the establishment late last year of the Center for Native American 
Public Radio (CNAPR), an organization that will provide technical and 
other services to Native radio stations. CNAPR's mission also includes 
developing new sources of revenue for the Indian radio system and being 
an advocate for Native radio. CPB is providing $1.5 million over a 
three-year period for CNAPR.
    We ask that this Committee urge CPB to continue its support for 
Native radio.

                 ABOUT THE NATIONAL MINORITY CONSORTIA

    With primary funding from the Corporation for Public Broadcasting, 
the NMC serves as an important component of American public television. 
By training and mentoring the next generation of minority producers and 
program managers we are able to ensure the future strength of public 
television and radio television programming from our communities. 
Individually, each Consortia organization is engaged in cultivating 
ongoing relationships with the independent producer community by 
providing technical assistance, program funding, programming support 
and distribution. Often the funding we provide is the initial seed 
money for a project, thus allowing it to develop. We also provide 
numerous hours of programming to individual public television and radio 
stations, programming that is beyond the production reach of most local 
stations.
    While the Consortia organizations work on projects specific to 
their communities, the five organizations also work collaboratively. 
One example is our joint effort on the public television four-part 
series, Matters of Race that aired in the Fall of 2003. That series 
explored the complexity of our rapidly changing multiracial, 
multicultural society in America. The project resulted in more than 
television programming. The project was designed so that modules could 
be pulled out for classroom use. It was also formatted for radio 
broadcast and for the internet, and included extended interviews. This 
project provided a great opportunity for extensive and diverse 
community outreach and collaboration throughout its development, 
distribution, and use.
    We also worked with American Public Television on 6 one-hour 
programs (named Colorvision) featuring the work of Native American, 
Asian American, Pacific Islander, Latino and African American 
filmmakers and television producers. It is now in national distribution 
for all public television stations.
    Below is information about our individual organizations.
Center for Asian American Media
    The Center's mission is to present stories that convey the richness 
and diversity of the Asian American experience to the broadest possible 
audience. Over our 25-year history we have provided funding for more 
than 200 projects, many of which have gone on to win Academy, Emmy and 
Sundance awards, examples of which are Daughter from Danang, Of Civil 
Wrongs and Rights; The Fred Korematsu Story; and Maya Lin: A Strong 
Clear Vision. The Center reaches large audiences through the annual 
International Asian American Film Festival and distributes Asian 
Pacific American media to schools, colleges, and universities.

Latino Public Broadcasting
    LPB supports the development, production, acquisition and 
distribution of non-commercial educational and cultural television, 
representative of Latino people. The resulting programs, disseminated 
to public television and other public telecommunications entities, 
provide a voice to the diverse Latino community throughout the United 
States. Productions that have received LPB support include Mirror 
Dance; Visiones: Latino Art and Culture; Life and Time of Frida Kahlo; 
The Blue Diner; Farmingville; and The New Americans.

National Black Programming Consortium
    The mission of NBPC, founded in 1979, is to preserve and promote 
complex and dynamic stories of the African Diaspora through program 
development, outreach and audience development, and professional 
development. NPBC has provided hundreds of hours of programming to the 
national PBS schedule; provided seed money to hundreds of projects by 
African American and other producers, and served as a window for 
emerging producers to break into the national; public broadcasting 
system. Currently under production is a film on issues surrounding 
Hurricane Katrina. During Black History Month in 2005, over 30 hours of 
programming were fed to stations. Examples of NBPC-supported programs 
are Two Towns of Jasper; The Murder of Emmett Till; A Doula Story; and 
Daughters of the Dust.

Native American Public Telecommunications
    NAPT, founded in 1977, utilizes various media--public television, 
public radio, and the internet--to bring awareness of Indian and Alaska 
Native issues to the Nation. We market and distribute up to 10 hours 
per year on public television stations nationwide and fund 5 to 10 new 
Native productions annually. NAPT operates American Indian Radio on 
Satellite (AIROS) which distributes programming to the 33 Native-owned 
radio stations and other radio stations. Among the programming we offer 
is a national daily radio talk show, Native America Calling, on Native 
subjects, and we also cover live major Indian events. Between 2002 and 
2005, NAPT delivered or supported the delivery of 24 hours of 
programming to public television. We also funded 30 projects, 
represented by 54 producers. NAPT projects garnered 3 national awards 
and 15 film festival awards during this time period.

Pacific Islanders in Communications
    PIC delivers programs and training that bring new voice and 
visibility to Pacific Islands. A recent program which we helped bring 
into being is the award-wining Whale Rider, a story about a young Maori 
girl who confronts years of tribal tradition to fulfill her destiny as 
the leader of her people. When this program was aired on PBS, 107 
million households watched the film. In partnership with the Girl 
Scouts, we held free screenings of the film and developed a website 
about the Maori people. PIC offers a wide range of development 
opportunities for Pacific Island producers through travel grants, 
seminars and media training.

CPB Funds for the National Minority Consortia
    The National Minority Consortia currently receives funds from two 
portions of the CPB budget, organization support funds from the Systems 
Support and programming funds from the Television Programming sections. 
CPB financial support is critical to the work of our organizations. We 
believe that we make a major contribution to public broadcasting with a 
very modest amount of funding, but there is so much more that should be 
done.
    The organizational support funds we receive from CPB are used not 
only for operations requirements but for also for a broad array of 
programming support activities and for outreach to our communities. We 
received $1.8 million in fiscal year 2006 CPB funds for organizational 
support ($370,000 for each organization). This represents 0.45 percent 
of the fiscal year 2006 CPB appropriation. We have received only very 
small increases in operations support funds in the past several years.
    The programming funds we receive from CPB are re-granted to 
producers, used for purchase of broadcast rights and other related 
programming activities. Each organization solicits applications from 
our communities for these programming funds. We received $3.1 million 
in fiscal year 2006 CPB funds for programming ($636,363 for each 
organization). This represents 0.78 percent of the fiscal year 2006 CPB 
appropriation. Our CPB programming funds have remained virtually flat 
over the past nine years, despite increases in CPB appropriations.
    Thank you for your consideration of our recommendations. We see new 
opportunities to increase diversity in programming, production, 
audience, and employment in the new media environment, and we thank 
Congress for support of our work on behalf of our communities.
                                 ______
                                 
          Prepared Statement of the Railroad Retirement Board

    Mr. Chairman and Members of the Committee: We are pleased to 
present the following information to support the Railroad Retirement 
Board's (RRB) fiscal year 2007 budget request.
    The RRB administers comprehensive retirement/survivor and 
unemployment/sickness insurance benefit programs for railroad workers 
and their families under the Railroad Retirement and Railroad 
Unemployment Insurance Acts. The RRB also has administrative 
responsibilities under the Social Security Act for certain benefit 
payments and Medicare coverage for railroad workers. During fiscal year 
2005, the RRB paid nearly $9.2 billion in retirement/survivor benefits 
to about 634,000 beneficiaries, and $72.9 million in unemployment/
sickness insurance benefits to about 29,000 claimants.
    We are requesting $103,517,570 for agency operations in fiscal year 
2007, which is the same as the amount included in the President's 
proposed budget. We are also requesting a legislative change to permit 
the RRB to continue using the services of the Department of the 
Treasury for disbursement of retirement and survivor benefits. In 
addition, we are requesting that the appropriations language for the 
Dual Benefits Payments Account be revised to make it clear that a 
rescission does not preclude the availability of the 2 percent 
supplemental funding in that appropriation.

                         AGENCY ADMINISTRATION

    The President's proposed budget would provide $2 million more than 
the RRB's appropriation for fiscal year 2006. The increase is intended 
to provide for information technology improvements, which are needed to 
maintain the agency's service delivery systems. We estimate that under 
current legislation, the President's proposed budget would provide 
sufficient funding for a staffing level of 895 FTE's, which is 53 FTE's 
less than we expect to use in fiscal year 2006. In order to reach this 
level, we would need to conduct a reduction-in-force (RIF) of about 31 
employees at an estimated cost of $394,000. However, the RIF could be 
avoided if the RRB is not required to contract for the services of a 
nongovernmental disbursement agent in fiscal year 2007, as discussed in 
the following section.
    Administrative funding requested for fiscal year 2007 includes a 
total of $2.7 million for information technology investments, of which 
$1,557,000 would be used for a project begun in fiscal year 2005, to 
transition our mainframe non-relational database management system to a 
current technology relational database management system, DB2. The 
project, which directly correlates with our Enterprise Architecture 
Strategic Plan, will reduce the RRB's dependency on declining 
technologies, with their attendant risk of failure, and enable the 
agency to move ahead with further improvements to the benefit payment 
systems. In fiscal year 2007, we plan to use contractual support to 
optimize the performance of our databases and further reduce data 
redundancy in order to ensure acceptable response times and system 
availability.
    We are also moving forward to streamline the RRB's field service 
operations. In fiscal year 2005, we approved a high-level plan to 
restructure the field service into a hub and satellite configuration 
that will enhance the agency's ability to distribute work more 
efficiently among offices. In fiscal year 2006, we hired a consultant 
to assist in developing a 5-year plan that will include consolidation, 
co-location, and/or the establishment of virtual offices in the field 
service. The plan is to identify out-year savings while maintaining 
good customer service.

                   NONGOVERNMENTAL DISBURSEMENT AGENT

    Section 107(e) of the Railroad Retirement and Survivors' 
Improvement Act of 2001 (Public Law 107-90) provides for contracting 
with a nongovernmental agent for the disbursement of railroad 
retirement benefits. However, initial market research has indicated 
that the cost of doing so would be about three times the cost of having 
similar services provided by the Department of the Treasury. In 
addition, our Inspector General has questioned whether certain services 
provided by the Department of the Treasury, such as reclamations, would 
be provided as effectively by a nongovernmental disbursement agent.
    We have concluded that outsourcing this function would be 
inconsistent with the President's policy of outsourcing only where the 
government would reduce costs. For fiscal years 2005 and 2006, the 
Congress added language to our appropriations bill prohibiting this 
transfer: Section 516 of Public Law 109-149, the Departments of Labor, 
Health and Human Services, and Education, and Related Agencies 
Appropriations Act, 2006 provides that none of the funds appropriated 
under the Act are to be used to contract with a nongovernmental 
disbursement agent. The RRB also submitted separate legislation to the 
Congress on May 5, 2005, to address this issue.
    Our estimates indicate that the cost of contracting with a 
nongovernmental disbursement agent would be about $3 million for the 
first year and $2.3 million in subsequent years. By comparison, the 
annual cost of having these services provided by the Department of the 
Treasury is about $800,000. Enactment of legislation to remove this 
requirement would provide sufficient savings in fiscal year 2007 to 
enable the RRB to cover essential operating costs at the proposed 
budget level.

              VESTED DUAL BENEFITS PAYMENTS APPROPRIATION

    The President's proposed budget includes $88 million to fund the 
continuing phase-out of vested dual benefits, plus a 2 percent 
contingency reserve, $1,760,000, which ``shall be available 
proportional to the amount by which the product of recipients and the 
average benefit received exceeds $88,000,000.''
    The requested funding level of $88 million reflects the RRB Chief 
Actuary's current estimate of the amount needed to pay full benefits in 
fiscal year 2007. However, the estimate does not provide for the effect 
of a possible rescission, which could significantly reduce the total 
amount provided in the budget year. Because the Dual Benefits Payments 
Account is classified as discretionary rather than mandatory, 
appropriations to the account have been reduced in recent years by 
across-the-board rescissions enacted as part of the annual 
appropriations process. The reductions have created a risk that vested 
dual benefits payments would need to be reduced due to insufficient 
funding in the account.
    The Railroad Retirement Act provides that vested dual benefits 
payments in a fiscal year may not exceed the amount appropriated for 
that year. If the amount appropriated is not sufficient to fund full 
payments, individual vested dual benefits must be reduced on a pro rata 
basis. However, the current appropriations language is unclear as to 
whether the 2 percent contingency reserve would be available to cover a 
shortfall due to a rescission. We request that the appropriations 
language be revised to clarify that the contingency reserve may be used 
if needed to prevent a reduction of current-year benefits for any 
reason.
    In addition to the requests noted above, the President's proposed 
budget includes $150,000 for interest related to uncashed railroad 
retirement checks.

                  FINANCIAL STATUS OF THE TRUST FUNDS

    Railroad Retirement Accounts.--The RRB continues to coordinate its 
activities with the National Railroad Retirement Investment Trust 
(NRRIT), which was established by the Railroad Retirement and 
Survivors' Improvement Act of 2001 to manage and invest railroad 
retirement assets. Through fiscal year 2005, the RRB transferred a 
total of $21.276 billion to the NRRIT for this purpose. During the same 
period, the NRRIT transferred $2.673 billion to the Railroad Retirement 
Account for payment of retirement and survivor benefits. As of 
September 30, 2005, the market value of NRRIT-managed railroad 
retirement assets was approximately $27.7 billion.
    In June 2005, we released the annual report on the railroad 
retirement system required by Section 22 of the Railroad Retirement Act 
of 1974, and Section 502 of the Railroad Retirement Solvency Act of 
1983. The report, which reflects changes in benefit and financing 
provisions under the Railroad Retirement and Survivors' Improvement Act 
of 2001, addresses the 25-year period 2005-2029 and contains generally 
favorable information concerning railroad retirement financing. The 
report includes projections of the status of the retirement trust funds 
under three employment assumptions. These indicate no cash flow 
problems throughout the projection period. The findings represent an 
improvement over last year's report and reflect continued favorable 
employment experience in the railroad industry.
    Railroad Unemployment Insurance Account--The equity balance of the 
Railroad Unemployment Insurance Account at the end of fiscal year 2005 
was $94.2 million, an increase of $14.3 million from the previous year. 
The RRB's latest annual report on the financial status of the railroad 
unemployment insurance system was issued in June 2005. The report 
indicated that even as maximum daily benefit rates rise 39 percent 
(from $56 to $78) from 2004 to 2015, experience-based contribution 
rates maintain solvency, with the exception of small, short-term cash 
flow problems in 2007 and 2008. Projections show quick repayment of the 
loans, even under our most pessimistic assumption. The average employer 
contribution rate remains well below the maximum throughout the 
projection period, but a 1.5 percent surcharge is now in effect and is 
expected for calendar year 2007. We did not recommend any financing 
changes based on this report.
    In conclusion, we want to stress the RRB's continuing commitment to 
improving our operations and providing quality service to our 
beneficiaries. Thank you for your consideration of our budget request. 
We will be happy to provide further information in response to any 
questions you may have.
                                 ______
                                 
          Prepared Statement of the Railroad Retirement Board

    Mr. Chairman and members of the subcommittee: My name is Martin J. 
Dickman, Inspector General of the Railroad Retirement Board (RRB). I 
would like to thank you, Mr. Chairman, and the members of the committee 
for your continued support for the Office of Inspector General. I wish 
to describe our fiscal year 2007 appropriations request and our planned 
activities.
    The Office of Inspector General requests funding of $7,606,000 to 
ensure the continuation of its independent oversight of the RRB. The 
agency is responsible for managing benefit programs which paid $9.2 
billion in retirement and survivor benefits to approximately 634,000 
beneficiaries in fiscal year 2005 and an additional $73 million in net 
railroad unemployment and sickness insurance benefits to 29,000 
claimants. The RRB also administers Medicare Part B, the physician 
services aspect of the Medicare program, for qualified railroad 
retirement beneficiaries. Through this program, approximately $870 
million in annual Medicare benefits are paid to approximately 535,000 
beneficiaries.
    In fiscal year 2007, the Office of Inspector General will continue 
to concentrate its efforts on the performance of reviews of significant 
policy issues and program operational areas. We will coordinate our 
efforts with agency management to identify and eliminate operational 
weaknesses. We will also continue our investigation of allegations of 
fraud, waste and abuse, and refer cases for prosecution and monetary 
recovery action.
    We also request the removal of the prohibition on the use of 
appropriated funds for any audit, investigation or review of the 
Railroad Medicare program. The RRB manages a nationwide contract for 
processing Medicare Part B claims for railroad beneficiaries. The 
agency is responsible for the enrollment of beneficiaries, premium 
collection, answering beneficiary inquiries and conducting the annual 
Carrier Performance Evaluation for the Medicare carrier.
    The prohibition does not permit this office to fulfill its 
statutory oversight responsibilities for a major agency program. 
Removal of the prohibition would benefit both the Railroad Retirement 
Board and its constituents, and would be consistent with the priorities 
established by the Administration and the Congress to reduce fraud in 
one of the largest Federal programs.
    We also request oversight authority to conduct audits and 
investigations of the National Railroad Retirement Investment Trust 
(NRRIT), the body responsible for the investment of approximately $29 
billion in trust funds used to support Railroad Retirement Act benefit 
programs. This office would ensure sufficient reporting mechanisms are 
in place and that the NRRIT members are fulfilling their fiduciary 
responsibilities. We have repeatedly expressed concerns about RRB 
management's passive relationship with the NRRIT, and identified the 
issue as a serious challenge for the RRB.
    We are currently required to reimburse the agency for office space, 
equipment, communications, office supplies, maintenance and other 
administrative services. We are the only Federal OIG that cannot 
negotiate a service level agreement with its parent agency, and, 
therefore, request that the current appropriation language be amended 
accordingly.

                            OFFICE OF AUDIT

    Auditors will perform the audit of the RRB's 2006 financial 
statements and preliminary work for the 2007 financial statements to 
ensure the issuance of reliable financial information. The OIG will 
obtain contractor actuarial services to audit the statement of social 
insurance.
    Audit staff will work with agency management to ensure detailed and 
verifiable financial information is available from the National 
Railroad Retirement Investment Trust (NRRIT). As discussed above, we 
believe RRB management should take a more active interest in NRRIT 
activities.
    Auditors will conduct the annual evaluation of the RRB's 
information systems security to meet the requirements of the Federal 
Information Security Management Act of 2002. They will also monitor the 
agency's information systems operations to determine if the agency is 
meeting the goals established in its Strategic Information Resources 
Management Plan and to ensure the agency is in compliance with the 
provisions of the Information Technology Management Reform Act.
    Auditors will continue to monitor agency actions to address 
security deficiencies and complete corrective actions. They will ensure 
that network and system security safeguards are in place to protect the 
confidentiality of sensitive financial and personal information. 
Auditors will also perform assessments of the agency's e-government 
initiatives to identify and eliminate system vulnerabilities, and to 
ensure compliance with the E-Government Act of 2002. We will continue 
our monitoring efforts of the RRB's document imaging activities and the 
expansion of paperless processing to ensure the integrity of records.
    Auditors will continue to review RRB benefit processes and 
procedures to identify ways to reduce administrative and adjudicative 
errors. They will offer recommendations to strengthen the agency's debt 
collection program to reduce the outstanding receivables.

                        OFFICE OF INVESTIGATIONS

    The Office of Investigations (OI) identifies, investigates and 
presents cases for prosecution, throughout the United States, 
concerning fraud in RRB benefit programs. In fiscal year 2007, OI will 
continue to focus its resources on the investigation of cases with the 
highest fraud losses. OI currently has approximately 500 active 
investigations involving fraudulent benefit payments and fraudulent 
reporting with fraud losses of approximately $11.8 million. These cases 
involve all RRB programs that provide sickness and unemployment 
insurance benefits to injured or unemployed workers, retirement 
benefits, and disability benefits for workers who are disabled.
    We will coordinate our efforts with agency program managers to 
address weaknesses in agency programs that allow fraudulent activity to 
occur, and will recommend changes to ensure program integrity.
    We will concentrate resources on cases with the highest fraud 
losses, those related to the RRB's retirement and disability programs. 
OI will dedicate considerable time to the investigation of nationwide 
schemes to defraud the RRB disability program. Disability cases 
currently constitute about 44 percent of our investigative caseload. 
These cases involve more complicated schemes and result in the recovery 
of substantial funds for the agency's trust funds.
    In fiscal year 2007, we will continue to use the Department of 
Justice Affirmative Civil Enforcement (ACE) program for those cases 
which do not meet the criminal guidelines of U.S. Attorneys. Through 
this program, we are able to obtain civil judgements and recover trust 
fund monies for the RRB.

                                SUMMARY

    In fiscal year 2007, the Office of Inspector General will continue 
to focus resources on the reviewing RRB program operations and ensuring 
the integrity of agency trust funds. We will also continue to 
aggressively pursue individuals who engage in activities to 
fraudulently obtain RRB funds.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2007 appropriations. The Nature Conservancy is an 
international, nonprofit organization dedicated to the conservation of 
biological diversity. Our mission is to preserve the plants, animals 
and natural communities that represent the diversity of life on Earth 
by protecting the lands and waters they need to survive. Our on-the-
ground conservation work is carried out in all 50 States and in 27 
foreign countries and is supported by approximately one million 
individual members. We have helped conserve nearly 15 million acres of 
land in the United States and Canada and more than 102 million acres 
with local partner organizations globally.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses, and 
especially in the developing world, to address sustained human well-
being.
    The focus of my testimony is on the Americorps National Civilian 
Conservation Corps (NCCC) program, which has made a tremendous 
contribution, as well as provided cost savings, to conservation and 
public recreation in the United States. The President's fiscal year 
2007 Budget proposes to cut funding for the program from $26.7 million 
to $4.9 million, with the intention of eliminating the program 
completely. The Nature Conservancy urges the Committee to retain 
funding for the NCCC program at its current levels.
    NCCC has been known in recent months for the critical support its 
participants provided to disaster relief efforts after Hurricane 
Katrina. We applaud those efforts. We also want to highlight the 
important conservation work that NCCC participants have engaged in over 
the past years. Many Federal, State, and local government agencies, as 
well as non-profit conservation organizations, use the NCCC program to 
implement Federal programs and to achieve significant public benefits 
at low cost. At the Conservancy, we have employed NCCC participants to 
do the following:
  --Provide outdoor recreational opportunities and health benefits for 
        Americans across the country;
  --Use prescribed fire to reduce hazards to communities and restore 
        ecosystems;
  --Control invasive species; and
  --Train the next generation of natural resource managers.
    The program has saved our organization millions of dollars in 
recent years, and has provided work that would otherwise take years to 
accomplish, or simply would not get done at all. Below are some 
examples of specific results that NCCC has achieved.
providing americans with recreational opportunities and health benefits
    As the country's appetite for outdoor recreation grows--and issues 
like childhood obesity demonstrate the importance of increased outdoor 
activity--there is a growing need to provide safe, beautiful places for 
Americans to use and experience. The Nature Conservancy and our 
partners help provide these opportunities through a system of preserves 
and parks. Our efforts are significantly augmented by NCCC 
participants. The NCCC has built and maintained trails and boardwalks, 
restored campsites, repaired interpretive signs, provided wildlife 
protection, planted trees and developed archaeological dig sites. These 
activities provide the public with greater access to the outdoors, at 
low cost, and enhance the outdoors experience.
     using prescribed fire to reduce hazards and restore ecosystems
    As reflected in recent legislative actions, including passage of 
the Healthy Forests Restoration Act of 2004, reduction of hazardous 
fuels on the Nation's forested lands is one of the country's greatest 
land management challenges. President Bush has emphasized the need to 
reduce fire hazards to communities, and restore ecosystems, through 
prescribed burning and other management techniques. Each year, the U.S. 
Forest Service and the Department of the Interior set acreage goals for 
burning and related treatments. The Nature Conservancy provides 
training and personnel to assist in meeting these goals.
    In recent years, NCCC participants have comprised a new cadre of 
fire managers, bringing skills and knowledge to individual projects, 
and assisting government agencies and non-profit land managers alike. 
The Nature Conservancy has used NCCC participants in at least eleven 
States to assist in burning tens of thousands of acres at a cost 
savings of several hundred thousand dollars. We also work with NCCC to 
burn on military bases, U.S. Forest Service lands, State parks and 
natural areas, and other public lands.
    On some projects, fire management results in restoration efforts 
that ease the burden on private landowners and Federal land managers in 
complying with the Endangered Species Act. For example, in Virginia, 
NCCC-assisted burns have restored habitat and supported the recovery of 
an endangered species, the red-cockaded woodpecker. Finally, NCCC 
participants assist land managers and public agencies in measuring 
performance and evaluating the success of fuels treatment efforts.

                REDUCING THE THREAT OF INVASIVE SPECIES

    Invasive species--primarily weeds and insects--are one of the 
principal threats to our natural resources across the United States; 
they have damaged many natural landscapes as well as reduced the value 
of working lands. NCCC participants have assisted in abating impacts of 
invasive species at many locations. Their activities have included 
controlling invasive plants that are destroying valuable salt marshes 
and fens in New York; restoring natural tallgrass prairie by removing 
invasive trees in Minnesota; and preserving riparian and old growth 
forest habitat in Oregon.
    Along with actual removal of invasive species, NCCC participants 
have worked to educate the public on threats of invasive species and 
measures to control them.

         BUILDING A NEW GENERATION OF NATURAL RESOURCE MANAGERS

    As the country's population grows and threats to the environment 
increase, we face constant challenges to the conservation of our 
natural heritage. We will not be able to meet those challenges unless 
we encourage young people to pursue conservation careers and we provide 
them with the necessary training. The NCCC program has succeeded in 
doing this. Our experience is that NCCC participants are organized, 
well-trained and enthusiastic, and that they care deeply about 
conservation--in part because they understand the benefits to 
communities and to people that conservation provides.
    In particular, because of the job training focus of NCCC, its 
participants make up a substantial portion of the country's future fire 
managers--a group of professionals we cannot afford to lose, given the 
hazards that wildfire poses to our communities. A significant portion 
of the Federal fire workforce will retire in the next five years, and 
the NCCC program plays a critical role in replenishing that workforce.
    NCCC makes an important contribution to Americans' access to and 
enjoyment of the outdoors, as well as to conservation of our natural 
heritage. We urge the Committee to provide funding at current services 
levels for this important program.
    Thank you again for the opportunity to testify. If you have 
questions, please contact Louise Milkman at 703-247-3675.
                                 ______
                                 
         Prepared Statement of the Voices for National Service

    Mr. Chairman and members of the subcommittee: We are writing as 
members of Voices for National Service to urge you to reject funding 
cuts to AmeriCorps, Learn and Serve America, and the National Civilian 
Community Corps (NCCC) included in the Administration's fiscal year 
2007 budget.
    Voices for National Service is a coalition of more than 160 
community-based organizations, faith-based groups, governor-appointed 
State commissions, private sector partners, institutions of higher 
education, and others dedicated to expanding opportunities for 
Americans to serve community and country.
    Our message to the Labor-HHS Subcommittee is quite simple: 
AmeriCorps, Learn and Serve America, and the NCCC are cost-effective 
programs that meet critical community needs, and funding for these 
programs should be sustained and increased. While we recognize the 
fiscal constraints that lawmakers must operate under, now is not the 
time to cut funding for national service. We urge you to fund these 
programs at their fiscal year 2004 enacted levels:
  --$441 million for AmeriCorps;
  --$43 million for Learn and Serve America; and
  --$26 million for the NCCC.
    We would like to note the following areas of concern and 
consideration as they relate to the appropriation for these programs:
  --We are concerned that the Administration's budget proposes to cut 
        funding for the NCCC to $5 million in fiscal year 2007, and to 
        eliminate the program by 2008. As numerous first-hand accounts 
        by Gulf Coast residents, newspaper stories and op-eds have 
        attested in the past weeks, the NCCC responded to the crisis in 
        the Gulf Coast heroically, deploying 1,600 members to the 
        region who have provided critically needed services and 
        support. This is not the time to eliminate a program with a 
        proven track record in strengthening America's disaster 
        preparedness and relief capacity.
  --While we are eager for NCCC's funding to be reinstated, we hope 
        that you will not preserve this program at the expense of other 
        critical programs like AmeriCorps State and National and Learn 
        and Serve America. Like the NCCC, these programs have had a 
        profound impact in the Gulf Coast and in the communities they 
        serve. Americans want to serve. We should be expanding their 
        opportunities, not eliminating them.
  --We are concerned that despite strong bipartisan support, the 
        proposed budget would result in a 17 percent reduction in 
        AmeriCorps State and National funding since fiscal year 2004. 
        AmeriCorps is a critically needed program that provides 
        opportunities for 70,000 Americans to serve each year, and its 
        funding should be sustained or increased, not cut.
  --We are concerned that the proposed funding cut to Learn and Serve 
        America would have serious negative consequences for both the 
        1.5 million students who participate in this program and the 
        communities they serve. Compared to its fiscal year 2004 
        funding level of $43 million, the proposed cut to $34.2 million 
        would mean:
      --300,000 fewer students serving their communities through Learn 
            and Serve America;
      --A loss of $34 million in leveraged private and community 
            resources; and
      --A decline of 7.3 million service hours to communities.
    We are concerned that the Corporation for National and Community 
Service's plan to continue to recruit 75,000 AmeriCorps members in 
spite of the program's proposed cuts will be detrimental to programs 
running full-time, stipended corps. The proposed cuts include a $300 
reduction in the average Federal contribution per full-time corps 
member. AmeriCorps programs have been required to absorb an increasing 
percentage of their program operating costs. As fixed and mandated 
costs grow, annual reductions in operating support are destabilizing 
the AmeriCorps field. Efforts to do more with less threaten AmeriCorps' 
historic mix of full-time and part-time, stipended and non-stipended 
corps.

        ABOUT AMERICORPS, LEARN AND SERVE AMERICA, AND THE NCCC

    AmeriCorps State and National is a network of local, State, and 
national service programs that connect at least 70,000 Americans each 
year in intensive service to meet our country's needs in education, 
public safety, health, and the environment.
    Learn and Serve America provides State formula and competitive 
grants to support service-learning in K-12 schools, colleges and 
universities, and non-profit organizations. Service-learning integrates 
community service with academic study to enrich learning, teach civic 
responsibility, and strengthen communities. At an average cost of only 
$28 per participant, Learn and Serve America leverages private and 
community resources to yield $4 in services to the community for each 
$1 invested by the government. The program also fosters collaboration 
between educational institutions and civic, faith-based, and community 
groups to engage youth in meaningful service to address local needs, 
help young people answer President Bush's Call to Service, and assist 
in meeting the Corporation's strategic goal of having quality service-
learning in half of all K-12 schools by 2010.
    The AmeriCorps NCCC is a full-time residential program for men and 
women ages 18-24 that strengthens communities while developing leaders 
through direct, team-based national and community service. The NCCC is 
a trained force that can be immediately deployed. Four trained NCCC 
teams were pulled from other assignments and sent to support shelters 
in Mississippi and Alabama one day after Hurricane Katrina hit.

  THE ROLE OF NATIONAL SERVICE IN MEETING CRITICAL NEEDS IN THE GULF 
                                 COAST

    The Administration's budget provides the NCCC with a modest $5 
million appropriation to graduate its final class of corps members and 
permanently close the program's five regional campuses. The budget also 
proposes to cut funding for AmeriCorps State and National, reducing 
funding levels by 17 percent since fiscal year 2004. And yet as we 
write, thousands of AmeriCorps and NCCC members are on the front lines 
in the Nation's response to the greatest natural disaster in U.S. 
history, serving our Nation in the Gulf Coast.
    To date, more than 13,000 national service members have contributed 
to hurricane relief efforts in the Gulf and around the country. NCCC 
members were among the first on the scene, and to date, 1,600 NCCC 
members have served on more than 100 separate disaster service projects 
in the Gulf Coast region, providing humanitarian aid and physical 
service, as well as managing the thousands of outside volunteers who 
want to help. This program embodies the important role that citizens 
must play in partnering with government to respond to community crises 
and national disasters.
    According to Malcolm Jones, City Attorney of Pass Christian, 
Mississippi who worked closely with a team of NCCC members to provide 
services to town residents, ``Our town, on the Gulf Coast of 
Mississippi, 7,000 people, we got the hardest part of [the storm]. When 
I came back after evacuating for Katrina. . . . I found out that 
AmeriCorps [is] a very powerful, powerful thing. [W]hen we lost hope, 
[AmeriCorps] came.''
    Because of AmeriCorps, young people from around the country are 
putting their talents to work in the Gulf Coast region by doing 
everything from clearing debris and repairing roofs in Mississippi, to 
preventing further damage to historic buildings in New Orleans, to 
managing a supply warehouse in Louisiana, and serving displaced 
residents aboard ships in Alabama. We would like to share a few of 
their stories with you as examples of the critical services that 
AmeriCorps and NCCC members are providing:
    Kenye Quiroga was sent to Louisiana one week after joining 
AmeriCorps. He writes that, ``While in D'Iberville we stayed on pallets 
in an old community center with only half a roof. The living definitely 
wasn't easy, but I had the opportunity to get to know some great 
people. By the end of our mission in D'Iberville, my team had assessed 
every household in the town and brought food, water, and medication to 
families who needed emergency supplies.''
    According to Kimberly Walker of Jackson, Mississippi, ``In the 
aftermath of the Hurricane, Mississippi Primary Health Care Association 
served as one of the many distribution points to assist Hurricane 
victims with basic supplies. Our team . . . carried supplies to a 
larger designated distribution site and was able to meet and talk first 
hand to some of the victims. . . . We assisted in directing them to 
other services available to them.''
    Carrie Ann Smith from the West Seneca, New York AmeriCorps program 
was deployed to Slidell, Louisiana. She writes, ``I felt like I was 
entering a war zone. I felt the pain and frustration that still loomed 
in the air, but most of all I felt the need to help, to serve, and to 
make a difference. That's what AmeriCorps does and I am proud to be a 
member of such a noble and upstanding organization. But even more so, I 
am proud to be an American who was given the opportunity to help my 
fellow Americans in a time of tragedy and such utter devastation. I 
would not have had that opportunity if not for AmeriCorps.''
    These young people, and thousands like them, served and continue to 
serve with great distinction, bringing hope and relief to fellow 
citizens, and learning the value of civic engagement and giving to 
communities in need. The national service response, however, has not 
been limited to the on-the-ground effort in the Gulf. In communities 
across the country, national service programs are joining with local, 
State and Federal agencies and nonprofit organizations to provide long-
term relief to those uprooted and displaced by the storms. For example, 
tens of thousands of students supported by Learn and Serve America are 
collecting school supplies, raising funds and preparing disaster relief 
kits.

            NATIONAL SERVICE ACCOMPLISHMENTS ACROSS AMERICA

    In addition to responding to needs in the Gulf Coast region, 
AmeriCorps members are also serving in thousands of communities across 
the United States. Every day, 70,000 AmeriCorps members add value to 
school curricula by tutoring and mentoring, operating after-school 
programs, expanding the reach of community health centers, teaching in 
underserved public and parochial schools, and improving our 
environment.
    Below are just a few examples of the many community needs that 
AmeriCorps members met in 2004-2005:
  --In Florida, members recruited 2,000 community volunteers to provide 
        education services, maintained and expanded 200 acres of 
        habitat for threatened and endangered species, and built 40 
        homes for low-income families.
  --In Kentucky, members educated more than 1,000 at-risk elderly about 
        home safety and conducted 265 Home Safety Assessments for 
        seniors.
  --In Maryland, members removed 453 tons of trash, improving the 
        quality of storm water run-off into the Chesapeake Bay and 
        1,900 homeless families received food, clothing, or furniture.
  --In Mississippi, members conducted life skills trainings with 715 
        people with disabilities, helped train mentally and 
        developmentally disabled adults for employment, and mentored 
        1,100 low income and underachieving middle school students.
  --In New York, members transported 1,000 children to medical 
        appointments, delivered meals and snacks to about 58,000 
        children and seniors, and provided literacy activities to 
        almost 17,000 children.
  --In Ohio, members trained more than 9,000 youth in conflict 
        resolution, built repaired, or rehabilitated 364 housing units, 
        and provided educational support services to 1,500 students 
        during the summer months.
  --In Pennsylvania, members tutored almost 14,600 elementary and high 
        school students and more than 6,800 citizens received either 
        needs assessment or support in the areas of domestic violence, 
        foster care, mental health, and housing for homeless veterans.

                  IMPACT OF NATIONAL SERVICE PROGRAMS

    In the last decade, more than 500,000 young Americans dedicated 
themselves to either full or part-time service through AmeriCorps to 
improve their communities and their country. Through dedicated service 
to our Nation, AmeriCorps members have earned Education Awards worth 
more than $1.5 billion that have helped them afford higher education or 
career training.
    Evaluations prove that AmeriCorps works. Recent studies by the 
Center for Leadership and Public Service at Harvard University and 
Bridgestar indicate that the United States is facing a significant 
leadership gap in the next decade. Given the need for an emerging group 
of young leaders to fill leadership positions in the social, private, 
and public sectors, the results of AmeriCorps programs in terms of 
building civic skills and a commitment to public service are striking. 
To cite but a few examples of some of the positive results of recent 
program evaluations:
  --A rigorous multi-site control group evaluation by Abt Associates 
        and Brandeis University reported significant employment and 
        earnings gains by young people who join service or conservation 
        corps.
  --A study of Teach for America (TFA) by Mathematica Research Group 
        found that ``it supplies low-income schools with academically 
        talented teachers who contribute to the academic achievement of 
        their students. TFA teachers . . . produce higher student test 
        scores than the other teachers in their schools.''
  --An evaluation of City Year alumni by Policy Studies Associates 
        showed that more than three-quarters of alumni reported an 
        increased commitment to public responsibility and greater 
        knowledge and skills that improved their ability to address and 
        solve community problems.
    Learn and Serve America has tremendous impact and support. 
According to a 2004 study by RMC Research, ``Service-learning, when 
implemented with high quality, yields statistically significant impacts 
on students' academic achievement, civic engagement, acquisition of 
leadership skills, and personal/social development.'' Evaluations also 
indicate that the program correlates with a reduction in the number of 
behavioral problems, and reduced sexual activity and pregnancy among 
students.

                      THE FISCAL YEAR 2007 REQUEST

    We understand the funding constraints of the current appropriations 
process, and appreciate your leadership in seeking to provide support 
to the many programs that are meeting community needs across the Nation 
in a challenging fiscal environment.
    Given the track record of AmeriCorps, Learn and Serve America, and 
the NCCC in serving children, families, and communities and in 
responding effectively and efficiently to the recent disasters in the 
Gulf Coast region, we urge you to reject the funding cuts to these 
programs in the administration's fiscal year 2007 budget request and to 
fund these programs at their fiscal year 2004 levels. These programs 
have proven to be worthy of your investment.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
